<html>
<title> - INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2021</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





 
                    INTERIOR, ENVIRONMENT, AND RELATED
                     AGENCIES APPROPRIATIONS FOR 2021

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SIXTEENTH CONGRESS

                              SECOND SESSION

                   ___________________________________

       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES

                     BETTY McCOLLUM, Minnesota, Chair

  CHELLIE PINGREE, Maine			DAVID P. JOYCE, Ohio
  DEREK KILMER, Washington			MICHAEL K. SIMPSON, Idaho
  JOSE E. SERRANO, New York			CHRIS STEWART, Utah
  MIKE QUIGLEY, Illinois			MARK E. AMODEI, Nevada
  BONNIE WATSON COLEMAN, New Jersey
  BRENDA L. LAWRENCE, Michigan

    NOTE: Under committee rules, Mrs. Lowey, as chairwoman of the full 
    committee, and Ms. Granger, as ranking minority member of the full 
    committee, are authorized to sit as members of all subcommittees.

         Rita Culp, Donna Shahbaz, Jocelyn Hunn, Peter Kiefhaber,
              Kusai Merchant, Janet Erickson, and Tyler Coe
                            Subcommittee Staff

                   ___________________________________

                                  PART 7

          Testimony of Interested Individuals and Organizations

                                                                   Page
Americans for the Arts, February 6, 
  2020....................................                            1

Nez Perce Tribal Executive Committee,
  February 11, 2020.......................                          281

American Indian and Alaska Native 
  Public Witness Day 2, February 12, 2020.                          527

Members' Day Hearing, March 10, 2020..                              779



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                   ___________________________________


          Printed for the use of the Committee on Appropriations



                    U.S. GOVERNMENT PUBLISHING OFFICE

  43-677                   WASHINGTON : 2021







                      COMMITTEE ON APPROPRIATIONS

                              ----------                              

                  NITA M. LOWEY, New York, Chairwoman


  MARCY KAPTUR, Ohio			KAY GRANGER, Texas
  PETER J. VISCLOSKY, Indiana		HAROLD ROGERS, Kentucky
  JOSE E. SERRANO, New York		ROBERT B. ADERHOLT, Alabama
  ROSA L. DeLAURO, Connecticut		MICHAEL K. SIMPSON, Idaho
  DAVID E. PRICE, North Carolina	JOHN R. CARTER, Texas
  LUCILLE ROYBAL-ALLARD, California	KEN CALVERT, California
  SANFORD D. BISHOP, Jr., Georgia	TOM COLE, Oklahoma
  BARBARA LEE, California		MARIO DIAZ-BALART, Florida
  BETTY McCOLLUM, Minnesota		TOM GRAVES, Georgia
  TIM RYAN, Ohio			STEVE WOMACK, Arkansas
  C. A. DUTCH RUPPERSBERGER, Maryland	JEFF FORTENBERRY, Nebraska
  DEBBIE WASSERMAN SCHULTZ, Florida	CHUCK FLEISCHMANN, Tennessee
  HENRY CUELLAR, Texas			JAIME HERRERA BEUTLER, Washington
  CHELLIE PINGREE, Maine		DAVID P. JOYCE, Ohio
  MIKE QUIGLEY, Illinois		ANDY HARRIS, Maryland
  DEREK KILMER, Washington		MARTHA ROBY, Alabama
  MATT CARTWRIGHT, Pennsylvania		MARK E. AMODEI, Nevada
  GRACE MENG, New York			CHRIS STEWART, Utah
  MARK POCAN, Wisconsin			STEVEN M. PALAZZO, Mississippi
  KATHERINE M. CLARK, Massachusetts	DAN NEWHOUSE, Washington
  PETE AGUILAR, California		JOHN R. MOOLENAAR, Michigan
  LOIS FRANKEL, Florida			JOHN H. RUTHERFORD, Florida
  CHERI BUSTOS, Illinois		WILL HURD, Texas
  BONNIE WATSON COLEMAN, New Jersey
  BRENDA L. LAWRENCE, Michigan
  NORMA J. TORRES, California
  CHARLIE CRIST, Florida
  ANN KIRKPATRICK, Arizona
  ED CASE, Hawaii

  
 
  
  
  

                 Shalanda Young, Clerk and Staff Director

                                   (ii)


     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2021

                              ----------  


                                       Thursday, February 6, 2020.

         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              ----------


                         AMERICANS FOR THE ARTS

                                WITNESS

BEN FOLDS, AMERICANS FOR THE ARTS
    Ms. McCollum [presiding]. Good morning. Welcome to the 
first day of two public witness hearing being held here for 
non-tribal government programs under the jurisdiction of the 
Interior, Environment Appropriations Subcommittee. And I am 
pleased to be joined by the former chair of this committee, 
still a great member, Congressman Michael Simpson of Idaho, as 
well as our vice chair, Congresswoman Chellie Pingree of Maine.
    Now, you might have noticed there was a little commotion 
before I put down the gavel. We were out in the hall really 
quick. So I would like you all to give a warm welcome to a 
visiting delegation of the Parliament of Georgia. We appreciate 
your interest in our legislative process, and we hope you find 
our hearing instructive because it is very important to this 
committee that we support our public lands, our arts, and 
things that make America so very special. Yes, please.
    [Applause.]
    Everybody was being so, so quiet and so polite. I didn't 
want to put anybody on the spot, but thank you for welcoming 
our guests.
    Last year when I became chair of this subcommittee, I 
brought back the important tradition of public witness days for 
non-tribal programs, and I am pleased today that for this 
hearing, more than 40 witnesses composed of a diverse range of 
partners, including public nonprofit organizations, State and 
local governments, will have an opportunity to testify before 
this subcommittee. Today we will hear about numerous topics 
related to the jurisdiction of this subcommittee, including the 
arts and the humanities, environment, public lands, and 
wildlife. I am eager to learn more about each of your 
priorities, and I look forward to our discussions that we have 
on these issues because I believe it will help all of us on 
this committee be more informed while we begin to develop the 
2021 appropriations bill.
    Before I turn to Mr. Simpson, I would like to cover a few 
hearing logistics, however. We will call each panel of 
witnesses to the table one at a time, and, as you can see, our 
first panel, gold stars, right here. Each witness will have 5 
minutes to present their testimony, and we will be using a time 
tracker to track the time. As I pointed out, we have 40 
witnesses, so we want to be respectful of everybody's time. So 
when the light turns yellow, you have 1 minute remaining, and 
we would like you to please conclude your remarks. When the 
light blinks red, I will lightly gavel. [Laughter.]
    It is a light gavel. It is not a heavy one, and ask you to 
please conclude your remarks so the next witness can begin.
    Now, each witness needs to know we have their written 
statements, and I have been reading through them, so everything 
will be in the record. So don't feel pressure or rushed to get 
everything covered orally in your 5 minutes. After we hear the 
testimony of each witness on the panel, members will have an 
opportunity to ask questions, so get ready. We ask really good 
questions.
    And I would like to remind those who are joining us in the 
hearing room that the committee rules prohibit the use of 
cameras and audio equipment during the hearing by individuals 
without House-issued press credentials. After this morning's 
hearing concludes, we will adjourn and reconvene at 1:00 this 
afternoon for the hearing.
    So at this time, I am honored and very happy to yield to my 
dear friend, my dear friend, Mr. Simpson from Idaho.
    Mr. Simpson. Thank you, Madam Chair, and thank you for 
calling this important hearing to get input from the public on 
a wide array of programs under this subcommittee's 
jurisdiction. Mr. Joyce and I, along with other members of the 
subcommittee, look forward to working with you in the days and 
weeks ahead to do what we can to evaluate the effectiveness of 
these programs and to make the difficult, but necessary, 
choices among competing priorities.
    Like the chair, I would like to take a minute to extend a 
warm welcome to all of our witnesses and to the delegation from 
the Parliament of Georgia, who are sitting in the audience. 
Since we have a full day ahead of us, I am happy to yield back, 
and I look forward to the testimony.
    Ms. McCollum. Thank you. There will be a portion of the 
testimony where I will have to step out and attend another 
hearing, but the vice chair, who has many other arts titles 
here at the U.S. Congress, will be ably ready to assist in 
taking remaining testimony.
    So with that, we have our first panel: Mr. Ben Folds, Ms. 
Pam Breaux, Ms. Beth Kane, and Stephanie----
    Ms. Eriacho. Eriacho.
    Ms. McCollum [continuing]. Eriacho. Beautiful name. In the 
interest of time, I am just going to let you introduce your 
arts organizations so we have more time for questions. Mr. 
Folds?
    Mr. Folds. Chair McCollum, Ranking Member Joyce, thank you 
for the opportunity to testify on behalf of Americans for the 
Arts and the NEA, something that is very important to me. I was 
here speaking to your committee 1 year ago, and I wish more 
people could see this side of D.C. It is really nice to see you 
all working together on something that is important to 
everybody, and it gave me some fuel to go back out and do it 
again for 1 year, something that I do as advocacy for arts.
    I have submitted written testimony for the record that 
presents arguments we know are effective in making the case for 
the National Endowment for the Arts. I state that I am asking 
for at least $170 million for the National Endowment for the 
Arts for the 2021 Fiscal Year. You all know this, but it is 
worth noting for the public watching that this request just 
brings us to the 1994 levels of investment for the NEA. That is 
not a big ask for something that is very important.
    I began my career as a rock and roll recording artist 30 
years ago, making albums and touring every corner of the U.S. 
It is kind of like I am on constant campaigning. I just talk to 
people. I am everywhere and talk to everybody. For the past 15 
years, a big part of my career has been performing with 
symphony orchestras in cities big and small. I just got back 
from performing two nights with the Minnesota Symphony. I 
performed with the Utah symphony in Salt Lake in April. I do 
that regularly. Tacoma Symphony Orchestra in November. I have 
done them all.
    One of my greatest experiences was Cleveland's Contemporary 
Youth Orchestra, and that is a total NEA success story. That is 
wonderful. It is 100 kids, all walks of life, and they are 
fantastic. They play all original music. I did five seasons of 
primetime NBC music television. I am about to embark on a TV 
series for Fred Rogers Productions composing songs with 
children. I am the artistic adviser to the National Symphony 
Orchestra at the Kennedy Center where my mission is to bring 
younger audiences to experience the symphony, an important part 
of our culture. It means a lot to me.
    At my own gigs, I tell each audience that the symphony 
orchestra is the artistic symbol for civilization, which I 
believe is very true. You are seeing 50, 60, 100 people on 
stage working together. The rhetoric that we use every day--in 
concert, in harmony. Those are all symbols of the symphony 
orchestra, and the symbols matters to me. That is what we take 
with our flag.
    I am a cold-hearted capitalist you should know----
    [Laughter.]
    Mr. Folds [continuing]. Who is grateful for the competitive 
environment in which I succeeded because it pushed me 
creatively, and it pushed me personally. So I come to you as an 
artist, an arts advocate, but also a small business owner 
because in rock music, the band runs out of gas and you are 
done. Zero-zero.
    A small business owner knows the difference between 
spending and investing. If you spend too much you fail. The NEA 
is to me, is a great investment. It is felt most profoundly in 
rural areas where an NEA dollar results in $9 in matching funds 
from the private sector. That is the kind of investment that 
satisfies the cold-hearted capitalist in myself.
    But the invaluable, irreplaceable service that the NEA 
offers most has to do with access to the arts. That is the 
important part to me is the access and the access for everyone. 
It is hard to do it any other way. It is not as much about 
supporting the arts, which is important, but it is about 
finding ways for the arts to support and help us. It is putting 
the arts to work, and you see that every day if you tour as 
much as I do.
    For profound examples of this, I don't have to draw from my 
professional career. I live in a small Hudson Valley River 
town. It is as small as a postage stamp. It is just a few 
blocks wide and deep. We have a very diverse population that 
you will ever see. It seems like a Kentucky rural countryside. 
It is sitting right next to Brooklyn. It is all together. But 
sadly, despite the proximity, there is not a lot of mingling. 
Different blocks, different stores, different churches despite 
all our best intentions.
    Just last December, I attended a fun little concert. It 
involved children, and it involved local professional 
performers, musicians, and dances. It was just so cool. I don't 
normally like stuff like this, but it was awesome. Kids from 
all the neighborhoods got together, sung together. The parents 
mingled. Everyone had a good time, and it is the first time I 
saw everyone together. I looked at the program, ``Made possible 
by a grant from the National Endowment for the Arts,'' and they 
nailed it. They nail it all the time. And the people in the 
community made it work all the way to whatever level this has 
to come down from. We have a lot of arts, a lot of arts money 
in the Hudson, but I have never seen it bring people together 
like that.
    I think I am out of time, so I am just going to say that 
$170 million is not 50 cents a year per person. It is not quite 
50 cents. Over my lifetime, I have seen it increase at $1 per 
capita. Thanks for your time.
    [The statement of Mr. Folds follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    
    Ms. McCollum. Wonderful. Please.

                          ---------- 


                                      Thursday, February 6, 2020.

                NATIONAL ASSEMBLY OF STATE ARTS AGENCIES


                                WITNESS

PAMELA (PAM) BREAUX, PRESIDENT AND CEO, NATIONAL ASSEMBLY OF STATE ARTS 
    AGENCIES
    Ms. Breaux. Good morning.
    Ms. McCollum. Good morning.
    Ms. Breaux. Chairwoman McCollum, Ranking Member Joyce, and 
members of the committee, today, Members Pingree and Simpson, 
thank you for your invitation to deliver this testimony today 
regarding Federal appropriations for the National Endowment for 
the Arts. My name is Pam Breaux, and I serve as president and 
CEO of the National Assembly of State Arts Agencies, or NASAA, 
the organization that represents and serves the Nation's 56 
State and jurisdictional arts agencies. And today I am here to 
thank the committee, to thank the members for their tremendous 
support of the Arts Endowment, and urge the committee to 
consider funding it at $170 million in Fiscal Year 2021.
    In the recent funding bill passed by Congress, this 
subcommittee supported an increase in funding for the Agency. 
The States and NASAA are extremely grateful for this. We 
recognize that committee members worked together in a 
bipartisan manner to support the Endowment and its important 
contributions to our country. Through its highly-effective 
Federal/State partnership, the Endowment contributes 40 percent 
of its programmatic funds to State, jurisdictional, and 
regional arts agencies each year. That resulting $49 million 
Fiscal Year 2019 helped to empower States and regions to 
address their priorities.
    Unique among Federal agencies, the Endowment funds State 
plans. These plans are developed by State arts agencies in 
response to citizens, communities, arts organizations, 
legislators, and governors. That makes the Federal/State arts 
investment incredibly responsive and relevant to citizens. The 
report accompanying the last appropriations act affirmed 
Congress' support for this important partnership and its 
corresponding 40 percent allocation, and we thank the committee 
for this acknowledgement.
    State arts agencies use their share of Endowment funds 
combined with funds from State legislators to support about 
22,000 grants to arts and civic organizations and schools in 
more than 4,500 communities. Twenty-two percent of the grant 
awards go to non-metropolitan areas, supporting programs that 
benefit rural America, and 26 percent of State grant dollars go 
to arts education, fostering student success in and out of 
school. Congress' continued support of the 40 percent formula 
is essential to State arts agencies, boosting their ability to 
ensure that the arts benefit all communities regardless of 
wealth or geography.
    In response to an increased demand for arts programming for 
older Americans, for example, the Minnesota State Arts Board 
recently provided training for teaching artists to learn how to 
design and implement high-quality arts education programs 
specifically for older adults. With the total number of older 
adults in in Minnesota expected to double between 2010 and 
2030, creative aging programming is a key strategy for 
fostering positive aging and healthier lives. And the State 
Arts Board Programs will ensure that Minnesota artists are 
trained to provide these vital services.
    In an additional example, the Ohio Arts Council 
demonstrates its commitment to all the people of the State by 
successfully fulfilling its Fund Every County Initiative. Now 
all 88 counties in the State have received arts funding in 
response to their needs. Should Congress support an increase 
for the Arts Endowment, State arts agencies will be in a 
position to expand their meaningful work to help communities 
thrive as fulfilling and productive places to live, conduct 
business, visit, and raise families.
    NASAA and state arts agencies also applaud the Arts 
Endowment's many services to the country, including its 
leadership in developing noteworthy programs for communities, 
military personnel, veterans, students, and so many others. We 
proudly partner with the Endowment and work collaboratively 
with them to benefit all communities across the country because 
together we can accomplish what neither side can achieve alone.
    Thank you again for the opportunity to appear before you 
today. We look forward at NASAA to continuing to work 
productively with this committee, and we stand ready to serve 
as a resource to you. Thanks.
    [The statement of Ms. Breaux follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    
                                        Thursday, February 6, 2020.

NATIONAL ENDOWMENT FOR THE HUMANITIES AND THE STATE HUMANITIES COUNCILS


                                WITNESS

BETH KANE, GRANTEE, NATIONAL ENDOWMENT FOR THE HUMANITIES AND THE STATE 
    HUMANITIES COUNCILS
    Ms. Kane. Madam Chair and member of the subcommittee, thank 
you for this opportunity to present testimony on behalf of the 
State Humanities Councils, the state affiliates of the National 
Endowment for the Humanities. My name is Beth Kane, and I am 
director of the Norway Memorial Library in Norway, Maine.
    My institution has received no fewer than 24 grants from 
the Maine Humanities Council. I am here to request $170 million 
for the National Endowment for the Humanities for Fiscal Year 
2021, and $54 million for the Federal/State Partnership, which 
provides allocations by formula to the 56 humanities councils. 
Because this request is so important, I would like to tell you 
what the State Humanities Council support has done for Norway 
and other rural communities across our country.
    Norway, Maine is a town of about 5,000 people in southern 
Oxford County between Little Androscoggin River and the western 
foothills of the Mahoosuc Range of the White Mountains. The 
Norway Memorial Library has a staff of six and serves over 
40,000 visitors a year. Our most recent annual report records 
program attendance of 6,301. As in so many towns across rural 
America, the library in Norway is an anchor cultural and 
educational institution and plays a central role in the life of 
the community.
    The Maine Humanities Council has been our valued partner 
for more than 30 years. Through grant funding and program 
partnerships, the Council has helped to shape how we understand 
our work and clarify our vision for the kinds of intellectual 
and cultural opportunities we offer. In partnership with the 
Maine Humanities Council, the library has been home to popular 
book discussion programs for the general public and for low 
literacy adults, who may have never dreamed they would be part 
of a book group.
    Other offerings include lectures, theatrical presentations, 
and community discussions programs. To give just one example, 
in 2013, the library was awarded a Bridging Cultures Muslim 
Journeys Bookshelf by the American Library Association and the 
NEH. We turn to the Maine Humanities Council for financial 
support for cultural programming, including speakers, 
musicians, a film screening, and scholars to help lead book 
discussions.
    This year, several Norway organizations will come together 
to plan events for the State's bicentennial. The library and 
Norway Historical Society will seek Council support for 
programs as part of this series.
    Time and again we have seen hunger for this kind of 
programming, and it is no small thing when a discussion series 
on race and justice in America brings in 89 people over five 
discussions, or 52 people attend a talk by an Iranian immigrant 
sharing his family's story of building a life in Maine. These 
experiences have lasting impact on the life of the community.
    Maine Humanities Council programs and grants enable people 
in my town to access cultural and lifelong learning 
opportunities that the library simply could not provide on its 
own. The work of our State Humanities Council levels the 
playing field so that my small-town library can offer 
experiences equal and intellectual depths and breadth to those 
found in America's biggest cities. I am very proud that the 
Norway Memorial Library is a valuable resource for the people 
of my community, but I am not here today because my library is 
special. I am here because libraries serving communities like 
mine are partnering with their state humanities councils in 
every corner of America.
    What I have described in Norway is a microcosm of the 
impact State humanities council support has had on individuals 
and neighbors across our country. The councils make humanities 
programs possible in places where a small grant of several 
hundred to a few thousand dollars can make an enormous 
difference. The councils, along with the NEH, are now looking 
ahead to the 250th anniversary of our Declaration of 
Independence, an event that offers Americans the opportunity to 
renew our understanding of our founding principles, explore how 
they have been both challenged and reinforced, give voice to 
marginalized stories in communities, and deepen understanding 
of our collective history and the pillars of democracy. The 
State humanities councils can help make the next 5 years a time 
when we rededicate ourselves to strengthening civics education 
and reinvigorating our ability to work through differences.
    My written testimony describes a wide range of programs 
made possible by State humanities councils in communities large 
and small, in every corner of this Nation where residents are 
talking with each other about issues that matter. The State 
councils are well positioned to effectively put to use the $54 
million we are requesting through Federal/State partnerships.
    Thank you for this opportunity you have given me to 
testify, for the support you have provided over the years, and 
for the important work of the State humanities councils and the 
National Endowment for the Humanities.
    [The statement of Ms. Kane follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you. This panel, and I know we have 
another speaker, but I set it up going in this direction. So we 
have heard from the Assembly of State Arts Agencies. We have 
heard from Americans from the Arts, and we have heard from the 
Endowment for the Humanities. And now we are going to hear from 
a very, very special American, one who not only shared her 
story, but her uncle's story, and how the arts and the 
humanities make it possible for us to say thank you for your 
service. Please introduce yourself for the record.

                              ----------                              

                                        Thursday, February 6, 2020.

                      JEFFERSON COMMUNITY COLLEGE


                                WITNESS

STEPHANIE ERIACHO, STUDENT VETERAN, JEFFERSON COMMUNITY COLLEGE
    Ms. Eriacho. My name is Stephanie Eriacho, and I am a 
student at Jefferson Community College in Watertown, New York. 
Good morning. Thank you to the subcommittee for inviting me 
today to testify today. I am pleased to testify in support of 
the National Endowment for Humanities on behalf of the National 
Humanities Alliance.
    As I said, I am a student at Jefferson Community College, 
home to Fort Drum. I am a retired Navy veteran and aircraft 
mechanic by trade. I deployed 12 times, including a 7-month 
deployment to Iraq, and a 13-month deployment to Afghanistan.
    In 2018, the College offered a class for combat veterans 
called Dialogues of Honor and Sacrifice. The class made 
possible by a National Endowment for the Humanities grant was 
intended to teach the history, literature, and art of the 
Civil, Vietnam, and Iraq Wars. I was drawn to this course 
because I wanted to better understand my uncle's experience. He 
is an Army veteran who had been twice during the Vietnam War, 
and was awarded two Purple Hearts.
    I remember my uncle as being intimidating, quiet, and a 
scary man who wanted nothing to do with me. We hadn't spoken 
more than two full sentences to one another by the time I left 
to join the Navy in 1996. Nonetheless, I visited my uncle every 
chance I could during my time in the Navy, but nothing was as 
special as the visits after I experienced real combat 
deployments. Now, seeing me as a fellow combat veteran, he let 
down his guard. He smiled, laughed, and even joked around. My 
uncle was now able to talk, even just a little bit, about his 
experience in Vietnam. Knowing I could relate, he let me see 
his guilt and pain that he had been harboring for years: guilty 
for wanting to be proud of wearing his Army uniform even being 
spat on when he stepped off the plane; guilty for being able to 
come back home to his family unlike so many brothers who lost 
their lives in front of him.
    It was not until another tour in Afghanistan that I grew 
more like my uncle. When I returned, I began to self-medicate 
with alcohol, or I was working out 6 times a week for about 2 
hours a day to the point of exhaustion. My relationship with my 
husband, my children, and my family were severely strained. My 
children, especially my oldest, were afraid when I got angry. I 
could not wrap my head around why I felt lost, alone, and 
misunderstood. It was in the midst of these challenges that I 
had the opportunity to take the Dialogues of Honor and 
Sacrifice course, and while I hoped the focus on the Vietnam 
War would help me understand more about my uncle, I didn't 
realize how it would affect me. How it would help me as well.
    The course began 2 weeks before JCC's 2018 fall semester 
with a week-long trip that took both professors and students to 
Gettysburg, Arlington National Cemetery, and Washington, D.C. 
We learned the history of the sites and bonded quickly. 
Although we were strangers, we were interested in one another, 
taking turns, talking and listening. Sometimes no words needed 
to be spoken, only the presence of a fellow combat soldier who 
understood.
    Fall semester began with the trip still fresh in our minds, 
and we dove straight into the history of all three wars. We 
studied contrasts and similarities between the three wars, but 
to our amazement, we realized that these soldiers were not so 
different from us. Experiences in Vietnam, the battle, and the 
firefights in Iraq were also similar. As veterans of Iraq and 
Afghanistan, we could relate to stories from a Civil War. This 
camaraderie across conflicts was amazing. It was a special bond 
that most could never fathom.
    Our focus shifted to poetry, literature, music, and art as 
we read, Here, Bullet, a book of short poems. Our task was to 
create our own poem, intimidating at first, but became a 
touching, lasting experience, a liberating sense of freedom to 
open your heart and pour every brutal emotion onto paper so 
that readers can experience the reality. When we moved to The 
Things They Carried by Tim O'Brien, it became everyone's 
favorite because every student carried something special in 
their combat war zone. We related to one another across 
different branches of military, different theaters of war, and 
even drastically different duties while at war.
    Moving towards the last 2 weeks of the week, we entered the 
world of art. Each student was given a blank masquerade mask to 
decorate it as we saw ourselves. The introspection and self-
evaluation produced every raw emotion I have ever felt as they 
flooded onto my mask. The syllabus surely did not reflect 
therapy or liberation as a goal, but it helped me face my past 
with the realization that none of us are alone in the battle of 
normalcy. The curriculum allowed everyone to engage and 
challenge one another. They forced everyone to try different 
perspectives and even think differently than they normally may.
    During the last week of the course, we had the privilege of 
speaking with two Vietnam veterans. My initial drive for 
pursuing this program was upon me, trying to understand my 
uncle, hoping to learn how to bond with him. I learned horrific 
details from these Vietnam veterans, but ones I wanted to hear, 
ones I knew would help me relate to my uncle. But I also began 
to realize that searching for a better understanding about my 
uncle was not as impossible as I thought.
    Our lives and experience paralleled each other at each 
times; occasionally, even mirrored one another. My experiences 
were less gruesome and less drastic, but in the end, he and I 
carried the same demon from war. We are kept awake at night for 
the same reasons. Through a combination of course and therapy, 
my night terrors have lessened dramatically. Anxiety attacks 
are almost gone. I still avoid big crowds, but I have learned 
to work through my fears. My relationship with my family, both 
immediate and extended, have improved and are no longer 
strained. For the first time in my life, I have been at peace 
with myself and no longer self-medicate to drown out the noises 
in my head.
    I am so grateful for the opportunity I had to take this 
course and appreciate the support the subcommittee has offered 
NEH in recent years, making programs like this possible. To 
ensure that more veterans and all Americans can benefit from 
humanities as I did, I ask that you fund the NEH at $170 
million for the Fiscal Year of 2021. Thank you for your time.
    [The statement of Ms. Eriacho follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you, and the Mask Program is something 
that I have seen that we have worked with other arts 
organizations, Americans for the Arts. So thank you so much for 
your testimony. Ms. Pingree, do you have a question for the 
panelists?
    Ms. Pingree. So many, but I have a feeling you want me to 
keep it short.
    Ms. McCollum. I can tap you lightly. [Laughter.]
    Ms. Pingree. Okay. Well, first, Madam Chair, thank you. 
This is a wonderful panel. I know it is going to be a great 
morning of panelists, but this is really a great, as you said, 
sort of transition between looking at the big picture. And 
thank you so much for sharing your personal story. That is just 
really profound. I don't think any of us could say it better 
about how the arts can impact an individual, a family, and 
obviously the community. You took the course, that is really 
great, and I really appreciate you sharing so much with us.
    And to all of you, thank you. Of course, we are great fans 
of Americans for the Arts, and really appreciate all that they 
do in--in the national perspective on all of this. And for you 
to make this part of your career, it is really beneficial. We 
love the state associations for the arts, and it is important 
to us. And, Beth, thank you so much for coming from the State 
of Maine. I am honored to have you here. And, of course, if you 
lived in the State of Maine, there is only 1.3 million people, 
and we joke we are just a small town with very long roads. 
[Laughter.]
    And, of course, Beth and I hadn't seen each for a very long 
time, and then we realized that were closely connected by her 
husband. And that is just how it is in Maine. You know everyone 
one way or the other. And thank you for the great work. I 
really appreciated the fact that you brought it home to all of 
us that in every small rural town, there isn't sufficient 
funds. There aren't sufficient funds to support the kinds of 
works that the NEA and the NEH do. And I don't think people 
realize how profound that is, the number of people who would 
come in to hear the experience of an Iranian immigrant or to 
come in and talk about race, and, you know, many challenges 
that are faced in every single community. And you all really 
brought that out about how the arts can bring us all together.
    So I am obviously making a statement, not asking a 
question, but just quickly because I won't have as much time as 
I would like. But is there more that you could do? I mean, I 
hope we can fund at $170 million, and based on all your 
testimony, we should be doing this at $170 billion, I don't 
know. You know, it should be twice that, right? [Laughter.]
    Mr. Simpson. I don't know about all that. [Laughter.]
    Ms. Pingree. Yeah. Yeah, yeah. Okay, but, as you said, I 
think less than 50 cents a person. I think this is a 
contribution we would all make seeing the work that you did. 
But just quickly share with us, what could you do if you had a 
little more money, and why is it so important in a community 
like Norway because I am assuming you wouldn't find these funds 
in the communities' budget.
    Ms. Kane. We would not. We have great support in our 
community, but a lot of it is not necessarily financial 
support. We could always do more. We try to keep in the back 
pocket availability and openness to programs that come our way. 
We are always keeping our eyes and ears open. We can't do 
everything on a shoestring. We have very generous authors and 
professionals in Maine who come to libraries, but money always 
helps. What we find is the cultural aspect, discussing a book 
is one thing, but when you can actually bring in speakers or 
musicians, or take the food, or hear more in depth, it grows 
and expands that experience for everyone in the community. That 
frequently takes money that we don't necessarily have.
    Ms. Pingree. Well, thank you. I would love to ask you all a 
question, but I know I will get in trouble. But thank you so 
much. You really gave great testimony this morning. Thank you, 
Madam Chair.
    Ms. McCollum. Mr. Simpson.
    Mr. Simpson. Thank you, Madam Chair, and thank you all for 
being here to testify. This is an area that I think is very 
important, and I think it is bipartisan between Republicans and 
Democrats. Several years ago I said, I guess about 4 or 5 years 
ago, we had one of the directors for the NEA out in Idaho. In 
fact, I think I have had the last four out to Idaho. Last 
summer we had Mary Anne Carter and toured the State for a few 
days and stopped at local arts councils and everything. I said, 
you know what we need to do is find a plan where we can project 
5 years ahead where we would like to double the investment in 
the arts and humanities, and put that one a glide path somehow 
as they did in 1994 when they said they wanted to NIH funding 
over a 5-year period, and they did it.
    When you look at our total budget of stuff, $170 million is 
not all that much money. But they do incredible work in 
communities all across this country, and it has been, as I 
said, my pleasure to have the directors of both the National 
Endowment for the Arts and Humanities out to the State. In 
fact, I had the director for the National Endowment for the 
Humanities bring to Boise one day when I was there about 10 or 
12 people who had gotten grants, that the State had given 
grants to. And we sat around the table, and they each talked 
about what they were doing and why they were doing it, and so 
forth. It is fascinating stuff, but it is very important.
    Pam, you mentioned 40 percent of the $170 million, if you 
got that, goes to the States. Is that true? Is that the same in 
the Humanities? What is the split between State and----
    Ms. Kane. I haven't done the percentage. That sounds about 
right. Yes, thank you. Yeah, this is my homework.
    Mr. Simpson. Is that the right split?
    Ms. Breaux. Yeah, it is about the same. They parallel. To 
my humanities? Yeah, they are parallel.
    Mr. Simpson. Is that the right split?
    Ms. Breaux. It is. I think it is an important split. Forty 
percent is meaningful and goes a long way to match State 
dollars for important programming, and it is also meaningful 
that the National Endowment for the Arts retains 60 percent of 
its funding at the national level because it allows arts 
organizations across the country to compete in a national pool. 
And those who are able to do that find incredible leverage 
within that to go out and raise other resources for 
programming.
    Mr. Simpson. And I think it is probably true for most of us 
is that, you know, I am not worried about the arts in New York, 
or the arts in Washington, or the arts in Los Angeles. I am 
worried about the arts in Salmon, Idaho.
    Ms. Breaux. Right.
    Mr. Simpson. And how do we make sure that we can continue 
to support the arts communities in rural America----
    Ms. Breaux. Right.
    Mr. Simpson [continuing]. That don't have access to a lot 
of these things? So it has been fantastic what they have been 
doing. I hope they continue it. I have always questioned 
whether 60/40 was the right split or whatever, and I don't know 
what it is, but I know that my wife is on the Idaho Falls Arts 
Council, and there is one person they do have to satisfy in 
this world. [Laughter.]
    And so I do whatever I can.
    Ms. Breaux. One additional note on the importance of the 
investment on the Federal side, on the 60 percent side, is it 
allows both the Endowments, I think, to invest in new work that 
then can have a major ripple effect. And a prime example of 
that would be both Endowments' investments in arts and 
humanities and military, right?
    Mr. Simpson. Yeah.
    Ms. Breaux. It is both the Endowments that began those 
pilots that have led to so much important work now going on 
across the country in arts and humanities to benefit members of 
the military. And that had to be tested and created someplace, 
and it is the leadership shown at both Endowments that enable 
that to happen. So that is another important part of a strong 
investment on the Federal side, that leadership and what they--
--
    Mr. Simpson. You talked about the authors, and the Idaho 
Humanities Council brings out authors and does a lecture in 
north Idaho and southeast Idaho, and southwestern Idaho, and 
they have been fascinating. And ever since I started going to 
those when I can, when I get out of here and go to them, it has 
cost me a lot of money. Then I support the humanities, and last 
year, we had Douglas Brinkley that wrote ``Moonshot,'' and 
listening to him talk about it all is just fantastic. So 
anyway, Stephanie, thank you for your testimony. We appreciate 
it very much.
    Ms. McCollum. As I mentioned, I have another committee that 
I am going to be going to later, and it is the one that 
oversees the defense money. And we are having the Department of 
Defense, now that the humanities and the arts have proven ways 
in which to help our service men and women heal, recover, be 
resilient, be strong, they are stepping up to the plate in 
order to free up more dollars for more opportunities to work 
with our communities at large. And when you help a veteran, you 
help their family, and I say that as a daughter of a veteran, 
so.
    But, Mr. Folds, I want to know, when you mentioned working 
on this project with the Rogers Foundation, with kids, my kids 
had an artist in residence, and the ``Peanut Butter and Jelly 
Sandwich'' song has not left my head since you mentioned that. 
[Laughter.]
    So will you help me think about something else today and 
just kind of tell me where you are going to go? What are some 
of the goals and aspirations, because I think it is really 
important to get into schools and for kids to understand music 
is language, music is math.
    Mr. Folds. Exactly, yeah.
    Ms. McCollum. Music is transformative.
    Mr. Folds. Yeah. I mean, the angle of the show that I am 
doing with the Rogers Foundation is music as communication 
first and foremost. I mean, the human brain works that way. You 
know, if a little kid says, I want to go home, it is like, 
okay, we have got to a song. You do that 3 times. [Laughter.]
    Mr. Simpson. We begin to think that doing is an art is 
great. It is hijacking something that we already do in 
communication, and if you can teach a kid that and not 
intimidate them too badly at the beginning about are you going 
to be a musician, are you going to be proficient at it or not. 
When you learn art as, you know, painting, the first thing you 
do when you are a little kid is you do something that is an 
original piece that came out of you. When you do music, not so 
much. You know, you are usually learning dead German music, you 
know?
    And I think it is really important to do both, but this 
show is an attempt to, and it has been really successful so far 
in the pilots that we have done. The kids have all kinds of 
ideas. Behind we will have a student group of musicians that 
are a little bit older so they can see that you could get good.
    Ms. McCollum. Yeah.
    Mr. Folds. Plus I give them the riff. So if the kid has 
said, I want to go home, I am like, okay, harp plays this, you 
play this, and now say what you just said. And they say it, and 
they sing it, and they come up with new ideas. So I think it is 
good because it is not for kids who are going to grow and be 
musicians. It is for kids to grow up and have an idea of how to 
speak publicly, how to organize their lives, how to connect 
abstract and critical thinking together. And I am inspired by 
it.
    Ms. McCollum. Well, I want to thank the first panel for 
setting the table literally up here for what we are going to 
hear the rest of the morning and this afternoon. Thank you very 
much. Thank you, Stephanie.
    Ms. Eriacho. Thank you.
    Ms. McCollum. It is always a good sign when people are 
still talking after a panel has left, but I want to be 
respectful of everyone's time. So I am going to, because we are 
already a little behind, we are not going to introduce 
everybody twice. I am just going to let you folks take it. You 
sat in order, and introduce yourself and your organization 
because we want to have time for questions. So, please.
    Ms. Onley. Is it on?
    Ms. McCollum. The little red light is on.
    Ms. Onley. Okay.
                                        Thursday, February 6, 2020.

                         THE NATURE CONSERVANCY


                                WITNESS

KAMERAN ONLEY, DIRECTOR OF U.S. GOVERNMENT RELATIONS, THE NATURE 
    CONSERVANCY
    Ms. Onley. Thank you very much for the opportunity to be 
here. It is hard to follow that last panel. That was pretty 
moving and very exhilarating. On a personal note, I will start 
with I am Kameran Onley. I am the director for U.S. policy and 
government relations at the Nature Conservancy. And on a 
personal note, as I was sitting there listening to your last 
panelist, I was thinking of my daughter who is 12, and she is 
literally going through a test right now on the American 
Revolution and the Declaration of Independence. And it has just 
been so fun for me to tell her that I am coming up here to talk 
to you, really exercising democracy. I wish she could be with 
me here today, but she is taking a science test also. 
[Laughter.]
    But just thank you. It is really timely for me.
    So Chairwoman McCollum, Congressman Simpson, and members of 
the committee, thank you for the opportunity to submit our 
recommendations, the Nature Conservancy's recommendations, for 
Fiscal Year 2021. The Nature Conservancy is an international 
organization. We are in all 50 States, but also around the 
world, working to protect ecologically important lands, waters 
for people and nature. Building on the themes that you heard 
from our last panel, you know, the nature really unites people. 
We see that across the country. It brings people together to 
work on issues they care deeply about in their community. It 
also heals people. We have seen more and more science where we 
have seen veterans use our rivers, use our parks, use our 
nature to really heal after some very traumatic events.
    We would like to thank you all on the committee for the 
work that we do over the years with policy initiatives on the 
ground. Chairwoman McCollum, you have been just a champion for 
the Land and Water Conservation Fund. We cannot thank you 
enough for that, increasing the funding for the conservation 
not just for your home State, but for projects around the 
country, nationwide. I also wanted to recognize Ranking Member 
Joyce has continued support for the Great Lakes Initiative. It 
has been great.
    Each one of you have done work with us, the Nature 
Conservancy, in your home States, but also nationwide. We 
cannot thank you enough. We have a lot of it in our submitted 
testimonies. I can't highlight it all, so I apologize for that. 
We have to be brief. Those are just two examples of where we 
have worked with you.
    As we enter the Fiscal Year 2021 budget cycle and likely 
another challenging fiscal environment, the Conservancy wishes 
to thank all of you for the 2020 programs and the support 
there. Our budget recommendations that we submitted to you in 
full reflect a balanced approach from the funding levels that 
we have seen in prior years.
    The Fiscal Year 2020 spending package dedicated $495 
million dollars to the Land and Water Conservation Fund. Thank 
you. This is a fund that has seen strong bipartisan support, 
again, bringing people together, and the Conservancy 
appreciates Congress' commitment to the funding of important 
projects on the ground and the recreational project that that 
program delivers across the country.
    The Conservancy this year is supporting $900 million full 
funding for the Land and Water Conservation Fund. We are 
looking forward to that, but also looking forward to working 
with all of you to see a permanent funding fix for that 
program.
    We strongly support funding for habitat and wildlife 
conservation investments, like the Cooperative Endangered 
Species Fund and the State and Tribal Wildlife Grants Program. 
These and other investments are essential to ensuring that we 
take strategic actions to prevent species from being listed as 
threatened or endangered. Notably, the Conservancy requests 
continued investment in ongoing efforts to restore and conserve 
sagebrush habitat and the greater sage-grouse across Federal, 
State, tribal, and private lands.
    These resources are needed to implement on-the-ground 
projects and monitor habitat treatments, address fire, invasive 
grasses, and facilitate the partnerships and the science needed 
that for effective conservation. We also urge the subcommittee 
to continue its support for programs that focus on specific 
geographic areas. I mentioned the Great Lakes Restoration 
Initiative, but the EPA's programs and the Chesapeake Bay, 
Puget Sound, Long Island Sound, Gulf of Mexico programs, all of 
those contribute to protecting habitat, water quality on a 
large landscape scale. These programs have a proven record of 
supporting the States' voluntary restoration efforts, and the 
Conservancy urges the committee to continue to support strong 
Fiscal Year 2020 funding for these programs.
    I will close by thanking all of you for the continued work 
to address wildfire funding. Congress took major steps to 
stabilize the Department of Agriculture's Forest Service as 
well as the Department of Interior's budgets with the 2018 fire 
fix. However, the fire fix will only be fully successful 
without substantial reinvestment and the programs that help 
those forests be resilient. Strategic, proactive hazardous fuel 
and restoration treatments have proven to be safe and cost 
effective in reducing risks, and leaving forests a more natural 
condition resilient to those wildfires.
    Again, thank you for the opportunity to be here and to 
submit the Nature Conservancy's recommendations for Fiscal Year 
2021.
    [The statement of Ms. Onley follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you.
                              ----------                              

                                        Thursday, February 6, 2020.

                        AMERICAN HIKING SOCIETY


                                WITNESS

KATHRYN VAN WAES, EXECUTIVE DIRECTOR, AMERICAN HIKING SOCIETY
    Ms. Van Waes. Thank you. I am Kate Van Waes, executive 
director of American Hiking Society. Chair McCollum and members 
of the subcommittee, on behalf of American Hiking Society and 
the Trails Move People Coalition, I thank the committee for the 
opportunity to provide testimony today on the vital importance 
of adequately funding our Nation's trails and public lands to 
ensure access for all.
    This is about more than preserving precious ecological and 
cultural treasures. Children's outside playtime is shrinking, 
and the gap between the diversity of our Nation and the 
diversity of those spending time outdoors is widening, 
resulting in measurable detriment to mental and physical health 
and development. We cannot afford to push trail funding to the 
sidelines.
    American Hiking Society is the only national nonprofit 
organization dedicated to empowering all, and I stress all, to 
enjoy, share, and preserve the hiking experience. We envision a 
world where everyone feels welcome in the hiking community and 
has permanent access to meaningful hiking. Our efforts ensure 
funding for hiking trails, the preservation of natural areas, 
and expansion of access to and inclusion in outdoor recreation. 
American Hiking Society has mobilized over 558,000 trail 
volunteers to construct and maintain 41,000 miles of trails on 
Federal and State public lands at a value of over $108 million 
in labor.
    I am also testifying today on behalf of the newly-formed 
Trails Move People Coalition. The member organizations of the 
Coalition represent millions of Americans who spend their time, 
money, and energy to get out on trails for recreation and 
volunteer activities. I thank the subcommittee for in recent 
years leading congressional efforts to provide incremental 
increases in funding that benefit trails and the hiking 
community, and I encourage continued progress, and know I am 
speaking to friends today. I will highlight a few of these 
funding priorities today with the full list of recommendations 
provided in my written statement.
    We are grateful to the subcommittee for providing increased 
funding for the Land and Water Conservation Fund in Fiscal Year 
2020. Like the Nature Conservancy, we are urging full funding 
at $900 million. The LWCF protects and makes accessible much of 
our Nation's trails, public lands, parks, and open spaces. One 
great example is the Outdoor Recreation Legacy Partnership 
Program. This innovative program has made real progress in 
expanding access to outdoor spaces for urban communities, 
especially urban communities of color, whose access to and 
inclusion in outdoor recreation have been disproportionately 
negatively impacted by geography, socioeconomic status, and 
other factors. Along with full LWCF funding, passage of the 
Outdoors for All Act will help programs, like Outdoor 
Recreation Legacy, thrive.
    Hiking, simply walking along a trail, be it urban or wild, 
poses the fewest participation barriers of almost any outdoor 
activity. But it requires trails, paved and unpaved, and trails 
don't build and maintain themselves. That requires human labor 
and Federal funding. Specifically, for the Forest Service, 
which is responsible for over 80 percent of all federally-
managed trails in the U.S., we recommend funding the capital 
improvement and maintenance trails budget at $100 million, 
which will allow the completion of annual maintenance needs and 
begin addressing the huge trail maintenance backlog.
    For the Bureau of Land Management, we urge the creation of 
a trail specific line item in their budget. The BLM manages 
over 13,000 miles of trails, traversing a rich diversity of 
landscapes for hikers, anglers, hunters, and other outdoor 
enthusiasts. Unlike other Federal land managers, though, BLM 
does not have an individual funding line item for trails, 
resulting in inconsistent funding levels and a lack of clarity 
on allocations. For the U.S. Fish and Wildlife Service, we 
recommend funding for refuge visitor services at just over $74 
million. National wildlife refuges provide incredible 
opportunities for outdoor recreation on 11 national scenic and 
historic trails and 44 national recreation trails, supporting 
more than 37,000 jobs.
    In conclusion, the nearly 1 million square miles that 
comprise U.S. public lands are our most treasured natural, 
historic, and cultural resource. Whether you are a hiker 
enjoying the abundance of American trails, which span over 4 
times the total length of interstate highways, whether you are 
a member of the indigenous populations for whom these lands are 
their ancestral homes, or one of the 145 million outdoor 
recreation users, our public lands are of incalculable value to 
hundreds of millions of Americans. As we all strive together to 
protect these lands and trails and make them accessible and 
welcoming to all communities for generations to come, Congress 
must do its part to ensure adequate funding. I thank the 
committee for holding this public witness day and providing me 
with the opportunity to give this testimony.
    [The statement of Ms. Van Waes follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                        Thursday, February 6, 2020.

                   CONTINENTAL DIVIDE TRAIL COALITION


                                WITNESS

AMANDA WHEELOCK, POLICY AND COMMUNICATIONS MANAGER, CONTINENTAL DIVIDE 
    TRAIL COALITION
    Ms. Wheelock. Chair McCollum and members of the 
subcommittee, thank you for the opportunity to testify today on 
behalf of the Continental Divide Trail Coalition, a nonprofit 
organization with the mission to complete, promote, and protect 
the Continental Divide National Scenic Trail. My name is Amanda 
Wheelock, and I am the policy and communications manager for 
the Coalition.
    For those who haven't had the fortune of visiting the 
Continental Divide Trail, usually known simply as the CDT, 
travels 3,100 miles along the spine of the Rocky Mountains, 
connecting the vibrant Tonahutu of the southern New Mexican 
desert to the equally brilliant yellow larches of Glacier 
National Park in northern Montana, as well as countless natural 
historical and cultural treasures in between, including several 
hundred miles in the 2nd District of Idaho.
    The Continental Divide Trail Coalition and our members 
greatly appreciate your previous support for the CDT and the 
entire National Trail System through appropriations to our land 
management agency partners to build and maintain these trails, 
and respectfully request that you continue and increase the 
support as detailed in our written testimony. We are also 
grateful for your efforts to increase appropriations for the 
Land and Water Conservation Fund, often referred to as 
America's best conservation program and the subject of my 
testimony today.
    Statistics abound on the myriad successes of LWCF, but I 
myself prefer stories to statistics. So let's imagine ourselves 
on the CDT for a, moment walking just a few miles outside of 
Steamboat Springs, Colorado on a warm summer's day. As we walk, 
shimmering Aspen Groves and golden rangeland stretch beyond the 
horizon in front of us as does the black pavement of the 
highway we are walking on. An 18-wheeler whizzes by just 5 or 6 
feet away, followed by a long line of cars stuck behind it, 
cursing and wishing they could get up to Rabbit Ears Pass even 
quicker than they are now. Here in northern Colorado, due to a 
lack of public land, the CDT is forced to follow along the 
shoulder of Highways 14 and 40 for almost 15 miles, tempting no 
one but the most determined of through-hikers to experience 
this particularly dangerous section of this National Scenic 
Trail.
    Despite more than 4 decades of work by dedicated Land 
Management agency staff, nonprofit partners, volunteers, and 
members of trail site communities, the Continental Divide Trail 
remains incomplete due to gaps just like this one in public 
land ownership along its corridor. Without LWCF funding, there 
is no realistic way to acquire the lands necessary to create a 
continuous corridor for the trail, leaving what should be a 
world-class recreational resource with no path to completion. 
That is why the Continental Divide Trail Coalition respectfully 
requests $900 million for the Land and Water Conservation Fund 
in Fiscal Year 2021, because we believe that resources like the 
Continental Divide National Scenic Trail deserve the protection 
via LWCF that they were promised.
    And we are not alone in this belief. A full 98 percent of 
small business owners along the CDT support Congress providing 
dedicated full funding for the Land and Water Conservation 
Fund, and just last year, more than 200 of those business 
owners along the trail went a step further, signing open 
letters urging their senators and representatives to provide 
LWCF with full permanent funding. Residents of Steamboat 
Springs, which became an official CDT gateway community in 
2018, want dearly to see their section of trail moved off of 
the highway and made footing of a National Scenic Trail.
    The Yampa Valley Community Foundation has provided funding 
to CDTC to support our work to close the gap. Big Agnes, a 
multimillion-dollar and much beloved gear company borne out 
Steamboat Springs, rallied their entire staff of more than a 
120 people to relay all 750 miles of the CDT in Colorado to 
raise awareness of the trail and the need for its completion. 
And many local residents stand willing and ready to volunteer 
to build the new trail section. Steamboat Springs resident, 
Kathleen Lynch, perhaps captured their spirit best when she 
said, ``It is so much more than a trail to the people who live 
here. It feels so much a part of what defines us as a community 
that protecting it is inherent to what we believe in.''
    The Land and Water Conservation Fund is vital to 
communities like Steamboat Springs all across the United 
States, to their economies, to their health, and to their 
identities. We hope to see you invest in these communities and 
in our public lands by fully funding LWCF in Fiscal Year 2021. 
Thank you for your time today and for your consideration of 
these important requests.
    [The statement of Ms. Wheelock follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                                        Thursday, February 6, 2020.

               PARTNERSHIP FOR THE NATIONAL TRAILS SYSTEM


                                WITNESS

KATHY DECOSTER, ADVOCACY & POLICY COORDINATOR, PARTNERSHIP FOR THE 
    NATIONAL TRAILS SYSTEM
    Ms. DeCoster. Good morning. My name is Kathy DeCoster, and 
thank you for the opportunity to testify today. I am testifying 
this morning on behalf of the Partnership of the National Trail 
System, but I wanted to echo what Kameran and others earlier 
have said about our appreciation for the time you put into 
these public witness days. It is probably underappreciated or 
certainly unknown maybe outside these walls, but we are very 
grateful that you are listening to the American people for many 
days. I am just glad I am on the early panel. [Laughter.]
    I am testifying today for the Partnership, which represents 
the 30 congressionally-designated national historic and scenic 
trails that make up the National Trail System. I brought a 
couple of maps to look at while we are talking because you may 
know about the one or two trails that are in your district or 
your State, but you may not know that there is at least one 
national trail in each of the 50 States. Altogether, they are a 
significant public land resource for the American people worthy 
of investment.
    The 19 national historic trails help tell our uniquely 
American story from colonial exploration, to the forced 
relocation of Native Americans, to the civil rights struggle, 
and so much more. And the 11 National Scenic Trails, like 
Amanda just discussed, along the Continental Divide Trail, 
provide millions of Americans with access to the outdoors over 
thousands of miles close to home and in remote wilderness 
areas.
    Here are some quick statistics to keep in mind. These 30 
trails connect with 84 national parks, 89 national forests, 70 
national wildlife refuges, over 100 BLM public land areas, and 
179 national wilderness areas. The individual national trails 
and their supporting groups have engaged 129 trail towns mostly 
in rural areas at the local level, and they run near or through 
100 major urban areas. So the system is really something we are 
working to expand and appreciate the support you all have 
given. Your ongoing commitment in the past and last year's 
appropriations bill has made an enormous difference to this 
system and to the successful work of trail groups and trail 
administrators on the ground.
    It is also worth noting that in 2019, the Federal funds 
invested in the trails leveraged over $13 million in private 
funding and 1 million volunteer hours that are valued at almost 
$26 million. So you can be assured that every dollar you 
appropriate is stretched much farther on the ground, and the 
Partnership is committed to expanding this leveraging power of 
the national trails. This impressive system of trails is not 
yet complete, however, as Amanda talked about so effectively. 
In order to ensure that the national trails serve the American 
people most effectively, we are requesting investments in 
Fiscal Year 2021 for operations, construction, and maintenance 
for all 30 trails in the Park Service, the Forest Service, and 
the Bureau of Land Management, and full funding at $900 million 
for the Land and Water Conservation Fund, with over $38 million 
of that allocated for the parks. I mean, for the trails. My old 
job just surfaced. Sorry.
    Ms. McCollum. As you say, everything connects.
    Ms. DeCoster. Everything connects. [Laughter.]
    These funds are critical to ensuring that the integrity of 
the trails that make up the National Trail System is supported 
and enhanced now and into the future.
    My written testimony includes specific funding requests for 
the varied needs within the Agency's operations, construction, 
and maintenance categories for all 30 trails, and we are happy 
to dig in later as you put your bill together on those. We also 
want to extend our gratitude, as others have, for your 
continued robust investments in the Land and Water Conservation 
Fund and the annual allocations to specific national trails.
    We call for full funding for LWCF in Fiscal Year 2021 so 
that the entire $900 million that is deposited into the LWCF 
account every year can be allocated by Congress by this 
subcommittee to the conservation and recreation programs for 
which that funding is intended. We understand that within your 
current budget allocations this is very challenging as well as 
your need to meet all the other programs, as has been testified 
to and will continue to be today. So that said, we were very 
heartened to see a final LWCF appropriation in Fiscal Year 2020 
that was the highest in 17 years. We really appreciate that.
    LWCF funding for the national trails is critical. There 
continued to be identified needs for land acquisitions along 
several national trails, totaling almost $40 million in Fiscal 
Year 2021, and the specifics are highlighted in our written 
testimony. Full funding of LCWF and the allocation of some of 
those funds to specific trails will give trail managers the 
tools they need to protect important trail resources and ensure 
that the National Trail System can meet the needs of the 
American people.
    Thank you again for allowing us to testify today, and we 
look forward to working with you as you put your bill together.
    [The statement of Ms. DeCoster follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Well, thank you, and thank you very much for 
helping me make the case, along with all the colleagues on this 
committee, that we need a bigger baseline budget. And thank you 
for the acknowledgement for what this committee did for all 
LCWF. But we need your help in getting a bigger topline number 
altogether, and many of the programs that you pointed out, you 
also want to see an increase in, and that is some of the lines 
in Forest, and BLM, and Park. So altogether, it just puts more 
pressure on the dollars.
    And I appreciate also the singling out of some of the 
trails and some of the connections that you want to do, but as 
of right now, we are not able to specify anything but putting 
things in the topline number due to constraints with not having 
full agreement with my colleagues on the other side of the 
aisle that that we can specify certain trails or certain 
projects. I would like to see us do some of that where we can 
get something completed and done, and move on to the next one, 
but that is the discussion that will continue to take place on 
this side of the Capitol, but also has to take place on the 
other side of the Capitol to do that.
    So thank you. I just want to thank you for helping me make 
the case where we need to work with a bigger allocation, and 
for also recognizing not only the testimony that you heard 
today, but what we will hear from our tribal brothers and 
sisters who also work on many of the projects that you are 
working on together. So I can't thank you enough. I don't have 
a question for you because you got everything laid out for me 
to take when I go in and make my argument. So thank you from 
the top of my heart for helping me make the case that our 
subcommittee needs a larger allocation, period. And we all want 
to work together for finding that permanent funding solution 
for LWCF because that will help this committee in being able to 
move forward on those joint projects that you so all eloquently 
put out. Ms. Pingree?
    Ms. Pingree. No, I didn't really have anything. I 
appreciate your helping people to understand just beyond this 
room that it is the big number that governs everything else. So 
thanks for everyone's hard work and doing all that we can. I 
get to work with almost all of you, except the Continental 
Divide, which is way too far away. [Laughter.]
    But anyway, it is a wonderful part of the trail system, and 
thanks for providing this map. It is really impressive to see 
what all of them are. Thank you, Madam Chair.
    Ms. McCollum. And I know, having worked on environmental 
policy for many, many years, Peter, we like you. But I just 
want to cherish this moment of all the women sitting here at 
the table on both sides. [Laughter.]
    Thank you very much. Thank you.
    [Applause.]
    Ms. DeCoster. Thank you.
    Ms. McCollum. So as I pointed out--thank you to the third 
panel--we have colleagues coming in and out. We have full 
testimony in front of us, and they will be joining back again 
shortly. I figured out a way to kind of get us back on time, 
and that is not to do the double introductions. So, Ms. White, 
I am going to let you lead it off and give us the full 
background of who you are supporting, and go right into your 
testimony. And we will start it will start the timer when you 
go into your testimony, not for introducing yourself. Thank 
you.
                              ----------                              

                                        Thursday, February 6, 2020.

                     GEOLOGICAL SOCIETY OF AMERICA


                                WITNESS

KASEY WHITE, DIRECTOR FOR GEOSCIENCE POLICY, GEOLOGICAL SOCIETY OF 
    AMERICA
    Ms. White. Okay, wonderful. Thank you so much, Chairwoman 
McCollum. My name is Kasey White, and I am pleased to testify 
today in support of the U.S. Geological Survey, on behalf of 
the Geological Society of America. GSA is a scientific society 
with more than 20,000 members from Academia industry, and 
government in more than 100 countries. GSA applauds the work of 
the subcommittee to increase the USGS budget in Fiscal Year 
2020. Thank you for supporting the Survey and ensuring its 
ability to continue to serve the Nation through its research 
and partnerships.
    GSA or urges Congress to build on these investments and 
provide USGS with $1.35 billion in Fiscal Year 2021. This 
increase will allow the USGS to implement new initiatives 
created by recent legislation, sustain base funding for 
critical research and monitoring, and update and maintain its 
facilities.
    The USGS is one of the Nation's premier science agencies 
with the distinctive capacity to engage interdisciplinary teams 
of experts to gather data, conduct research, and develop 
integrated decision support tools about our earth. In addition 
to underpinning the science activities and decisions of the 
Department of the Interior, USGS research is used by 
communities and businesses Across the Nation to make informed 
decisions regarding land use planning, emergency response, 
natural resource management, engineering, and education.
    The recent passage of several pieces of legislation 
illustrates the bipartisan congressional support for the 
Agency. Last year, the John D. Dingell, Jr. Conservation 
Management and Recreation Act established a national volcano 
early warning and monitoring system at the USGS, and 
reauthorize the USGS' National Cooperative Geologic Mapping 
Program. The previous year, the enactment of the National 
Earthquake Hazard Reduction Program Reauthorization Act of 2018 
reauthorized and expanded this important program, including 
adding our earthquake early warning capabilities. GSA 
recommends adequate funding to implement these laws.
    USGS research addresses many of society's greatest 
challenges. For example, natural hazards are a major cause of 
fatalities and economic losses. NOAA found that in 2019, the 
United States saw 14 weather and climate events with losses 
exceeding $1 billion, which included floods, severe storms, 
tropical cyclones, and wildfires. USGS data is utilized by 
decision makers in many sectors to mitigate the effects of 
these natural disasters. For example, the aviation sector 
relies upon USGS volcano monitoring to create safe flight 
routes. NOAA depends on data from the USGS to issue flood, 
drought, and tsunami warnings.
    USGS is a key partner in obtaining measurements necessary 
to predict severe space weather events, which can have drastic 
impacts on the electric power grid, satellite communications, 
and navigation systems as highlighted in the March 2019 
executive order coordinating national resilience to 
electromagnetic pulses. GSA urges investment in the USGS 
hazards programs as an improved scientific understanding of 
these events will reduce future losses by informing effective 
planning and mitigation.
    In addition to conducting research on long-term patterns of 
climate change, USGS connects science to local communities. 
Climate adaptation science centers provide scientific 
information necessary to anticipate, monitor, and adapt to the 
effects of climate change at regional and local levels. These 
centers work with communities to make smart, cost-effective 
decisions on issues as diverse as protecting cultural resources 
to planning for wildfires. GSA appreciates the expansion of 
this important program and Fiscal Year 2020.
    As the U.S. increases its use of renewable energy, there is 
a vital need to understand the abundance and distribution of 
critical mineral resources both within the U.S. and globally. 
This goal will require expanded collection and analysis of 
geological, geochemical, and geophysical data. Earth MRIs are 
an important part of this effort, and GSA appreciates 
congressional support for this program.
    The Landsat Satellite Program has amassed the largest 
archive of remotely-sensed data in the world, a tremendously 
important resource for everything from natural resource 
planning, land use planning, and assessing water resources, the 
impacts of natural disasters, and global agriculture. GSA 
supports interagency efforts to ensure the continuation of this 
vital monitoring program.
    All of these endeavors are supported by the core systems 
sciences, facilities, and science support. These programs and 
services, such as geologic mapping and data preservation, 
provide critical information and infrastructure that form the 
foundation of USGS research.
    Thank you for the opportunity to provide testimony today 
for the support of the U.S. Geological Survey. I would be happy 
to answer any questions.
    [The statement of Ms. White follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Make sure the mike is on.
                              ----------                              

                                        Thursday, February 6, 2020.

                             3DEP COALITION


                                WITNESS

JOHN M. PALATIELLO, 3DEP COALITION
    Mr. Palatiello. Thank you, Madam Chair. My name is John 
Palatiello, and I am pleased to be here today on behalf of the 
3DEP Coalition. I am also the government affairs consultant to 
the National Society of Professional Surveyors, and the founder 
and president of USGO, the informal coalition of leading 
geospatial firms.
    The 3DEP Coalition includes more than 40 organizations. If 
I may, I would like to insert into the record a list of these 
organizations that support the 3DEP program.
    Ms. McCollum. We will do that. Just make sure that you 
leave that at the end of the presentation.
    Mr. Palatiello. I will do. Thank you. Thank you very much. 
As the subcommittee is aware, 3DEP is the USGS program that is 
satisfying the growing demand for consistent, high-quality 
topographic data across the country, primarily through the 
collection of elevation data with LIDAR. There are more than 
600 applications that benefit from this data. They support 
economic growth, responsible environmental protection and 
resource development, infrastructure improvement, and many 
more.
    USGS' own assessment of this program shows that it 
generates about $13 billion in annual benefits and has a 
benefit cost ratio of 4.7 to 1, so it is an extraordinary 
investment of our tax dollars. And I would say that it provides 
the underpinning to a number of the programs that you will hear 
about in the course of the public witnesses here today.
    Since 2015, over 200 Federal, State, local, and 
nongovernmental partners have collaborated in support of 3DEP. 
I have a map here that my colleague is showing that where now 
about 67 percent of the Nation is completed with this data for 
the first time over. The optimal funding for this program is at 
$146 million a year. At that level, the country can be mapped 
in 7 years and then go on another repeat cycle. So at our 
current funding level, we are at about 67 percent.
    I would like to draw your attention to two things with 
regard to this map. One, Madam chair, I think jumps out at you 
is there is unfortunately a big white space in the middle of 
the country other than perhaps the Twin Cities. And so is a 
tremendous need for precision agriculture for stormwater 
management, for a variety of applications in agricultural 
America. The other point that I think is very important to draw 
attention to is the fact that the other major unmapped part of 
the country is the public lands west, and there is a critical 
need whether you are talking about wildfire mapping, rural 
broadband development, rural infrastructure. We would hope that 
the subcommittee could fund this program not only through USGS, 
but through the other agencies. It is the landowners, the 
Forest Service, BLM, that have an inherent interest in having 
this data for good management.
    As I mentioned in the beginning of my statement, 3DEP has 
supported numerous programs, applications, and activities. I 
would hasten to add, Mr. Joyce, that in my written statement, I 
talk about some great work that an Ohio firm is doing on the 
3DEP program, and that is being replicated by the other firms 
that are involved as well. But when we talk about hazard 
mitigation, energy resource development, wildlife and habitat 
management, flood plain mapping, flood risk management, 
agriculture, precision farming, natural resource, conservation, 
invasive species mapping and mitigation infrastructure, 
transportation, climate change monitoring, all of these are 
activities where the 3DEP data becomes good baseline data for 
all of them.
    So we would urge the full funding of the program at its 
optimum level of a $146 million. We understand the constraints 
on you. Whether we do this solely within USGS or through the 
other agencies, as I mentioned, there is a critical need to 
finish the country and provide that data and the benefits that 
I mentioned. Thank you very much for the opportunity to be with 
you this morning.
    [The statement of Mr. Palatiello follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    
                                        Thursday, February 6, 2020.

                              GEOMAGNETISM


                                WITNESS

DAVID JONAS BARDIN, GEOMAGNETISM
    Mr. Bardin. Chair McCollum, Ranking Member Joyce, Mr. 
Simpson, Vice Chair Pingree, Mrs. Watson Coleman, I am David 
Jonas Bardin, and I appreciate your again holding this public 
hearing and again letting me testify.
    This subcommittee was the leader on the USGS Geomagnetism 
Program that had such success in the minibus that was signed 
into law on December 20th, and I am going to give you all the 
credit in the world. You identified issues. You identified the 
issue of what happens when the Air Force withdraws a stipend. 
You dug into the facts. Your staff went and found out with the 
Air Force on the one hand, but also with USGS stuff, which they 
don't tell you in the way the green book, the budget 
justifications are done nowadays. So you have to dig them out 
on why three observatories might have been closed down, which 
really had to do with deferred maintenance issues that I want 
to raise.
    And you fully funded the Administration's request for the 
$1.7 million for 1 more years' worth of the magnetotelluric 
survey in order to try to do what the President's executive 
order of March last year calls for, completion in 4 years. So I 
give you credit. I give you hosanna, and I hope, Madam Chair, 
that you and your staff again will dig in on some of the issues 
I want to raise.
    Today I just want to talk thematically. I am not asking. 
You raised the appropriation for the USGS Geomagnetism Program, 
Congress did, to $4 million, which is almost all of the $4.1 
million that the House voted for. Your Senate colleagues came 
around to your advice and your insights, for which I give them 
credit, but I give you the most credit and thanks.
    Ms. McCollum. They didn't bring any money with it.
    Mr. Bardin. The $4 million the minibus appropriates is 
almost the entire $4.1 million that the House did. The Senate 
would have had a somewhat lower number. One of the differences 
was on the magnetotelluric survey that you fully funded the 
Administration's request. They initially didn't, but then 
finally in the minibus, they did.
    There are a couple of things I would like you to look into, 
and, as I say, this is thematic testimony. After we see the 
Administration's actual proposal next week, I probably will 
supplement it. At the very least, I will give you a table which 
shows you year by year what has been requested and what has 
been appropriated. And I can't fill in the bottom line now 
because I don't know it yet. But basically, the history flat, 
flat, flat until the sequester, and then down, and only last 
year. Thanks to this subcommittee and the minibus did it go up 
to the $4 million. I think it should be higher.
    I would like you to look into at least two questions. One 
is the $1.7 million for the magnetotelluric survey. This is a 
new undertaking for USGS and the Geomagnetism Program. They 
have never done it before. They are working hard to figure out 
how to do the details, and I hope that you want on a tactful 
staff level will follow what are the issues at the moment. None 
of that money has been obligated. Now, it is not remarkable 
since it was appropriated on December 20th, and none of it has 
been obligated. But we are not going to feel good about it if 
that isn't corrected and cured by the end of the Fiscal Year. 
And I think it is a question of finding what are the roadblocks 
for the money and what needs to be done there.
    The second area I would like you to take a look into is 
deferred maintenance. There is a problem for some of the 
observatories on deferred maintenance. The formula which works 
very well for much of the Interior Department doesn't really 
apply very much to geomagnetic observatories. They are not 
catering to visitors like national parks. They don't have large 
numbers of staff people. So to the extent that priorities are 
set based on health and safety of staff, health and safety of 
businesses, they really don't apply to a facility wherever it 
is located. And I think we need some reconsideration. Perhaps 
the Administration will come up with something on its own, but 
if not, perhaps either in report language or even more, once 
you get the facts, that would be helpful.
    The Geomagnetism program staff does an excellent job of 
keeping track of the deferred maintenance issues, the 
accumulating balance. They have the facts. So if you ask them 
the questions, they can produce the answers, and I trust they 
will produce truthful answers. But they are not being 
volunteered because that is not the way it is normally run.
    I am supposed to stop now, so I will stop.
    [The statement of Mr. Bardin follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you. We mentioned with the other panel, 
you know, their succinct way in which they outlined how we 
needed to have more funding. And I appreciate the way this 
panel, and, you, sir, in particular, Mr. Bardin, pointed out 
that the House had money for some of the projects that we're 
talking about today. But when Mr. Joyce and I went to 
conference with the Senate, when we left conference, we had 
$1.3 billion less than what we left the House with. So it is a 
challenge. And that is why these hearings today are so 
important to hear your priorities, to give us some questions to 
be asking the administration, discussions for us to have 
amongst ourselves, so that with the dollars that we have, we 
put forth the most robust budget that that meets the needs of 
the people here.
    I just want to take an observation because we are talking 
about earth. And in the testimony about earth science and the 
studying of earth science, most high schools don't even have an 
earth science class anymore. They might have a climate studies 
class in which they are talking about climate trends, but that 
is different and needs to be incorporated into a more robust 
earth science class. So I was the only girl in my earth science 
class----
    [Laughter.]
    And it is something that I have found very useful for me 
just as taking a biology class or other things like that, 
because it is the planet we live on. So thank you. As a social 
studies teacher, I want to thank you for shouting out for earth 
science because that is where social science and physical 
science meet each other and other things. So thank you for 
pointing that out. And I am going to talk to my education 
colleagues and do some lobbying.
    Ms. White. Terrific. Thank you.
    Ms. McCollum. So, Mr. Joyce, thank you for joining us, and 
I didn't have a question, I had a comment, and so I will turn 
it over to you and see if there is a question or comment you 
have.
    Mr. Joyce. None at this time, but thank you very much for 
the recognition, and I thank Mr. Simpson for helping me out 
here.
    Mrs. Watson Coleman. I am good.
    Ms. McCollum. Okay.
    Ms. Pingree. Can I ask a question?
    Ms. McCollum. Yes. Ms. Pingree.
    Ms. Pingree. Sorry. I will go home and do a little 
homework. Thank you all for the important work you do. It is 
obviously under recognized most of the time, but I will do a 
little homework. But will you just tell me what 3DEP means?
    Mr. Palatiello. It is 3-Dimension Elevation Program.
    Ms. Pingree. Oh, okay. So----
    Mr. Palatiello. It is the topographic mapping of the 
country. It is primarily collected through LIDAR, which is a 
process where a sensor is mounted in the fuselage an airplane. 
As it goes along a flight path, it is sending thousands of 
lasers to the ground, and measuring the time it takes for that 
laser to leave the airplane, hit the ground, and come back and 
register with the sensor. And by doing thousands of pulses a 
second, it goes along and all of a sudden the mountains rise 
and the valleys fall. And that is how modern topographic 
mapping is done. So this is a program to do with current 
topographic mapping of the entire Nation.
    Ms. Pingree. So, what is the range of an airplane? Like is 
it----
    Mr. Palatiello. The size of the swath?
    Ms. Pingree. Yeah.
    Mr. Palatiello. That depends on the altitude of the 
aircraft, and that will relate to what the scale and resolution 
of the mapping is that is guys hired.
    So the lower it is, the broader the swath, and the higher 
resolution the data is. The higher the altitude is, the more 
narrow the swath and the less accurate or larger scale the 
mapping will be. So what this program does is it did create 
sort of a common denominator for the accuracy. All the 
stakeholders were brought together. A study was done and looked 
at both what was a reasonable budget and what was a scale of 
mapping that would meet the greatest number of needs. And that 
is the standard in 3DEP.
    Ms. Pingree. So last question. So the topographic maps that 
we currently have, we have them, but you are doing like the 
next sort of digital electronic----
    Mr. Palatiello. Yes. So you remember the pink and green 
topographic maps with the contours. This is the next 
generation. This is the replacement to that, which produces the 
benefit of being both digital data so it can be used to plot it 
and manipulate it, and also it can be printed.
    Ms. Pingree. Perfect. Thanks so much.
    Mr. Palatiello. Thank you.
    Ms. McCollum. I am just going to add on because I think one 
of the things that you can 3DEP that we can't do with some of 
the better precision satellites that we have where we can move 
and position faster, is now we have a full complement. And I 
think this is very exciting that if we need to look at 
something, what is happening with a flood plain in a large 
swath area, we are getting better satellite image to do that. 
But you can do something that they can't do, and that is, and I 
know the reason why Minnesota is not mapped is because of our 
trees.
    Ms. Pingree. Yes----
    Ms. McCollum. No, the reason why they are not mapped is 
because of our trees, because the satellites can't do what you 
can do. And if you would explain a little more about what LiDAR 
can do that the satellites can't do. And this is why they 
complement each other and it is so exciting. My trees don't get 
in the way. That is not why I am not mapped.
    Mr. Palatiello. Well, there are a lot of trees in Maine as 
well, and you can see Maine is a further along. [Laughter.]
    So LiDAR does----
    Ms. McCollum. All right, guys. I have the gavel. 
[Laughter.]
    Minnesota wins.
    Mr. Palatiello. What LiDAR does is the technology enables 
the collection of what I described before about the timing and 
the distance from the sensor to the ground and back. You can do 
that to the treetop, or you can do it to the bare earth, and 
that way you can penetrate those tree canopies.
    When we used to do mapping with old conventional aerial 
photography, in Maine, for example, and Minnesota, particularly 
the northern tier States in the country, particularly those 
where you had deciduous trees, you could only fly aerial 
photography mapping during a time of the year where there is 
snow. Think about this in Maine. No snow on the ground. The sun 
is high enough where you don't have long shadows. You can only 
do it around noon time, I mean, a couple of hours midday, and 
no leaves on the tree. What is that? That is 3 days in March in 
Maine? [Laughter.]
    I mean, in all seriousness, that was the challenge with 
conventional aerial photography and photogrammetry. You no 
longer have those constraints with LiDAR. The other benefit of 
LiDAR is because you can measure that tree canopy, this is an 
extraordinary tool in measuring, monitoring, verifying, and 
validate the effects of climate change. You can measure the 
biomass, and if we had a program where were doing the country 
every year, we can go back year by year and saying, well, we 
are losing 3 percent of our biomass in the country. And we 
don't have that data now, so we can't define the effects or 
measure the effects as precisely as we would like, but the 
technology is there.
    Ms. McCollum. So we have two tools in the toolbox. When we 
can combine them now, we can get amazing, amazing in-depth and 
real-time imagery. So it just means we have to be more creative 
on how we finance both of these types of mapping to go forward 
because they are both critically important. Mr. Simpson.
    Mr. Simpson. No, I don't have any questions. I feel like 
what I have learned here just in the last few minutes is that 
we have a lot more forestry programs in Minnesota. [Laughter.]
    Thank you.
    Ms. McCollum. Good morning, Mr. Stewart. Did you have a 
question for the panel?
    Mr. Stewart. No. Thank you.
    Ms. McCollum. Thank you. Thank you very much. Thank you.
    Mr. Joyce. Madam Chair.
    Ms. McCollum. Yes?
    Mr. Joyce. I think there is somebody at the table who is 
celebrating today, if I am not mistaken.
    Ms. McCollum. Really?
    Mr. Joyce. There might be a birthday?
    Mrs. Watson Coleman. Thank you. [Laughter.]
    Ms. McCollum. I respect you so much, Bonnie, I will not 
lead ``Happy Birthday'' in a song. [Laughter.]
    I would drive all our witnesses who are ready to approach 
the table out of the room. I was asked to sing softly many 
times in grade school.
    So, Ranking Member Joyce, what we have been doing to stay 
on time is we have been having the panels introduce themselves.
    Mr. Joyce. That is great.
    Ms. McCollum. And not counting their introduction time 
against their testimony time. And we have found that, as you 
come down in the panelists, right, you don't want to be the one 
that is running 15 minutes, now it is 20, now it is a half an 
hour behind. So I want to thank the panels for doing that.
    I will probably be leaving during this panel, so after the 
introductions, Mr. Joyce, Ms. Pingree will be taking the gavel.
    Mr. Joyce. I am used to ladies being in charge on this 
committee. [Laughter.]
    Ms. McCollum. Thank you. So please start.
                              ----------                              

                                        Thursday, February 6, 2020.

                           THE CORPS NETWORK


                                WITNESS

MARY ELLEN SPRENKEL, PRESIDENT AND CEO, THE CORPS NETWORK
    Ms. Sprenkel. Chairwoman McCollum, Ranking Member Joyce, 
members of the subcommittee, my name is Mary Ellen Sprenkel, 
and I am the president and CEO of the Corps Network. On behalf 
of the Corps Network, our 131 member corps, and the 25,000 
diverse Corps members they annually engage, thank you for the 
opportunity to testify before the subcommittee about utilizing 
service and conservation corps to complete priority projects 
with the National Park Service and related public land 
management agencies.
    Based on the model and philosophy of the Civilian 
Conservation Corps of the 1930s, today's corps are locally-
based nonprofit organizations that engage young people between 
the ages of 16 and 30, and recently returned veterans up to age 
35, in service projects that address conservation, recreation, 
disaster response, and community needs. Through a term of 
service that could last several months to 1 year, corps 
participants or corps members gain work experience and develop 
in-demand skills.
    Corps members are compensated with a stipend or living 
allowance, and often receive an educational award or 
scholarship upon completing their term of service. 
Additionally, corps provide participants with educational 
programming, mentoring, access to career and personal 
counseling, and supportive services. Like the Civilian 
Conservation Corps, today's corps work with the land management 
agencies to maintain and improve our natural resources and 
recreation infrastructure. Last year alone, corps built, 
improved, or maintained more than 13,000 miles of multiuse 
trail and waterways, restored 1.4 million acres of wild 
wildlife and fish habitat, cleared almost 67,000 acres of 
invasive species, removed 19,000 acres of hazardous fuel, 
increased access to and utilization of nearly 8,000 
recreational facilities, responded to 223 wildfires and other 
natural disasters, preserved 336 historic structures, and 
planted almost 1.1 million trees. Further, they leveraged an 
additional 107,000 volunteers who completed 537,000 service 
hours valuing more than $13 million.
    In addition to traditional natural resource work, many 
corps participate in projects to preserve America's historic 
and cultural resources. Six years ago, the Corps Network 
partnered with the Historic Trust for Historic Preservation to 
develop the Hope Crew Model, and under this model traditional 
corps crews work side by side with a historic preservation 
expert to refurbish and maintain historic structures and 
facilities. Several hundred projects have been completed in the 
years since. Through these projects, corps members not only 
develop a sense of connection to our country's history, but 
learn marketable job skills.
    Regardless of the type of project, land managers find corps 
to be cost effective and capable of producing high-quality 
work. The National Park Service commissioned an independent 
study by Booz Allen Hamilton, which found that corps can save 
up to 87 percent on certain maintenance projects. In addition, 
in regular surveys, virtually all Federal partners report being 
highly satisfied with the project work and say they would work 
with a corps again.
    With over $19 billion in deferred maintenance on Federal 
lands, we need to harness America's growing enthusiasm for the 
great outdoors and engage more people in service and 
volunteerism on public lands. One obvious strategy is to engage 
and bring to scale the existing network of corps to start 
tackling a variety of deferred maintenance projects already 
identified by the Restore Our Parks Project, which we will hear 
more about in a moment.
    The National Park Service relies on several funding streams 
to engage corps in this work. Therefore, we respectfully 
request that you support funding increases that directly 
address deferred maintenance needs within the National Park 
System. Specifically, we request strong funding levels for the 
repair and rehabilitation, cyclic maintenance, and line item 
construction accounts. In addition, we also request robust 
funding for similar accounts of other land management agencies 
under your jurisdiction, including the U.S. Forest Service, the 
Bureau of Land Management, and the U.S. Fish and Wildlife 
Service.
    Corps have long been cost-effective partners of Federal 
land management agencies, and have been working to generate 
excitement and new ways to engage youth and veterans in outdoor 
service, while helping to accomplish much-needed project work. 
The time has come to seriously consider corps as an essential 
part of any plan to tackle deferred maintenance and usher in 
future stewards and champions of our natural treasures.
    Thank you for the opportunity to testify, and I welcome any 
questions.
    [The statement of Ms. Sprenkel follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Ms. Pingree [presiding]. Thank you. Ms. Brengel.

                              ----------                              

                                        Thursday, February 6, 2020.

                NATIONAL PARKS CONSERVATION ASSOCIATION


                                WITNESS

KRISTEN BRENGEL, SENIOR VICE PRESIDENT OF GOVERNMENT AFFAIRS, NATIONAL 
    PARKS CONSERVATION ASSOCIATION
    Ms. Brengel. Yes. Thank you so much for having me. My name 
is Kristen Brengle. I am the vice chair of government affairs 
for the National Parks Conservation Association. I want to 
thank Ranking Member Joyce and members of the subcommittee for 
giving us the opportunity to testify today. We are grateful for 
the work that all of you do on behalf of the national parks. In 
fact, this committee is full of park champions that we are 
thrilled about. Ranking Member Joyce, I want to thank you in 
particular for your work on the Great Lakes, pollution, 
invasive species, all of the issues up there. It has been great 
working with you and your staff.
    We truly appreciate all the subcommittee does for parks 
given scarce funding. As the chair pointed out earlier, the 
overall budget is tough to work with. In particular, we want to 
thank you for the land and water conservation funding last 
year. It was particularly impressive.
    So I am here to share some concerns that we have about the 
current state of our national parks and our worries about the 
staff who protect them. We are hearing and seeing the 
following. Morale is low. This is due to weakening policies, a 
looming reorganization, and a lack of leadership. In fact, as 
some of you may know, 10 of the 16 senior park service 
positions that oversee critical departments, including 
operations, interpretation, visitor, and resource protection, 
and even the acting National Park Service director, are either 
vacant or without a permanent leader. Second, many parks are 
suffering unrepaired damage, as my colleague pointed out to the 
right, and the effects of climate change. The other issue and, 
Ms. Pingree, you know this very well, some of our popular parks 
are completely overcrowded, including Acadia, which I was just 
there. Beautiful. [Laughter.]
    And this can lead to resource harm. The other issue is 
conservation, is taking a backseat to development outside of 
their borders. This is due to rampant drilling and mining, 
proposals which this committee is very well aware of. And 
specifically we thank you for Chaco, for the language on Chaco 
Cultural.
    In the last 3 years, NPCA has documented 112 administrative 
actions that erode protections for waterways, wildlife, visitor 
experiences, air quality, and quality of life for staff. The 
consequences of these actions could be felt for generations. We 
appreciate the committee's willingness to consider some of 
these issues as you deliberate the bill.
    To dive specifically into the National Parks Service 
budget, park operations and deferred maintenance are our 
highest funding priorities. One of the largest challenges 
facing park superintendents is operating budgets insufficient 
to prevent the reduction of personnel. One superintendent 
recently reported uncontrollable fixed costs of more than 5 
percent. This will no doubt result in fewer staff. One area 
where the staff shortage becomes a major issue is with the huge 
influx of visitors to many popular parks. With inadequate 
staff, national parks are getting crushed.
    Joshua Tree, for example, no longer has an off season. 
There are just tons of people there through the year. In 2018, 
there were 1.6 million more visitors than a decade prior, 
similar to Zion and other parks in Utah. That 125 percent 
increase in visitation was coupled by a 31 percent erosion of 
base staffing levels. As an example, a Joshua Tree ranger was 
making sure cars weren't parking on the side of the road, 
crushing vegetation. When asked the range what his job actually 
was, he said he was on the trail crew. Because he was dealing 
with so many visitors, he couldn't work on the trail. This 
means less maintenance. The lack of operations funding has a 
ripple effect.
    Now getting to the deferred maintenance backlog, it is one 
of our highest priorities, and my colleague at Pew next to me 
is going to testify in greater detail on this important issue. 
But one example to point out is Great Sand Dunes. Some of the 
pressing projects are very connected to visitors. The visitor 
center roof, re-roofing of the comfort stations, and 
rehabilitation of campgrounds, these are just some of the 
thousands of examples that there are cross the park system. We 
are working on other funding sources, including the bill that 
Mr. Kilmer is leading, the Restore Our Parks and Public Lands 
Act. We are thankful for that bill, and we appreciate all the 
co-sponsors here. We hope that it gets signed into law this 
year, but we still need this committee to focus on deferred 
maintenance and routine maintenance as we look at the budget.
    I should note a huge thanks for the Centennial Challenge 
funding, which also helps with the maintenance backlog and 
great programs; National Heritage Area funding, which is also a 
wonderful program; Endangered Species Act funding, and, course, 
the EPA's geographic programs in last year's bill.
    As I mentioned earlier, we are alarmed by the impacts of 
climate change. We must ensure the Park Service has the 
resources and guidance they need to monitor climate change 
impacts to the parks, and utilize the best available science to 
help parks adapt to climate change. We can reduce repair costs 
if parks have the funds they need to be resilient from the 
start. On another topic, we appreciate your oversight on the 
Interior Department's reorganization. We are concerned not just 
about the BLM move, but the potential for a larger initiative 
to harm management and stewardship of our parks. We don't want 
the reorganization to undermine the Park Service's 
conservation-driven work or the morale of Park staff. We 
commend the oversight and the report language on this. We are 
also happy that you were able to secure statutory reprogramming 
language, which ensures greater oversight of the 
administration, and reaffirms the role and powers of the 
appropriators. This time last year, our parks were recovering 
from a shutdown made worse by the Administration's use of fees 
to keep parks open to harm. So we are grateful for your work on 
the issue and hope we can identify more opportunities for your 
engagement. Thank you so much.
    [The statement of Ms. Brengel follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Pingree. Rebecca, tell me how to say your last name.
    Ms. Knuffke. Knuffke.
    Ms. Pingree. Knuffke. Thank you so much.
    Ms. Knuffke. Thank you.
                              ----------                              

                                        Thursday, February 6, 2020.

           RESTORE AMERICA'S PARKS, THE PEW CHARITABLE TRUSTS


                                WITNESS

REBECCA KNUFFKE, OFFICER, RESTORE AMERICA'S PARKS, THE PEW CHARITABLE 
    TRUSTS
    Ms. Knuffke. So good morning, Ranking Member Joyce and 
members of the subcommittee. I am Rebecca Knuffke, officer at 
the Pew Charitable Trust Restore America's Parks Campaign. And 
thank you for the opportunity to testify today.
    The Pew Charitable Trusts applies a rigorous analytical 
approach to improve public policy, inform the public, and 
invigorate civic life. The Restore America's Parks Campaign 
seeks to conserve the national assets of the National Park 
System by providing commonsense long-term solutions to its 
multibillion dollar repair backlog. The National Park Service 
is responsible for managing and maintaining more than 400 
nationally-significant sites in all 50 States and several 
territories. These park units document the remarkable people, 
heritage, and the places that comprise the ongoing story of 
America.
    Unfortunately, our 100-plus year old National Park Service 
has an aging infrastructure that is deteriorating. Compounding 
this challenge are visitation pressures on park resources. The 
National Park Service recorded over 318 million visits in 2018 
and years of inadequate funding for maintenance needs.
    The Park Service is not able to keep up with the pace of 
repairs for assets that include over 5,000 miles of paved 
roads, nearly 1,500 bridges, 18,000 miles of trails, more than 
28,000 buildings, including historic structures, employee 
housing, over 2,000 sewage systems, and other facilities, such 
as battlefields, campgrounds, interpretive facilities, and 
monuments and memorials. As a result, the Agency must triage 
repair needs, and it has a backlog of deferred maintenance that 
is estimated to be $11.9 billion based on 2018 data.
    Drawing down a maintenance backlog that has accrued over 
decades requires a combined approach, one that includes robust 
annual appropriations funding, dedicated funding, and policy 
reforms to leverage technology and increased efficiencies. 
Adequate discretionary investment is essential for NPS to keep 
up with the maintenance needs, over three-quarters of which are 
priority projects. Pew commends the subcommittee for providing 
increases for NPS deferred maintenance in recent years, and we 
respectfully urge you to build on the support in Fiscal Year 
2021 as there still is a substantial gap between NPS 
discretionary funding and what the Agency needs to address its 
priority projects repairs.
    Specifically, within the operation of the National Park 
System and construction appropriations, Pew urges the 
subcommittee to maximize allocations for repair and rehab, 
cyclic maintenance, and line item construction accounts. These 
accounts provide the bulk of the necessary funding for the Park 
Service to undertake maintenance that will keep our national 
parks accessible to the public and safe. Funding for planning 
and adequate staffing capacity, as Kristen mentioned, are also 
critical to the execution of repair and maintenance needs, and 
we ask that these accounts be funded as robustly as possible.
    Further, we urge the allocation of $4 million for employee 
housing to help expedite correcting the dilapidated state of 
ranger housing. According to NPS, deferred maintenance for 
employee housing totaled more than $186 million in Fiscal Year 
2018, yet the Agency received only $2.2 million that year for 
the housing improvement program. Another important program that 
my colleagues have also mentioned, the Centennial Challenge 
program, which matches Federal dollars with private donations 
and directs the monies towards priority deferred maintenance 
projects and other park programs. This has the potential to 
leverage even more funding, and by raising the annual 
appropriations from $20 million to $30 million, Federal dollars 
could encourage more partner and private donations, 
facilitating the repair of even more park infrastructure.
    Dedicated funding is also an important way to draw down the 
backlog, and the Restore Our Parks and Public Lands Act, and 
thanks again to Representative Kilmer for his leadership on 
this bill, and also Congressman Bishop here in the House, and 
the companion Restore Our Parks Act sponsored by Senators 
Portman, Warner, Alexander, and King in the Senate, would 
direct over $6 billion of Federal agency energy development 
revenue to tackle park repairs over a 5-year period. This 
dedicated funding source would provide consistent, reliable 
funding to enable NPS to better plan for complicated large-
scale project repairs. If enacted, this bipartisan, widely-
supported legislation, endorsed by over three-quarters of the 
House, half of the Senate, the Administration, and 82 percent 
of the American public, would provide NPS the resources to help 
tackle its highest priority repairs. The intent of the 
legislation is not to supplant annual appropriations, however, 
which are needed to ensure that NPS can do current maintenance 
work needed to prevent the repairs from escalating and becoming 
more expensive over time.
    In conclusion, fixing our parks has overwhelming support 
from Congress and the American public. To be successful, NPS 
needs robust annual appropriations and dedicated funding, and 
we appreciate the discretionary increases in park maintenance 
accounts over the past several years, and encourage the 
subcommittee to continue to build on that investment. Thank you 
for your consideration of Pew's request and for your continued 
support of our national parks. And, Chairwoman McCollum, I will 
just add that it comes to me through my family. My stepmother 
was a Park Service superintendent at Voyageurs National Park in 
your beautiful State. So thank you again.
    [The statement of Ms. Knuffke follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                                        Thursday, February 6, 2020.

                NATIONAL TRUST FOR HISTORIC PRESERVATION


                                WITNESS

TOM CASSIDY, VICE PRESIDENT FOR GOVERNMENT RELATIONS AND POLICY, 
    NATIONAL TRUST FOR HISTORIC PRESERVATION
    Mr. Cassidy. Okay. Chair McCollum, Ranking Member Joyce, 
and members of the subcommittee, I appreciate this opportunity 
to present the National Trust testimony. My name is Tom 
Cassidy. I am the vice president of government relations. The 
National Trust is a privately-funded nonprofit chartered by 
Congress in 1949. We work to save America's historic places to 
enrich our future. And this is the line I have been practicing, 
and it is the best line I have ever delivered in this room. 
[Laughter.]
    Thank you for creating and enacting last year's bill. It 
was the most preservation-friendly appropriations bill in the 
history of the republic, both for its historic funding levels 
and also for policy directions throughout the report. Thank 
you. We are confident that this subcommittee will continue its 
robust support for funding for programs within your 
jurisdiction. My written testimony includes recommendations on 
a variety of reports, as did our best-selling report from last 
year now in production for this year.
    Let's start with the third successive year of record 
funding for the Historic Preservation Fund. Last year's level 
of $118.6 million represents a 46 percent increase from Fiscal 
Year 2017 levels. HBF funding supports fundamental preservation 
activities provided by State and tribal preservation officers, 
including survey, nomination of properties to the National 
Register, and project reviews required for historic tax credit 
projects. Among many highlights within the competitive grants 
programs, we would like to emphasize the committee's $15-and-a-
half million appropriation for the successful African-American 
Civil Rights Program and the new $2-and-a-half million program 
to preserve and highlight sites and stories associated with 
securing civil rights for all Americans, including women, 
American Latino, Native American, and LGBTQ Americans. This 
subcommittee made that happen. Thank you. And this really 
promises to be a lasting legacy to recognize the sights and 
stories that tell our fullest and most inclusive history. And, 
of course, our national stories also benefit from your strong 
commitment to increased funding for Save America's Treasures.
    In terms of National Park Service and the operation of the 
Park System, a small, but important, increase last year within 
resource stewardship was $1 million for the African-American 
Civil Rights Reconstruction Era and other networks. We urge an 
increase for these programs this year, including language that 
would make some of these funds available for grants to network 
sites. We have had a lot of discussion about in NPS deferred 
maintenance, so I will try to shorten this area. But this 
committee has been a champion of tackling this program, and of 
the $12 billion DM backlog, 47 percent of that is attributed to 
historic assets.
    We have for years really focused on the repair and rehab 
and the cyclical maintenance programs. Marginal increases in 
these accounts are spread out throughout the system. They form 
the basis to fund core network projects and crew projects, so 
we would just really emphasize sustained investment in these. 
They are not high profile. Cyclical maintenance is not like a 
line item construction project, but it has broad-based impact 
throughout the system. And we also strongly support the 
creation of a reliable dedicated funding source. Thank you, Mr. 
Kilmer, for your sponsorship of that, and Mr. Bishop. And 
everybody here is a co-sponsor, so thank you for that.
    In terms of the Park Service cultural programs, thank you 
for your attention to the Agency's proposed revisions of 
procedures for listing projects on the National Register, and 
language calling for the agency to withdraw its proposed rule 
and consult with stakeholders. We are monitoring the situation 
closely, but remain concerned with the direction the Service 
may take. I would also like to address the Bureau of Land 
Management, specifically, the Cultural Resources Program. Not 
as many people realize that BLM oversees the largest, most 
diverse, and scientifically-important collection of historic 
and cultural resources on our Nation's public lands. We 
appreciate the committee's commitment to ongoing oversight of 
the Department's reorganization. Please sustain that oversight. 
The Trust and many other organizations continue to be concerned 
with the impact of the reorganization and loss of staff within 
the Cultural Resources Division.
    You directed funding last year of $1-and-a-half million 
within the BLM cultural resources account for something called 
the National Cultural Resources Information Management System. 
But basically, as we learned from our USGS friends earlier, if 
you don't map it, you can't save it. And this program is an 
innovative partnership between BLM and state historic 
preservation officers to support predictive modeling and data 
analysis to enhance planning for large cross-jurisdictional 
projects. It is a significant and too often overlooked 
preservation success story, and we would recommend once again 
providing specific funding for that above enacted.
    And my time is over, so thank you.
    [The statement of Mr. Cassidy follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Pingree. Thank you very much for your presentation and 
your thoughtful words, and thank you to everybody here. Of 
course, we greatly appreciate the work that all of you do. It 
is vitally important in States like mine, but everywhere across 
the country. Mr. Kilmer, do you have any questions or thoughts?
    Mr. Kilmer. I had a couple. Is that all right?
    Ms. Pingree. Go for it, yeah.
    Mr. Kilmer. First, for the Corps Network, it is not a 
question. I just want to take a moment to say thank you for the 
amazing work you do. Thanks for the amazing work you do. In our 
neck of the woods, Jay Satz from the Northwest Youth Corps, 
does outstanding work, innovative work. We are really lucky to 
have him. And it is really, I think, a great example of the 
work that happens in our local communities by the Corps 
Network. So I can make it a question by just saying don't you 
agree----
    [Laughter.]
    So let the record show she said yes. I do also want to 
express gratitude for your references to the maintenance 
backlog within our Park System. This subcommittee and our 
chair, I think, has worked very hard to ensure that the Agency 
has sufficient funding, but we know that there is an $11 
billion, with a ``B,'' maintenance backlog. And to your point, 
the Restore Our Parks and Public Lands Act is targeted at 
addressing that. NPCA, Pew, have been terrific partners in 
this. We have got 330 co-sponsors at this point, and I think 
that is a testament to your organizations collectively for 
making the case. I guess my question is, so what else should we 
be doing?
    Ms. Brengel. We need to get it to the floor as quickly as 
possible.
    Ms. Knuffke. We need to get it to the floor. And I will 
just add that there are 39 appropriators on the bill as co-
sponsors on the dedicated funding bill, so that is impressive.
    Ms. Brengel. Yeah. I don't know if you read in the E&E 
newsletter this morning, Mr. McConnell also talked about 
bringing it to the Senate floor, so it would be really great if 
we could move it in both chambers this year. So we did so much 
work.
    Mr. Kilmer. Yeah.
    Ms. Brengel. It is time to move it.
    Mr. Kilmer. Yeah, let's get it done. Thank you. Thanks. I 
yield back.
    Ms. Pingree. Thank you very much. Mr. Joyce? No? Mr. 
Stewart? Again, we greatly appreciate your support helping to 
make the case for the things that I think this committee knows 
are really important, and I feel confident Mr. Kilmer will get 
the bill to the floor. Laughter.]
    With his great power and wisdom. Thank you, and thanks so 
much for the work that all of you do.
    Mr. Kilmer. Thank you.
    Ms. Pingree. The next panel will come up. You guys are so 
quick and efficient, getting right up there. So we are excited 
to have our next panel. Thank you, Mr. Kolton.
                                        Thursday, February 6, 2020.

                        ALASKA WILDERNESS ACTION


                                WITNESS

ADAM KOLTON, EXECUTIVE DIRECTOR, ALASKA WILDERNESS ACTION
    Mr. Kolton. Thank you. Thanks for having me. My name is 
Adam Kolton. I am the executive director of Alaska Wilderness 
League, which is the only national organization devoted 
exclusively to the production of Alaska's national treasures, 
for which the Interior Department plays such a critical role in 
stewarding for the benefit of all Americans here, because there 
are two of our national treasures in Alaska that are at grave 
risk, the Arctic National Wildlife Refuge and the Tongass 
National Forest.
    As we speak, the Administration is rushing to hold the 
first-ever oil and gas lease sale in the Arctic National 
Wildlife Refuge, and in the process, we believe it is 
sidestepping environmental laws, sidelining scientists, 
skipping required consultation with indigenous people. This 
process jeopardizes the very values to which President 
Eisenhower originally set aside this area, endangering not only 
iconic wildlife, such as threatened polar bears, but the way of 
life the Gwich'in people and their 15 villages.
    Beyond that, and perhaps most notable for members of the 
subcommittee, the Interior Department has also completely 
abandoned its commitment and the legislative requirement of the 
2017 Tax Act that arctic refuge lease sales generate $2.2 
billion in revenue, half of which for the Federal Treasury. 
Thanks to this subcommittee and the good work of the chair, 
last year's bill attempted to direct the Bureau of Land 
Management to set minimum lease sale bids to meet the required 
revenues of the Tax Act, and it was retained on the House floor 
in a strong bipartisan fashion.
    But unfortunately, it wasn't included in the final bill, 
and, as a result, the BLM could in the coming months hold a 
lease sale that auctions off this cherished landscape at fire 
sale prices, setting up a future scenario in which Congress 
will need to appropriate even more money to buy back leases 
from oil companies that will bid low and attempt to sell back 
high. Last year in response to the subcommittee's actions, we 
heard drilling proponents argue against any requirement to meet 
the promised revenue targets. This begs the question, were the 
highly-touted revenue and oil bonanza production simply a ruse 
to catch a ride on the budget reconciliation train? Why are 
some now so fearful and opposed to language that simply 
enforces what Congress already passed? Might they be worried 
that major banks, like Goldman Sachs, who are unwilling to 
finance arctic refuge oil and gas development?
    Alaska's senior center acknowledged that the goal here is 
simply to get leases out in the hands of oil companies because 
then, ``it is tougher to throw roadblocks in place.'' The 
Administration's intent here is clear: get leases sold no 
matter the cost or, in this case, whatever the taxpayer rip-off 
may be. Considering this, it is not surprising that the 
Administration is barreling toward a lease sale in ways that 
not only disregard the fiscal consequences, but also the impact 
to the resources on the ground.
    Take the issue of polar bears. Climate change and 
disappearing sea ice is causing bears to come on shore more 
frequently in search of food and to build their winter 
maternity dens. Yet the Interior Department has developed no 
meaningful restrictions on seismic exploration to prevent the 
killing of polar bears. If all that weren't troubling enough, 
Politico has reported the Administration has silenced 
scientists and pressured others in pursuit of advancing leasing 
as quickly as possible. Given the reckless manner which the 
Interior Department is seeking to hand over this national 
treasure to oil companies and its disregard for the 
requirements of the Tax Act, including its own revenue 
assumptions, we ask you to again include language in the 
underlying bill that forces the Administration to meet its 
promises and its legal responsibilities.
    We similarly ask the subcommittee's help to rein in the 
Administration as it seeks to exempt the entire 17 million acre 
Tongass National Forest from roadless protections. You know, we 
heard the President talk about planting a trillion trees. These 
are 800-year old trees. This is America's rain forest, and 
there are enormous subsidies that are still intact for the 
Tongass. It makes no sense to, on the one hand, talk about 
planting trees to sequester carbon, and the other, subsidize 
the destruction of our most iconic cherished American 
rainforests.
    The Alaska Wilderness League strongly supported 
Representative Blumenauer's amendment, successful amendment, to 
last year's bill to end taxpayer subsidies for road building 
activity in the Tongass. And, you know, even now, the Forest 
Service timber program is costing taxpayers about $30 million 
per year for a loss of approximately $600 million over the last 
20 years. We urge you to include the Blumenauer language which 
passed the House with a bipartisan 243-188 vote in this year's 
underlying bill. Doing so would protect U.S. taxpayers, 
southeast Alaska's vibrant outdoor economy, hunting, fishing, 
and outdoor recreation interests, as well as wildlife and our 
climate.
    Thank you for the opportunity to testimony and share our 
views.
    [The statement of Mr. Kolton follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Pingree. Thank you very much. Mr. Stretton.
                              ----------                              

                                        Thursday, February 6, 2020.

                 PROJECT ON GOVERNMENT OVERSIGHT (POGO)


                                WITNESS

TIM STRETTON, POLICY ANALYST, PROJECT ON GOVERNMENT OVERSIGHT (POGO)
    Mr. Stretton. Thank you, Congresswoman Pingree, and Ranking 
Member Joyce, and members of the subcommittee. Thank you for 
the opportunity to testify today. My name is Tim Stretton, and 
I am a policy analyst at the Project on Government Oversight, 
or POGO. POGO is a nonpartisan, independent watchdog that 
investigates and exposes waste, corruption, abuse of power, and 
when the government fails to serve the public. For decades, 
POGO has shed the light on the need for the Federal Government 
to ensure oil and natural gas industries are paying their fair 
share for the publicly-owned onshore and offshore resources 
they extract and profit from.
    POGO has recommendations to provide more accountability and 
transparency for oil and gas royalty policy at the Bureau of 
Ocean Energy Management. We urge the subcommittee to prohibit 
the use of funds to approve leases where the bureau 
retroactively lowered its valuations without public notice, and 
requires that no public funds be spent on approving delayed 
value leases that were not evaluated by a neutral third party.
    The Bureau administers offshore drilling rights and 
periodically holds auctions in which bidders obtained leases 
for the underlying oil and gas deposits under specific tracts 
of land. These resources are owned by the taxpayer, so the 
Bureau is legally required to ensure that taxpayers receive 
fair market value, in part, by collecting royalties on the sale 
for oil and gas produced from these lands. But the Bureau's 
royalty release procedures often leave tens of billions of 
dollars in the pockets of the extractive industry rather than 
being returned to taxpayers.
    In a recent report, the Government Accountability Office 
identified two additional procedures the Interior Department 
has engaged in for decades that may not have resulted in a full 
fair market return. The GAO's analysis closely tracks with the 
findings of POGO's 2018 report, ``Drilling Down Big Oil's 
Bidding.'' And the nonpartisan organization, Taxpayers for 
Common Sense, has reported similar problems at the Department's 
Bureau of Land Management through its increased use of awarding 
of noncompetitive leases.
    The Bureau sets royalty rates for offshore oil and gas and 
can reduce or waive royalty payments in an attempt to increase 
production. But as the Bureau itself has found, the practice 
often means taxpayers lose out on the fair return they are 
owed. The GAO found that leases that had been awarded between 
1996 and 2000 resulted in about $18 billion--that is billion 
with a ``B''--in foregone royalties through 2018. When it 
auctions off tracts of land, the Bureau is supposed to reject 
bids that are below the estimated value of the land. Instead, 
however, the GAO found that when a bid comes in lower than the 
Bureau's own valuation, the Bureau often retroactively lowers 
its initial value and then accepts the bid. The GAO estimated 
that between March 2000 and June 2018, the Bureau could have 
collected $567 million in addition auction revenue if it had 
not engaged in this practice so consistently.
    The Bureau does not disclose when it awards drilling rights 
based on reduced valuations, and because of this, the practice 
of lowering valuations has resulted in the loss of hundreds of 
millions of dollars in public revenue. This committee has a 
vested interest in ensuring that the Bureau is held 
accountable. To provide that accountability, we urge the 
subcommittee to prohibit the use of funds to approve leases 
when the Bureau retroactively lowers its valuation without 
public notice.
    The GAO's report also highlighted problems with how the 
Bureau considers the present value and the delayed value of a 
tract of sea floor, which may have resulted, again, in $873 
million in foregone revenue from March 2000 to June 2018. 
Again, that is money that should have gone to the American 
taxpayer. If a bid is lower than the present value, but higher 
than the delayed value, the Bureau can accept it, but the 
Bureau has been projecting delayed values to be lower than they 
should be, allowing it to accept lower bids.
    The GAO found that the Bureau's unrealistically large 
forecast of depreciation have increasingly been the deciding 
factor in accepting lower bids, and, as a result, the 
government is unnecessarily passing up hundreds of millions of 
dollars in potential revenue. GAO recommended that an 
independent third party should examine whether the Interior 
Department's use of delayed values deliver fair market value 
and whether it should stop using these lower valuations. POGO 
believes that such an independent examination would bring about 
greater accountability to the bid valuation process. We 
recommend that this subcommittee require no funds be spent on 
approving a delayed value lease that was not evaluated by a 
third party.
    Again, POGO has prepared recommendations to provide more 
accountability and transparency for oil and gas policy at the 
Bureau, which we would be happy to provide to the subcommittee. 
Thank you for the opportunity, again, to testify today, and I 
am happy to answer any questions you may have.
    [The statement of Mr. Stretton follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Pingree. Thank you very much. Mr. Messmer.
                              ----------                              

                                        Thursday, February 6, 2020.

                                 OCEANA


                                WITNESS

MICHAEL MESSMER, OCEAN ADVOCATE, OCEANA
    Mr. Messmer. Good morning. Thank you, Congresswoman 
Pingree, Ranking Member Joyce, and members of the subcommittee 
for this opportunity. I am Mike Messmer, an ocean advocate at 
Oceana, the largest international advocacy organization devoted 
solely to oceans conservation. I am here to speak in opposition 
to expanded offshore oil and gas drilling, particularly to the 
Trump Administration's 2019-2024 5-year program for offshore 
oil and gas leasing that the Department of Interior's Bureau of 
Ocean Energy Management is currently developing.
    Oceana thanks the committee and members for including 
provisions in the Fiscal Year 2020 Interior, Environment 
appropriations bill to restrict funding for offshore oil and 
gas leasing in the Atlantic Ocean, Pacific Ocean, and Eastern 
Gulf of Mexico. There is longstanding precedent for this as 
Congress for nearly 3 decades heeded concerns from the 
communities it represents and restricted spending on offshore 
Federal oil and gas leasing and drilling activities via the 
appropriations process.
    We urge the committee to include these offshore drilling 
moratoria again as you craft the Fiscal Year 2021 base bill. We 
also encourage committee leaders to work with the Senate to 
include these provisions in any final package.
    The 5-year program governs when and where BOEM can offer 
offshore drilling leases to the oil and gas industry. In 
January 2018, the Trump Administration released its 2019-2024 
draft proposed program. As it stands, this proposal would 
radically expand future oil and gas leasing to the Atlantic, 
Pacific, and Arctic Oceans as well as off Florida's Gulf Coast. 
The draft plan proposes opening the vast majority of the outer 
continental shelf. Reinstating offshore drilling moratoria 
through the appropriations process would prevent BOEM from 
leasing specific areas that Congress wishes to protect from 
future offshore drilling. Without moratoria provisions, 
Congress relinquishes its power to influence the future of 
offshore drilling to the executive branch.
    Offshore drilling threatens the continued prosperity of 
coastal communities and States whose economies are directly 
tied to clean oil-free shores and waters. As of today, 
opposition and concern over offshore drilling activities has 
been expressed by every East and West Coast governor, more than 
380 municipalities, over 2,300 State, local, and Federal 
elected officials, Democrats and Republicans alike, and 
alliances representing over 56,000 businesses and more than 500 
fishing families. In addition to permanently altering the 
landscape of many towns up and down the East and West Coasts, 
offshore drilling is a dirty investment with long-term 
implications for the environment and the safety of workers.
    Large-scale catastrophies, such as BP's Deepwater Horizon 
in 2010, highlight how a single accident can cause enormous and 
lasting consequences. The Deepwater Horizon tragedy killed 11 
rig workers, spilled more than 200 million gallons of oil, 
fouled thousands of miles of coastline, endangered public 
health, and killed thousands of birds, dolphins, and fish. 
Seaside communities on the Gulf are still recovering physically 
and economically from the estimated $36.9 billion in damage 
caused by the Deepwater Horizon spill.
    Offshore oil development is dirty across the board beyond 
catastrophic spills that make headlines. At least 6,500 oil 
spills occurred in U.S. waters between 2007 and 2017; further, 
are typically far larger than what is reported. During that 
same time period, hundreds of workers were injured every year, 
and, on average, a fire or explosion erupted on offshore rigs 
every 3 days on the outer continental shelf.
    Offshore oil and gas exploration activities, such as high-
intensity geophysical seismic surveys, pose dangers to marine 
life before commercial drilling even begins. Noise from these 
dynamite-like blasts is so loud that it can disturb, injure, or 
even kill animals across the entire marine ecosystem from the 
smallest zooplankton to the largest whales. The North Atlantic 
right whale, one of the most endangered marine mammal species 
in the world, is a particular concern. Experts say seismic air 
gun blasting for oil and gas exploration may well represent a 
tipping point for the survival of this critically-endangered 
whale.
    We urge the subcommittee and committee to restrict any 
funding in the Fiscal Year 2021 Interior, Environment 
appropriations bill for the purpose of conducting any new 
offshore oil and gas leasing and related activities. Threats to 
coastal economies, marine wildlife, and your own constituents 
are simply too great to risk expanding the footprint of 
offshore drilling. Thank you again for the opportunity to 
testify today.
    [The statement of Mr. Messmer follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Pingree. Thank you all very much for your testimony and 
for the critical work that your organizations are doing. I just 
want to make a couple of comments, particularly, well, to each 
one of you. But thank you to POGO for the work that you have 
done on the report, researching this. And I think particularly 
in light of the last panel where, funding for land and water 
conservation, the Kilmer bill that is proposed, so much of it 
depends on how much we receive on these leases. So the idea 
that there would be any mechanism that would reduce the amount 
that we receive, and also that there is no transparency, is 
really unthinkable. So thank you for bringing to light, and I 
hope we can do some work on that in the next bill.
    Certainly we are all concerned about the Administration's 
proposals in Alaska, and even as far as Maine, I hear from my 
constituents about this all the time because I do think we 
think of these as national treasures. In terms of the logging 
rights, as you mentioned, the President just said we are going 
to plant 1 million trees, and we don't need to cut down trees 
in areas where we should be protecting them. And obviously 
there are appropriate places for forestry harvesting. My State 
is one of them. But there are places in public lands where we 
shouldn't be doing that.
    And I am particularly disturbed about the leasing of oil 
and gas opportunities, particularly when we are not paid the 
full value. But even more importantly, I think as solar, and 
wind, and renewable resources become even more affordable, the 
fact that we are not investing in that, yet we are encouraging 
and supporting and subsidizing oil and gas leases, is 
ridiculous at this moment in time when we have bigger concerns 
to think about.
    I just heard someone give a talk that said 5 years ago in 1 
percent of the world, solar and wind was more financially 
feasible than oil and gas. Five years later, today, in two-
thirds of the world, it is more cost-effective to invest in 
solar and wind. So the very idea that we are supporting that is 
unthinkable. It also makes a lot of those resources subprime, 
and so over time, the reason the value is going down is because 
it is increasingly less valuable. The reason these companies 
want, you know, a cheaper, no expense to their bid is because 
they know in the future there is not going to be much support 
for it. So it is just bad policy all the way.
    And, of course, being from an ocean State where we have so 
many concerns about the future of the ocean, and I think you 
know our entire delegation, our tripartisan delegation, and our 
governor, our State legislature are just furious at the idea 
that the Administration would suggest that we should drill. It 
would be a huge challenge to our fishing industry, it would be 
a disaster to our tourism industry, two very important 
industries to our State. And it doesn't make any sense, and we 
are much more interested in offshore wind and solar projects, 
and that is where our money should be.
    So obviously I didn't ask you guys any questions, but I 
just wanted to rant there for a minute and really support the 
work that you are doing. And I am so grateful for you helping 
us to make that case. Mr. Joyce.
    Mr. Joyce. I certainly appreciate all of you coming today 
and the information that you have provided all of us. I don't 
have any further questions. Thank you.
    Mr. Kilmer. Thank you, Madam Chair. Thank you each for the 
work you do. Mr. Messmer, last week I was in Grays Harbor 
County, Washington out on the coast meeting with folks who work 
in the fishing industry. And obviously it has been a 
challenging time. And the concern about offshore drilling is 
real, you know. It is perceived in our region by Democrats, 
Republicans, you name it, as a real threat to those 
livelihoods, to our maritime industry, to commercial fishing, 
sport fishing, tourism. We have a $50 billion maritime economy, 
almost 200,000 jobs supported by it just in Washington State 
alone, and it is incompatible with oil and gas development.
    You spoke about hoping to see in the bill restriction of 
funds to be used for offshore drilling. Any other direction 
either to this committee or to Congress to protect the coastal 
communities that are really put at risk?
    Mr. Messmer. Thank you. I think at this time what we would 
really like to see is the restoration of these funding 
restrictions to the bill. They had a 30-year. This is nothing 
new. They are something out of the legacy of Congress. This is 
something that Congress had done in response to the will of its 
constituents and because of the interest of members as well for 
almost 30 years from 1982 to 2008. And so we very much think 
that this is returning, restoring these provisions to the bill 
as you did last year. Unfortunately, we didn't make it through 
the Senate and on to the White House. But, you know, obviously 
regardless, we keep pushing on that front as well as protecting 
the North Atlantic from seismic. I know there was language that 
Mr. Cunningham offered last year, which was amended to the 
bill. And we obviously support that language as well.
    Mr. Kilmer. Okay. Thank you.
    Mr. Messmer. Thank you.
    Ms. Pingree. I want to just add, I meant to say that. But 
thank you so much for the data and the support around limiting 
seismic drilling exploration. Obviously the right whale is a 
huge topic in the Gulf of Maine, and we are concerned about 
every threat to the right whales, and so thank you for making 
that case.
    Thank you to the panel. We appreciate all your work, and we 
appreciate your being here today. And we will look forward to 
our last, but certainly not least, panel of the morning.
    Okay. Well, thank you for being so prompt, and we will go 
ahead and begin this panel. Thank you, Ms. Kraska.
    Ms. Kraska. Kraska.
    Ms. Pingree. Kraska, yes.
    Ms. Kraska. Mm-hmm.
    Ms. Pingree. Thank you. Please go ahead.
    Ms. Kraska. Exactly how it sounds. Thank you so much. I 
appreciate it.
                              ----------                              

                                        Thursday, February 6, 2020.

                                 ASPCA


                                WITNESS

KATIE KRASKA, SENIOR MANAGER OF FEDERAL LEGISLATION, ASPCA
    Ms. Kraska. Good morning, Vice Chair Pingree, Ranking 
Member Joyce, and members of the subcommittee. Thank you for 
the opportunity to testify on the non-lethal and sustainable 
management of our Nation's wild horses and burros under the 
care of the BLM. My name is Katie Kraska, and I am the senior 
manager of Federal legislation for the American Society for the 
Prevention of Cruelty to Animals.
    Wild horses and burros are a key segment of the equine 
population at the ASPCA is working hard to protect. We 
appreciate the subcommittee's continued commitment to non-
lethal management, most recently extending these protections to 
herds on U.S. Forest Service lands in Fiscal Year 2020. 
Recognizing the American public's overwhelming opposition to 
horse slaughter and killing for population control, Congress 
has, since the late 1980s, prohibited lethal management of our 
wild herds, and we urge that this continue in Fiscal Year 2021.
    But wild horses and burros need more than these protections 
to thrive for generations to come. That is why I am here today 
to speak in support of a new humane path forward for the Wild 
Horse and Burro Program. If there is one thing that everyone on 
all sides of this highly-polarized issue can agree on, it is 
that the status quo is not working. This program is in 
desperate need of a change, and know that ASPCA does not agree 
with the BLM's current view that the 31 million acres of land 
allotted for wild horses and burros can only support 27,000 
equines. We know that achieving a sustainable program requires 
a stable population over time.
    The current strategy of moving horses off range and into 
holding facilities is not capable of achieving this goal 
because it does nothing to address population growth. We end up 
with more horses on range, more horses off range, and a 
shrinking budget to use on active management. Last year, off-
range holding costs devoured 67 percent of the program's annual 
budget. Despite the negativity and polarization that has 
plagued this issue for decades, we want to focus on solutions.
    For the first time, and in large part due to the 
subcommittee's leadership, we have an opportunity to slowly but 
surely steer this program on to a sustainable and humane 
course. The ASPCA, along with other humane and wild horse 
advocacy groups, recognize that the BLM's Wild Horse and Burro 
Program needed not only an overhaul, but direction on how to 
accomplish it. Our goal was a paradigm shift away from removals 
and towards on-range management achieved with proven, safe, and 
humane fertility control. That is why we developed a 
comprehensive science-driven, non-lethal management plan that 
will achieve this goal within 1 decade.
    Wild horse and burrow management has vexed administration 
after administration, Congress after Congress, which is why it 
is a privilege to be able to thank the vice chair, the ranking 
members of the subcommittee, and their staff for their hard 
work and unprecedented action in the Fiscal Year 2020 Interior 
appropriations bill. In the end, this committee allocated an 
additional $21 million for a new management plan. It takes 
courage and expertise to recognize the need for action.
    This was a truly bipartisan effort, and we applaud the 
subcommittee's directive to BLM to ensure that effective and 
humane fertility control is adopted as the central pillar of 
its management program, and to strictly adhere to its 
comprehensive animal welfare program to ensure that horses and 
burros on and off range are always handled humanely. With the 
support of a wide variety of stakeholders, we are carving a 
humane path forward for these iconic animals of which Americans 
can be proud.
    Assuming that the BLM meets Congress' requirements, we urge 
the committee to continue to increase funding for BLM's Wild 
Horse and Burro Program in Fiscal Year 2021. We look forward to 
seeing BLM's forthcoming report outlining how it intends to use 
the additional $21 million in funds, which we hope will convey 
their clear commitment to a humane path forward. We also 
support the subcommittee's commitment to oversight and 
understand that Agency input and communication are critical to 
the lasting success of these efforts.
    From a humane and scientific standpoint, the most cost-
effective way to rebalance this program is to dedicate maximum 
funding up front, but correct implementation, especially of 
fertility control, is key. Ultimately, the American public 
wants to see wild, free-roaming horses and burros managed with 
their well-being in mind. We thank the committee for taking 
action to achieve this and for considering funding and 
programmatic needs for the Wild Horse and Burro Program in 
Fiscal Year 2020. I welcome your questions.
    [The statement of Ms. Kraska follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Pingree. Thank you very much. Ms. Marienfeld?
    Ms. Marienfeld. Marienfeld, yes.
                              ----------                              

                                        Thursday, February 6, 2020.

                   SOUTHERN UTAH WILDERNESS ALLIANCE


                                WITNESS

KYA MARIENFELD, WILDLANDS ATTORNEY, SOUTHERN UTAH WILDERNESS ALLIANCE
    Ms. Marienfeld. I represent the Southern Utah Wilderness 
Alliance, a nonprofit dedicated to the preservation of the 
outstanding wilderness at the heart of the Colorado Plateau. We 
thank you for providing the opportunity to present our views on 
the subcommittee's support for the Bureau of Land Management's 
financial involvement in the State of Utah's Watershed 
Restoration Initiative, a partnership that has resulted in tens 
of millions of Federal taxpayer dollars spent on the 
destruction of native ecosystems throughout public lands and 
Utah. Specifically, we are concerned that the subcommittee's 
explicit support for this partnership greenlights BLM spending 
on large-scale removal of native vegetation risks diverting 
limited agency monies away from critical staffing needs, and 
results in irreparable damage to Utah Public Lands.
    Utah's Watershed Restoration Initiative, which I will refer 
to as the Initiative, is founded and coordinated by the Utah 
State Department of Natural Resources. The Initiative is a 
coalition of public and private entities created to fund and 
promote vegetation and habitat projects in Utah. The money 
pooling function of the initiative has undoubtedly produced a 
continual increase in vegetation removal on BLM managed public 
lands in our State.
    In the report accompanying the appropriations bill for 
2020, this subcommittee highlighted its concern over ongoing 
drought in the western United States, and overtly endorsed 
BLM's continued funding of the Initiative to, as the 
subcommittee stated, ``develop water resources to benefit the 
public, wildlife, endangered species, permits use, and other 
users.'' But vegetation removal projects, called vegetation 
treatments or habitat restoration, take many forms. Often the 
initiative invests in projects that employ heavy machinery and 
extensive surface disturbance.
    One prevalent method is mastication where a machine known 
as a bull hog is used to mulch vegetation, turning entire 
forests of live trees into thousands of acres of wood chips and 
stumps. Chaining utilizes a large anchor chain dragged between 
two enormous bulldozers to rip live trees out of the ground, 
roots and all. These chain masticators and other heavy 
equipment destroy the fragile living soil crust that is the 
backbone of the Colorado Plateau ecosystem, and is our main 
defense against future drought and desertification.
    While preventing drought and fire and protecting watersheds 
are laudable goals for BLM, science tells us that the large-
scale disturbance resulting from these projects can actually 
make these problems worse. BLM is spending millions of dollars 
a year on projects with no proven track record of success and 
with no real plan to develop the science necessary to increase 
those odds in the future. Furthermore, the Initiative's funding 
regime has created a tail-wagging-the-dog situation as this 
pool of money has grown, so has the size and scale of 
vegetation removal projects proposed by BLM, regardless of 
science and research that recommends otherwise.
    Since 2006, BLM has contributed over $80 million in funding 
to support initiative projects in Utah. It is exceptionally 
difficult for the public to follow the trail of financing from 
congressional appropriation to BLM funding of initiative 
projects. We are concerned that discretionary agency monies are 
being moved away from other needs, such as filling critical BLM 
field office staffing vacancies and positions ranging from law 
enforcement officers to biologists, and is instead being 
transferred to a money pooling coalition controlled by the 
State of Utah. Rather than protecting water resources, this 
taxpayer money is being used to fund the removal of native 
trees and shrubs, which results in a degraded ecosystem on 
public lands. Our concern over a lack of transparency is 
heightened when considering the revolving door between 
leadership at the Department of Interior and the State of Utah.
    We are not advocating that truly degraded ecosystems can 
never benefit from human help, but rather that the subcommittee 
should not continue to effectively grant BLM blanket approval 
to fund large-scale vegetation removal projects through this 
initiative partnership. We believe that additional 
appropriations oversight is necessary to ensure that BLM's 
funding pipeline for so-called watershed restoration projects 
is transparent, and that projects are grounded in high-quality 
science and monitoring, and that discretionary BLM funds are 
not being diverted from necessary staffing and resource needs 
toward Initiative projects.
    We encourage the subcommittee to take a hard look at its 
endorsement of this partnership. Issues of accountability, both 
through BLM's funding process as well as when public funds are 
in the Initiative's hands, and the Initiative's continual 
promotion of projects that benefit economic interests at the 
detriment of all other resource values. Thank you.
    [The statement of Ms. Marienfeld follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Pingree. Thank you very much. Mr. Simpson. You are 
well-miked today. [Laughter.]
    Mr. Simpson. Stereo right here.
                              ----------                              

                                        Thursday, February 6, 2020.

                        PUBLIC LANDS FOUNDATION


                                WITNESS

DON SIMPSON, VICE PRESIDENT, PUBLIC LANDS FOUNDATION
    Mr. Simpson. Well, thank you for the opportunity to testify 
today. My name is Don Simpson. I am the vice president of an 
organization called the Public Lands Foundation, PLF. We are a 
national nonprofit organization. We are nearly all retired 
employees of the Bureau of Land Management and have a large 
body of experience, expertise, and knowledge of public land 
management. I am here today to present our program priorities 
for the 2021 budget for BLM.
    The first program area is balanced energy development. I 
think we have had a little discussion already. We believe the 
subcommittee should support the environmentally-responsible and 
balanced development of all energy resources. This includes 
oil, gas, coal, solar, wind, and geothermal. It also includes 
the associated pipeline and transmission infrastructure. It is 
critically important that sufficient funds are provided to not 
only support the leasing and permitting activities, but also 
the land use planning, the resource assessments, the NEPA 
reviews, the program management, and the inspection and 
enforcement activities.
    Sage-grouse habitat is the second issue that we have. As 
the West has become urbanized over the last 100 years, large 
areas of sagebrush have been impacted, resulting in significant 
sage-grouse population declines. The PLF recommends increased 
funding for the BLM to coordinate activities on public lands 
with State agencies, stakeholders, and partners to improve and 
restore habitat that has been damaged by wildfire, weed 
invasions, and development. Conserving and restoring habitat 
for sage-grouse will also enhance populations for elk, mule 
deer, golden eagles, and hundreds of sagebrush-dependent 
species.
    Wild horses and burros, number three. So I am going to tag 
on to what Ms. Kraska was talking about. The overpopulation of 
wild horses and burros on the range is now nearly 4 times its 
targeted management level, and it is past a critical point, and 
it is doing irreparable harm to the land, the vegetation, the 
wildlife, and the animals themselves. The PLF has been working 
as a partner with a broad coalition of diverse stakeholders 
that are seeking a solution to the problem. The only viable 
approach for resolution is the implementation of a consistently 
funded multiyear strategy that entails aggressive removals, 
broadscale annual application of fertility control, novel 
efforts to increase adoption, such as BLM's recent incentive 
program, and pasturing of unadopted animals. We recommend that 
the committee, at a minimum, retain the 2020 funding levels for 
the Wild Horse and Burro Program, with increases and long-term 
funding to implement the BLM's soon-to-be-presented plan.
    Recreation is the fourth area I would like to discuss. For 
those of you that have visited the West recently, it is growing 
very rapidly. It is placing a significant demand on the public 
lands for recreation opportunities. In Fiscal Year 2018, the 
public lands provided 68 million recreation visits with an 
economic output of nearly $7 billion to the western States' 
economies. We recommend that this subcommittee increase funding 
for recreation, wildlife, fisheries, land restoration, and the 
Land and Water Conservation Fund. These funds will allow BLM to 
maintain and add recreation opportunities, secure easements for 
access to landlocked public lands, and restore degraded lands 
to improve wildlife and fisheries habitat.
    Fifth is an emerging and important program area, wildlife 
migration corridors. BLM has been working for several years now 
with the State wildlife agencies to identify wildlife migration 
corridors for species such as mule, deer elk, and pronghorn 
antelope. Funding should be provided to continue and expand 
this effort. These are very small amounts of public lands, but 
they are crucial for the species to get to and from their 
winter and summer habitats. Our sixth and final issue I would 
like to highlight is the functional elimination of the BLM 
headquarters. As you are aware, the Secretary of Interior 
announced the movement of the BLM headquarters of employees 
from Washington, D.C. to 11 western States. That was done last 
summer. So the director, assistant directors, and a few 
immediate staff are going to be located in Grand Junction, 
Colorado. The other staff will be scattered throughout other 
western locations. The PLF opposed this proposal as it will 
functionally eliminate the Agency's headquarters. The result 
will be the largest Federal land managing agency with no seat 
at the table in Washington, D.C. as policy procedures and 
budgets are developed. We strongly believe the BLM headquarters 
should be located in Washington, D.C. We recommend that funding 
be eliminated for the continuation of this action in Fiscal 
Year 2021, and that significant congressional oversight occur 
by both House and Senate Appropriations and authorizing 
committees during Fiscal Year 2020.
    Thank you for the opportunity to share PLF's priorities.
    [The statement of Mr. Simpson follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Pingree. Thank you so much. Mr. Ogsbury.
                              ----------                              

                                        Thursday, February 6, 2020.

                     WESTERN GOVERNOR'S ASSOCIATION


                                WITNESS

JIM OGSBURY, EXECUTIVE DIRECTOR, WESTERN GOVERNORS' ASSOCIATION
    Mr. Ogsbury. Thank you. Vice Chair Pingree, Ranking Member 
Joyce, my name is Jim Ogsbury. I am the executive director of 
the Western Governors Association, a bipartisan organization 
representing the governors of the 22 westernmost States and 
territories. It is my profound honor to appear before you, 
particularly because of the disproportionate influence of the 
Interior appropriations bill on the economies, and 
environments, and quality of life in the great American West.
    Western governors have few priorities that are higher than 
that of strengthening the State-Federal relationship. As the 
chief executives of co-sovereign governments, they aspire to 
work shoulder to shoulder with the Federal agencies as 
authentic partners in the development and execution of policy 
that affects our shared constituencies. States are not 
stakeholders, although they are too frequently treated as such 
by Federal authorities. They are sovereigns governed by men and 
women whose knowledge of their States' unique environments and 
economies and cultures should be integrated into Federal 
policymaking. Federal consultation with States that is 
substantive, meaningful, and ongoing, and it occurs at the very 
earliest stages of a policy's ideation and throughout its 
execution will result in policy that is more informed, durable, 
and defensible.
    This subcommittee in particular has consistently recognized 
the value of State engagement, directing that resource agencies 
within your jurisdiction utilize State science and data and 
analysis to inform Federal decision making. Western governors 
urge you to include such language in the report to accompany 
the Fiscal Year 2021 appropriations bill. The governors 
understand that you operate under severe fiscal constraints. 
Within those constraints, they respectfully urge your 
consideration of their priorities, which are outlined in detail 
in the written testimony that WGA has submitted for the record. 
With respect to the conservation of the West's unparalleled 
natural resources, those priorities include funding to support 
the shared stewardship memorandum of understanding executed by 
western governors with the Department of Agriculture, and 
additional funding to advance State-supported projects and 
programs promoting voluntary mitigation corridors and habitat 
conservation.
    Western governors appreciate the subcommittee's historic 
support of the Payment in Lieu of Taxes Program. PILT funding 
does not represent a gift to western States. Rather, it helps 
compensate western jurisdictions for the disproportionate 
measure of nontaxable Federal lands within the region. WGA 
encourages you to continue full funding of PILT in the Secure 
Rural Schools Program in the coming Fiscal Year.
    I commend your attention to my written testimony for a 
discussion of other gubernatorial priorities, including 
protection of State authority over our water and groundwater, 
funding to address the maintenance backlog at national parks, 
efforts to combat invasive species, and funding to help States 
comply with their obligations under the Clean Water Act. In the 
meantime, thank you again for the opportunity to testify. 
Western governors appreciate the enormity of your 
responsibilities, and urge that you regard them as partners and 
resources as you establish funding priorities for the Nation. 
Thank you.
    [The statement of Mr. Ogsbury follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Pingree. Thank you very much for your testimony. Thank 
you to all of you for the great work that you are doing. Ms. 
Kraska, I know that is an intractable problem, and I appreciate 
the hard work that your organization is doing. Ms. Marienfeld, 
I am coming from an eastern State so unaware of some of the 
things that happen in western States. And, I will certainly get 
up to speed and learn a little more about this.
    But I guess I am not completely clear what the original 
purpose is of deforesting and this vegetation, I forgot what 
you termed them as. But anyway, what is the stated purpose of 
doing that?
    Ms. Marienfeld. It varies from project to project. 
Oftentimes you get sort of a catch-all where it is wildlife 
restoration, habitat, sage grouse protection is one, watershed 
protection. Grazing is really heavily involved in these 
projects as well. It is never a stated benefit more often than 
not these days, but it is often an auxiliary benefit of the 
treatments when they happen. And then more recently, you are 
seeing fire prevention as a stated reason for doing these 
treatments in the West as well.
    Ms. Pingree. So when you deforest land, does prairie grass 
or something grow up there so it become grazing land?
    Ms. Marienfeld. In the West, more often than not, it has to 
be really heavily impacted, heavily treated in order for that 
to happen. There are a lot of factors that go into perennial 
grasses or forbs coming back. You will see land management 
agencies that seed there. They often seed non-native species 
that are good for cattle forage as part of these projects. But 
it is really dependent on whether in climate conditions, 
whether or not the treatments are successful at the end of the 
day, which is why you do see, according to the best science and 
the research that is out there right now, that the treatments 
really are unsuccessful by most metrics a lot of time, if they 
are in those very heavily surfaced disturbing manners. The big 
mechanic treatments that we are talking about here.
    It depends on the weather. If you get rain, maybe it will 
work, but if you don't, which is far more common these days, 
they are unsuccessful, and you have to go back and do basically 
the same thing about 10 years later.
    Ms. Pingree. Well, thank you. I am sure I will be 
interested to learn more about that.
    Ms. Marienfeld. Yes, thank you.
    Ms. Pingree. Mr. Simpson, I, too, am very concerned about 
this relocation and the reorganization of the Bureau of Labor 
Management. I also sat on Agriculture Appropriations, we have 
been very discouraged to watch the relocation of ERS and NIFA, 
and can see that that has just had disastrous consequences, a 
lot of senior staff was lost in the process, so a lot of the 
experience and brain trust there, and didn't seem to be a lot 
of consultation.
    So I am just curious. From your perspective, the 
Administration maintained that it conducted extensive 
consultation with Bureau employees, especially senior 
employees, before implementing this breakup. Can you tell us 
what you are hearing from members of your organization 
regarding that claim?
    Mr. Simpson. Sure. So we have about 600 members, and they 
are scattered throughout the country, so they are near a BLM 
office somewhere in the West. We do a lot of work with them, 
public lands appreciation days, that kind of stuff, so we are 
in daily contact pretty much with our BLM offices. And I have 
to say when that was announced last summer, none of the BLM 
people that we had talked to knew this was coming. They read 
about it the same time we did.
    Ms. Pingree. Yeah, that is very discouraging, and, again, 
we have lots of concerns about this, and hopefully, in my 
opinion, the committee can exercise more oversight on this 
process. Thank you, too, Mr. Ogsbury. I appreciate your 
representation of the western State governors. Mr. Joyce.
    Mr. Joyce. Thank you all for being here. I can appreciate 
the problems that you certainly have. It is something that we 
have studied, and the combination of the animals and the land 
and trying to find where we have that perfect match. I know the 
answers aren't easy, but we will continue to work with you to 
try to address those concerns. Thank you for coming.
    Ms. Pingree. Thank you to this panel. This concludes the 
morning hearing, and we stand adjourned until the afternoon 
hearing begins at 1:00 p.m. Thanks again very much for your 
testimony.
    Voice. Thank you.
                                        Thursday, February 6, 2020.

                           AFTERNOON SESSION

                              ----------                              


                        NATIONAL AUDUBON SOCIETY


                                WITNESS

DAVID O'NEILL, CHIEF CONSERVATION OFFICER AND SENIOR ADVISOR TO THE 
    CEO, NATIONAL AUDUBON SOCIETY
    Ms. McCollum. Good afternoon, and welcome to our second 
public witness hearing covering non-tribal programs under the 
jurisdiction of the Interior, Environment, and Other Related 
Agencies subcommittee. This morning we heard from advocates 
from the arts and from the humanities discuss issues related to 
land and water conservation funding, energy, science, and 
conservation programs. This afternoon we are going to be 
focusing on issues related to endangered species conservation, 
public lands, and critical environmental programs for our 
Nation. We will be hearing from the remaining 21 witnesses.
    Before I begin, I am going to go over a couple of logistics 
here for the hearing. We are trying to stay on time. So my 
colleagues are in and out of the room. We have a gentlepersons 
agreement to help each other, but we also have, as you see in 
front of me, a big fat book with everybody's testimony. And 
Jocelyn can tell you, I have a lot of things highlighted, so I 
have looked at things before, and I am frantically taking notes 
during the hearing. So I want you to know that that you are 
being listened to and paid attention to.
    What we are going to do, and the first panel is at the 
table, we are going to call the panels up one at a time. 
Everybody is going to get 5 minutes to present their testimony. 
We are going to use a timer to track the progress. When the 
light turns yellow, the color of this highlighter, witnesses 
will have 1 minute remaining to conclude their remarks. When 
the light blinks red, I will lightly tap--I won't use the big 
end of the gavel--but I will let you know that it is time for 
the next witness to start. And that is so all witnesses can 
have an opportunity to be heard without getting too delayed.
    Having said that, we do have votes scheduled some time 
between 1:20 and 1:30 we feel, so when we call votes, please 
make sure that we are going to be taking a brief recess and 
come back as soon as we can, and we will pick up where we left 
off. So I would ask people to stay close. There are places to 
get coffee and some things around here on this floor. So take 
your rest break and grab what you need, but stay close because 
we will start as soon as a member is back.
    I would like to remind those in the hearing room of the 
committee rules, however. We prohibit the use of cameras and 
audio equipment during the hearing by individuals without 
House-issued press credentials. So, Mr. Joyce, has told me to 
get started so we don't delay. And what we did this morning to 
save a little extra time is we had people introduce themselves, 
and we found it really kept things moving a little faster. So 
maybe the second panel would like to get in before votes get 
started.
    So, Mr. O'Neill, your introduction will not count against 
your time, so please introduce yourself and then we will start 
your time.
    Mr. O'Neill. Great. Thanks so much for the opportunity. I 
much appreciate it. My name is David O'Neill. I represent the 
National Audubon Society and our 1.7 million members across the 
country as its chief conservation officer and senior advisor to 
the CEO.
    Ms. McCollum. And you can start your testimony.
    Mr. O'Neill. Sure. I am here to discuss an ongoing crisis 
of bird survival, what the crisis signals for communities, and 
steps the committee can take to reverse the alarming trend.
    Since 1970, we have lost 3 billion of America's birds, and 
two-thirds of our remaining birds are now at risk of extinction 
due to climate change. The birds we have lost are not just 
threatened and endangered species, but common birds in 
communities and back yards across the country. The bird 
declines we are seeing and predicting are due to human 
activity: loss of habitat, greenhouse gas emissions, on and on. 
This is the fifth alarm and a five-alarm fire that is crystal 
clear to the 48 million birders across the country.
    But birders aren't the only ones who should care about 
these staggering figures. Birds are important indicator 
species. They are indeed the canary in the coal mine, meaning 
that severe declines in bird health tell us about future 
threats facing people and communities. With the Administration 
implementing rollbacks to bedrock environmental laws, 
increasing Federal conservation investments is a critical 
backstop. The bipartisan projects and programs under your 
jurisdiction provide tangible, scientifically-based solutions 
to recover our bird populations as well as to provide cleaner 
air and cleaner water. The National Audubon Society is 
proposing Fiscal Year 2021 funding priorities to address 
critical threats facing birds and to start to reverse these 
declines. I thank this committee for its work to consistently 
expand and enhance conservation funding. The recovery of birds 
require it.
    Our recent ``State of the Birds'' study that documented the 
3 billion bird loss also found one area for hope: waterfowl. 
Waterfowl are the one bird guild that not only did not 
experience declines. In fact, it increased by 56 percent, in 
large part due to investments to wetlands conservation work 
through the North American Wetlands Conservation Act, or NAWCA. 
And I thank the committee for continuing to prioritize this 
investment. Conservation works, and we urge funding for this 
program at $50 million.
    The Neotropical Migratory Bird Conservation Act Grants 
Program is one of the best opportunities to build on NAWCA's 
success for the billions of migratory birds that pass through 
our backyards to breed and winter outside our borders. The 
program is an innovative, cost-effective approach to bird 
conservation, supporting projects that benefit birds and their 
habitats, research and monitoring, law enforcement, and 
education programs in Canada, the U.S., Latin America, and the 
Caribbean. It is important to reauthorize the Act and to fully 
fund the program at $6.5 million, and we would like to work 
with you and others to see how we could expand that program in 
the future.
    The Great Lakes Restoration Initiative present provides a 
regional success story that not only restores habitat, but 
allows the community to take part in education and stewardship 
of restoration programs over a long period of time. The newest 
GLRI action plan prioritizes, among other things, the 
restoration of wetlands that attract and restore to sustain 
breeding marsh bird populations. Increasing the investment in 
GLRI can help advance these important goals for birds. 
Investments at the ecosystem scale, like the Great Lakes 
program, are critical to protecting the full spectrum of 
habitat needs for birds. We urge the creation of a similar 
program for the Mississippi or Upper Mississippi River Basin, 
and we had be thrilled with the opportunity to work with you, 
Representative McCollum, on that to make that a reality. There 
are dozens of successful programs moving forward across the 
country, all of which require full and sustained Federal 
funding. We are standing at a crossroads. Now is the time to 
fully invest in conservation programs at a scale necessary to 
address the crisis and to ensure a sustainable path forward for 
birds and communities now and into the future.
    Thank you very much for your time and your attention.
    [The statement of Mr. O'Neill follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you.
                              ----------                              

                                        Thursday, February 6, 2020.

                       AMERICAN BIRD CONSERVANCY


                                WITNESS

STEVE HOLMER, VICE PRESIDENT OF POLICY, AMERICAN BIRD CONSERVANCY
    Mr. Holmer. Thanks very much for this opportunity to 
testify. I am Steve Holmer, vice president of policy for 
American Bird Conservancy, and we work to conserve birds in 
their habitats throughout the Americas. We are going to be 
talking today about a package of funding requests from a large 
coalition of groups, and this includes the Neotropical 
Migratory Bird Conservation Act at $6.5 million, Migratory Bird 
Joint Ventures at $19.9 million, State and Tribal Wildlife 
Grants at $70 million, North America Wetlands Conservation Act 
at $50 million, ``State of the Birds'' activities at $5 
million, and then an overall $10 million increase for invasive 
species eradication monitoring control. And we appreciate 
language about the greater sage-grouse and the need to advance 
its conservation.
    And I just want to take a moment to thank the committee 
because there were some very significant increases in last 
year's bill for this package of programs. This committee 
recommended over $20 million in increases. The final bill 
included about $10 million, so this was an important step in 
the right direction. But based on what we know about the $3 
billion bird report and the ``State of the Birds,'' there needs 
to be quite a lot more done. And I am not sure if you have 
received a copy of the 2019 ``State of the Birds'' report, but 
I just thought I would share that with you and others on the 
committee if you would like to see this, because it does 
highlight the science study showing the 2.9 billion birds gone, 
but it also shows that through State wildlife grants and 
through the migratory bird joint ventures, we are also seeing a 
lot of successes. We are seeing things getting done on the 
ground that can really make a difference.
    In your region where we have the Upper Mississippi and 
Great Lakes Joint Venture, the Kirtland's warbler is being 
delisted through concerted conservation action. And so it shows 
that when we focus our efforts, we can bring these birds back. 
Of course, wetland conservation is another big success story 
where we managed to bring back waterfowl in large part through 
NAWCA. The joint venture in your region has guided a number of 
NAWCA projects in Minnesota, and one of the reasons we are 
interested in supporting this package is for the simple reason 
that all these programs work very closely together. So I feel 
like we are making good progress and appreciate the support of 
the committee on these issues.
    In light of the billion birds report, there is an 
indication, though, that we need to think about doing even 
more. This is kind of a beginning as kind of how we are seeing 
that. And we also need to maintain the regulatory framework 
that makes sure that endangered species and public lands are 
protected. And at this point with rulemakings happening on the 
National Environmental Policy Act, Endangered Species Act, the 
Migratory Bird Treaty Act, on sage-grouse plans, on Forest 
Service, NEPA, we are concerned that the safety net for 
wildlife and public lands is now at risk. And so we appreciate 
the committee weighing in against these changes. I don't 
believe the public supports these deregulatory efforts, and it 
is really unfortunate that at a time when we are in a crisis 
where we are seeing, you know, significant losses, that there 
are policies that could end up actually making the situation 
worse. So it is really important that we address it on both the 
funding side and on the policy side.
    This committee included some really strong language in the 
report last year about reducing bird collisions. We thought 
that was very helpful because about 1 billion birds a year are 
lost to bird collisions. There was also language about the 
Tongass National Forest, actually an amendment to protect that 
forest. And forest carbon is very important as part of the 
strategy to address climate change, and we would love to see 
that language be included again in this year's appropriations 
bill, and perhaps be expanded to include the Pacific Northwest, 
where we have old growth forests that have very high carbon 
stores that are also essential for threatened species, such as 
the marbled murrelet. And, in fact, the relationship between 
murrelet habitat and high carbon force is nearly 100 percent, 
so by conserving that bird, we are helping on climate change as 
well as clean water for the region.
    So I appreciate all the good work of the committee, and I 
had be happy to answer any questions.
    [The statement of Mr. Holmer follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                                        Thursday, February 6, 2020.

                   ASSOCIATION OF ZOOS AND AQUARIUMS


                                WITNESS

DAN ASHE, PRESIDENT AND CEO, ASSOCIATION OF ZOOS AND AQUARIUMS
    Mr. Ashe. Good afternoon, Ms. McCollum, Mr. Kilmer. My name 
is Dan Ashe. I am the president and CEO of the Association of 
Zoos And Aquariums and the former director of the United States 
Fish and Wildlife Service. It is a pleasure to be back in front 
of you and a privilege, a privilege because of the importance 
of the work that you do to wildlife conservation, and a 
pleasure because I neither have to present nor defend an agency 
budget today. [Laughter.]
    The Association of Zoos and Aquariums, or the AZA, is the 
world's leading zoological professional association. In order 
to be a member, a facility like Como Park Zoo and Conservancy 
or Northwest Trek must meet our exacting accreditation 
standards, the world's gold standard for a modern aquarium or 
zoo. And our vision for a modern aquarium or zoo is of a 
purposeful place. Yes, fun and educational where visitors come 
and create memories that last lifetimes, but most importantly, 
where a visit helps to conserve wildlife and save animals from 
extinction.
    Our 238 member facilities spent a collective $231 million 
on field conservation in 2018, positioning them as among the 
world's biggest conservation investors, and that number will 
likely occur approach one-quarter billion dollars in 2019, and 
it will continue growing. It is not a phase or a fad. It is who 
they are. And we are passionate partners of the U.S. Fish and 
Wildlife Service, the National Park Service, the U.S. 
Geological Survey, and their State, local, and tribal 
counterparts. We support their work to conserve and recover 
species, like the California condor, manatee, black-footed 
ferret, sea turtles, hellbender, American burying beetle, red 
wolf, rhinoceros, and dozens and dozens more.
    Your support for the Endangered Species Recovery Challenge 
Grants is inspiring this partnership, and I hope you will 
expand funding for this program and insert report language 
encouraging the Service to grow its partnership with accredited 
zoos and aquariums. Our members are ready and willing.
    We are building exciting new partnerships with the Interior 
Department agencies, and I will just quickly mention three. 
Since 2017, we have built a zoo park partnership and this past 
year signed a memorandum of understanding with the Park Service 
calling for 25 new partnerships over the next 5 years. The 
Yosemite National Park-San Francisco Zoo Partnership is a 
perfect example. They just released their 1,000th endangered 
California red-legged frog in an effort covering four valley 
floor habitats where introduced bullfrogs had eaten up 
literally the native populations. Park and zoo staff collect 
frogs and tadpoles, which are then reared at the zoo until they 
are ready for re-introduction around age 2. Through efforts 
like this, we are helping national parks and national wildlife 
refuges conserve species like sea turtles, corals, grizzly 
bear, and bison, and linking AZA's 200 million annual guests 
with their national parks and other public lands, and 
connecting urban America with wildlife and the outdoor. Again, 
with the encouragement of report language and a few dollars 
perhaps for National Park Service natural resource manage and 
refuge operations in the U.S. Fish and Wildlife Service, we 
will grow momentum and excitement about this partnership.
    AZA's signature conservation program is Saving Animals From 
Extinction, or SAFE, and it is driving cooperative conservation 
of species from elephants to sharks to monarchs. Wildlife 
trafficking is a major cause of decline in many SAFE species, 
and through AZA's Wildlife Trafficking Alliance, we are working 
with the U.S. Fish and Wildlife Service on an innovative pilot 
confiscations network to help rescue and care for animals that 
are victimized by illegal trade. And finally, we are developing 
a strategy to manage AZA's entire polar bear population to 
support relevant conservation science. And this is going to 
help the Service and others answer key questions about the 
effects of climate change on managed wild bears, and also 
engage millions and millions of visitors.
    So, Ms. McCollum and subcommittee members, AZA's members 
are already exceptional partners of the Fish and Wildlife 
Service, the National Park Service, the U.S. Geological Survey, 
and others. They are anxious to do more nationally and 
internationally to conserve wildlife and save animals from 
extinction. Your encouragement through funding and report 
language will inspire ever more cooperation and innovation. And 
I want to thank you for your time and attention and everything 
that you do, and I am happy to answer any questions if there 
are any.
    [The statement of Mr. Ashe follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you. I am going to put this in a 
general format, and then those of you who feel comfortable, 
speak to it. So we worked very hard to get riders. Authorizers 
need to do their job. Our bill, we were very successful. We 
still have a little ways to go. Report language is a way in 
which we try to monitor what is the cost of inaction or what 
can be the benefit of action, getting that agencies and outside 
groups. So the report language that we put in is a useful tool 
for us when we are making our decisions, as well as it is a 
useful tool for the authorizers when we are having 
conversations on things.
    So, for example, lead poisoning has been brought up. What 
is the cost of lead poisoning? What is the cost of having a 
rider like that in there? How much money are we spending? What 
other things are we doing? What is the cost of inactivity when 
we don't get ahead of an invasive species, you know? Dutch elm 
took place. People probably weren't talking too much about 
birds back then. Climate change wasn't the issue it was then. 
But since then we have seen you know, what is happening with 
the beetle that is attacking our pine, with what is going on 
with Asian ash borer, urban and rural areas, and in forestry 
areas, and then the effects of climate change on top of that.
    So there is a cost, whether it is forest health or bird 
population, of not doing anything. What is the cost of when we 
see insecticides and things like that, you know, keeping it in 
or out of the water? How is it affecting frog populations? What 
happens to the bird population that eats the frogs? So we are 
trying to get a holistic approach and try to take a scientific 
approach to things like doing that. So I appreciate the 
acknowledgement of the report language we are putting in there 
because inactivity has consequences on our budget, and activity 
can have positive, sometimes negative, consequences on our 
budget.
    So if I could just maybe ask you to kind of speak to 
invasive species because we are trying to do more with that in 
the committee, about how our organizations can work with the 
scientific community. If you have got some ideas of how Mr. 
Joyce and I, and Mr. Kilmer is here. He cares a lot about the 
birds. I was in his district. You have got seabirds. I don't 
have that, so you have got it all. So maybe just take a take 1 
minute or 2 a piece, and just kind of tell me, you know, if 
there are some ideas on how we can get the invasive species 
part of this right, ideas on that.
    Mr. Holman. Sure. I will be happy to jump in there. Sage-
grouse are in severe decline across the range, and cheatgrass, 
an invasive grass, is a major factor. And, in fact, I have had 
Forest Service Agency people tell me that if we don't deal with 
the cheatgrass problem, there is really no way to bring back 
enough sagebrush habitat to conserve the grass. So there is one 
example where we could do more on cheatgrass.
    In Hawaii, mosquitoes and the spread of avian malaria and 
other diseases are a huge problem. These are non-native insects 
in Hawaii, and now there are efforts to eliminate these 
mosquitoes in Hawaii. And this is really crucial because we are 
seeing a lot of birds go extinct in Hawaii because of the avian 
malaria and other diseases. So there are two examples where, 
you know, dealing with invasives is really critical.
    And then the last is the monitoring, the fast attack. You 
know, when we think about the brown tree snake, for example, if 
that were to get to Hawaii, it would be disastrous. So there 
needs to be this ongoing effort to monitor and keep things out, 
and then when they are in, attack them immediately.
    Mr. Ashe. Two things, Ms. McCollum. I can't resist the 
temptation to speak about California condor and lead poisoning. 
And so the key in that case is to stop the source of lead 
poisoning. Every California condor that is in the wild in 
California has to be taken back into captivity and put through 
lead chelation. And if that didn't happen, and it is AZA's 
members, like Los Angeles Zoo and San Diego Zoo and Santa 
Barbara Zoo, that are doing that work. And if that didn't 
happen, then that recovery of that population would collapse 
automatically. So we have to eliminate the source of the 
problems and have the courage to do that, and non-toxic 
alternatives are available.
    With invasives you have to act quickly. And so right now, 
we are helping deal with a coral reef crisis off of Florida. 
There is an invasive disease that is wiping out 25 of the 40 
coral species along the entire Florida Reef tract, over 300 
miles of coral reef. America's largest coral reef is being 
decimated by an invasive unknown as yet disease. And so what is 
required is to get in ahead of that, rescue the coral, pull 
them into refugia so that we can have the hope of restoring 
that reef once we find out what is going on. And so the key 
thing for the Federal agencies and their State counterparts is 
to act quickly in the face of species invasion.
    Ms. McCollum. So, Mr. O'Neill, birds eat fish. Fish live in 
coral. We will you close it. [Laughter.]
    Mr. O'Neill. Yeah, I think one of the things that we are 
finding, particularly on our seabird work, which is interesting 
maybe to Mr. Kilmer, is that you are starting to see a mix of 
species moving into areas where seabirds really rely on fish in 
order to survive. There are out on the water maybe 70, 80 
percent of their life cycle. They are getting fish now that are 
too large for their beaks to be able to feed. They are no 
longer productive, and that is a big shift because of climate 
change. The warming of some of these oceans are creating 
different movements of fish. As a result, the sea birds aren't 
able to eat fish that are the size that can create productivity 
when they move to their breeding grounds.
    So that is an important shift, but the importance of the 
actions that can be taken are around really thinking about 
managing the small forage fish that are in these river systems 
and that move out into the oceans. Protecting forage fish is 
really important to saving sea birds, and sea birds have 
declined some 70 percent over the last 40 years. So that is an 
invasive species that is moving as a result in part of ocean 
temperatures and warming.
    And I want to pick up on Dan's point about, you know, 
something along the lines of the pesticide issue for birds., 
and Steve and I were talking about this earlier. It is a major 
issue for our board and our members. But pesticides we are more 
and more concerned about in terms of their impact on birds, and 
that is an issue that we want to explore further. I think some 
scientific research relative to the impact of pesticides on 
birds and the health of birds would be very valuable to really 
draw that link, that scientific link, between pesticide use and 
the loss of bird species throughout the Americas.
    Ms. McCollum. Thank you. Mr. Joyce.
    Mr. Joyce. Have you found any birds that like to prey on 
Asian carp? [Laughter.]
    Mr. O'Neill. Not yet.
    Mr. Joyce. Thank you all for being here.
    Ms. McCollum. Mr. Kilmer.
    Mr. Kilmer. None. Thank you.
    Ms. McCollum. Thank you very much. Thank you. And if the 
second panel would come up, please.
    I think we are going to be fine. We are finding out that we 
are seeing a yellow light. This morning we saw yellow light, 
but you are not seeing a yellow light right now. So we will 
give you an indication kind of where the minute comes without 
being too disruptive.
    So as the first panel did, if you would introduce yourself, 
and then we will start the clock then.
                              ----------                              

                                        Thursday, February 6, 2020.

                         DEFENDERS OF WILDLIFE


                                WITNESS

JACOB MALCOM, DIRECTOR OF THE CENTER FOR CONSERVATION INNOVATION, 
    DEFENDERS OF WILDLIFE
    Mr. Malcom. Good afternoon. I am Jacob Malcom. I am the 
director of the Center for Conservation Innovation at Defenders 
of Wildlife. Defenders has 1.8 million members and supporters, 
and we are dedicated to the conservation of wild animals and 
their habitats in their natural communities. Thank you, Madam 
Chairwoman, Ranking Member, and members of the subcommittee for 
the opportunity to speak with you today.
    The science that has been marshaled in recent years shows 
with unrivaled clarity that this is a pivotal time for wildlife 
and for humanity. You are likely familiar with last year's 
report. ``The Global Assessment on the Status of Biodiversity 
and Ecosystem Services,'' found that 1 in 8 species on the 
planet, or about 1 million species, are at risk of extinction. 
That is tens to hundreds of times faster than the background 
rate of extinction, and ultimately we are the cause of this 
loss.
    We have altered over 75 percent of terrestrial environments 
and two-thirds of marine environments. When you combine that 
loss with ongoing threats, like invasive species, climate 
change, the damage that we have done to nature is almost 
unimaginable. And the consequences of that are not just borne 
by nature, but also by humanity. Half a trillion dollars of 
crops are at risk of loss because of pollinator loss, which is 
a really big deal. Ecosystem services from fisheries to water 
filtration and beyond are all at grave risk of loss because of 
the damage to natural systems.
    But despite the darkness of these results, we also have 
good reason for hope because we know that we have solutions. We 
know we can make a difference when we act. We have reduced the 
risk of extinction for plants and animals by some 22, almost 30 
percent by investing in conservation. In the U.S. this is 
because of laws going back over a century for conservation 
starting with the Lacey Act in 1900, and because of our 
stewardship of our Federal public lands and public and private 
lands across the country.
    Defenders has a number of priorities that we have laid out 
in our written testimony, but here I wanted to focus for a 
moment on the key law for addressing the extinction crisis that 
we are facing now, the Endangered Species Act. The ESA is the 
epitome of success. Over 95 percent of listed species are still 
with us today, and hundreds of those are on the path to 
recovery. This record of success is even more stunning when you 
consider that species have received less than 25 percent of 
what scientists say is needed to recover them. You can imagine 
what we would be able to do if we invested fully in the 
Endangered Species Act. This point may have been most clearly 
made last fall in the Journal of Science when 1,800 scientists 
endorsed greater ESA funding as a key strategy for responding 
to the extinction crisis.
    The U.S. Fish and Wildlife Service is the lead agency for 
recovering most listed species, but its endangered species 
budget needs nearly double the current funding, or about $486 
million a year, for the Agency to carry out the missions 
Congress intended. For example, the backlogged Listing Program 
needs to increase nearly threefold to $51 million dollars a 
year so that the Agency can determine if species need 
protection. The Recovery Program funding needs to nearly double 
to almost $197 million a year. That would allow the Service to 
complete almost 400, actually over 400, recovery plans that are 
needed, and thousands of recovery actions that are already 
planned and just need to be taken action on.
    The Consultation and Planning Program needs an almost 50 
percent increase to $130 million, which would allow, among 
other things, the application of new technologies that really 
massively increase the efficiency of consultations. And the 
Cooperative Endangered Species Conservation Fund, which 
empowers States and private landowners to take conservation 
action, needs at least $100 million a year.
    Across these programs and others detailed in our written 
testimony, we have laid out a path to address the extinction 
crisis that looms before us. You and your constituents depend 
on nature and the ecosystem services it provides. 
Fundamentally, laws like the ESA will be little more than lip 
service to wildlife if they are not funded fully and carried 
out. So thank you for the funding increases last year. 
Defenders and all of the wildlife and their habitats certainly 
appreciate it. Now we need leaders to use their authorities, 
the power of the purse, to further our commitment to halt the 
extinction crisis and reverse the fortunes of nature. Thank 
you.
    [The statement of Mr. Malcom follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you very much.
                              ----------                              

                                        Thursday, February 6, 2020.

                 INTERNATIONAL FUND FOR ANIMAL WELFARE


                                WITNESS

KATE WALL, SENIOR LEGISLATIVE MANAGER, INTERNATIONAL FUND FOR ANIMAL 
    WELFARE
    Ms. Wall. Hi. Thanks. Can you hear me? Bear with me. I have 
a very scratchy voice.
    Ms. McCollum. Why don't we make sure you have a glass of 
water handy in case you need it?
    Ms. Wall. Thank you. That is kind. I won't wait on that, 
though. My name is Kate Wall. I am here on behalf of the 
International Fund for Animal Welfare. I am the senior 
legislative manager in our United States office. The 
International Fund for Animal Welfare--thank you--or IFAW, has 
offices in 15 countries around the world and works in more than 
40 countries globally. And we want to thank the chairwoman, and 
Ranking Member Joyce, and members of the subcommittee for the 
opportunity to testify here today.
    IFAW is very grateful for the subcommittee's championship 
of strong conservation funding in the current Fiscal Year. And 
as a member of the International Conservation Caucus, we also 
thank both the chair and ranking member for your conservation 
leadership both on this committee and elsewhere.
    So I am going to deviate a little bit from my prepared 
remarks today because, Chairwoman McCollum, you asked about the 
cost of doing nothing during the last panel. And I wanted to 
start these remarks by saying that the Intergovernmental 
Platform on Climate Change put forward a report last year that 
said that the total value of global ecosystem services is 
roughly equivalent to global GDP. That is huge. So the cost of 
doing nothing to protect our ecosystem services may be as much 
as allowing global GDP to trickle down the drain.
    All right. I just wanted to see that in your minds before I 
get started on my formal remarks because I think that sometimes 
when we talk about wildlife and ecosystems, we think about 
these as something that we need to think about in the future, 
not something that we should worry about today. We need to 
worry about our bottom lines of today. We all do this. I do 
this in my own thinking when I am thinking about my budget at 
home. But the reality is that we may be squandering huge 
resources that we do not have the wherewithal to put back into 
our coffers if we don't act today to protect wildlife and 
protect ecosystems here in the United States and globally.
    So we have heard just by turning on the news about some 
really pretty serious and grim challenges that face us around 
the world. We hear about sea level rise. We hear about warming 
oceans. We hear about biodiversity loss. If you aren't scared, 
then you aren't paying attention. But I don't want to focus on 
our fear today because fear can paralyze us, and the reality is 
that those of you sitting across the table from us here today 
have the power as leaders in this country to really make some 
transformative changes and make a better world for us, and I 
want to inspire you to act in that way. So put the fear aside, 
and let's talk about some things that you can do with the power 
of your purse.
    We continue as the United States to be a global leader, and 
the actions that we take here at home matter on the global 
stage. Some of the things that we can do internationally 
include funding the International Affairs Program within the 
Fish and Wildlife Service, which is tasked with coordinating 
domestic and international efforts to conserve species and 
restore wildlife and wild lands. These are programs that look 
not just at iconic species, which we will talk about next, but 
species that we may not have heard of, transboundary species, 
ecosystems, and they really have a power to create change in 
wide swathes of the world with very, very little. Also, because 
of language that you justifiably put in the Fiscal Year 2020 
appropriations report language, are tasked with ensuring the 
highest level of integrity and professionalism among partner 
organizations. And so we asked for further funding to ensure 
that they have the resources that they need to carry out those 
very important offices.
    With regard to iconic species like those protected by the 
multinational species conservation funds, species like tigers, 
rhinos, African and Asian elephants, great apes marine and 
freshwater turtles and tortoises, these species continue to 
face threats from poaching, from trafficking, and from climate 
change. And while there was a significant increase in funding 
in the last Fiscal Year, for which again, we are very grateful, 
these threats have not gone away, and we need more preventative 
funds now so that we don't risk further cure funding required 
later that will be much more costly to taxpayers and species 
writ large.
    And finally, on the international stage, the Office of Law 
Enforcement within the Fish and Wildlife Service is tasked with 
a huge amount of inspection of wildlife and wildlife products 
that come across our borders. They have attaches around the 
world. And we face yet another global pandemic, which appears 
to have been caused by wildlife interactions, we see those as 
all the more important offices that need to be carried out with 
additional funding.
    Again, thank you for the opportunity to testify before you 
here today.
    [The statement of Ms. Wall follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                                        Thursday, February 6, 2020.

                LEGISLATIVE AND FEDERAL BUDGET COMMITTEE


                                WITNESS

TIM SCHAEFFER, CHAIR, ASSOCIATION OF FISH AND WILDLIFE AGENCIES, 
    LEGISLATIVE AND FEDERAL BUDGET COMMITTEE
    Mr. Schaeffer. Hi. My name is Tim Schaeffer. I am the 
executive director of the Pennsylvania Fish and Boat 
Commission. And like Minnesota and Ohio, we are both a Great 
Lake State and a Mississippi River watershed State. People 
don't often think about the fact that the Ohio starts right 
there in Pittsburgh. And I am here today on behalf of the 
Association of Fish and Wildlife Agencies. I am the current 
chair of the Legislative Federal Budget Committee for the 
Association.
    Should I start again?
    Ms. McCollum. We are good.
    Mr. Schaeffer. Okay. Good. Thank you. Generally, the 
Association supports no less than Fiscal Year 2020 funding 
levels for the various budget line items under your purview. 
However, increasing funding for the Division of Fish and 
Aquatic Conservation of the Fish and Wildlife Service is 
important to ensure sufficient capacity and expertise is 
readily available to work in partnership with the States on 
various projects and issues. At least maintaining Fiscal Year 
2020 funding levels for the National Fish Hatchery operations 
and functions and budget line items is critical, and we request 
the same for mass marketing initiatives.
    Additional funding to address the National Fish Hatchery 
systems deferred maintenance is also necessary to continue 
species restoration and conservation efforts. We support the 
National Fish Habitat Action Plan at $7.2 million, and to 
continue Fiscal Year 2020 funding levels for conservation 
activities in the Delaware River Basin, Klamath Basin, Great 
Lakes, Chesapeake Bay, and the Everglades.
    The spread of the associated costs of aquatic invasive 
species are exploding--we have been talking about that already 
today--and we recommend increasing funding for AIS prevention 
in the FAC. This should be part of a comprehensive approach 
across relevant Federal agencies and the programs that provide 
resources to States to prevent and control AIS. We request 
Congress to restore funding for State aquatic nuisance species 
management plan implementation to $4.4 million dollars, without 
compromising ANS programs. And we support the continuation of a 
$25 million annual appropriation to implement the National 
Asian Carp Management and Control Plan in the Mississippi River 
and it is tributaries. I would really emphasize if we get it 
right in the tributaries, that helps to prevent the spread to 
the Great Lakes.
    The State and Tribal Wildlife grants program is the only 
Federal program available to States to leverage non-Federal 
funds to conserve over 12,000 State species of greatest 
conservation need to prevent them from becoming threatened or 
endangered through voluntary proactive and State-led 
conservation efforts. It is a lot cheaper to keep something off 
the Endangered Species List, and we like to say we want to keep 
common species common.
    The Association recommends the program be funded at $90 
million and Fiscal Year 2021. To truly address these 
challenges, we ask Congress to enact the Recovering America's 
Wildlife Act, H.R. 3742, which would provide States and their 
conservation partners with dependable resources and a modern 
enhancement in how we fund the full array of diverse fish and 
wildlife conservation for current and future generations.
    The Fish and Wildlife Service and States share management 
jurisdiction for migratory birds. This represents one of the 
most successful State/Federal Cooperative Partnerships for over 
80 years. Unfortunately, the Migratory Bird Conservation 
Program is chronically underfunded. More funding is needed to 
retain sufficient staff, fill key vacancies to work in 
cooperation with the States on co-management issues, and 
support science to inform decision making. The Association 
supports funding the program at Fiscal Year 2010 levels, and 
the Migratory Joint Bird Ventures at $19.9 million to 
accomplish shared responsibilities and priorities.
    Thank you for providing much-needed funding for the USGS 
Cooperative Fish and Wildlife Research Unit Program in Fiscal 
Year 2020, and we strongly support maintaining the funding in 
Fiscal Year 2021. Further, we support additional funding for 
the science centers. In Pennsylvania, we recently learned that 
the Northern Appalachian Research Lab and Wellsboro, 
Pennsylvania may close this year because of decreased funding. 
That lab provides critical data, research, and information to 
our agency on how we manage freshwater mussels for the 
Pennsylvania Fish and Boat Commission, but we manage all fish, 
reptiles, and amphibians in the Commonwealth. They also have 
supplied really critical research and data to us on the 
filtration roles of mussels, how they are connected to eels, 
and how that would help with Chesapeake Bay restoration 
efforts. The cleaner the water is leaving the Susquehanna 
River, the better it is for the Bay, and mussels play a role in 
that. We get a lot of great data on that from that USGS 
facility in Wellsboro.
    We also support additional funding for the National 
Wildlife Health Center to deal with chronic wasting disease. We 
support no less than Fiscal Year 2020 funding levels for other 
budget line items within USGS ecosystems. However, it is 
imperative the Congress provide additional resources to all 
relevant Federal agencies to coordinate to coordinate with the 
States on challenges related to CWD. We respectfully request 
that the subcommittee refer to the Association's testimony on 
CWD provided on October 17th, 2019 for additional CWD-related 
needs.
    Thank you for upholding the commitments to wildfire 
borrowing. We support the U.S. Fish and Wildlife Service 
budgets at no less than Fiscal Year 2020 levels, and 
respectfully request an additional $3 million to this program. 
So with that point, I would be happy to answer any questions.
    [The statement of Mr. Schaeffer follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Schaeffer. I didn't know if that buzz was for me or 
not, so. [Laughter.]
    Voice. The building is on fire.
    Mr. Schaeffer. Okay.
    Ms. McCollum. I have messages on my phone. There are 14 
minutes left. Only four people have voted, so I think we have 
got time for a quick round of questions. Mr. Joyce, do you want 
to kick us off?
    Mr. Joyce. I don't have any questions. I appreciate all of 
you being here today and your input. I look forward to working 
with you in the near future. Thank you.
    Ms. McCollum. Mr. Kilmer.
    Mr. Kilmer. Thank you, Madam Chair, and thank you all for 
your testimony. Mr. Malcom, I wanted to thank you in your 
written testimony for calling out the important role played by 
the regional climate centers in supporting efforts to combat 
climate change and to adapt to the impacts of climate change. I 
am really grateful to our chair and to this committee for 
protecting and growing funding for the eight regional climate 
centers, including the Northwest Climate Center at the 
University of Washington.
    I was hoping just in the brief time we have, just could you 
elaborate a little bit on how the science that is produced at 
these centers informs our efforts to respond to the threat of 
climate change?
    Mr. Malcom. Sorry. Give me just 1 second.
    Mr. Kilmer. That is all right.
    Mr. Malcom. The science is critical to being able to make 
informed decisions. We are at a day and an age where we 
understand how to do this. As some people have noted, the 
science is so advanced and our understanding is so advanced. We 
know how we can make use of it and bring that information to 
the lawmakers to be able to make decisions. I wish I had a very 
specific example, for example, from the Northwest Climate 
Center that I could give to you, but I don't. There is this 
very tight, or there should be this very tight relationship 
between science and policy that society follows, and climate 
centers are essential for carrying that out and helping folks 
in different regions across the country understand the 
consequences.
    Mr. Kilmer. Thank you. Thanks. Thank you, Madam Chair.
    Ms. McCollum. Thank you. I appreciate the fact that when I 
read through your testimony, you see how everything is 
interconnected, all three of you did. And the support and 
reasons why supporting something at Fish and Wildlife is 
important to something, you know, with migratory birds, which 
whatever, because quite often I know somebody can say, oh, I 
will cut this. And they don't realize what the impact it is 
going to be achieving the goal that they really want to 
achieve. So I just wanted to compliment your testimony because 
you are kind of doing the broad cloth on how all the pieces fit 
together to make the quilt happen. So thank you for kind of 
putting that together for us for the committee to take a look 
at that.
    And with that, we will be in recess until the call of the 
chair after votes. Thank you.
    Mr. Kilmer [presiding]. All right. I think we are up for 
our next set of witnesses. Mr. Durkin, you have 5 minutes.
                              ----------                              

                                        Thursday, February 6, 2020.

         THE FRIENDS OF RACHEL CARSON NATIONAL WILDLIFE REFUGE


                                WITNESS

BILL DURKIN, PRESIDENT, THE FRIENDS OF RACHEL CARSON NATIONAL WILDLIFE 
    REFUGE
    Mr. Durkin. Good afternoon, Ms. Chairman, and goodbye. 
[Laughter.]
    And honorable members of the subcommittee. I am Bill 
Durkin, president of the friends of Rachel Carson National 
Wildlife Refuge in Maine. Thank you for accepting my request to 
testify today before the subcommittee. It is a true honor and 
privilege to represent my friend's group and to speak out for 
the U.S. Fish and Wildlife Service, the National Wildlife 
Refuge System, our refuge, Rachel Carson National Wildlife 
Refuge, and for full dedicated funding of the Land and Water 
Conservation Fund.
    The Rachel Carson National Wildlife Refuge is named in 
honor of one of the Nation's foremost and forward-thinking 
biologists. After arriving in Maine in 1946 as an aquatic 
biologist for the U.S. Fish and Wildlife Service, Rachel Carson 
became entranced with Maine's coastal habitats, leading her to 
write the international bestseller, The Sea Around Us. This 
landmark study, in combination with other writings, The Edge of 
the Sea, and Silent Spring, led Rachel Carson to become an 
advocate on behalf of this Nation's vast coastal habitats and 
wildlife that depends on it. Her legacy lives on today at the 
refuge bears her name, and is dedicated to the permanent 
protection of the salt marshes and estuaries of southern Maine 
Coast.
    The refuge was established in 1966 to preserve migratory 
bird habitat, waterfowl migration along southern Maine's 
Coastal estuaries. There are 11 refuge divisions and 12 
municipalities protecting approximately 5,600 acres within an 
14,800-acre acquisition zone. I have been on the board of the 
Friends group since 1989. The organization was founded in 1987. 
We are small group with a history of communicating with our 
Maine congressional members, who we are missing our 
representative right now, Chellie, for decades. In the past, we 
sent letters via U.S. mail, then anthrax forced us to fax our 
letters. Then the electronic age made things very simple: email 
and PDFs.
    The Friends play an important role in supporting the Rachel 
Carson National Wildlife Refuge mission. We work to educate 
Maine's U.S. congressional and State legislation about the 
relevance of the refuge wildlife habitat, its coastal 
resilience, tourism benefits, and the use for future 
generations. We support refuge staff by volunteering with trail 
maintenance, greenhouse activities, administrative work, and 
visitors services. We engage the towns and communities that 
surround the refuge through mailings, meetings events, and a 
future conservation theme book group. We fundraise and apply 
for grants so that we can assist with hiring refuge interns, 
purchase equipment, and support research projects. We support 
acquisition funding and refuse operation and engage in 
environmental education and outreach programs.
    National wildlife refuges protect habitat for a host of 
wildlife species, while also offering storm surge protection, 
improving water quality, supporting nurseries for commercially 
important fish and shellfish, and providing recreation 
opportunities for local refugee communities. Each one of you 
has a national wildlife refuge in your home State and maybe 
even one close to your home.
    I request, number one, an overall Fiscal Year 2021 funding 
level of $586 million for the operations and maintenance budget 
of the National Wildlife Refuge System managed by the U.S. Fish 
and Wildlife Service. All the refugees are in dire need of 
staffing and upkeep. Without increased funding for refuges, 
wildlife conservation and public recreation opportunities will 
be jeopardized. Every dollar appropriated for the refuge system 
returns an average of 4.87 to local economies.
    Number two, I request to appropriate $283 million for the 
wildlife and habitat management projects within the O&M budget. 
These monies will support restoration of salt marshes removal, 
controlling invasive species, recovering species, continued 
fire management programs, restoring cultivated land to its 
original habitat, implementing climate change strategies of 
adaptation mitigation, and engagement.
    Number three, I request $41 million for refuge land 
acquisition projects. In addition, the Land and Water 
Conservation Fund needs to be permanently funded at the $900 
amount annually. I have been advocating for this for over 2 
decades of Congress, and we finally have LWCF permanently 
authorized, but now to have the amount permanently funded at 
$900. As you know, there is H.R. 3195, the Land And Water 
Conservation Fund for Permanent Funding Act. It is pending, and 
we all need your continued support.
    This year marks the 50th anniversary of Earth Day, and we 
thank Rachel Carson for inspiring us all. I leave you with a 
quote from Rachel's book, A Sense of Wonder. ``A child's world 
is fresh, and new, and beautiful, full of wonder and 
excitement.'' Each of the national wildlife refuges have a 
unique story and history behind their name, but they basically 
all serve one purpose: protect wildlife habitat. With that 
wonder and excitement, I thank you again for the opportunity to 
present my testimony and support our national wildlife refuges.
    [The statement of Mr. Durkin follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Kilmer. Thank you. You stuck the landing. Mr. Hall.
                              ----------                              

                                        Thursday, February 6, 2020.

         FRIENDS OF NISQUALLY NATIONAL WILDLIFE REFUGE COMPLEX


                                WITNESS

JUSTIN HALL, BOARD PRESIDENT, FRIENDS OF NISQUALLY NATIONAL WILDLIFE 
    REFUGE COMPLEX
    Mr. Hall. Good afternoon, Representative Kilmer, Ranking 
Member Joyce. It is on. The light is on. I just need to be 
louder. I can do that. My name is Justin Hall. I am the current 
president of the Friends of the Nisqually National Wildlife 
Refuge Complex, and I appreciate the invitation to testify 
today on behalf of the Friends.
    So our Friends group was formed in 1999 to promote the 
conservation of the natural and cultural resources of the 
Refuge Complex and engage in educational, charitable, 
scientific, and civic activities that will increase public 
awareness and assist management in accomplishing refuge goals. 
We provide just under $60,000 a year to support programs at the 
refuge, with our primary focus being the environmental 
education program.
    The Nisqually Complex is blessed with three very unique 
places. Billy Frank, Jr. Nisqually National Wildlife Refuge was 
established in 1974. The creation was led by a grassroots 
citizens movement to aid in the protection and enhancement of 
the Nisqually River delta. In 2009, the refuge accomplished the 
largest estuary restoration on the West Coast when 762 acres of 
deck habitat was converted back to salt marsh and tidal estuary 
essential rearing grounds for the threatened Puget Sound 
Chinook salmon. Billy Frank Jr. Nisqually is an urban refuge 
located between the cities of Olympia and Tacoma, just 1-hour-
and-a-half from Seattle and 2 hours from Portland. The refuge 
receives over 220,000 visitors a year, and over 10,000 students 
and teachers participate in the environmental education 
program.
    The Black River Unit of Billy Frank, Jr. Nisqually protects 
a unique freshwater flood plain that is also critical habitat 
for the federally-threatened Oregon spotted frog. The Black 
River unit is not open to the public at this time because of 
lack of funds to develop and staff it for visitors. Grays 
Harbor National Wildlife Refuge was established in 1988. The 
highlight of Grays Harbor is the 100,000 shorebirds that stop 
over during the spring migration. The refuge is open to the 
public where visitors can view large flocks and the 1-mile 
boardwalk extending into the salt marsh. Over 12,000 people 
visit annually, mostly in the spring. A partnership between 
Grays Harbor National Wildlife Refuge, Grays Harbor Audubon 
Society, and the City of Hoquiam puts on the Grays Harbor 
Shorebird and Nature Festival during the peak spring migration 
the last weekend of April or the first weekend of May. The 3-
day Festival brings in more than 1,400 visitors.
    The Grays Harbor Hoquiam Aberdeen area is economically 
depressed, and one of the purposes of the annual festival is to 
increase ecotourism and help the local communities. However, an 
annual festival only provides short-term benefits. Grays Harbor 
has the potential to be a mainstay in the community and a 
destination for visitors, if an interpretive center, 
prioritized by Congress, but not funded, was supported for 
construction with an annual budget for staffing, operations, 
and maintenance.
    The biggest challenge at the Nisqually National Wildlife 
Refuge Complex is adequate funding for staff. Currently, seven 
permanent employees manage over 11,000 acres of land with a 
Black River unit 40 minutes from main office, and Grays Harbor 
Refuge 1-hour-and-a-half away. The complex has one maintenance 
worker to maintain the infrastructure and assist with habitat 
management, yet a large amount of the time is spent commuting 
between these worksites. I do believe the complex needs 15 
staff members to achieve at the full purpose of the refuges, 
not only to benefit fish and wildlife, but also provide 
quality, safe outdoor opportunities for the public. This is a 
common limitation for many other refuges.
    Law enforcement is also a significant issue for our 
complex. Currently, we have one-quarter of a refuge law 
enforcement officer for all three of our locations. The 
officer's house is 2 hours away in Sequim at the Washington 
Maritime National Wildlife Refuge Complex. Billy Frank, Jr. 
Nisqually is located directly off of Interstate 5, the major 
Corridor between Seattle and Portland. This close proximity and 
easy exit and entrance onto the highway may be the reason why 
there is higher crime at Billy Frank, Jr. Nisqually, 
particularly car prowls. Trespassing in a closed area set aside 
for wildlife and engaging in non-wildlife dependent activities 
are also big problems despite miles of trails throughout the 
refuge. For example, portrait photographers disturbing birds so 
their subjects can sit in the grasslands, dog walking in the 
refuge, and fishing and hunting in closed areas. A full-time 
law enforcement presence on the refuges is needed to curb 
abuses and to provide education to those unaware of the rules 
and regulations, and the reasons why they are in place. 
Additionally, a security surveillance system for the parking 
lot would go a long way towards reducing the problem with car 
prowls.
    The education program at the Billy Frank, Jr. Nisqually is 
incredible and is a direction for the future focus of this 
urban refuge. The refuge is a popular regional destination, 
especially on clear Pacific Northwest days, and regularly 
exceed its visitation capacity due current resource 
limitations. This is also true for the education program which 
serves a remarkable 10,000 students each year, but is facing 
growing demand from school districts and staff and teachers. 
With additional staff, the program can be expanded to provide 
environmental education outreach within the communities and 
then follow-up visit to the refuge. We want to help create the 
next generation of people who actively take care of our 
Nation's lands.
    As it is now, our Friends group and volunteers are picking 
up the slack and smoothing out the inconsistencies in the 
funding to the best of our ability. Whoever volunteers and 
outside staff are not a sustainable model for our refuge 
system. We support the request that the subcommittee allocate 
$586 million in funding for the Refuge System Operations And 
Maintenance Fund for Fiscal Year 2021. This increase would 
greatly impact our refuge. The Nisqually National Wildlife 
Refuge Complex would be better able to hire the staff needed to 
have an adequate level of law enforcement, increase our urban 
refuge outreach, control invasive species to benefit a 
diversity of fish and wildlife, restore critical habitat for 
Oregon spotted frog, construct and operate the promised 
interpretive center at Grays Harbor National Wildlife Refuge, 
provide additional wildlife-dependent opportunities at Grays 
Harbor National Wildlife Refuge in the back of our unit, and 
further build out our environment education programs.
    Our refuges are the face of public lands for many people in 
the South Puget Sound Community as they are for communities 
across the country. We need adequate funding to ensure that 
they stay protected, accessible, and stewarded for the 
generations to come. Thank you for your consideration.
    [The statement of Mr. Hall follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Kilmer. Thank you. Is it Brouwer?
    Ms. Brouwer. Brouwer, yes.
    Mr. Kilmer. All right. Ms. Brouwer.
                              ----------                              

                                        Thursday, February 6, 2020.

                  NATIONAL WILDLIFE REFUGE ASSOCIATION


                                WITNESS

CAROLINE BROUWER, VICE PRESIDENT OF GOVERNMENT AFFAIRS, NATIONAL 
    WILDLIFE REFUGE ASSOCIATION
    Ms. Brouwer. Good afternoon. My name is Carolyn Brouwer, 
and I am the vice president of government affairs for the 
National Wildlife Refuge Association. I very much appreciate 
the invitation to testify today on behalf of the National 
Wildlife Refuge Association and our members and supporters, 
particularly the friends groups who do such amazing work on the 
ground. I am joined today by Justin and Bill, and we are 
thrilled to have you into town.
    The Refuge Association was started 45 years ago by retired 
refuge staff who wanted to start a group to advocate on behalf 
of the National Wildlife Refuge System. Today, the Refuge 
System consists of 568 refuge units across 850 million acres, 
which is roughly the size of India. Refuges are in all 50 
states and in five marine national monuments in the Pacific and 
Atlantic Oceans.
    Today, I want to talk with you today about what the Refuge 
System has been able to do with the recent increases. There was 
an increase of $14 million in the budget this past year in 
2020. With the $2.9 million increase included in the budget for 
law enforcement, the Refuge System has hired 43 new Federal 
wildlife officers. Last year when I testified, I stated that 13 
States have zero or one officer. With these recent hires, this 
is no longer the case, and we are anticipating law enforcement 
staffing to increase, especially in the States that have been 
particularly neglected recently.
    Another place that will receive more officers is border 
refuges. For several years, the Fish and Wildlife Service has 
moved nearly all of their officers on a rotating schedule down 
to the border for 21-day details. With these new hires, we 
expect detailees to be discontinued, which will allow these 
officers to stay at their home refuge. With additional funding 
in the upcoming appropriations Bill, the Refuge System is 
planning on hiring an additional 12 officers, which will raise 
levels of staffing and law enforcement to a new recent high. 
Current law enforcement funding is $41 million, and goal is $70 
million.
    Another positive outcome in the Fiscal Year 2020 bill was 
additional funding on invasive species. The Fish and Wildlife 
Service is facing serious impacts on nearly every wildlife 
refuge with 2.4 million acres infested with invasive plants. I 
am sure all of you will recognize names like phragmites, Kudzu, 
and salt cedar. There are also 1,749 invasive animal 
populations, which includes everything from mice and rats on 
the Pacific atolls and islands, to feral hogs, quagga mussels, 
pythons, and Asian carp. To show the impact of funding 
eradication efforts, one great example is nutria in the 
Chesapeake Bay. Nutria are a rat species that are roughly 14 
pounds on average, which is larger than my cat. There are 
extremely destructive to wetland habitats. For several years, 
there has been a substantial amount of money put towards 
eradicating nutria in the Chesapeake Bay. There has been a lot 
of people, I have a team of dogs, lots of money and focus. This 
is about the fifth year with no nutria sightings, so perhaps 
this next year, nutria will be considered eradicated in that 
area.
    There has also been a new effort to create invasive species 
strike teams. There was $2.5 million for this in the fiscal 
year 2020 bill, which is enough for five new teams, bringing 
the number up to 12. Their goals are early detection and rapid 
response. One species that is a prime target for the strike 
teams are mice on Midway atoll. These mice are literally eating 
the albatross alive as they sit on their nests, and it is a 
gruesome sight. And I am told that at dusk, you can see the 
ground moving there are so many mice there.
    I want to thank you for your support of funding for the 
Refuge system and for that overall $4 million dollar increase 
in the 2020 bill. The system needs another boost of funding 
this next year. Funding is now $1 million lower than the height 
of funding in 2010, and fiscal year 2010 funding of $503 
million, after calculating for inflation, would be $598 million 
now. This means that the Refuge System has had to absorb $94 
million in cuts over the last 10 years. As a result, the system 
has lost one-seventh of its staff. Acres needing prescribed 
burns are left untouched. Half of refuge units are unstaffed.
    Law enforcement funding, even with recent increases, is 
about 25 percent of full staffing. Many, many refuges have no 
visitor services staff, which doesn't sound like a big deal 
until you see the refuges that do have these staffers, and you 
realize the value they add to the community in terms of 
bringing school kids out to refuges and teaching the community 
about nature in their own backyard. Anyone who has visited the 
Prairie Wetlands Learning Center in Fergus Falls, Minnesota 
knows the value of hands-on nature for kids. This is what 
visitor services staff does. Just imagine if we could replicate 
centers like that all over the country.
    Refuges are currently funded at 59 cents an acre. Parks in 
comparison, and I agree we are talking about apples and 
oranges, but parks are funded at $30 an acre. Our goal for over 
a decade now has been to get refuge funding up to $900 million 
dollars, which would still be barely a dollar per acre. We are 
asking your subcommittee to include $586 million in the FY 2021 
appropriations bill.
    Thank you very much, and I am happy to answer any questions 
you may have.
    [The statement of Ms. Brouwer follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Kilmer. Thank you. Mr. Leinbach.
    Mr. Leinbach. Thank you. Am I allowed to give you pictures 
and stuff?
    Mr. Kilmer. I think so, yeah. Sure.
    Mr. Leinbach. [Audio malfunction in hearing room.]
    Mr. Kilmer. Great. We love pictures. Thank you. I will pass 
them down. Thank you.
                              ----------                              

                                        Thursday, February 6, 2020.

                          URBAN ECOLOGY CENTER


                                WITNESS

KEN LEINBACH, EXECUTIVE DIRECTOR, URBAN ECOLOGY CENTER
    Mr. Leinbach. Good afternoon. Ranking Member Joyce and Mr. 
Kilmer, and anyone else who is listening in the room. It is a 
lovely afternoon if you are a duck. I am the executive director 
of the Urban Ecology Center in Milwaukee, Wisconsin, and I am 
super grateful for the opportunity to speak with you today. The 
purpose of this testimony is to introduce the Interior and 
Environment Subcommittee to a replicable nonprofit model for 
urban revitalization.
    The Urban Ecology Center, the UEC, uses environmental 
education as a tool to transform challenged urban parks and 
neighborhoods, and our work is capturing the attention of 
cities across the country. The UEC started as an experimental 
social invention based on research that states, ``If one has 
consistent access to nature from an early age while having a 
mentor in your life who demonstrates respectful behavior toward 
the land, that person is very likely to grow up caring for and 
working for the environment.'' That is the kind of person we 
need right now in the world.
    Our mission then is quite simple: to connect people who 
live in cities to nature and each other. The center began in 
the mid-90s as a small group of teachers in a humble trailer in 
a high crime park in one of the most densely populated 
neighborhoods in our State. We started offering field trips to 
nearby schools, and quickly discovered the what we are offering 
was needed. Nature-based recreation and education is beneficial 
in every: intellectual, emotional, social, spiritual, and 
physical. Our trailer became a hive of community activities for 
adults and kids. Our success allowed us to grow, and we now are 
in three beautiful green built and rehab buildings that bustle 
with community activities on Milwaukee's southwest and east 
side.
    While the center began as a strategy to improve ecological 
literacy of folks in a city, we discovered that when a UEC is 
placed in an urban park, so much more happens. The park becomes 
safe. Student academic achievement improves. New jobs are 
created. Volunteerism explodes. And if done correctly, a 
significant influx of community resources flow into the park 
and nearby surroundings. The center has catalyzed over $45 
million in direct investments in and near the parks that we 
occupy. What once was blighted, even dangerous, green spaces 
becomes a safe and green community asset.
    Last year, we hosted over 220,000 visits by youth and 
adults at our three branches in Milwaukee. Three thousand five 
hundred volunteers helped us plant over 10,000 native trees and 
plants in the 70-plus acres that we now manage. We partner with 
63 urban schools providing 35,000 students with regular field 
trips. We reach an incredibly diverse audience. All ages, 
racial, political, and economic backgrounds come together at 
our centers. Both sides of the aisle have supported us.
    Today, cities all over the Nation are reaching out and 
showing interest in replicating this model. To help facilitate, 
we published this book, Urban Ecology, and created a training 
institute around it. To date we have had over 50 people come 
through our training, representing 19 different cities, 
Columbus, Atlanta, Rochester, and Denver to name a few. We have 
had cities from different countries as well.
    Twenty years after our inception, the program is 
flourishing to such a degree that it was suggested that it was 
important for you, who are charged with governance of this 
Nation, to be aware of our existence and the transferable 
impacts we are having. I am deeply honored that you accepted 
our testimony to speak to you today and have hopes that you and 
any listening might be able to assist us in finding additional 
partnerships and funding opportunities to help accelerate the 
spread of our important program. Worth noting, we have worked 
with the U.S. Forest Service in creating a 40-acre children's 
forest, an arboretum out of remediated industrial land. And we 
were also grateful to receive nearly $1 million dollars of 
funding from the Great Lakes Restoration Initiative, the first 
year of its inception, to help remediate a tier-one tributary 
into Lake Michigan. Thank you. Congratulations, by the way, on 
passing the reauthorization bill for the GLRI just yesterday, I 
believe, right? Well done.
    Some of you may be in Milwaukee this July for the 
Democratic National Convention. Come visit. We would love to 
show you around. And if you happen to know of anybody looking 
for a unique venue for their meeting or event, please contact 
us. We have really cool facilities, these ultra-green 
facilities.
    I know as you, Ranking Member Joyce, that the freshwater 
bodies in our region aren't merely Good Lakes, they are Great 
Lakes. Accordingly, I don't know if I am allowed, but I brought 
you each a Petoskey stone, a polished fossilized ancient stone 
found only on Lake Michigan, as a gift from the lake. I 
actually have enough that folks in the room can have them as 
well. And there is no real value to these except for the 
beauty, so I think it is okay for me to give them. It is not 
like----
    Mr. Kilmer. People frequently throw rocks at us----
    [Laughter.]
    Mr. Kilmer. So we are good. We are good. Thank you. Thank 
you.
    Mr. Leinbach. These are quite beautiful, so take one, pass 
it on. Make sure you get one. You are doing the hard work. I 
would Tyler to get one because he helped me out early, and then 
anybody else in the room until they are gone. Thank you for the 
opportunity to testify. I am more than happy to answer any 
questions you have about our mission and our work.
    [The statement of Mr. Leinbach follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Kilmer. Thank you. Thank you for your testimony. This 
got Oprah real quick. You get a rock, and you get a rock. 
[Laughter.]
    Mr. Joyce, do you have any questions?
    Mr. Joyce. No. I thank you all for being here, and I 
appreciate all the hard work you do. Hopefully we can all 
continue to work together for a better planet.
    Mr. Kilmer. I would like to thank each of you for your 
testimony. I have been trying to get David Joyce to come to the 
Democratic Convention for a long time now, so thank you. 
[Laughter.]
    Mr. Joyce. I got to go to Washington. That was nice.
    Mr. Kilmer. There you go. Yeah, that was nice. That was 
nice. I actually did want to just make maybe a comment and a 
question to Justin. Thank you for mentioning some extraordinary 
refuges in our neck of the woods. The Billy Frank, Jr. Refuge 
is really incredible, and is appropriately named after someone 
who was a real champion for tribal justice and for 
environmental justice, and I know that the work of that refuge 
is designed to sort of live up to that mission. I am also 
really grateful that you mentioned Grays Harbor and the 
Shorebird Festival. I would encourage anyone who is watching on 
C-SPAN 8----
    [Laughter.]
    Mr. Kilmer [continuing]. To come visit Grays Harbor 
Country, and it really is an extraordinary refuge, the 
Shorebird Festival. So I have got two daughters. My oldest 
daughter was quite young. She was a total birder. She was very 
unusual. Most kids would read Dr. Seuss, and she would read, 
like, a book on birds at night rather than reading Dr. Seuss. 
She would be the yellow-breasted warbler, you know, lives in 
shrubs and trees, and migrates in the fall, right? It was a 
very unusual childhood for her. But I took her to the Shorebird 
Festival, and it was so cool to see her just sort of connect 
with nature. And the only connection I had seen prior to that 
was Angry Birds was about as close as she got to connecting, 
and so I appreciate you mentioning that.
    I want to ask you in light of these unique assets, so if 
there was additional base funding, talk about how that could 
build capacity for connecting with communities, connecting with 
youth. You mentioned a couple of examples, but I just want to 
make sure we hear the message loud and clear from you.
    Mr. Hall. You bet. So most of education comes out of the 
Billy Frank, Jr. Nisqually, and we actually have a partnership 
between the Friends group, the refuge, some amount of their 
base funding, and another nonprofit, the Nisqually River 
Foundation, that provides a staff member in order to do that. 
And then we have a couple AmeriCorps, one that works Grays 
Harbor and that works at Billy Frank, Jr. As I said, we reached 
capacity. Our parking lots are full. People are parking on the 
grass on those occasional sunny days that we do get in the 
Pacific Northwest.
    So the way to increase the outreach and the benefit of that 
refuge is to get those education staff out into the schools, 
into the community. We also work with the Nisqually Tribe with 
their Head Start program, getting them out. And they learn 
about the refuge, and what the missions are, and what we are 
trying to do, and then they have capstone field trip into the 
refuge itself. And so really working with Joint Base Lewis-
McChord, and then Pierce County Schools and Thurston County 
Schools and some Lewis County Schools, we are really able to 
extend that out, and then those people come back. The students 
come back with their parents, and, you know, they learn what 
the refuge system is for, why they are there, what the benefits 
are. And so really that is that next step.
    And the Fish and Wildlife Service had an urban refuge 
contest, a funding contest, which added $1 million to the base 
funding, which we applied for. We still have that plan ready to 
go. We were not successful. They only did one. It went on for 3 
years. They did two refuges one year and then one refuge the 
other 2 years, and the one in our district was fortunate enough 
to get that. But we have those plans ready to go. And so really 
to extend the impact of the refuge into the community, it just 
requires that extra base funding in order to fully support that 
education program.
    Mr. Kilmer. Terrific. I appreciate you mentioning that. And 
I also just wanted to call out the staff at both of those 
refuges are just really tremendous.
    Mr. Hall. Absolutely amazing people to work with.
    Mr. Kilmer. Yeah. Thank you. Thank you all for your 
testimony.
    Mr. Leinbach. Can I offer a thought to this?
    Mr. Kilmer. Go on. Dive in.
    Mr. Leinbach. I was just thinking, I am curious. In our 
modeling of an urban ecology center, it would be really great 
to partner with the refuges and the parks that are on the 
outskirts. And the way our model works is we actually have a 
fleet of buses that we own that we are able to take kids to 
where we need to go, which is often a stumbling block. So it 
would be lovely to talk to with you or anyone else again in the 
room--I don't know who is here--related to that type of 
partnership. But the amount of money that it would require to 
create those urban centers is actually not very significant, so 
it would be interesting to talk to somebody about that. So 
thanks.
    Mr. Kilmer. Thank you. Great. Thank you all for your 
testimony. Let me invite up the next panel. Miles Keogh, the 
executive director of the National Association of Clean Air 
Agencies. Dr. Sumita Khatri. Did I get that close?
    Dr. Khatri. Yes.
    Mr. Kilmer. Okay. With the American Lung Association, and 
Mandy Warner with the Environmental Defense Fund. Thank you. 
Thank you. Welcome. Mr. Keogh, go ahead. Kick us off. You have 
got 5 minutes.
                              ----------      


                                        Thursday, February 6, 2020.

               NATIONAL ASSOCIATION OF CLEAN AIR AGENCIES


                                WITNESS

MILES KEOGH, EXECUTIVE DIRECTOR, NATIONAL ASSOCIATION OF CLEAN AIR 
    AGENCIES
    Mr. Keogh. Thank you so much. This is actually my second 
rodeo doing this, and to repay your kindness for the last time 
that I came, I have some written remarks, but I know you know I 
can read, and I know you can read, so I am not going to read 
them. I will speak a little bit extemporaneously, but I will 
kind of try to make it worth your time as much as possible. 
Thank you so much, again, to you and to the other members of 
the subcommittee for letting me speak today.
    You mentioned I am Miles Keogh. I run the National 
Association of Clean Air Agencies, which convenes 155 of the 
State and local air pollution and climate agencies across the 
country. And I am testifying today because those agencies, 
which have the primary responsibility under the Clean Air Act 
for protecting your constituents form air pollution. They get a 
lot of their funding through appropriations that you all 
consider and authorize.
    Those agencies which are coastal and heartland, urban and 
rural, every stripe of politics, those agencies have received 
level funding for a long time. In fact, they continue to 
receive today the same level of funding that they received 15 
years ago in 2004 during the George W. Bush Administration.
    NACAA's ask for every State and local agency in every State 
of the country, is for the House, for you all, to help 
appropriate an additional $87 million this year to the State 
and local category grants under Section 103 and 105 of the 
Clean Air Act. That is a 15-year inflation adjustment, and I 
came in last year and asked for a 14-year inflation adjustment. 
The needs are greater than that. In 2007, we asked the agencies 
what they needed, and, you know, it is 15 years at the same 
level, and the numbers were more than double what they were 
receiving. But adjusting for inflation would go a long way.
    So I remember from last year. I know what you are thinking. 
Why should you all give any more money to the Clean Air 
Agencies for this work, right? Obviously you can do it with 
level funding because you are doing it, and you have been doing 
it, so why would we consider increasing the money? In fact, 
there are five ways in which your districts would benefit from 
having these agencies get an increase in the funding.
    The first is that at the current level, there is an 
impediment to business development. When the agencies are 
stretched as they are over 15 years of operating with the same 
funding, it delays the time that we can approve projects as 
being in line with the law. It slows down how fast we can get 
permits out the door. It impedes investment. It slows economic 
growth, and it slows job creation. So this is a real thing. It 
is hard to tally what that number actually is, but holding 
things steady over that time has had an effect.
    Second, it shifts that spending to your States. There are 
not that many sources of money in the world, so where the 
Federal money doesn't show up, it is citizens in your district 
that backfill the difference, and that a lot of what has 
happened. Third is that the public demands more information and 
more effort than we needed in previous years. We now find out 
about air quality in our weather apps. There is greater Clean 
Air awareness thanks to wildfires. There are some explosion and 
sensor data, and there is a bunch of new pollutants, things 
like ethylene oxide and PFAS, and the like that we just didn't 
have the same understanding years ago as we do know.
    Fourth, if you have ambitions to comprehensively reduce 
greenhouse gas emissions, those are going to involve State and 
local agencies. If you want to do that in the future, the time 
to invest in those agencies is now. And then finally, and by 
far most importantly, even though more people are protected 
from air pollution today, we still have non-attainment areas, 
and we still have people exposed to air toxics. There are still 
limits to the work that we could be doing, and constraining the 
ability of air agencies to provide services to the public, it 
narrows that reach and limits the protection we can provide 
your constituents.
    We don't know how many environmental justice programs we 
are not doing. We don't know how many communities we are not 
reaching. And the fact is that while clean air is a huge 
success story, it is still an unfinished story. More Americans 
still die from air pollution than from car crashes or from gun 
violence, and about a third of Americans still breath unhealthy 
air for about a third of the year. So, again, the ask is for an 
addition $87 million to adjust for 15 years of holding it 
steady on the paycheck.
    I thank you for your time, and if you have questions, I am 
happy to address them.
    [The statement of Mr. Keogh follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Kilmer. Thank you. Dr. Khatri.
                              ----------


                                        Thursday, February 6, 2020.

                       AMERICAN LUNG ASSOCIATION


                                WITNESS

SUMITA KHATRI, M.D., M.S., VICE CHAIR-MISSION PROGRAMS; CHAIR OF THE 
    PUBLIC POLICY COMMITTEE, AMERICAN LUNG ASSOCIATION
    Dr. Khatri. Good afternoon. Hello, Ranking Member Joyce. I 
am a Buckeye, too. Thanks. Mr. Kilmer and others in the room, 
thank you for offering us the opportunity to testify in front 
of your subcommittee. My name is Sumita Khatri. I am a board 
member of the American Lung Association, and I am also a lung 
physician, and also a member of the community. And it is in 
these realms that I am here for you today. The mission of the 
American Lung Association is to improve lung health and prevent 
lung disease, and how that mixes in with air quality, so thank 
you for the segue prior.
    So I am here to urge the subcommittee to increase its 
investments in the U.S. EPA air quality programs. It is the 
50th anniversary of the Clean Air Act, and there is opportunity 
to do even more than has already been done. There is much more 
to be done because you can't have too healthy air. In order for 
us to deliver on our promise for the Clean Air Act, if we fund 
further, there are so many things we can do.
    For instance, build upon the EPA air quality management 
system that is in already place which is keeping track of what 
air quality is going on so that we can all be informed 
citizens. Two, EPA's grants to States and tribes to do what 
needs to be done individually based on what the community needs 
after you have done the research to figure out and have these 
partnerships. Three, monitoring and enforcement. Unless we 
monitor, we don't know what we are needing to do next. And 
enforcement because we need to be held accountable whatever the 
origin of those air quality alerts are coming from. And then, 
of course, the EPA's Climate Protection Program because after 
decades of progress, we are seeing some backslide due to 
changes in climate, as you mentioned, in the wildfires.
    So my written comments outline more in detail what we are 
asking for specifically, but I would like to highlight how the 
EPA has helped me be better at all three realms that I 
discussed earlier. I live in Cleveland, and don't talk about 
the river, okay? But Cleveland used to have worse air quality, 
but it has gotten a lot better. And part of how we are being 
able to do that is through the State implementation plans, 
looking at what the sources of air pollution are. And not only 
is it industry, but it is also transportation.
    So I have to mention a story. I do a lot of outreach. I 
just don't stay in my four walls as a clinician. I partner with 
air quality agencies, and I have a really compelling story 
about the very proactive bus fleet manager in a large public 
school system, who decided that he wanted to be part of the 
solution. And so he applied for the diesel particulate filter 
funding grants, and he took about 300 buses over 6 years and 
retrofitted them with diesel particulate filters. And the air 
quality not just outside improved, but inside. We actually rode 
those buses and did some air quality monitoring, and we saw 
that.
    So about 10 years ago when my kids started going to school, 
you will be sure to know that as I waved goodbye to them, I was 
actually making sure that the DPF was there. Like, what are you 
doing, Mom? I am like, never mind, it is good for you. So that 
is one thing that I know that we are doing well with these 
programs. The second thing is that having publicly-available 
databases with air quality metrics, like AQS Data Mart, that 
lets people who are epidemiologists like me look and see 
whether there are associations from a timing standpoint with 
asthma visits to the ED, or even doing kind of studies looking 
at inflammation in their upper airways, people with asthma who 
demonstrate that more. So having this publicly-available data 
available allows for us to do this research.
    And then finally, as a clinician, I am able to have these 
conversations. They know what they are breathing, and it 
doesn't feel good. They are the canaries in the coal mine. And 
having conversations around air quality index and what they can 
do, when they should exercise, what they can do in their own 
environments to think how to have a healthier lifestyle can be 
improved. Those are all important.
    So I already mentioned about how climate change, having 
these extreme weather events, and not only are the people 
getting sicker in these areas, but the people who are trying to 
deliver medical care, they are experiencing challenges. So all 
of these things are important that we talk about. So thank you 
very much. We appreciate all of the progress that has been made 
through the EPA, but I call on you to further fund the EPA, and 
we have all those details available for you so that we as 
clinicians can do job well done, too.
    Thank you very much.
    [The statement of Dr. Khatri follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Kilmer. Thank you. Ms. Warner.
                              ----------


                                        Thursday, February 6, 2020.

                       ENVIRONMENTAL DEFENSE FUND


                                WITNESS

MANDY WARNER, SENIOR MANAGER, CLIMATE & AIR POLICY, ENVIRONMENTAL 
    DEFENSE FUND
    Ms. Warner. Thank you. Good afternoon. I want to thank 
Chairwoman McCollum, Ranking Member Joyce, and Representative 
Kilmer, and other members of the subcommittee for the 
opportunity to testify today. My name is Mandy Warner. I am a 
senior manager for climate and air policy at Environmental 
Defense Fund. EDF is an international and environmental 
advocacy organization with 2-and-a-half million members 
nationwide. While there are numerous priorities for EDF within 
Interior and Environment appropriations that are critical to 
public health, my remarks today are specifically focused on the 
Environmental Protection Agency's proposal related to the 
mercury and air toxic standards for power plants.
    EDF is respectfully asking the Interior, Environment 
Subcommittee to include a provision to direct EPA to complete a 
report that fully assesses this proposal's impacts on 
Americans. Specifically, we recommend EPA complete an analysis 
of the impacts of its MATS proposal that includes a 
comprehensive assessment of its potential public health, 
economic, and environmental consequences. That study must 
include an analysis of the costs and benefits of the 
Administrator's proposed revised supplemental finding, and of 
any rescission, invalidation, or termination of MATS, as well 
as a study of the actual cost to industry of complying with 
MATS since it has been implemented. This analysis will better 
inform the public and Congress of the issues at stake in the 
MATS proposal.
    Remarkably, EPA proposed to find control of power plant 
mercury in air toxics emissions is not appropriate without 
doing any such study, and despite a massive record showing the 
grave harms that these pollutants cause to society, including 
children and vulnerable populations.
    As background, in 2011, EPA finalized standards to reduce 
mercury and other toxic air pollution, including lead, 
chromium, arsenic, and soot from coal- and oil-fired power 
plants. Power plants were the single-largest source of toxic 
mercury emissions in the U.S. and emit over 80 hazardous air 
pollutants. These pollutants are known to cause cancer, birth 
and reproductive impacts, respiratory and cardiovascular 
impacts, impaired brain develop in children, and other harms to 
human health.
    Leading up to the finalization of the standards, EPA 
assessed the benefits and costs associated with implementing 
the rule, finding up to 11,000 lives would be saved every year, 
along with avoiding 130,000 asthma attacks among children and 
other health harms. This analysis demonstrates that the 
benefits outweigh the costs of implementing the standards by a 
margin of 9 to 1. And subsequent to finalization and 
implementation of MATS, many studies have further quantified 
and monetized reductions of mercury, finding that the benefits 
are indeed orders of magnitude higher than EPA had estimated. 
And it is now also clear that EPA and industry overestimated 
the cost of compliance with the standards.
    The power sector is meeting MATS and has achieved an 85 
percent reduction in mercury, an 81 percent reduction in other 
metals, and a 96 percent reduction in acid gases since 2010. 
Unfortunately, in 2018, EPA proposed to reverse the Agency's 
prior foundational finding that MATS is appropriate and 
necessary, which could potentially undermine these already-
implemented and widely-supported standards. EPA presented no 
scientific evidence to suggest it was not appropriate to 
regulate power plants' hazardous air pollution. EPA also 
declined to update its analysis of the cost and benefits of the 
rule, and instead inappropriately relied on the 2011 regulatory 
impact analysis.
    Numerous public commenters noted that the substantial peer-
reviewed research documenting greater health effects of mercury 
and analysis quantifying and monetizing benefits and reducing 
mercury emissions were not considered in EPA's 2018 proposal. 
This deficiency was also noted by the EPA's Science Advisory 
Board in a draft report addressed to Administrator Wheeler in 
October 2019. For example, as EPA admitted at the time, the 
Agency's 2011 RIA was only able to quantify and monetize a 
small subset of the subset of the impacts of methyl mercury 
exposure. More recent studies have shown that there are 
significant new analysis EPA could draw from to assess the full 
array of benefits from implementing the standards.
    A comprehensive report from leading independent 
environmental economists released in December 2019 also found 
that EPA's approach greatly underestimated the public health 
benefits associated with reducing mercury emissions, and that a 
new retrospective and prospective benefit cost analysis could 
better represent the impacts of the MATS rule. Furthermore, the 
public health and environmental community is not alone in 
objecting to EPA's harmful and scientifically-unsupported 
proposal. EPA's proposal has been widely opposed, including by 
the power sector and labor leaders, who have asked EPA to leave 
the standards in place and effective. Also the House of 
Representatives has expressed bipartisan opposition to the 2018 
MATS proposal with the House Interior EPA funding for Fiscal 
Year 2020 having included an amendment that would have blocked 
the EPA from finalizing this proposal.
    I want to thank you again for your consideration of the 
MATS study proposal, and we look forward to working with the 
committee on this important matter.
    [The statement of Ms. Warner follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum [presiding]. So I will just ask a quick 
question of all three of you. We have things I looked at. I 
mean, some of this is appropriations, making sure that there is 
the funding to do the right analysis, the funding to do the 
right studies, the funding to do the enforcement. That is kind 
of the place we are at. And the amendments can come on the 
floor and be in order for some of the things. But do you have 
anything moving through Energy and Commerce in the 
authorizations committee that Mr. Joyce and I should be looking 
at to see whether or not there is a funding attachment to them 
and be aware of it?
    Dr. Khatri. I don't know that we have anything formally 
going through those committees. However, I think the clean 
energy sector certainly helps with improving our air quality. 
And so any collaborations we can make in that regard would be 
helpful. I think the lens through which I came with 
representing ALA is the fact that it is a broad issue, the air 
quality, and it doesn't even affect only those people with 
chronic lung diseases, but can develop it as well.
    Ms. McCollum. Right.
    Dr. Khatri. So I think knowledge is power is the key to 
this, and giving the communities the empowerment to sort of 
partner and change their environment, that is the lens through 
which I came. So perhaps that didn't come through as clearly.
    Ms. McCollum. No, no, it did. I was just wondering if you 
had any other, you know, we are not the only tool in the 
congressional toolbox that you are looking at to bring these 
issues either to awareness. You know, sometimes there is 
environmental justice bills going through. There are other 
hearings happening. I was just wondering if there was anything 
that I as a member should be talking to some of my counterparts 
in either Energy and Commerce or any of the other committees.
    Dr. Khatri. I can certainly get back to you on that.
    Ms. McCollum. You could get back to us. That would be 
helpful.
    Mr. Keogh. We do not have anything attached to any other 
legislation. Implementing the Clean Air Act is a pretty swim 
lane.
    Ms. McCollum. I think so.
    Mr. Keogh. And the State and local agencies have these 
category grants. So you are the dance partner that we come 
with.
    Ms. McCollum. With the dance.
    Mr. Keogh. So that is where we are at.
    Ms. McCollum. But for the grants, but for some of the other 
things.
    Mr. Keogh. Yeah, I am not aware of any advocacy work that 
we have in Energy and Commerce related to the mercury stuff 
that I talked about, but I am happy to follow up with you as 
well about that.
    Ms. McCollum. Okay.
    Mr. Keogh. Thank you for that question.
    Ms. McCollum. Thank you.
    Mr. Keogh. Thank you for your time.
    Ms. McCollum. Absolutely. We have heard from the EPA clean 
air panel. Now we are going to hear from the EPA clean water 
panel. So if you would, and we won't count it against your 
time. Just take a moment and introduce yourself, and then go 
into your testimony. We will go through. We found out that that 
kind of saves time and gets people back on track. And you have 
waited throughout a vote, so we appreciate it, and we look 
forward to hearing your testimony. Please start.
                              ----------


                                        Thursday, February 6, 2020.

                   ENVIRONMENTAL LAW & POLICY CENTER


                                WITNESS

ANN MESNIKOFF, FEDERAL LEGISLATIVE DIRECTOR, ENVIRONMENTAL LAW & POLICY 
    CENTER
    Ms. Mesnikoff. Thank you. Good afternoon. I am Anne 
Mesnikoff. I am the Federal legislative director for the 
Environmental Law and Policy Center. ELPC is based in the Great 
Lakes region with offices in seven Midwest States and here in 
D.C. Thank you, Chair McCollum, Ranking Member Joyce, and 
Representative Kilmer for the opportunity to testify today in 
support of the popular bipartisan Great Lakes Restoration 
Initiative. We greatly appreciate the leadership of this 
committee that resulted in the program receiving $320 million 
for this Fiscal Year.
    The Great Lakes are a global gem and contain 21 percent of 
the world's fresh water. They supply 42 million people with 
safe drinking water. The Great Lakes support a $7 billion 
annual fishing industry, and recreation draws millions of 
tourists, who boost the economies of shoreline communities. In 
short, the Great Lakes are where many millions live, work, and 
play.
    I will make three points today. First, the Great Lakes 
Restoration Initiative is vitally important and successful. It 
is a model Federal program providing great benefits, and it is 
working well. As the GLRI's Third Action Plan notes, the GLRI 
has been a catalyst for unprecedented Federal agency 
coordination, which has, in turn, produced unprecedented 
results.
    Congress' recognition of the effectiveness of the program 
is reflected in the bipartisan support to reject the 
President's proposed budget cuts for this successful program, 
and instead restored funding for it for Fiscal Year 2018, 2019, 
and an increase in Fiscal Year 2020. Yesterday on the House 
floor, many members spoke to the benefits of GLRI across the 
Great Lakes, and my written testimony details a range of 
projects the program covers and highlights several examples of 
successful projects documented by our partners, Healing Our 
Waters Coalition. Importantly, GLRI projects bring together a 
broad array of partners to do the work to achieve GLRI's goals 
and create jobs. The program delivers significant regional 
economic value.
    Second, even as we applaud the success of GLRI, we need to 
recognize the new and evolving threats the Great Lakes face 
from climate change, the increases of harmful algal blooms, to 
this Administration's attack on the Clean Water Act. These 
combined threats mean we need to protect the Great Lakes more 
now than ever. Last spring, ELPC issued a report authored by 
top climate experts from Midwest universities, including the 
University of Minnesota and Ohio State University. The report 
found that climate change is causing significant and far-
reaching impacts across the region. Among the impacts 
particularly relevant to GLRI is the finding that climate 
change is contributing to a more dramatic pattern of 
fluctuating lake levels compared to historic patterns. Annual 
precipitation in the Lakes region has increased at a higher 
percentage than the rest of the country, and more of this 
precipitation is occurring in unusually large events.
    The Lakes remain at dangerously high levels, bringing 
flooding, impacting infrastructure and increased polluted 
runoff. We need to recognize the role climate change is playing 
and will play across the region with attention to resilience, 
protecting shorelines, wetlands restoration, other projects 
that GLRI supports. Changes in precipitation patterns are also 
contributing to the growing challenge of algal blooms, which 
threaten public health, drinking water, and treatment costs, 
and impact recreation and fishing.
    In just the Maumee River Watershed, a priority watershed 
for GLRI, the estimated number of animals in the region tripled 
over the last 10 years. We used satellite imagery to count and 
measure CAFOs in the Maumee Watershed to estimate the number of 
animals the amount of manure these facilities produce, and 
concluded that in 2018 alone, CAFOs produced 3.5 million tons 
of manure, fueling Lake Erie's excess nutrient load. GLRI 
supports strategies to reduce this harmful runoff, but even as 
these programs are implemented, the number of animals and 
industrial farms is on the rise.
    Finally, the Lakes face new threats from critical rollbacks 
of rules intended to protect clean water. The recently-
announced Navigable Waters Protection Act will leave rain-
dependent streams and a large percentage of wetlands 
unprotected. EPA's own Science Advisory Board's draft letter 
was deeply critical of the analysis supporting the final rule. 
This rollback, along with the proposed changes to States' 
authority under section 401 of the Clean Water Act could also 
increase challenges to the Lakes.
    And finally, third, I need to make amendment to my written 
testimony because, again, as members spoke in support of GLRI 
yesterday, they also passed the GLRI Act of 2019. ELPC supports 
this bill and the important goal of funding GLRI at $475 
million. But given the urgency of protecting the Lakes, we 
request that this committee consider increasing funding for the 
program to that level for fiscal year 2021. This increase would 
be both a downpayment toward the implementation of the 
reauthorization and a recognition of the challenges the Great 
Lakes face.
    Thank you again for the opportunity to testify today in 
support of GLRI.
    [The statement of Ms. Mesnikoff follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                                        Thursday, February 6, 2020.

        UNIVERSITY OF MONTANA, FLATHEAD LAKE BIOLOGICAL STATION


                                WITNESS

ERIN K. SEXTON, SENIOR SCIENTIST, UNIVERSITY OF MONTANA, FLATHEAD LAKE 
    BIOLOGICAL STATION
    Ms. Sexton. So thanks in advance for your time today. 
Thanks, Chairman McCollum, and Ranking Member Joyce, and 
Committee Member Kilmer. This is a first for me. So my name is 
Erin Sexton, and I am a senior scientist at the University of 
Montana Flathead Biological Station. I am here today to discuss 
the important issue of mine contamination from British Columbia 
flowing downriver into Alaska, Washington, Montana, and Idaho.
    I have spent the last 2 decades studying the impacts of 
large-scale mining in transboundary rivers. I live and work 
with my family just outside of Glacier National Park and live 
near two of these big transboundary rivers, the Flathead and 
the Kootenai watershed. Both of these rivers have their 
headwaters in southeast British Columbia and are underlain by 
some of the world's largest metallurgical coal deposits.
    I am here today because there is a critical need for 
Federal funding to address the issue of B.C. mining impacts to 
our downstream States.
    Ms. McCollum. For the record, B.C. is British Columbia?
    Ms. Sexton. Yes, I am sorry. British Columbia. British 
Columbia, Canada. This spending is an investment up front to 
ensure accountability so that our communities in Washington, 
Idaho, Alaska, and Montana do not pay the price for long-term 
damages from Canadian mines.
    Mines in British Columbia leeching into western States 
creates a unique problem for our State, tribal, and Federal 
Governments. We are collectively outside of the decision-making 
process and excluded from environmental assessments and mining 
permits that directly impact our rivers. In Montana and Idaho, 
mines owned by Teck Coal in southeast B.C. are right now 
delivering mine waste into our Kootenai River watershed, and 
they are already impacting water quality and fish. In 
Washington State, Imperial Metals seeks to build a giant copper 
mine in the headwaters of the Skagit River, and in Alaska, 
there are more than 12 operating and proposed mines that 
threaten some of our last remaining wild salmon rivers. All 
four States share the common problem of British Columbia mines 
jeopardizing downstream economies, water quality, fish, and 
communities.
    In years of working on transboundary mines and sorting 
through the environmental process in British Columbia, I have 
learned that we cannot trust their laws to protect our waters. 
In British Columbia, the mining company leads every aspect of 
the EA, from data collection, to assessment of impacts, to 
selecting the mitigation. In short, letting a mining company 
write their own environmental assessment is business as usual 
for British Columbia, but represents a substantial downgrading 
of our own environmental laws.
    Fifteen years ago when I started sampling water quality 
downstream Teck's Elk Valley mines in southeast B.C., I found 
significantly elevated levels of selenium nitrates and other 
contaminants, all well above healthy environmental thresholds. 
We saw evidence from fishing outfitters of fish with missing 
gills and birds with two beaks, common deformities resulting 
from selenium toxicity. Given these impacts and clear 
increasing contaminant trends, I expected to see a moratorium 
on new mines pending effective mitigations and regulatory 
enforcement. Instead, with this data in hand, British Columbia 
permitted the expansion of four open coal mines in the Elk 
Valley and Kootenai watershed. Rather than enforcing water 
quality guidelines, they rewrote the management plan, 
increasing water limits to accommodate rising contaminant 
levels.
    Teck Coal's mitigations have repeatedly failed, and we now 
have decades of mine waste leeching into Montana and Idaho over 
150 miles downriver from the mines. This year, USGS, USEPA, and 
the Kootenai Tribe of Idaho are trying to cobble together 
funding to verify those findings and expand their study.
    In Fiscal Year 2019 and 2020 with funding from Interior 
appropriations, USGS took a first pass at baseline data at the 
International Boundary of the States bordering British 
Columbia. They did this by installing higher-grade gauges at 
the International Boundary. To date, EPA has not received 
funding to address this issue despite being a lead entity 
across all four States and providing a critical link to our 
States and tribes.
    Data gathered with those initial dollars in Fiscal Year 
2019 and 2020 shows the need for a substantial long-term 
funding investment to our interior agencies. A conservative 
estimate would be $16 million over 5 years across Washington, 
Alaska, Montana, and Idaho. This funding will allow us to lead 
our own science, establish our own baseline, evaluate impacts, 
and proactively ensure protection and rehabilitation of these 
rivers. We can build a long-term strategy, which can include 
assessment of damages and assignment of accountability north of 
the border.
    The call for resolution on this issue has been loud and 
clear. Last year, eight U.S. senators from the four downstream 
States read a joint letter to B.C. Premier Horgan demanding 
action. The letter followed on a rising chorus from affected 
tribes expressing deep concerns about impacts to travel, treaty 
rights, and lands. The response from Premier Horgan was 
insufficient and notably lacked any mention of financial 
assurances or accountability to downstream States.
    A robust commitment to Federal-led science is imperative to 
U.S. efforts to achieve meaningful and lasting resolution to 
this issue, and ultimately to ensure that the cost of this 
contamination isn't paid by downstream communities of Idaho, 
Montana, Washington, and Alaska. Thank you for your time today.
    [The statement of Ms. Sexton follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you.
                              ----------


                                        Thursday, February 6, 2020.

                          ENVIRONMENT AMERICA


                                WITNESS

JOHN RUMPLER, SENIOR DIRECTOR, ENVIRONMENT AMERICA
    Mr. Rumpler. Good afternoon, Madam Chair, Ranking Member 
Joyce, Representative Kilmer. My name is John Rumpler, and I am 
a senior attorney and clean water program director for 
Environment America. Madam Chair, if I can indulge for just a 
moment, I just want to recall of all the elected officials that 
I have ever had the privilege to hear speak on the importance 
of clean water, when you when I shared a stage in March of 
2014, 200-plus people on a hearing on the Clean Water Rule in 
St. Paul, you were the one who better than anyone captured what 
clean water means for America, for our ecosystem, and our 
citizens. And I remember it to this day.
    Ms. McCollum. Thank you.
    Mr. Rumpler. I am here to testify in support of dramatic 
increases that are urgently needed in the Clean Water State 
Revolving Fund and the Drinking Water State Revolving Fund. As 
a national organization working to protect the places we love 
and promote core environmental values, Environment America 
believes that we have to fund the water infrastructure that our 
environment deserves and our health demands. And as a citizen-
based network of State groups in 29 States, we know the public 
agrees.
    Now, Congress nearly 50 years ago when we passed the Clean 
Water Act made a promise to the Nation that our waters would be 
safe for swimming. Yet here we are all these years later, and 
we still have billions of gallons of sewage overflows and 
runoff pollution plaguing Lake Erie, plaguing the rivers, 
including the Mississippi River in Minnesota, plaguing Puget 
Sound. Just to underscore, last summer in our report, ``Safe 
for Swimming,'' my researchers found widespread fecal bacteria 
contamination in beaches across America. And, in fact, health 
experts estimate there are 57 million instances of Americans 
getting sick each year from swimming in our waters: 
gastroenteritis, skin rashes, ear infections, et cetera. This 
is clearly not what we meant when we said let's make our waters 
safe for swimming right here in Congress with the Clean Water 
Act.
    Moreover, these problems are likely to get worse with 
climate change exacerbating storms and flooding. To give you 
one recent example, a sewage facility that was flooded in 
Nebraska has been releasing over a 1 million gallons of sewage 
every day since last spring because it has been knocked out of 
capacity. In addition to these challenges, we now have new 
challenges facing our wastewater infrastructure from PFAS, to 
micro plastics, to pharmaceutical waste. Now, I have to ask 
you, if the American Society of Civil Engineers has given our 
wastewater infrastructure a recent grade of D-plus, how on 
earth are we going to secure clean water if we don't step it up 
with dramatically increased funding?
    EPA estimates that to solve our wastewater problems, it is 
going to take an investment of $271 billion over the next 20 
years. Current levels do not even approach that, but 
Environment America, along with 20 other organizations, are 
urging Congress to triple the SRF level up to $6 billion per 
year so that we can have safe clean water. But it is not just 
our waterways that are at risk. It is also our drinking water, 
and let me talk primarily right now about the threat of lead 
contamination.
    Unfortunately, over the course of a century, we built our 
pipes and a lot of our fixtures with a potent neurotoxin that 
harms the way that our kids learn, behave, and grow. And now I 
have to tell you we have a national epidemic of drinking water 
contamination by lead. And I don't just mean in communities 
like Flint or Newark. Researchers have found lead in water at 
the tap in 2,000 water systems in all 50 States, rural, 
suburban. It is everywhere. We know that lead harms the way 
that our kids develop, so we have got to deal with this 
problem.
    To stop the toxic contamination, job one is removing lead 
service lines. These toxic pipes are the leading source of lead 
water contamination wherever they are. EPA now estimates there 
are 9.3 million of them out there. The price tag to remove them 
all, which health officials say we must do, is now estimated at 
approximately $45 billion. State and local rate payers are not 
going to be able to bear that burden alone. The longer we here 
in the Federal Government wait for a substantial investment, 
the longer our kids are going to be drinking water tainted with 
lead. And let me assure you that it is our kids because, in 
fact, our research through our Get the Lead Out Campaign has 
found it not just in our homes with service lines, but in 
schools across the country. A high percentage in Washington 
State, a high percentage in Ohio and States across the country. 
Lead contamination of drinking water in our schools is 
pervasive, and I can get you that data from about 20 States 
that have done various levels of testing so far.
    We need to help our schools get the lead out so that our 
kids can learn and grow up safely every day when we send them 
to learn and grow. How do we do that? Well, schools need to 
start removing old water fountains that have lead in them, and 
water fountains, and put on filters that are certified to 
remove lead. That is going to take a lot of resources, and 
schools that are, you know, strapped for their budgets are not 
going to be able to do it alone. So, again, this is going to 
require a substantial unprecedented Federal commitment to say 
we are not going to tolerate the contamination of our water 
with a potent neurotoxin that makes our kids sick.
    Now I should say lead is not the only problem that we need 
to face with drinking water. We have heard about PFAS, toxic 
chemicals and toxic metals getting into our waterways. EPA 
estimates overall there that we are going to $472 billion over 
the next 20 years just to maintain our current drinking water 
infrastructure.
    Ms. McCollum. Are you about done?
    Mr. Rumpler. I am just about to finish. I just wanted to 
add, Madam Chairwoman, if I can, that clean, safe water is the 
hallmark of an advanced society. And for too long, we have 
taken it for granted, and now America has fallen short. But if 
we can take this opportunity to make a historic investment in 
clean water, we can bring back the promise of clean water for 
all Americans. Thank you.
    [The statement of Mr. Rumpler follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you.
                              ----------                              

                                        Thursday, February 6, 2020.

                ASSOCIATION OF NATIONAL ESTUARY PROGRAMS


                                WITNESS

RICH INNES, SENIOR POLICY DIRECTOR, ASSOCIATION OF NATIONAL ESTUARY 
    PROGRAMS
    Mr. Innes. Thank you. Is it okay to give you a couple of 
pictures?
    Ms. McCollum. We love handouts. [Laughter.]
    Mr. Innes. I am Rich Innes. I am the----
    Voice. What we got last time.
    Mr. Innes. Oh, that is right. You missed your stone.
    Ms. McCollum. It is an agate.
    Mr. Innes. My name is Rich Innes. I am the senior policy 
director of the Association of National Estuary Programs. My 
association with the NEPs goes back to when I was fortunate 
enough to be a staffer on the Senate Environment Committee when 
we were doing the 1987 amendments to the Clean Water Act, which 
created the program. And I am sure that champions of the 
program at that time, including my boss, Senator John Chaffee, 
George Mitchell of Maine, and Pat Moynihan would be very proud 
of how this program has flourished.
    I want to particularly thank Representative Kilmer for 
inviting both the chair and the ranking member to see firsthand 
one of our premiere national estuary programs, the Puget Sound. 
And while I am sure you saw it is absolutely stunningly 
beautiful and breathtaking framed by Mount Saint Helena, 
surrounded by the lands that belonged to Chief Seattle, the 
ancestral lands, it is trouble underneath, and there are a 
world of problems that the National Estuary Program, together 
with many other partners, the Puget Sound Partnership, is 
addressing out there.
    The way that that started is the way that all of our 
estuary programs have started, and that is with the commitment 
and support of a few very strong, committed citizens. In this 
case, it was some of your former colleagues, then 
Representative and now Governor Jay Inslee; the chairman 
emeritus of this committee, who will always be Mr. Chairman to 
me, and that is Norm Dicks; my lifelong mentor and very dear 
friend, Bill Ruckelshaus, who passed recently; and the 
legendary tribal leader, Billy Frank, Jr. I hope you got a 
chance to see the Wildlife Refuge named in his honor while you 
were out there. It is beautiful.
    I am really so glad you got a chance to see that. That is 
being replicated 28 times around the country for the 28 
national estuary programs, and each one of them has its own 
story to tell with modest funding, which we greatly appreciate, 
from this committee, and not just this committee. This is 
generations of this committee that have been very supportive of 
this program. It has hit well above its weight. The examples 
here are too numerous, but I am going to mention a few of them. 
The Delaware NEP, where I spend a great deal of time, is 
bringing back the oyster, and it is appearing on tables and in 
restaurants, and it is also cleaning the Bay, which is a major 
accomplishment. The New York-New Jersey Harbor, one of our 
great economic ports, is degraded, as I think we all know. And 
the NEP there, along with many partners, is spearheading a plan 
to revive and resuscitate that great port.
    The San Francisco Bay NEP, that estuary suffered 
dramatically from the indiscriminate filling of San Francisco 
Bay for decades. And what the NEP now is doing is changing 
that. They are addressing it along with Save the Bay, along 
with many partners, in order to restore and recapture the 
beauty of that Bay. Casco Bay in Maine, I am sorry that Chellie 
isn't here, but it is doing incredible work up there to reduce 
nitrate and nitrite loadings into the Bay. And, of course, the 
Puget Sound Partnership, the NEP up there, is in the forefront 
of the governor's efforts to save the orcas. And I am sure you 
learned a great deal about that when you were out there. The 
iconic black and white fish, they are down to 72. They just 
lost another one within the last few days.
    So the red light is blinking there. I want to just take one 
moment to talk about a special one, Tampa Bay, just because it 
is such a poster child, and Tampa Bay was essentially dead in 
the 1980s. Eighty percent of the seagrasses were gone, and 
almost half of the wetlands were gone out of Tampa Bay. The 
National Estuary Program down there, again, I don't want to say 
that they did it by themselves. They didn't. It was a 
partnership that is the model that NEPs employ where they get 
citizens, businesses together in order muster the political 
will and the funding, which you have been so helpful with, to 
restore these places that we love and care about. Right now, 
Tampa Bay is considered a world-class model for estuary 
restoration, and it didn't come about easily. It took decades 
for us to get there. The work isn't done, but it is a stellar 
example.
    Yesterday, there was some very good news, as we heard some 
of it, the Great Lakes bill. Thank you for passing that. Also, 
a bill reauthorizing the National Estuary Program. H.R. 4044 
was approved overwhelmingly by this body, and we greatly 
appreciate that. Norm Dicks when he was chair of this committee 
lamented publicly in a hearing similar to this that the NEPs 
were doing so much with so little, and at that point I think we 
were getting about $400 per NEP. Now thanks to you, it is up to 
a little over $600,000. Yesterday's bill that passed on the 
floor of the House would increase the authorization amount to 
$1 million per NEP, and continue to put $4 million into a 
competitive fund used to address things like ocean 
acidification in Hood Canal, algae blooms, which, as you know, 
harmful algae blooms are a major, major problem.
    So anyway, I am going to end there. I just want to thank 
all of you for your continued support.
    [The statement of Mr. Innes follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you. Well, Mr. Joyce, you have gotten a 
lot of kudos for the Great Lakes bill, and people have talked 
about authorizing amounts. When our last bill that Mr. Joyce 
and I worked on left here at the House, it has $1.3 billion 
more dollars in it than when it came back from conference 
committee.
    Voice. Wow.
    Ms. McCollum. And so we are trying to do our level best to 
work with our authorizers and their suggested amounts because 
we all think that they are wonderful, but we don't have an open 
pocketbook here. So what we are trying to do is utilize you and 
the testimony today to ask our leadership for a bigger 
allocation, so thank you all for helping to do that.
    I would just like to throw something on the table here to 
just discuss briefly. One of the challenges that I find with 
water is everybody knows we need it. Everybody drinks it. Some 
people like to recreate in it. We eat food from there. Some 
people like to just enjoy a sailboat on it. But when you ask 
people what water is worth, they say it is priceless, but then 
when it comes to some of the runoff, when it comes to some of 
the pollution that you referred to, Ms. Sexton, we get into 
this cost benefit analysis. Oh, we need the minerals. We need 
this. And that is all very true, but I think we need to be 
conservative. And as you pointed out, Mr. Rumpler, everybody is 
for clean water. They are willing to pay for clean water.
    What are we missing is that there is still a disconnect 
that water has a significant important value to it, because 
when you don't value it, you will pollute it. And I grew up in 
a river town, the Mississippi River. When the stockyards first 
opened up, they just washed everything out into the river 
because the river would wash it downstream. You don't have to 
look at it. Dilution was the solution to the pollution, and 
eventually it choked off and killed that section of the 
Mississippi River. The stockyards are gone. We mourn the loss 
of the jobs, but we don't mourn the loss of the pollution when 
the river is making a comeback. There are also some other 
issues with our sanitary sewer system there, too.
    So any suggestions about what you are doing to raise public 
awareness that water has a value so that when people talk about 
water, they also have in the back of their mind a value to it 
besides just, oh, it is here, it is accessible, it is never 
going away.
    Mr. Rumpler. Madam Chair, I have two thoughts on that. One 
is I think the U.S. Water Alliance actually has a whole public 
education program called the Value of Water. So perhaps there 
would be some resources there about how to remind people that 
water has value. But I would say, although this is a little bit 
beyond the purview of the Appropriations Committee, that there 
is a direct relationship between our regulatory regimes to 
protect our waterways and prevent pollution versus how much 
money we have to spend on the back end cleaning it up. And as 
we all know, it is cheaper to prevent, right?
    So if we could maintain stronger Clean Water protections, 
for example, Federal jurisdiction over our wetlands and streams 
that provide drinking water to hundreds of millions of 
Americans, or 117 million Americans, I should say, we will have 
less cost on the back end to clean up pollution.
    Ms. Mesnikoff. And I will just add that ELPC has done 
polling in various parts where we operate in the Great Lakes 
region to asses show people are viewing the value of clean 
water and understanding some of the particular sources that 
affect their access to clean water in their area because it is 
different, you know, sources depending on where people are. And 
then using that to help educate people about the importance of 
clean water protection, clean water regulations. So we are 
doing that, and I can share that polling with you.
    Ms. McCollum. Okay.
    Mr. Innes. A major part of the mission of the National 
Estuary Program is environmental education, and it starts when 
folks are young, but it continues. One of the benchmarks of a 
successful plan is that it includes businesses and the general 
public in buy-in to these programs. We have seen the enemy. The 
enemy is us.
    The majority of pollution of water right now, as we know, 
is coming from non-point source pollution runoff. It is coming 
from the fertilizers we are putting on our lawns, from 
agriculture, from the cars we drive. It is no longer the big 
bad industrial polluter as it was when we first passed the 
Clean Water Act. And so that is going to involve all of us in a 
real public education campaign in how to value and cherish 
something as essential to human life as water.
    Ms. McCollum. Okay. I am just going to make one quick 
comment before I turn it over Mr. Joyce. I am dealing with an 
issue that is reverse flow than what you are dealing with with 
the Canadians, Ms. Sexton, because of the Laurentian Divide. So 
when you teach social studies, geography is part of it, so I 
have to get the map up, and in our part of the world, the water 
flows north. And so we are dealing with sulfur copper ore 
mining, and I am sure the Canadians don't want anything going 
into Quantico Bay, just as we don't.
    I want to work save their pristine waters. Waters in the 
boundary waters, we can literally put this glass in, take it 
out, and drink it. And all the mines, it just isn't one mine, 
all the mining permits that could go along in that area, and 
one mistake, and it is over. There is no going back. So I 
appreciate the fact you mentioned your challenge with the 
Canadians. I am planning on meeting with some of our 
counterparts in Canada, and one of the things that I have 
highlighted with the permitting of these mines is we need to be 
mindful of the 1908 Boundary Waters Treaty. I think it is 1909. 
I did have the date correct. And the water flows both ways on 
that, so you gave me some ammunition, and I will be using it. 
Mr. Joyce.
    Mr. Joyce. Thank you all for coming here today and for 
providing us with this information. Erin, I thought you did a 
hell of a job for your first time testifying.
    Ms. McCollum. Mr. Kilmer.
    Mr. Kilmer. Thanks, Madam Chair. I want to thank all of you 
as well. And, Mr. Innes, thanks for highlighting the Puget 
Sound Partnership and the work they do. As you all pointed out, 
last year, we saw an increase in National Estuary Program 
funds. We saw an increase in funds for the Puget Sound 
Geographic Program. I want to thank our chairwoman for her 
leadership, and partnership, and advocacy in making that 
happen. The Puget Sound is just so vital to our economy, to our 
environment, and as you pointed out, it is beautiful, but sick. 
Talk about how increased funding will help us move the needle 
on recovery.
    Mr. Innes. So as you are well aware, Congressman, each of 
the NEPs develop something called a comprehensive management 
plan. In Puget Sound, it is called the Action Agenda, and it 
has a tremendous amount of buy-in, and this goes back to Bill 
Ruckelshaus, his shared strategy. So now you have got a very 
dynamic, very well-conceived plan for achieving the cleanup 
goals for Puget Sound, and there is no substitute for funding. 
And it isn't all Federal. I have to say that the State of 
Washington is putting in an enormous amount of money, more than 
the Federal contribution, and also private industry. We have 
got NGOs that are very engaged in this. The tribal contribution 
is enormous as well.
    We made a decision. I probably shouldn't tell you this, but 
the figures were so big and so staggering that good advice was 
don't put out there that it is going to take $2 billion to 
recover this because that might scare people, to make it more 
bite sized. But there is no substitute for some of the 
investments that be made. They are expensive. They are 
culverts, replacing culverts to restore streams. They are water 
treatment. Anyway, it is expensive. And I do have to say that 
in the NEPs in general and Puget Sound in particular, that 
investment is put to extremely good purpose and goes a long 
way. So thank you.
    Mr. Kilmer. Thank you. I yield back.
    Ms. McCollum. Thank you. Well, we will have our next panel 
come up. Thank you so much.
    Ms. Sexton. Would you like some maps?
    Ms. McCollum. Oh, I love maps. Well, welcome. So you know 
the drill probably better than anybody else. You are the last 
panel, so I want to thank you so much for your patience, your 
due diligence, putting up with the vote, and we are anxious to 
hear your testimony. So, Ms. Murdoch, if you want to introduce 
yourself, we won't count that against your time.
    Ms. Murdoch. Thank you.
    Ms. McCollum. It saves time.
    Ms. Murdoch. Thank you.
    Ms. McCollum. And go into your testimony.
                              ----------                              

                                        Thursday, February 6, 2020.

                            AMERICAN FORESTS


                                WITNESS

ALEXANDRA A. MURDOCH, ESQUIRE, VICE PRESIDENT OF POLICY, AMERICAN 
    FORESTS
    Ms. Murdoch. Hello. My name is Alex Murdoch, and I am the 
vice president of policy for American Forests. Thank you very 
much for having us today. Chairman McCollum, Mr. Joyce, and Mr. 
Kilmer, thank you so much.
    I am here to talk with you today about our recommendations 
for U.S. Forest Service programs that are critical to achieving 
climate-informed restoration and reforestation of America's 
forests. So very particularly about our national forests and 
what they do for us with respect to our changing climate. We 
sincerely thank the committee for the Fiscal Year 2020 funding 
levels for the Forest Service. And I would also like to 
particularly appreciate the increase in funding that you 
provided for the Urban and Community Forest Program, and we are 
grateful to the committee for recognizing how important that 
program is.
    American Forests was founded in 1875 by citizens who were 
alarmed by the state of our forests. At that time, America was 
growing quickly, and we were clearing our forests to make way 
for new farms, towns, and railways. This development came at a 
price. In the 1600s, almost half of the United States was 
forested, and those forests provided clean water, and fish and 
game, and shelter and goods for those who lived near them. But 
by the start of the 20th century, we cleared over 25 percent of 
our forest land, and our drinking water was seriously at risk.
    Thankfully in 1911, Congress began to protect our forests 
and waters by authorizing Federal purchase of forested cutover 
or denuded lands to protect important watersheds. So today, 
national forest lands are the largest source of municipal water 
supply in the United States and serve 60 million people. Today 
we also know that our forests play an important role in 
regulating our climate. In Congress and the White House now, we 
see an emerging bipartisan recognition that forests and 
climate-informed forest management are an important strategy 
for mitigating climate change.
    At American Forest, we agree with that consensus. Today, 
U.S. forests and forest products annually sequester and store 
15 percent of U.S. carbon emissions from burning fossil fuels. 
New research suggests we could nearly double this natural 
carbon capture with the right actions. Managing and protecting 
our national forests in a changing climate is a critical piece 
of this climate puzzle. The good news is we can do this through 
existing programs if proper levels are provided.
    Foresters need good scientific data to manage our forests 
and changing climate. Increased investment in the Forest and 
Rangeland Research Program can provide the tools for foresters 
to identify, prioritize, and manage climate-driven risks to 
forests. Foresters need to restore an estimated 80 million 
acres of national forests with climate-informed management 
practices. To do this, they need to significantly increase 
investments in existing programs that improve forest carbon, 
adaptation, and resilience outcomes both on Federal lands and 
across boundaries. These programs include the Collaborative 
Forest Landscape Restoration Program, the Hazardous Fuels 
Reduction, and Vegetation and Watershed Management Programs.
    Over 1.2 million acres of national forests need 
reforestation, a backlog that grows with every catastrophic 
wildfire or infestation from pests and disease. After a 
catastrophic event, foresters need funding to implement post-
fire reforestation treatments on lands unlikely to recover 
naturally, as well as increased reforestation practice 
investments.
    Healthy and resilient national forests can deliver critical 
power to close climate change. We are greatly heartened by the 
optimism and enthusiasm emerging in our country that 
reforesting America is an important part of the climate puzzle. 
Business leaders are playing an essential and growing role by 
funding millions of trees planted all across America, and 
pledging investment to the new Trillion Trees Initiative that 
was announced at the World Economic Forum in late January. But 
Congress has the power to activate the greatest single lever 
for quickly advancing large-scale forest carbon mitigation 
activities in the U.S. by significantly increasing climate-
informed restoration and reforestation on our national forests. 
Thank you.
    [The statement of Ms. Murdoch follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Mr. Baker.
                              ----------                              

                                        Thursday, February 6, 2020.

                     SOCIETY OF AMERICAN FORESTERS


                                WITNESS

TERRY BAKER, CEO, SOCIETY OF AMERICAN FORESTERS
    Mr. Baker. Good afternoon, Chairwoman McCollum, and Ranking 
Member Joyce, and also Representative Kilmer. My name is Terry 
Baker, and I am the CEO of the Society of American Foresters. 
Thank you for this opportunity to share how forestry, national 
resource professionals, and stakeholders can work together to 
ensure the sustainability of our Nation's forests through 
thoughtful investments and long-term commitment to active 
management, research, and partnerships.
    SAF is a professional society that represents over 10,000 
forestry and natural resource professionals across our Nation. 
SAF also produces two peer-reviewed scientific journals and 
critical natural resource programs at academic institutions 
across the Nation, and helps encourage professional excellence 
through credentialing and continuing education.
    Since our founding in 1900, forestry and foresters have 
evolved. Today's foresters are proud women and men who have 
devoted their careers to understanding forests and trees, 
enhancing benefits that they provide, and ensuring that they 
continue to thrive for generations to come. In our humble 
opinion, we are the original green job----
    [Laughter.]
    Mr. Baker [continuing]. That through commitment to science 
and innovation, we have continuously improved forestry 
practices and tools, lessening impacts to the land and 
improving outcomes to communities, wildlife, and society as a 
whole.
    With increasing threats and demands on our forests, no 
agency program or organization can do it alone. Partnerships, 
collaboration, and cross-boundary work is more important than 
ever. This is exactly why SAF wholeheartedly supports the 
Forest Service's shared stewardship strategy. Actively working 
to identify shared priorities and improved processes and 
procedures will benefit all stakeholders in the long run. We 
encourage you to support these efforts and tools that expand 
collaboration with rural communities, partners, and industry, 
such as the Good Neighbor Authority and stewardship 
contracting.
    We sincerely thank this subcommittee for its work in 
supporting and securing funding increases for the Forest 
Service and Bureau of Labor Management programs for Fiscal Year 
2020. These important gains would not have been realized 
without your leadership and dedication. For Fiscal Year 2021, 
we respectfully ask that you consider the continuing trend of 
investing in our forest resources, specifically through the 
Forest Service's forest and rangeland research, State and 
private forestry programs, and the Bureau of Labor Management 
forestry programs. Advancing forest science is integral to 
improving the health of U.S. forests and citizens, increasing 
the competitiveness of U.S. products in the global marketplace, 
and adapting to future challenges. Recent Forest Service 
research activities have developed innovative solutions to 
managing invasive species, improving smoke and fire management 
capabilities, and driving innovation and expansion of 
commercial applications for forest products.
    For Fiscal Year 2020, we appreciate that this subcommittee 
not only rejected the drastic cuts to Forest Service research, 
but also championed an increase. For Fiscal Year 2021, we urge 
you increase funding for Forest Service research to no less 
than $310 million, which includes $83 million for the Forest 
and Inventory Analysis Program, and $227 million for the 
remaining research and develop programs.
    As we all work to use resources more efficiently and 
effectively, State and private forestry programs provide a 
significant return on Federal investment by leveraging the 
boots on the ground and financial resources of State agencies 
to deliver to landowners, communities, tribes, and other 
Federal agencies. The President's budget for the last few years 
has proposed eliminating programs like Urban and Community 
Forestry and Landscape Skill Restoration. Again, we appreciate 
your efforts to continue these programs to secure much-needed 
increases for the entire five programs of the State and private 
forestry area.
    SAF recommends that these programs be funded at Fiscal Year 
2020 levels, and, if possible, above. In addition, we urge you 
to consider increasing urban and community forestry to at least 
$35 million and forest self-management on cooperative lands to 
$48 million. The Bureau of Labor Management plays an integral 
role in improving the health and productivity of our Nation's 
public lands. SAF asks this subcommittee to extend the 
authorization for the Forest Ecosystem Health and Recovery 
Fund, which is currently set to expire this year. This fund 
specifically helps support management that improves wildfire 
resilience and other benefits for BLM and adjacent lands.
    In conclusion, we understand and appreciate the resources 
are finite, and that more money is not always the answer. 
However, our forests have been long been undervalued by society 
and underfunded by decision makers. Today, thanks to the 
growing and more sophisticated body of science, we know that 
forests and trees are key to mitigating climate impacts and 
improving the health, well-being and prosperity of our 
communities.
    Modest increases to the programs discussed today can yield 
incredible results for our forests. Please know that SAF and 
its diverse membership are always a resource to you. Whether 
you are looking for the latest science or insights from our on-
the-ground practitioners, don't hesitate to reach out. Thank 
you again for your leadership and your recognition of the 
importance of our forests, forest management, research, and 
forestry professionals.
    [The statement of Mr. Baker follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you. Mr. Asher.
                              ----------                              

                                        Thursday, February 6, 2020.

                         THE WILDERNESS SOCIETY


                                WITNESS

JONATHAN ASHER, DIRECTOR OF GOVERNMENT RELATIONS, THE WILDERNESS 
    SOCIETY
    Mr. Asher. Thank you, Chair McCollum, for having me today, 
and, of course, Ranking Member Joyce and Mr. Kilmer. I am 
Jonathan Asher. I am the director of government relations for 
conservation funding with the Wilderness Society.
    And I just want to start out by saying, you know, in 
particular thank you to you and your staff for working across 
the aisle, but also, you know, in particular, taking advantage 
of the increased budget cap and negotiating the increased 
budget cap last year, and then also a full-year bill. That is, 
you know, a huge benefit, I think, to all of our priorities. So 
thank you very much. I appreciate that.
    I just want to share with you some priorities of the 
Wilderness Society looking forward to this year. And in doing a 
quick time read of what I had written, it was like way over, so 
I am just going to kind of go through what I can.
    Ms. McCollum. We will have----
    Mr. Asher. There you go. Exactly. [Laughter.]
    Right. So, you know, the Land and Conservation Fund remains 
one of the Wilderness Society's top priorities because of its 
on-the-ground impact and value to actual conservation, and to 
local communities, and to our natural landscape. The increased 
funding level of $495 million last year was greatly appreciated 
and certainly acknowledged. I think, you know, as look forward 
to this year, noting that the program remains authorized at 
$900 million, we, you know, always continue to look for 
opportunities to increase that because of its value to our 
local communities, our natural landscapes, recreation, and, in 
particular, climate change.
    LCWF is one of the main on-the-ground tools that we have in 
addressing the impacts of climate change through adaptation 
efforts as exemplified in the Sierra Nevada and California, 
where the long history of kind of the patchwork of railroad 
ownership throughout the years has created kind of the 
patchwork ownership that makes it hard to fight wildfires 
efficiently. The State teamed up with the Forest Service, 
localities, land trusts, and other landowners to employ LWCF to 
undo some of that patchwork, and it is actually seen a visible 
increase in the ability to efficiently address wildfires in the 
State. So they are using LWCF there as a climate tool.
    Similarly, in New Jersey, there was a large wetlands 
project that was done as a natural storm buffer from hurricanes 
and, in particular, to mitigate against the impacts of climate 
change. A study of the insurance industry showed that with 
similar efforts, we saved upwards of, you know, several hundred 
million dollars with Hurricane Harvey. So, again, these natural 
solutions are really key to how we are looking towards the 
future of addressing climate change, not only for our natural 
landscapes, but also for local communities, in particular. So 
the Land and Water Conservation Fund is critical to that 
effort, and we certainly hope the committee will continue to 
increase its funding levels and support that critical program.
    Additionally, we pay attention to renewable energy 
opportunities on public lands. You know, while there is still 
authorizing legislation that is working its way through 
Congress, we know that several programs, several line items 
within the appropriations bill speak specifically to renewable 
energy to public lands, and we want to support those, and 
increased responsible development of renewable energy on public 
lands, again, as a climate solution.
    The Wilderness Society also pays particular attention to 
wildlife refuges and noting, in particular, funding for listing 
under the Endangered Species Act. We certainly support that and 
efforts to make sure that it doesn't get cut this year. We 
would like to, you know, continue to push for the legacy Roads 
and Trails Program to kind of be independent of the Capital 
Improvement and Maintenance Fund. And then, in particular, 
also, you know, a number of oversight provisions last year were 
great that we hope you will continue to support this year, 
including the boundary waters, including Chaco Canyon, and, you 
know, with the DOI reorg and the BLM headquarters move. You 
know, these are moves that the Trump Administration has made 
that are, you know, pretty aggressive with respect to 
congressional authority, and we hope that you will feel 
bolstered in your ability to continue those oversight 
activities.
    So with that, thank you again for a great bill last year. 
We really appreciate it and hope that you will keep up the 
progress this year.
    [The statement of Mr. Asher follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you.
                              ----------                              

                                        Thursday, February 6, 2020.

                     LEAGUE OF CONSERVATION VOTERS


                                WITNESS

LAURA FORERO, LEGISLATIVE REPRESENTATIVE, LEAGUE OF CONSERVATION VOTERS
    Ms. Forero. Good afternoon, Madam Chair, and Ranking Member 
Joyce. My name is Laura Forero, and I am the legislative 
representative for conservation and public lands with the 
League of Conservation Voters. As you know, the League of 
Conservation Voters is a national environmental nonprofit 
focused on protecting our planet and everyone who inhabits it. 
And along with our 30 State affiliates and the conservation 
voter movement, we work for a more just and equitable democracy 
where people, and not polluters, determine our future. So 
today, we want to thank you for the increased levels of funding 
in last year's Interior appropriations budget. We are also very 
thankful for the subcommittee's Fiscal Year 2020, especially 
because it did not contain any longstanding anti-environmental 
provisions, and we urge you to take this approach once again.
    Our written testimony does tell a lot of our full budget 
recommendations, but today I would like to highlight just a 
couple of those programs. So, first, I would like to talk about 
the Land and Water Conservation Fund, which in its 50 years of 
history has protected our public lands, increased accessibility 
to green spaces, and helped fuel our thriving outdoor 
recreation economy. What is more, we want to talk about the 
fact that LWCF also helps preserve our natural and cultural 
heritage. It helps tell the stories of diverse communities in 
our country and its support of green spaces in every single 
State and almost every county in the country. So we definitely 
appreciate that Congress last year provided a sizable increase 
to LWCF and that the subcommittee provided even more than 
Congress, that is, last year.
    So just to show how critical this program is across the 
country, I wanted to share the story of one of my colleagues, 
Barbara Hartzell. Barbara was raised Nuwu. Tribally, she is a 
Chemehuevi Paiute from the Chemehuevi Tribe of Lake Havasu, 
California and Las Vegas Indian Colony. Her grandmother was 
raised as an orphan and was forced into a residential school 
system that separated Indian children from their families and 
their culture and their heritage. Due to this, her grandmother 
lived her entire life with unanswered questions about her 
family, and Barb only got to know the stories of these women 
through oral history and seeing their names listed in the 
Indian Census rolls.
    The one vestige of the story that remains for her family is 
an old picture of her great, great, great grandmother at an 
unknown location. But as it turns out, it was taken at the Doll 
House at Kiel Ranch Historic Park in Las Vegas, and Barb, my 
colleague, came to this realization when she arrived at Kiel 
Ranch for an event. One thing that we really want to highlight 
is the impact on her family. When she took her mother to the 
park, her mother's eyes filled with tears, and her mother's 
words still haunt her. Her mother said, ``You mean they were 
real,'' meaning these people existed. Barb and her family were 
able to see the land their family lived on because of the Land 
and Water Conservation Fund and because of the money that it 
provided to the State of Nevada.
    So as my colleague said, when we talk about the Land and 
Water Conservation Fund, we are talking about the importance of 
the preservation of our lands, our water, and, more than 
anything, our heritage. The League of Conservation Voters 
supports full funding of $900 million in discretionary 
appropriations for LWCF in Fiscal Year 2021, and we also look 
forward to working with Congress to find a permanent solution 
for LWCF. So as Barb put it, we can focus on a new kind of 
conservation that centers on our voices, on our communities, 
instead of having to fight every year for these special places.
    In addition to that, I would now like to turn to a 
different program, the National Environmental Policy Act. NEPA 
is one of Nation's bedrock environmental laws that fosters 
government transparency and accountability. For 50 years, it 
has enabled the public to provide critical input on the 
environmental effects that Federal projects will have in our 
communities, public lands, wildlife habitats, as well as our 
health. But as you know, unfortunately, the Administration has 
recently proposed changes to NEPA. Those changes would severely 
limit public input and undermine the analysis of cumulative 
effects.
    More than anything, we want to highlight how gutting this 
process would have dire implications for mitigating climate 
change, and also to access clean air, land, water, and 
especially for those in low-wealth communities and communities 
of color, which are the most impacted by climate change and 
toxic pollution. Because of that, we also wanted to share the 
story of one of our members, Jose Archapa down in Texas, who 
has unfortunately been impacted through toxic pollution. 
Unfortunately, due to time, I might not be able to tell the 
entirety of his story, but we definitely just want to recommend 
that the committee support funding prohibitions on the Trump 
Administration's plan to gut NEPA. So thank you so much.
    [The statement of Ms. Forero follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you. One thing that most people don't 
realize about our national forests is that they protect water, 
right? And the Superior National Forest where there is the 
proposed copper sulfate ore mine, it is 20 percent of the 
national forest water bank. And I appreciate the President's 
initiative to plant 1 million trees as we are losing trees to 
Asian ash borer, what is happening with the pine rust and the 
pine beetle, and everything. I could go on about gypsy moss. I 
could list a lot of little bugs that we don't want to have 
flying around in our forests and embedding themselves in our 
trees.
    But some of the things kind of going on with extraction, 
whether it be of minerals and national forests are impacted, or 
putting in roads in some of our public land areas. We need to 
have a real education understanding about forests are more than 
trees. They are also about water. And I know when we have our 
public/private forestry councils, those are the things that, 
you know, where we are sitting around the table, everybody 
learned from each other, and it took some of the tension out of 
the room, and some real opportunities to talk about what are 
our shared values, what should our goals be, you know. How do 
we make this work for individuals?
    Maybe just tell me a little bit about some of the things 
that your organizations are doing to kind of hit it home, that 
this is about protecting drinking water. And the forests also, 
when you replant, they need water, too, this water. So could 
you just maybe share a couple of things before we close up this 
panel on that?
    Ms. Murdoch. We work not only in the national forests, but 
to help this public/private stewardship between States and 
national lands. And also working in urban areas to make sure 
that they have forests for everyone and tree canopy for 
everyone in urban areas as well. And every single one of those 
projects and efforts all contribute to and have a nexus with 
drinking water.
    I came to American Forests from the Chesapeake Bay 
Foundation, and there I was also working on forests because 
forests and buffers are incredibly important to water quality 
in the Great Lakes and in the Chesapeake Bay watershed. And 
this overlap is incredibly strong, and it is something that 
across USDA, it is very important to help all of those projects 
work together in order to maximize their ability to contribute 
to clean water.
    And I don't know if that is helpful, but it is a broad 
perspective from the mosaic of Federal work and across with 
State foresters and State lands. It is complicated because 
there are so many, like, with the LWCF, so many actors and 
ownership lands. But water is absolutely one of the top 
priorities that we have to focus on to get interest, and buy 
in, and support for the forest work.
    Mr. Baker. That is a great question. Prior to coming to 
SAF, I spent almost 20 years with the U.S. Forest Service, so I 
am very familiar with this particular question, some of the 
challenges that come with it. I think overall, it is that 
infamous challenge. It is about balance. It is about all the 
different parts and pieces that come into play and the players. 
And so that aspect of how do we look across boundaries, as you 
mentioned, it is not just about the national forests. It is 
about the State landowner. It is about the private landowner, 
and it is also about the industrial landowner.
    And so when we look at all those lands married together, 
you know, where we do we balance out the uses that we have to 
have? If it is a mine, where is a place where it could be 
located where it has the least amount of impact? If it is 
actively managing a forest, where can that happen in a way 
that, one, there is either rules or regulations to require 
reforestation to meet those needs to maintain that water 
quality over time, versus not actively managing could put us in 
a place where we could have a catastrophic fire that would end 
up putting us in a much worst situation.
    And so it is really this piece of, as you mentioned, those 
public/private discussions around in a lot of cases, many of 
these things do have to happen. So how do we, again, allocate 
those finite resources in a way where they are the least 
impactful and the most beneficial both in the immediate time 
frame and long term? And so it really is all the folks around 
the table having a discussion and having to give a little bit 
to be successful.
    Mr. Asher. Yeah, and I would say, you know, being an 
appropriator from a funding perspective, for us it is valuable 
to look at, you know, what can we be doing to save costs and 
not just investing, you know, new money, but also ensuring that 
we are using the public resources in the most responsible way. 
And so, again, with the Land and Water Conservation Fund, you 
know, there are great examples of projects where we have 
conserved areas for water supplies that have actually saved 
money over the long term. Instead of going out and building 
really expensive infrastructure, we are going out and 
conserving natural areas that help to create, you know, clean 
water opportunities and forests.
    You know, I think if we are talking about climate change 
and things like the Trillion Trees, you know, Initiative, from 
the Wilderness Society, we are also looking at, well, you know, 
let's be saving trees now, too, right? So the Tongass National 
Forest----
    Ms. McCollum. I agree.
    Mr. Asher [continuing]. And, you know, Alaska is a place 
and the Roadless Rule are things that are very active right 
now, recognizing that in addition to building out the number of 
trees that we want to have over the future, there is an 
important role to play in conserving places now. So that also 
comes through, you know, not only in the LWCF, but also the 
Roadless Rule. And, you know, and other kind of, I think, 
elegant solutions that your committee put forth last year where 
conservation was in the interest of saving taxpayer resources, 
like with the Arctic Refuge, I think that was a very, you know, 
mindful way of addressing that. And we hope that your committee 
and staff will continue to find those, you know, elegant policy 
solutions to challenges that we face.
    Ms. McCollum. Thank you. Anything you want to add?
    Ms. Forero. No, I think Jonathan actually articulated so 
much of what I believe we are here for as well.
    Ms. McCollum. Well, you guys were magnificent. What a great 
way to close out. Public lands, water, air, climate change, 
critters that we don't want to have invading our public lands. 
You did a fabulous job. I can't thank you enough because you 
are about a half an hour behind from what you thought your day 
was going to be, but it meant the world to us that you are here 
testifying.
    So with that, you get to help me conclude this afternoon's 
hearing, and we will stand adjourned until our next hearing, 
which is going to be public witness tribal programs on February 
11th, 2020. Thank you again. Meeting adjourned.

                                        Tuesday, February 11, 2020.

         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              ----------



                  NEZ PERCE TRIBAL EXECUTIVE COMMITTEE

                                WITNESS

CHANTEL GREENE, SECRETARY, NEZ PERCE TRIBAL EXECUTIVE COMMITTEE
    Ms. McCollum [presiding]. Good morning, and welcome to the 
first day of public witness hearings on tribal programs under 
the jurisdiction of the Interior, Environment Appropriations 
Subcommittee. And I am pleased to welcome my Native American 
sisters and brothers to discuss the needs and challenges facing 
Indian Country.
    For the second year in the hopes of having a more in-depth 
discussion of Native American issues and what you are 
experiencing on your tribal lands, we have organized witnesses 
according to the following topics: healthcare, land trust, 
national resource management, including climate change, public 
safety, justice, education, tribal government, and human 
services. Now, today we will begin hearing from witnesses on 
the healthcare needs and challenges before transitioning to 
issues related to climate change, land trust, and natural 
resources today.
    The United States government entered into treaties 
guaranteeing healthcare to Native Americans. A few months ago, 
I traveled to South Dakota, and I saw firsthand how centuries 
later, the government, our government, the U.S. government, is 
still not meeting its responsibilities. The need for investment 
in healthcare and related facilities is real, and we continue 
to do the best we can with the allocation we are given. Last 
year, Congress provided a $241 million increase to Indian 
Country health services. This is a 4 percent increase. It 
included additional funds to address 105(l) lease costs. As 
part of the bill, we directed IHS and BIA and OMB to consider 
whether these costs should be funded as an indefinite 
appropriation. I was pleased to see that the President 
recognized the importance of this issue and included such a 
proposal in the President's Fiscal Year 2021 budget request.
    In addition, last summer I had the opportunity to visit 
tribes in Minnesota, and Mr. Joyce I traveled to Washington 
State to visit tribes in Mr. Kilmer's district. We met with 
tribal leaders and learned more about climate change and 
impacts on health, safety, and cultural well-being in Native 
Americans, as well as some issues surrounding land and natural 
resource management. Future generations deserve clean air, 
clean water, drinkable water, but we must give these issues our 
fullest attention now.
    For Fiscal Year 2020, Congress included additional funds 
for BIA natural resource management programs and included 
increased funding for climate resilience, endangered species, 
and water resources. I was disappointed, but not surprised, 
that the President's budget request released yesterday once 
again ignores climate change. No one is immune from climate 
change, especially not Native Americans, who are at the 
forefront of experiencing the effects of increasing temperature 
rises and water rising.
    Your written testimony describes in very real detail the 
impacts of climate change is having on Native Americans. 
Melting permafrost in Alaska, the loss of traditional foods, 
presence of flooding, and it is happening right now in 
Washington and Oregon State, and I know that there have been 
tribal villages that had to be evacuated. Our hearts are with 
them, but yet, the President, Mr. Trump, looks the other way.
    Well, luckily, the President proposes and Congress 
disposes. So at the beginning of this Congress, I want you to 
also know that I introduced a bill, H.R. 1128, to authorize 
advanced appropriations for tribal funds. As we figure out to 
meet the needs of Native Americans, I will continue to work 
towards passage of this vital legislation. Most recently, I did 
write a letter to the Budget Committee requesting that hearings 
be held on this, and I know you are talking to members about 
this issue as well. I am eager, along with Mr. Quigley, to 
learn more about your priorities, and I look forward to our 
discussion on these issues because I believe it will help to 
inform us as we begin to develop the 2021 appropriations bill.
    Now, I am going to cover a few hearing logistics, and when 
Mr. Joyce comes in, if he has an opening statement, I will 
yield to him at that time. Anything you would like to say at 
this time, Mr. Quigley?
    Mr. Quigley. I am anxious to hear what you all have to say.
    Ms. McCollum. Okay. All right. So we have got the timer out 
here, and we already have our first panel of witnesses at the 
table. Each witness will have 5 minutes to present their 
testimony, and we will be using a tracker to track time. Don't 
worry, it is highlighted in here. I have read all your 
testimony. I am going to take notes on it. We all have it. If 
you run out of time, please know it is fully entered into the 
record. But when you see the light blink yellow, you have 1 
minute to close your remarks, and when the light blinks red, I 
will lightly tap with this gavel, which is made of buckthorn, 
an invasive species here. [Laughter.]
    To let you know that you need to stop your remarks so that 
the next witness can begin so that we are respectful of 
everyone's time here. And as I said, everybody's statement will 
be entered into the record. Don't feel any pressure. After we 
hear testimony, each witness on the panel and members will have 
an opportunity to ask questions.
    And I would like to remind those of you in the committee 
hearing room here today of the committee rules. They prohibit 
the use of cameras and audio equipment during the hearing by 
individuals without House-issued press credentials. So when 
this hearing concludes, we will reconvene at 1:00 for the 
afternoon hearing.
    And so with that, we found out a way to kind of save a 
little time. Rather than do double introductions, we are just 
having the panel introduce themselves, and that left more time 
for questions, which I really love to have. So I will let you 
start out, Ms. Greene.
    Ms. Greene. So we are introducing ourselves?
    Ms. McCollum. And just make sure that little----
    Ms. Greene. Okay. Good morning, or Ta'c meeywi. My name is 
Chantel Greene, and I am representing the Nez Perce Tribe, and 
I serve as the secretary officer currently.
    Ms. McCollum. No, go right into your testimony.
    Ms. Greene. Okay. Again, good morning, honorable chairwoman 
and members of the subcommittee. Again, my name is Chantel 
Greene, and I serve as the secretary of the Nez Perce Tribe 
Executive Committee. Thank you for the opportunity to provide 
this testimony on behalf of the Nez Perce tribe as the 
committee evaluates and prioritizes Fiscal Year 2021 
appropriations. I would also like to thank Chairwoman McCollum 
and Congresswoman Pingree for their letter regarding a mining 
project in the Nez Perce Country.
    Today I would like to emphasize the need for sufficient 
resources in areas such as the Community Health Aide Program, 
IHS, purchase referred care, contract support costs, special 
diabetes, mental health, and substance abuse programs. The CHAP 
was established over 40 years ago to help expand access to care 
in Indian Country in areas such as behavioral health, dental 
health, and community health. The tribe believes the CHAP model 
is an important tool for tribal health programs that should be 
provided the resources to grow as it increases tribally-based 
practice and knowledge that a culturally- and evidence-based 
holistic methodology offers abilities similar to wraparound.
    The tribe appreciates the committee's support of broadening 
the program by providing $5 million Fiscal Year 2020 for 
expansion. The tribe feels this successful program is needed 
and ready to be duplicated in the Northwest. As a result, the 
tribe supports the Northwest Portland Area Indian Health 
Board's effort to be designated a demonstration site by IHS so 
that certification of these healthcare assets can move forward. 
In that regard, the tribe recommends the committee provide $20 
million in Fiscal Year 2021 for continued expansion of CHAP.
    The Nez Perce Tribe with an enrollment of 3,500 operates 
the Nimiipuu Health on the Nez Perce Reservation and provides 
services to almost 5,000 patients each year. Our expenditure 
total of Federal funds in Fiscal Year 2019 was $18 million, an 
increase of $1.6 million from that in Fiscal Year 2018. 
Purchased/referred care costs for outpatient services in Fiscal 
Year 2019 totaled $5 million, which is an increase of almost 
$700,000 from Fiscal Year 2018.
    The tribe recommends, at a minimum, maintaining the $6.05 
million in funding enacted for IHS in Fiscal Year 2020. Please 
note that this amount does not keep up with medical inflation 
and population growth or limitation on prescription drugs. The 
tribe supports an increase of at least $20 million in funding 
for the PRC spending needs of tribal health facilities since a 
budget increase was not provided in Fiscal Year 2020. The tribe 
supports full funding for contract support costs in Fiscal Year 
2021 and the inclusion of bill language to classify this 
appropriation as indefinite. The tribe appreciates that 
Congress chose to fully fund contract support costs in Fiscal 
Year 2020 at $820 million as it should per any agreement.
    In addition, the tribe recommends permanent, mandatory 
funding of the SDPI at no less than $150 million per Fiscal 
Year. In that regard, similar levels of funding are strongly 
recommended for mental health and substance abuse treatment and 
SDPI for these type of services. Although the $10 million 
annual allocation for mental health and substance is very 
important, it falls well below the financial needs to provide 
adequate care and treatment on reservations.
    In conclusion, the tribe would like to express our support 
for the recommendations of the Northwest Preliminary Board, 
including, but not limited to, the recommendations of 105(l) 
lease costs, population growth, and medical inflation costs, 
loan repayment for Indian health professionals, small 
ambulatory programs, and funds for updating technology and 
patient files. Thank you for the opportunity to testimony 
today, and I am happy to answer any questions you may have.
    [The statement of Ms. Greene follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you. Just maybe as a guide, SDB 
programs, special diabetic programs, maybe the first time 
before we use the initials, some of us are familiar with it. We 
have other people who might be listening in on C-SPAN, and this 
is our opportunity to share and to share the educational 
meaning while you are here to inform the Congress. So thank 
you.
                              ----------


                                        Tuesday, February 11, 2020.

               SAULT STE. MARIE TRIBE OF CHIPPEWA INDIANS


                                WITNESS

AARON PAYMENT, CHAIRMAN, SAULT STE. MARIE TRIBE OF CHIPPEWA INDIANS
    Mr. Payment. Boozhoo. My name Aaron Payment. I am the 
chairperson of the Sault Ste. Marie Tribe of Chippewa Indians. 
My tribe is located in the supper peninsula of Michigan and is 
the largest tribe east of the Mississippi with nearly 44,000 
tribal citizens. Our territory is 2,800 acres of trust, and our 
ceded territory is one-third of Michigan where we exercise our 
treaty rights, reserved rights, to fish, hunt, and gather. We 
administer 23 governmental divisions and departments and 
manages 75 Federal, State, local, and tribally-funded programs 
across the seven-county service area.
    We provide a full range of services for our citizens, like 
healthcare, education, elder services, law enforcement, 
housing, family and social services, and cultural programs. We 
also offer eight health clinics around our purchased and 
referred service area. We offer a wide range of services, 
including medical, dental, behavioral health, special diabetes, 
nutrition, pharmacy, wellness programs, and traditional 
medicine. We are proud of the healthcare delivery system, but 
we believe there is a void, and it is time to fill that void.
    The focus of my testimony today is to request that the 
Appropriations Committee examine how the IHS addresses 
healthcare facility needs throughout Indian Country. Of concern 
is the adherence to a facility priority list that was developed 
in the 1980s. Healthcare delivery has changed, and the 
illnesses and diseases that we seek to treat have changed, in 
some cases dramatically.
    Healthcare cannot be provided in isolation, but must be 
provided in a holistic and comprehensive way, grounded in 
traditional beliefs and practices. A team-based model of care 
is more adept in being able to combat our emerging top 
healthcare priority, which is alcohol and drug addiction, 
including the opiate crisis. Last February, we announced a 
collaboration with the Hazelden Betty Ford Foundation to expand 
our substance abuse use treatment and recovery services and 
enhance our integrated healthcare and wellness center to build 
a true team-based facility to support those in our surrounding 
native community.
    The Sioux recovery hospital and campus concept is provided 
in the tribe's tribal action plan, one of the first approved in 
the Nation. While creating our TAP, our people voiced the need 
for a recovery campus close to home, with traditional medicine 
at its core to combat the historical trauma outcomes that have 
plagued tribal communities as a result of Federal Indian 
policy. Our holistic plan is to heal those afflicted, as well 
as their families and communities. Only with family support and 
healthy living will we be able to defeat this crisis.
    Our new facility, when built, will be a one-stop shop for 
those struggling with addiction. We intend to start with detox, 
then inpatient treatment, with half-way, three-quarter way, and 
longer-term residential recovery environments. Intensive 
outpatient programming with supports like recovery coaches will 
follow. We intend to create a never-before comprehensive family 
reunification process built on our [Speaking native language] 
healing and healthy living.
    One of the biggest factors of staying sober is the person 
having a place to live or begin to return to life as a sober 
person. All too often, a person goes into treatment, only to 
come home to the same social dynamic they left to get well. 
This leads to relapse. We want our recovery campus to be a 
pathway, the good red road to success that can be recreated 
across Indian Country to combat the opiate and heroin crisis.
    At our recovery campus, those afflicted will have the 
access to drug treatment and behavioral healthcare that is 
informed by our traditional cultural healing. Immediate access 
to healthcare services will enable us to properly manage any 
medical health conditions that a patient might face. To 
effectively treat addiction, we have to treat the whole person 
and address each condition, be it physical, emotional, mental, 
or spiritual, that led him to self-medicate.
    We have been confronted by many who tell us this kind of 
facility has not, and will never be, built. But my ancestors 
overcame too much for me to simply give up because something 
has never been done before. I believe we can do it, and I am 
here to ask you to help us to make this a reality. We support 
Congress providing joint venture funding. We have identified a 
deficiency in the program, however. We think there should be a 
geographical diversity with regard to the joint venture 
selection process.
    It is time for Congress to provide $50 million to fund the 
Indian Healthcare Delivery Demonstration Project, which was 
intended to build facilities that are different than the 
clinics that we currently fund. The demonstration project was 
intended for facilities, like the Sioux tribe recovery hospital 
and campus, which we deliver in a different model and holistic 
model. I believe that my tribe's recovery model is exactly what 
Congress was considering when it created the Indian Healthcare 
Delivery Demonstration Project. It is beyond time for Congress 
to provide funding for this initiative, and we are willing to 
be that demonstration project. Thank you.
    [The statement of Mr. Payment follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you.
                              ----------                              

                                        Tuesday, February 11, 2020.

                         CATAWBA INDIAN NATION


                                WITNESS

HON. WILLIAM HARRIS, CHIEF, CATAWBA INDIAN NATION
    Mr. Harris. Thank you, Chairwoman McCollum, Ranking Member 
Joyce, and members of the subcommittee, for the opportunity to 
testify on Indian healthcare needs for the Fiscal Year 2021 
budget. My name is William Harris. I am the chief of the 
Catawba Nation, the only federally-recognized tribe in the 
State of South Carolina. Let me begin by acknowledging the hard 
work of this subcommittee in protecting and advancing Indian 
Country interests in the Federal budget. The appropriations 
process is vital to fulfilling federal treaty needs and trust 
obligations, and we encourage you to continue to fight the good 
fight.
    For my testimony today, I would like to focus on the theme 
of prevention for Indian health. Preventive health saves lives 
and costs in the long-term, a situation that benefits all 
Americans. As a direct service tribe, the Catawba Nation 
depends on the IHS for the delivery of healthcare services. Our 
local IHS service unit, however, has restricted operating hours 
and services that impair access to care within the community. 
An investment in preventative health services is not a 
substitute for quality, comprehensive healthcare. It is a 
critical component of overall health that is often overlooked.
    Advanced appropriations. A central way for this 
subcommittee to support Indian health is through advanced 
appropriations for the IHS. Advanced appropriations would 
provide the IHS parity with other direct service Federal health 
agencies, provide funding stability across Fiscal Years, and 
show that the Federal Government is committed to its trust 
obligations. Invest in holistic healthcare. In response to 
shortcomings in IHS services, the Catawba Indian Nation has 
taken a proactive approach to community health. Our Wellness 
Warriors Programs uses health education, physical activity, 
nutrition, and tobacco cessation programs to help our members 
lay a foundation for lifelong health. Through prevention and 
education, we aim to reduce incident rates of disease, promote 
wellness, and alleviate burdens on the Indian Health Service. 
We urge this subcommittee to increase funding for the 
preventative health services account in Fiscal Year 2021.
    And build the infrastructure for access for healthcare. On 
an elementary level, no amount of investment in or quantity of 
preventative health services will benefit a community if the 
people cannot reach them. Roads in Indian Country are 
notoriously bad. Unsafe roads obstruct access to appointments 
and emergency services. They also damage vehicles, causing 
further strain on IHS and tribal resources. An influx of money 
into the BIA roads maintenance account is urgently need to 
build the infrastructure Indian Country needs for public health 
and safety.
    Quality health requires a quality environment. The EPA is a 
central agency fulfilling the Federal Government's trust and 
treaty obligations to protect Indian health. If our waters, 
air, and soil are polluted, our bodies will be as well. Quality 
human health requires the sustained presence of a quality 
natural environment. Our tribe and many others have utilized 
EPA resources to protect and promote tribal health. For 
example, we partner with the State to generate air quality 
forecasts for a three-county area, and for water quality, we 
established a water monitoring program using Clean Water Act 
funding. We urge you to maintain adequate funding for EPA 
environmental quality programs as a fundamental component of 
preventative health.
    And I thank you for the consideration of my tribe's 
testimony. I will be glad to ask any questions you answer.
    [The statement of Mr. Harris follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you very much.
                              ----------                              

                                        Tuesday, February 11, 2020.

    SISSETON WAHPETON OYATE OF THE LAKE TRAVERSE INDIAN RESERVATION


                                WITNESS

HON. DONOVAN WHITE, CHAIRMAN, SISSETON WAHPETON OYATE OF THE LAKE 
    TRAVERSE INDIAN RESERVATION
    Mr. White. Good morning, Chairwoman McCollum, Ranking 
Joyce, and Committee Member Quigley. My name is Donovan White. 
I am chairman of the Sisseton Wahpeton Sioux Tribe, one of the 
seven great Sioux nations of the Midwest. For years, we have 
been working on building our community justice and 
rehabilitation center. We have been working on this for more 
than a decade. We need the justice center to combat the serious 
violent crime, drug crime that is plaguing our reservation. 
This center will also provide much-needed alcohol and drug 
treatment, as well as mental health, detox, transitional care, 
and inpatient/outpatient adult and youth services. We plan to 
build this center as a unified facility, but the end of 
earmarks and the IHS general counsel rulings limit our ability 
to build this unified center.
    SWO adult detention center. The urgency of building a 
community justice center intensified in 2016 when the BIA 
closed our outdated and deficient condemned jail without a 
replacement plan. This created many public safety problems on 
top of an already perilous situation on our reservation. As a 
result, we work very hard with our congressional 
representatives and with this committee to restore this 
detention construction funding in the BIA budget. Thankfully, 
under the Fiscal Year 2018 Interior Appropriations Act, the BIA 
awarded us $5.175 million to design and construct a 25-bed 
medium security adult detention facility. This is a major first 
step in developing our justice center. [Speaking native 
language.] A big thanks to this committee and to Congress. 
After a year of discussion with the BIA, our project is now 
underway. We signed our 638 contract and issued the RFP for an 
A&E firm. The BIA is also developing a model to construct an 
adult detention facility. This will guide our project, subject 
to modifications, to meet our site location and to reflect our 
Dakota culture.
    Adult high-security detention cell wing. Next, we need a 
high-security detention block as part of our new detention 
facility. We will need increased detention staffing. We 
urgently need to detain the most serious offenders in our 
highest-security setting, including those sentenced to a low 
enhanced security sentencing authority. In Fiscal Year 2020, 
the Senate directed the BIA to work with us to consider a high-
security block and develop a cost estimate, and report back in 
60 days. We estimate that the $4 million will be needed to 
build a 20-cell high-security wing. BIA detention has not 
consulted with us yet, and we need an extra 30 days on the 
deadline for the report for them to consult with us.
    Inpatient drug and alcohol treatment center. We are also in 
dire need of an inpatient alcohol and drug treatment center. In 
the past year, we have had six fatal drug overdoses. That is 5 
times higher than the national average. In the past 2 months, 
six babies have been born under the influence of drugs. We have 
to stop this trafficking trend. In the mid-2000s, a 
comprehensive health planning effort identified behavioral 
health and drug dependency as a leading health problem on our 
reservation.
    We have a treatment center, and it was built in the early 
70s, and it is falling apart. We can only treat about 10 people 
at a time. And as you know, the opiate and the meth and now the 
fentanyl deaths have taken over. And I am off script here, but 
I don't need to read all of this, but meth, opiates, fentanyl 
is killing our people. Not only that, it is destroying our 
homes, you know. The meth gets made in the homes. So we have 
been very successful in the last 30 years with our gaming, but 
the leadership, we have let our people down, and we shouldn't 
have to come here, you know, to ask for money all the time. But 
we have been very successful, but now with new leadership, we 
need to move forward. Drugs are killing our people, and our 
babies are being born addicted to meth and stuff. And, you 
know, being a sociology major, you know, we pay now or we pay 
later, right, you know.
    So and we have problems with law enforcement, and it 
affects everybody. It affects the counties. It affects all of 
the cities because our people are being locked up, and all of 
the jails, prisons are full of our people. So we need long-term 
treatment, and we need help with funding with a long-term 
treatment center. And not only that, a lot of our people go to 
prison, right, or they get court ordered to treatment is when 
they usually go when they are court ordered, but we need long-
term aftercare. You have got to support our people when they 
get out of prison or they get out of treatment. So we need 
that.
    So the drug epidemic is killing our people literally, and 
we have had six overdoses in the last year, so but it is 
everybody's problem, not just our problem. It is the counties 
and the cities. Their jails are full, too. So we have got to 
look at fixing the problem. And I am over my time, so 
appreciate you guys seeing me and listening to my testimony, 
and, you know, begging for assistance. So thank you.
    [The statement of Mr. White follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                                        Tuesday, February 11, 2020.

                        AK-CHIN INDIAN COMMUNITY


                                WITNESS

ROBERT MIGUEL, CHAIRMAN, AK-CHIN INDIAN COMMUNITY
    Mr. Miguel. Good morning, Chairwoman McCollum, Ranking 
Member Joyce, and members of the subcommittee. My name is 
Robert Miguel, and I am honored to serve as chairman of the Ak-
Chin Indian Community and to give testimony to you today on our 
community's priorities.
    First, I would like to thank all of the members of this 
subcommittee for inviting me to testify today. Despite the 
Trump Administration consistently proposing cuts every year to 
the many programs that tribes utilize, this subcommittee 
increased funding for the Bureau of Indian Affairs and the 
Bureau of Indian Education in Fiscal Year 2020 by $142 million 
over Fiscal Year 2019. This subcommittee also increased funding 
to the Indian Health Services by $243 million over the Fiscal 
Year 2019 enacted level. This increased funding will help 
tribal governments, including ours, provide quality health 
services to their citizens. Thank you for your continued 
dedication to the trust responsibilities of the Federal 
Government to tribes and for these increases in funding for 
Fiscal Year 2020. Thank you.
    Before I begin on our funding priorities, I would like to 
tell you a little about the Ak-Chin Indian Community. We are 
and always have been a farming tribe, and our name is directly 
derived from an O'odham word that refers to a type of farming 
traditionally practiced by the Ak-Chin people. Throughout our 
history, we have relied on subsistence and eventually 
commercial farming for sustenance. Today we own and operate the 
Ak-Chin Farms. We cultivate more than 15,000 acres of farmland, 
and the farms have been a central economic enterprise for the 
community since the 1960s.
    We are a small, but growing, tribe with 1,130 enrolled 
community members today, and as the area surrounding us 
continues to grow at one of the fastest rates in the Nation, we 
are committed to being good neighbors while also working hard 
to build a stronger future for the next generation of Ak-Chin 
community members.
    This is my fifth appearance before the subcommittee, and 
today I am here to testify on a number of important issues to 
the community, including funding for healthcare programs and 
tribal self-governance. My testimony today will focus on a 
handful of programs that our tribe utilizes for the benefit of 
our people. Although it is important for me to be here to speak 
on these issues today, we are advocating for funding for these 
and others programs every day that we deal with.
    As you know, the Indian Health Service and the Bureau of 
Indian Affairs are both on the Government Accountability 
Office's High-Risk List. We hope the subcommittee can address 
this and join us in supporting a budget that assists tribal 
communities in advancing sustainable tribal programs.
    Self-Governance. The Ak-Chin Indian Community is a 
compacted self-governance tribe with the BIA. The compact 
enables the United States to maintain and improve its unique 
and continuing trust relationships and responsibilities to the 
community through tribal self-governance for various programs, 
services, functions, and activities, such as our public safety, 
social services, courts, road maintenance, and various other 
vital programs.
    Currently, the community has a self-governance compact with 
the Indian Health Service for our Emergency Medical Service 
Ambulance Program and our Health Education Program. We are 
proud to provide these important services, but they are just a 
first step towards improving the healthcare options for our 
entire community. Ultimately, it is our goal to make informed 
decisions about which PSFAs to assume and the necessary steps 
to successfully support these programs.
    The community applied and received two tribal Self-
Governance IHS Cooperative Agreements Grants under Planning and 
Negotiation. We are truly appreciative as this funding has been 
an asset while our community upgrades and modernizes our 
healthcare system. Because of the success of tribal governance, 
we ask the subcommittee to expand self-governance status to 
include any programs that tribes are eligible for both in IHS 
and DOI, Department of Interior, as well as being open to 
compacting under other Federal agencies. Our self-governance 
programs have been a model of success. If we have the 
opportunity to self-govern more of our programs, it will 
undoubtedly lead to higher quality services to our community.
    Advanced appropriations. As you know, advanced 
appropriations would ensure that funds are available in advance 
to alleviate the unfortunate circumstances so many tribes faced 
during the partial government shutdown last year. Currently, 
critical Federal programs at the Department of Education, 
Department of Housing and Urban Development, Department of 
Labor, and Veteran's Affairs are all authorized for advanced 
appropriations. Funding uncertainty causes tribes to 
redistribute funds from other tribal programs just to continue 
to operate programs. Advanced appropriations would prevent 
future lapses in funding associated with potential funding 
delays and will help keeping critical services uninterrupted. 
We ask for your support for advanced appropriations BIA, BIE 
and IHS funding.
    In conclusion, again, there are a lot of other topics that 
we want to discuss, and you do have our testimony definitely, 
and we appreciate that. Again, I would like to thank the 
chairwoman and ranking member for holding this hearing and 
engaging in government-to-government consultation to hear our 
community's priorities. We hope the subcommittee will continue 
its good work and address the challenges we continue to face. I 
hope my testimony today has given you meaningful insights into 
these Federal programs and how they are positively impacting 
our community members. So, again, thank you.
    [The statement of Mr. Miguel follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you, sir, and thank you for--I do have 
your full testimony--for mentioning Johnson O'Malley and the 
well-being that that plays for children, for healthcare, and 
for our communities. Mr. Joyce, would you like to make any 
opening remarks at this time?
    Mr. Joyce. Well, I would pass on an opening since I was 
late. I want to apologize for that. Our mutual friend, Mr. 
Bradley, who said to say hello to you, was making his case, and 
I told him that I was going to be held in contempt by you if he 
didn't stop and I did not make it here. I have one quick 
question for Ms. Greene.
    Ms. McCollum. Oh, please.
    Mr. Joyce. In your testimony, you mentioned that the local 
hospital has stopped taking the tribal insurance. What does 
that do to your budget?
    Ms. Greene. So, yes, I am told our current situation, which 
has just been recently resolved with both our insurances, the 
main insurance that we go through, which is Regents, and the 
local hospital, which is the state hospital with new 
leadership. And with their new leadership, they decided to not 
go into agreements with Regents Insurance, which includes our 
third party billing, so that hits our purchased/referred care 
very hard. So as of January 16th, we are going to be accepting 
under continuity of care a fuel level of care, such and cancer 
and those type of [Audio malfunction in hearing room]. As for 
the members, I would still need to get back to the members 
because they did just recently come under agreement, and they 
backdated that to January 15. So I am hoping that we won't see, 
I am sure, in our billing, in our purchased/referred care 
referral service, we are going to see some interruption, but 
they did backdate that to January 15. So as of right now, we 
won't be seeing too many issues there. So that was resolved.
    Having to look down the future, in our billing process so 
that we don't end up in this situation again, we are having to 
readjust our own systems and kind of start looking at some 
funding because, at the end of the day, we have to look out for 
overall health and well-being. And we can't be at the mercy of 
two other organizations and then be taking hits to our 
purchase/referred care budget. Thank you.
    Ms. McCollum. Before I go to Mr. Quigley, I have a follow 
up on that.
    Mr. Joyce. Okay.
    Ms. McCollum. Do you know if that insurance company takes 
Medicare, Medicaid, and VA, now that we have some of the VA 
that people can do outside? Do you know if they take that? Can 
you find out?
    Ms. Greene. Yes, yes, we can, and we can follow up on that.
    Ms. McCollum. It would be interesting that they would take 
every Federal program, but one that has gone through the Bureau 
of Indian Affairs.
    Mr. Joyce.----
    Ms. McCollum. Yeah. Mr. Quigley.
    Mr. Quigley. Thank you, Mr. Chairman. Thank you for all 
your service to your communities and for being here. Let me ask 
a related question because it impacts everything else. We hear 
of the national economic outlook on unemployment rates, how the 
economy is going. We don't have a lot of time in each of our 
segments, but could a couple of you give me a snapshot as how 
the picture looks in your own communities?
    Mr. White. I haven't seen a whole lot of change at all in 
our economics on the reservation within our boundaries. If you 
go to some of the bigger cities, like Watertown, there are some 
companies that have come in. But to the smaller communities, if 
you would ask the people, I would say it is probably going 
backwards. We think some of the help is the bigger factors into 
bigger towns, but on the reservation, I don't see that 
improvement at all.
    Ms. McCollum. Just identify yourself for the record.
    Ms. Greene. I am Chantel Greene of the Nez Perce Tribe 
again. Within economics, we are actually having to look at our 
own natural resources. I know I am on the healthcare panel. I 
am speaking specifically to that because there are aspects for 
the shortage of providers. That has been a major impact on 
healthcare as well. In Idaho, we just passed the Digital Health 
Aide Therapy through the Medicaid, Medicare, to get that 
program standing up.
    However, we are still seeing issues within the rulemaking, 
so making sure that we can provide adequate care when we don't 
have providers who want to actually be rural, so that has been 
our issue. So it is one thing to actually get the providers 
there, but because of the cost of living and the market values, 
and it is an area that they don't want to be in versus, in 
Idaho, it would be the Boise location, area.
    And so us looking at our holistic models for actually 
looking at our natural resources, and the climate change, and 
energy development. So we are trying to readjust to the 
circular economy, and utilizing our natural resources and 
developments in solar and small modular reactors. Those are new 
developments because we are pretty much maxing out our gaming, 
which also in the State of Idaho is a major impact. We are the 
third largest employer in the State, so our economic impacts to 
these States specifically is incredible. [Audio malfunction in 
the hearing room] tribes in Idaho, there would be a recession 
in Idaho.
    Mr. Harris. I am quite envious of the two statements prior 
to mine. My name is William Harris. I am the chief of the 
Catawba Nation. We do not have economic development on our 
small reservation. South Carolina has not yielded from the 
growth that has happened throughout the Nation, and I think we 
are one of the restricted settlement tribes as well.
    Mr. Quigley. Could you assess the unemployment rate within 
your tribe?
    Mr. Harris. It is double what is in South Carolina. So we 
are in double digits on the reservation, even though South 
Carolina itself is not. So grants are what sustain our 
community.
    Mr. Quigley. Thank you.
    Ms. McCollum. Go ahead.
    Mr. Miguel. Robert Miguel, chairman of the Ak-Chin 
Community. First, fortunately for us, we are a small tribe, 
again, and we are about 40 miles south of Phoenix, Arizona. And 
so in our area, in Pinal County in Arizona, we are one of the 
fastest-growing counties in the United States. So we have been 
able to be fortunate enough to capitalize in that sense. 
Currently, our economic development in the enterprises we do 
have in the community, we have been fortunate enough to employ 
a little over 1,500 people at our casino, which is, I think, 
still number one as far as employment for Pinal County. And we 
have a little over 500 in our government operations for our 
community, and 400 overall for other areas.
    So, again, the employment that we have been able to offer 
for the area has been tremendous. It has been great. And we 
continue to grow, so we are looking forward to that. But, 
again, have overall we have helped Arizona, I believe, 
financially in being able to accommodate in different areas 
through our 12 percent, our compact negotiations that we give 
back to the State. And then we do other things that are 
unknown, so we have been able to provide a number of services 
in and just the opportunities for Arizona overall.
    Mr. Payment. So we are the largest non-government----
    Ms. McCollum. You want to be----
    Mr. Payment. Oh, I am sorry.
    Ms. McCollum. You want to be ``Dr.,'' ``Vice Chair,'' ``the 
Honorable''----
    Mr. Payment. Dr. Chair.
    Ms. McCollum. Dr. Chair. [Laughter.]
    Dr. Chair Payment.
    Mr. Payment. The honorable, of the Sault Ste. Marie Tribe 
of Chippewa Indians. So we are the largest non-government 
employer in the upper peninsula of Michigan, next to prisons, 
sadly. We haven't really seen any change. In fact, we are the 
resiliency factor in rural communities that provide jobs when 
the economy is bad because people come to casinos whether the 
economy is good or bad, and we haven't seen any increase in 
people coming to casinos because of the expected trickle-down 
economic impact that is happening right now.
    But the bigger threat is the work requirement to the 
Affordable Care Act expansion because we increased our revenue 
by $10 million. Our AFAR IHS funding is $30 million. We 
increased by $10 million, so we increased it by one-quarter of 
our health delivery system because of the Affordable Care Act. 
That is at threat right now.
    CMS, and we have fought CMS and HHS because they were 
saying it was discriminatory, it is a violation of civil rights 
laws. All that was made up. There was no substance to that. 
They capitulated. Arizona pushed it, and they played a game of 
chicken, and Arizona won, and so now we can add it, but the 
damage is done because legislators put the work requirement in. 
Indians should be exempted from the work requirement. We are 
already the engine, and so at risk is $10 million dollars to 
our economy. That will be drastic, so.
    Ms. McCollum. Thank you. Mr. Simpson.
    Mr. Simpson. No questions. I just apologize for being late, 
but I like hearing your testimony.
    Ms. McCollum. Well, thank you all. And I know it is a very 
busy 2 days for you, so thank you for making time and coming 
and sharing.
    Voices. Thank you.
    Ms. McCollum. We will have the next panel come up, please. 
We will be hearing from the National Indian Health Board, 
Southcentral Foundation, Riverside-San Bernardino County Indian 
Health, Inc.
    The other panel finished right on time, and so we are going 
to check outside if a few other colleagues who are going to 
join the panel are here. And if not, we will start right away 
with you, Ms. Sanchez. I think everybody is saying good morning 
to each other, which is good. You come to a conference, and you 
get to see people you haven't seen for a while.
    Good morning. I am going to have you introduce yourselves. 
We will go down, and we will start with the other end of the 
table, and you can go right into your testimony from that. The 
timer is set for 5 minutes. At 1 minute, you will see a yellow 
light, and then if you get into that yellow light a little bit, 
I will lightly tap the gavel. And when it is red, we ask you to 
please conclude your remarks. We have all your testimony in the 
record. Thank you. Do you need another second, or are you ready 
to?
    Voice. I am ready to go.
    Ms. McCollum. Thank you. And you need to push the red 
button down there, and they like it if the microphone is close 
so it can be recorded. Thank you. Good morning.
                              ----------


                                        Tuesday, February 11, 2020.

          WINNEBAGO TRIBE OF NEBRASKA AND INDIAN HEALTH BOARD


                                WITNESS

VICTORIA KITCHEYAN, CHAIRPERSON AND GREAT PLAINS AREA REPRESENTATIVE, 
    WINNEBAGO TRIBE OF NEBRASKA, NATIONAL INDIAN HEALTH BOARD
    Ms. Kitcheyan. Good morning. Good morning, Chairwoman 
McCollum, Ranking Member Joyce, and members of the 
subcommittee. On behalf of the National Indian Health Board, I 
am thankful to testify on the Fiscal Year 2021 Indian Health 
Service budget. My name is Victoria Kitcheyan. I am the chair 
and Great Plains area representative to the National Indian 
Health Board. I am a member of the Winnebago Tribal Council.
    And as we work together on the first IHS budget of the 
decade, let's reflect on some of the great successes over the 
past 10 years. We began the previous decade with a tremendous 
victory with permanent reauthorization of the Indian Healthcare 
Improvement Act. This was an incredible victory that ensured 
the foundation of the Indian health system will persevere. 
Because of this congressional action, we were also able to 
secure rightful and full funding of the contract support costs.
    Thanks to you, the 2010 enacted IHS budget was $4.02 
billion, and we ended in 2020 with $6.04 billion. During this 
same time span, we saw third party reimbursements from public 
and private payers reach over $1 billion for federally-operated 
healthcare facilities alone. Our people made dramatic gains in 
healthcare coverage, improving access to care, and revenue 
streams for our services and facilities overall.
    Overall, we continue to applaud the leadership and the 
partnership of this committee to help secure those successful 
legislations, but they have been achieved alongside great 
challenges, and the road in front of us remains long. Our 
members continue to live 5.5 years longer less than general 
population, and in the Great Plains where I am from, 20 years 
earlier. Our people continue to have the lowest health outcomes 
and the highest health disparities. For example, infant 
mortality continues to rise in our communities, while it is 
decreasing through the rest of the country.
    The fate of the Indian Health Care Improvement Act remains 
imbalanced due to legal challenges to the Affordable Care Act. 
Our public health infrastructure remains decades behind State 
and local entities. Our communities continue to be overlooked 
when new block grants or opportunities are introduced. Our 
hospitals remain 4 times older than the rest of America's 
hospitals. If one was built today, it would not be rebuilt for 
400 years. Provider shortages remain severe with chronic 
vacancies from physicians to behavioral health professionals, 
pharmacists.
    So in every year of the previous decade, there were delays 
in passage of the IHS budget leading to one continuing 
resolution after another. On four occasions, IHS was shut down 
because lawmakers couldn't agree on a final budget. The budget 
disagreements had nothing to do with Indian Country or the IHS, 
and our people suffered, nonetheless. Those shutdowns lasted 
from one day to the longest in history at 35 days. In each of 
those instances, are healthcare was shut down. Our people were 
endangered. Each of those such shutdowns violated the solemn 
responsibility of the United States to our tribes and people.
    Every year tribal leaders from across the country convene 
in Washington, D.C. to formulate the national tribal budget 
formulation recommendations for needs-based and fully-funded 
IHS budget. The recommendations reflect the national voice of 
tribal people. Every year we face limitations on this 
discretionary budget that only allows for marginal increases to 
the IHS budget. For example, we were thankful last year that 
the committee fought really hard for a 9 percent increase 
totaling over $530 million, and when that final agreement was 
reached, it was cut by half. So when you compound chronic 
underfunding and continuing resolutions, the inevitable result 
are pervasive disparities for our people.
    So where does that leave us? We ask you as we start this 
decade to just reimagine how we fund the Indian Health Service. 
We begin this decade with a monumental victory, and we can do 
that by passing advanced appropriations. We are very thankful 
to Chairwoman McCollum and Representative Young for introducing 
the latest legislation that would authorize advanced 
appropriations for our programs, and Ranking Member Joyce and 
others who strongly support that. We remain fully committed to 
working in a bipartisan way to pass the advanced 
appropriations. We have the momentum. We can get it done this 
year.
    We can begin this decade by passing an IHS budget that 
reflects the recommendations of the Tribal Budget Formulation 
Work Group calling for $9.1 billion for IHS in 2021. This 
decade must be where Congress fully lives up to its obligations 
to tribal nations, and this decade is where we receive a full 
and permanent needs-based budget for IHS and all of our health 
programs. This must be the decade where we look back and say 
this was a time when our treaties and obligations by the 
Federal Government were finally honored.
    So our dedication to this remains everlasting. We thank you 
for your commitment as well and look forward to working 
alongside you on this. And I thank you for the invitation to 
testify and happy to answer questions.
    [The statement of Ms. Kitcheyan follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you.
    Ms. Kitcheyan. Thank you.
                              ----------


                                        Tuesday, February 11, 2020.

                        SOUTHCENTRAL FOUNDATION


                                WITNESS

APRIL KYLE, VICE PRESIDENT, SOUTHCENTRAL FOUNDATION
    Ms. Kyle. Good morning. My name is April Kyle, and I am 
from Southcentral Foundation. My tribe is Ninilchik. We are a 
tribal healthcare organization in the southcentral region of 
Alaska serving 65,000 Alaska Native and American Indian people 
in an area the size of Wyoming, so a really big service area.
    I want to share with you six things in 5 minutes. I will do 
them quickly. First, I want to talk about funding in general, 
and I want to say that we appreciate the increases to funding, 
until we see that health disparities between Alaska Native and 
American Indian people and other Americans are extinguished, 
the funding solution hasn't come yet. So we ask you to think 
about that as you are looking at the IHS budget. The second 
topic is 105 lease funding. We want to thank you for increasing 
funding levels to $125 million. We know that the IHS estimates 
the need as $150 million. We think that the need for that 
funding is great and hard to predict, and all we ask is for the 
IHS to consult with tribes, Congress, and the OMB to figure out 
the right appropriation level. We also think these funds should 
be reclassified as appropriated entitlement.
    Third, I want to talk about advanced appropriations. It is 
a topic you have heard about before, but certainly with 
government shutdowns it became very clear what the impact is 
for communities, and it puts people and families at risk. And I 
just want to remind you that the IHS is the only Federal 
healthcare system that does not have advanced appropriation. 
And at Southcentral Foundation, we appreciate that there is 
good movement on legislation to resolve this issue. We thank 
the co-sponsors, and we ask for your support.
    The fourth is behavioral health. So I serve as the vice 
president of behavioral services. I have been with SCF for 17 
years, so this is my actual topic of expertise. And at 
Southcentral Foundation, we are doing really good work in 
addiction treatment, working with kids, working with adults, 
working with folks in behavioral health crisis. I attend 
graduations, and I see people's lives change because treatment 
works and recovery is possible. But there is a big problem. The 
problem is the volume of services that we can deliver, the 
supply is so much smaller than the demand in our communities. 
And so we ask you to think about behavioral health, and we are 
looking for at least a 15 percent increase in behavioral health 
funding for the next budget cycle.
    Fifth topic is joint venture construction, a highly 
successful program. It benefits tribes. It benefits the IHS. 
And we would like to see an increase in joint venture projects 
to expand and grow more services across the Nation. My last 
topic, number six, is the VA Mission Act, and I know that is a 
little bit outside the scope of this hearing. We appreciate 
that $11 billion was appropriated to the VA to implement the 
Mission Act, and there is a piece of that which creates an 
opportunity for a medical residency pilot program in the VA 
where medical residents could be placed with tribal or IHS 
facilities for their medical residency. This is a win-win-win 
opportunity for tribes, for the VA, and for IHS.
    Our ability to deliver healthcare is often limited by our 
workforce. And so any opportunity we have to bring more doctors 
into our systems--that includes IHS, the VA, and tribal 
healthcare--the better that we will be able to deliver the 
services that are needed by our community. We know that is not 
exactly in the scope of this hearing, but any influence and 
support you have for funding for that residency program would 
be greatly appreciated.
    So in conclusion, in the time that I have had, I have 
spoken about the importance of funding, 105(l) leases, advanced 
appropriations, behavioral health, which is probably my 
favorite topic and the importance of truly meeting the needs of 
our community with behavioral health funding, joint venture and 
the VA Mission Act Residency Program. I thank you very much for 
your time.
    [The statement of Mr. Kyle follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you.
                              ----------


                                        Tuesday, February 11, 2020.

          RIVERSIDE-SAN BERNARDINO COUNTY INDIAN HEALTH, INC.


                                WITNESS

TERESA SANCHEZ, BOARD VICE PRESIDENT, RIVERSIDE-SAN BERNARDINO COUNTY 
    INDIAN HEALTH, INC.
    Ms. Sanchez. Good morning. I am Teresa Sanchez. I am a 
member of the Morongo Band of Mission Indians. I am also on 
tribal council. I am the vice president of the board of 
directors for Riverside-San Bernardino County Indian Health. 
Thank you for the opportunity to testify today.
    I want to start by saying that the Indian Health Service's 
105 lease program has been very beneficial in our Fiscal Year 
2019-2020 budget years. Our consortium puts the funding 
provided through this program to good use every day. Therefore, 
we strongly urge this committee to continue to support the 
tribes across the country on this critical funding issue by 
providing sufficient appropriations to fully fund IHS' 105 
lease obligations, and by reclassifying 105 appropriations as 
an appropriated entitlement.
    This is especially important for tribes in California 
because there is a general lack of funding for our California 
health facilities, and these 105 lease monies help offset the 
present inequities stemming from the lack of funding. Simply 
put, California tribes have not historically been funded to 
build clinics and hospitals in the ways that tribes outside of 
our State have. Needless to say, this lack of facility and 
staffing funds has been a thorn in our side for many years.
    The joint venture program, which provides money to help 
tribes build new clinics, still continues to disappoint 
California tribes. California has only had one joint venture 
program funded in the State since the inception of the program. 
In the recent 2019 application process, seven tribal systems 
from California applied for this funding. However, we have been 
notified that none of these tribal programs were asked to 
continue with the application process for consideration of the 
joint venture opportunity. This highlights another inequity 
issue for California. Although the current capital projects of 
all the Indian Health Services are projected to be funded over 
the next 25 years, California does not have any projects on the 
current capital project plan. This will challenge us to use 
other sources of funding to improve our health clinics.
    The joint venture program should be a strong tool for 
California tribes to address current and future needs, but IHS 
does not appear to be seriously considering any California 
joint venture proposals. We urge the committee to direct IHS 
toward addressing this problem.
    Four of the 12 IHS areas are designated PRC dependent, 
meaning they have little or no access to any IHS or tribally-
operated hospitals and, therefore, must purchase all or a large 
portion of inpatient and specialty care from nontribal 
providers at a significantly higher cost. Our region, the 
California area, has no tribal hospitals. However, the current 
PRC formula disproportionately affects California because it 
allocates PRC and hospital funding to those other eight IHS 
areas. This funding inequity tends to then treat our clinics 
the same as those in the remaining eight IHS areas who receive 
both PRC dollars as well as hospital funding. This impacts our 
specialty care access.
    IHS does not have access to a care fairness factor meant to 
remedy the funding inequities to the four PRC-dependent areas. 
According to their own methodology, there are three levels of 
priority. Our access to care factor is at the lowest priority 
level of 3. Unfortunately, the PRC money has run out before the 
access to care fairness factor can be calculated and 
distributed to benefit our area. The result is our area rarely 
receives any access to care fairness to PRC monies and, 
therefore, falls further and further behind. We ask the 
committee to instruct IHS to move this access to care factor 
from the lowest priority level 3 to level 2 priority. We thank 
you for your time and consideration.
    [The statement of Ms. Sanchez follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you. I am going to step up to the 
Agriculture Committee for a minute, which also deals, as you 
pointed out, other committees have jurisdiction over some of 
the programs that are important. And I leave you in the capable 
hands of the gentleman from the western part of the United 
States on the coast, Mr. Kilmer.
    Mr. Kilmer [presiding]. I will do my best not to mess it 
up, you guys, but no problems. Mr. Simpson, do you have any 
questions?
    Mr. Simpson. No, not right now.
    Mr. Kilmer. All right. Thank you for your testimony. All 
right. Let me invite up Maureen Rosette, president of the 
National Council of Urban Indian Health; Greg Abrahamson from 
the Northwest Portland Area Indian Health Board; Esther Lucero 
from the Seattle Indian Health Board; and Shaquita Bell from 
the American Academy of Pediatrics. Hey.
    Voice. Good morning. How are you doing?
    Mr. Kilmer. Welcome. I am glad you are here. Welcome. Do 
you want to kick us of?
    Ms. Rosette. Yes.
                              ----------


                                        Tuesday, February 11, 2020.

                NATIONAL COUNCIL OF URBAN INDIAN HEALTH


                                WITNESS

MAUREEN ROSETTE, PRESIDENT, NATIONAL COUNCIL OF URBAN INDIAN HEALTH
    Ms. Rosette. Yes. Good morning. Hello, my name is Maureen 
Rosette, and I am a citizen of Chippewa Cree Nation, and I 
serve as the president of the National Council of Urban Indian 
Health, NCUIH. We represent 41 Indian healthcare organizations 
across the across the Nation who provide high-quality, 
culturally-competent care to urban Indians constituting over 70 
percent of all American Indians/Alaskan Natives. Thank you, 
Chairwoman McCollum, who just left, Ranking Member Joyce, and 
the rest of the committee for holding this meeting.
    NCUIH is appreciative for the subcommittee's strong 
leadership and continued bipartisan support for urban Indian 
health. We were encouraged to see Congress come together to 
pass a roughly $1 trillion Fiscal Year 2020 spending deal 
giving the IHS approximately $6 billion, an increase of 4 
percent above the Fiscal Year 2019 enacted level, and $138 
million above the President's budget request. Most noteworthy 
for us was the House bill that included $81 million to the 
Urban Health line item. We are confident that this was 
instrumental in getting an increase in the final budget to $57 
million, which allowed for a long overdue and increased 
urbanism health line of approximately $6 million. This provided 
over $115,000 to 39 urban Indian health organizations. We know 
that the lawmakers on this subcommittee have fought for more 
IHS guess funding, and NCUIH expresses our sincere 
appreciation.
    This subcommittee's recommendation last year set a high 
standard for the future of this line item, and we hope you will 
continue to push for the still-needed increases in Fiscal Year 
2021. For Fiscal Year 2021, NCUIH requests that the 
subcommittee meet the Tribal Budget Formulation Work Group 
recommendation of $106 million for the urban Indian line item. 
Additionally, we are asking for the IHS system to receive 
advances appropriations--I have heard a lot of that today--and 
encourage the subcommittee to sign on to Chair McCollum's 
bipartisan bill, H.R. 1128, Indian Programs Advanced 
Appropriation Act, which has 48 co-sponsors presently.
    We cannot express how dire the effects of a government 
shutdown are for this program. When funding is delayed or cut 
off during events such as government shutdown, there are 
devastating effects upon UIO's ability to provide healthcare. 
We also urge that the 100 percent Federal medical assistance 
percentage, FMAP, include UIOs through the Urban Indian Health 
Parity Act. Recently, CMS announced a plan to let States 
convert a portion of Medicaid funding into block grants. This 
will have devastating impacts on health reimbursement and 
Indian Country. It also violates the trust responsibility of 
the U.S. government to provide healthcare to our people.
    The amount of Medicaid service costs paid by the Federal 
Government is set by a law at 100 percent for IHS and tribes, 
but not for UIOs because UIOs did not exist in law when the law 
was written. Therefore, we ask that you correct this problem in 
Fiscal Year 2021 as the new block grant funding requirement has 
made 100 percent FMAP a more urgent need. We are thankful that 
the recent budget measure included a substantial boost of funds 
to cover the costs of the 105(l) lease obligations in the 
amount of $125 million, which is $89 million above the Fiscal 
Year 2019 enacted level. And we are hopeful that this funding 
continues to grow with need. UIOs are not eligible for IHS for 
these leases, yet IHS has taken $1.5 million from our funding 
for these leases. We respectfully request language that would 
restrict IHS to take you UIO-designated funds for their purpose 
that cannot benefit UIOs. Every dollar counts for UIOs, and 
their money must be reserved for them.
    We also urge the committee to support the reauthorization 
of this Special Diabetes Program for Indians, SDPI. SDPI is 
critical to urban native communities who experience a higher 
prevalence of diabetes, and a greater diabetes mortality rate 
than the general U.S. population in those areas. It is 
imperative that the SDPI be reauthorized before its expiration 
and May 2020.
    We, again, thank Chair McCollum, Ranking Member Joyce, and 
the entire subcommittee for your efforts towards prioritizing 
funding in Indian Country and for holding this hearing. NCUIH 
staff is available for any questions or other needs for this 
committee. Thank you.
    [The statement of Ms. Rosette follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                                        Tuesday, February 11, 2020.

     SPOKANE TRIBE AND NORTHWEST PORTLAND AREA INDIAN HEALTH BOARD


                                WITNESS

GREG ABRAHAMSON, NPAIHB SECRETARY/VICE CHAIR SPOKANE TRIBE, NORTHWEST 
    PORTLAND AREA INDIAN HEALTH BOARD
    Mr. Abrahamson. I will start off. I have got a little bit 
of a hoarse throat there, but I will give it the good old 
Northwest best we can there.
    Well, good morning, Chairwoman McCollum and Ranking Member 
Joyce, and thank you Subcommittee Kilmer, Simpson, and then 
Mrs. Watson. My name is Greg Abrahamson. I serve as vice chair 
for Spokane Tribe, and I am on a national tribal budget 
formulation work group, vice chair, direct service drives, and 
I serve a secretary for the Northwest Portland Area Indian 
Health Board. The Northwest Portland Area Indian Health Board 
works with 43 federally-recognized tribes in Idaho, Oregon, and 
Washington to advocate on specific healthcare issues. I thank 
the subcommittee for the opportunity to provide testimony.
    Within the past 40 years, Portland area tribes have made 
progress to improve the health status of our people, but there 
is not enough funding to address all the health disparities our 
communities are experiencing. We are grateful for the increase 
of the IHS budget. We request $37.6 billion for full funding to 
meet the trust and treaty obligations. We know this 
subcommittee has been supportive of increases every year, so we 
thank you for that, and especially funding for IHCIA and health 
education in Fiscal Year 2020.
    For Fiscal Year 2021, the IHS budget must be brought up 
$9.1 billion per the recommendation of the Budget Formulation 
Work Group. There must also be an annual increase to population 
growth and inflation estimated at $200 million. The increased 
cost of Section 105(l) leases will continue to cut into program 
increases for direct service tribes and tribal facilities, and 
we will not be able to maintain current services. Section 
105(l) lease costs must be made an indefinite discretionary 
appropriation.
    Other funding priorities for our area include mental, 
health substance use, purchased and referred care, HIV, HCV, 
Indian health professionals, CHAP expansion, and ITHR 
modernization for our youth, who are precious to our 
communities, and the carriers of our northwest traditions and 
culture. We want to ensure that they will have the services 
that they need to grow and develop into future leaders for our 
tribes. With the high rates of native suicide, substance use in 
our tribes has prioritized the need of youth residential 
treatment centers that provide aftercare, transitional living 
for both substance use and mental health. While there are two 
facilities in the Portland area, more are needed with expanded 
services.
    For Fiscal Year 2021, we request increases of $40 million 
to both substance use and mental health, and $150 million for a 
special behavior health program for Indians. This program was 
promised to the tailored and tribal specific programs that meet 
behavior health needs in our communities. As the program is in 
the pilot stage, it must be expanded beyond opioids and allow 
for the service of other substance use and mental health 
issues, and provide for an option for tribes to receive funding 
through compacts and contracts. Portland Area does not have an 
IHS hospital, so IHS and tribal facilities in our area must 
purchase all specialty and inpatient care. There no increase to 
PRC in Fiscal Year 2020, which is a loss in funding when 
medical inflation is not included. For Fiscal Year 2021, we 
request a $50 million for increase for PRC above the 2020 
budget.
    HIV and hepatitis C funding must also be included in Fiscal 
Year 2021 funding. For Fiscal Year 2021, Portland Area requests 
$25 million for the ending of HIV epidemic and $25 million for 
hepatitis C treatment so that IHS can begin providing 
lifesaving treatment for American Indians/Alaska Natives within 
the IHS system. Provider shortages is another concern. The 
Indian Health Professionals Program is critical to support the 
workforce development needs through loan repayment and 
scholarships. For Fiscal Year 2021, Portland Area Health 
requests a program increase of $10 million for Indian 
professions.
    We thank the committee for funding the Community Health Aid 
Program, CHAP, at $5 million in Fiscal Year 2020. RAA has made 
great progress in setting the framework for CHAP expansion. We 
have 12 dental health aide therapists that have finished an 
Alaska training program, one more will graduate from the DI 
program this year. We have two in the health aide training 
program with six more ready to start. Our area has already 
launched a DHAT education program in Fiscal Year 2021, and is 
developing a behavioral health aide program with two of our 
tribes.
    In Fiscal Year 2021, I request $290 million for 
continuation of the national CHAP expansion, with $5 million in 
the Portland Area, to continue work to establish a 
demonstration project. Our area has also been advocating for a 
regional referral specialty center. A study was in 2009. This 
would address our area needs related to the specialty care 
since we have no IHS hospitals. This program can be funded 
through ICEA Section 143 demonstration authority. We also 
support funding under the Small Ambulatory and Joint Venture 
Programs. Lastly, IHS implements the first phases in the IT 
modernization project. It must continue to conduct travel 
consultation to ensure all areas are represented. Portland Area 
recommends funding at $25 million for Fiscal Year 2021.
    Thank you for this opportunity to provide recommendations 
on the 2021 IHS budget. I look forward to working with the 
subcommittee on the requests, and we thank you for holding this 
hearing.
    [The statement of Mr. Abrahamson follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Kilmer. Thank you. You stuck the landing. Ms. Lucero, 
welcome. Sorry. We are ahead of schedule.
    Ms. Lucero. I know. [Laughter.]
    And that doesn't happen often.
    Mr. Kilmer. I know. I am going to ask really slow questions 
when we get to questions.
    Ms. Lucero. And it is raining outside. People are behaving 
like they are driving in Seattle, so.
                              ----------                              

                                        Tuesday, February 11, 2020.

                      SEATTLE INDIAN HEALTH BOARD


                                WITNESS

ESTHER LUCERO, CHIEF EXECUTIVE OFFICER, SEATTLE INDIAN HEALTH BOARD
    Ms. Lucero. Ya'at eeh abini, everyone. I am Esther Lucero. 
I am Dine and Latina, third generation in my tribe to be raised 
in an urban environment, which is why urban Indian health is 
super important to me. I am always privileged to sit at the 
table with these folks, you know. These are our partners, 
especially our tribal partners out in Washington, and so it is 
really amazing to see all of you again. This is now my fourth 
year, so it is exciting. I feel like we are building relations 
at this point.
    So I really want to start off with just thanking you all. I 
think that last year's budget recommendation at $87 million is 
the highest we have seen come out of this committee. And I just 
want to say I am incredibly grateful for that, for the urban 
Indian line item. Along with our tribal partners, we have 
established a funding mechanism to get IHS to full funding 
within 10 years, and so we really align with our tribal 
partners, and so this year's ask is aligned with $106 million. 
And I want to be clear: this isn't about taking dollars from 
our tribal partners. This is about increasing the whole pie. It 
is very important that we don't focus on percentages, but that 
we are focused on dollar amount.
    The other thing I would like to thank you for is that we 
saw $1 million increase going into the tribal epicenters, 
right, and so if you will recall, the Urban Indian Health 
Institute is the research arm for the Seattle Indian Health 
Board and produced the ``Missing and Murdered Indigenous Women 
Report.'' Now, I will tell you, with a little investment into 
the tribal epicenters, those are the kind of results you will 
see, right, actually initiating a national response to this 
crisis. And so having in $1 million increase is really 
beneficial. And I will have to tell you, if our 12 tribal 
epicenters were able to get to a $2 million operating budget 
per year, we would see significant changes within our 
community. So our ask is a $24 million ask to go specifically 
to the tribal epicenters. Let's make sure that we make that 
investment there so that we can fill the data gaps that you all 
need to make really important financial decisions. So that that 
is where I am on that.
    I think the other thing that we have to understand is that 
as an urban Indian health program, we kind of rose from the 
social justice movements of the late 1960s, early 70s, and that 
means our buildings are getting pretty old at this point. Urban 
Indian health programs have never had access to facilities 
dollars, and, again, we don't want to take anything from the 
tribal partners. Many of our tribal partners are still waiting 
on, you know, facilities dollars to address their 
infrastructure needs. But I will tell you that we actually had 
an assessment done, and it was my second year, so that would be 
about 3 years ago. And IHS actually came out to our facility 
and they said they were doing an assessment on the needs of 
urban health programs from an infrastructure perspective. We 
actually haven't seen the results of that report. My ask to 
this committee, for the subcommittee, is to ensure that we get 
the results of that report, and that we get to understand what 
the cost is of making a true infrastructure investment in urban 
Indian health programs.
    Now, I will tell you, HRSA actually did something for the 
past couple of years where, as part of their mental health 
expansion grants, they actually added facilities and 
infrastructure dollars to that. That is something I would like 
to see IHS do is really invest in what it takes to increase our 
capacity both from an infrastructure perspective as we move 
towards integration, but also capacity in regards to our 
providers, you know, so that we can meet those needs.
    And I will give you a specific example on this. So our 
Thunderbird Treatment Center, we are actually having to 
relocate that site because our building is so old that our 
infrastructure needs became so significant, and they are very 
challenging dollars to acquire. And we want to expand our 
services to provide services to the women, pregnant women, 
women with children. And so we are actually selling that 
building to be able to use those resources to move, but this is 
a testament to the fact that we have not invested in 
infrastructure. And now our organizations, our urban Indian 
health programs, are going to have to address those needs in 
whatever way we can. So I want you to know that we are doing 
our part in creating community partnerships, right, leveraging 
our local and State resources, and still it is necessary for 
IHS to invest in infrastructure.
    And then lastly, I would ask you to continue to support the 
work on missing emergent indigenous women. You will hear from 
my colleague, I believe, tomorrow a little bit more on that 
work. And to me, this is where that synergy between both, you 
know, resources, research, and also policy work go hand in hand 
to support the program needs, because our communities are 
struggling with the trauma that these experiences have caused. 
And so now, programs like ours from health and human services 
perspective are really in need of providing resources and 
support. And so I would ask that we think about that when we 
are investing in this year's funding.
    And with that, it is always an honor to see all of you. It 
is really a privilege, and I am sorry that I got a little bit 
rained out and was a little bit late. No disrespect, I promise. 
So thank you.
    [The statement of Ms. Lucero follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                                        Tuesday, February 11, 2020.

             AAP COMMITTEE ON NATIVE AMERICAN CHILD HEALTH


                                WITNESS

SHAQUITA BELL, M.D., FAAP, CHAIR, AAP COMMITTEE ON NATIVE AMERICAN 
    CHILD HEALTH
    Dr. Bell. A tough act to follow. No notes. That is 
impressive. [Laughter.]
    Greetings, Representative Kilmer, Coleman, and Simpson. So 
honored to be here. My name is Dr. Shaquita Bell. And I am 
Cherokee and black. I am a pediatrician in Seattle where it 
wasn't raining when I left, and I heard it was raining here 
before we left. We didn't bring the rain.
    I am so honored to be up here with the urban Indian 
programs. I was a child in Minneapolis who received my care 
through an urban Indian program, the Minneapolis Health Board, 
and so it is such a pleasure to be here. I am the pediatrician 
in the room, so a lot of my testimony will be pretty kids 
focused, but I could not agree more with what everyone has said 
today. I am here on behalf of the American Academy of 
Pediatrics. I am the chair for the Committee on Native American 
Child Heath, and I am also very grateful for our Federal 
Affairs Office, who helped me with this testimony.
    We at AAP support the IHS full funding that we can get. We 
recommend the largest possible funding increase. And we are 
also really interested in strong funding, and we really feel 
like advanced appropriations would be the most helpful thing 
for IHS. So we also agree with that and strongly recommend it, 
and we appreciate the efforts of this subcommittee to get to 
that.
    I like to use stories to tell my desires for funding, and 
so I am going to use a story, but I am going to call this 
patient ``Robert.'' Robert is a young adolescent who would 
rather play videogames than listen to me talk about veggies and 
eating healthy. He struggles with his weight, and my clinic was 
able to partner with a local pool. And after exploring his 
interests, he signed up for swimming lessons and met a group of 
friends, joined a hip hop dance club, which apparently is cool 
as long as I don't talk about it, and has found a really unique 
way to become physically fit and gain a better sense of 
identity, which really helps protect his mental health. It is 
one of the strongest protective factors is a sense of identity.
    And when we think about mental health and behavioral health 
in Indian Country, we know that we have really vast unmet 
needs. We continue to have waits as long as 4 to 6 months for 
acutely anxious patients and depressed patients. I have a young 
girl who hides under the table at school and cries herself to 
sleep every night because she is so scared of school, and I 
can't get her in any sooner than that. So I really urge us to 
think about how we can address this unmet need in our 
communities.
    Once those kids of mine grow up and become students, I love 
to have them shadow at clinic and mentor them into their 
careers. And one of the things that really makes a difference 
in choosing your future career is loan debt. And so we really 
strongly appreciate the value of the IHS Health Professions 
Scholarship Program and the Health Professions Loan Repayment 
Program, but we really wish it could be tax exempt. That would 
really help us meet a lot more of the need and recruitment and 
retention of health providers in our communities, and would 
take a burden off of students when they are considering this 
job.
    So once they become pediatricians--hopefully they all do--
then we encourage them to come and work in IHS, or in urban 
health programs, or in tribal clinics. And then they get to 
meet the Federal government. It is a real barrier to hiring 
talented physicians. I have a friend right now who accepted a 
job in IHS about a year ago and is still working on the 
paperwork, and has sold a house and is trying to move to that 
community, but can't qualify for a loan because they don't have 
proof of employment. It is just a vicious cycle. And if we 
can't recruit talented professionals, we are going to continue 
to have issues with the type of care that we are able to 
deliver.
    Kind of thinking about that quality care that we want to 
deliver, I am very thankful to this committee for helping IHS 
to hire, encourage IHS to hire, the maternal child health 
coordinator, Dr. McKernan. We are thrilled to be partnering 
with her. She has attended some of our meetings and is already 
getting on the ground with emergency services. So really thank 
you for that.
    Just in closing, every year as part of our committee, we 
get to visit an IHS site, one of the regions, and then we pick 
four sites in that region, and I was fortunate enough to visit 
the Indian Health Center of Santa Clara Valley. And they told 
us about a really exciting job skills program where they take 
youth and teach them skills that they can use for the rest of 
their life. And it makes me think of Robert. It makes me think 
of all of the stories that I have told so far of how we can 
engage youth with really simple interventions that tie them to 
their identity, tie them to their roots, and lead to a very 
successful happy and healthy life.
    So with that, I will close and just thank you all. And I 
would be happy to take any questions.
    [The statement of Dr. Bell follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Kilmer. Thank you all for your testimony. Mr. Simpson.
    Mr. Simpson. Always more thoughts than questions. Always a 
complex problem. Ms. Rosetta, in addition to an increased 
budget line item for urban health, your testimony mentions a 
number of authorizing issues outside of this subcommittee's 
jurisdiction. So are you making any progress with the 
authorizing committees, because at some point in time, it 
always comes down to us to do authorizations, and people hate 
that, so.
    Ms. Rosette. Not that I am aware of, no.
    Mr. Abrahamson. No.
    Ms. Lucero. No.
    Mr. Simpson. We need to be working with those authorizing 
committees, so I appreciate that. And, Ms. Lucero, you 
mentioned that in your testimony, the Seattle Indian Health 
Board's budget has increased by 80 percent in the last 4 years?
    Ms. Lucero. That is correct.
    Mr. Simpson. Which is kind of surprising. At a time when 
urban Indian organizations are struggling, what is happening in 
the Seattle area that has enabled your budget to grow so 
strongly?
    Ms. Lucero. Yeah, thank you for that question. We are 
actually very proud of that. So I have been in my position for 
4 years now, and for us, we were able to see kind of the low-
hanging fruit in places that we hadn't invested. And, quite 
frankly, an investment has been largely in behavioral health. 
So we were able to access other grant funding sources to be 
able to supplement that work, coupled with the fact that we 
have done a significant investment in our infrastructure to 
support increased revenue through third party billing. That, of 
course, is threatened constantly when we hear things like block 
grants that come into the States that would actually capitate 
Medicaid dollars.
    So thank you for that. Yes, we are proud of that. Yes, it 
has taken a year where we have had revamp our entire IT system. 
We have had to improve our electronic health record system. We 
have had to access grants and increase staff to be able to 
support that work. So we are looking at our IHS dollars to 
maintain our cultural integrity. You know, we can work with 
these other systems, absolutely, but this is what allows us to 
serve in a culturally-relevant way. And, quite frankly, our 
success is grounded in our indigenous knowledge informed 
systems of care, so centered on traditional medicine. Thank 
you.
    Mr. Simpson. Thank you. Congratulations on that also. Dr. 
Bell, just out of curiosity, and it wasn't part of anybody's 
testimony. But I was curious, are we making progress in 
diabetes with the Native American population? As you know, they 
have the highest rate of diabetes of anybody.
    Dr. Bell. So I am a pediatrician.
    Mr. Simpson. The doctor. [Laughter.]
    Dr. Bell. I would say that we have definitely seen impacts 
from SDIP. I think the specialty diabetes project, what it 
really does or what the funding does is allow us to build 
culturally-relevant programs, like exercise, diet, nutrition, 
things that meet people where they are. The other thing that is 
really cool about SDIP is that it allows people to be creative. 
So you don't have this, you know, just, okay, everybody with 
diabetes gets X, Y, and Z. You get to tailor it to the 
community you are serving, and that is why it is so important 
that each of those communities can take that money and build a 
program that is specific to their needs, to their people, and 
to their rates of diabetes specifically.
    I would have to say across the board, native or non-native, 
we have a problem with diabetes, and that is not native 
specific. I think that is a reality for all of America.
    Mr. Simpson. I noticed when we have traveled out to some of 
the reservations and so forth, one of the programs has always 
been to try to get people back on traditional foods.
    Dr. Bell. Yes, absolutely.
    Mr. Simpson. And the thought was that that would help with 
reducing the rate of diabetes and so forth. And I was just 
wondering if we have any positive successes in that that we can 
relate to.
    Ms. Rosette. If I can answer.
    Mr. Simpson. Sure.
    Ms. Rosette. From what we have learned in the last year is 
that the mortality rate for natives obviously is lower. But 
actually with the SDPI Program, we have increased by 1 year, so 
we have gained 1 year, so that is one success for us. And that 
has taken over 20 years to achieve, so that is why we need the 
continued funding for the SDPI Program.
    Mr. Simpson. Thank you all.
    Mr. Kilmer. Mrs. Watson Coleman.
    Mrs. Watson Coleman. Thank you. I don't really have a 
question. I just wanted to thank you for your testimony, and to 
let you know that this discussion about the access to 
healthcare, about access to mental healthcare, about cultural 
competence and services and programs, is something that I hear 
in other specific communities, and it is something that in 
general we need to pay better attention to. I thank you for the 
information you have shared with me. Maternal health issues and 
all of those issues are things that I have encountered in other 
meetings, so I was very interested in hearing it. Thank you. 
Thank you. I yield back.
    Mr. Kilmer. First of all, thank you for your testimony, and 
thank you for the important work you do. I wanted to touch on, 
several of you in both your testimony and your written 
testimony, referenced the impacts of shutdowns and referenced 
the potential value, as our chair has led the way on doing 
advanced appropriations. I think it would be helpful if you 
could just paint the picture, though, of when there is a lapse 
in funding. What does that mean in terms of access to care, 
quality of care? Help us tell the story to our colleagues. What 
do you see when that happens? You know, and I will say up front 
I think there is agreement certainly by the members on this 
committee that trust responsibilities and treaty obligations 
should not be treated as discretionary. They are not 
discretionary. But when you see this lapse in funding, paint 
the picture for us.
    Ms. Rosette. Well, last year, I know that in the Boston 
area, they had to shut down, and, in that process, they had a 
couple of people who overdosed, and so that is just there. And 
then particularly for us, for the native project, we were 
looking at the potential of having to reduce hours, which means 
you have to have less services and less access to the care. So 
obviously we were more prepared for it, I would say, but not 
all of our urbans were prepared for it. I know Boston was one 
of the ones most affected by it, and they saw deaths because of 
it.
    Mr. Abrahamson. So within our area there, we didn't shut 
down, but some of them were contemplating on shutting down 
there. And, I believe, we did lose one provider in the area 
there, and, as you guys know, the lack of recruit/retention 
that we have in the systems there on direct service tribes. So 
on the average, we are 33 percent of lack of professions in the 
field there and stuff there. So losing professionals is really 
critical for us, because just being able to recruit them and 
get them there. And as we heard on testimony here, too, that it 
takes so long to go through the process of getting them there, 
but it has made an impact on bringing professionals there and 
stuff there, so.
    Mr. Kilmer. Yeah, thank you.
    Ms. Lucero. For us, we actually had to develop a furlough 
strategy. And, you know, we always have looming threats both on 
the community health center side and the IHS side. But for us, 
we actually had to shut down our Saturday clinic, and we also 
had to cut back for our Elders Program, which is largely 
dependent on our Indian Health Service funding. Additionally, 
all of our traditional Indian medicine services are funding 
through Indian Health Service. Those are all the pieces that go 
away when we have to respond to a shutdown.
    And so, yes, I have always been a proponent of advanced 
appropriations. From my perspective, we have already paid this 
debt, right? We have already paid this debt, and it is up to us 
to make sure that we help heal the communities that we serve.
    Dr. Bell. Can I share a story that will be very poignant 
for you to pass on to your colleagues? So one of the privileges 
of being chair of the CONACH is I get to connect with 
pediatricians and pediatric providers all over the country. And 
so when the shutdown happened last year, I sent out an email 
and just asked how people are doing, and I heard from a 
pediatrician in the southwest who were lacking basic medical 
care for children. So when a baby is born, we check their 
oxygen level to see if they have a cardiac defect. They could 
not afford the probe to check the oxygen entry, right, because 
all funding stopped.
    Ms. McCollum [presiding]. Explain what the probe is.
    Dr. Bell. The probe is literally, it looks like a piece of 
tape that goes to a machine that tells you what your oxygen 
level is. Like, if you have ever been to the doctor, they check 
it when you check in. So they couldn't get any more of those, 
so they couldn't screen babies for congenital heart disease, 
which means until they are seen in their pediatrician or family 
medicine clinic, we don't know if that child has a heart 
condition. And that happened, how long were we closed, a month? 
I mean, a month of babies who were impacted by this, and they 
were desperate. There were people who were buying supplies for 
their clinic out of their own pocket.
    So it was a very, I don't like to use the word 
``devastating,'' but there was a very real impact. As far as I 
know, no babies passed away, but if you can imagine as a 
parent, you would want to know if your baby's heart was okay.
    Mr. Kilmer. Thank you. I yield back.
    Ms. McCollum. Okay. Well, thank you very much, and we will 
have our next panel come up, and thank you for your testimony. 
I have read it and highlighted it through the book. So thank 
you.
    Dr. Bell. Sorry I didn't get to tell my Minnesota joke. 
[Laughter.]
    Ms. McCollum. We are running about 10 minutes ahead of 
schedule, so we want to make sure that we don't miss anybody 
coming in. So we will just take a few minutes and take our 
time. Thank you.
    Would anyone like any water or anything? You are all good?
    So good morning. Before we start the panel on climate 
change, I am going just going to repeat myself about something 
that I said earlier this morning in the opening statement. For 
Fiscal Year 2020 Congress, we included additional funding to 
BIA, natural resources management programs, including increased 
funding for tribal climate resilience, endangered species, and 
water resources. And I was disappointed, but not surprised, 
that the President's budget request yesterday once ignored 
climate change.
    No one is immune from climate change, especially not Native 
Americans, who are at the forefront of this experience with the 
effects on increasing temperatures and rising waters. Your 
written testimony and other tribal members' who spoke on other 
issues also alluded to what was happening with climate change, 
described melting permafrost in Alaska, the loss of traditional 
foods, concern about traditional and cultural practices. And 
then we know about the unprecedented flooding that is happening 
in Washington and Oregon. And yet, unfortunately, the President 
looks the other way.
    But as I said, the President proposes, and Congress 
disposes. So this testimony that you are about to give on 
climate change is something that we will be looking at very 
seriously on how we can work with you for resilience and other 
issues that are being affected by climate change.
    So I am going to have you introduce yourself and then go 
right into your testimony. Just a little reminder, 5 minutes. 
Your testimony is fully entered into the record now, so don't 
feel rushed. Don't feel you have to cover everything if 
something comes to mind when you are testifying. The light will 
go yellow at one 1 minute. When you go a little beyond that 1 
minute, I will kind of tap with the gavel, and then at 5 
minutes, it will go red, and we would ask you to conclude your 
remarks.
    So with that, I would very much like Ms. Nelson to lead us 
off. Thank you.
                              ----------


                                        Tuesday, February 11, 2020.

                      SHOALWATER BAY INDIAN TRIBE


                                WITNESS

CHARLENE NELSON, CHAIRWOMAN, SHOALWATER BAY TRIBE
    Ms. Nelson. Madam Chairman and all the subcommittee here, I 
thank you for being here to listen to us. I thank you as a 
chairwoman. I am chairwoman of the Shoalwater Bay Tribe. I am 
also a steward, and that is a steward of the ocean and what is 
happening to it now. I speak for tribal members all along the 
Salish Sea. We are in danger, and also the whales, the salmon, 
all the things that live in the sea are affected by what is 
happening. There is climate change. I am 80 years old, and I 
have seen climate change. And at first, it is just part of 
life, and then all of a sudden, you realize something is 
happening.
    Our reservation, Shoalwater Bay Reservation, is right on 
the edge of the sea. We are 6 feet above high level of the 
tide. If there is a storm, generally comes up. We work to 
protect our land. We work to protect the land of the people 
around us. There are no fences. If somebody needs help, we do 
help because that is what you do. I look at what we face, and 
we are working at trying to go uphill. It is expensive to go 
uphill. We have bought the land, but to get there is going to 
be a challenge because the road that is strong enough to carry 
the equipment goes over a wetland, and you have to mitigate for 
a wetland. So we are doing that. We are working on doing this.
    This December, 5 days before Christmas, we were protected 
by a berm, a sand berm out in front of us, and that berm 
breached, or very close to a breach. I can't call it a state of 
emergency, 5 days before Christmas. And the next morning, the 
Army Corps of Engineers was out there, and there are boots on 
the ground day and night to save. They are great. I mean, they 
have just helped us so very, very much, and giving us advice 
and good things like that. Coming to meetings because we hold 
meetings not only for our tribe, but we include the county, the 
State, and all the people around us so that we are working 
together because you can't just fix a piece and stop a piece. 
You have to stop our work on it all, seeing it as a whole, 
because that is what it was made as, as a whole. Right now, we 
actually had another storm Friday night. We have drones or one 
drone that flies over it so that after a storm, as soon as it 
calms down enough that we can use it, we send that drone out. 
So we are keeping all the time what is happening.
    Anyway, as far as reservation lands we are working on, 
well, what we did is we purchased from someone else wetland, 
more wetland, and we are working on doing a wetland bank. Part 
of this, to begin with, is the ghost dike, which we will, once 
we are able to, and we have been working on this from 2017--I 
call it government to government--sat down with everybody, and 
that is what you do. You sit down because you are pulling 
together if you are sitting down, and you are listening. We 
showed them, actually took them out in the rain and wind to 
show them just exactly what we were talking about. It made a 
difference. We have been moved up in the queue, and actually we 
were notified about 1 week ago we will be able to apply and 
start work on the first one, which is a ghost dike.
    When we reach this, the saltwater will come back in. The 
saltwater was there before, before the owners that, you know, 
in the 30s possibly, maybe the 40s, is built a dike right on 
the ocean side. So that will bring an estuary, which is 
important for salmon. Again, we are stewards. We need to look 
after what we have been given as a tribe. And all the tribes 
around us talk about traditional food. Traditional food is 
salmon in our area.
    I in my life have been a commercial fisherman, a teacher, 
and now I am tribal chairwoman. It is challenge all the time. 
You keep moving. You keep doing what you like to do no matter 
if you get to be 80, which is a gift. But we look at if a 
tsunami hits, that can happen any time. People say, oh no, it 
won't happen. We know what happened in Japan. We set up a 
command center, and we were ready to go uphill if we had to go 
uphill. We are working on a tsunami tower. The tower is where 
the middle of the peninsula is. The only place that people 
there can get in time is to that tower. It is open to 
everybody. It is our tribal members. It is anybody who is down 
there. Get there as fast as you can. Well, we are working on 
that because we found out there is some wetland under that. We 
are working with FEMA with this, and it is important. We want 
to get that built.
    We need wetland credits in order to do that, so we are 
getting that wetland credits we hope with our bank or the ghost 
dike bank, and we can move up, start to move uphill. We have 
got the plan for the road. We just can't get the money yet or 
the road. And we have put our own money into doing what we have 
been doing. And by the way, I am blind in my right eye, and I 
am using my left eye to try to look at people, and I see I am 
red.
    So anyway that is where we are. We are working, and I 
always think we go in and we say we are going to look at this, 
we are going to make a plan. When is it too late? When is too 
late? And I want to get there and do something before it is too 
late. Masi. ``Masi,'' by the way, means thank you.
    [The statement of Ms. Nelson follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Mr. Greene.
                              ----------


                                        Tuesday, February 11, 2020.

                           MAKAH INDIAN TRIBE


                                WITNESS

TIMOTHY GREENE, SR., MAKAH TRIBAL COUNCIL CHAIRMAN, MAKAH INDIAN TRIBE
    Mr. Greene. Thank you. Chair Nelson. Mr. Chair, members of 
the committee, it is an honor to be here today. For the record, 
I would like to apologize to Congressman Kilmer. I missed the 
10 most enlightening minutes of my life this morning 
apparently. He gave a speech over at the NCAI, is my 
understanding. Sorry I couldn't be there.
    Mr. Kilmer. You really missed out. [Laughter.]
    Ms. Nelson. Yeah.
    Ms. McCollum. We will get you a copy.
    Ms. Nelson. All right. Well, I am T.J. Greene. I am 
chairman for the Makah Tribe, and I will be testifying on 
changing ocean conditions and the severe water shortage that we 
have on our lands, and tsunami relocation efforts, oil spill 
response and prevention, as well as coastal erosion, some of 
the things that that was already discussed here today.
    And the Makah Indian Tribe, we are located at the 
northwestern tip of Washington State, right where the Pacific 
Ocean meets the Strait of Juan de Fuca. Real beautiful area, 
and the ocean means everything to us. It is what our treaty is 
built around, and it is what defines us as a people. Tribal 
fisheries or vital for Makah culture, subsistence, and our 
economy. The impacts of changing ocean conditions on our 
fishery is a priority for the Makah Tribal Council. We are 
already experiencing warm ocean waters, increased hypoxia, 
harmful algal blooms. Ocean acidification along our coast is 
putting our treaty resources and our community at risk. 
Continued funding for Federal programs like BIA's Travel 
Resilience Program and EPA's National Estuary Program is 
crucial to addressing climate change and protecting our 
community and livelihoods.
    In this past decade, Makah has experienced three fisheries 
disasters due to changes in the marine environment. Fisheries 
disaster hit our community particularly hard, and delays in 
disaster relief funds compound these effects. We appreciate 
that they do eventually come, but the delays in the process are 
critical to our fishermen. You know, I think we can do that a 
little bit better.
    We urge Congress to continue to designate funding to the 
national fisheries disaster account as it has done in Fiscal 
Years 2018 and 2019, and to expedite fisheries disaster relief 
in this process. Over the past 2-and-a-half years, we have 
trapped over 2,200 invasive European green crabs on the Makah 
reservation. My backyard, which you have been to, Congressman, 
is one of the sites that is being infested by these green 
crabs. We are the only entity monitoring the outer coast of 
Washington. Limited available resources are targeted in the 
Puget Sound. We need increased Federal funding to address this 
infestation through monitoring programs on the outer coast, 
possibly under the U.S. Fish and Wildlife Service, and Aquatic 
Invasive Species Program. These crabs compete with some of the 
habitat that is critical to the Dungeness juvenile crabs that 
are very important to Washington State, and we think that is 
important.
    We have severe water shortages on the reservation due to 
limited groundwater storage capacity. The Makah Tribe 
experiences chronic and severe water shortages every summer, 
which are exasperated by climate change. Water shortages 
restrict our tribe's ability to provide sufficient housing for 
our community and limit economic development and relocation 
efforts. We request Federal funding increases for programs, 
like IHS and BIA, to address water shortage issues on tribal 
reservations. We also would like tsunami relocation efforts to 
be funded, the Makah Village, including 60 percent of our 
population, our schools, clinic, and all of our critical 
infrastructure, including water treatment and sewage treatment 
facilities, are in the tsunami inundation zone. We are 
developing a comprehensive relocation plan for our community, 
but planning and implementation is restricted and limited by 
water supply and lack of funding. We want to work with programs 
like IHS, HUD, BIA, and others, to identify solutions and 
funding opportunities to address this imminent threat and move 
our community to safety.
    Oil spill preparedness prevention infrastructure is 
something we have been involved in heavily for years. Since the 
1970s, over 1-and-a-half million gallons of oil have been 
spilled within the Makah treaty area, which is vital to our 
fishing resources, the staple of our economy. The Strait of 
Juan de Fuca is a high-risk area for vessel traffic where ocean 
and weather conditions are often severe. Vessel traffic is 
increasing, and climate change further complicates spill 
response on the remote outer coast. Because of these risks, the 
Makah Tribe is highly engaged in oil pollution, vessel traffic 
safety, and climate policy forums supported by EPA's Natural 
Estuary and Brownfield Programs. It is essential that these 
programs continue to fund and prioritize tribal engagement in 
this area.
    The Port of Neah Bay is home to an emergency response 
towing vessel, ERTB, which has made over 70 saves since its 
stationing, preventing oil spills across the outer coast of 
Washington and British Columbia. The tribe has already invested 
$13 million of its own funding for infrastructure in the Port 
of Neah Bay. And coastal erosion is threatening two primary 
areas in our territory: Hobuck Resort, which is an economic 
employer to the community, and the Ozette coastline, which is 
vital to our cultural resources. Th4ere is a significant amount 
of erosion that is going on in those areas that are at risk, 
and we are looking for programs to help mitigate those risks.
    Thank you for the opportunity to testify today.
    [The statement of Mr. Greene follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you. Thank you very much. Mr. Williams.
                              ----------


                                        Tuesday, February 11, 2020.

                         AKIAK NATIVE COMMUNITY


                                WITNESS

HON. MICHAEL WILLIAMS, CHIEF, AKIAK NATIVE COMMUNITY
    Mr. Williams. Yeah. My name is Michael Williams. I am 
currently the chief of the Akiak Community in western Alaska.
    Impacts on Alaska Natives and American Indians. Climate 
change is undermining the social identity and cultural survival 
of Alaska Natives and American Indians. As we watch our ice 
melt, our forests burn, our villages sink, our sea level rise, 
our temperatures increase, our oceans acidifying, and our 
animals become diseased and dislocated, we recognize that our 
health, our traditional ways of life are at risk.
    Our elders, in particular, are deeply concerned about what 
they are withholding. In Alaska, unpredictable weather and ice 
conditions make travel and time-honored practices hazardous, 
endangering our lives. According to the U.S. Corps of Engineer, 
at least three tribes must be moved in the next 10 to 15 
years--Shishmaref, Kivalina, and Newtok--while, according to a 
GAO report, over 100 communities are at risk. Currently, Newtok 
has begun to move finally.
    Everything is changing so quickly. Lakes are drying. New 
insects are appearing. Permafrost is melting. Bays are 
disappearing. Storms are fiercer. Animal populations are 
changing. Our fish are rotting on drying racks. Polar bears are 
drowning and dying. Because of massive record-breaking forest 
fires, our youth and elders are having trouble breathing. Our 
ice is so much thinner, or entirely gone, and our coastlines 
are eroding, washing away ancient artifacts from our ancestors 
as well as modern infrastructure. Throughout the Nation, in 
Indian Country, traditional foods are declining. Local 
landscapes are changing. Real infrastructure is being 
challenged. Soils are drying, and the lake and river levels are 
declining. Tribes are experiencing droughts, loss of forests, 
fishery problems, and increased health risks from heat strokes 
and from diseases that thrive in warmer temperatures.
    If climate change is not addressed, the impacts on Alaska 
Natives and American Indians will be immense. Models and the 
best scientific data and traditional knowledge indicate that if 
we do not reduce greenhouse gas emissions, the entire icecap 
will melt, endangering the culture and subsistence needs of 
America's indigenous people. Furthermore, erosion, flooding, 
sea level rise, storm surges, and greater storms will endanger 
my people, the Yupiaq Tribe in Florida and elsewhere.
    Hotter temperatures threaten all indigenous people, 
especially in southwestern Florida, where we often do not have 
adequate means of escaping the heat. Increased climate change 
will also endanger salmon in the Pacific Northwest, even in our 
lands that we witnessed this past summer, which are crucial to 
the tribes there, as well as in Alaska. Finally, on almost all 
tribal lands, enhance climate change will threaten our sacred 
waters essential to our physical and cultural survival.
    Clearly, climate change presents one of the greatest 
threats to our future and must be addressed by Congress and the 
Administration as soon as possible. We cannot afford to wait 
any longer. We cannot put our head in the sand right now. And 
we have so much opportunities that we can initiate now with 
economic development, other than the fossil fuels that we 
depend on. We can get economic opportunities without depending 
on fossil fuels anymore, and we at Alaska tribes and 
corporations have passed resolutions indicating our impacts on 
our oceans and our rivers.
    Alaska Federation natives, NCAI, and I had an opportunity 
to listen to you this morning, and thank you for those 
comments, Mr. Kilmer. But anyway, throughout the Alaska Nation, 
we are in peril from climate change. For the sake of our 
children and grandchildren, seven generations and beyond, 
Congress must take meaningful action to address this issue 
right now. Thank you.
    [The statement of Mr. Williams follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Than you, Mr. Williams. Ms. Sigo.
                              ----------


                                        Tuesday, February 11, 2020.

                            SUQUAMISH TRIBE


                                WITNESS

ROBIN SIGO, TREASURER, SUQUAMISH TRIBE
    Ms. Sigo. Thank you, Chairwoman McCollum, Ranking Member 
Joyce, and honorable members of the committee. My name is Robin 
Little Wing Sigo, and I serve as the treasurer of the Suquamish 
Tribe. Thank you for the opportunity to testify about the 
tribe's funding priorities.
    The Suquamish name comes from the traditional word 
[Speaking native language], which means ``place of the clear 
saltwater.'' The tribe is a signatory to the 1855 Treaty of 
Point Elliott. Our reservation, which is located west of 
Seattle across the Puget Sound, encompasses approximately 7,600 
acres, including 12 miles of Salish Sea shoreline. The 
Suquamish people have lived in the Puget Sound area since time 
immemorial. The tribe relies on its abundant wildlife and 
plants to meet our economic, nutritional, and cultural needs. 
These traditional foods are found on our dinner tables and 
featured during our travel gatherings. Today, 20 percent of the 
tribe's members help support their families by earning income 
from the harvest of fish and shellfish.
    For such strong ties to our environment, the Suquamish 
Tribe is experiencing the growing impacts of climate change. 
The tribe is on the front lines of this battle, and one which 
is disrupting our daily lives. In order to aid tribes facing 
climate change, the Suquamish Tribe requests the subcommittee 
increase funding for the BIA's Tribal Resilience Program, or 
TRP. Despite the tribe's best efforts, we are facing an uphill 
battle against climate change. We feel stronger Federal 
investment in programs, such as TRP, is needed.
    Over the last several years, the tribe has received 
multiple funding awards through TRP. With this funding, the 
Suquamish Tribe conducted a project that provided us with 
valuable data on the temperature and stream flow of the Chico 
Creek watershed. For generations, my family has lived on this 
watershed, and we have witnessed the decline in returning 
salmon. Thanks to the TRP funding, the tribe is now able to 
monitor future changes of the watershed, which may cause long-
term impacts on our salmon population.
    Another TRP program was centered around engaging our 
troubled youth in understanding the impacts of climate change 
at a scientific and cultural level. By laying the groundwork of 
knowledge for our youth, we are providing them with the best 
tools to continue this battle against climate change. The TRP 
has proven to be an effective program to help tribes fight 
against the ever-increasing impacts of climate change. 
Therefore, the tribe urges the subcommittee to consider a 
substantial increase to funding for TRP.
    The tribe's second request is for continued funding for the 
U.S. Fish and Wildlife Service's Tribal Wildlife Grants. The 
Suquamish Tribe has been active in the recovery of the sea 
cucumber population in the Puget Sound. Due to our over 
harvesting, many areas where the sea cumber once thrived are 
now struggling in population number. The sea cucumber is part 
of the Puget Sound's rich community of organisms, and the tribe 
is committed to ensuring all wildlife within it thrive.
    The Suquamish Tribe received a Tribal Wildlife Grant to 
help protect future generations of sea cucumbers. With this 
important grant funding, the tribe partnered with several 
organizations to start a sea cucumber restoration program. The 
project focuses on over-harvested areas in the Puget Sound and 
created a hatchery program. This funding will help to 
reintroduce sea cucumbers from the hatchery to some of our most 
over-harvested areas. And I have gotten to go visit those 
little baby sea cucumbers, and they are really cute, and they 
just keep getting bigger. And, you know, some of our elders go 
out and look at them also because that is an important part of 
it as well. The Suquamish Tribe urges the subcommittee to 
continue to increase funding for the Tribal Wildlife Grants, 
and also expand it to include more pilot programs.
    And finally the tribe's final request is for continuing 
funding for the EPA's Puget Sound Geographic Program. The EPA's 
Puget Sound Program provides funding to tribes to address 
environmental and human health risks as well as tribal capacity 
building and project implementation. Despite the effectiveness 
of the Puget Sound Geographic Program, the EPA's Fiscal Year 
2020 budget request calls for its elimination. Considering the 
proposed elimination of the program, the Suquamish Tribe was 
pleased to see the program increased to $33 million. However, 
the Puget Sound Program has suffered a drastic reduction in 
funding from the $50 million it previously received. Therefore, 
the tribe encourages the subcommittee to continue funding and 
increase the funding available for the EPA's Puget Sound 
Program account.
    Thank you for this opportunity to testify. This work here 
is more than just food. It is also about our culture. It is 
also about the whole world. And I am available to answer any 
questions.
    [The statement of Leonard Forsman follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you. Ms. James.
                              ----------                              

                                        Tuesday, February 11, 2020.

                         QUINAULT INDIAN TRIBE


                                WITNESS

GINA JAMES, 1ST COUNCILWOMAN, QUINAULT INDIAN TRIBE
    Ms. James. Good afternoon, Chairwoman McCollum, Ranking 
Member Joyce, and members of the subcommittee. My name is Gina 
James, and I am the first councilwoman of the Quinault Indian 
Nation Business Committee. I want to thank the subcommittee 
holding this hearing to hear from tribes on the importance of 
these Federal programs.
    Before getting into the specific requests I have, I would 
like to thank the subcommittee for increasing funding for the 
Bureau of Indian Affairs and the Bureau of Indian Education in 
Fiscal Year 2020 by $142 million over Fiscal Year 2019. The 
subcommittee also increased funding to the Indian Health 
Services by $243 million over the 2019 enacted level. Thank 
you.
    The Quinault Reservation is located on the southwest corner 
of the Olympic Peninsula in Washington State and abuts the 
Pacific Ocean, and has over 3,000 enrolled tribal members. The 
lands and waters of the Quinault Reservation consists of 
207,150 acres beautiful forest lands, mountains, rivers, Lake 
Quinault, and 25 miles of relatively undisturbed Pacific 
coastline. My testimony today focuses on three priorities.
    Funding requests for the Taholah Village relocation 
project. There are two major villages located within the 
reservation, the villages of Taholah and Queets. Tahola is 
located in the southern portion of the reservation at the mouth 
of the Quinault River on the Pacific Coast, and consists of two 
locations known as the Upper Village and the Lower Village, the 
latter of which is located below sea level and is the original 
village of Taholah, signers of the Treaty of Olympia.
    Our nation had models prepared by the Washington Department 
of Natural Resources that show a potential of tsunami 
inundation of 40 to 50 feet in depth in most of the lower 
village of Tahola. And that is where I live. A comprehensive 
2017 report was contracted by QIN and two other tribes, the 
Quileute and Hoh Indian Tribes, to understand the effects of 
climate change and impacts to the homelands and treaty 
resources of our coastal tribes. The report entitled, ``Climate 
Change Vulnerability Assessment for Treaty Tribes of Olympia,'' 
found that the combined effects of thermal expansion of ocean 
waters, vertical land deformation, e.g., tectonic movements, 
melting glaciers and ice fields, and seasonable water surface 
elevation changes due to local atmospheric circulation effects 
will result in sea level increases, substantial increased flood 
risk in the lower village of Tahola. By 2050, sea level is 
projected to increase by up to nearly 20 inches under the high 
scenario.
    The report further noted that changes posted by climate 
change include increased winter precipitation, soil saturation, 
and flow into the Quinault River will compound and increase the 
coastal flood risk to the lower village of Tolah. The nation 
applied and received a grant in 2013 from the Administration 
for Native Americans, U.S. Department of Health and Human 
Services, to prepare and plan to relocate the village to higher 
ground, and it resulted in the Taholah Village Relocation 
Master Plan.
    We will need assistance from our trustee, the Federal 
Government, to continue implementation of the master plan, and 
to ensure that our citizens are safe and our government 
operations continue. We request the subcommittee in the Fiscal 
Year 2021 appropriations bill direct the BIA and the 
Environmental Protection Agency to prioritize funding for 
tribes who are dealing with reservation loss and displacement 
due to climate change. We also urge the subcommittee to include 
report language that mandates funding criteria that will allow 
our tribe and others dealing with the negative impacts of 
climate change to address the needs described above.
    Along with the climate change and the more rain in winter, 
another funding request is for additional roads to access 
Quinault's Village of Taholah. Exit and entry access to the 
Village of Taholah is limited to a single highway. Access to 
the village is cut off during natural disasters and weather 
events, such as downed trees, mudslides, floods, that make the 
roads impassable. In December 2018 and January 2020, very large 
mudslides shut down the single highway for a number of days. 
When this access is cut off, emergency vehicles are unable to 
reach or leave the Village of Taholah, except by a treacherous 
logging road known as BIA Road 29, or McBride Road. It takes an 
additional 45 minutes to get through that road. That 
significantly increases response times for emergency services.
    We thank the subcommittee for funding the BIA Road 
Maintenance Program at $36 million in Fiscal Year 2020. We ask 
that the subcommittee increase funding for this program to $50 
million to meet the current high demand of tribes. We also urge 
the subcommittee to include report language giving funding 
priority to tribes with safety and emergency access concern. 
And my last request was the Housing Improvement Program.
    Ms. McCollum. We have that, yeah.
    Ms. James. QIN has utilized this program for many years. 
HIP is a home improvement and home replacement program that 
assists tribal members who have substandard to deplorable 
housing. Cutting this funding would be devastating to the 
people that need it the most. We thank the subcommittee for not 
following the Administration's request to zero out and cut this 
program, and for funding it at $11.7 million in Fiscal Year 
2020, an increase of $2 million for Fiscal Year 2019. Because 
there is a continued need for this program at Quinault and 
through Indian Country, we ask the subcommittee to increase 
funding to $50 million for Fiscal Year 2021.
    Thank you for allowing me time to comment on our nation's 
needs and other native nations.
    [The statement of Ms. James follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you. Thank you for your testimony. It 
was heartfelt and disturbing. Mr. Kilmer.
    Mr. Kilmer. Thanks, Madam Chair. And I actually just want 
to start by thanking our chairwoman and our ranking member for 
coming out to our neck of the woods this last summer, and 
seeing some of the challenges that you spoke to. We had, 
Councilwoman James, the Quinault hosted four of the coastal 
tribes for kind of a roundtable discussion around some of the 
challenges facing frontline communities. And we got to go down 
into the lower village, and, you know, it is one thing to hear 
about it. It is another to kind of put eyes on how close the 
ocean is and to be below sea level, and to actually see the 
risk of climate change on your village.
    We heard from the Makah Tribe about some of the challenges 
faced by climate change, not to mention the threat of tsunami. 
One of your neighboring tribes, the Hoh Tribe, spoke to the 
fact that while they had secured space to move to higher ground 
and have built a fire station, the only supplies they were able 
to secure at this point were body bags, which was a pretty dark 
statement.
    I thought it was a good thing that Chairman DeFazio in the 
infrastructure proposal or framework that he put out had a 
section that was focused on resiliency. Personally, I think 
that we should have a section that is dedicated to tribal 
communities, and, specifically, to frontline communities that 
are going through what you are going through right now, that 
are facing the need to potentially move to higher ground. And I 
was hoping that you could just elaborate a little bit on what 
are the big hurdles that tribes are facing.
    When you talk about moving to higher ground, you know, 
there is a lot, and, Chairwoman, you spoke about, you know, the 
road problem and dealing with wetlands. You know, it is a lot 
to think about just in terms of basic infrastructure, like 
water systems, and sewer, and all of that. Can you just speak 
about what are some of the barriers that this committee should 
be thinking about when it comes to moving to higher ground?
    Ms. Nelson. I think you said it already. One, money to do 
these things. The infrastructure, when we get up there, and we 
are planning that, but we don't have money enough to do it for 
sure. Time is getting shorter, and I know that all of our 
fellow tribes have the same problem. We don't have enough money 
to build the house, do the infrastructure like it should be 
done because we want to do it. So we are environmentally, you 
know, taking care of the environment, and we are doing as much 
as we possibly can for the people around us to keep them safe, 
too.
    Mr. Williams. Yeah, in Alaska, Mr. Kilmer, right now in my 
village, we have are relocating six homes right now, and we are 
struggling to get funding. And we appreciate all of the 
contributions that we had because of the disastrous nature of 
these, what we are facing. And many of the communities are 
falling into the river, because of the permafrost melting. And 
a lot of the roads and a lot of the buildings are tilting and 
falling down, and a lot of our graveyards are sinking through 
the tundra.
    And I think FEMA and Federal agencies need to come 
together, Army Corps of Engineers. Everybody has to come to aid 
the communities that are being impacted by the climate change 
that we are facing. It is not our fault that we are living in 
these conditions. It is the emissions. It is what is going on 
in other parts of the world that are affecting the Arctic, and 
it is not going to be the same anymore. And we definitely need 
Congress and the Administration to help give us the relief 
right now. We really appreciate it.
    Mr. Greene. Congressman Kilmer, if I could just add that, 
you know, some of the wetland mitigation is an issue for Makah 
as well, and then also, you know, the funding to be able to 
access some of these areas out there where we live. The places 
we need to relocate to are not easily accessible. There is no 
infrastructure in place in terms of roads, water, sewer. Those 
sort of issues are not there. The tribe has invested, you know, 
over $7 million in the last 10 years to move to some of these 
areas and put housing developments in some of these areas, 
relocate part of its health facilities there, and is planning 
to relocate the rest of the housing facility that is going to 
be about another $7 million investment by the tribe that we are 
going to do.
    You know, we are moving forward with it, and so, you know, 
those are some of the challenges. And to keep in mind that 
every time we do that for Makah, we are having to take timber 
out of revenue cycle. We are a timber tribe that relies on that 
for our budget, and every time we have to dedicate this land 
for other uses, it takes that away from our economy. Thank you.
    Ms. James. I would just like to reiterate the point about 
the infrastructure and the cost for us to move up the hill. 
Because our reservations are heavily allotted, we might have to 
get permission from 200 landowners to buy an 88-acre allotment 
to build a housing development on an allotment. So it takes a 
lot of time, a lot of calling and visiting and trying to 
convince people to sell their allotments. And the nation has 
put money into buying some allotments, but the infrastructure 
is the biggest cost. And basically moving the ancestral village 
up to the upper village is going to be hard because that is 
where our foundation lies and where our people originally 
signed our first Quinault River Treaty before the Treaty of 
Olympia was signed with the other two tribes.
    Mr. Kilmer. Thank you. Thank you, Madam Chair. I yield 
back.
    Ms. McCollum. Mr. Joyce.
    Mr. Joyce. Thank you all for being here, and I apologize 
for coming in a little late. I went over to the National 
Congress at American Indians Summit, and have returned. I 
appreciate your coming here today and advising us so we can 
make better decisions on your behalf. Thank you.
    Ms. McCollum. Ms. Pingree.
    Ms. Pingree. No, thank you, Madam Chair, but thank you so 
much. I am sorry I had to come in late, but such an important 
topic, and we really appreciate your giving us some insights 
into how to help.
    Ms. McCollum. Mr. Stewart.
    Mr. Stewart. No, I would just thank you for coming.
    Ms. McCollum. I appreciate you pointing out the 
interdependency of the Federal agencies working together, 
whether it be Army Corps, FEMA, and disaster mitigation. And 
one of the things that we are going to try to figure out is how 
we do a whole-of-government approach to what you need to have 
happen, and to really get a cost and a handle on this, because 
as the other panel pointed out, we are under funding healthcare 
as it is right now, and you are going to have hospitals and 
clinics that are going to have to move, through no fault of 
your own. And we need to start getting real about having a plan 
about what this is going to cost, how we are going to pay for 
it. You know, there is just a lot of work to do and time is 
wasting.
    But on a different note, this gavel is made out of an 
invasive species called buckthorn, and I am curious about what 
these green European crabs, I mean, so don't want buckthorn. I 
don't want gavels made out of it. I want it to go away totally. 
Mr. Joyce and I deal with Asian carp. They don't appear to be 
good for much of anything, maybe fertilizer eventually. What 
happens with them? I mean, is there anything that you can do? 
Can they say they are sorry in any way possible for being 
there?
    Mr. Greene. Currently, there is no use for them right now. 
Our fisheries program, you know, is analyzing those questions. 
If they are going to be there for the long term, you know, is 
there a use for them? We don't have that answer yet, so we are 
trying to develop that, and, you know, certainly, you know, 
these invasive species can be devastating.
    Ms. McCollum. And so you are monitoring on your area, and 
you asked for more funding for fish and wildlife for invasive 
species. But is anybody else monitoring, or are there whole 
sections where no one is really surveying or even paying 
attention to what is happening with them?
    Mr. Greene. Our understanding is that there are whole 
sections that aren't being monitored right now, and that there 
is some monitoring going on in the Puget Sound. I don't know 
the exact levels of that, but, you know, we feel that it 
certainly needs a little more attention, especially in light of 
the importance of, you know, that region's dependence on the 
Dungeness crab fishery. I don't know if that is a risk or not. 
I guess the science will tell us whether that is not.
    Ms. McCollum. And then I am going to take the prerogative 
of being the chair and ask you one more question, and if the 
rest of you have timber, please chime and say anything. With 
climate change, what keeps you up at night about being able to 
sustain your economic development? Is it with the climate 
change invasive species coming in? Is it water? Is it drought? 
Is it fire? What is it?
    Mr. Greene. For us, it is the health of the ocean for 
Makah. I mean, the ocean is a big driver in climate, as we 
know, and our whole livelihood is built around the ocean. And 
that is what keeps me up at night, Madam Chair, is, you know, 
we depend on that for everything. It is our spiritual identity.
    Ms. McCollum. Okay. Well, thank you. Thank you all. We will 
have the next panel come up. Well, good morning, and this is 
our last panel before we will take our break, and it is on land 
trust and natural resource management. And I think some of you 
were in the room as the other panel went forward. So quickly, 
please introduce yourself, go right into your testimony. You 
have 5 minutes. We have your full testimony in front of us, so 
don't feel rushed or that something won't be covered because it 
will be read, and it will be used to formulate questions as the 
other panelists that we will be asking the bureaus about Indian 
health education, and some of the Department of Interior 
issues. So you are helping us prepare questions from Indian 
Country when we have those testimonies moving forward.
    Yellow light means you have 1 minute left. Red means please 
wrap it up. And we will let you start, sir. Introduce yourself 
and go right into your testimony. Good to see you again.
                              ----------


                                        Tuesday, February 11, 2020.

                        SHOSHONE-BANNOCK TRIBES


                                WITNESS

LADD EDMO, CHAIRMAN, SHOSHONE-BANNOCK TRIBES
    Mr. Edmo. Good morning, Subcommittee. [Speaking native 
language.] It is good to be here with you all. My name is Ladd 
Edmo. I am the chairman of the Fort Hall Business Council and 
the Shoshone-Bannock Tribes of Southeast Idaho. The Shoshone-
Bannock Tribes thank Representative Simpson for being our 
friend.
    For almost 70 years, the health and environment and safety 
of tribal members have been subject to toxic contaminations 
caused by Simplot and FMC Corporation from mining and 
processing of phosphates on the reservation and on are ceded 
lands. This has resulted in two Superfund site. At the Eastern 
Michaud Flats Superfund site, Simplot currently operates a 
phosphate facility that contaminates over 2,500 acres. After 30 
years, FMC and Simplot have not cleaned up the site.
    Because of chemical and radioactive contaminants, we cannot 
drink water, we cannot eat fish, and we cannot swim in the 
rivers and streams, and recent tests show that our aquifers are 
contaminated. This must be cleaned up. This past year, the 
tribes developed air and water quality standards with the EPA. 
It is critical the EPA approves these standards. We ask the 
committee's assistance in funding with full implementation. The 
Idaho National Laboratory has evaluated this site and 
determined that there are viable treatment options. FMC removed 
and shipped some of their waste offsite after years of saying 
it was not possible.
    We ask the committee's assistance in working with EPA to 
require actual cleanup and also funding a pilot project for 
cleanup of each site. Simplot mined an open pit phosphate 
operation across 7,000 acres for over 45 years at the Gay Mine 
Superfund site on the reservation. It closed in 1993. Since 
then, the site has not been cleaned up. In 2010, EPA conducted 
a remedial study under CERCLA, which found that the soil, 
vegetation, and surface water remains contaminated with 
arsenic, mercury, uranium, and other heavy metals. We remain 
concerned that these contaminants will leech into the ground 
water. In addition, the site has approximately 158 open pit 
mines ranging from 10 to 20 acres, some having high walls over 
50 feet, making the area unsafe. We appreciate Representative 
Simpson's leadership in bringing together the Federal agency, 
Simplot, and the tribes to work collaboratively on this. We 
request the committee's assistance to fund a long-term 
strategic plan for the tribes to return the land to its natural 
state.
    I want to highlight our other priorities. We request your 
support for advanced appropriations for BIA IHS programs to 
uphold treaty rights and trust responsibilities, and to protect 
tribal programs during shutdowns. We thank the committee for 
last year's support language on the National Park Service 
proposed rule on the National Register because it would harm 
our efforts to protect our cultural resources and our Federal 
lands. We request that the committee ensure that NPS conduct 
meaningful consultation with the tribes before there is a final 
rule.
    We are very concerned that CEQ's proposal regarding NEPA--
the tribes rely on NEPA--to understand the impacts of natural 
and cultural resources. We ask the committee require meaningful 
tribal consultation before CEQ does anything else. We need more 
funding to offer safe, affordable transitional housing, to aid 
our efforts to help tribal members recovering from substance 
abuse. Our BIE schools lack adequate funding to hire qualified 
teachers. Entry level teachers are offered $10,000 less than 
surrounding schools. We ask for competitive teacher salaries at 
BIE.
    We lack sufficient funding for utility systems, for roads, 
housing, community buildings, and broadband internet, which are 
important to our future economic success. We urge the committee 
to provide increased funding for all infrastructure programs in 
Indian Country, and to ensure there are tribal set asides.
    Thank you for having me, Subcommittee. It is an honor to be 
here speaking before you.
    [The statement of Mr. Edmo follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you. Ms. Dana.
                              ----------


                                        Tuesday, February 11, 2020.

                            PENOBSCOT NATION


                                WITNESS

MAULIAN DANA, AMBASSADOR, PENOBSCOT NATION
    Ms. Dana. Good morning, and thank you for allowing me to 
testify today on behalf of the Penobscot Nation. I am Maulian 
Dana. I serve as the ambassador. I want to thank Chairwoman 
McCollum and Ranking Member Joyce for continuing to hold these 
tribal witness days. It is nice to see you. I also want to 
thank Ms. Pingree for being a tireless advocate for the tribal 
nations in Maine. Our relationship with the Federal Government 
is complicated, and you have really been a huge help in 
educating your colleagues about that relationship and 
advocating for our unique funding needs. Thank you.
    My testimony today will focus on the need to increase 
funding for the BIA's fish and wildlife management programs. 
The Penobscot Nation continues to practice our traditional 
sustenance lifestyle. Our people continue to hunt moose, deer, 
bear, and fish for medicinal and cultural purposes. We also 
rely on access to traditional plants. Every tribal member has 
the right to acquire one moose per year, and this animal can 
feed an entire family for much of that year, and is 
supplemented with other game and fish. So having access to 
these traditional foods cuts down on the cost of groceries 
significantly, and reduces health disparities, such as type 2 
diabetes, amongst our people.
    Given this, the proper management of our lands, wildlife, 
fish, and waters is critical to our health and longevity. We 
have over 123,000 acres and land holdings. Although our lands 
historically covered much of what is now the State of Maine, 
our land became substantially reduced and scattered after 
enactment of a land claims settlement act between us, Maine, 
and the Federal Government in 1980. Our various territories can 
be a 3-hour drive from each other, and our land base also 
includes about 100 islands located within 80 miles of the 
Penobscot River. So most of our land is undeveloped forest land 
best use for hunting.
    We have limited economic resources and are not able to 
conduct gaming like many other tribes, so we really rely on the 
Federal Government to meet its trust responsibility to us by 
providing funds for our natural resource, water, and land 
management programs. We rely on BIA funding for these programs, 
in particular, because those funds are recurring each year. Our 
current unmet need for our fish and wildlife management 
programs is approximately $360,000 annually. Additionally, we 
have been short one full-time game warden for several years now 
due to lack of funding.
    As I previously mentioned, our lands are scattered, and 
most of our citizens rely on hunting and fishing for 
sustenance. Proper management of our wildlife and lands is 
crucial to our ability to continue to hunt. Game wardens also 
play an essential role in ensuring that our wildlife is not 
over harvested. They are also the only law enforcement on a lot 
of these lands and play an important public safety function for 
hunters who may get lost or injured. We need funding for game 
wardens to be increased. Unlike many other tribal nations, our 
Settlement Act requires that all of our trust lands be managed 
pursuant to the Indian Self-Determination Act.
    Thank you so much. I have a sore throat. I have been 
fighting a cold. That is so nice of you.
    All right. Let's talk about self-determination contracts. 
So the Indian Self-Determination Act, which means that we are 
required to enter into self-determination contract with the 
Federal Government for management of our lands and natural 
resources. For almost every other tribe, these contracts are 
voluntary versus mandatory. So for us, they are mandatory, and 
this means we cannot retro-cede management of our lands and 
resources back to the Federal Government if the BIA fails to 
fund our programs properly. This puts us at a disadvantage in 
negotiations with the BIA on our annual funding agreements. We 
believe that Congress owes us a unique obligation to better 
fund our self-determination contracts because of our Settlement 
Act. Self-determination contracts are funded through the tribal 
priority allocations line item, and we ask that funding for 
them be increased.
    I would like to wrap up my remarks today by providing the 
committee with an update on the opioid epidemic that Penobscot 
Nation has been facing for several years now. This issue 
continues to be our number one health and safety risk. With the 
support of this committee, the BIA has been able to hire a drug 
investigator focused on supporting the tribal nations in Maine. 
This has helped a lot, and we thank you for getting this to 
happen.
    Our biggest need for combating this epidemic is funding for 
tribal court, and, particularly, our Healing to Wellness Court. 
When we are able to get individuals into the Healing to 
Wellness Court Program, we make substantial progress in getting 
them off opioids and back on track to being productive 
citizens. But our court is overwhelmed right now, and we need 
additional resources to build up to our capacity. We ask that 
the committee increase BIA funding for tribal courts.
    Thank you again for the water and for allowing you to 
provide remarks today.
    [The statement of Ms. Dana follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Mr. Frank.
                              ----------


                                        Tuesday, February 11, 2020.

                            NISQUALLY TRIBE


                                WITNESS

WILLIE FRANK, III, COUNCIL MEMBER, NISQUALLY TRIBE
    Mr. Frank. Good morning, Chairwoman McCollum, Ranking 
Member Joyce, and honorable members of the subcommittee. My 
name is Willie Frank, III. My Indian name is [Speaking native 
language] given to me by my grandfather, Willie Franks, Sr., 
who lived to be 104, and I have the honor of serving as a 
council member for the Nisqually Indian Tribe. I am humbled to 
speak today and continue my father, Billy Frank, Jr.'s, 
lifelong fight to save our salmon, waters, and the environment.
    In 1854, the Nisqually Tribe and the United States signed 
the Treaty of Medicine Creek. Through this treaty, the tribe 
secured the perpetual survival of my people, our traditions, 
and our culture. We also reserved the right to use our 
homelands and access the natural resources that have been 
central to our existence since time immemorial. However, the 
salmon of the Nisqually River have dramatically decreased in a 
number of years, with two species listed as threatened under 
Endangered Species Act, the Fall Chinook salmon and the 
steelhead trout. Two more species are candidates for future 
listings.
    Our tribe was able to fish 8 months of the year on the 
Nisqually River, but by 2015, fishing time was constrained to a 
mere 8 days to conserve the diminishing resources for future 
generations. Eight days is not using our homelands and water as 
promised. Eight days is not practicing our culture and our 
traditions. Eight days is not honoring the promises contained 
in the Treaty of Medicine Creek.
    First, the Nisqually Tribe would like to request an 
increase in funding for the BIA Western Washington Program. The 
Department of Interior established the Rights Protection 
Implementation Program to uphold the Federal Government's 
treaty obligation. This initiative includes the Western 
Washington Program, which provides tribes with Federal funding 
to protect and restore for wild salmon and for fishery 
management. The Nisqually Tribe has used this vital funding to 
protect our precious fish resources and to build a strong and 
dedicated natural resource program.
    The tribe has over 50 staff and eight different programs. 
However, the funding levels for this program are not sufficient 
to face the current challenges. The tribe is putting all its 
efforts into the survival of our fisheries and stretching every 
dollar. Unfortunately, the Federal resources have failed to 
fully support the proper management of our treaty-protected 
rights.
    The Nisqually Tribe's second request is for increased 
funding for EPA's Puget Sound Program. The Puget Sound 
represents the promise of a clean, healthy, and vital 
environment that is central to our lives in western Washington. 
However, the Puget Sound is in dire need, and it suffers. So do 
our salmon. The plight of the salmon is the plight of my 
people. Losing our promised and generational connection to the 
salmon, the river, and our traditional practices has long-
lasting impacts on our communities. Our physical, emotional, 
and spiritual health is directly and permanently connected to 
our river and salmon. Saving the salmon is saving our people.
    We are not alone feeling the impact of disappearing salmon 
runs. Our brothers, orca of the Puget Sound, are salmon eaters 
like us, and they are now listed as threatened under ESA, and 
are slowly slipping away into extinction. As go the salmon goes 
the orca and the Nisqually people. Under EPA's Puget Sound 
Program, the Nisqually Tribe receives funding to conduct 
research and implement programming to revitalize salmon 
populations. This funding allows our scientific researchers to 
understand the underlying issues impacting the Puget Sound. 
Once we have an understanding of the cause, we can deploy the 
best measures to protect the salmon. The Nisqually Tribe 
requests that this subcommittee ensures the Puget Sound Program 
remains this year and into the future.
    Finally, the Nisqually Tribe requests increased for the BIA 
Tribal Resilience Program. Climate change is real, and it is 
having a dramatic impact on our people and the resources we 
depend on. As a result of rising sea levels, we are seeing 
changes to the Nisqually delta in ways that are impacting 
salmon survival. The culturally-important plant species that we 
use for our food, medicine, and crafts are becoming scarce as 
the range is being reduced with rising temperatures and changes 
in timing and magnitude of rainfall. We have invested a 
tremendous amount of time and resources to protect and restore 
our watershed, but the changes are occurring in a pace that is 
challenging to match with our efforts alone. We all need to 
increase the magnitude of our efforts while working on 
solutions to the climate change that threatens the very 
resources that we care for and are dependent on our very 
survival.
    In conclusion, I want to thank the committee for listening 
to my testimony today. And I am a fisherman on the Nisqually 
River. I fished with my father. I fish with my brother in the 
same areas where my grandfather fished. And for us, being on 
the river, that is medicine for us as a native people, and the 
importance of the salmon are sacred to us. I compare it for us 
to going to church. When we are able to set our nets on 
Sundays, that is medicine for us. That is a way to express our 
treaty rights, our tribal sovereignty, and our way of life.
    And at 82 years old, my father, he was still fishing with 
us on the Nisqually River. So the importance of salmon are very 
near to the Nisqually people, and we will continue to fight and 
protect our treaty resources and tribal sovereignty, and we 
look for support in funding. I thank you.
    [The statement of Mr. Frank follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Mr. Cawston.
                              ----------


                                        Tuesday, February 11, 2020.

            CONFEDERATED TRIBES OF THE COLVILLE RESERVATION


                                WITNESS

RODNEY CAWSTON, CHAIRMAN, CONFEDERATED TRIBES OF THE COLVILLE 
    RESERVATION
    Mr. Cawston. Good morning, Chairwoman McCollum, Ranking 
Member Joyce, and members of the subcommittee. On behalf of the 
Confederated Tribes of the Colville Reservation, I thank you 
for the opportunity to provide testimony today. I know that you 
have the testimony that was submitted, but I did make some 
changes last night, and so I am going to read that today.
    The CCT, the Colville Tribe, recommends that the 
subcommittee, one, provide a $10 million increase through the 
Bureau of Indian Affairs forestry account for reforestation and 
additional foresters; two, include report language directing 
the Secretary of the Interior to prioritize tribal requests for 
wild land and preparedness funds; three, and this is the 
change, to provide a $50 million increase through the BIA 
forestry account to award grants to tribes in the northwest 
region to develop forest health strategic plans; and four, 
include report language directing the Secretary to consult with 
stakeholders, including Indian tribes and tribal organizations, 
and report to the committee on the potential benefits of using 
very large air tankers in fire suppression activities.
    Although now considered a single Indian tribe, the 
Confederated Tribes of the Colville Reservation is, as the name 
states, a confederation of 12 aboriginal tribes from 
northcentral Oregon to British Columbia, Canada. That is an 
edit that I added. The Colville Reservation encompasses 
approximately 1.4 million acres and is located in northcentral 
Washington State. The Colville Tribe has nearly 9,500 enrolled 
members, making it one of the largest Indian tribes in the 
Pacific Northwest. About half of our tribal members live on or 
near the Colville Reservation.
    One, provide a $10 million increase to the BIA forestry 
account for reforestation and additional foresters. The 
Colville Tribe joins the Intertribal Timber Council in our 
request that the subcommittee increase the BIA forestry 
projects for its development line item by $5 million for 
replanting and thinning, and, two, increase BIA forestry PPA 
line item by $5 million to better enable Indian tribes and 
tribal organizations to hire additional foresters. In 2015, the 
Colville Tribe endured the most destructive fires on an Indian 
reservation in recorded history. The North Star and Okanogan 
complex fires collectively burned more than 255,000 acres on 
the Colville Reservation, nearly 20 percent of the 
reservation's total land base. Approximately one-fourth of the 
commercial timber land on the reservation was burned or 
severely affected, totaling 788 million board feet of timber.
    And then I added this as well. In August of 2019, the 
Colville Tribe experienced the largest wild land fire in the 
United States during its time. The Williams Flats fire burned 
over 45,000 acres in a designated game reserve on the Colville 
Reservation. This wild land fire was unusual because the 
Northwest Interagency Incident Management Team reported that a 
flash flood occurred during the fire with large amounts of rain 
and flooding occurring, creating hazardous conditions, and 
washed out many roads in the area, leaving them impassable. 
This posed a new challenge for firefighters and those working 
to move heavy equipment out of the area. Sixty-four 
firefighters were caught behind the flash flood.
    Funding of the forest projects development line item funds 
the necessary replanting and reforestation activities that will 
continue to take place on the Colville Reservation for years in 
response to both fires. The BIA has a statutory obligation 
under the National Indian Forest Resources Management Act to 
replant Indian forest land. Currently, the BIA's average annual 
burned area rehabilitation budget, however, is approximately 
$3.2 for tribes nationwide. The BIA's entire $320 budget for 
fire rehabilitation would cover planting and restoration of 
less than 11,000 acres nationwide. At current funding levels, 
this would mean that hundreds of thousands of acres of forest 
that was burned on the Colville Reservation in 2015 and 2019 
may not be replanted for decades, if ever.
    Acres that were not replanted or where failures occurred 
from record-setting lack of summer precipitation will be added 
to the already existing backlog of forced development 
activities. Unplanted acres diminish the tribe's ability to 
sustainably manage forest resources for both economic and 
ecosystem benefits.
    Equally important is additional BIA funding for foresters, 
which are essential personnel to increasing the tribal timber 
harvests. The BIA remains responsible for a wide range of 
critical forestry functions in its capacity as trustee. These 
functions include environmental clearances and approval and 
oversight for timber and salvage log sales. Without additional 
funding, the lack of forestry staff to perform these and other 
important trust functions will continue to directly constrain 
tribal timber harvest levels. Two, include report language 
directing the secretary to prioritize tribal requests for fire 
preparedness funding. The Colville Tribe suggests that the 
subcommittee include language in its Fiscal Year 2021 spending 
bill that directs the Secretary of Interior to prioritize 
tribal requests for wildlife preparedness funding.
    In early August of 2017, the Colville requested $16,250 in 
severity funding to prepare for what weather reports predicted 
was going to be a severe lightning storm on the Colville 
Reservation. These funds were requested from the BIA's 
northwest regional office in Portland Oregon. The tribe's 
timely request would have covered use of additional bulldozers, 
personnel, and equipment to prepare areas of high risk of fires 
from lightning ignition. The BIA unfortunately denied the 
tribe's request. The lightning storm arrived as forecasted, and 
on August 7th, 2017, a lightning strike ignited the Bridge 
Quick fire near the Town of Keller on the Colville Reservation. 
The Bridge Quick fire ultimately burned 4,500 acres and was not 
fully contained until the following month. Suppression costs 
for the Bridge Quick fire exceeded $16 million, the bulk of 
which was drawn from the Department of the Interior.
    The wild land fire management account. Had the Colville 
Tribe's initiative $16,250 request been approved by the BIA, 
the Bridge Quick fire would have been contained much sooner and 
at a significant cost savings to taxpayers. Tribal forest 
managers are in the best position to assess danger and risk to 
on-reservation tribal forests. Tribes rely on their forest 
resources for many uses and purposes, including cultural uses 
and economic development. Tribes, therefore, have a motivation 
to protect their forest resources from wildfires in ways that 
other Federal land managers do not. For these reasons, the 
committee should direct the BIA and the DOI generally to honor 
tribal preparedness requests to the maximum extent possible.
    Three, provide a $50 million increase to the BIA forestry 
account to award grants to tribes in the northwest region to 
develop forest health strategic plans. The Colville 
Confederated Tribes has a forest health crisis. We are seeing 
large catastrophic fires, more disease, insect infestations, 
and dying forests, which threaten our communities and fill our 
summer skies with smoke. The Colville Tribe request that the 
subcommittee increase the BIA forestry projects forest 
development line item by $50 million to award grants to tribes 
northwest region to develop forest health strategic plan.
    The grant program allocated by the legislature would be to 
implement projects that seek to restore forest health, protect 
watersheds, promote the long-term storage of carbon and forest 
trees and soils, and minimize the loss of forest carbon from 
large, intense wildfires. Project activities may include forest 
fields, reduction prescribed fire pest management, 
reforestation, biomass, utilization. And I thank you for 
allowing me to testify.
    [The statement of Mr. Cawston follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. And we have got the report language directing 
the Secretary to consult with stakeholders and report to the 
committee the potential benefits of using very large air 
tankers and fire suppression. So I know you wanted to get that 
in, too.
    Mr. Cawston. Okay.
    Ms. McCollum. Ms. Pingree.
    Ms. Pingree. Well, thank you all very much for your 
testimony. Really very helpful and helpful that you had so many 
details. And thank you for the last testimony. I think that is 
such a striking example about how the $16,000 invested might 
have saved $16 million. And so I hope that is an area where we 
can be more supportive, and certainly it raises a lot of 
concerns. If there is not sufficient money to reforest lands 
where we have had forest fires, not only is it lost income to 
you, but certainly on the last panel, talking about climate 
change. We need to keep those forested lands.
    And I share your concerns certainly about the salmon. I 
represent Maine, so I am the opposite side, but we have been 
very concerned about native fisheries. And Mr. Kilmer has been 
a huge proponent of the Puget Sound Program, and I know the 
President eliminated it in this budget we just received. But I 
feel this committee will be very strong in a bipartisan way of 
keeping it there.
    The only question I had around that, and I really 
appreciated you talking about the important of salmon 
fisheries, is it a declining population just because of all the 
reasons we are all experiencing, or are there other people 
accessing the same fisheries?
    Mr. Frank. So I think that it is everybody is experiencing 
the change.
    Ms. Pingree. Right.
    Mr. Frank. It is not just tribal fishery. It is not 
commercial fishery. It is not just sports fishery. Two years 
ago was the first time that sports fishermen and the commercial 
fishermen came to the tribes and said let's work together, and 
the State of Washington, to do this. And so you are seeing it. 
You are seeing the concern. I always tell people I don't want 
to be that generation that goes to a museum to see a salmon. 
You know, I am a fisherman, and I don't want that to happen for 
the future generations and for the kids.
    You know, I think we need more funding committed to the 
Puget Sound cleanup, and, of course, climate change is a big 
issue, especially in the Nisqually.
    Ms. Pingree. Right.
    Mr. Frank. In 2015, we had temperatures get up to almost 70 
degrees in the Nisqually. It is unheard of because it comes 
straight from Mount Rainier. It is glacier water. So that 
should never happen, but everybody wants to do what they can to 
protect our salmon.
    Ms. Pingree. Yeah, and that is an important point. I mean, 
we have severe ocean warming in the State of Maine, and salmon 
are cold water species. It is very hard to keep them there, and 
those are bigger problems than just what you guys can handle. 
And, of course, Ambassador Dana, thank you so much. It is a 
real privilege to work with you and the other tribes in Maine. 
And I appreciated you attempting to describe, we would have to 
have like about five hearings in a row for people to understand 
the complexity of the Settlement Act.
    Ms. Dana. Right.
    Ms. Pingree. But it was helpful to hear a couple of 
specific things, like self-determination contracts and the 
tribal courts, just in terms when we can be helpful in such a 
massive issue. And I am just so happy to hear that the tribal 
courts continue to be beneficial, so I hope we can enhance the 
funding there so this very complex problem, we can help. I am 
using up my time, but thank you all very much. Thank you for 
your testimony. It is really beneficial to have you all here.
    Ms. McCollum. Mr. Joyce.
    Mr. Joyce. Thank you, Madam Chair. Thank you all for being 
here, and I truly appreciate your testimony because it is what 
we need so we can make intelligent decisions going forward. I 
have had the opportunity to visit some tribes. I am continuing 
to visit as many as I can so I can see firsthand some of the 
issues that you have been discussing. But again, thank you for 
being here today.
    Mr. Frank. You are always welcome to come to Nisqually.
    Mr. Joyce. Let me know when those days are. [Laughter.]
    Ms. McCollum. I wanted to go back. You mentioned about the 
teacher salaries, and one of the challenges that we have been 
having in Indian Country is getting professional staff 
workforce training and scholarships for youth to go on and get 
their training and, you know, return back home, but, you know, 
wages, it something everybody cares about. So beyond almost 
$10,000 discrepancy in wages, are you also having struggles, if 
you can comment, on housing for teachers when you do have them 
available to you? Sometimes it is a whole package where there 
is a problem. Is your problem just salaries, or do you have 
other problems in recruiting and retaining teachers?
    Mr. Edmo. Thank you for the question, Betty. Basically, 
housing for our teachers is not an issue because the housing 
problem we have is for tribal membership. We do have agreements 
and MOUs with the local university and Idaho universities for 
reduced tuition to help to alleviate some of this. But it has 
just started, so we do have a few students returning home to 
work at the schools, but the wages are not just competitive 
enough. And so our school system fails on the reservation 
because of the wage. So if there was a better wage in our 
school, our local school there, high school. Actually it is a 
junior-senior high school, and we just can't compete with the 
other schools.
    Ms. McCollum. Well, I used to teach high school myself. I 
saw the salary and went, oh. It is kind of tough. One other 
thing. So you mentioned the Superfund cleanup. Is there 
anything else? I mean, you have quite a few different sites in 
your testimony. You have the Michaud Flats, and then you also 
have the Gay Mine Superfund site. So those are two different 
Superfunds, if I read this right?
    Mr. Edmo. That is correct. The Gay Mine was mined on the 
reservation. That is the 7,000 acres I told you about. And then 
the Michaud Creek Flats is adjacent to the reservation right 
next to the Portneuf River, and the City of Pocatello. So those 
are our concerns that they are contaminating the area within 
our permanent homelands, and we take that as a serious matter 
that we are going to be there forever, and the city could up 
and move whenever they want if that is what they choose to.
    Ms. McCollum. Okay.
    Mr. Edmo. Can I make a comment on the fish?
    Ms. McCollum. Yeah.
    Mr. Edmo. So you talked about the fish. So in Central 
Idaho, those fish there that you are talking about, they have 
to make it all the way up 700 miles upstream. And when you talk 
about warm water conditions, that's even worse the further up 
you go. And we have to rely on some of them fish for our 
sustenance fishing. Last year, we were only able to fish three 
salmon per tributary. That is a major reduction in what our 
harvest limits were, and this year we are looking at the same. 
And we do have fisheries, and we try to manage fish. We have a 
fisheries department, so and we have been buying properties to 
help us to enhance the fish. But for them to travel that far, 
their health and their condition is not the best, but that is 
what we get. We get what we get. And since time immemorial, 
also those fish used to be plentiful up there just as they were 
anywhere else. Now they are a mere drop in the bucket compared 
to what it used to be.
    So I would just like you let you know that those fish have 
to travel almost 900 miles to get to their spawning grounds, 
and yet we can't just go out there and slaughter them before 
they spawn either. So we have to have good fishing practices. 
And I also am a fisherman, and my technique is not the same as 
the gentleman here, but we all have and share in common those 
basic subsistence needs. Thank you.
    Ms. McCollum. Thank you. Ms. Dana, I wanted to ask you 
about, because you talked about fish, and I want to also talk 
to you about the health of the four-legged population you 
mentioned, especially moose. Chronic disease, we had a hearing 
on that. That is something that we are dealing with. Maybe talk 
about climate change and how your moose population is holding 
up. We are very concerned about ours in Wisconsin and 
Minnesota, and I know our Canadian first nations are concerned 
about this issue as well.
    Ms. Dana. Yeah, for sure. I mean, climate change, I think, 
for all of us, it should be a number one priority probably. And 
I think for indigenous nations, it is woven into everything we 
do, every part of our lifestyle. So with our moose population, 
we have definitely seen an impact from climate change, and we 
have the ticks that are just devastating moose up in Maine. I 
know that we have had some restrictions on our hunting. Some 
areas are bulls only. We can't hunt cows anymore. You know, I 
talked about the game wardens being important, you know, 
getting adequate coverage on these lands, making sure we are 
harvesting in the right way, making sure others aren't hunting 
on our lands because that population is so delicate.
    So, yeah, I think you would be hard pressed to find an 
indigenous person that wasn't completely consumed with worrying 
about Mother Earth and climate change, so thank you for that 
question.
    Ms. Pingree. Can I add one thing, Madam Chair?
    Ms. McCollum. You certainly can.
    Ms. Pingree. I wasn't able to attend the chronic wasting 
hearing, but I know that the scientists in the State of Maine 
are watching very closely. We haven't been as impacted, and 
certainly the ticks have been a huge problem, so we kind of see 
it around the corner. And the other thing I was thinking about 
when you were asking about the impact on the forests, I know I 
have talked to several of the basket makers in Maine about the 
decline of the ash. So ash has been such a critical species, 
not only for baskets, but for a whole variety of things. And 
the ash borer has been moving north, and I know people sort of 
see that as almost gone already. But, you know, we have still 
ash trees, but they can kind of see the end of it, and that was 
certainly a huge impact.
    Ms. Dana. Yeah, the temperature swings and kind of 
unpredictability, it affects the sweet grass, the birch bark, 
the ash for sure. So it is definitely having a big impact on a 
lot of things.
    Ms. McCollum. I was just at an exhibit in the Minnesota 
History Center, and it is on the first indigenous in the 
Minnesota area. And one of the contemporary modern Native 
American artists had made the shape of a coffin woven out of 
ash. And it was the way that artist kind of describing the 
death of the ash and what it could mean to the culture and to 
so many things. And it was really moving to see it because I 
walked up to it, and I said, that looks like a coffin, who 
would do a coffin in ash? And then I just kind of stepped back 
for a minute, and it was so very powerful. Then as you walked 
around the rest of the exhibit kind of studying the scene.
    Mr. Frank, thank you so much for your testimony, and I know 
someone is looking down with a big smile on their face. And one 
of the first times I served on this committee was hearing your 
predecessor speak, so thank you for doing that. And I actually 
know, and probably Chellie does, too, about getting the scooper 
tankers and it going. We have to take a really serious look, 
especially along the northern border because so many of our 
States and the Canadian provinces, we have memorandums of 
understanding to help each other out. But with the intensity 
and the frequency of these fires, if we don't really look at 
the big picture for what our fire response is, we might find 
that we have huge holes in it that we are not even aware of. So 
thank you for bringing that to our attention, and I think we 
need to talk to States, talk to our Canadian counterparts, 
including first nations, to make sure we have really got it 
covered. I am concerned we possibly don't have it covered with 
how long and how severe these fires are burning. And you had 
one in California, and pretty soon another part of the United 
States, and all the resources are gone.
    Anything you want to add before we close?
    Mr. Cawston. Can I add a comment about fish?
    Ms. McCollum. Oh, sure. We love fish here. We love to eat 
them, too.
    Mr. Cawston. Well, I can talk to you about wildlife, big 
game. We have a large reservation. We have a lot of issues with 
that. But, you know, but on the Colville Reservation, you know, 
you talk about fish die offs in 2015 because of warming 
temperatures in the Columbia River. Two hundred and fifty 
thousand Sockeye died in the river.
    Ms. McCollum. Wow.
    Mr. Cawston. You know, so, you know, we also have two dams 
that were constructed on our reservation, the Grand Coulee Dam 
and the Chief Joseph Dam, which are blockages to Chinook salmon 
going up into the upper waters of the Columbia and into Canada. 
And, you know, other tribes, there is a 14-tribe coalition that 
have been working to restore salmon to the upper Columbia, and, 
you know, that blocks thousands of miles of habitat.
    And, you know, there are many issues, you know, endangered 
and threatened species of salmon impacting orca, as Willie has, 
you know, talked about this morning. But one of the best ways 
to increase the abundance of Chinook, because Chinook is the 
primary diet of orcas, is to allow for fish passage above those 
two dams. We have been reading through the Columbia River 
system operations environmental impact statement process. They 
have told us they are not going to include reintroduction into 
the EIS or the preferred alternative. And also we have been 
working with the Columbia River Treaty negotiation, which they 
have also said and informed us recently they are not going to 
include reintroduction in the treaty language.
    You know, there was a large coalition of tribes and other 
stakeholders who put together the Northwest Regional 
Recommendation, which includes reintroduction of salmon. So I 
just wanted to let you know that that is something that we have 
been working very tirelessly on.
    Ms. McCollum. Well, thank you. Thank you for your 
testimony. We had a fabulous morning hearing from people. Lots 
of questions to ask the bureaus when they are in front of us. 
Lots of ideas on funding. Mr. Joyce and I just need a bigger 
allocation. We could certainly put it to good use.
    So with that, this hearing that we are having will stand in 
recess until 1:00.
                                        Tuesday, February 11, 2020.

                           AFTERNOON SESSION

                              ----------                              


                         TOHONO O'ODHAM NATION


                                WITNESS

HON. NED NORRIS, CHAIRMAN TOHONO O'ODHAM NATION
    Ms. McCollum [presiding]. So good afternoon. We will start 
the panels for this afternoon here, and I would like the first 
panel to come up--the name plates are up--and take your seat, 
please.
    So I welcome you to our second public witness hearing part 
of today covering tribal programs under the jurisdiction of the 
Interior and Environment Appropriations Subcommittee. This 
morning we heard about critical healthcare issues facing Native 
Americans both on and off the reservation. This afternoon, we 
will be focusing on issues relating to land trust, natural 
resource management, including climate change. And once again, 
we will hear testimony from distinguished tribal leaders, who 
are truly experts on this issue, so we thank you for being 
here.
    This afternoon's issues components of native culture of 
religion are integral to the very survival of individual 
Indians who rely on the resources for substance as well as 
economic activity. Indian Country lacks the tax base enjoyed by 
other governments, so funding provided by the Federal 
Government is essential to their economic development. So we 
are happy to have you here. We are going to start taking 
testimony. I will just go over a couple of things.
    Only pictures and recordings are taken with individuals 
that hold press credentials, so we have noticed everybody for 
that. And we have a timer here. We have 5 minutes for your 
testimony. We are going to have you introduce yourselves 
because we found out that gave us a little bit of extra time. 
Introduce yourself. Go right into your testimony. We will not 
count your introduction against your time, so Janet, she is 
ready to go. When the light turns yellow, there is 1 minute 
left. When it turns red, we will ask you to wrap up your 
testimony.
    We will have a series of votes this afternoon probably in 
about a half an hour, so we should be able to get through all 
of your testimony with that. And then votes could go half hour, 
45 minutes, I am hearing, Mr. Stewart.
    Mr. Stewart. Yes.
    Ms. McCollum. You are hearing the same thing?
    Mr. Stewart. Yes, ma'am.
    Ms. McCollum. And after that happens, I will be going over 
to speak at the National Congress of American Indians, so Ms. 
Pingree will be filling in as vice chair as chair for me while 
I am gone. So let us start out with Mr. Norris. Please 
introduce yourself, and then go right into your testimony. 
Thank you for being here. Thank all of you for being here.
    Mr. Norris. Thank you for the opportunity. Good afternoon, 
Chairwoman McCollum, Ranking Member Joyce, and distinguished 
subcommittee members. I am Ned Norris, Jr. I am the chairman of 
the Tohono O'odham Nation, a tribe with more than 34,000 
members in southern Arizona. Our reservation is one of the 
largest in the country, encompassing more than 2.8 million 
acres. We share a 62-mile border with Mexico, which is the 
longest southern international border of any tribe in the 
United States. Thank you again for this opportunity to testify.
    So, first, I would like to address our roads. The BIA Roads 
Maintenance Program is chronically underfunded. The nation has 
735 miles of BIA, the sixth largest total mileage in Indian 
Country. Many of these roads shows are badly damaged and poorly 
maintained by the BIA. Monsoon rains, and flooding, and heavy 
usage by the Border Patrol vehicles have resulted in terrible 
reservation road conditions. During monsoon season, flooding 
washes our bridges, isolates communities, strands our children 
on school buses, and prevents access for emergency vehicles. 
Congress has failed to provide adequate funding for BIA 
reservation roads. We urge the subcommittee to increase funding 
to address this serious safety issue.
    To address the damage to our roads done by Border Patrol 
vehicles, the Fiscal Year 2018 appropriations law provided for 
the transfer of funds from Border Patrol to BIA for repair of 
reservation roads. Some of that funding is currently being used 
to repair one of our roads heavily used by the Border Patrol, 
which will protect tribal and Federal law enforcement and 
tribal members. We are grateful to the subcommittee for 
addressing this critical issue and for including similar 
language in Fiscal Year 2019 and 2020. But many of our roads 
need work, and we ask that language permitted the BIA to accept 
funding from Border Patrol be included in the Fiscal Year 2021 
Interior appropriations bill.
    Next, our water settlement. The nation faces a serious and 
imminent water crisis because the nation's Southern Arizona 
Water Settlement Act is not being funded. The act authorized up 
to $32 million to pay for delivery of water to the nation, and 
directed Interior to tell Congress how much funding would be 
necessary to implement the settlement. Interior has never 
requested any of the funds. As a result, reclamation estimates 
that our settlement may run out of funding in the very near 
future, forcing closure of tribal farms, employee layoffs, crop 
loan defaults, and breach of related agreements. We urge 
Congress to provide for a long-term stable funding source for 
Indian water settlements. A long-term funding source will 
provide tribes with fiscal certainty and ensure timely 
implementation of water settlements.
    Next, law enforcement. The nation faces unique law 
enforcement and public safety challenges. Tribal police patrol 
remote areas that are difficult to access, and radio 
communication with other law enforcement agencies is 
unreliable. Our officers face serious and unnecessary safety 
risks. A significant amount of the nation's limited law 
enforcement resources are dedicated to border security. The 
nation has a longstanding relationship with Border Patrol and 
other Federal law enforcement agencies, but we still spend 
millions of our own dollars, a third of our police department 
budget, every year to help meet Federal border security 
responsibilities.
    The nation's police regularly investigate immigrant death 
and pay for costly autopsies with no Federal assistance. We 
also incur costs from border-related damages to our 
reservation, including removal of abandoned vehicles and 
control of wildland fires caused by illegal activity. Our 
correctional facility is too small to hold the detainees our 
police apprehend. We urge Congress to provide increased Federal 
funding for tribal law enforcement programs to improve 
communications, hire and train additional officers, purchase 
vehicles, meet border security obligations, and improve tribal 
correctional facilities.
    Finally, healthcare. The nation's hospitals one of the 
oldest IHS facilities, and it is inadequate to meet our needs. 
We waited more than 20 years for IHS construction funding. In 
the last 2 years, we began to receive funding for a replacement 
hospital, but in Fiscal Year 2020, no additional funding was 
provided. Substantial increases for IHS facilities construction 
budget are needed in Fiscal Year 2021.
    Thank you. The nation appreciates the subcommittee's 
efforts to provide Indian Country with much-needed resources in 
this challenging fiscal time. I am happy to answer any 
questions.
    [The statement of Mr. Norris follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms.McCollum. Thank you. Sir.
                              ----------                              

                                        Tuesday, February 11, 2020.

                     UTE TRIBE OF UNITAH AND OURAY


                                WITNESS

HON. SHAUN CHAPOOSE, UTE TRIBE OF UNITAH AND OURAY
    Mr. Chapoose. Good afternoon, Chairwoman, and subcommittee 
members, and representatives from State of Utah. My name is 
Sean Chapoose. I am a council member of the Ute Indian Tribe, 
also a member of the Ute Indian Tribe representing the 
Uncompahgre Band.
    So we appreciate the work to defend funding for Indian 
programs. These programs are based on our treaties and the 
United States trust responsibility to Indian tribes. The 
subcommittee and Congress are responsible for making sure that 
the United States lives up to its words and laws of the land. 
The Ute Indian Tribe asks that the subcommittee increase 
funding for Indian energy development, justice systems, and 
healthcare. These are some of the most important programs on 
our Unitah and Ouray Reservation and across Indian country.
    Indian energy development provides stable, long-term 
economic resources. Energy development funds our tribal 
government and the services we provide our members. It creates 
thousands of good-paying jobs and supports the development of 
infrastructure on our reservation. Our reservation is located 
in northeastern Utah. It is the second-largest reservation 
United States. We use cutting-edge technologies to develop our 
energy resource and manage our lands and resources. By being 
proactive, we can be a major energy producer while also 
protecting our environment and homelands.
    Using our management techniques, we have about 7,000 wells 
producing 45,000 barrels of oil a day. We also produce more 
than 900 million cubic feet of gas per day. We have been 
producing oil and gas for more than 70 years. Meanwhile, we 
also protect our homelands, and are one of the first tribes to 
develop a management plan for endangered species on our 
reservation. The President should be supporting our proactive 
management efforts, but every year he proposes cutting funding 
for every program needed to approve energy permits. The 
subcommittee must reject his proposal and increase funding for 
Indian energy programs.
    The President is also trying to consolidate or eliminate 
important programs that support in Indian energy development. 
For example, there is a proposal to move the Office of Indian 
Energy and Economic development within BIA. We oppose this 
move. The Office of Indian Energy and Economic Development is 
not a permitting agency like BIA. The office provides funding 
and technical support to tribes. The office works at the 
assistant secretary level and is able to move funds and staff 
quickly to address the needs of tribes and changing market 
conditions.
    For example, just a few years ago, the RBI agency was 
buried under an energy permitting backlog. This backlog limited 
our ability to produce oil and gas and limited our revenues. To 
solve the problem and get permits flowing, the office provided 
teams of energy experts that were able to reduce BIA backlogs. 
BIA should focus on its core mission of processing energy 
permits. BIA needs staff and expertise in its agency offices to 
support permitting on the ground. BIA also needs full funding 
for its Indian Energy Service Center in Denver. BIA has a 
different mission than the Office of Indian Energy and Economic 
Development.
    Finally, we ask that you protect funding for the Department 
of Energy's Tribal Loan Guarantee Program. The President keeps 
trying to eliminate this program. This is the only Federal 
program that helps tribes access capital for commercial-scale 
energy projects. In my remaining time, I want to stress the 
importance of funding for tribal justice systems and 
healthcare.
    We have done our part. We have used $36 million of our own 
funds to build a new justice center. We also revised our law 
and order code to get tough on gangs and drugs, but we can't 
enforce our laws because BIA lacks the funding to fully staff 
the justice center. Instead, BIA uses Federal funds to put 
offenders in county jails. Even worse, BIA tells our tribal 
judges to slow enforcement of warrants because BIA is running 
out of money to put offenders in county jails. This means they 
are released back into our communities.
    We have a similar problem in the area of healthcare. Again, 
we are being forced to use tribal revenues to contract or 
construct a new village and dialysis center. There is a little 
visual for you to look at.
    Ms. McCollum. Bring it up on up here so----
    Mr. Stewart. I am sorry. This is where?
    Mr. Chapoose. It is on the reservation. It is an elder 
dialysis center because we are funding that ourselves. IHS says 
it is authorized to do dialysis center treatment, but Congress 
is not providing the funds. Instead, IHS uses referred care 
funding to send tribal patients the non-Indian dialysis 
centers. We estimate the cost, $43,000 per patient per month. 
In addition, our dialysis staff are forced to spend time 
transporting patients rather than caring for them. This makes 
no sense.
    Congress must provide the funding needed for tribal justice 
systems and healthcare. Congress should also direct agencies to 
use Federal funds at tribal facilities not in border towns. The 
Ute Indian Tribe asks the subcommittee to focus its efforts on 
funding Indian energy, justice system, and healthcare. We need 
your support in each of these areas. Thank you for the 
opportunity to testify. I am willing to answer any questions 
you may have.
    [The statement of Mr. Chapoose follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms.McCollum. Thank you. Please go ahead.
                              ----------                              

                                        Tuesday, February 11, 2020.

                  STOCKBRIDGE MUNSEE MOHICAN COMMUNITY


                                WITNESS

HON. SHANNON HOLSEY, PRESIDENT, STOCKBRIDGE MUNSEE MOHICAN COMMUNITY
    Ms. Holsey. Good afternoon, Chairwoman McCollum and ranking 
members of the subcommittee. My name is Shannon Holsey. I am 
the president of the Stockbridge Munsee Community. It is my 
pleasure to be here today to provide testimony on behalf of my 
people with regards to the need for mandatory appropriations 
for the Bureau of Indian Affairs, and certainly the critically 
important process of taking land to trust.
    As many tribal governments, mine is no different in regards 
to our membership, which largely relies upon the combination of 
Federal funding and gaming dollars. For my community, the 
Stockbridge Munsee, our tribal government budget comes from 
gaming dollars, and the funding source allows for not only 
expansion of services for healthcare, our police department, 
our emergency responders, and also funding for our memberships 
for education and training opportunities. This is why time is 
of the essence for the funding from the Federal Government that 
will allow our tribal governments to invest in a diversified 
economy. Being able to plan years in advance due to stable 
Federal Government funding of its trust responsibilities to 
tribes allows tribes to engage in long-term planning and 
financial stability that is crucial for a successful, 
diversified economic project.
    In 2019, I don't need to tell you the government shutdown 
was the longest in the United States history, and it is only 
the most recent example of Federal budget processes that 
jeopardize not only our health, safety, and well-being of our 
tribal citizens. Tribal nations must regularly overcome 
uncertainty when planning and providing services to the 
citizens because of the political impasses related to Federal 
special spending. For instance, since 1998, there has only been 
1 year, in 2006, in which the Interior, Environment, and 
Related Agencies appropriations bills has been enacted before 
the beginning of the new Fiscal Year. Often, the partisan 
debates affecting the appropriations process has an outsized 
impact on the daily lives of our people, who already face under 
funding healthcare, education, backlogs of physical 
infrastructure, all of which all fall under the Federal trust 
responsibility.
    Congress must prevent political impasses from jeopardizing 
the provision of adequate quality services in tribal 
communities, such as healthcare, law enforcement, and child 
welfare, by passing legislation authorizing advanced 
appropriations for Indian Health Services and the Bureau of 
Indian Affairs. And I also want to thank Chairwoman McCollum 
for the proposed current legislation, the Indian Programs 
Advanced Appropriations, which I think will play a significant 
role in stabilizing our government. Also, the Health Services 
Advanced Appropriations, which is much needed for the 
appropriations of Indian Health Services and our Indian health 
facilities accounts.
    The best way Congress, and, specifically, the community can 
assist in driving diversified economic development in Indian 
Country is by you all doing your part with the extraordinary 
job of finding many years and many ways to provide funding for 
our tribal needs, often exceeding the Administration budget. 
This is very much appreciated, and it is clear that you all 
recognize the need that we have and the trust and treaty 
responsibilities of the United States. Unfortunately, the 
pressures of the Federal discretionary budget are great and 
increasing, and will the impact the necessary funding we need 
to stabilize our tribal governments.
    To illustrate the need for this, we need adequate 
appropriations, but, most importantly, the land-into-trust 
application, which can obviously be very, very cumbersome, 
especially as it relates to the regulations currently outlined 
in separate processes for on-reservation and off-reservation 
applications, as well as the administration appeal that can at 
least take two levels of administration. I feel the 
appropriations of this fee-to-trust process must be mandatory, 
specifically because the Federal Government has a trust and 
treaty responsibility, but also because of the time constraints 
that are associated with this. Ideally, it takes 1 to 2 years, 
but in our instance, it has taken sometimes from 9 to 10 years 
in most instances because of the two application fee-to-trust 
process, which also gives the validity of the local 
municipalities and townships to weigh in with the appeal 
process that causes pending implications to that.
    So I will say this. I shared the background specifically 
because of the complexity of it, and also because of the 
multiyear process need to create consistent appropriations, not 
only for the purposes of the tribes, but also to ensure the 
staff has the necessary time and attention that is needed for 
the Federal Government to fulfill their obligations. We also 
need funding and adequate staffing of trained Federal employees 
at all levels of the fee-to-trust process to keep it moving 
smoothly and quickly. For example, we suspect the processing of 
fee-to-trust applications was slow at our agency because of 
current staffing issues or limitations to staff. We had 
previously two employees working now. They have been vacated 
and they have moved to a new region.
    So with that said, I thank you very much for your time and 
your consideration.
    [The statement of Ms. Holsey follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you. Mr. Fox.
                              ----------                              

                                        Tuesday, February 11, 2020.

                    MANDAN, HIDATSA, ARIKARA NATION


                                WITNESS

HON. FRED FOX, COUNCILMAN, MANDAN, HIDATSA, ARIKARA NATION
    Mr. Fox. Good afternoon, Chair McCollum and ranking 
members. My name is Fred Fox. I am elected councilman on the 
governing body of the Tribal Business Council of the MHA 
Nation, serving as the representative for the White Shield 
segment on the three affiliated tribes of Fort Berthold 
Reservation. Our chairman, Mark Fox, could not travel to be 
here today, so he asked me to testify on his behalf and behalf 
of MHA Nation.
    Our good news at MHA Nation has also created bad news. The 
MHA Nation has experienced an explosion of economic activity on 
our reservation in recent years from oil and gas production. 
That growth has brought with it an explosion of our reservation 
population, combined with our phenomenal growth, has completely 
stressed our reservation infrastructure beyond its breaking 
points. Years of BIA neglect of our roads, bridges, and public 
safety programs is now compounded by the pressure of rapid 
growth. We not only need to replace our old transportation 
facilities, we also must expand the transportation system to 
accommodate our growth.
    The MHA Nation is in the middle of the Bakken formation 
with one of the most active and productive oil and gas 
formations in the United States. Much of our infrastructure 
needs to come from the pressure of the heavy equipment traffic 
necessary for oil and gas work. The intense congestion on our 
poorly-designed roadways poses an increasing threat to our 
reservation highway safety. In the next decade, we estimate the 
MHA Nation will need $3.6 billion to repair our transportation 
system and keep pace with our projected growth.
    We need to increase Federal funding to support reservation 
public safety at Fort Berthold. Our tribal law enforcement 
officers already handle 14,000 calls each year, and our crime 
rate is growing as fast as our economic development. Without 
more funding from Federal law enforcement resources, we cannot 
handle the influx of unsavory characters and drug dealers that 
are flooding our reservation as our economy expands. We built 
our own drug treatment facility, but need operational funding 
to go along with additional funding for many more police 
officers, investigators, drug counselors, and equipment to 
support their work.
    The solution is not just mere Federal money. The MHA Nation 
has committed much of its new resources to building our 
reservation and making it a safe and healthy place for our 
people. But our capacity to help ourselves is hobbled by the 
dual taxation that keeps our tribal government from realizing 
the fair and full benefit of all this economic development 
activity on our lands. The State of North Dakota taxation of 
our reservation resources diverts our reservation money away 
from solving our reservation challenges. It is long past time 
for the Congress to change Federal law that now allows the 
State of North Dakota to place a dual tax, in addition to the 
tribe's own tax, on the development of energy resources within 
the Fort Berthold Reservation.
    So long as this Federal law stands unchanged, our efforts 
at solving our problems will be sharply limited, and you will 
find our reasonable request for additional funding unbearably 
high. We ask you to work with other committees of Congress, 
including the Ways and Means Committee, to eradicate this 
mistake in Federal policy that permits North Dakota to impose a 
dual tax on tribal resource development as North Dakota piles 
up billions of dollars in its legacy and rainy day funds. That 
tribal money should be left with our tribe to spend on our 
reservation roads, law enforcement, healthcare, housing, and 
other infrastructure so critically needed by our citizens.
    If the subcommittee invests now in additional Federal 
funding and simultaneously compels the Congress to end dual 
taxation, our MHA Nation will be able to make our reservation a 
safer place to live. It will also significantly reduce our need 
to keep coming back to you for more Federal funding in the 
future. Thank you for this opportunity to testify.
    [The statement of Mr. Fox follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you. Mr. Stewart.
    Mr. Stewart. Thank you, Madam Chairwoman, and for all of 
you, thank you for being here. It is, I think, a great panel. 
You bring up different issues, and many of the others have, at 
least in the time I have been able to be here. And, Mr. Fox, I 
am going to say something very quickly to you, then you will 
forgive me, Mr. Chapoose, I want to spend the primary amount of 
my time with you both of us coming from Utah and the Ute Tribe.
    Tell me, you know, you sit on, as you said, one of the 
largest oil fields in the United States. You talked about this 
has been a good thing, but a bad thing that has brought its 
challenges. On the whole, has this been good for you, and what 
has it meant to the tribes? You know, you talked about some of 
the challenges, but what has it meant in a positive fashion as 
well
    Mr. Fox. The positive fashion is not only have we, you 
know, have increased, I guess, activity and crime and road 
damage, you know, to our Federal roads, we have also had really 
good resources put into education. We have built several new 
schools on our reservation. Our reservation had schools built 
back in 1957 and 1958 when we were flooded by the Pick-Sloan 
Act. And our schools were probably 60 to 70 years old at the 
time, and so most of our communities have had the opportunity 
to have new schools in----
    Mr. Stewart. Do you have trouble recruiting teachers and 
staffing your schools?
    Mr. Fox. That is one of the bigger problems because a lot 
of the teachers would like school housing, and we are not able 
to offer that housing to give them. But we are slowly getting, 
you know, ahead on the game trying to provide that housing, 
but, you know, it is a long time coming, so.
    Mr. Stewart. Yeah. Yeah. Shaun, if I could, you said 
something about dialysis, for example. You talked about some of 
the medical needs.
    Mr. Chapoose. Yes.
    Mr. Stewart. And I think you said it is $43,000 a month per 
person? Is that true?
    Mr. Chapoose. Per person, yes.
    Mr. Stewart. If you were to provide your own facilities, 
what do you think it would cost you then? How much could you 
save by doing what you guys would hope to do that in?
    Mr. Chapoose. Well, I don't think you are going to save 
nothing. It is just that Federal dollars right now that 
normally would be infused to help the tribe itself, they are 
being spent off reservation. So with our tribe, in particular, 
you know, we are in a position where we are going to commit our 
own dollars to build this facility.
    Mr. Stewart. Yeah.
    Mr. Chapoose. But if you don't fund the Federal side of it, 
it is kind of like you have got the greatest building in the 
world, but you have no way of operating it, right?
    Mr. Stewart. Yeah.
    Mr. Chapoose. And that kind of goes along with, you know, 
like I stated before, we built a justice center, you know, a 
$38 million justice center, state of the art. But it still 
requires----
    Mr. Stewart. And you did that facility with your own 
internal dollars.
    Mr. Chapoose. Yes, we have always because, you know, we 
understand the need and, you know, our tribe, we are fortunate, 
you know. We are an oil and gas tribe.
    Mr. Stewart. Yeah.
    Mr. Chapoose. But we have also realized that, you know, 
sometimes we are not going to get that assistance from the 
Federal Government, so we have an obligation as tribal leaders 
to use our resources. And so we do that with the understanding 
that, you know, we are going to come back here to the Federal 
level, and they are going to help at least provide staff for 
the agreement they made with us. But when it comes down to it, 
what happens is usually them funds are cut first. They take 
them off.
    Mr. Stewart. Yeah.
    Mr. Chapoose. So we are committing our own dollars to 
fulfill the obligation that we created when we ceded our lands 
and stuff, and it is frustrating, but at the same time, we know 
it is important. But we rely on you guys at this level, you 
know, to remind them that tribes are putting forth the effort, 
you know, and you have your responsibility on your side to at 
least provide them services and quit cutting them.
    Mr. Stewart. Yeah. I appreciate that, and I want to clarify 
one thing. In this facility, you showed us a map. Did you have 
some dialysis rooms in that building?
    Mr. Chapoose. Yeah, this particular one actually goes 
beyond just the dialysis center. It is an elder facility and a 
dialysis center.
    Mr. Stewart. Yeah.
    Mr. Chapoose. And so when we do it, because, you know, when 
you start spending them type of dollars, you know, addressing 
one need doesn't solve your problem, so when you have the 
opportunity, you attempt to, you know, capture all of it. And 
what you will find is most of the dialysis patients happen to 
be the elderly people on the reservation.
    Mr. Stewart. Sure.
    Mr. Chapoose. And I think this is a real important 
discussion is, the healthcare system isn't designed to actually 
keep them healthy. It is designed to keep them alive, if you 
want to be truthful.
    Mr. Stewart. Yeah.
    Mr. Chapoose. And so a lot of the diabetes that we are 
starting to encounter on reservations is due to the inadequate 
health service itself.
    Mr. Stewart. Yeah.
    Mr. Chapoose. So we are trying to address the elder 
population as well as the diabetes and other programs in that 
one facility.
    Mr. Stewart. And let me do one more very quickly if I 
could, and I think it mostly concerns some tribes in southern 
Utah, but it may be some of your band as well, and I don't know 
the answer, and maybe you can help me understand that. But in 
southern Utah, we had EMS services, helicopter services, that 
were, you know, providing rescue and emergency evacuation to 
the tribal territories. But, I mean, my gosh, it was a long way 
to go, and, in some cases, the only way they could get someone 
who was an emergency and just didn't have time to go over the 
roads and others. And they have had to cut back just because, 
as I think you probably know, some of the reimbursement rates 
just weren't sufficient for them, and that was, again, through 
BIA. Have you experienced those same problems? I think in 
northern Utah, you probably haven't, but I just want to confirm 
that hasn't been a thing for you.
    Mr. Chapoose. I don't think we have the same problem 
because you are talking more like the Navajo Nation down in 
that rural are where, you know, they are still running----
    Mr. Stewart. In the Four Corners area.
    Mr. Chapoose. Yeah, they still have got the unimproved road 
system.
    Mr. Stewart. Yeah.
    Mr. Chapoose. But we feel the same impacts, not the same 
way they do. But the simple fact is the cost associated with 
providing service has not kept up with the economics of the 
service. And so what happens is they have limited dollars, and 
so they kind of pick and choose what meets the criteria under 
the pot of money they have, so somebody gets lost in the 
cracks. And then when you expend dollars, like if our tribe was 
to put money out, then we have to fight tooth and nail to 
actually recover what we have put out. So, you know, it is 
interesting how you are still operating or trying to provide a 
service, but cutting the dollars that provide it and not taking 
into account the costs associated with it, so.
    Mr. Stewart. Yeah. All right. Thank you. I yield back, 
Madam Chair.
    Ms. McCollum. I have got a couple of different ones. Could 
I ask both you and Mr. Fox about the Administration's proposed 
removal of the Division of Energy and Mineral Development, to 
put it under the BIA? I should assume that you were consulted 
on that. You are shaking your head no. I mean, obviously you 
know why it is not going to work, and you are supposed to be 
consulted.
    Mr. Chapoose. Well, I will go first. The consultation we 
received was we went to a listening session yesterday.
    Ms. McCollum. Oh, yesterday.
    Mr. Chapoose. Yeah, actually the first word I heard about 
it was yesterday. I was at the NCI thing, so there was a 
listening session. Well, you know as well as me, listening 
sessions aren't consultation. So they proposed it. They had 
their great plan in front of us, and then they proceeded to 
tell us, but by the way, we have all these scheduled 
consultations in various locations, and if you really feel the 
need, you need to attend them here. Well, the dilemma with that 
is Indian Country is big. We all know this, right? And like a 
consultation location, the cost for me to attend that and then 
get in a room where you have got everybody in the room, the 
chances of actually getting something forward, it don't go 
nowhere.
    And so we constantly stress this, that true consultation 
from the agencies needs to occur at the tribal level. They need 
to go to each tribe, you know, because we are not the same. We 
have different, you know, issues and stuff. But they really 
need to take the time to go to the tribes themselves and have 
true and formal consultation. But the only thing, like I 
stated, was I went to the meeting, and the way they peddled it 
to me was more or less it was a done deal. We were just there 
for the show, so.
    Ms. McCollum. Okay. Mr. Fox.
    Mr. Fox. That office, the Office of Energy, I guess it was 
one of our main offices for having a petroleum engineer. And 
when we have petroleum engineers inside that office, it gives 
us access to many, you know, maps. And I guess their views on 
our reservation on development, and where it is going, and how 
they can give us their expert opinions, and giving, you know, 
that resource that is much needed in Indian Country, is we 
don't have that availability to hire petroleum engineers and 
all these staffing on our reservation. And not every petroleum 
engineer is going to say, hey, I want to work in Fort Berthold. 
I want to work where----
    Ms. McCollum. Right.
    Mr. Fox [continuing]. You know, there is no housing. So it 
is tough for us when we are losing, you know, an office with 
petroleum engineers and other technical staff, and then put it 
under the Bureau of Indian Affairs where it gets pretty much, 
you know, swept under the rug. And a lot of times, you know, it 
is a major office that we are losing, and with the reservation 
with 1,700 wells that were developed in the last 5 years, it is 
a major, major hit to us.
    Ms. McCollum. I wish I could say it is surprising, but it 
is not. We went through this with the Department of Interior 
reorganization. I am sure you were not consulted on what is 
happening now with BLM with their relocation. And this 
committee has made it very, very clear to the Administration 
when they are here, they are to follow the law, which is 
consultation. Recently they figured out just, they just do it. 
They just move things on their own and move money around on 
their own, and we are trying to put a stop to that because we 
want the law to be followed. And when we appropriate money in 
certain accounts, especially in Indian Country, we expect that 
that is where it is going to go after hearing from their 
testimony. So thank you for that, and as I had mentioned 
earlier, one of the reasons why I like doing this at this time 
early is so that when the Administration is before us and 
defending the President's budget, we can pass on your 
questions, concerns, and comments.
    Mr. Norris, I wanted to ask you, it appears to me you have 
got a real good handle on how much it is costing you to 
supplement. You are supplementing what Customs and Border 
Patrol is not doing. It wouldn't be a good thing for the tribe 
if you stopped it from not happening, but if you weren't there 
doing it, Customs and Border Patrol would have to do it, would 
they not?
    Mr. Norris. Well, I would expect----
    Ms. McCollum. I mean, if you were to say to them we are 
going to give you access to BNLI to carry out your mission, but 
we are not going to do it, you know. I am trying to figure out 
how to get the funding back to you because you shouldn't be 
supplanting Federal U.S. Customs and Border. It should be 
transferred back, and Congress has kind of talked about it 
doing it, but it appears it is not happening, a 30-year police 
force, the roads, other things like that. So you have got a 
pretty good handle on the accounting on that?
    Mr. Norris. Yes, we do, and at least for law enforcement, 
we are, like I said, spending about a third of the law 
enforcement budget, which is about $1.6 million annually. The 
autopsies that we are having to deal with are about $2,600 per 
autopsy, and there could be a variety of autopsies in one 
particular month. You would expect that, we would expect that, 
the Border Patrol would assume a lot of that responsibility. My 
experience has been, and I have worked for my nation for over 
40 years now, and this is my third term as tribal chairman 
dealing with this. And it is sort of like if they don't have a 
physical body, a live body, to deal with, or if they have got 
migrants that are needing medical attention, they basically 
take them to the Indian Health Service hospital and basically 
leave them there. And then we are obligated to provide the 
medical care attention to those migrants.
    As far as the autopsies, you know, if they have got a 
deceased migrant out there that they have recovered the body 
on, they don't assume any of that responsibility. And many 
times, it is important to put some closure to whether it was a 
medical issue, whether it was an exposure issue, or whatever 
the cause of death was. And so many times, if not always, those 
debts are turned over to the nation's responsibility.
    Ms. McCollum. Well, you have given me food for thought. I 
want to find out if the border States, in fact, are beginning 
to reimburse back, or if the States are absorbing the costs, 
because if, and I don't know this. I don't serve on that 
committee. They are right next to door to us. I am going to 
find out. If the States are reimbursed, if they are reimbursed, 
you certainly as a tribal nation under sovereignty, you should 
be reimbursed.
    Mr. Norris. And the whole issue with regards to the roads, 
the road conditions, I mean, the Border Patrol has increased 
significantly on our tribal reservation, and there are pros and 
cons about that.
    Ms. McCollum. Right.
    Mr. Norris. You have got members that accept it and those 
that haven't. But for the most part, they are the primary user 
of our BIA roads, and they wear and tear the roads more so than 
our own tribal members. And so part of the question was a legal 
question because we were trying to do what we could do to work 
with the Border Patrol to try and fill potholes, to try and do 
some maintenance on the roads. And many times the Bureau would 
come back and say, well, you are creating a liability for us, 
for the Bureau because this a Federal Indian reservation road. 
And if we as a tribal entity try to do some maintenance, it is 
creating the liability.
    But we have always known that they are not going to have 
the resources necessary. So even if we try to work out, and we 
have in the past, an arrangement with the Border Patrol where 
maybe the nation's community would buy the asphalt, and the 
Border Patrol agrees to fill the potholes, that is still a 
liability that is created. And so it is kind of a catch 21. We 
are danged if we do, and we are danged if we don't.
    Ms. McCollum. Mm-hmm.
    Mr.Norris. And so one of the ways was when the language was 
put in the Fiscal Year 2018 budget, which basically allowed for 
the Border Patrol and the BIA to receive some of those fundings 
to help maintain the roads, that has helped out quite a bit. 
But the problem is much more significant. We are only 
addressing one road, one Federal route at this point. We got 
735 miles of Federal BIA roads. And I would say that the 
majority of those roads are being traveled and used by the 
Border Patrol themselves, which damage the road and create this 
problem for us.
    Mr. Stewart. Would the chairwoman yield for a moment?
    Ms. McCollum. Yeah.
    Mr. Stewart. I agree with her contention on this 
reimbursement. I am wondering, have you requested 
reimbursement, and what has been the response?
    Mr. Norris. We have raised the concern. We have spoke 
before different committees, we have spoke before our 
congressional delegation, and we just haven't gotten anywhere 
until the Fiscal Year 2018, which helps a little bit.
    Mr. Stewart. Yeah.
    Ms. McCollum. Mm-hmm. Anything you want to add?
    Ms. Holsey. No, and I appreciate the fortitude of this 
committee and the members. Thank you for joining us this 
morning at NCAI. We understand the good work that you are 
doing, so whatever we can do. I appreciated the questions you 
asked about quantification because it is the economics of 
things oftentimes, and so the questions you asked the panel 
with regards to that is very helpful. So whatever we can do to 
quantify or extrapolate that information is very helpful for 
us, too.
    Ms. McCollum. Mr. Amodei.
    Mr. Amodei. Thank you, Madam Chair. President Holsey, you 
were talking about from trust to fee and all that, so that is 
something that the folks in my neck of the woods have had a 
problem with, with real estate.
    Ms. Holsey. Right.
    Mr. Amodei. And the problem that they have had is it is, 
like, okay, you have paid, you know, your deal off, and so you 
are waiting for it to be conveyed.
    Ms. Holsey. Right.
    Mr. Amodei. And you are waiting.
    Ms. Holsey. And waiting.
    Mr. Amodei. And you are waiting, and it is like, well, it 
is your property supposedly, but I can't go get a loan on it if 
the title is not in my name.
    Ms. Holsey. Right.
    Mr. Amodei. And so my question is, if anybody can pipe up 
here, but I want to start with you since some of this is about 
land, is, I mean, we have had lag times from 5 to 10 years, and 
this is a simple lot.
    Ms. Holsey. Right.
    Mr. Amodei. This is not large amounts, casinos, anything 
else like that. It is just, hey, I now own a piece of ground 
that I can build a home on.
    Ms. Holsey. Right. Well, it creates an infrastructure 
problem because of that delay or delayed response to that 
because it is the multifaceted, multi-analysis of putting fee 
to trust. So with that said, you continue to pay the taxes on 
that land until it becomes trust. So there is still the 
economics of it, so----
    Mr. Amodei. So what is your time frame, though, in your----
    Ms. Holsey. Ours on average is 10 years because we have the 
local municipalities that oppose and appeal, so there is an 
appellate process that continues on for years. And then, of 
course, you know, when you have vulnerability within the agency 
because there is either lack of staff to do it, to process it, 
or they have moved.
    Mr. Amodei. So when you say ``the agency,'' so my people go 
through Phoenix and Albuquerque.
    Ms. Holsey. Our regional office is in Ashland, but then, 
you know, but----
    Mr. Amodei. So it is not different in that neck of the 
woods than it is in mine.
    Ms. Holsey. No, but they have just shifted. There has been 
a significant shift of the staff. For example, we had a 
regional agent. She is a tribal member named Kim Bouchard. She 
was with our agency since she started. Now they have moved her 
to the national region. But I am under the auspice that perhaps 
it is intentional because then it creates more chaos. It takes 
more time, and there is not the continuation that once existed 
or the relationship working with your agency partners in order 
to facilitate that, because, you know, in the rulemaking 
process, they have that ability to appeal, you know. And we 
keep telling them we are not sub-sovereigns to the State or a 
local municipality. We are sovereigns, so there is always that 
issue or challenge associated with it.
    So you are talking about, you know, you can't really make 
any plans because you figure if it is 10 years, I can't create 
or deem it for agricultural purposes, for economic development, 
or anything else because----
    Mr. Amodei. You paid for it, but you don't own it of 
record.
    Ms. Holsey. Absolutely. Absolutely.
    Mr. Amodei. So is it fair to say that you are experiencing 
the same problem in your region or whatever?
    Ms. Holsey. It depends. There are some tribes, based on the 
municipality or the county they live in----
    Mr. Amodei. They do their own?
    Ms. Holsey. Yeah.
    Mr. Amodei. Yeah. There are some in southern California. 
How about the rest of you chairmen here?
    Mr. Norris. I would just like to comment that we are not in 
a predicament right now that has been described. But I can 
share with you that even under mandatory acquisitions where you 
have got a settlement, a mandatory settlement, and the language 
is that you shall take the land into trust, even in our first 
settlement acquisition of land, that process where the language 
was ``you shall the land into trust, and it shall be deemed a 
Federal Indian reservation for all intended purposes.'' Our 
first acquisition under our settlement law took 10 years, even 
though it was a mandatory acquisition.
    Mr. Amodei. Okay.
    Mr. Norris. So, you know, I am not sure why it took so long 
for that first acquisition to take place, but that was our 
experience.
    Mr. Amodei. Yes, Chairman.
    Mr. Chapoose. We have been dealing with the land-into-trust 
issue forever, and it does take forever. I mean, children are 
born before it happens, right? And what happens is for like our 
tribe, for instance, you know, a large tribe, we have a mineral 
ownership below. We purchase the surface. So you are trying to 
consolidate. You are trying to make yourself whole, right? And 
in Utah, what you always got to remember is you got 
jurisdictional issues that are created over ownerships. So you 
are trying to consolidate land to define boundaries so that we 
have law enforcement and stuff. But because the land-into-trust 
process is so cumbersome, it just takes one person out of the 
blue to throw a wrench into gear. And then tribes who are 
limited on resources to begin with, right, I mean, some of them 
are spending a lot of money to acquire these acreages because 
they are in critical locations.
    And so our experience has been it is a mess, right, and it 
was always written into law, you know, in 1934 actually, you 
know, the land-into-trust policy existed. And we are one of 
them tribes that was part of that, so you are thinking, well, 
you got a clear route, but it does not exist, and you just run 
into roadblock after roadblock.
    Mr. Amodei. And I appreciate----
    Ms. McCollum. Mr. Amodei, I will let Mr. Kilmer question 
before we leave.
    Mr. Amodei. Just one real quick. When you referred to the 
briefing you got about oil and gas, who was briefing you?
    Mr. Chapoose. Actually it was some people from, I think it 
was the EMD-side.
    Mr. Amodei. Of Interior?
    Mr. Chapoose. Yeah, and I think what is funny is because I 
think people forgot, when that was introduced, our tribe was 
one of the pivotal writers to try to create this quick 
permitting system.
    Ms. McCollum. Right, I remember.
    Mr. Chapoose. So we figured this all out, and now they are 
reinventing the wheel, and then we will wind up going back. And 
then to move archives and the technology that he is talking 
about, you know, all you are doing is delaying the process even 
more, so.
    Ms. McCollum. Mm-hmm.
    Mr. Amodei. Thank you.
    Ms. McCollum. Yeah, I agree. Mr. Kilmer.
    Mr. Kilmer. Thank you.
    Ms. McCollum. Okay. Well, the hearing stands adjourned 
until the call of the chair after the last votes. Oh, I am 
sorry, recess. That is right. We are not adjourned. We are in 
recess until the last vote and the chair comes back. Thank you.
    [Whereupon, at 1:45 p.m., the committee recessed subject to 
the call of the chair.]
    Ms. Pingree [presiding]. We will come to order, and we will 
start with our second panel for the afternoon. Welcome. Thank 
you all for waiting. I know we are a little delayed because we 
had votes, so we will try to get going and keep moving. And we 
are not going to going to introduce anybody this afternoon. We 
will just have you go ahead and start, and give us your 
testimony, and talk about yourselves, and that will save a 
little time from me talking about all of you. You can talk 
about all of you.
                                        Tuesday, February 11, 2020.

    FOND DU LACK BAND OF LAKE OWGIBWE TRIBE OF LAKE SUPERIOR INDIANS


                                WITNESS

HON. KEVIN DUPUIS, FOND DU LACK BAND OF LAKE OWGIBWE TRIBE OF LAKE 
    SUPERIOR INDIANS
    Mr. DuPuis. [Speaking native language.] Hello, everybody. 
Thank you for this opportunity. In our language, we are always 
taught to speak in our language when we introduce ourselves, 
and I believe that everybody has what Fond du Lac has sent in. 
So I am not going to talk what is on the paper because I think 
everybody has the time to read that and review that. I want to 
talk about the real issues that are there, not just the things 
that are on paper.
    First I want to talk about CWD, chronic wasting disease. It 
has severely affected the State of Wisconsin, all over 
Wisconsin. It is moving into Minnesota now, which that 
definitely affects our 1854 ceded territory. Minnesota is 
broken up into ceded territory all the way across the State, 
the 1854, the 1855, and the 37 which goes into Wisconsin.
    We have spent a lot of money to deal with our issues within 
our natural resource department. This is another pot of money 
that we are going to have to spend to maintain testing, to do 
testing, to find a way to get rid of the carcass of these 
animals. But, most importantly, I want to address this issue. 
If this were beef cattle, chickens, turkeys, or whatever it 
would be, Federal law says you have to wipe out the entire 
population. So I am asking why an individual farmer who owns a 
deer farm or elk farm in CWD, it is found in that, why are they 
not wiping out that entire population? It is affecting our way 
of life, and we here as tribal leaders raise our hand to our 
people and make a vow to our people. And we can't protect our 
people if the United States government is going to allow double 
standards on issues in this manner, which it affects everybody.
    The question was we didn't know what CWD really was. We 
brought in the experts. They sat down with us and told us what 
CWD is. And for the ones who don't know what, take an 
understanding of a parvo that affects dogs, right? It is a 
disease that stays down dormant in the ground up to 7 years. 
Same thing with same thing with CWD.
    It is our way of life. If we can't eat the animals the 
Creator gave to us, then we cease to become who we are as human 
beings, as Anishinaabemowin. This has to be addressed. It has 
to be looked at on the other side of it. There has to be 
regulations put into place. Who is going to take care of this, 
and why are these independent farms are not wiped out 
completely? If you have a disease that we don't know how it 
affects humans, or if you end up with infections because the 
only way they can test it when the animals dead, that is a 
serious issue.
    We don't know about the birds of prey and the other animals 
that feed on these dead animals and travel throughout our 
communities and through the ceded territory. I was a trapper 
since I was 5 years old. I can't trap him anymore. I can, but 
you are worried about it because you don't understand what this 
is.
    We are giving the deer and other animals to eat from the 
Creator, and if we can't eat these animals, it is like rice. If 
we can't eat the rice, one of my arms leaves. If we can't eat 
the animals, the other arm leaves. If we can't drink the water, 
one of my legs leave. If we can't take the stuff that grows in 
the woods that the Creator gives us, my other leg leaves. I 
cease to exist as a human being. And these are very, very 
important things that exist within us right now.
    It is a big concern that we have. I can't speak for another 
band or tribe, but it is a concern, and it is a concern in a 
manner that we ask why CDC is involved. The question and the 
answer was if this would be a beef cattle farm, if this would 
be a turkey farm, if this would be chickens or whatever it is, 
domesticated that they sell in a store, CDC would be involved. 
But since they don't sell these animals in stores, the CDC 
isn't involved.
    Well, there is a trust obligation from the Secretary of 
Interior down within the structure of the United States 
government. My question is, where is the Secretary of Interior 
to ensure that our treaty rights are being upheld? This 
directly affects the ones who have treaties and established 
treaties with the United States government. And the ones who 
have that ability and that right to hunt fish and gather as 
they choose, this is affecting in that manner to all of us, and 
it is a big concern for Fond du Lac and the Minnesota Chippewa 
Tribe.
    So the six collective bands that belong to the Minnesota 
Chippewa Tribe, and Fond du Lac is one of them, and I believe 
all the way to Michigan actually, we have that right to hunt 
fish and gather all the way to Michigan. And I am in fear that 
if it gets to a point where I think it is going, we are not 
going to be able to eat the deer. And when my family is hungry 
or another family is hungry, I can't go get them an animal 
because they are not able to eat it.
    One of the other things I want to talk about in simplicity 
is the Clean Water Act. In Minnesota, everyone understands what 
the Federal allowed is, 10 parts per million. It is not being 
exercised in the State of Minnesota, and there are always ways 
that people are trying to change this regulation. It is simple. 
If I can't drink the water, nobody can drink the water. If I 
can't eat the fish, nobody else can eat the fish. How hard is 
that to understand, and why we are having so many problems to 
get in this fix and get in the order the way it is supposed to 
be?
    Whereas tribal leaders come and we talk, and we write 
things down, or we have attorneys write things down, and the 
same thing comes over and over, I am here today to just talk to 
one simple thing. If it is that simple, and it is, why hasn't 
it changed? If you can't drink the water, I can't. If you can't 
eat the fish, I can't. So why is this so hard to understand 
that we are all human beings. We have a right to eat. We have 
the right to drink fresh water, and we have the right to 
breathe clean air.
    Again, sorry. Megwitch.
    [The statement of Mr. DuPuis follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Pingree. Thank you very much.
    Ms. Dana. Thank you for your time.
    Ms. Pingree. No. Thank you. Ms. Grussing.
    Ms. Grussing. It is Grussing. Thank you.
    Ms. Pingree. Grussing. Thank you.
                              ----------                              

                                        Tuesday, February 11, 2020.

       NATIONAL TRIBAL HISTORIC PRESERVATION OFFICERS ASSOCIATION


                                WITNESS

VALERIE GRUSSING, EXECUTIVE DIRECTOR, NATIONAL TRIBAL HISTORIC 
    PRESERVATION OFFICERS ASSOCIATION
    Ms. Grussing. Valerie Grussing, executive director of the 
National Association of Tribal Historic Preservation Officers, 
NATHPO. We are based in D.C. here representing a diverse 
membership across the country.
    I want to talk to you about just really one of the things 
that is in my written testimony, and briefly, first, I do want 
to mention an item that we have added new this year in addition 
to BLM's reorganization, which has already been mentioned here, 
was not consulted on. I have recently learned that of the 12 
State offices, each of which are supposed to have a tribal 
liaison position, 10 of those are vacant. And in addition, the 
headquarters tribal liaison position has been vacant so long, 
it has been removed from the org chart. So one of the things we 
are requesting is money to backfill those vacant positions. 
That is part of the problem with what we are seeing with that 
agency, just a part.
    But primarily, I want to talk to you about what our members 
do. Tribal historic preservation officers, THPOs, they are an 
exercise of tribal sovereignty. They are appointed by their 
governments, and they have an agreement with the Department of 
Interior where their funding comes from to assume a Federal 
compliance role of the State historic preservation officer on 
tribal land. And also they are available to be consulted on 
places off tribal land. They do this under the National 
Historic Preservation Act, and so this funding is in the 
historic preservation fund, which comes from oil and gas 
revenues, right, and it has never been fully appropriated at 
the level that it should be.
    They are, as I mentioned, an exercise of sovereignty, self-
determination. The plans that they have to get their funding 
from the Park Service, it is a grant that they have to apply 
for to get their apportionment. They are founded and grounded 
in traditional knowledge and cultural values, and, of course, 
they touch on everything that happens in Indian Country. They 
are first responders when a sacred site is threatened, when the 
ancestors are disturbed--we all know about that in the news 
recently--and they are often also responsible for their tribe's 
oral history programs, any museums or cultural centers that 
they may have. And they lead in the revitalization of 
traditions and languages and many other functions in Indian 
Country. And a lot of times, like myself, they happen to be a 
one-person show. If they have funding from additional sources, 
they may have a second staff member.
    NATHPO, my organization, we are a non-profit membership 
association. THPOs may choose to become members, and this is 
one of the primary functions that we perform, elevating their 
voice within Washington, D.C., and then coordinating, helping 
them coordinate among each other, and getting any education and 
training that they may feel they need beyond what they already 
have. There are 195 THPOs out of 574 federally-recognized 
tribes.
    The main thing I want to talk about is funding. So the 
first year that they received this funding was in 1996, and the 
average amount that each THPO received was $80,000. Last year, 
we received the biggest increase ever from the HPF, and that 
was $2 million total in the appropriation. That works out to 
about $5,000 more per tribe. There are more THPOs every year. 
So as opposed to that, $80,000 in 1996, 185 THPOs last year got 
$70,000. So we are going in the wrong direction, even though we 
have the total appropriated amount increasing. And I have a 
chart in my testimony that I have here in color for you to see 
as well, and the important line is the red one. Both the 
appropriation and the number of THPOs is going up, but if the 
appropriation doesn't go up much more than it is, then we have 
got the total amount that each THPO gets is flatlining. Seventy 
thousand dollars is not even an entire staff person.
    So this is the gap that we are talking about starting to 
close, and there are two primary talking points that I want to 
make, and one is about the importance of the work that the 
THPOs do. The epidemics that we see rampant in Indian Country 
are the symptoms of the cause of historical trauma. When you 
have people that are systematically disconnected from who they 
are as people from their heritage, then this is what we have. 
This is the work that THPOs do. They rebuild that framework. 
And the other thing is that if this Administration is truly 
interested in streamlining required environmental and historic 
review processes, and they are still required, then there has 
to be somebody there to pick up the phone, and that is THPOs, 
and they need funding.
    We are reminded recently of the importance of place by the 
ongoing atrocities at Tohono O'odham, literal destruction of 
ancestors. History, culture, identity, survival are grounded in 
place. Our members are charged with protecting those places, 
but they need support from you in the form of funding to 
continue the work that they do. Thank you for considering our 
testimony.
    [The statement of Ms. Grussing follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms.Pingree. Thank you very much.
                              ----------                              

                                        Tuesday, February 11, 2020.

                      CHEYENNE AND ARAPAHO TRIBES


                                WITNESS

HON. REGGIE WASSANA, GOVERNOR, CHEYENNE AND ARAPAHO TRIBES
    Mr. Wassana. Good morning, Chairman McCollum and 
distinguished members of the Committee on Appropriations, 
Subcommittee on Interior, Environment, and Related Agencies. I 
am Reggie Wassana, governor of the Cheyenne and Arapaho Tribes. 
We are 1 of 39 tribes in the State of Oklahoma. I appreciate 
the opportunity comment on our land trust and natural resource 
management. Today I would like to discuss land and trust 
issues.
    In general, it is my feeling that the land and the trust 
program still does not act expeditiously in the conversion of 
land held in other-than-land-trust status by tribes or 
individual Indians into trust status. I am here today because 
my tribe has been far less fortunate. Under the Medicine Lodge 
Treaty of 1867, the Cheyenne and Arapaho Tribes were assigned a 
total of 4.3 million acres of land. Today we only own about 15 
million acres, and of this amount, less than 11,000 acres are 
100 percent owned by the tribes. This greatly limits our 
opportunity for economic development, cultural preservation, 
and self-sufficiency.
    The Cheyenne and Arapaho Tribes are under the BIA Southern 
Plains Region, more specifically, the Concho agency, and it is 
important to note that we are the only tribe in the Concho 
agency's jurisdiction. Research going back 40 years has shown 
that the Cheyenne and Arapaho Tribes have never successfully 
placed 1 acre of land into trust.
    While the Cheyenne and Arapaho Tribes now work 
cooperatively with the BIA Concho agency and the Southern 
Plains Region agency, still the trust application process has 
proven to be burdensome due to unnecessary and unrealistic 
demands in the land description review portion of the 
application. The Cheyenne and Arapaho trust applications are 
frequently and significantly delayed and then returned because 
of standards applied by the Bureau of Land Management surveyor, 
and the rules for land into trust are not enforced uniformly.
    Over the past several years, the Cheyenne and Arapaho 
Tribes have purchased or acquired several properties in fee 
status that are within our original reservation boundaries, 
specifically, the tribes on prime tracts of land along 
Interstate 40 in Oklahoma and Towns of Gary, Oklahoma, El Reno, 
Clinton, and Elk City. Additionally, we own two different 
tracks in the northwest part of our original reservation in 
Woodward, Oklahoma, as well as other properties in fee status 
throughout our original reservation boundaries. Although our 
tribe has been unsuccessful at placing any land in a trust, the 
Department of Interior recently allowed the Shawnee Tribe of 
Oklahoma to place a 103-acre parcel of off-reservation land 
into trust on land that is contiguous our original reservation 
boundaries, and land that is 400 miles away from their actual 
homeland.
    Specifically, these four properties that range in 49 acres 
in Elk City, 91 acres in El Reno, a 1-acre lot block in Gary, 
Oklahoma, and 18 and Clinton, Oklahoma, have been denied and 
returned for further corrections, such as name of the tribe, 
legal description, purpose of use of land, tax concerns, 
possibility of contamination, four-tenths of a mile away from 
one property for instance, but not a report with cites 
reflective of such a case. We were made to pay back taxes when 
not required because none were assessed, but BIA required it 
being done. The solicitor in Tulsa agreed with the tribes that 
we did not have to pay that. This process in the meantime cost 
the tribes tens of thousands of dollars to fulfill.
    In conclusion, the Trump Administration has gone through 
great lengths in deregulation efforts to roll back red tape 
that has burned Americans and stifled economic growth. Today I 
am asking that the same effort of deregulation also be geared 
towards land-into-trust process. By making the land-into-trust 
process burdensome for Indian tribes, it is still stifling our 
economic growth. Many of our tribal nations are in rural parts 
of the country. Easing the burden of tribes placed in land into 
trust and protecting tribal areas will provide an economic boom 
for not only Indian tribes, but also for the rural communities 
that are near and within the tribe's reservation areas.
    At this time, I would like to thank all of you for allowing 
me to speak before you as governor of the Cheyenne and Arapaho 
tribes and as a tribal member. So I appreciate it graciously. 
Thank you.
    [The statement of Mr. Wassana follows:] 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms.Pingree. Thank you very much. Mr. Newland.
                              ----------                              

                                        Tuesday, February 11, 2020.

                       BAY MILLS INDIAN COMMUNITY


                                WITNESS

BRYAN NEWLAND, PRESIDENT, CHIPPEWA OTTAWA RESOURCE AUTHORITY, BAY MILLS 
    INDIAN COMMUNITY
    Mr. Newland. [Speaking native language.] I would say 
Megwitch to the chairman over here for reminding me of the 
importance to introduce ourselves in that way. And I want to 
co-sign everybody's comments before the committee, and thank 
you, Chairwoman and members, for allowing me the opportunity to 
testify.
    So I presently serve as the chairperson of the Bay Mills 
Indian Community, which is one of the five member tribes of the 
Chippewa Ottawa Resource Authority. Together, our five tribes 
were the signatories to the 1836 Treaty of Washington. That 
treaty ceded nearly half of the lands that comprise the State 
of Michigan today, and the signing and ratification of that 
treaty in 1836 paved the way for Michigan statehood just 1 year 
later in 1837. But in exchange for the big cession of our 
homelands, we reserved the right to hunt and fish throughout 
the ceded territories and throughout the ceded waters in the 
Great Lakes.
    Despite enjoying the benefits of that treaty for many 
years, the State of Michigan did not always respect the rights 
that our tribes expressly reserved in those treaties, which, as 
the members of the committee note, constitutes the supreme law 
of the land under the United States Constitution. In 
particular, the State of Michigan failed to protect our tribal 
citizens from violent attacks just for exercising the right to 
fish, and they even went so far as to arrest and prosecute our 
tribal members for exercising that treaty right to fish.
    So before I was born in the 1970s, the United States sued 
the State of Michigan to vindicate and protect our treaty 
rights, and the tribes, together with the United States Federal 
Government, prevailed in that case in 1979. It was the United 
States v. Michigan. Ever since that case, we have negotiated a 
series of settlement judgments together with the Federal 
Government to manage and regulate the exercise of our treaty 
rights, first, in 1985, then again in 2000, 2007, and we are 
going through the process again of working on another consent 
judgment.
    These judgments impose an obligation on the tribes with 
respect to how we manage and regulate our hunting and fishing 
rights under our treaty throughout nearly half the State of 
Michigan. So we have to cover a lot of grounds when we fulfill 
our responsibilities under those agreements. Now, Congress 
funds our obligations every year through a line item in the 
Interior budget known as RPI, rights protection implementation, 
and I want to make sure that I emphasize that the acronym, you 
know, we are in D.C., so a lot of acronyms get thrown around. 
But that acronym is important because it signals that the funds 
are to implement and protect the treaty rights. This funding is 
critical to ensure that our treaty rights, or our treaties 
themselves, excuse me, retain vitality for all of the parties, 
including the United States. And I do want to express the CORA 
tribes' appreciation for the committee and the Congress to work 
in a bipartisan way to continue to provide and protect this 
funding.
    CORA is asking that Congress increase CORA's share of the 
rights protection implementation funding by $1 million to $7.3 
million in the coming Fiscal Year and thereafter. I also want 
to make sure that I state that CORA understands that there are 
other tribes in different parts of the country that have 
similar treaty rights cases regarding fishing and hunting. And 
some of those folks are representatives who will be testifying 
today, and indicate that we also support their request that 
Congress meet their funding needs.
    The extra money that we are requesting going forward will 
work out to $200,000 per year per tribe. That will fund staff 
to enforce the regulations that we have to abide by under our 
settlement agreements in the U.S. v. Michigan case. It will 
also fund staff and research that protect the Great Lakes 
themselves. Without a healthy Great Lakes, there won't be any 
fish to harvest, and without any fish to harvest, the bargain 
in the treaty itself is hollow. So that research funding 
through the RPI line item will help us monitor invasive species 
and contaminants. It will monitor the fisheries themselves. It 
will also allow us to work directly with tribal fisheries in 
the exercise of their treaty rights.
    So, again, I want to say Megwitch. Thank you to the 
committee for allowing us to come today and testify on this 
important issue.
    [The statement of Mr. Newland follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Pingree. Thank you all very much for your testimony and 
for taking the time to come and speak with us here today. Mr. 
Kilmer, any questions or thoughts?
    Mr. Kilmer. No.
    Ms. Pingree. Mr. Joyce.
    Mr. Joyce. Thank you all for being here. Certainly, Kevin, 
I appreciate your comments and understand exactly what you are 
saying. Certainly CWD isn't limited to your lands. It is 
something we are fighting in Ohio as well, and I wish we would 
get some answers to it. We are going to continue to fight CWD 
on all fronts. Bryan, I understand that there has been a 
consent decree that has been worked out over the years. Is the 
U.S. Fish and Wildlife Service continuing to be helpful? Are 
they being constrained by their present budget in helping you?
    Mr. Newland. I can't speak to whether they feel 
constrained. I mean, really our goal----
    Mr. Joyce. Do you feel they are helping?
    Mr. Newland. Actually, to their credit, in the current 
process of working through the next iteration of management 
plans in this case, they have been helpful so far. I always 
make sure to include that qualifier, but really our goal is to 
work hand in hand with other agencies, including the State of 
Michigan and Federal agencies, to co-manage the resource 
because it is shared. But, you know, first and foremost, as a 
sovereign tribal nation, our goal is to do it well enough to do 
it alone if we had to, and so that is really what we continue 
to push for with this funding.
    Mr. Joyce. Again, thank you all for being here. I yield 
back.
    Ms. Pingree. Mr. Amodei.
    Mr. Amodei. Thank you, Madam Chair. President Newland, 
thank you for your presentation. Very well spoken. I really 
appreciate the fact that part of it was reminding those of who 
were born in the 50s that you were born in the 70s. [Laughter.]
    Mr. Newland. The 70s were before I was born, Congressman. 
[Laughter.]
    Mr. Amodei. Thanks for putting an exclamation mark----
    [Laughter.]
    Mr. Amodei. I can see there are some things that there are 
no cultural differences about. [Laughter.]
    Governor Wassana, you have talked about land. You included 
some stuff in your testimony, and I am just wondering if maybe 
one of the things that those of us that represent districts in 
the West where the United States government owns a lot of 
ground, occasionally we resort to a thing called the Lands 
Bill. And since none of this is happening very fast, which is 
not unusual for Indian Country, and we talked about the last 
panel about that, so I won't put you through that again.
    But I am wondering if perhaps maybe your tribes would be a 
good test case for this committee to say give us the stuff that 
you think has been in the hopper for however long. Give us the 
legal descriptions. Tell us what estate you want, and let's do 
a lands bill, and if that one works, there is probably some 
interest for some other sovereign nations. And so even if it 
took 5 years to get through, it would be faster than the 
present trajectory. And so I am spit balling it here, but, I 
mean, it might be something to say, hey, basically, if Congress 
says we are conveying it to you, you get it in a specific bill.
    And so, and let me tell you why I am doing this. It is not 
because I am a smart guy. It is because I am a guy who shares 
the frustration in terms of how long it takes the Federal 
Government to act sometimes even if they agree with you, and so 
maybe it is something that is worth a try. And I certainly 
won't speak for the chair, the vice chair, or the ranking 
member, but it is like, hey, you know, you mentioned the four 
towns, and this one is 91 acres and that, it is like, mmh, what 
the heck? I am guessing if it was written the right way, you 
might get it through, and then we will just see who supports 
Indian Country and who doesn't. But anyhow, food for thought.
    Madam Historic Preservation Officer, when you were 
referring to those number of tribes and spots and stuff like 
that and that weren't being funded, who was it that you were 
referring to that wasn't funding them? Was it Parks? Was it 
BIA? Who was that?
    Ms. Grussing. The dedicated funding for tribal historic 
preservation officers comes from the historic preservation 
fund.
    Mr. Amodei. Okay.
    Ms. Grussing. Which is in the Interior bill.
    Mr. Amodei. Okay.
    Ms. Grussing. It is a----
    Mr. Amodei. So it is the Park Service.
    Ms. Grussing. Yeah, Park Service. It is a division of that. 
So state historic preservation officers also get----
    Mr. Amodei. So if we wanted to do something about that, we 
would go to the Park Service and go, here is this for that.
    Ms. Grussing. The total amount appropriated for the 
historic preservation fund comes from here. So there are civil 
rights grants. There are historically black colleges. There are 
State historic preservation officers. There are a number of 
pieces of the pie, but it has gotten, I will be honest with 
you, disproportionate in the amount of competitive grants. And 
no one is going to say that something like civil rights grants 
need less money, but they don't need a 75 percent increase. And 
then also there is a new pot this year of civil rights grants 
for all Americans instead of just African-Americans. Our 
members don't have time to apply for additional competitive 
grants. They just don't. They need an operating budget, and 
that is what this is.
    Mr. Amodei. Well, because I got to tell you, I mean, we 
have got a lot of tribes in Nevada, and we have got a State 
historic preservation officer in Nevada, and I am not blaming 
any of them. This is the first time I have heard of a tribal 
historic preservation officer. So if we want to help you----
    Ms. Grussing. Right.
    Mr. Amodei [continuing]. That is where we go. Okay.
    Ms. Grussing. When THPOs get funded, it lessens the burden 
on CHPOs.
    Mr. Amodei. Got you.
    Ms. Grussing. It is less work for State historic 
preservation officers when tribes can do their own work.
    Mr. Amodei. Thank you. I yield back, Madam Chair.
    Ms. Pingree. Thank you all for your presentations. I have 
learned a lot from you today, and I concur with everything my 
colleague said. I am on the Agriculture Committee, so we think 
a lot about diseased animals, and you brought up a lot of good 
questions. We don't have chronic wasting disease yet in Maine. 
We have a terrible problem with ticks in our moose and deer, 
and certainly fully understand the issues that you are talking 
about, so I am happy to do a little more work on that. And 
thank you for filling us in more about the lack of funding for 
historic preservation.
    I am extremely sorry about what happened on the border wall 
and the, devastation there, and I am increasingly interested 
about this topic. I think we should all be. And I have heard 
more people discussing it in my home State about who owns 
tribal artifacts, how to appropriately take care of them in 
museums. And there are an awful lot of questions that I think 
should be discussed. So I won't ask you all of them today, but 
maybe I will give you a call since you are here in Washington, 
D.C. So thank you both for your articulate testimony. I hope we 
figure out a way to get that land back.
     Voice. I like the idea, though.
    Ms. Pingree. Yeah. No, it is a good one. And we will 
dismiss this panel. Thank you very much for being here today.
    Voice. Thank you.
    Ms. Pingree. Okay. We will keep going, and very grateful to 
have all of you here today. So we will just go ahead with Mr. 
Johnstone. We will start with you.
                              ----------                              

                                        Tuesday, February 11, 2020.

                 NORTH WEST INDIAN FISHERIES COMMISSION


                                WITNESS

ED JOHNSTONE, TREASURER, NORTH WEST INDIAN FISHERIES COMMISSION
    Mr. Johnstone. Thank you. Thank you, Chair. I want to 
acknowledge my congressman from the 6th District of Washington 
State, the 6th District where my grandfather was born in 1877 
on Dungeness Spit, Makkalum Indian, with an English father from 
Victoria. In that year 1877, his folks, his mom and dad both 
perished, and he was raised by his aunt. 1877 was 12 years 
before statehood in the State of Washington, and thankfully the 
United States had a vision of the West. But they learned after 
they came to this country on the shores of the East Coast and 
the contact by these people that came to these shores, they 
were treated, you know, in a good way. But that westward 
expansion history of the United States is not very good towards 
our people.
    And when they came to the West after Lewis and Clark in 
1804 and 1805, they figured they had to do it a different way, 
and there were still a lot of terrible things happening, and we 
signed treaties in 1854 and 1855. Isaac Stevens was sent out to 
do that, and the date and time really resonates with me because 
of my grandfather's birth in 1877. And Billy Frank, Jr., who 
sat at this table many times, and others talked about the 
treaties and what it means to us, and told us at different 
times that the treaties were signed so that there could be a 
State of Washington, that there could be cities and counties, 
there could be municipalities, there could be colleges and 
universities. But they forgot about us, us Indians, as Billy's 
words are always in my ear and in my heart.
    In this committee right here, we have done a lot of work 
over the times, and I was proud to say that I worked with 
Congressman Norm Dicks for the 6th, and that we saw great 
changes in the way we would do business around here. And we 
prevailed in some very tough times in these different 
Presidents and different congresses. And very happy and proud 
to say that this committee has stood with Indian Country, stood 
with us when we looked at the quiet crisis and the broken 
promises, the renewal of the quiet crisis in December of 2018 
that my congressman had a voice in. And your support is very 
much appreciated.
    To the degree that you came out to our homelands and this 
committee visited us, the chair, and the ranking member, and 
others came to our villages, to our homelands, and witnessed 
what we put on paper, this valuable testimony that we write, 
what you heard from CORA, what you hear from the Great Lakes, 
what you hear from our tribes. You know, sitting here for a 
couple of hours, your heart just pours out in crisis for our 
people, for our food, for our burial grounds, for our 
subsistence, subsistence that is wound into our request here in 
our written testimony. Complicated agreements between the 
United States and Canada, Pacific Salmon Commission. A lot of 
what we do is heavily laden with technical work that needs to 
be done, and I am talking about the Pacific Salmon Treaty. I am 
talking about the young man that talked about rights 
protection, you know. You are going to see rights protection in 
here in a couple of places in our testimony.
    Pacific Salmon Commission. You are going to see in our 
written testimony we talked about hatcheries. Hatcheries are 
more important than ever with the demise of our habitat, 
hatcheries, habitat, in order for us to have harvest. We get 
deep into the weeds of management because we are the co-
managers of the resource, the co-owner with the State of 
Washington that those treaties, the United States said here to 
you, your designation document when you became a State in 1889. 
That relationship requires us to heavily, heavily regulate it 
right down the line.
    And, you know, what we put in the request is threaded with 
all these different places that you would see us in U.S. Fish 
and Wildlife, and Parks, and you would see us in Interior BIA. 
And, you know, I think what we have learned over time is when 
you look at the staffs that you employ and the relationships, 
when we come through and talk to you, it is about how do we 
work together to relay that information. How do we tell our 
story, as Billy Frank would say, to connect this, you know, to 
give you the information where you can stand up for the work 
that you do in this committee for us Indians, us that rely on 
that assistance?
    I don't have much more of a message from that. You know, I 
go through these talking points, and I talked about the pools 
of monies. That is so important: EPA, geographic funds through 
EPA for Puget Sound. The mass marking, you know, requirements 
under the treaty with Canada, and assessment work that we can 
tell what is happening out here where our salmon go to 
eventually come home, which is really burdened now by the ever-
changing conditions of that habitat. And those things are 
really troubling where you see that in these documents when 
they talk about climate.
    And I appreciate your time. I really respect everybody that 
works so hard for us. Thank you.
    [The statement of Mr. Johnstone follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Pingree. Thank you. Mr. Red Star Wolf.
    Mr. Wolf. Jeremy Wolf.
    Ms. Pingree. Jeremy Wolf.
    Mr. Wolf. Red Star is my Indian name.
    Ms. Pingree. I see it is either Jeremy Wolf or Red Star, 
yeah. Go ahead.
                              ----------                              

                                        Tuesday, February 11, 2020.

              COLUMBIA RIVER INTER-TRIBAL FISH COMMISSION


                                WITNESS

JEREMY RED STAR WOLF, CHAIRMAN, COLUMBIA RIVER INTER-TRIBAL FISH 
    COMMISSION
    Mr. Wolf. I am the vice chair of the Umatilla Tribe, also 
the chair of the Columbia River Inter-Tribal Fish Commission, 
and I wanted to thank you for assembling this panel. The Treaty 
Resource Commission's Inter-Tribal Commission, we have long 
histories together, and I want to continue those collaborations 
into the future.
    So as the CRITFC tribes, it consists of the Umatilla, the 
Yakima, the Nez Perce, and the Warm Springs tribes. So the 
tribes, we are active managers in an area equal to size of 
State of Georgia, spanning across 3 time zones, so it is quite 
an endeavor, a challenge that we take on. Collectively, we work 
obviously on fisheries, but in a more overall sense, it is for 
our first foods. And we identify our foods with water, fish, 
deer, roots, and berries, and those also have animals and 
species that fit underneath them categorically. And there is 
water which serves as the life food for everything, the fish 
which are the aquatic species, the deer which are the 
terrestrial species that live above the ground, and the roots, 
the plants to grow underneath the ground, and then the berries 
which survive above.
    And so those take us in time and space, and we address 
those not only culturally and throughout the seasons, but we 
address those scientifically. So we have been able to identify 
how these are affected, and that goes into climate change 
resilience. And how we address these things is not only 
expressed throughout our culture and how we gather these things 
in time and space, but how we can define it and communicate 
that to the contemporary world as well.
    Another collective goal that we have is workforce 
development for our people. So we have over 700 members, 700 
tribal employees between the tribes, and it is something that I 
think goes to say a lot towards what we are trying to 
accomplish, not only for the employees, but our youth that are 
up and coming. We want to make sure that we are training our 
youth as they come up, training our youth not only in the 
workforce, but we also have a salmon camp that we have every 
year for the middle school. So that is something that we are 
trying to address so we can speak on these first foods, speak 
on the things that are important to us.
    So BIA's Columbia River fisheries management budget 
supports the core fishery program efforts of CRIFTC and our 
member tribes, which span across 3 time zones, as stated. We 
request an increase of $5 million over the current levels of a 
new program at a base budget of $10.7 million. This increase 
will prioritize support for enforcement, harvest monitoring, 
implementation of our four primary agreements, including the 
negotiations to modernize the Columbia River treaty. The 
Columbia River treaty is something that I am specifically 
delegated to as far as CRIFTC goes, and my Umatilla Tribe has 
been asked to be a part of the most recent Cranbrook 
negotiations as a technical advisor, and was able to express 
the first foods that I just briefly described; but also what we 
have deemed through the regional recommendation, which is a 
recommendation addressed through not only State, but Federal 
and tribal, entities.
    Fifteen tribes are identified, U.S. tribes identified as 
Columbia River treaty tribes, also working with the First 
Nations. But I think it is really important that the tribes 
themselves be a part of this negotiation as we were not a part 
of the original negotiation. So that is something that is 
really important that we move forward because that is going to 
be the lifeblood. It is going to be the water flows that are 
necessary in a very unnatural system for the returns and all 
that we have invested as far as the fish coming back. 
Ecosystem. Proper ecosystem flows is going to be really 
important.
    So also I am going to just touch on a few things here, but 
climate change resilience is something I think that is very 
important for us moving forward. It goes right along with our 
first foods concepts that we have. And we have had some issues 
recently concerning first foods, but one thing I guess I wanted 
to kind of get into is the people that are being affected. And 
one of the things that goes along with that is the treaty 
fishing access sites that we have underneath. I want to thank 
the Congress themselves for Public Law 1699. It is the Columbia 
River In-Lieu Treaty Fishing Site Improvement Act. So with 
that, we will be addressing the sites and O&M funding. We 
recently talked to the BIA about where those would fit and 
where those funds would best be allocated. But we also want to 
ensure that the operating and maintenance monies are addressed 
as well.
    So with that, I also wanted to, with the time running out 
here, I just wanted to say that our chair, Cath Brigham, who 
was supposed to be here tomorrow, just wanted to say that she 
gives her regards, but she is not able to make it. We recently 
had some devastating floods in the Umatilla River, unforeseen 
in recorded history, so we have a lot of homes that were lost. 
We had one lady who lost her life in the community. But she 
will not be able to attend, but we did provide our written 
testimony for that. But it does go to say that it is a part of 
the changing climate that we have and why we need to ensure 
that we are adequately funded to address those issues.
    Tribes have proven to be at the forefront of all these 
issues, so I just want to thank you for your time.
    [The statement of Mr. Wolf follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Pingree. Thank you very much. Mr. Isham.
    Mr. Isham. Isham.
    Ms. Pingree. Isham.
    Mr. Isham. The nuns would say it that way, but I never 
corrected them, so. [Laughter.]
    Ms. Pingree. You can't mistake me for a nun.
    Mr. Isham. I was scared of them.
                              ----------                              

                                        Tuesday, February 11, 2020.

             GREAT LAKES INDIAN FISH & WILDLIFE COMMISSION


                                WITNESS

MICHAEL ``MIC'' ISHAM, EXECUTIVE DIRECTOR, GREAT LAKES INDIAN FISH & 
    WILDLIFE COMMISSION
    Mr. Isham. [Speaking native language.] Greetings, Madam 
Chair and committee. My name is Michael ``Mic'' Isham, Jr. I am 
a citizen of the Lac Courte Oreilles Band of Lake Superior 
Chippewa Indians, and I am currently serving as the executive 
administrator of the Great Lakes Indian Fish and Wildlife 
Commission, or GLIFWC for short. And I want to thank you for 
the opportunity to testify on behalf of GLIFWC.
    For those of you who may not know us, GLIFWC is a natural 
resource agency that represents 11 member Ojibwe tribes, these 
areas here in what are now known as Wisconsin, Michigan, and 
Minnesota. GLIFWC represents over 43,000 tribal citizens, and 
GLIFWC, with our Federal and State partners, co-manage the 
resources in over 32-and-a-half million acres of land this 
land. This land encompasses 60,000 square miles of our 
ancestral homeland where we continue to hunt, fish, and gather 
as we have for thousands of years.
    And in the mid-1800s, the GLIFWC member tribes entered into 
several treaties with the United States of America. Our tribes 
entered into military alliance treaties, not against, alliance, 
and still to this day we are in the armed forces in large 
numbers. Besides the military alliance treaties, we also 
entered into a lot of cession treaties. And in cession 
treaties, we sold many things to the United States of America, 
such as billions of board feet of timber, minerals, ports, 
gravel, and eventually millions of acres of land, which added 
to, and continue to add to, the United States Treasury. In 
those treaties, however, we did not sell, and, in fact, 
specifically retain those rights to use the land as we always 
have--hunting, fishing, gathering, as you have heard from the 
other treaty commissions--and also to maintain our traditional 
life ways, and we never sold our sovereignty.
    However, for hundreds of years or so after the signing of 
these treaties, and as the States became more established, the 
opposition to the exercise of our off-reservation treaty rights 
grew. It took court action in the 70s, before chairman was born 
in the 70s there, 80s and 90s to get our rights reaffirmed. The 
Gerno case on Lake Superior, the Lac Courte Oreilles v. 
Wisconsin case, and the Mille Lacs v. Minnesota court cases all 
were decided in favor of the tribes. The courts all agreed that 
the tribes' right to hunt, fish, and gather off reservation was 
guaranteed by treaty.
    Another thing the courts all agreed on was that these 
resources are now shared resources, which also other people had 
touched on. And so the tribes, along with our State and Federal 
Partners, must work together to ensure both State and tribal 
harvest occur in a manner that does not deplete the resources, 
and that decisions relative to the land use to be done together 
as well. This is why GLIFWC was formed.
    GLIFWC assisted our member tribes in implementing those 
treaty-retained rights consistent with all those court decrees, 
such as working with our State and Federal partners on harvest 
quotas and season parameters, along with land use decisions 
that will help keep those subsistence harvest free from 
environmental contaminants. For 35 years since GLIFWC was 
formed, you, Congress, specifically this committee, has 
supported GLIFWC and the other treaty commissions with funding 
through a rights protection implementation line item. On behalf 
of my family, on behalf of my tribe and all the tribes and 
families that I represent, I want to thank you all for that 
support. [Speaking native language.] Big thank you.
    Good science and culturally-based natural resource 
management with a goal of clean and plentiful harvest does not 
just benefit the tribal citizenry. The people of the North 
Woods also should be up here thanking you because those 
programs that GLIFWC administer benefit them as well. The Great 
Lakes Restoration Initiative, or GLRI, is one program I wanted 
to specifically thank you for. The GLRI is a very important 
program for our member tribes, and the congressional language 
that provides for a distinct tribal program will help ensure 
that tribes have the flexibility to develop the programs that 
are highest priorities to their own communities.
    This bipartisan effort by Congress to protect and restore 
the Great Lakes will not get much news, although it probably 
should because obviously the fighting is what gets the news. 
But, again, certainly it should get some news. Now, before I 
left for Washington, D.C., we have a tribal Facebook page, and 
there was a recent post on there with at tribal harvest of 
walleye, and the heading read, ``We will be eating well 
tonight.'' And what was most encouraging in that picture was 
the fact that it was a grandfather, a father, and a daughter 
that participated in this harvest. The intergenerational aspect 
of this activity, coupled with the knowledge gained from our 
GLIFWC biologists that it is a safe and clean harvest and they 
can eat it, shows the success of our collective efforts.
    Our success is your success, and with continued support our 
RPI line item, the success will hopefully continue for seven 
generations and beyond. Megwitch [Speaking native language]. 
Thank you for listening to me.
    [The statement of Mr. Isham follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Pingree. Thank you very much. Thank you all very much. 
Mr. Kilmer, do you have any questions?
    Mr. Kilmer. Thank you, Madam Chair, and, Mr. Johnstone, I 
want to thank you and the North West Indian Fisheries 
Commission for your terrific leadership in protecting treaty 
rights in our region, and for the time you spent with Ranking 
Member Joyce and with Chairwoman McCollum when they came out to 
the district. The work you are doing is just so vital in 
recovering our salmon populations, and I actually do want to 
thank our chair and ranking member for taking the time to come 
out and really take the time to understand some of the 
challenges we face. In your written testimony, you wrote about 
the salmon and Steelhead Habitat Inventory and Assessment 
Program, and I was hoping you could just take a second and talk 
about how that helps to inform the recovery efforts that the 
Indian Fisheries Commission is taking the lead on.
    Mr. Johnstone. Thank you, Congressman, especially for 
mentioning the North West Fish Commission, which I failed to do 
when I opened up this panel. What it does is it is a shop that 
is housed at the North West Indian Fish Commission, and it is 
tied directly with our GIS programming. And, you know, the 
dynamics of that, you know, I can tell what the outcome is, but 
the inner working is we do an assessment on those watersheds. I 
mean, that is what that inventory talks about, and salmon and 
steelhead. And so that gets into the basic ecology piece of 
those individual streams.
    And then we take that into our shop, and we use that GIS 
programming and we use our planning, and put it together. It is 
called the ``State of the Watershed.'' It is a document about 
this, and we are just about ready to roll out the third 
iteration. And in our Puget Sound area in the coast is the 
document, now that the State agencies, the WDFW, ecology, so 
forth. In the Federal Government, it is the bible. We have done 
the work, you heard Mic say, and Jeremy, and others that our 
work is top notch. And once that is assembled and we put out 
that document, others don't even try to do it anymore. That is 
the go-to document. Real critical, and you see that in that 
request.
    And we had a little bit of trouble maintaining that, and 
now we have got it well placed in BIA. And, you know, it is 
very important, and we appreciate that we are on kind of firm 
ground right now.
    Mr. Kilmer. Thank you. I will also just thank you for 
referencing the great leader, Billy Frank, Jr. I have a 
painting that is just of his face that is in my office, and I 
am conscious that he is watching us, so thank you. I yield 
back.
    Ms. Pingree. Mr. Joyce.
    Mr. Joyce. Thank you, Madam Chair. Thank you all for being 
here, and, Mic, thank you for your support on the Great Lakes 
Restoration Initiative. I was wondering if you could tell us 
how GLRI has helped the tribal community there, how the funds 
are allocated, and who makes the decisions.
    Mr. Isham. Some of it is capacity, so we can----
    Mr. Joyce. Also whether you are happy with the process. 
[Laughter.]
    Mr. Isham. We are happy with the process. Some of it is 
capacity money, which allows us to hire some experts that, you 
know, can work on Great Lakes issues. It also helps us get to 
the table where decisions are made. You heard talk about 
consultations earlier or listening sessions. When you are 
actually at the table when the decisions are being made, that 
helps a lot. You know about the project up in Michigan, the 
Buffalo Reef restoration project. We have a lot of money 
invested in that from our budget, but the biologists and people 
that work on it we kind of fund with some GLRI money.
    Now, the new language, the congressional language that is 
in there talks about a distinct tribal program, and so although 
it is not up and running yet, we are working on it, and 
hopefully that funding will allow us to kind of tweak the 
program to kind of fit our own needs instead of trying to fit 
into what the EPA needs are. You know, all the lakes are 
different. We are up in Lake Superior, and it is pretty clean 
up there, so how do you get funding when things are clean? You 
got to mess it up to restore it, so we pushed for protection 
and things like that, but we will see where it goes. We are 
very hopeful with that new language in the bill.
    Mr. Joyce. Thank you all for coming.
    Ms. Pingree. Mr. Amodei.
    Mr. Joyce. Thank you all for coming, and I appreciate your 
time.
    Mr. Amodei. Thank you, Madam Chair. Mr. Isham, I appreciate 
you answering that question because some of our colleagues 
accuse my colleague here from Ohio of being a one-trick pony 
for the Great Lakes, in good fun. And so now I can help protect 
him to say, well, I have been in a hearing where, by gosh, you 
know, blah, blah, blah. So I appreciate your helping him out a 
little bit on that. And beyond that, I have nothing of more 
substance than that. So, Madam Chair, I yield back.
    Ms. Pingree. That is great. Well, I just appreciate all of 
your testimony. Thank you so much for talking about issues that 
are so vital to all of us and for acknowledging the committee's 
support. I think you would find on both sides of the aisle we 
are very concerned about all of the issues that you brought up 
with us today, and look forward to working with you. Thank you 
very much.
    Voice. Thank you.
    Ms. McCollum [presiding]. Perfect. Thank you for coming. I 
think we have all the paperwork in order now. Welcome, and 
thank you. This is our last panel of the day, and so I am sure 
you heard Ms. Pingree when she was chairing. I just remind 
people we have a timer, and it is for 5 minutes. And when it 
goes yellow, you have 1 minute remaining, and so if you start 
thinking about wrapping things up. And then when it is red, and 
I want to thank you for your patience and everything because 
with the votes and all that, I know you waited a while to 
testify. So thank you so much for that.
    So with that, to speed things up a little bit, I will let 
Mr. Whitehead introduce himself and go right into his 
testimony, and then we will go right down the line. Mr. 
Whitehead?
                                        Tuesday, February 11, 2020.

            ASSINIBOINE AND SIOUX RURAL WATER SUPPLY SYSTEM


                                WITNESS

BILL WHITEHEAD, BOARD OF COMMISSIONERS CHAIRMAN, ASSINIBOINE AND SIOUX 
    RURAL WATER SUPPLY SYSTEM
    Mr. Whitehead. All right. Madam Chair and members of the 
committee, my name is Bill Whitehead. I am the chairman of the 
Board Assiniboine and Sioux Rural Water System created by----
    Ms. McCollum. We are going to turn your mike on there. 
Thank you, sir.
    Mr. Whitehead. I hope I don't have to repeat that. 
[Laughter.]
    Ms. McCollum. You are good.
    Mr. Whitehead. Okay. Yes, we were recruited by the Fort 
Peck Tribal Council. I am also joined by the general manager of 
the project and our general trainer, Major Russell. Our project 
was authorized by Public Law 106 in December 2000. We are 
completely fixed with running of the project. We are on budget 
and close to the finish line. Our project will be the first in 
the Nation of a reauthorized rural water project to finish 
construction. I have been informed that our project is highly 
regarded by the Bureau of Reclamation due to it adherence to 
budgets, schedules, Federal rules, and quality of construction.
    Actually, my board will oversee all the functions of the 
project within Fort Peck Indian Reservation. We operate a safe 
and reliable drinking water system for 31,000 residents of 
northeastern Montana in an area larger than New Jersey, and 
just smaller than Massachusetts, which also covers four 
counties in northeastern Montana.
    When completed, our water treatment plant will deliver 
water through 3,200 miles of pipeline on the Fort Peck Indian 
Reservation and throughout the adjoining Dry Prairie Rural 
Water System. The project uses our water rights in the Missouri 
River as confirmed by a water compact with the State of Montana 
in 1989. Dry prairies are operated and they have been with us 
for 25 years. Together we have improved the understanding of 
our cultural differences, and we work hand in hand in a 
historic relationship for a common purpose.
    I always maintained that our water project through our 
treaty rights enables us to provide water for Indians, non-
Indians, Democrats, and Republicans----
    Ms. McCollum. Great.
    Mr. Whitehead [continuing]. You know, in one of the most 
cooperative manners that I have ever experienced. Dry Prairie 
shares in the cost of operating state-of-the-art facilities in 
rural communities to secure funds for the project. We meet 
quarterly on project construction and operating issues. Rural 
Water is very committed is very committed to maintaining the 
state-of-the-art infrastructure, which is held in trust by the 
United States. When Dry Prairie is delivering drinking to a 
joint system valued at $350 million to meet our responsibility 
to the Assiniboine and Sioux Rural Water Supply System, employs 
19 highly-skilled tribal members, including certified operators 
for the water treatment plant and the pipeline district niche 
system.
    All Federal and State standards for water quality are 
consistently met. We [Audio malfunction in hearing room] to 
ensure there is no disruption in service and are proud of that 
record. As a community organizer for the last 50 years, I 
recognize and applaud the example our employees are setting for 
your young people on the reservation where opportunity has been 
wanting. Our employees are reliable, dedicated, and highly 
skilled with modern technology. They are advancing the hopes 
and dreams of our community's next generation.
    The project is a success at every level, and we have a 
responsibility to keep it that way and make perpetual 
improvements for the benefit of the tribal members and other 
residents of northeastern Montana rely upon this all-community 
approach we need for continued success of the project. We were 
never short of funds thanks to the work of this committee. In 
2021, the amount needed $3.2 million. We thank you for 
recognizing our needs for the past 10 years of operation and 
for the time you are spending with us.
    I would be remiss if I didn't mention that upon this 
successful attaining of funds that you have helped us with, our 
congressional delegation, we have evolved to a point of 
understanding. When we first started 20 years ago, we didn't 
recognize that Keystone pipeline was coming along, and we are 
very concerned about that when you take in consideration the 13 
schools, four hospitals, and the 30,000 people there. It may 
not seem like much when you live in an urban area, but out 
there where we live at, it is so valuable. And I just wanted to 
put that on record that we are concerned about whatever 
happens. You know, pipes will break, and I just wanted to leave 
that with you. Thank you very much.
    [The statement of Mr. Whitehead follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms.McCollum. Thank you. Mr. Francis.
                              ----------                              

                                        Tuesday, February 11, 2020.

      UNITED SOUTH AND EASTERN TRIBES SOVEREIGNTY PROTECTION FUND


                                WITNESS

KIRK FRANCIS, PRESIDENT, UNITED SOUTH AND EASTERN TRIBES SOVEREIGNTY 
    PROTECTION FUND
    Mr. Francis. Good afternoon, Chairwoman McCollum, Ranking 
Member Joyce, and my home State congresswoman, Ms. Pingree. It 
is great to see you again. My name is Kirk Francis. I am 
currently serving as the president of the United South and 
Eastern Tribes Sovereignty Protection Fund representing tribes 
from Maine to Florida to Texas. I am also the chief of the 
Penobscot Indian Nation.
    We are here today, as we are every year, with the Federal 
Government's failings in delivering upon the obligations to 
tribal nations and native people. This failure has persisted 
regardless of changes in Administration or Congress despite 
numerous reports, investigations, recommendations, and 
consistent advocacy from Indian country, and, of course, the 
great work of people like that around this committee.
    In 2003, the U.S. Commission on Civil Rights issued ``The 
Quiet Crisis Report,'' which found that, ``Measured by honor of 
funding commitments, none of the agencies reviewed met its 
obligations to tribal nations.'' In 2003, Congress and the 
Administration had that information and the opportunity to 
reverse course, yet the ``Broken Promises Report'' issued in 
December 2018 by the commission found that, ``The funding of 
the Federal trust responsibility and obligation remains grossly 
inadequate in a barely perceptible and decreasing percentage of 
agency budgets.'' By some measures, since 2003, we have 
actually lost ground on tribal sovereignty and self-
determination.
    This is not a question about addressing poverty and needs 
across Indian Country. Our relationship with the United States 
is ultimately about honor, fulfilling commitments and its 
promises. So when will we truly pay the debt to tribal nations 
owed in perpetuity for the extensive lands and resources ceded 
by our ancestors? Deep and chronic failures require bold, 
systematic changes.
    The solutions we offer involve a fundamental shift in 
Federal Indian policy and funding. They will allow Indian 
Country to realize its great potential and create lasting, 
positive change for tribal nations and our people. 
Additionally, an appropriately strong and just domestic 
investment into Indian Country benefits America as well.
    It is critical that the Administration propose and Congress 
demand budgets containing full funding for all Federal Indian 
agencies and programs. Given our history and unique 
relationship, this funding can no longer be subject to the 
instability of discretionary spending. In the short term, we 
are urging the passage of legislation providing advanced 
appropriations for IHS and BIA. In the long-term, we must 
achieve full and mandatory funding for all Federal Indian 
agencies and programs.
    The processes under which OMB develops budgets and policies 
that impact us also require reform. We believe a strong tribal 
affairs office should be created at OMB. In concert with this 
office, OMB must be required to produce a full, detailed 
accounting of the funding distributed to Indian Country, 
including only what tribal nations access, not what funds were 
technically available for them. As are other agencies, OMB must 
also be subject to the consultation requirements. As Congress 
once again discusses an infrastructure package, it must include 
the rebuilding of tribal nation infrastructures and economies 
similar to the U.S. investment in rebuilding post-world War II 
Europe in the Marshall Plan. The legislative and executive 
branches should commit to the same investment to rebuild tribal 
nations given that our current circumstances are a direct 
result of the acts and policies of the United States.
    Regarding our priorities for Fiscal Year 2021, we urge the 
prioritization of the trust obligation in the 302(b) allocation 
for Interior. For BIA, our region's funding priorities are 
included in our written testimony. We continue to be frustrated 
by the Administration's refusal to include a calculation of 
BIA's unfunded obligations in the budget formulation process. 
In addition, we join others throughout Indian Country in 
advocating for funding within the Interior and CJs bills for 
risk management measures to protect tribal sovereign immunity.
    For IHS, again, our regional priorities are in our written 
testimony. We are working with other tribal advocates, though, 
and the IHS to calculate the true unfunded obligations of the 
Agency. We are projected to be far lower than the current 
figure of approximately 50 percent. Finally, we urge the 
subcommittee in the strongest possible terms to provide 
separate and indefinite appropriations for 105(l) leasing. Our 
healthcare should not suffer due to the Agency's inability to 
accurately predict these costs.
    So in closing, it is time for a comprehensive overhaul of 
the trust relationship and obligations, one that results in 
promises kept to tribal nations. Keeping promises starts with 
ensuring that Federal spending better reflects trust and treaty 
obligations. I want to thank you all again for having me here, 
and on behalf of our organization, we are happy to answer any 
questions.
    [The statement of Mr. Francis follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms.McCollum. Thank you. Mr. Carlson.
                              ----------                              

                                        Tuesday, February 11, 2020.

                      INTERTRIBAL BUFFALO COUNCIL


                                WITNESS

ERVIN CARLSON, PRESIDENT, INTERTRIBAL BUFFALO COUNCIL
    Mr. Carlson. Good afternoon, Madam Chair, honorable members 
of the Committee and the Subcommittee on Interior, Environment, 
and Related Agencies. My name is Erwin Carlson, and I am member 
of the Blackfeet Nation and president of the InterTribal 
Council. I am here today to respectfully request an increase of 
$12,600,000 in funding for the Tribal Buffalo Restoration and 
Management. This amount added to the current funding level of 
$1,400,000 will increase funding for Fiscal Year 2021 to $14 
million.
    Buffalo are sacred to American Indians. Historical records 
can indicate that American Indians relied heavily on buffalo 
for survival. Buffalo provided us food, shelter, clothing, and 
essential tools. In the early 1800s, the buffalo population in 
North America exceeded 30 million, and the American Indian 
population was near 7 million. By the turn of the century, only 
500 Buffalo survived, and the Indian population was reduced to 
250,000. With confinement of Indians to reservation lands, 
Indians lost their primary food source, lifestyle, and 
independence.
    Recovery from this devastation began in earnest in 1991 
when a handful of Indian tribes organized the InterTribal Bison 
Cooperative, now the InterTribal Buffalo Council. To begin 
restoration of buffalo with the Indian tribes, today the ITCB 
is comprised of 69 tribes with populations totaling 1 million 
tribal members across 19 States with 55 buffalo herds, 
collectively, the largest herd in the United States. ITBC has 
received Federal appropriations since 1992 in the form of 
earmark, inclusion in the President's budget, or through DOI 
administrative action. Funding has been stagnant for many years 
now with $1 million for herd development grants and $400,000 
for administration. Actually for the past 10 years.
    The Bureau of Indian Affairs has had discretion over the 
actual amount of funding allocated to ITBC from various line 
items in the BIA budget. ITBC has worked to create a permanent 
buffalo restoration and management program within the Bureau of 
Indian Affairs with an authorization for an annual 
appropriation. Representatives Don Young, Deb Haaland, Tom 
Cole, and Norma Torres introduced the Indian Buffalo Management 
Act, and the hearing was held last week before the House 
Resources Subcommittee for indigenous people. The 
Administration testified that it agreed with the authorization 
for an annual appropriation for buffalo restoration and 
management.
    At the request of, and I must say, at the request of the 
Department of Interior, ITBC compared its funding with other 
wildlife programs, and primarily the fish commissions, exceed 
$140 million from various branches of the Federal Government 
last year. This level of funding is largely based on the well-
known Boldt decision that awarded co-management over salmon to 
tribes and States, and that declared the security of ending 
fishing rights. A review of the Boldt decision supports all 
American Indians having a right to their traditional foods, 
including the return of buffalo to tribes.
    ITBC seeks Federal Government commitment through 
meaningful, full funding for tribes to restore, manage, and 
consume buffalo. Additionally, the Fort Laramie Treaty of 1868 
guaranteed tribes access to buffalo so long as buffalo may 
range. Meaningful funding for buffalo restoration and 
management provides an opportunity for the Federal Government 
to honor this treaty provision. Recently, the United States 
Supreme Court upheld another provision in the Fort Laramie 
Treaty regarding hunting rights in the Herrera case. Increased 
funding will enhance ITBC's herd development grants to tribes 
for tribal infrastructure, including job creation, fencing 
corrals, handling facilities, and supplemental feed, all to 
provide buffalo to a larger segment of the Indian community. 
The act will also allow ITBC to enhance technical services to 
tribes, create marketing opportunities, and for ITBC to serve 
as a more meaningful partner with other Federal agencies in 
national buffalo management issues.
    For tribes, the restoration of buffalo signifies much more 
than simply conservation of the national mammal. Tribes restore 
buffalo to counteract the near extinction that was similar to 
the tragic history of American Indians. The killing of the 
buffalo was an effort to exterminate the Indians. However, 
buffalo survived, and we are still here. The he Indians are 
still here.
    Now we need meaningful funding for the Buffalo to again 
provide food and economic opportunities for Indian tribes. And 
I thank you for allowing me once again to testify in front of 
you for buffalo and increased for them. Thank you.
    [The statement of Mr. Carlson follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms.McCollum. Thank you. Mr. Desautel.
                              ----------                              

                                        Tuesday, February 11, 2020.

                       INTERTRIBAL TIMBER COUNCIL


                                WITNESS

CODY DESAUTEL, BOARD OF DIRECTORS, INTERTRIBAL TIMBER COUNCIL
    Mr. Desautel. Good afternoon, Madam Chair and members of 
the subcommittee. I am Cody Desautel. I am the natural resource 
director for the Colville Tribe, also a member there. And I am 
here to speak on behalf of the Intertribal Timber Council, who 
represents tribes across the United States and Alaska. It is a 
44-year-old organization that represents 18.7 million acres of 
woodlands and tribal forests.
    So from the outset, the ITC appreciates the committee's 
recognition of the importance of tribal force management. Your 
investment in Indian forest management directly improves the 
lives of Indian people in every region of the United States. 
Specifically, Indian forest management creates $3 for every 
dollar of Federal funding invested. It employs nearly 20,000 
people and manages wildlife habitat, provides clean water and 
air, and provides sources of culturally-important food and 
medicine for Indian people. Management of Indian forests also 
generate significant revenue for tribal governments to fund 
essential government search services, such as healthcare, law 
enforcement, and education. For example, my tribe specifically 
generated $15 million from stumpage revenue a couple years ago, 
so a significant amount of money.
    You might be surprised that 80 percent of all timber 
produced from the Department of interior lands come from Indian 
forests, yet this harvest level is only half of the sustainable 
annual target set by tribal governments. Imagine what tribes, 
big and small, would be able to do with twice the revenue and 
economic activity they see from current funding levels.
    Indian forestry literally multiplies investments from 
Congress and makes lives better. Chronic underfunding, however, 
limits the social, environmental, and economic potential of 
Indian forestry. Indian forests are funded at one-third of the 
per acre level of the U.S. Forest Service. As such, tribes have 
forgone over $700 million in stumpage revenue since 1991. For 
several years, this committee has made modest, but much-needed, 
increases to BIA forestry. Last year, the committee 
recommended, and Congress enacted, $118,000 reduction BIA 
forestry funding, and yesterday the Trump Administration 
released its Fiscal Year 2021 budget justification, which 
recommends a $1.3 million reduction in Indian forest 
management. ITC is concerned about the change in funding 
direction.
    Our full funding requests are in the written statement, so 
I will just mention a few highlights here. The BIA forestry 
account is divided into two parts: the tribal priority 
allocation and forest projects. We recommend a $5 million 
increased each of those. For TPA, a $5 million increase could 
hire 67 new foresters and increase tribal timber harvests by up 
to 295 million board feet, creating about 15,000 jobs based on 
our current harvest levels. For BIA forest projects, a $5 
million additional investment could reduce the backlog of 
forest thinning and reforestation that plagues Indian lands. 
These backlogs deprive Indian communities of vitally-needed 
jobs and income and forest health.
    I can personally tell you that large wildfires and 
subsequent replanting will add to the thinning backlog over the 
next 15 years. At Colville, we had, as our chairman stated to 
the committee earlier today, we burned 255,000 acres just on 
our 1.4 million acre reservation in 2015. So substantial forest 
fires investment are needed now. Reforestation. The BIA reports 
it has a backlog of 263,000 acres. But talking with the chief 
forester and staff, they are not completely confident in that 
number, so the number may be more. Every acre that remains on 
this backlog detracts from the tribe's ability to sustainably 
manage its forest for ecosystem services and revenue. Indian 
forests are also impacted by large wildfire suppression and 
recovery priorities. Tribes have historically struggled to 
obtain funds fast enough to rehabilitate their forests after 
wildfire. There is generally a 5-year window to replant after a 
fire. If that doesn't happen, those lands remain unproductive 
and become part of the reforestation backlog I just mentioned.
    ITC recommends a $10 million set aside within the 
Department of Interior for burned area rehabilitation, 
specifically for Indian forests that are burned. Again, as my 
chairman mentioned earlier, that pot is about $3.2 million 
nationally now. In just Washington and Oregon, Idaho, in 2015, 
we saw what was projected by the Department of Interior to be 
about a $55 million need for that year alone. For RTRL, the ITC 
also supports increasing DOI fuels management to $206 million. 
The Administration's for Fiscal Year 2021 budget justification 
appears to request a $35 million increase that would bring the 
fuels account to $228 million. Within this program, the ITC 
supports the continuation of the Reserved Treaty Rights Lands 
Program. Tribes use these funds for proactive fuels and forest 
health projects on neighboring Federal lands. To make this 
program more flexible, we would request that these funds to be 
usable on both Federal and trust lands.
    And in conclusion, I want to thank the committee, and you 
personally, for the attention you have paid the Indian forest 
management, and its potential to improve the lives of Indian 
people across the Nation. Thank you.
    [The statement of Mr. Desautel follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms.McCollum. Thank you very much. Ms. Pingree, I know you 
have a meeting coming up. Do you want to take the first 
question?
    Ms.Pingree. Thank you very much. Thank you all for your 
testimony. You are all talking about resources that I think we 
feel committed to support, and I hope the chair and ranking 
member will pull in a considerable amount of money so we can 
fund more of these things. And I particularly appreciate Kirk 
Francis, Chief Francis, being here today. Thank you for the 
great work that you do in Maine. And I really enjoyed hearing 
your testimony because you didn't hold back, and you were there 
in the strongest of terms about all of the obligations that we 
are not meeting at this point. And we know the devastation and 
damage that does. So I think we will work very hard this year 
to see what we can do, and thank you again for being here.
    Mr. Francis. Thank you.
    Ms. McCollum. Mr. Joyce.
    Mr. Joyce. Thank you all for being here, and, I, too, 
President Francis, appreciate and am curious about your 
commentary on reforming the OMB. You probably have some friends 
up here on the panel who agree with you on that proposal.
    Ms. McCollum. Yeah.
    Mr. Joyce. I was just wondering how you think we can make 
them account for the funding to show that they are being fair 
to Indian Country? Maybe an annual GAO report would be helpful, 
but I am curious to hear your insight on this.
    Mr. Francis. So, you know, one of the things we have been 
trying to do at USET is work very hard on, you know, just trust 
modernization, but also being able to quantify what is exactly 
getting into Indian Country. How are the resources you all are 
working hard to appropriate, how are those being used? And when 
you look at the $3 billion BIA budget, for example, and we have 
an Interior right now that refused to participate and doesn't 
think it is their responsibility to show that they are 
impacting tribes in a positive way, or meeting their treaty 
obligations, trust obligations rather. So that is concerning in 
not being able to understand where the unfunded need are and 
all of that.
    But to your question, at OMB, we will get a cross-cut from 
them that will say $21 billion went to Indian Country, for 
example. That is not really reflective of exactly what is 
getting to Indian Country because you might have $3 billion of 
that that went to States in block grants or other things that 
tribes didn't know about. Now, in our region at USET, this is 
prevalent because relationships in the northeast with states 
and tribes is one that is growing still. And so I think tribes 
may not even understand those resources are in the State, so 
they may not be getting access to those.
    So we would just like a more detailed accounting from them 
of exactly what tribes are accessing, not what they were 
eligible for. And their stance on consultation is the executive 
orders don't apply, and so it has been challenging to sit down 
and really get that kind of accounting. And so I think we need 
more focus on exactly, and I am sure the committee would be 
concerned about between BIA and IHS, you know, where is the $9 
billion going. We know it is not enough, but we need to know 
exactly how you are spending it to meet the needs of Indian 
people, and that is not happening right now.
    Mr. Joyce. Well, I wholeheartedly agree with you that we 
need to have better oversight of how the money is being spent, 
and I think we can find some agreement here that we would like 
to work with you and the OMB in trying to get some bottom lines 
so we can better analyze where the money is going and how it is 
being spent. Thank you all again for being here.
    Ms. McCollum. Mr. Whitehead, I just have to admire your 
suit coat there. My grandfather had one, but it was black, and 
used to take me perch fishing up and around Fort Peck. So thank 
you for being here, and congratulations on all the work that 
you have done in the community to provide water for not just 
tribal nations, but for your neighbors. And we see your needs 
list here, so thank you for that.
    And I think, Mr. Joyce, you kind of summarized what I was 
going to say to Mr. Francis here. We know if your allocation, 
for example, our subcommittee's allocation, doesn't get any 
bigger this next year, we are going to be fighting just to keep 
on what we have and that we don't get cut. And that is not 
something that makes the members on this committee, as you 
know, both Democrats and Republicans, very happy because we 
want to see progress moving forward. The idea of really putting 
numbers down and seeing where they are going, I think, would be 
very helpful to this committee as well, too. When we ask 
questions, when we ask for school lists, when we ask for 
construction projects, we find ourselves not receiving the 
information we have requested. And then consultation as well, 
too. I am not a big fan of executive orders either, so I share 
your pain with those.
    Mr. Carlson, you are adding more school lunches with the 
buffalo. Congratulations.
    Mr. Carlson. We are trying to do that and get it out to 
[Audio malfunction in hearing room.]
    Ms. McCollum. I do my share of eating buffalo when I am 
back in Minnesota. We had a hearing on chronic wasting disease, 
and right now it does not seem like it is affecting buffalo 
herd. But just knowing that it is in Minnesota kind of going 
west, is that anything that you feel that more research or 
anything needs to be done on?
    Mr. Carlson. Well, you know, I think it would really help. 
It would really help, you know. You know, it hasn't affected 
any of our animals yet.
    Ms. McCollum. Right.
    Mr. Carlson. But you never know. I mean, it is moving west, 
and it would be a concern, you know, and be a devastating 
effect if it got into our herds.
    Ms. McCollum. So far, so good. None in buffalo, but as we 
know, sometimes these diseases sometimes all of a sudden will 
spring a surprise on you and cross over.
    Mr. Carlson. Yeah.
    Ms. McCollum. One of the things that I asked some of the 
other people on forestry is climate change is a concern. 
Climate change and invasive species sometimes go hand in hand. 
Sometimes it is just invasive species on their own. What you 
brought up with fire, I think, was a little surprising to me. I 
am going to look more into the backlog on that. So could you go 
over again what happens, you have got 5 years to replant, and 
then it goes into a backlog? What is special about those 5 
years that it didn't go into a backlog right away?
    Mr. Desautel. So BIA has allocated a certain amount of 
funding for burn area rehabilitation, but you are only eligible 
for that funding for 5 years past the containment date. If it 
isn't accomplished during that 5 years, then it just gets added 
to the BIA backlog, and that can be reforestation or thinning. 
But we have seen across the West, and it compounds every year, 
so if you have a big year like you did in 2015, there is $3.2 
that were allocated for that year, but the BIA speculated that 
there was a $55 million need. And if you look at that $3.2 
million over the next 5 years to support that, you still would 
not have had enough money, and that assumes you don't have any 
fires over those next 4 years.
    So what we tend to see is a compounding of unmet needs in 
Indian Country, and for those forested acres that were forested 
and don't see post-fire rehab, they tend to come back to 
something else other than forest, and they just don't 
contribute to the natural resource goals of many tribes. They 
want those to be perpetually productive forests, providing 
clean water, clean air----
    Ms. McCollum. Right.
    Mr. Desautel [continuing]. Cultural plants, all the things 
that are important to tribes.
    Ms. McCollum. That is good to know because the fire effects 
part of what we want to do is fix some of the other things that 
the Forest Service kept borrowing from. And as you know, 
forestry has a bit of a foot in this committee and also on the 
Ag Committee, so Ms. Pingree and I on the Ag Committee, as 
well, too. So we will be watching to see how that balances out. 
Thank you for bringing that to my attention. I didn't realize 
that. So that is what I love about these hearings. I always 
learn something.
    So thank you all for coming. Thank you again for your 
patience. It is not fun waiting around while we are off on the 
floor voting. So this concludes the afternoon hearing, and we 
stand adjourned until tomorrow morning begins at 9:00 a.m. 
Thank you.

                                      Wednesday, February 12, 2020.

         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              ----------                              


         AMERICAN INDIAN AND ALASKA NATIVE PUBLIC WITNESS DAY 2

                               WITNESSES

TERRY RAMBLER, CHAIRMAN, SAN CARLOS APACHE TRIBE
TIMOTHY NUVANGYAOMA, CHAIR, HOPI TRIBE
MICHELLE DEMMERT, CHIEF JUSTICE, CENTRAL COUNCIL TLINGIT AND HAIDA 
    INDIAN TRIBES OF ALASKA
TAMRA TRUETT JERUE, NATIVE VILLAGE OF ANVIK
    Ms.McCollum. Good morning, and welcome to the second day of 
public witness hearings on tribal programs under the 
jurisdiction of the Interior, Environment, and Appropriations 
Subcommittee.
    Once again, in the hopes of having a more in-depth focus on 
issues facing Indian Country, we have organized witnesses 
according to the following topics: healthcare, land, trust, 
national resource management, including climate change, public 
safety and justice, education, tribal government, and human 
services. Yesterday we heard from witnesses about the urgent 
need for healthcare and the important issues facing and 
impacting land, trust, natural resources, and climate change. 
This morning, we will begin with panels on public safety and 
justice issues, and conclude with witnesses on educational 
issues. This afternoon, we will welcome native leaders to 
discuss tribal government and human service issues.
    I welcome today's distinguished elected tribal leaders and 
non-elected tribal leaders, all who play an important role in 
educating others on native issues and challenges. The issues we 
will be hearing about this morning, once again, are part of 
treaty and trust obligations that the United States owes to 
Native Americans. Although the subcommittee has been focusing 
on increasing funding for public safety and justice issues, we 
know how much more is needed to address the unique challenges 
facing Indian tribes, such as being in rural, isolated areas, 
insufficient staffing, and salary challenges, and inadequate 
buildings. This morning, we will learn more about these needs.
    Unfortunately, the situation is the very same when it comes 
to education. We have a responsibility to provide a quality 
education and safe buildings to all students, and this is not 
happening in Indian Country with dilapidated buildings, teacher 
recruitment, and retention challenges, and, I might add, roads 
that are so bad, they cause delays, longer bus rides, and 
damaged equipment. These are just a few of the examples 
creating challenges to the education of Native American 
children. And similarly, tribal colleges have unique challenges 
compared to other colleges and universities. Yet these schools 
continue to operate and successfully graduate students, native 
and non-native, despite the obstacles they face.
    So I am eager to learn more about your priorities today 
along with the rest of the committee. We look forward to our 
discussions on these issues because I believe it will help 
inform us as we begin to develop our 2021 appropriations bill.
    Mr. Joyce will be joining us shortly, and out of respect 
for the people who have testified, he wishes for us to start so 
we don't delay people. And I thank Mr. Joyce for that courtesy 
to the committee and to all of you.
    So here are some logistics. I will call each panel of 
witnesses to the table. We have our first panel of 
distinguished witnesses already here. Each witness will have 5 
minutes to present testimony, and we will use a tracker to 
track the time. So when the light turns yellow, you have 1 
minute left, and when the light blinks red, I will lightly tap 
the gavel and ask the witnesses to conclude their remarks so 
the witnesses can begin. And I do mean lightly. I was maybe a 
little too light yesterday. So when you hear that, that is the 
light ``tap, tap, tap.'' I don't want to swing it down hard and 
cut you off mid-sentence as you are closing.
    Each witness, your full statement is in the book. We have 
access to it. We thank you for that, and I know sometimes you 
elaborate on other things important to your tribe and your 
region. We thank you for that information as well. So don't 
feel pressured to cover everything, and you are going to be 
getting some questions from us, too.
    I would like to remind our guests in the hearing room that 
committee rules prohibit the use of cameras and audio equipment 
during the hearing by individuals without a House-issued press 
credential. So when this morning's hearing concludes, we will 
adjourn. No, we will recess.
    Voice. We will adjourn.
    Ms. McCollum. We are going to adjourn? Okay. We got into 
this whole thing about recess and adjourning yesterday. I want 
to get it right. We are all in agreement. We are going to 
adjourn. We are going to adjourn and reconvene and 1:00 p.m. 
for the hearing this afternoon. With that, I am happy to yield 
to Mr. Kilmer, who says he wants to get right into testimony, 
so we will do that. We will not have any votes this morning, so 
that is why we won't be recessing. We will go straight to 
adjournment at 1:00 when we are done. So that is fabulous news 
for all of us.
    We will start with Mr. Rambler to introduce yourself. We 
won't count that against your time, and then we will start, 
just after your introduction, start right into your testimony. 
We found we gained time, and we didn't run as far behind rather 
than doing a double introduction with me doing one and then you 
doing one. Is that okay with everybody? Okay. Great. Mr. 
Rambler, will you lead us off?
    Mr. Rambler. Okay. Good morning. My name is Terry Rambler. 
I am the chairman of the San Carlos Apache Tribe located in 
Southeast Arizona. We are about 16,900 tribal members strong, 
and we are located in Gila and Graham and Pinal Counties. Our 
environment is very unique in that half of our area is desert 
environment and the other half is pine country, so it is very 
unique.
    The current size of our reservation is 1.8 million acres. I 
appreciate this opportunity to testify. My verbal testimony 
focuses on the following: one, the dire need for BIA to replace 
Building 86, which house our police department and tribal 
courts before BIA condemned it in 2009 without an adequate 
replacement. Two, the need to increase funding for BIA public 
safety and justice operations. Three, the need to support 
education for juvenile detainees. And four, the need to ensure 
that IHS can demolish its old hospital on our reservation 
without appropriations language preventing this.
    The BIA built Building 86 in the 1970s to house our police 
department and courts. The BIA owns Building 86 and had the 
responsibility to maintain it. In 2009, the BIA condemned it 
and tried to hand us the keys. BIA renovated a nearby Federal 
building and moved its investigators there. However, BIA left 
our police department and courts in this condemned building. 
Six years later, BIA finally moved our police department and 
courts into a modular building with the promise to permanently 
replace the facility. The BIA modular is not functional. The 
electricity and A/C go out consistently. The water and sewer 
doesn't work. The doors don't lock, and the walls and floors 
are flimsy. Here is a picture of our police officers in front 
of the modular building.
    Ms. McCollum. If you could move it a little closer. I thank 
you for bringing it.
    Mr. Rambler. I would ask you to walk in their shoes. What 
would you do if you and your staff had to work in 120 heat with 
no air conditioning, no running water, disgusting port-a-johns, 
and little workspace? What would you do if your constituents, 
including elderly and children, had to also deal with these 
conditions at the facility when they are already going through 
traumatic situations? We request an increase in funding for the 
replacement of public safety facilities in fiscal year 2021, 
and continue direction to BIA to replace condemned non-
corrections facilities, including Building 86.
    Our committed law enforcement personnel risk their lives 
daily. Last year, the San Carlos Police Department handled 
almost 54,000 dispatch calls resulting in 32,000 calls for 
service and 3,000 arrests. Police patrolled over 323 miles. Our 
police officers work 12-hours shifts and overtime regularly. 
They endure extreme situations made worse by the lack of an 
adequate facility. To give you a sense of the conditions our 
officers face, here is a picture of our police officers 
blocking off a major road while working to contain a gang 
shooting, which also involved drugs and a hostage situation.
    We request an increase in funding in Fiscal Year 2021. The 
volume of law enforcement needs increases every year as we face 
countless rising costs. On our own, we provide classroom 
instruction for our most at-risk youth and have made much 
progress on a shoestring budget. Thank you for providing BIA 
with funding for juvenile detainee education. BIA has told us 
that it will only provide this funding to direct service 
tribes, not 638 tribes like us, who have worked to improve our 
self-governance on detention needs. We seek the committee's 
assistance so that we can access this funding. There is another 
picture there, an example of what can be done to turn young 
lives around. Here is a photo of a young man who earned his GED 
at the detention center. We are proud of how far he has come.
    IHS built a hospital on the reservation in 1962. Over time, 
this facility became antiquated and needed to be replaced. It 
took 30 years, but a replacement healthcare facility finally 
opened in 2015. Here is a picture of the old hospital. The old 
hospital is centrally located in a busy area and has sat vacant 
for over 5 years. It poses safety hazards, and we are worried 
about the potential for criminal activity there. IHS planned to 
demolish the old hospital this year. However, the final Fiscal 
Year 2020 appropriations package contain a sentence that 
prevents IHS from proceeding with demolition projects that cost 
over $500,000.
    IHS reports that the demolition of the old hospital will 
cost more than that given the size of the compound, a remote 
location, and rising costs. We request the committee support 
for IHS' efforts to demolish the old hospital, and that 
language preventing IHS from doing this does not make its way 
into the final appropriations bill.
    In closing, my elders have instructed me to remind the 
committee that we are not here asking for welfare handouts. 
Instead, we are here asking the Federal Government to honor its 
obligations to my people under our treaty of 1852 for the many 
things done to my people. And I thank you for your time.
    [The statement of Mr. Rambler follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Good morning, sir.
    Mr. Nuvangyaoma. Good morning. Let me get that going. Okay. 
There we go.
    Ms. McCollum. I forgot to----
    Mr. Nuvangyaoma. And I just read the instructions, and I 
overlooked it, so it is my fault. [Laughter.]
    Good morning. My name is Timothy Nuvangyaoma. I am the 
chairman of the Hopi Tribe, and we are located in northeastern 
Arizona, and I am glad to be here to offer testimony this 
morning.
    And good morning, Chairwoman McCollum, Congressman Kilmer. 
My name is Timothy Nuvangyaoma, and I have the honor of serving 
as chairman of the Hopi Tribe. My testimony will focus on the 
needs related to the Hopi Arsenic Mitigation Project, the Hopi 
Detention Center, and the Hopi Unified School District.
    First, the Hopi Tribe requests the subcommittee provide 
funding for the completion of the Hopi Arsenic Mitigation 
Project, or HAMP. During my testimony before this subcommittee 
last year, I discussed the issue of arsenic contamination in 
the Hopi Tribe's water supply. The water for eight of the 
tribe's villages is contaminated with high levels of naturally-
occurring arsenic, levels that exceed the EPA's safe drinking 
water standards by as much as 3 times the allowable 
contaminants. This troubling situation led the tribe to create 
the HAMP, whose mission is to find a solution to the arsenic 
contamination. Since I appeared before the subcommittee last 
year, there have been some positive developments. First, the 
tribe greatly appreciate the subcommittee staff, along with 
Indian Health Service's representatives visiting us to tour 
HAMP. We are pleased to report that HAMP is now ranked as a 
priority project by IHS and the EPA. This designation provides 
full funding for Fiscal Years 2020 and 2021 through Safe 
Drinking Water Act Program allocations. However, those funds 
are contingent upon receiving the respective annual budget 
appropriations.
    In addition to HAMP, we are working with the BIA on the 
Hopi Regional Water Expansion Project. This project would 
extend the HAMP water system to schools, residences, and 
institutional facilities. The estimated project construction 
cost is approximately $7.5 million. The tribe is also working 
with the Bureau of Reclamation on a regional water master 
planning project. These critical water safety projects are not 
funded beyond the planning phase and are dependent on future 
congressional support.
    The Hopi tribe's second request may also be familiar to the 
subcommittee; that is, to help ensure timely completion of the 
permanent Hopi detention center. In response to the abrupt 
condemnation and closure of the Hopi detention center in 2016, 
the BIA worked with this subcommittee to identify and 
ultimately approve $5 million for the construction of a 
permanent detention facility, quoting a July 17 letter from the 
Interior Department to the subcommittee. ``Once initiated, 
project completion could be accomplished within 7 to 9 
months.''
    As of today, 2-and-a-half years after that letter, there is 
still no shovel in the ground. The BIA was supposed to install 
a pre-fabricated building because it was the quickest to 
deploy. However, without consulting the tribe, the BIA switched 
to a design build. Currently, an architect is designing a new 
detention center, but it is unclear when any actual 
construction will begin. To say that the tribe is frustrated is 
an understatement. Even yesterday, the BIA informed the tribe 
it was changing the size of the facility from 80 beds to 60 
beds. This was a unilateral decision by the BIA without 
consultation. We cannot wrap our heads around the fact that 
this subcommittee approved the $5 million 2-and-a-half years 
ago, and we have no broken ground, only a broken promise.
    Finally, the Hopi Tribe is asking for the subcommittee's 
support as we work to unify our seven tribally-controlled 
schools under a single school district. Our seven schools were 
originally operated by the BIE and the BIA. From 1991 to 2014, 
the Hopi Tribe gradually took over management of these schools 
under the Tribally-Controlled Schools Act. However, the schools 
remain individually operated by local school boards with little 
communication between the schools, our students struggled to 
achieve academic success.
    In order to address this issue, the tribal council enacted 
a new Hopi education code in August 2019. The code creates a 
new unified Hopi school system that will improve collaboration, 
consistency, and educational services within our schools. As we 
transition to a new unified Hopi school system, we will need 
assistance for several components of this undertaking, 
including funding to manage the transition and construct the 
central administration office. We have already identified the 
site for the administration building, and estimated total 
construction costs will be $2 million. Two, funding for new 
school construction. Four of our schools, including the nearly 
100-year-old Hopi Day School, are in very poor condition.
    And finally, more flexibility. Under the Tribally-
Controlled Schools Act formula, once the tribe is under a 
unified school system, application of the current formula would 
reduce our administrative cost grant by 25 percent. This will 
result in the annual loss of over $1 million to Hopi schools.
    The Hopi Tribe appreciates any support the subcommittee can 
lend to this positive transformation of our school system. I 
want to thank you for the opportunity to testify, and I am 
happy to answer any questions.
    [The statement of Mr. Nuvangyaoma follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you. Ms. Demmert.
    Ms. Demmert. Good morning. My name is Michelle Demmert. I 
am a citizen of Central Council, Tlingit and Haida Indian 
Tribes of Alaska, and I am the elected chief justice of our 
supreme court. I am also the violence against woman co-chair 
for the National Congress of American Indians.
    So today I would like to speak to the public issue safety 
issues in Alaska, which suffers as a result of the complex 
jurisdictional structure, the vast geographic challenges, and 
Public Law 280 issues. In addition, I will be making a 
suggested amendment to an appropriations statute from the 90s 
regarding legislating background checks. We desperately need 
this amendment for all of Indian Country.
    The 2013 Indian Law and Order Commission issues the report, 
``A Road Map for Making Native Americans Safer,'' and devoted a 
chapter to the unique issues in Alaska. The report found the 
absence of an effective State justice system has 
disproportionately harmed Alaska native women who are 
continually targeted for all forms of violence. Alaska Native 
women are overrepresented in the domestic violence victim 
population by 250 percent. They comprise 19 percent of the 
State population, but are 47 percent of reported rape victims. 
The report further stated that decentralized law enforcement 
with the State puts women at risk? Why is decentralized law 
enforcement? Because of Public Law 280.
    In the September 2019 report, Alaska ranked first as the 
State with the highest homicide rate among female victims 
killed by male offenders, 3 times the national rate. In the 
victims murdered, 40 percent were Alaska Native or American 
Indians. These staggering statistics have to stop. There are 
many barriers that make it difficult for Tlingit and Haida to 
adequately protect our Alaska Native women residing in what are 
often remote villages. The crux of the problem is that Alaska 
is a mandatory PL 280 State, which, in the 1950s, required the 
State to assume criminal and civil jurisdiction in matters 
involving Indians, an unfunded mandate.
    The National Institute of Justice has observed the impact 
of PL 280. The act violates tribal sovereignty by giving States 
concurrent criminal jurisdiction. The act is often cited as a 
rationale for denying PL 280 tribes funding for law 
enforcement. Public Law 280's impact on crime is largely 
unknown. This is because crime in an associated jurisdiction is 
often underreported or not reported at all. Forty percent of 
our communities in Alaska lack any law enforcement whatsoever.
    Legal scholars point out the issues. Although data is 
difficult to obtain from the BIA, we did determine that for 
Fiscal Year 1998--this is how long ago they have even looked at 
this issue--mandatory Public Law 280 tribes receive less than 
20 percent per capita of what non-Public Law 280 tribes 
received. So we need direct funding to tribes who are providing 
the solutions in their communities. We need regular funding for 
this effort that we can count on from year to year.
    In addition, funding barriers regarding domestic violence 
programs. While U.S. DOJ has attempted to direct funding 
towards domestic violence and sexual assault, many Federal 
programs do not allow us to spend money to serve perpetrators. 
If we can't get our perpetrators healthy, then we are setting 
them up for failure and more abuse of our women and children. 
Finally, we need equal access to the National Database for 
legitimate governmental purposes. In 2015, DOJ created the 
Tribal Access Program, also known as TAP, which provides 
eligible tribes with access to the Criminal Justice Information 
System.
    There are two issues with this access. One, we need a 
dedicated funding stream created for expanding the TAP Program 
and making it available to all interested tribes. Two, we need 
an amendment to what was originally an appropriations statute. 
Public Law 92-544 has been codified in 34 U.S. Code 41101. This 
statute allows States to legislate for legitimate governmental 
purposes to access the criminal database. We need to be 
included in this statute and need a technical fix. Right now, 
we can only access the database through a State or Federal 
purpose. We cannot legislate for our needs. Tribes have the 
same legitimate governmental needs for access to these records 
for possible elected official background checks, a person 
overseeing the tribe's finances, or caretaking for our elders. 
We need to be able to create these laws and put them in place 
to ensure the safety and health of our communities like any 
other sovereign.
    Instead, tribes have to use FBI channelers, non-
governmental agencies who have access to these databases, for 
these legitimate governmental purposes. Tribes should not be 
prejudiced. I have copies of the proposed fix with your staff. 
It is two amendments with three words, and I am told that the 
Department of Justice supports this amendment.
    So in summary, fully fund all tribal governmental needs, 
regardless of whether a tribe is located in a Public Law 280 
State. Expand grant programs that take into account the unique 
circumstances of Alaska tribes. Direct DOJ to create funding 
for perpetrators of gender-based violence, and amend 34 U.S. 
Code 41101. Gunalcheesh Haw'aa. Thank you taking the time to 
listen to our concerns. We look forward to the results of this 
committee.
    [The statement of Ms. Demmert follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Good morning.
    Ms. Jerue. Good morning. My name is Tami Truett Jerue. I am 
a citizen of the Anvik Tribe on the lower Yukon in Alaska. We 
are a Deg Hit'an Athabascan tribe, extremely remote. [Speaking 
native language.] I have just recently actually moved out of 
Anvik and moved to Fairbanks recently to take over the 
direction of the Alaska Native Women's Resource Center that I 
am also the executive director of.
    The Anvik Tribe has asked me to speak today regarding the 
following House appropriations considerations: support of the 
authority of the Alaska Native tribal governments to design and 
carry out local, culturally-relevant solutions to public safety 
and justice by appropriating funds, and specifically for Alaska 
tribes; develop and strengthen tribal law enforcement and 
judicial responses.
    For the past 3 years, we have seen new Department of 
Interior Office of Justice Services tribal justice support 
appropriations for tribes in Public Law 280 States. In the past 
year, there was a $10 million appropriation regarding tribes 
and tribal courts in Public Law 280 States. We thank the 
committee, and we ask that you continue funding this program 
and consider an increase, and support comprehensive tribal 
justice services as defined by the Alaska Tribes Beyond Funding 
Only Tribal Courts.
    Provide dedicated Federal funding through the Department of 
Justice and Department of Interior's various laws enforcement 
programs for Alaska tribal law enforcement; training officers 
for Alaska Native tribal governments since the State of Alaska 
has seriously underfunded and actually cut State funding for 
the VPS, Village Public Safety Officers, to ensure the greatest 
accountability; continue appropriating increased tribal funding 
under 42 U.S.C. Chapter 110, the Family Violence Prevention and 
Services Act, within the Department of Health and Human 
Services for lifesaving shelter and supportive services to 
ensure adequate shelter services are accessible in the villages 
for native women.
    Current appropriations for the tribal governments are 10 
percent funding stream, plus the $7 million that was 
appropriated. Thank you very much for that extra appropriation. 
Continue appropriating dedicated tribal funding under the 
Victims of Crime Act to support much-needed tribal crime victim 
services designed and managed by tribal governments. I think 
that is imperative, designed and managed by tribal governments.
    The Anvik Tribe is a Deg Hit'an Athabascan community with a 
rich history. We are located on the west bank of the Yukon 
River in the interior of Alaska. We are an isolated tribe with 
378 enrolled members, with only 100 members living on our 
tribal traditional lands. Access to Anvik is by small plane, 
boat, or snow machine, depending on the season. With permission 
and support of the Anvik Tribal Council, I am here today to 
testimony on the harsh realities that we fact every day.
    When we talk about public safety and justice for Alaska 
tribes, it is a very complex discussion. Chapter 2 of the 2013 
Indian Law and Order Commission report to Congress and the 
President documents very well our challenges and barriers. Like 
over half of Alaska's tribes, Anvik does not have law 
enforcement and continues to not have law enforcement. This 
absence of law enforcement, combined with other challenges 
facing Alaska tribes, results in an unacceptable lack of public 
safety and justice.
    Lack of resources, such as safe shelter, sexual assault 
advocacy, crisis services, jails, treatment, and other 
interventions continue to impact victims, survivors, and their 
families, their community, and the perpetrators. My home has 
often been the safe house in our community in many instances. 
For victims and their children of violence, some villages have 
these safehouses, and some do not have that opportunity. My 
husband was a former chief for 28 years, and other tribal 
citizens who are the intervenors in basically in anything that 
happens oftentimes in terms of crisis, including the dangerous 
ones. Given the lack of law enforcement and resources, we 
respond to violence, search and rescue, medical emergencies, 
and deaths.
    Is there law enforcement? Not law enforcement as defined by 
the State or Federal Government, but tribal citizens have had 
to maintain order as best they can to keep women and children 
and other safe. This is a common occurrence in our rural 
communities in Alaska, and unfortunately has become a normal 
part of village life. At this point in time, Anvik does not 
have law enforcement, again. The only other law enforcement 
options are the Alaska State troopers, who are located in 
Antiak, a hub community that is an hour-and-a-half by airplane 
away from the community, and their responsible for 46 other 
remote and rural communities, and they take two week on, two 
week off, so there is never more than two troopers at the post 
at one time.
    Anvik often has impassable weather for days, leaving 
victims vulnerable and crimes neglected. This seems like an 
unending complaint, but in reality, we are repeating ourselves. 
To help understand the unique conditions that exist in Alaska 
and all over the U.S., demand that we become creative and 
resourceful in our ability to provide that response. As I just 
shared, there has been a consistent pattern in adequate State 
law enforcement response and a lack of Federal appropriations 
for tribal justice responses, including the lack of 
comprehensive systemic infrastructure to address safety and 
accountability for the extreme levels of domestic and sexual 
violence in Alaska's villages.
    Please review the findings and recommendations from the 
U.S. Commission on Civil Rights 2018 briefing report titled, 
``Broken Promises: Continuing Federal Funding Shortfall for 
Native Americans.'' I will go ahead and cut this short a 
little. I do want to repeat a quote that my daughter----
    Ms. McCollum. I am doing that because I was going to pull 
it out and made sure you read it. Please.
    Ms. Jerue. My daughter had the opportunity to provide 
testimony at the 2019 Annual Violence Against Women Government 
to Government Tribal Consultation. She said, ``As a young girl, 
I had never imagined that I would have to be here today 
pleading to have adequate funding and assistance to protect my 
sisters, my aunts, and my cousins. I had sworn that I wouldn't 
get into this line of work because I saw the toll it took on my 
mother and my family. I have seen how hard our advocates work 
with little resources that they have. I have seen how hard our 
people are trying to make a change. I am honored, but I am also 
saddened that I am here as the next generation to provide my 
testimony on the realities that we face day in and day out."
    And as her mother, of course, I am very proud of her, but I 
really am not proud that she has to continue telling this same 
message. Thank you.
    [The statement of Ms. Jerue follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
    Ms.McCollum. Thank you. And thank you for sharing that. 
That was very powerful when I read it. I have read it twice. 
And when we do our final vote on the passage for Women Against 
Violence Act, I am going to submit that as part of my statement 
to the record. Thank you for sharing that. Thank your daughter 
for her work. My daughter has been in similar lines of work, 
but not facing the same challenges that you and your daughter 
and your sisters are facing. So thank you.
    Ms. Jerue. Thank you.
    Ms. McCollum. Mr. Kilmer, do you have a question, concern?
    Mr. Kilmer. No. Thank you for your testimony.
    Ms. McCollum. Mr. Joyce, welcome. I told people you wanted 
us to get going so that we didn't hold anybody up. Thank you 
for your professional courtesy.
    Mr. Joyce. Well, I appreciate your moving forward. I 
apologize for being late. I was at a breakfast with tribal 
members that Congressman Cole was hosting, and even though I 
said I was getting out on time, we kept chatting. So I 
appreciate the opportunity for all of you being here. Chairman 
Rambler, I missed your testimony, but I know that you have a 
very interesting initiative on juvenile justice. Could you 
explain why the BIA is refusing to fund that?
    Mr. Rambler. On that issue, what we have learned is that on 
the juvenile detainees is that in spite of the services being 
in our scope of work within our 638 contract, in spite of that, 
the BIA is only funding direct service tribes and not 638 
tribes like us. You know, Congress intended us to grow as a 
people to empower ourselves and to enhance our sovereignty by 
providing this opportunity to contract through the Self-
Determination Act. So that what is we have done. And it seems 
like we are being penalized to enhance our growth, and these 
funds are just reserved for the direct service tribes. And 
whatever is there, I know it is not sufficient as it is, too.
    Mr. Joyce. I am sorry to hear that. Maybe it is something 
we could talk about further.
    Ms. McCollum. Mm-hmm.
    Mr. Joyce. I look forward to working with you all, and 
thank you all for being here and your powerful testimony.
    Ms. McCollum. Chairman Rambler, the language that you 
referred to with a cap is something that we sought to remove on 
the House side. If you would talk to our colleagues in the 
Senate, I think that is something that we are hopeful could be 
removed. It is awkward to say, but I am going to say it. I 
don't think the Senate understood the impact of that language. 
We do, and if you could share that with either their counsel or 
with some of the members both on the Appropriations or the 
authorization, think we can see that go away.
    Mr. Rambler. I sure will.
    Ms. McCollum. Okay. The EPA under the President's budgets 
had severe cuts in the Clean Drinking Water Program. That was 
the President's, you know, he proposed that. We are going to 
protect clean drinking water out of this subcommittee. We did 
last Congress, bipartisan. We will do it again this Congress. 
So we hope to be able to see your project move forward, so 
thank you for sharing with that.
    And then, you know, this time and time again is very 
frustrating for us. We make it very clear that we expect the 
BIA, Department of Interior, the Bureau of Indian Education, 
IHS, we expect all of them to do meaningful, deliberate, 
thoughtful, fully participatory consultation. And it is a great 
frustration to all of us when they hear that they are not doing 
that. And we have been trying to get their attention, and we 
are going to have to maybe figure out a way to really make sure 
that we have their attention. And I know this is something that 
our Senate colleagues feel frustration with, too. Repeating a 
broken promise to us on consultation is something we don't want 
to hear. We want to heart that, so thank you for sharing that.
    The public laws that you, who spoke on behalf of our 
sisters, whose lives are under, you know, threat and 
intimidation, they have to go through either the authorizing 
committee. Maybe we can start either in the justice committee 
or we can start in the authorization for natural resources. We 
would like to work with you on that because they are not even 
public laws that I on this committee with my colleagues, you 
know, directly are involved with. For us to put something like 
that in an appropriation bill could be a fool's errand because 
it could end up coming out on the floor because of 
jurisdictional issues. And then I don't want to start down a 
road that is not going to have a good ending for us. So we 
would like to work with you to resolve that, but that is 
something at this time that we would find very difficult.
    The TAP funds, I will bring that up to our colleague, and I 
know Mr. Joyce will bring it up with the ranking member of that 
appropriations committee, too. And thank you for sharing that, 
though, because they don't have the public witness for Native 
American improvements the way that we do, so this gives us an 
opportunity to have a conversation with our colleagues.
    So thank you all for your testimony. We took lots of notes, 
and we look forward moving together to make sure that Indian 
Country has the justice it deserves. Thank you.
    Voices. Thank you.
    Ms. McCollum. If the second panel would please come up, and 
we will switch out the nameplates.
                              ----------                              

                                      Wednesday, February 12, 2020.

    AMERICAN INDIAN AND ALASKA NATIVE PUBLIC WITNESS DAY 2--PANEL 2


                               WITNESSES

RODNEY BORDEAUX, PRESIDENT, ROSEBUD SIOUX TRIBE
DAVID BEAN, CHAIRMAN, PUYALLUP INDIAN TRIBE
RICHARD PETERSON, CHAIRMAN, RED CLIFF BAND OF LAKE SUPERIOR CHIPPEWA
TRACEY TREPPA, VICE CHAIRPERSON, HABEMATOLEL POMO OF UPPER LAKE
    Ms. McCollum. Good morning. So once again, the green light 
will start after you start your testimony, so please introduce 
yourself. Start your testimony. The light will go on for 5 
minutes. The yellow will mean 1 minute remaining, and then the 
red means please conclude. So if you would lead us off, sir. 
Thank you, and welcome.
    Mr. Bordeaux. Good morning, Chairwoman McCollum and members 
of the committee. My name is Rodney Bordeaux. I am president of 
the Rosebud Sioux Tribe. I want to thank you, Chairwoman, for 
coming out to Rosebud last October. We appreciate it, and we 
were glad to host you.
    The Rosebud Sioux Tribe is amongst the top 10 land-based 
tribes in the United States. Our land consists of approximately 
1 million acres. We have close to 35,000 enrolled tribal 
members, 30,000 of which live on or near our reservation. 
Through our 1851 and 1868 treaties with the United States, we 
have ceded millions of acres of land, and remain steadfast and 
resolute in our pledge of peace in exchange for the U.S. 
agreeing to ensure that our lands will remain livable and 
peaceful.
    A key responsibility of the Rosebud Sioux Tribe and the 
U.S. is provide public safety and justice services to our 
tribal members, others living and working on our lands, as well 
as the general public visiting and traveling through our 
reservation. Some of our main priorities are our adult 
correctional facility and the juvenile detention center. Our 
ACF, which is adult correctional facility, is a 220-bed 
facility and houses 130 inmates on the average. Eighty-nine 
percent of the population is meth related, I mean, in terms of 
arrests. The facility is in need of $600,000 in additional 
funding for personnel, food, transport, training, and 
counseling services. Our JDC, juvenile detention center, has 21 
employees and has a need for 30. This facility has a lot of 
structural problems, and we basically need a new facility.
    Our law enforcement services covering the 1 million acres 
responds to 22,000 service calls every year. We only have 25 
officers and four criminal investigators, so we need an 
additional 20 officers at a cost of approximately $1 million, 
and we need to acquire 20 additional police units at an 
approximate cost of $800,000. To give you an idea of the 
magnitude of our meth problem, last week, our officers 
confiscated and busted a young lady, and we recovered 3 pounds 
of meth, marijuana, and opioids. The street value of the meth 
alone came to about $240,000. So we are really aggressive in 
our busts, and we are leading all the tribes in our area in 
regard to busts.
    So despite our funding levels, we are working with local 
counties, sheriffs departments, city officers, and we are 
developing memorandums of agreement. We are also working within 
southcentral South Dakota. We are working with Cherry County in 
Nebraska law enforcement, and we have good relationships with 
them. We share information, and we are going forward. And those 
departments are vastly underfunded as well, so they don't bring 
nothing to the table, just sharing information and working 
together. So despite that, we are building a good relationship.
    Although we are opposed to the Keystone XL pipeline that 
will be coming through our territories, there is a likelihood 
that it may begin construction in August 2020. With that comes 
the man camps, so we must protect our women and children, and 
we support the Violence Against Women Act reauthorization with 
enhanced tribal jurisdiction. Our tribal courts, we have a 
current budget of $1.5 million with BIA and other grant 
funding. The grant funding is conditional. It is very limited. 
So we request another $500,000 to keep our current level of 
funding. A new courthouse. It is a facility built in the 80s, 
and it is just seen its day, so we need a new courthouse 
facility. And we working with an A&E firm on trying to get some 
figures in that regard.
    Another big service that provides needed ambulatories are 
our ambulance service. It was founded in 1968, and it was first 
American Indian ambulance service in the country. It serves 
over 30,000 tribal members 24 hours a day and responds to 6,000 
calls on the average per year. It remains chronically 
underfunded, and the Indian Health Service does not provide any 
funding for medical transports. Mental health patients, it is 
kind of dangerous for our crews, so we are working with IHS to 
resolve that issue, and it is their job to do that, and they 
don't provide the funding for that.
    So in conclusion, we need a detox facility, a new JDC 
facility, a new courthouse/justice center, and a new ambulance 
facility as well as increased law enforcement and court 
personnel costs. We would like for you to explore options to 
combine public safety-related funding from the Interior, Health 
and Human Services, and the Justice Department, that would 
allow tribes on a need-based criteria. Thank you.
    [The statement of Mr. Bordeaux follows:] 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Bean. [Speaking native language.] Good day, honorable 
friends. Thank you for this time on the floor. My name is 
[Speaking native language] My English name is David Bean, and I 
am the chairman of the Puyallup Tribe. The Puyallup Tribal 
Council is responsible for providing for our 5,500 members and 
25,000 Native Americans who live within our service area. We 
provide healthcare services, educational services, social 
services, public safety services, and a myriad of social 
service programs to people in or community. People in our 
community rely on the continued resources and support through 
Federal appropriations, which reflect the trust responsibility 
and treaty obligations to American Indians and Alaska Natives 
and tribes.
    Today I am going to talk about the tribe's top priority: 
public safety. Keeping citizens safe and secure is the most 
basic of duties for any government. This is no less true for 
tribes. My focus today on public safety is the result of this 
past summer that none of us ever want to relive. There were a 
series of shooting on or near our reservation resulting in 
seven people being hospitalized and three dead. Our staff, they 
felt terrorized. Our council struggled between balancing the 
concerns and safety of our staff with providing services to our 
community. This occurred in the height of summer when people 
are outside enjoying the warm sun, enjoying the beautiful 
northwest, you know, a time when our communities are 
celebrating one another. This occurred in a place where our 
families are supposed to feel safe, where our employees are 
supposed to feel safe in their work environment, where our kids 
are supposed to play outside without fear of any stray bullets.
    Our law enforcement staff, they work 12-hour days, 6 days a 
week. They are tired. They tell me that this escalating 
violence is associated with a resurgence of gang violence. At 
one time, we identified 28 gangs within our reservation. We 
worked collaboratively with our neighboring governments and 
fellow partners to address this gang problem. Unfortunately, 
what we now know today is that the gangs did not go away. They 
moved. The gang activity that they are involved in--drug 
trafficking, human trafficking, weapons sales, and turf wars--
moved with them. They moved blocks away from our administration 
and our housing community, our tribal housing developments. 
They moved within blocks of our administration, our elder 
center, and our health facility.
    We are in the middle of a deadly game of whack-a-mole. What 
we are lacking is dedicated Federal resources needed to combat 
this problem. Our officers, like I stated a moment ago, are 
working numerous hours of overtime. And when we reached out to 
the BIA, we were told that they had no resources to help us. 
The BIA's response was simply inadequate. It was irresponsible. 
It left me wondering how the BIA found the resources to send 
multiple law enforcement agents to set up a command center to 
monitor and arrest people who were engaged what was one of the 
most historic and positive gatherings in Indian people in a 
generation at the Standing Rock Sioux Reservation. But they 
could not find even one officer to send to help us during our 
time of crisis, during our time of fear, during a time of 
terror.
    Apparently, oil pipelines are more important than our 
tribal health centers and our elders' care centers. In short, I 
said it once, and I will say it again, our officers are tired, 
and they need reinforcements. We ask that the subcommittee 
provide increased funding for tribes like Puyallup, who are in 
PL 280 States and have received minimal directed law 
enforcement funding from the Bureau of Indian Affairs.
    A critical part of our law enforcement program is our 
detention facility. We have a 28-bed adult correction facility. 
We work closely with the OJS to develop and agree upon 
operating costs of $2.7 million. Sadly, the BIA only provides 
26 percent of the need to operate the facility. We appreciate 
the $105 million that Congress provided for additional 
correctional detention centers. We know this is not enough to 
keep pace with inflation. This is not enough to make the 
Puyallup Tribe whole for the job that we are doing on behalf of 
the United States government. This is equally true for our 
tribal courts and programs.
    As I conclude my remarks, I do want to express the tribe's 
strong support for our natural resource programs. As we work to 
make our communities safer, we must work to make it healthier. 
This means strong support for our natural resources programs, 
which are critical to our culture, our lifestyle, and our 
diets. We also want to emphasize the need for increased funding 
for BIE and for our Chief Leschi School. And finally, I would 
be remiss if I did not join my fellow tribal leaders in calling 
for increased funding for Indian Health Service. We support the 
comments and testimony of the Northwest Indian Fish Commission 
as well.
    Thank you for this time on the floor.
    [The statement of Mr. Bean follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you. Mr. Peterson, before you start, we 
have a group of young Native American leaders, the future, walk 
into the room. And if one of you would come forward and 
identify what group you are with, that would be terrific, and 
thank you so much for being here. Just press the little red 
button there.
    Ms. Owens. Good morning. My name is Tyler Owens, and I come 
from the Gila River Indian Community. Here we have three 
members of our Akimel O'odham/Pee-Posh Youth Council that has 
been going for over 25, 30 years. And we are one of the 
longest-standing tribal youth councils that takes place in the 
U.S., as well as we have our Junior Miss Gila River, and myself 
as Ms. Gila River, here. Thank you for having us.
    Ms. McCollum. We are so welcomed to have you here, and we 
look forward to you taking good care of not only Indian 
Country, but the United States, our future leaders here. Thank 
you for coming. Thank you.
    Thank you, Mr. Peterson, for indulging.
    Mr. Peterson. Is it working? [Speaking native language.] My 
name is Rick Peterson. I am the tribal chairman of the Red 
Cliff Band of Lake Superior Chippewa in northern Wisconsin. 
Well, first, I want to thank Chairwoman McCollum and the 
committee for allowing us to come and voice our concerns. I was 
here last year and another time before, and what I am here for 
echoes the testimony of my fellow tribal leaders since I have 
been sitting in this room.
    I have two issues today. Again, I bring back the issue of 
the need to increase the funding for tribal police departments. 
Our police department, well, the drug epidemic, as we know, the 
meth, especially, our community is under assault by the meth, 
and the funding that we get from the BIA is totally inadequate. 
Our budget that we submitted was for over $500,000. We have a 
five-member police force. We were awarded $160,000.
    Multiple times we have put in for end-of-year funding for 
equipment. Our police chief, he had the newest vehicle, and his 
vehicle was 12 years old. We, again, put in for end-of-year 
funding last year, and we were given some, but police equipment 
was not part of it, vehicles. I want to tell you a little story 
about what we had to do to get new police vehicles. We reached 
out to another tribe in Wisconsin and asked if they would help 
fund two new police vehicles for us. That is a travesty. It 
really is. We thank the Forest County Potawatomi Tribe of 
Wisconsin for funding that. They gave us enough money to get 
two new police vehicles.
    But this is an ongoing problem. This is something that not 
only our tribe faces, but tribes throughout Indian Country 
face. We are doing our best to fight these issues, these drug-
related issues. With the drug-related issues, our police 
department is increasingly stretched. ICW. Our cases have 
increased tenfold, and every time ICW staff has to go to a 
house, it requires a police officer to be there, and they are 
so inadequately funded. And, you know, I come back to the table 
again asking that the Appropriations Committee increase the 
base-level funding. We need to depend on that money year in, 
year out. Right now we don't. You know, every year, you know, 
we ask ourselves are we going to be able to support this police 
department a year from now, and that is a question that we 
can't plan around.
    The second item I am here for is the need for the BIA to 
increase the funding for tribal roads department. Our tribal 
roads department, I will read a statement here, it says, ``The 
Red Cliff Band of Lake Superior Chippewa has reached a critical 
impasse in its ability to effectively maintain BIA roads within 
the reservation boundaries. This is due to the practice of 
deferring maintenance due to the lack of funding provided in 
self-determination contracts with the Bureau of Indian Affairs. 
All reasonable attempts have been made to secure additional 
funding to meet the needs of the programs, including U.S. and 
Wisconsin Departments of Transportation, Housing and Urban 
Development, BIA programs, to provide new equipment and 
maintenance facility.''
    With that statement I want to wrap up. I am running out of 
time here. Right around Thanksgiving, we had a storm where we 
had 3 feet of snow overnight. Our community was shut down for 5 
days. Every piece of equipment we had broke down. Our grater is 
25 years old. There was an emergency call in the middle of the 
night. The ambulance got stuck in the middle of the road for 2 
hours. Community members had to come out with their trucks to 
plow him out. Again, as I mentioned with the police vehicles, 
this is a travesty, and it is a health and safety issue now. 
Miigwetch. Thank you.
    [The statement of Mr. Peterson follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you. Please.
    Ms. Treppa. Good morning, Chairwoman McCollum, Ranking 
Member Joyce, and honorable members of the subcommittee. Can 
you hear me okay? My name is Tracey Treppa. I am the vice 
chairperson of Habematolel Pomo of Upper Lake. We are located 
in a rural county just northwest of Sacramento.
    Like most tribes, we have had a complicated and often 
tragic relationship with the Federal Government. My people 
survived the U.S. Army's attack during Bloody Island Massacre. 
We persevered through termination. We have overcome the loss of 
our lands, and today we are still here and committed to 
building a better tribal nation for the next general of 
Habematolel children. We have just under 300 tribal members and 
a land base of 11.24 acres. The tribe's executive council is 
working to restore our lands, provide for our children, and 
build a robust tribal legal system to protect the rule of law.
    Today I want to discuss two funding priorities that are 
absolutely essential to the rule of law in fostering healthy 
and safe communities. The first is tribal court funding for 
tribes in Public Law 280 States, and the second is funding for 
private safety training. I will address those priorities now.
    Tribal courts are essential to the effective exercise of 
tribal sovereignty. Tribal courts administer justice in our 
communities, provide a forum for tribes to receive child 
welfare cases, and ensure that law and order is upheld and 
protected. Unfortunately, for years, tribes located in Public 
Law 280 States have not had access to Federal funding to create 
and sustain tribal court systems. This lack of resources 
hindered my own tribe's ability to create a court. For years, 
the BIA prioritized tribes in non-Public Law 280 States since 
the Federal Government was primarily responsible for criminal 
jurisdiction in Indian Country there. That left tribes in 
public States, such as California, with no Federal support to 
create or sustain a tribal judiciary. They Habematolel 
advocated for change and pleaded with Congress to provide us 
with the same tribal court funding support as tribes in non-
Public Law 280 received.
    Fortunately, in 2015, Congress acted and required the BIA 
to quantify how much it would cost to provide tribal court 
funding to tribes in PL 280 States. The BIA sent a report to 
Congress, which found that it funded tribal courts in non-PL 
280 States at a mere 6.814 percent of the true cost of 
operating and supporting the court. Further, the report 
estimated it would cost $1.69 million to fund tribal courts in 
Public Law 280 States at the same level. The BIA's report noted 
that while----
    Ms. McCollum. We are fine.
    Ms. Treppa. Okay. $16.9 million would not be widely viewed 
as robust, or perhaps even adequate. It would match existing 
levels of funding in non-PL 280 States, which reflect a 
constrained physical environment. Congress took the BIA's 
report and acted quickly to appropriate money for tribes in PL 
280 States. In the 2016 Consolidated Appropriations Act, 
Congress made $10 million in tribal court funding available to 
tribes in PL 280 States. This was the first time that ever 
happened.
    After this law was passed, our tribe submitted a funding 
request to the BIA to help us create a tribal judiciary. The 
BIA awarded us $72,000 to begin the work on the system. This 
may not seem like much, but our tribe has made a significant 
difference. It allowed us to cover the startup costs that 
previously had hindered our ability to create a judiciary. The 
tribe used the funds to develop a judicial code, court rules, 
bench book, child welfare code, and conduct site visits to 
other tribal courts.
    I am proud to say that now the legal infrastructure has 
been created to support our judiciary. We will be looking to 
retain our first judge and begin hearing cases within a year. 
This would not be possible without the support of the 
subcommittee in funding direct to tribal courts in PL 280 
States. I strongly urge you retain this funding and expand upon 
it.
    The second priority I want to discuss is funding for public 
safety training. The tribe strongly supports the mission of the 
BIA's Office of Justice, or OJS, and its support for training 
opportunities in Indian Country. The tribe received funding 
from OJS in 2019 to host a jurisdictional training in our 
homelands. The training took place in February of last year. 
This intergovernmental event convened tribal, State, local, and 
Federal Governments and governmental agencies.
    The training covered PL 280 jurisdiction, Violence Against 
Women Act, the Indian Child Welfare Act, and the opioid crisis. 
It was great to see the different governments and government 
agencies come together to learn how each of our jurisdictions 
interact and impact the others. The event was one of the 
biggest and most diverse intergovernmental trainings to ever 
take place in Lake County.
    We have seen a noticeable positive impact in our 
coordination with neighboring jurisdictions. The tribe 
appreciates Congress' commitment to fund these training 
opportunities, and we strongly encourage the subcommittee to 
maintain and expand these training funds.
    That concludes my testimony. Thank you.
    [The statement of Ms. Treppa follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms.McCollum. Thank you. Mr. Kilmer.
    Mr. Kilmer. Thank you, Madam Chair, and thanks to each of 
you for your testimony. Chairman Bean, I want to thank you for 
your testimony. Your words are important. Your work is really 
important, too. You appropriately called out just how big a 
role the tribe plays in employment in our region and providing 
services in our region, natural resource leadership. And I know 
this is a public safety panel, but I want to just have you 
speak a bit to the work that the tribe is doing around natural 
resources and how important those issues are from a treaty 
rights standpoint, from the standpoint of the economics and 
culture of your tribe.
    Mr. Bean. Thank you, Congressman. That is a great question. 
And, you know, when we signed the Medicine Creek Treaty of 
1854, that treaty guaranteed our right to fish and hunt and 
gather, as we have done so since the beginning of time. And, 
you know, we are partners with the Federal Government in 
protecting the natural resources, and that extends to 
protecting the habitat that provides nourishment and protection 
for our natural resources, be it fish, elk, roots, and berries. 
You know, it is a part of our way of life. It is a part of our 
culture. It is part of our DNA. And so it is vitally important.
    These natural resources are under attack by natural threats 
and manmade threats, and we need our Federal partners' help in 
protecting the habitat and continuing to raise fish in our 
hatcheries that benefit not just tribes, but non-native 
fishermen throughout the State of Washington. It is vital to 
the economy in the State of Washington. It is vital to tribal 
economies. It is vital to our culture and our traditional ways.
    You know, we are taught that we are connected to Mother 
Earth, and that, you know, being salmon people, we are taught 
that when our salmon go away, then we cease to exist. And, you 
know, for the first time in many years, our fishermen are 
sitting on the banks of the river. There are no fish for our 
fisherman to catch, you know. We are having ceremonies, and 
when we open our ceremonies, there are no fish to open our 
ceremonies, and that is something we have never seen before. So 
we need our Federal Government to help in protecting our salmon 
and our natural resources. So thank you for that question.
    Mr. Kilmer. Thank you. Thank you, Madam Chair.
    Ms. McCollum. Thank you. Mr. Joyce.
    Mr. Joyce. Thank you, Madam Chair. Thank you all for coming 
today and for your testimony. Chairman Bean, I want to go back 
to you. I heard you talking about how you do get some funds 
from BIA, and then you supplement those funds with your own 
funds, but I don't believe I heard you discuss the Department 
of Justice or any of the grants that are available through DOJ. 
Is there a reason?
    Mr. Bean. We turn over every stone, and we apply for every 
grant available, and it is quite simply the funding is not 
there.
    Mr. Joyce. So do you think it might be better if the 
Department of Justice moved that money to the BIA and let them 
award it in the grant programs?
    Mr. Bean. I would love to see, you know, some additional 
funding in whatever form----
    Ms. McCollum. Yeah.
    Mr. Bean [continuing]. In whatever form because, for 
example, with limited time, I didn't get to talk about, you 
know, our law enforcement program is a $5 million budget. The 
BIA provides 10 percent of that, which means the tribe is 
carrying the water for our Federal relatives, and carrying the 
trust responsibility to not just our Puyallup tribal community, 
but the 25,000 natives that live in and on and around our 
reservation, on top of our non-native neighbors. You know, we 
are we are doing our best to stretch the resources. So however 
Congress sees fit to, welcome expanded funding because the need 
and what is actually provided to meet that need is vastly 
different.
    We are working with our neighboring jurisdictions. You 
know, we are thankful for the City of Tacoma Police Department, 
Pierce County sheriff, and then the State patrol. You know, 
they came and they responded during the gang violence this 
summer. And we are having to partner with them, and we are 
having to share resources. So when Congress sends money to 
tribes or States, it is not just benefiting one over the other. 
It is benefitting the region. So we welcome expanded resources 
however we can get them, sir.
    Mr. Joyce. Great. Thank you.
    Mr. Bean. Thank you.
    Mr. Joyce. Thank you all for coming.
    Ms. McCollum. People are leaving. I'm going to ask a 
question.
    Voice. Oh. [Laughter.]
    Ms. McCollum. So one of the things that I heard, and I'm 
glad that you brought it up, especially with what is happening 
in Rosebud, is meth is still a problem. And there has been such 
a focus on opioids, and rightly so because pharmaceutical 
companies, through deceptive marketing, hooked, you know, 
millions and millions of Americans in Indian Country and 
throughout the country. But meth is still a huge problem, and 
it presents different challenges for law enforcements and for 
communities in general. So I am assuming that you are seeing if 
someone is cooking and manufacturing meth in a house, all of a 
sudden you lose housing on a reservation.
    Mr. Bean. Yeah.
    Ms. McCollum. That is correct. Thank you for pointing that 
out. So the whole issue about, you know, grants kind of looking 
at each other, I think one of the challenges and frustrations 
that I have had is tribal nations have to have you know, like 
full-time grant writers, and that costs money out of the tribal 
budgets to begin with. And then if you are applying to a 
Department of Justice grant and a BIA grant, and one comes 
through, but the other one doesn't come through, you don't have 
a holistic approach that you need. Mr. Cole and I have been 
kind of working together on kind of consolidating some of the 
healthcare needs. We are not there yet, but at least we are 
having those discussions.
    So I want you to know I am going to reach out, along with 
Mr. Joyce, to our colleagues on the other committees that you 
apply for grants. Do you have any anything that, you know, Mr. 
Joyce, and Mr. Kilmer, and I should kind of keep in the back of 
our head of when we talk to our colleagues about what would a 
grant application look like if you are applying to different 
agencies to solve a problem? If you can give me one or two 
things I should be thinking about as I have a conversation with 
my colleagues.
    Mr. Bean. Thank you for raising that issue. Just to be 
clear, I want to make sure that tribes, we do our best to leave 
no stone unturned. So lack of funding, it is not for a lack of 
effort, you know. They are highly competitive, and there are 
complex formula. So if you simplify the formula, it is just 
competitive. If you have a larger population, guess what? Then 
the funds follow the larger population into a small tribe. You 
know, how do we compete with tribes with larger populations?
    And so I think that is one thing to be mindful of because 
while we are 5,500, we serve a native population of 25,000. The 
City of Tacoma is a part of the Federal relocation efforts that 
has resulted in these large populations of natives from over, 
you know, 200 tribes across the United States. Now, if we go up 
against a tribe, let's say, for example, has, you know, 50,000-
, 60,000-member population or a quarter million population, the 
competition is just not there. We are considered a small tribe, 
but we provide for a lot of people much larger than the size of 
our enrollment.
    Ms. McCollum. That is a great point to make. And, Mr. 
Peterson, I know what you mean about our rural communities 
being extraordinarily isolated. I have been in your part of 
Wisconsin, and you are very isolated, whether it is a blowdown, 
a tornado, a snowstorm. And not to have the right equipment to 
get in, it can take hours, and, as you said, days to take care 
of people. You can lose electricity, and then you are not 
charging your cell phone. I mean, it is a whole cascading 
effect. So when you look at doing equipment grants, life, 
health, and safety really isn't one of that the factors that 
comes into it when you are applying for road maintenance help, 
for graders and things like that, is it?
    Mr. Peterson. No, it is not at all. And that would 
definitely, you know, adding that aspect to any sort of a grant 
application, even if it was a single question, I believe would 
open the eyes of, you know, the reality of the situation that 
we face. Our equipment, like I said, every piece of major 
equipment that we had failed. Our grader is 25 years old. Our 
trucks are zip-tied together, and I don't say that 
sarcastically.
    We are not by any means a wealthy tribe. We had to take 
money that we don't have, and we had to hire private 
contractors to come in and clear Federal roads and take away 
the snow. We actually had to, yeah, get construction companies 
to come in and remove this snow because our equipment was all 
down. That is the reality of what we face.
    Ms. McCollum. You know, I am from Minnesota. Certain 
weather events can trigger a natural disaster response, FEMA, 
other kinds of help. But snow-related events and extreme cold 
weather events don't qualify for that, only under very, very, 
very few circumstances. And by the time the help gets there, 
you know, people have really suffered. So thank you for 
bringing that up, and that is what is so great about having 
such a diverse panel. Yes, did you want to add something?
    Mr. Bordeaux. Yeah. I would like to add in regard to Public 
Law 102477, I think there is a good model for DOJ to work with 
the Department of Interior and the tribes to create a good 
model for that funding.
    Ms. McCollum. Yeah.
    Mr. Bordeaux. We talked about, you know, CTAS and all of 
that coming over to the bureau. I think if you can call on 
Interior to develop a plan for that, I think that will really 
work for us.
    Ms. McCollum. Well, we want Interior to develop a plan, but 
also do a consultation.
    Mr. Bordeaux. Definitely.
    Ms. McCollum. And congratulations on moving forward in 
California. Thank you all for your testimony and your time.
    Voice. Thank you.
    Ms. McCollum. And if our next panel on public safety and 
justice could come forward to the table, please. So we will 
wait for a second for the door to close and for the other panel 
to leave.
                              ----------                              

                                      Wednesday, February 12, 2020.

    AMERICAN INDIAN AND ALASKA NATIVE PUBLIC WITNESS DAY 2--PANEL 3


                               WITNESSES

KEVIN ALLIS, CHIEF EXECUTIVE OFFICER, NATIONAL CONGRESS OF AMERICAN 
    INDIANS
JAMIE HENIO, RAMAH NAVAJO COUNCIL DELEGATE, RAMAH NAVAJO ABIGAIL ECHO-
    HAWK, DIRECTOR, URBAN INDIAN HEALTH INSTITUTE
    Ms. McCollum. Thank you all for being here. Five minutes to 
testify. Your introduction does not count against those 5 
minutes. Yellow light, 1 minute remaining. Red light and then I 
have to start thinking about lightly tapping with the gavel. 
Good morning, sir, if you would please lead us off.
    Mr. Allis. Good morning, Chairman McCollum, Ranking Member 
Joyce, members of the committee. My name is Kevin Allis. I am 
an enrolled member of the Forest County Potawatomi Community in 
Wisconsin. I am very proud to hear that my tribe assisted a 
neighboring tribe with their situation. I am also the CEO of 
the National Congress of American Indians.
    Chairwoman McCollum, Ranking Member Joyce, and members of 
the subcommittee, thank you again for holding this hearing and 
tribal appropriations priorities. My name is Kevin Allis, an 
enrolled member of Forest County Potawatomi Community, CEO of 
National Congress of American Indians. And I will say I have 10 
years as a Baltimore City police officer, so I was on the front 
lines of law enforcement and criminal justice, and know what 
happens to communities when the resources and the personnel 
aren't there to make it happen.
    NCAI's requests are rooted in the treaties and agreements 
that our tribal nations made with the United States government. 
However, as you know, a recent assessment by the U.S. 
Commission on Civil Rights found that Federal funding for 
Native American programs across government remains grossly 
inadequate to meet the most basic needs the Federal Government 
is obligated to provide. Tribal leaders and citizens have known 
for decades, and we urge Congress to fully fund the U.S. 
government's treaty and statutory obligations. Before talking 
about our specific request, I would like to address the 
significant challenges tribal nations must contend with due to 
persisting uncertainty in the Federal budget process.
    Last year's government shutdown was a particularly 
prominent example of the negative effects of breakdowns in the 
Federal budget process, but tribal nations also must regularly 
contend with uncertainty when planning and delivering services 
to their citizens because of Congress' reliance on short-term 
continuing resolutions. Basic healthcare provided by IHS and 
essential services, like law enforcement and emergency response 
provided by the BIA, are regularly impacted. NCAI for years has 
urged Congress to provide advanced appropriations for IHS and 
BIA to protect tribal programs from further uncertainty, and I 
thank the leadership and members of this subcommittee for your 
support of this legislation.
    As we did last year, NCAI chose public safety and justice 
programs to focus on today because it is one of the most 
fundamental aspects of the Federal Government's trust 
responsibility. The BIA was required to submit an unmet needs 
report in this area every year, and, based on past assessments, 
to provide minimum base-level service to all federally-
recognized tribes. One billion is needed for law enforcement, 
$1 billion for tribal courts, and $222 million are needed for 
tribal detention. At about 40 percent of the need, tribal 
courts receive about 5 percent of the need, and law enforcement 
is only receiving about 20 percent of the need. We will not be 
able to address crime and ensure safety in Indian Country until 
our tribal justice systems are adequately funded.
    Ten years ago, DOI established an initiative to reduce 
violent crime by at least 5 percent over 24 months on four 
reservations with high rates of violent crime. All four 
received an increase in base funding to support additional 
sworn officers. The additional resources help close the 
capacity gap by bringing the staffing-to-population ratios 
closer to the national standard. It worked, producing a 35 
percent decrease in violent crime across four states. Funding, 
similar to what States and the Federal Government gets in this 
area when given to Indian Country, has been proven to work in 
the past.
    Equitable funding for tribal nations leads to success. We 
need sufficient resources to put our tools to work so tribal 
nations can protect women, children, and families address 
substance abuse, rehabilitate first-time offenders, and put 
serious criminals behind bars. Accordingly, NCAI requests a 
total of $83 million for tribal courts, including those in 
Public Law 280 jurisdictions. NCAI also recommends an increase 
of $200 million for BIA law enforcement for a total of $573 
million.
    I would like to add that the inadequacy of BIA-based 
funding forces tribal nations to see short-term competitive 
grants to try to make up a portion of the shortfall. I don't 
think any of our tribal nations will agree with a premise that 
when we entered into treaties hundreds of years ago and ceded 
millions of acres of land, that funding and adequate care for 
these things would be through grants, a competitive grant 
program, between the different tribes. That wasn't part of the 
deal.
    Short-term competitive grants cannot be viewed as a 
substitute for base funding. We must have long-term stable 
funding to address the public safety challenges our tribal 
nations confront. We respectfully request both honorable 
fulfillment of the trust and treaty obligations as well as 
budget certainty for both IHS and BIA through advanced 
appropriations. The increase NCAI is requesting will be an 
important incremental step towards providing the resources 
necessary for tribal nations to ensure public safety on their 
lands. We only ask for what was promised to us and owed to us 
when tribal nations entered into treaties in exchange for acres 
of land so settlement could ensue.
    Thank you very much, and we would be happy to answer any 
questions you have.
    [The statement of Mr. Allis follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you. Please, sir.
    Mr. Henio. [Speaking native language.] Chairwoman McCollum, 
and Ranking Joyce, and honorable members of the subcommittee, 
my name is Jaime Henio, and I am a member of the Navajo Nation 
Council, and also chairman of the budget and finance committee 
for the council. And I also represent the Ramah Navajo 
Community, which is located in New Mexico. And so our community 
is a political subunit of the Navajo Nation, and what we have 
enjoyed is 30-plus years of 638 Public Law funding to contract 
different services for our communities, such as law 
enforcement, real estate, aid to tribal government, and, most 
recently, the roads department.
    So, therefore, we are here is to talk about four areas that 
we feel are very important. And the first one is the inadequate 
funding for tribes that are operating 638 programs, and where 
we should be funded to equally with the BIA-operated programs. 
The second one is a lack of funding when it comes to 
distribution of funds when they are untimely and late. And the 
third item I would like to talk about is public safety, and the 
last item is road maintenance.
    So the first one I would like to expound on is public 
safety. As expressed earlier by other tribal leaders, public 
safety is important for our community. We operate a police 
department that is different from the Navajo Nation police. We 
have our own police department, which consists of six officers 
that patrol the area of 15 by 25 miles, which is about roughly 
400 square miles of land there. But the land is checkerboarded, 
meaning that it is trust land, allotted land, and also State 
fee land.
    So our police officers, they are required to be federally 
certified and commissioned by the tribe, and also State police 
officer certified, too. And so when we pick up young recruits 
and we take them through the process of taking them through the 
Indian Police Academy, get them fairly certified, then they 
also are required to go through the New Mexico State Police 
Academy, and they become State peace officers certified.
    So in the eyes of the New Mexico State Police, Albuquerque, 
the county, this is a prized officer right here. And, 
therefore, what happens, they are recruited to the other police 
agencies, and we end up losing thousands and thousands of 
training dollars training these young officers for better pay, 
better packages. So, therefore, what we are asking here is for 
the BIA to fully fund the police department in our area so, 
therefore, we are competitive in pay and benefits, and so we 
retain our police officers.
    And, of course, equipment is another big issue, too. If you 
were to compare that BIA police unit with a Ramah police unit, 
you would see a big disparity where you would see the BIA 
police officer unit with a lot of antennas, and with the Ramah 
police officer with just one antenna, meaning that they have 
hardly any equipment in the police unit. So that is one of the 
biggest things that we are asking here.
    The other one is to have BIA treat the 633-funded programs 
equally. When it comes to funding distribution, what we are 
looking at is that BIA decides that well, let's feed ourselves 
first, give ourselves a biggest part of the pie, and then 
whatever crumbs are remaining, let's send them out to Ramah, 
and Zuni, and Laguna, and other tribes that are doing 638 
programs. So that is what we are asking the Appropriations 
Subcommittee is they put a little bit of pressure on BIA to get 
their act together, so to speak, because of the fact that we 
did provide direct services there at the local community. And 
just as Mr. Allis stated earlier, I spent 10 years as a police 
officer in the rural communities, out there, too, so I know 
what it is like to be there by yourself late at night with no 
backup. And so I understand what our police officers are going 
through there in the rural communities.
    And the last point I wanted to make was road 
transportation. As we speak, right now, we have, like, 5 inches 
of wet snow back in our community, and we have a three-member 
road crew in our community working almost 24 hours a day 
cleaning the roads as we speak right now. So, therefore, when 
we contracted the road maintenance contract, also it came with 
inadequate funding. And, therefore, we are asking subcommittee 
to take special note to have BIA provide us adequate funding so 
we could take care of our roads because roads the big issue 
across the United States, Indian Country. Everywhere we go, 
roads is one of the biggest infrastructure that we have.
    So, therefore, we are asking that we be fully funded to 
build a sustainable community and future for our children. 
Thank you.
    [The statement of Mr. Henio follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms.McCollum. Thank you. Good morning.
    Ms. Echo-Hawk. Good morning, Madam Chair, and Ranking 
Member Joyce, and members of the subcommittee of the committee. 
I am so excited to be here today. My name is Abigail Echo-Hawk. 
I am a citizen of the Pawnee Nation of Oklahoma, and I am the 
director of the Urban Indian Health Institute and the chief 
research officer at the Seattle Indian Health Board. I am here 
specifically today to talk about the tribal epidemiology 
centers, which I direct one of. There are 12 nationally. We are 
under the Indian Health Service. We were established as public 
health authorities under the Affordable Health Care Act.
    The Urban Indian Health Institute, which I direct, is 
unique. Out of the 12, we are the only one with a national 
focus that looks at the urban Indian population. Urban Indians 
are tribal people currently living off tribal reservation land, 
village lands in urban areas, yet we are tribal people 
regardless of where we live. And so as we look to ensure the 
health and well-being of our people, the tribal epidemiology 
centers were established by tribal leadership to ensure that 
there was quality data for decisions that could be made both at 
the tribal level, the urban Indian level, and also State and 
Federal. Without us, that data doesn't exist.
    And I want to provide you an example: the SDPI Program, 
which has had such an incredible impact across Indian Country. 
My organization works every year and provides reports for the 
urban Indian programs, 31 of them across the country, on the 
outcomes of their SDPI funding every single year so that they 
can see where they need to direct their efforts. And we know 
from a paper that was published in 2017 that the largest 
decrease in end-stage renal failure as a direct result of 
diabetes is in the American Indian and Alaska Native 
population. And we know from that paper and the data that came 
out of that, that that is a direct result of the programs like 
SDPI and other Federal efforts to halt diabetes within our 
communities. And we are doing better than the rest of the 
country now in decreasing those numbers.
    With my program, one of the things we do is allow those 
programs to begin to direct and understand where they need to 
on a yearly basis direct their efforts. However, with the 
funding that I received from the Indian Health Service to do 
this, I don't even have the money for the one person who does 
this for 31 organizations. And so I supplement her funding with 
other fundings. I can't even print these reports anymore that I 
give them. I used to have money to do that, but it keeps 
decreasing. I can't even print them off to give them to these 
organizations. And we have to figure out how to get them their 
reports in a way that is usable to them. It is one of the 
hardest things to do is to tell them I can't even simply print 
what they need, yet we know this program is so integral to 
ensuring the health and well-being of our communities.
    The tribal epidemiology centers do this for a variety of 
different things, and I am going to switch over now to talking 
about one of the reasons that I am so excited to hear all of 
the tribal leadership today talking about public safety. The 
urban Indian community is deeply impacted by this also, 
specifically within the missing and murdered indigenous women 
and girls. When I look at the funding that I get from the 
Indian Health Service, we are looking for an increase for the 
tribal epidemiology centers because my organization has been 
the one that has produced the data on missing and murdered 
indigenous women and girls with three reports that started in 
2018. Out of those reports, we have seen significant 
legislation passed both at the local, the State, and the 
Federal level.
    Efforts are being made to change this outcome for missing 
and murdered indigenous women and girls. I self-funded those 
projects. I had no money to do that. At this point in time, 
through the tribal epidemiology center funds, I provide 
technical support to tribes and urban Indian organizations, 
which means they give me a call, and I say, you could do it 
this way, but I can't help you because I don't have the 
resources to give you the expertise to do this. So we help them 
to the best of our ability. We are asking for $24 million 
increase for all of the tribal epidemiology centers to be split 
across us to be able to provide this support, because we need 
to gather this information on this crisis of violence against 
our women, and be able to get that to our tribal leadership so 
they can make these decisions.
    And we also have to look at the services that are provided. 
So urban Indian population, we receive less than 1 percent of 
the overall Indian Health Service budget. We do not want to 
touch the tribal dollars, but we need an increase in the urban 
Indian line item, and we are asking for a hundred and six 
million dollars to do this. And I think to this grandma who I 
met recently. Her daughter was murdered in front of her three 
young children. She was shot in the head. It took that grandma 
4 months to get her grandchildren out of the foster care system 
because that county that she lived in, she was not living on 
tribal lands. That county did not apply the Indian Child 
Welfare Act, and they put those children outside of her home, 
outside of the family, and outside of the tribe. It took her 4 
months to get those babies back, and those children witnessed 
the murder of their mother. And she cannot find them 
culturally-attuned care to treat the psychological impacts that 
are happening to those young babies.
    And we know that kind of trauma is why we have an opiate 
crisis. It is why we have a suicide crisis. Unless we address 
this kind of trauma at the ages when it happens, we are not 
going to be able to solve any of these things. We will be 
sitting at this table 10 years from now. So we have to increase 
the investment both for the tribal epidemiology centers, and, 
in addition, to the urban Indian programs, and to all programs 
through the IHS that serve our people because we cannot 
continue to let this trauma continue for our young ones.
    [The statement of Ms. Echo-Hawk follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you. Mr. Kilmer.
    Mr. Kilmer. First of all, Ms. Echo-Hawk, I just want to 
thank you for your leadership on the issue of missing and 
murdered indigenous women and girls. Your comments about making 
sure that not only do we have the data, but we also have to 
have the action to address the issue. So thank you for your 
leadership.
    Mr. Allis, you referenced in your remarks, and, again, I 
know this is a public safety and justice panel, but you 
mentioned the U.S. Commission on Civil Rights ``Broken 
Promises'' report. And you talked about some of the substantial 
funding shortfalls and the failure of the Federal Government to 
step up, specifically in the area of public safety. I want to 
just give you the opportunity. Obviously that report touched on 
a whole lot of other areas that the Federal Government is 
coming up short. As a leader in NCAI, I wanted to just give you 
the opportunity if you wanted to speak to any of those 
shortcomings as well. I just think it is important.
    Mr. Allis. Well, thank you for that question. They are so 
interconnected, right? I mean, one of the important things for 
the safety, and I will link this to public safety, is 
infrastructure, right? Our roads, our road system. It is the 
lifeblood of the tribal economy and safety. In that same 
report, you know, enormous shortfalls and the backlog of work 
that needs to be done. When I speak to some of my tribal 
leaders in the Great Plains and other parts of the country, 
where their roads are impassable, and they can't get to people 
to the grocery store, let alone try to get them to the hospital 
or try to respond to some, you know, law enforcement situation. 
It is really.
    And in most of these cases, it is not only the low levels 
or lack of adequate funding, as I mentioned, in the grant, it 
is how it is funded, right? And a lot of these short-term 
programs that are gap fillers, if you will, and then are 
scattered across numerous different agencies. Also filtered 
throughout that report, it speaks also to the lack of 
coordination between the different agencies that provide these 
services which, you know, moving in the 477 program to try to 
coordinate and have tribes have more of an impact, we need a 
lot of work there, too, as well to try to bring that together.
    So we could talk about question for hours, but I thank you 
for bringing it up because healthcare, infrastructure, law 
enforced public safety, all linked together.
    Mr. Kilmer. I feel like it should be mandatory reading for 
every member of Congress. Thank you, Madam Chair.
    Ms. McCollum. Thank you. Mr. Joyce.
    Mr. Joyce. Thank you, Madam Chair. Thank you all for being 
here today. Ms. Echo-Hawk, touching on this horrible issue, I 
am part of a panel where we did a hearing on sexual violence, 
and we now have some members of Congress who are Native 
Americans, who brought forth some of the issues. It is just 
heartbreaking that we don't use what we have in place in local 
governments and tribal justice systems to be able to go after 
these offenders, because one of the most sickening comments I 
heard was where else would these people go to pray except for 
where they know they are going to get help. There is nobody 
really chasing after them, and there is no backup, SANE nurses, 
and cataloging the DNA to go after these folks. It is something 
we need to continue to address, and I appreciate the fact that 
all of you are standing up for the justice that needs to be 
done on your reservation. So thank you very much for your time 
here today.
    Ms.McCollum. I just want to put a statistic out there: 
$9,726 average per person in the United States spent on 
healthcare, $9,726. Four thousand seventy-nine dollars on 
average per person spent on healthcare in Indian Country. I am 
going to round it up. It is almost a $6,000 discrepancy. That 
is why we have healthcare disparities in part, so thank you for 
sharing that. And then your story, Ms. Echo-Hawk, which is 
repeated time and time again of children witnessing horrific 
acts of violence. It affects their school, even how they are 
going to eat and their nutrition for their growing bodies, 
their mental health. It impacts them, and we need to have 
intervention with specialists who are culturally appropriate in 
the area.
    And so that is something that is not addressed as fully as 
it could be in the Violence Against Women Act, and that is 
something that even before it comes up for reauthorization, 
something we should be focused on. And I know that their 
support in the Native American Bipartisan Caucus, as Mr. Joyce 
was pointing out, to do more, to do more in that. If you added 
mental health into the numbers that I just gave, it would even 
be more out of balance.
    The Affordable Care Act, I just want to also point out, 
which is in court right now, it would eliminate the permanent 
reauthorization for Indian health, and I don't think that that 
gets mentioned often enough. And what we need to do to make 
sure that that is protected. I want to protect the Affordable 
Care Act in its entirety, plus some of us worked very hard to 
get the permanent reauthorization as part of that.
    And I think because you talked about after a woman, and men 
are assaulted, too, the first thing that they usually want to 
do is try to wipe away the crime, wipe away the violence. Could 
maybe the three of you just talk in your own perspective what 
it means, and to your point, when you are training officers and 
then you can't compete with salary and they go some other 
place, how important it is to have that whole of public safety 
for the person who is there for witness protection and the 
rest. And if we keep training people and we can't keep up with 
the salaries, whether it is witness protection, and I know how 
little that pays in the private sector.
    I can't hardly imagine what it pays in the tribal areas, 
how we are not going to be able to really address crime. You 
know, is it equipment? Is that wages? Is it both? Should we be 
taking the training dollars out of the way that it is funded 
and look at a more holistic way of funding it, because other 
people and other communities, and you don't blame them, take 
advantage of the training and the resources that you have put 
into what you are doing. And I am not trying to diminish the 
importance of this conversation, but if you could just take a 
minute so the other panel could get started. But give me some 
more food for thought as I have this discussion with my 
colleagues.
    Mr. Allis. Chairman, I think you hit on something that is 
not only relevant for Indian Country, but the training, and the 
environment, and the equipment, and what the officer will be 
faced with every day they come into the office, right? They 
have enormous challenges when they go out on the street and 
they go out on the reservation, they go out on the roads to 
combat crime and deal with crime. If the police cars and their 
equipment are substandard stuff, it makes it that much more 
difficult. And certainly, whatever training they get in, and if 
it is a higher level of training, they will go to another 
jurisdiction because they just won't stay there similar.
    It is similar to educational systems. You got to create an 
environment from the minute they walk into the door to the 
second they get in that patrol car, and when they go home and 
be able to take care of their own families. It all has to come 
together in a way where they will stay there and you will have 
a consistent workforce and strategy. So funding, if we are just 
talking about law enforcement officers, the training needs to 
be there and the funding needs to be competitive with other 
jurisdictions, or they are just going to roll. They are just 
going to go somewhere else.
    You see it in Indian Country, and you see it in 
metropolitan areas, going to different county police 
departments that are nicer, you know, pay more money, you know. 
What you see outside of Indian Country around criminal justice 
is the same stuff that is happening Indian Country, but just on 
steroids, okay? It is just the delta is that much bigger.
    Ms. McCollum. Anything you would like to add?
    Mr. Joyce. The same thing with nursing. It is tough to get 
nurses, let alone retain them.
    Mr. Henio. Thank you for the question, Chairwoman. When it 
comes to funding and the contract, it allows for the 638 
officers to be paid at the same level as a BIA police officer. 
For example, a BIA makes $20 an hour. Our officers should be 
making $20 an hour, too. But when it comes to funding 
distribution, our officers are given just enough money to 
possibly even make $13 an hour or $14 an hour, while the BIA 
officers enjoy what they are making right now.
    So what we are asking is that the subcommittee ask the BIA 
to fully fund their contract obligations when it comes to 638 
contracts. And it is true that equipment is important. We need 
equipment out there in the rural areas. Sedans will not cut it. 
We need 4 by 4's and with adequate equipment to cover the rural 
parts of the Navajo Nation as we speak right now. And like I 
said earlier, there are 4 inches or 5 inches of wet snow, so, 
therefore, what happens after the snow melts? A lot of muddy 
roads, and we need policing that will cover those muddy roads 
in order to respond to emergency calls. So that is what we are 
asking. So equipment and salary is what we are asking, but at 
the same time, to be treated just as equally as what BIA 
officers are making through our 638 contract.
    Ms. McCollum. Ms. Echo-Hawk, I know how important it is to 
have the non-police be part of the solution for everything from 
witnesses to survivor help, to what you spoke to wit children.
    Ms. Echo-Hawk. Yeah, absolutely, and particularly as we 
talk about, and you brought up SANE nurses, so sexual assault 
nurse examiners. And in my testimony, one of the things I 
shared was of a young woman, and this was in an area where she 
could have possibly accessed either an urban program or an IHS 
program, but neither of them on that weekend had a SANE nurse 
available. And so she was not comfortable going anywhere else, 
and so instead of getting that rape kit done, they said you can 
wait and not shower, after being raped multiple times, until 
Monday, or you can just take your shower now, which is what she 
did. And now evidence of those rapes has been washed away.
    And so when we look at these services, it is integral. And 
one of the things when we look at particularly how VAWA dollars 
flow into the counties that are then dispersed across 
organizations, are then used across the counties, they very 
often do not reach the organizations like the Seattle Indian 
Health Board and other tribal organizations. They are held in 
the county. And we also know that there is no access to data 
because they are not gathering at those levels that say how 
many victims that they have that are American Indian/Alaska 
Native.
    So I currently have an effort happening in King County, one 
of the largest counties in the country. I am excited to say 
that we have partnered together, and I am working with them to 
redo the way the prosecutor's office collects data from victims 
of crime, particularly sexual assault and domestic violence. 
And I am going to be training their officers and all of the 
prosecutors to do that differently. We are going to use that as 
a national toolkit that could be used across counties, across 
Federal agencies, because we can't wait for somebody else to 
create the solution for us.
    And I am very fortunate to be in King County and to have 
them working with me to do that. But I will say that I am doing 
this at night in my other office called Starbucks. [Laughter.]
    Ms. Echo-Hawk. And I would like at some point in time for 
somebody at the county levels, the State levels, the Federal 
level to say, you know what? Native women are important. We are 
going to make sure that you get the funding that you need so 
you can have the resources that you need, because my 
organization is going to create the national framework, and you 
will see it in about 6 months, and we are just going to do it. 
We need the resources to do it well, and I could do it faster 
if I had the resources.
    Ms. McCollum. And that the misclassification that you are 
talking about.
    Ms. Echo-Hawk. Yes, data misclassification.
    Ms. McCollum. Thank you so much for your testimony, and 
thank you both, sir, and Ms. Echo-Hawk, for serving people at 
times of crisis when that is the last thing they want to be 
doing is picking up the phone and making that phone call. Thank 
you. Thank you for your past work in that.
    Voice. Thank you.
    Ms. McCollum. The next panel, please join us.
                              ----------                              

                                      Wednesday, February 12, 2020.

    AMERICAN INDIAN AND ALASKA NATIVE PUBLIC WITNESS DAY 2--PANEL 4


                               WITNESSES

LOUIE UNGARO, COUNCIL MEMBER, MUCKLESHOOT TRIBE
STEPHEN ROE LEWIS, GOVERNOR, GILA RIVER INDIAN COMMUNITY
MARITA HINDS, PRESIDENT, NATIONAL INDIAN EDUCATION ASSOCIATION
    Ms. McCollum. Good morning. As I mentioned earlier, who is 
going to close out this morning's panel is we are going to have 
a robust discussion on Indian education in Indian Country. And 
I know some people come in and out, and that is wonderful, so I 
will just go over what we are doing the time again really 
quick. Please introduce yourself. That will not count against 
your time. You will get your full 5 minutes, and at 4 minutes, 
a yellow light will come on. That lets you know you have about 
1 minute to start wrapping up, and then the red light comes on 
at 5.
    Your full testimony will be entered into the committee 
record, so we want to thank you for that, so don't feel rushed 
if you don't get to everything. As you can see, we are running 
a little late because we are trying to ask really, really good 
questions. So we are going to for the recorder go in order of 
the table. So if you would please start, sir.
    Mr. Ungaro. Good morning, honorable committee members. 
Thank you for the opportunity.
    Ms. McCollum. Is the red light on on your----
    Voice. It is.
    Ms. McCollum. Good. Thank you.
    Mr. Ungaro. Thank you for the opportunity to testify here. 
My name is Louie Ungaro. I am a Muckleshoot Tribal Council 
member. I have the privilege to serve as the chairman of our 
tribal school commission.
    A little background on the school. Muckleshoot Tribe is 
committed to the success of our children through culturally-
appropriate education to prepare our future generations for 
what is ahead. The Muckleshoot Tribal School is the first 
tribally-controlled school to enter a compact with the BIE in 
the State of Washington. The tribal school provides a K through 
12 instruction. It infuses Muckleshoot cultural practices, the 
history and the language
    Muckleshoot leadership has worked hard to meet the needs of 
our students through the adoption of new exciting programs. One 
of those programs is a language and cultural instruction 
program. It is training our teachers through the Muckleshoot 
cultural experience and the traditional teaching styles, 
creating bilingual signage and visual communication in every 
classroom, as well as morning drum circle which provides song 
and dance for the day; nutrition programs which we integrate 
traditional foods and all of that; culture night and the annual 
potlach we have once a year; and as well as we have the 
woodshop curriculum that we are bringing back into the school. 
So it is about our sciences and our techniques and traditions 
through carving practices, tool-making, and technologies.
    While much of this work has been done to bring our 
ancestors' vision to fruition, we have a lot more work to do. 
With the subcommittee's assistance, we can continue improving 
the learning environment for our students. The tribe's requests 
today stem from our experiences at the Muckleshoot Tribal 
School. During the planning phase for Muckleshoot Tribal 
School, disagreement quickly emerged between the tribe and the 
BIE the size and capacity of the school.
    Disregarding the tribe's student population projections at 
the time, the BIE constructed the tribal school to accommodate 
the student population was it was. And, as anticipated, the 
tribal school reached capacity shortly after the construction 
in 2009. Today, the school student population alone is 565, 
making it over capacity by nearly 100 students. That is not 
even counting staff.
    The overcrowding at the tribal school reached the point 
where we were forced to hold classes in hallways and repurpose 
other spaces. As a result, the tribe and the BIA began working 
together to secure modular classrooms in order to accommodate 
the growing student population. Ultimately, the BIA's division 
facility management and construction, DFMC, recommended six 
modular units, which would house 12 classrooms.
    During that time, the DFMC stated that it anticipated the 
modular classrooms would be delivered in advance of the 
upcoming school year, which began in August of 2017. 
Unfortunately, the modular classrooms were not delivered on 
time, and the project was lingering. This led us to assume the 
role of general contractor in March of 2019. Even after doing 
so, we had trouble getting the DFMC to release the funds.
    Last spring, the tribal council raised the issue directly 
with you, Chairwoman McCollum. With the assistance of you and 
your staff, modular classrooms were delivered this week and 
still being delivered. We have three that are being set up as 
we speak today. While the tribe is forever grateful for your 
assistance, it should not be this difficult for us to provide a 
healthy learning environment for our students.
    The Muckleshoot Tribe urges the subcommittee to prioritize 
construction funding that so that Indian Country children can 
obtain quality education in a safe environment. The tribe also 
requests the subcommittee to inquire about the organizational 
structure of the DFMC and how it deploys its funding provided 
by Congress. Finally, the tribe urges subcommittee to provide 
funding for culturally-relevant education programs.
    Since it is been implemented in 2016, the tribal school's 
emphasis on incorporating culture into the education system has 
proven successful. This is evidence is in rising graduation and 
our students' strong sense of identity and community. The BIE's 
immersion demonstration grant program supports such efforts by 
providing funding for initiatives aimed at increasing language 
proficiency and protecting against indigenous language loss. 
The tribe urges the subcommittee to expand the funding to 
implement culturally-appropriate teachings.
    So in conclusion, I really want to thank you all for your 
time and for allowing me to come here and speak.
    [The statement of Mr. Ungaro follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you. Mr. Lewis, good morning.
    Mr. Lewis. Good morning. Chairperson McCollum, Ranking 
Member Joyce, and members of the subcommittee, thank you for 
the opportunity to testify on education priorities in the 
Fiscal Year 2021 appropriations. My name is Steven Earl Lewis, 
and I am governor of the Gila River Indian Community. [Speaking 
native language.] Good morning. I am here to testify 
specifically on the Section 105(l) school construction and 
leaseback program that was piloted at the Gila River Indian 
Community last year. I am joined today by Councilwoman Monica 
Antone, Councilman Avery White, our youth council delegation 
from the community, our Ms. Gila River, Tyler Owens, and Junior 
Miss Gila River, Susannah Osef.
    For this year, this committee has been asked to address the 
school construction backlog that exists for BIE schools at the 
Department of Interior, a backlog that would take approximately 
60 years, or 3 generations--3 generations--to clear at current 
funding levels. Even though this committee has increased 
funding wherever possible, incremental funding was insufficient 
to address the backlog. So you challenged the Administration 
and tribal nations to bring you innovative solutions to the 
problem.
    Two years ago I brought you a proposal from the Gila River 
Indian Community to pilot the first school construction 
leaseback Indian country, and I have two packets of actual 
photos of the finished Gila Crossing Community School. The 
proposal relied on existing statutory authority under Section 
105(l) of the Indian Self-Determination and Education 
Assistance Act. Under the leaseback program, the community 
financed construction of the school, and upon completion, 
leased the school back to the Department of the Interior 
through a negotiated lease. Utilizing this program and working 
with this committee to secure appropriations for the lease 
payment, the community was able to complete construction in a 
little over 1 year, 13 months, and under budget, for less than 
the amount the Department would have spent to replace the 
school in the first place.
    Gila Crossing is truly the community's school. The 
community's culture is evident in the school curriculum, and 
there are reminders of [Speaking native language.] and Pee-Posh 
heritage everywhere you look. We are proud of the school and 
even prouder that we were able to pilot a program that can be 
replicated through throughout Indian Country. As with all pilot 
programs, it was a learning experience, and the community also 
took a great deal of risk. But together the community, the 
administration, and you, the appropriators, ensured that this 
was a successful project.
    Based on our experience, we have a few recommendations to 
share. We recommend continued funding of the 105(l) Program at 
the Department of Interior. With the completion of the Gila 
Crossing Community School, we are first requesting continued 
funding to meet the annual lease payments for this school. In 
addition, for Fiscal Year 2021, we are proposing an additional 
$20 million dollars for school construction under the 105(l) 
Lease Program.
    As indicated earlier, the need for new school construction 
in Indian Country is significant, as you have heard. At Gila 
River alone, we had three BIE schools in poor condition and 
overcrowded. It took decades to get the Blackwater Community 
School on the school replacement list to begin with, and even 
with the construction of Gila Crossing, Casablanca Community 
School remains overcrowded and in poor condition. The 
additional $20 million in Fiscal Year 2021 would allow for 
another four or more schools to be constructed using the 
construction leaseback program.
    The community also supports the language in Fiscal Year 
2020 appropriations report to explore mandatory funding for the 
105(l) lease program. Mandatory funding would alleviate the 
need to reprogram the statutorily-mandated funding from 
critical programs and staffing for tribal programs at the 
Department of Interior and the Indian Health Service. Mandatory 
funding is also supported by the National Congress of American 
Indians, and was included in the Indian Country budget request 
to Congress for Fiscal Year 2021.
    Another key component to making this program even more 
successful is access to other Federal financing tools, 
specifically new market tax credits. The lack of credits 
designated to projects in Indian Country make it especially 
difficult to compete for new market tax credits, even though 
tribal access would save the Federal Government up to 20 
percent on much-needed infrastructure construction in Indian 
Country. We urge this committee and all of Congress to support 
tribal-specific language in legislation that increases tribal 
access to new market tax credits.
    In conclusion, I am honored to sit here today and share my 
community's success story with you. Your commitment to Indian 
Country's self-determination is commendable and can serve as a 
model across Congress and the Administration. We look forward 
to coming back with more success stories that can enhance this 
program, and stand ready to assist this committee and other 
tribes across Indian Country as they explore the 105(l) Lease 
Program. And as always, you are always welcome to the Gila 
River Indian Community to see this wonderful school. Thank you 
so much. [Speaking native language.]
    [The statement of Mr. Lewis follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Hinds. Chairwoman McCollum, Ranking Member Joyce, and 
members of the subcommittee, thank you for this opportunity to 
provide testimony on behalf of the National Indian Education 
Association. My name is Marita Hinds. I am from Tesuque Pueblo. 
I am the President of the NIEA Board.
    NIEA is the most inclusive national organization advocating 
for culturally-based educational opportunities for American 
Indians, Alaska Natives, and native Hawaiians. Each day, our 
organization equips tribal leaders, educators, and advocates to 
prepare the over 650,000 native students across the Nation for 
success in the classroom and beyond. Native education is a 
bipartisan effort rooted in the Federal trust responsibility to 
tribal nations and their citizens.
    NIEA thanks the subcommittee for its ongoing commitment to 
fulfilling this constitutional responsibility by advancing 
native education programs and services in Fiscal Year 2020. In 
particular, we appreciate the subcommittee's oversight of BIE 
programs and services for native students. NIEA urges you to 
continue your commitment to native students by fully funding 
native education within the BIE and Fiscal Year 2021 
appropriations.
    I will highlight several of NIEA's key appropriation 
priorities for Fiscal Year 2021. Bureau-funded schools must be 
appropriated $430 million for urgent school construction and 
repair. NIEA appreciates recent steps to address immediate 
infrastructure needs in Bureau-funded schools through increased 
school construction funding in Fiscal Year 2020. Despite such 
strides forward, funding continues to fall short of the full 
need. In 2016, the Office of the Inspector General at the 
Department of Interior found that it will cost $430 million 
dollars to address immediate facility repairs in the BIE.
    In addition, that report estimated over $1.3 billion 
dollars in overall need for education construction at BIE 
schools. By the end of Fiscal Year 2019, the maintenance 
backlog in Bureau-funded schools had ballooned to over $720 
million. Continued funding shortfalls for the high-quality 
construction repair and maintenance of Bureau-funded schools 
have impacted my own community of Tesuque Pueblo. In addition 
to my role as the NIEA president, I work at that the Tesuque 
Wingate School, a Bureau-funded school by my tribe.
    Our classrooms are at the seams. The school has grown to 
over 55 students from when it began in 2012, which had 17 
students. Despite several renovations to retrofit outdated 
wiring, heat, and air over the years, the electrical system 
regularly overloads a fuse when using even a printer or a 
shredder. Our school is 84 years old. Our classrooms share one 
IT maintenance technician with all tribal facilities, while our 
classrooms and our administration offices have problems with 
Wi-Fi and internet services. Even with these hardships, our 
phenomenal staff and educators have done amazing work to 
advance education for our students, and parents continue to 
send their children to our school because of the incredible 
progress that we have made over the past 8 years. However, 
additional funding is critical to ensuring safe access to the 
facility and providing technology critical to a 21st century 
education. Sadly, our story is not unique.
    The current funding levels fail to fully address the $727 
million in immediate school need. The need for construction and 
repair in BIE schools is too great to wait for a possible 
infrastructure package without ongoing funding to address 
construction needs. Seven schools on the 2016 construction list 
have yet to receive funds for design and construction. Limited 
funding continues to hold up progress for schools, Greasewood 
Springs Community School in Arizona, where students and 
educators continue to face overcrowding and unsafe facilities. 
Native students deserve to learn in a safe and healthy school 
where they can thrive.
    The Indian School Equalization Program, ISEP, should be 
fully funded at $431 million for Fiscal Year 2021. ISEP funds 
the core budget account for BIE elementary and secondary 
schools. Through this program, schools and including my own 
School in Greasewood Springs, receive funding to pay salaries 
for teachers and other personnel. While ISEP is funded at 
approximately $2 million dollars per school, each public school 
across the country receives on average for infrastructure-
related salaries, wages, and employee benefits.
    Each year, schools are forced to further stretch limited 
ISEP funds to fulfill regulations that require educators to be 
paid salaries comparable to those at the only other Federal 
school system, the Department of Defense Education Activity, 
DODEA. This requirement is meant to support equality and 
access. However, Federal appropriations have failed to account 
for increase in competitive salaries both at DODEA and in 
States where BIE schools are located. Good teachers matter. 
Increased investment is required to ensure access to a highly-
qualified culturally-competent educators at all schools.
    In addition, NIEA supports the request to fully fund and 
support tribal colleges and universities through Fiscal Year 
2020 recommendations provided by the American Indian Higher 
Education Consortium. Thank you very much.
    [The statement of Ms. Hinds follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you. Mr. Kilmer.
    Mr. Kilmer. Thanks, Madam Chair. Governor Lewis, I liked 
your after photos better than your before photos. [Laughter.]
    So thank you for sharing those. I am not quite sure who to 
ask this to, but, Councilman Ungaro, you talked about the fact 
that, you know, the day you opened your new school, it was 
already at overcapacity, and it drove this need to build 
portables. I mean, obviously there is a systemic problem of 
underfunding, but is there another systemic problem that our 
subcommittee ought to be looking at to try to prevent that type 
of dynamic from occurring? Ideally, when you open a school, you 
are not already over capacity.
    Mr. Ungaro. Thank you for the question. Yeah, I believe 
looking at the enrollment as well, like, our general enrollment 
of the tribe, a third of our tribe is under the age of 18. I 
mean, it is no mystery the wave of kids that are coming, these 
schools and what we are doing to set our kids up for success 
through natural resources and create leadership in those kids 
to not only just set them up for success in Indian Country, but 
success here in Washington, D.C. wherever they want to go. The 
opportunity has been left up to us to create that.
    And what is not happening is the funding isn't coming 
through for us to be able to stay ahead of the curve. And the 
challenge is in Indian Country for education is no mystery of 
what is going on here. I mean, we weren't set up for success 
all the way back from 1863, so just a little over 65 years ago 
we won the Supreme Court case where our kids and people of 
color would be welcomed into the classroom. So, you know, that 
is not very many generations ago.
    And in Indian Country where I am at, I am the first 
generation graduate in my household, high school graduate So, 
you know, we don't have people to fall back on to help us 
navigate the State institutions through college and all of that 
stuff, but we are setting up in these tribal schools is we are 
giving our kids a place in the classroom, a sense of identity, 
but as well as being able to teach them not just their own 
traditional ecological knowledge, but making them proud and 
giving them that spot in the classroom, but as well as being 
able to comprehend and understand OSPI and the STEM curriculum, 
and infusing that together which makes them stronger and gives 
them the ability to make the choice if they want to stay home 
on the reservation or if they want to come and be your staffer 
someday. So that is what we are trying to do.
    Ms. McCollum. Mr. Kilmer, this is a problem. The Beatrice 
Rafferty School in Maine was delayed for years because of a 
disagreement on population size, because the BIE decided that 
it knew, and it was the BIA at the time, knew what the 
enrollment was going to be and did not listen to the community 
and did not listen to the parents. And Ms. Pingree, and I, and 
others found ourselves, you know, listening carefully to the 
community and then questioning the decision making that was 
moving forward.
    And the tragedy about what has happened at this new school 
is the gym space, the cafeteria space, all the community spaces 
now have been built on a certain size population, which was too 
small. So even with the modulars being added, if you want to 
have an all school were younger children are, you know, 
practicing being in larger groups and performing or giving 
presentations, they can't get together, or the older kids 
can't.
    I mean, you and I have been parents. My kids are much older 
than yours. I am a grandmother now. But you know how schools 
work. And when you undersize them, you know, gymnasium space, 
community space, cafeteria space, cultural areas all get 
impacted on this. And so I am going to make a plea here before 
I turn this over to Mr. Joyce.
    The census is coming up, and I had some young Johnson 
O'Malley students from St. Paul, Minnesota schools in my 
office. And I was telling those students, you need to when you 
see that census form come in and you hear about the census, you 
got to get excited about it, and you have got to get the head 
of household, your elder, your parents, or whoever it is, you 
need to get them to do an accurate census. And you need to 
identify in the census Native American because formulas will be 
based on that. And, you know, if it is not right and then you 
add ten years into the future, a lot of decisions facing Indian 
Country and for how Mr. Joyce and I go back and allocate for 
top-line funding at the 302b account, the Census is something 
everybody is looking at.
    And there are also some good-paying Census jobs out there, 
if I can make a plug for that, too, because we need to hire 
more people. But the census is really important. I know Indian 
Country is working on it, but we can't spread the word enough 
about how important the Census is going to be. So thank you for 
letting me tag onto your question because it is a good one, and 
it has been a frustrating one for this committee for a while. 
So excellent question, Mr. Kilmer. Mr. Joyce.
    Mr. Joyce. Thank you, Madam Chair, and thank you all for 
being here. I certainly appreciate, Chairman Lewis, your 
invitation to come out. I know that time is getting late, and 
we are already behind, but I was wondering if you could explain 
your frustration with the New Markets Tax Credit and your 
inability to secure it for Indian tribes.
    Mr. Lewis. Thank you, Madam Chair and members of the 
committee, Congressman Joyce. For the new market tax credits, 
access is limited to Indian Country. We are working with NAFOA, 
the Native American Finance Officers Association, and the Ways 
and Means because when we were working on financing the 105(l) 
lease and the design build, the allocation cycle, the 
construction cycle, and the appropriations were out of sync 
while we were building this. You know, we built this school and 
designed it within 13 months. And so all of those moving parts 
just weren't in sync for us to be able to take advantage of the 
new market tax credits.
    Mr. Joyce. Do you think a legislative fix is necessary?
    Mr. Lewis. Definitely. For tribes, and this is a policy 
issue among all issues having to do with tribal nations. You 
know, for policy, tribal nations need to have specific language 
that includes tribes and not excludes them, and the new market 
tax credits is no exception.
    Mr. Joyce. Great. Thank you.
    Mr. Lewis. Thank you.
    Ms. McCollum. I just want to say congratulations on getting 
your modulars delivered. How serendipitous that it happened at 
the same time that you are testifying in front of the 
committee, but we will take it. But we are putting together an 
infrastructure bill, and I know that what we are looking at is 
green. We are looking at technology, and this is 
infrastructure, and many of us, our voices are at the table to 
make sure Indian Country is included in that. So stay tuned, 
and it needs to have an infusion of spending in it that is 
really going to be impactful and make a difference.
    So Mr. DeFazio is kind of taking the lead on that, but we 
are doing some things in consultation through our staff. And I 
know Indian Country is at the table with us moving forward, but 
that will include schools, roads, bridges, Broadband, all the 
things that come together to make a school successful, as you 
pointed out. Thank you very much for your testimony. Thank you 
for your time here. And we will have the next panel come up.
    And as the next panel comes up, I know a couple people saw 
me dashing out of the room. We were accommodating later on this 
afternoon with two people who were willing to switch on 
testimony so someone could make an earlier flight to get home.
                              ----------                              

                                      Wednesday, February 12, 2020.

    AMERICAN INDIAN AND ALASKA NATIVE PUBLIC WITNESS DAY 2--PANEL 5


                               WITNESSES

ANGELISA BEGAYE, ADMINISTRATIVE SPECIALIST, DZILTH-NA-O-DITH-HE 
    COMMUNITY SCHOOL
SYLVIA LARGO, DINE GRANT SCHOOLS ASSOCIATION, INC. BOARD MEMBER AND 
    PRINCIPAL OF PINON COMMUNITY SCHOOL
BEVERLY COHO, SECRETARY AND TREASURER, RAMAH NAVAJO SCHOOL BOARD, INC.
CHARLES CUNY, JR., LITTLE WOUND SCHOOL SUPERINTENDENT, OGLALA LAKOTA 
    NATION EDUCATION COALITION
    Ms. McCollum. Thank you. We will let the next panel get 
seated here. We got a little bit of a traffic jam, but that is 
a good thing to have. That means that there are a lot of people 
here participating. So really quickly, please introduce 
yourself and then start into your testimony. The time that you 
use to introduce yourself will not count against your time. You 
have 5 minutes. We have your testimony in the record, so we 
have all of it. So don't worry about getting through 
everything. There is a lot to cover, and the staff and I will 
be reading through it and using it to formulate questions and 
responses to your concerns.
    So if you would please start off. When you see the yellow 
light, there is 1 minute left, and that will go on the timer 
right here. There is a little red button. Make sure it is lit 
up on your mike before you start, and if you would lead us off, 
please. Thank you.
    Ms. Begaye. Sure. Okay. Thank you. Good morning, Madam 
Chair and members of the subcommittee. My name is Angelisa 
Begaye, and I am here speaking on behalf of the Dzilth-Na-O-
Dith-Hle Community School.
    Okay. So the Dzilth-Na-O-Dith-Hle Community School would 
like to thank the subcommittee for your effort, your support, 
and your dedication in prioritizing the appropriations and 
oversight for school repair and construction throughout the 
Bureau of Indian Education school system. With that, we are one 
of the schools from the 2016 school replacement list to receive 
funding for school replacement construction. Thus far, we have 
completed the planning phase and 20 percent schematic design 
phase. We are currently in the design bill phase of the 
construction project. This whole process has taken us much time 
and effort, so, to reach this milestone.
    Our students, parents, and staff are excited with the 
school that is coming up, and we have been working diligently 
and promptly and putting our new school into operation. The 
efforts we have set forth are for the well-being of our 
students and in them with an adequate learning environment. Of 
course, it requires a team effort, and we had to establish a 
positive relationship and a partnership with the Bureau of 
Indian Education and the Indian Affairs division of facility 
management and construction so that we will be able to be 
successful in this for the school, the Federal Government, and, 
of course, for our students.
    Okay, which brings us to our written testimony, which you 
guys have a copy of. And in our written testimony, we have 
outlined some concerns we have been experiencing through this 
process. At one of our meetings this week, we met with the 
Office of Facility Property and Safety Management, which 
oversees the division the division of facility management and 
construction. We had the opportunity to bring to light with 
them and to discuss some of these issues, which we hope will be 
taken into consideration.
    We believe with the path moving forward that we have a 
clear and transparent line of communication, that we are 
consistent with timelines and deadlines and alleviating 
unnecessary delays, which is imperative to our success and 
completing this project. As our partner, we ask the 
subcommittee to emphasize and reinforce the importance of clear 
and timely expectations, and also to continue oversight of this 
project, and to keep in contact with the Dzilth-Na-O-Dith-Hle 
Community School, the Office of Facility Property and Safety 
Management, and the Division of Facility Management and 
Construction on the progress of our school replacement project 
and all those that were on the 2016 replacement list.
    In closing, the Dzilth-Na-O-Dith-Hle Community School 
thanks the subcommittee for the important funding increases and 
oversight directed to school repair and replacement 
construction. Consistent funding is needed to complete the 
construction on the 2016 replacement list, which direly impacts 
our children's future. In Fiscal Year 2021, we ask you to 
continue these funding levels. We believe all children should 
be given the opportunity to reach their potential and go to 
school in safe buildings. Thank you for remaining Pacific 
Islander steadfast partners this critical endeavor. Thank you.
    [The statement of Ms. Begaye follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you. Ms. Largo.
    Ms. Largo. Good morning. Good morning, Madam Chair, Ranking 
Member, and members of this Appropriations Committee. I 
appreciate the time to share with you. I am coming from the 
Navajo Nation. I speak on behalf of nine Bureau-funded schools 
that are operated as tribally-controlled schools. The executive 
board from these nine schools and the administration are 
committed to providing the best educational services for the 
children in our communities.
    We want to make sure that we continue to receive funding to 
operate instructional classrooms, residential programs, 
facility programs, transportation programs. Our technology is 
so crucial in providing the learning process to our young 
people; for our business offices to make sure that our funding 
is always accounted for. We want to make sure that is always 
taken care of. We want to make sure that our administration and 
the school board remain on par and meeting the needs of these 
young people.
    While we are doing this on a day-to-day basis, there are 
some challenges our schools experience. One concern is that we 
are seeing an increase in the number of suicide ideations of 
our young people. To meet their needs, we have to make sure we 
get them the proper professional people, which means I have to 
find funding to pay specialized counselors. We also end up 
providing support services. Although we are teaching, we will 
take the time out to make sure we provide these young people 
the kind of support they need. So we really need to pay 
attention to the monies that come in to pay the personnel cost.
    We are already stretched with the ISEP funding that we get, 
but we want to make sure we continue to meet costs. So we want 
you to help us in paying attention in the BIE teacher pay 
parity. The law requires that teachers and counselors and the 
BIE school system are paid at the same rate as their 
counterparts and the overseas Department of Defense school 
system. For some reason, our administration did not request for 
those fundings. We did meet with them. We did make it a point 
to mention to them that we need their help in making sure that 
they request for these fixed costs to account for the 25 U.S.C. 
Subsection 220. They could use that as an authorizing status in 
requesting for this fixed cost. So we ask for your support in 
making sure that we get that because we do need the monies in 
operating schools.
    The other latest concern that we are experiencing is on the 
reservation, we are spread into New Mexico. New Mexico has 
provided their State teachers a 10 percent increase. Arizona 
has spread 20 percent over three years, which is making it 
really tough to maintain our teaching staff. We have excellent 
teachers. We have done very creative, innovative professional 
development to keep our teachers on our campuses. We are going 
to need help there.
    Another area that would help our school's ISEP funding is 
if we don't have to pay so much for the insurance. We do have 
challenges in making sure that our staff is provided stellar 
benefits. Right now, a great deal of our funding goes there. 
But if we could get assistance and helping to make sure that a 
tribally-controlled school would have the same access to 
Federal employee health benefits programs and the Federal 
employee group life insurance would be of great assistance. It 
would not cost the government anything, but it would help us at 
least maintain some of the monies that we now spend. At least 
50 percent of the monies we spend stay within the school pots 
for our children to have access to those monies.
    The other one is our native language programs is having a 
big impact. I am so happy that our teachers are now teaching 
the Dine language to our children. They are speaking. They are 
now hearing the language. I see that there is more confidence 
in them. It must continue to be funded. I can't say enough as 
to how well that program has changed our children.
    Thank you. I appreciate your hard work. You have got us 
supporting you, so keep doing what you guys are doing. 
[Speaking native language.]
    [The statement of Ms. Largo follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms.McCollum. Please.
    Ms. Coho. Good morning. I am Beverly Coho, recent past 
president of the Ramah Navajo School Board, Incorporated, and 
also secretary-treasurer at this current time. And the Ramah 
Navajo School Board, Incorporated operates the Pine Hill 
schools and other community services in West Central New 
Mexico. And I concur with the statements made by my colleagues 
at this table because it also reflects the needs that we have 
in the Ramah Navajo community, and particularly the Federal 
employee health benefit initiative.
    With 50 years--50 years--of institutional history at this 
first institution, where we took over community control and 
self-determination, the Ramah school board has unique capacity 
to administer its own program, and true to its founding 
measure, to educate the community people. The Ramah community 
people have come a long ways along the road of self-
determination and establishing capacity and the ability to 
educate its people.
    This month, we celebrate our golden anniversary, and thank 
you in large part to the early partnership established between 
the U.S. Congress and the Ramah Navajo school board. Our 
Founders came here, talked to your predecessors in 1970, and 
ever since we have been operating our own. Thank you, [Speaking 
native language] also on behalf of our constituents, who are 
very thankful for the funds that were made available recently. 
These funds were for improvement to the HVAC system, also to 
the renovation of the existing school buildings, also the 
building of a new gymnasium. And students are fortunate for the 
opportunity that they will be learning in an environment that 
is conducive to learning.
    But to fully realize the potential of operating in new or 
refurbished, the infrastructure have to be undergoing major 
rehabilitation and upgrading. For example, the water system, 
sewer and waste system, electrical system, gas system, roads on 
campus, broadband, and improved IT systems. Right now, the 
infrastructure is life threatening. There is a constant water 
crisis causing the school to shut down every now and then, and 
this causes a great deal of interruption. And we hope when we 
get new funds that it would help us to conduct comprehensive 
hydrology stud to assess the water availability and the water 
table.
    Also secure the service of qualified engineers to conduct 
preliminary scope of work repair and/or replace the wells, 
rehabilitate the water treatment plant, including upgrading and 
replacing control systems, install water tower storage at 
perhaps 500,000 gallon capacity on campus, which we don't have 
at this time. Replace the water main throughout the campus. 
Initiate and maintain water testing so that we are in 
compliance with EPA standards and regulations; and the roads 
would be repaved because a lot of the infrastructure are 
underneath the pavement.
    Also security cameras will be upgraded. The operation of 
the facility management will be enhanced. As it is, we use only 
51 percent of funds for facility management, and we get a 
little bit from ISEP, but then if we get additional funds, we 
would be complementing the ISEP funds. Also the patchy 
unreliable internet system will be improved to serve as the 
lifeline for not only the schools, but the medical clinic that 
we operate there on campus.
    There is still a way to go on the road to self-
determination, and the best way to do this is to stay the 
course, continue to make progress by working with one another, 
tribal, Federal and State partners. We wholeheartedly 
appreciate the bipartisan support and partnership while we work 
to provide a safe and promising future for our students. Thank 
you very much.
    [The statement of Ms. Coho follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you.
    Mr. Cuny. [Speaking native language.] Good morning, 
Chairwoman McCollum, Ranking Member Joyce, and the honorable 
subcommittee. Thank for the opportunity to testify on behalf of 
the Oglala Lakota Nation Education Consortium, which represents 
the Oglala Sioux Tribe authorized grant school. I serve as the 
superintendent of one of these schools, Little Wound School 
District, in South Dakota on the Pine Ridge Indian Reservation. 
My testimony today focuses on challenges are tribal grant 
schools face as a result of underfunding within the Bureau of 
Indian Affairs and the Bureau of Indian Education.
    Today the primary means of the support is the Indian School 
Equalization Program, also known as ISEP. It provides per pupil 
allocation to the Bureau of Indian education grant schools for 
general operations expenditures. These funds, according to the 
Bureau's own documentation, are designed for educational-
related programming, such as staff salaries and benefits, 
classroom supplies, textbooks gifted and talented programs, and 
extracurricular activities. Unfortunately, funding is not 
sufficient to operate our schools.
    So today, I really want to paint a picture for you as an 
active school superintendent in a tribal grant school, and just 
give you some key financial challenges we face with today's 
current BIE/BIA policies and the application of attaining well-
qualified teachers and operating within our means. And so I may 
skip around a little bit, but I will try and touch on the main 
points.
    One reason why is that federally-funded programs like 
transportation, food service, special education, and 
facilities, are themselves underfunded, and ISEP dollars must 
be used to plug in these budget holes. So we are constantly 
pulling ISEP dollars that were intended for education for 
school operations, so that is a huge challenge across the 
board. The other thing is facilities. BIA Facilities Operation 
and Maintenance Program is a primary example. Since 1981, our 
school has only received full O&M funding once, and between 
2000 and 2016, our school received $5 million less in 
facilities funding that is needed.
    So if you look at chart A, it gives kind of a 16-year 
account of our O&M funding. So generally, I think last year we 
received about $1 million dollars for O&M funding, but if you 
calculate that figure of needs for O&M funding, our school has 
missed out on about $5 million dollars of facility O&M funding 
over the last 16 years.
    At Little Wound School, our elementary school building is 
75 years old. Our middle school is 40 years old. It is a tin 
building. They are both very dilapidated schools. We recently 
had an energy efficiency study conducted by BIA in 2010, which 
described a $5 to $8 million repair that still hasn't been 
funded, and so we still are paying high energy efficiency costs 
to operate our school. The other key point that I want to touch 
on today is FEHB benefits. One of the biggest critical factors 
for Little Wound School is we currently have a health plan 
where we pay individual coverage at about $900 a month per 
staff member. If we qualify for FEHB benefits, that would 
reduce that cost to the school to about $425 a month.
    So Little Wound School operates on $13 million a year. This 
change would save us $1.4 million annually. If we receive this 
change, we would be utilize those funds to support education, 
and so I think that is a quick fix that you guys have already 
taken steps towards. I think it is a bipartisan agreement that 
would help all the tribal grant schools across the country.
    In conclusion, you know, as we move forward, I am honored 
to be here today. The Ramah School was the first local 
controlled tribal grant school. The second school was Loman 
School on the Pine Ridge Indian Reservation. And so over the 
course of the last 45, 50 years, our tribes have had local 
control. But if you look at the way policies have been applied 
historically, tribal grant schools are falling further and 
further away from fully being funded. And I am hoping that my 
testimony today will support the appropriations as we move into 
the 21st century and help support the children of Oglala Sioux 
Tribe and their future. Thank you.
    [The statement of Mr. Cuny follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you. Mr. Joyce.
    Mr. Joyce. Thank you, Madam Chair, and thank you all for 
coming here today and providing your testimony. It is well 
received. I think certainly with, Madam Chair, being a former 
schoolteacher herself, anything that has to do with education, 
she certainly guides in whatever direction she wants to. I am 
certainly in line as well. I come from a line of teachers, my 
grandmother, my aunts, my sister, and now my cousins, so I 
appreciate the hard work that goes into educating people. It is 
much more than just a school. It requires truly an educational 
community to make it happen. So we got to make sure that we 
provide for you. Thank you.
    Ms. McCollum. We are going to look into what is going on 
with the school replacement that you talked about for the DSSG 
School District. So the division of facilities management 
construction, I have been passing notes because I have been 
trying to get the question up here good, as located in the 
Bureau of Indian. You are in Albuquerque. That is the region 
you have been dealing with?
    Ms. Begaye. Yes.
    Ms. McCollum. Or have you been dealing with the D.C. office 
and it hasn't gone well?
    Ms. Begaye. The Albuquerque office.
    Ms. McCollum. So just the Albuquerque office.
    Ms. Begaye. Yeah, mm-hmm.
    Ms. McCollum. Do you know from talking to other colleagues 
in Indian Country if they have experienced in other parts of 
the United States and other regions some of the challenges that 
you have had, like all of a sudden you are moving forward and 
there is no consultation, and you feel like the rug has been 
pulled out from underneath your feet because now you have to do 
a sewer lagoon?
    Ms. Begaye. Yeah. Well, when I was here earlier listening 
to some of the other schools, they did mention some of the same 
problems and did bring to light that DFMC was kind of doing the 
same thing to them as well.
    Ms. McCollum. Okay. That----
    Ms. Begaye. But in their region.
    Ms. McCollum. That is good for us to know because what I 
love about having the tribal public witness before we have the 
agencies here is you give us the questions to ask and to do 
follow up, so thank you. Everybody's testimony is a little 
different----
    Ms. Begaye. Right.
    Ms. McCollum. And so kind of put the bright red light on 
top of that, so thank you for that. The insurance, as I was 
said, I was passing notes. No disrespect, but there is a bill. 
It is H.R. 8595. It was introduced, and it dealt with the 
insurance issue that you have all brought up, which is very 
enlightening to me and something that you have done an 
excellent job of highlighting how we can save dollars so you 
can put them back into serving students. On January 5th, it was 
ordered to be reported by unanimous consent out of Natural 
Resources. So I am going to follow up and see what other 
committees it has to go through, and I will talk to our 
leadership about that. And if it came out of a unanimous 
consent, maybe you can talk to Mr. McCarthy as I am talking to 
Mr. Hoyer, and maybe see if we can get this on the floor, 
because that would be great, or if there is a holdup, find out 
what it is so maybe we can work together and fix it.
    The infrastructure package that I was talking about 
earlier, you know, looking at the whole school, you know, you 
move a school, you have to move pipes. You don't want to just 
move the pipes in the school and get them up to good standards. 
Everything that makes the connection, right? So I think you did 
an excellent job of highlighting that. And then I am going to 
have to look into, after the school shootings that took place, 
and we had one on our Indian reservations in Minnesota several 
years ago. We went in and put in some safety features. And I am 
hearing you talk about safety features. And as a 
superintendent, you are nodding your head yes.
    I want to figure out what that Safe School Grant looks 
like, and I, quite honestly, don't know whether or not that 
those are grants you are available for. Do you know if you are 
available for the Safe School Grants, sir?
    Mr. Cuny. I think we may be available for it. I know we 
have had conversations with BIA and BIE in terms of, you know, 
possibly filing for a DOJ that would provide an SRO and tribal 
grant schools. But the safe School Grant, I am sure we are 
available for it. It is just a matter of applying for it. But 
there are some capacity measures that could support school 
safety at the Federal level.
    Ms. McCollum. Okay. So there are other issues we can look 
at, too, but we don't want to make this so complicated that you 
always have to be hiring a grant writer or taking time away 
from your other duties to write grants. So we want to try to 
work together with you to make this as seamless as possible. 
Thank you so much for your testimony. I have got some homework. 
You did a good job as educators. Thank you.
    Voice. Thank you.
    Will the next panel please come up?
    Voice. Thank you so very much.
                              ----------                              

                                      Wednesday, February 12, 2020.

    AMERICAN INDIAN AND ALASKA NATIVE PUBLIC WITNESS DAY 2--PANEL 6


                               WITNESSES

CARRIE L. BILLY, PRESIDENT AND CEO, AMERICAN INDIAN HIGHER EDUCATION 
    CONSORTIUM
LAURIE HARPER, PRESIDENT, TRIBAL EDUCATION DEPARTMENTS NATIONAL 
    ASSEMBLY
LAWRENCE MIRABAL, CHIEF FINANCIAL OFFICER, THE INSTITUTE OF AMERICAN 
    INDIAN ARTS
RYAN WILSON, PRESIDENT, NATIONAL ALLIANCE TO SAVE NATIVE LANGUAGES
    Ms. McCollum. And as the next panel comes up, I want to 
thank you for your patience. You have waited 45 minutes extra 
to testify. I have got a big clock I am trying to watch, but we 
also want to hear from your colleagues. So thank you for your 
patience with the committee. And are you familiar with how the 
testimony is going to work, or would you like me to go over 
that again?
    Ms. Billy. Go over it again.
    Ms. McCollum. Okay. Happy to do that. So I am going to ask 
you to introduce yourself. That will not count against your 
time. You will have 5 minutes. We will go a little faster if we 
don't do double introductions, and when you see the yellow 
light, you have 1 minute left. When the light goes red, we ask 
you to conclude your testimony. All your testimony will be 
submitted into the committee record here, so we thank you for 
all of it. And please don't feel rushed, and Mr. Joyce and I 
will ask a few questions when we are done.
    But let's get started. So, Ms. Billy, will you lead us off?
    Ms. Billy. [Speaking native language.] My name is Carrie 
Billy. I am the president and CEO of the American Indian Higher 
Education Consortium, which is this nation's 37 tribal 
colleges. Madam Chair, and members of the subcommittee, thank 
you for your tremendous past support of tribal higher education 
and for your faith and the power of place-based culturally-
grounded education and workforce development. They surely are 
the means for bridging the swirl of generational poverty and 
all that flows from that oppressive river.
    Our tribal college requests are described in our written 
testimony, so I will not mention all of them. Briefly, we are 
close to full operating funding. We only need about $8 million 
dollars to feel fully fund the 30 tribal College Act 
institutions and a total of about $17 million in new support to 
fully fund all tribal colleges. We also ask for your help in 
meeting TCU construction and rehabilitation needs, beginning 
first with a study of tribal college facilities that was 
mandated, but never done, more than 4 decades ago.
    Today, thank you for the opportunity to speak with you 
today, but let's not make this a once-in-a-year event. We 
invite you to visit any of the tribal colleges, in fact, all of 
them, any time so you can see and experience the impact of your 
annual investment in our Nation's 37 tribal colleges. The 
return on that investment between, $6 and $17 for every one 
Federal dollar, is visible every day at the tribal colleges and 
their communities.
    At Southwestern Indian Polytechnic Institute in 
Albuquerque, New Mexico, you will meet pre-engineering student, 
Bobby Thomas. A SIPI student government president, Bobby can 
tell you how in just a few short years, SIPI tripled its 
completion rate while growing its enrollment by 25 percent. You 
will see 100 graduating students who already have jobs as 
optical and computer technicians, chefs, natural resource 
managers, early childhood educators, and more.
    At Navajo Technical Institute University in Crown Point, 
New Mexico, you will meet Leslie Notan, Erica Bogoti, students 
enrolled in one of two ABET-accredited engineering programs and 
advanced manufacturing programs, where they use state-of-the-
art 3D printers to make parts for Boeing, Honeywell, and 
Lockheed Martin. You will see those same students in their 
spare time using those same printers to make tiny little 
customized races for res cats and dogs with broken limbs. 
Leslie even reversed engineered parts for his old car to get to 
class every day, and Erica designed a now patented solar 
medical cooler, and a 3D print finger for her off-the-grid 
elderly family members with diabetes.
    At Salish Kootenai College Pablo, Montana, you will see 
high school students spending their afternoon at SKC's 
innovative STEM academy working with college professors, 
engaging in community-relevant experimental learning and 
completing high school, already on a direct pathway to college. 
At Sitting Bull College in Fort Yates, North Dakota, you will 
visit their Lakota immersion nest and meet two and three-year-
olds speaking only Lakota, part of the generation that will 
save their ancestors' language.
    At Red Lake Nation College in Minnesota, you will meet high 
school senior, Emma King Bird, who through Red Lakes early 
college program, has now already earned more than half the 
credit she needs for an associate degree, and she has also 
completed basic training to join the U.S. Army.
    At Turtle Mountain Community College in Belcourt, North 
Dakota, you will learn that when the college was established in 
the early 1970s, you could count the number of Ojibwe teachers 
on three fingers. Today, you will meet Billy Howell, a Turtle 
Mountain grad and one of 280 or so native teachers on or near 
the reservation.
    Currently, more than 90 percent of the reservations 
reservation area teachers are native thanks to Turtle 
Mountain's elementary education and secondary science programs. 
That is the transformative power of tribal colleges, and you 
are responsible. I could go on, but you get the idea. Success 
story after success story. Native teachers, native scientists, 
native leaders, native nation builders. The future of our 
America is there at the 37 tribal colleges. Come and see it and 
be part of this native renaissance.
    We are so close to full funding of the tribal college and 
universities assistance ask. We only need and ask for 
additional $8 to $7 million dollars. I know it is really 
difficult. But in closing we have one great need: 21st century 
technology-enabled facilities that TCUs need to help our tribes 
fully rebuild our nations. When Congress enacted the Tribal 
College Act 41 years ago, it directed Interior to conduct the 
study of TCU facilities, and authorized a construction program. 
Forty-one years later, the study has not been completed, and 
the construction program was never funded.
    We ask this subcommittee to direct the Department to 
complete the study and fund the Tribal College Construction 
Program. Our tribes cannot be competitive in the 21st century 
without the ability to train a 21st century workforce. Let's 
end generational poverty in Indian Country. Thank you so much 
for all you do, and let's work to create a native renaissance. 
Thank you.
    [The statement of Ms. Billy follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms.  Harper. My intro is like 5 minutes. Aaniin 
wedaakewaad, Ogaabewisiikwe indizhinikaaz. Gaazagaskwaajimekaag 
indoonjibaa. Niminwendam waabamininim igaye go ji-ni-dazhindaan 
gidinwewininaan noongom.
    Chair McCollum, Ranking Member Joyce, and members of the 
subcommittee, I am Laurie Harper. I am from the Leech Lake Band 
of Ojibwe in present-day Northern Minnesota. My whole life has 
been steeped in educational equity of our people. I currently 
serve as the director of education for the Leech Lake band of 
Ojibwe. I am the elected chair of the Bug O Nay Ge Shig School 
board, and I am also president of the tribal education 
department's national assembly.
    The Leech Lake band is one of 11 tribal nations in 
Minnesota. TEDNA is a national nonprofit membership 
organization for the education department of American Indian 
Alaska native tribes. Thank you for the opportunity to speak 
today for funding for TEDs
    First and foremost, our sincerest gratitude for 
appropriating funds for the past 6 Fiscal Years to support TEDs 
through the Department of Interior's Title 25, Section 2020 
grants. This subcommittee clearly values the crucial role of 
TEDs in providing support and coordinating education programs 
and services to Native American students. TEDs are making 
historical progress in defining educational programs and 
services, a role that Federal education policy ignored for too 
long and Congress has sought to change. Continued funding is 
required to maintain and expand essential and successful work 
of TEDs for our Native American students, particularly those 
served by the Bureau of Indian Education funded schools.
    For this, the Leech Lake band of Ojibwe and TEDNA 
respectfully request $10 million dollars to support TEDs Ted's 
in the Department of Interior Environment and Related Agencies 
appropriations bill for Fiscal Year 2021. The funding for TEDs 
through the Department of Interior is authorized in the 25 
U.S.C. Section 2020, and this authorization dates back to 1988. 
Since its enactment, Congress has retained this important 
authorization in every major reauthorization of Federal 
education laws. However, the authorization remained unfunded 
for more than 25 years. Outstandingly, due to the commitment of 
this subcommittee, Section 2020 grants finally received funding 
in Fiscal Year 2015. There are currently 11 Section 2020 TED 
grantees, whose vital work and initiatives under these grants 
have only just started. They and many other TEDs need continued 
and increased Section 2020 funding.
    For some Native American students, the 183 BIE-funded 
schools remain the only educational option because of the 
unavailability or unsuitability of State public schools for 
geographic or other reasons. Tribes operate most BIE-funded 
schools through contracts or grants. A few remain directly 
operated by the BIE. All BIE-funded schools are and 
historically have been drastically underfunded as the 
subcommittee is well aware. As the GAO stated, ``Funding 
factors seriously harm Native American students and hinder 
their academic success. The BIE-funded schools and the students 
they serve are most in need of the assistance of tribal ed 
departments.'' This is exactly what Section 2020 grants are 
intended to address.
    A crucial area that Congress identified for Section 2020 
grants is the development of tribal education codes, including 
tribal education policies and travel standards applicable to 
curriculum, personnel, students, facilities, and support 
programs. Given this congressional intent and mandate, I would 
like to speak to my own experience as a tribal education 
director.
    Leech Lake Band of Ojibwe Tribal Education Department 
houses multiple programs. The Leech Lake TED in Minnesota 
serves students attending 10 State K through 12 public schools 
as well as the Bug O Nay Ge Shig School, a tribally-controlled 
school funded through the BIE. In prioritizing capacity 
building and crafting our education policy, we have actively 
sought the input of our community, including our students, 
parents, and caregivers in how they identify and define success 
in a school educational setting.
    The Leech Lake Tribal Education Department is fluid. We are 
striving to build the capacity of our current staff, and at the 
same time identifying areas within the TED that needs to be 
built up. This has been a multipronged approach to policy and 
capacity building. This includes data gathering of our post-
secondary students in what areas they are graduating in, 
working with the tribal workforce development to identify 
current and future workforce needs, and coordinating the 
Minnesota Family Investment Program to ensure family financial 
stability so our students and families can focus on education.
    Our Section 2020 grant funds are an essential component of 
building our capacity. In order to meet our student needs, we 
are using the Section 2020 funding to develop the tribal 
education code and the comprehensive ed plan that will be 
culturally specific and relevant to us as Leech Lake Band of 
Ojibwe. The activities funded by the Section 2020 grant has 
assisted us in strengthening our relationships with outside 
entities and the impact on the Leech Lake band of Ojibwe's 
involvement in areas beyond the grant. Our approach to 
supporting students emotionally, culturally, physically, and 
mentally will foster our student success in any educational 
setting.
    The Section 2020 grantees are just beginning to demonstrate 
the positive impacts we have in Native America education. We 
want to continue our important work and build upon our 
successes. Increased funding will help us do that. Section 2020 
grants help facilitate local tribal control of education 
through supporting early education initiatives and development 
of culturally-relevant curriculum and assessments, increasing 
tribal participation through TEDs, providing coordination, 
administrative support services, technical assistance to 
schools, and education programs, including maintaining and 
sharing electronic data regarding Native American students, and 
enforce tribal education codes, including tribal educational 
policies and tribal standards applicable to curriculum, 
personnel, students, facilities, and support programs. As 
Congress has recognized, these are core educational governance 
functions that are most appropriately left to the local 
government closest to the students being served, the tribes. 
Section 2020 grants clearly help facilitate this local control.
    While TEDNA recognizes this subcommittees longstanding 
commitment to funding TEDs, we would like to point out that we 
view a $10 million authorization as the bare minimum required 
to fulfill the intent of funding the important work of TEDs and 
Native American education. Further, while Section 2020 funding 
goes directly to TEDs, TEDNA is working closely with the BIE 
continues to play an important role in providing technical 
assistance to TEDs. TEDNA's role is one that the subcommittee 
understands and has long acknowledged. We respectfully request 
that this be memorialized in the report issued by the 
subcommittee.
    The continued investment in TEDs is sound Federal policy. 
It efficiently focuses and maximizes scarce resources for 
historically underserved populations. It encourages and 
supports local control and tribal self-determination and 
education. This subcommittee has an exceptional opportunity to 
further these goals and help generations of Native American 
students. We respectfully request $10 million for the TEDs in 
the Department of Interior Environment and Related Agency 
appropriation bill for Fiscal Year 2021 to continue the 
groundbreaking, challenging, and most beneficial work being 
done through the Section 2020 grants. Thank you.
    [The statement of Ms. Harper follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Mirabal. Mr. Mirabal. Thank you, Madam Chair, and 
members of the subcommittee. My name is Lawrence Mirabal, and I 
am the chief financial officer at the Institute of American 
Indian Arts in Santa Fe, New Mexico. I am grateful for the 
opportunity to present testimony on behalf of the college. IAIA 
was established in 1962 as the only BIA boarding school 
teaching native arts and culture. In 1986, IAIA became an 
independent college, chartered by the United States Congress to 
empower creativity and leadership in native arts and culture.
    First and foremost, IAIA is a community, a community that 
embraces the past, enriches the present, and creates the 
future, while provoking thought and providing exceptional 
educational opportunities. Our college is one of only three 
higher ed institutions in the Nation chartered directly by the 
Congress. The Institute of American Indian Arts is a national 
treasure and is where contemporary native art was born.
    IAIA offers bachelors programs in studio arts, cinematic 
arts and technology, creative writing, museum studies, 
indigenous liberal studies, and the performing arts, as well as 
a graduate degree in creative writing. Additionally, the 
college is very close to establishing a second graduate program 
in studio arts. The college serves more than 500 students 
representing 34 States and 93 tribes from across North America. 
Over 80 percent of IAIA students are Pell eligible, and many 
are first generation attendees. These numbers translate into 
dreams fulfilled, new opportunities, and a generational shift 
for Native students and the communities that they come from. 
The impact and importance of the work being done at IAIA are 
undeniable.
    To ensure financial sustainability, the college continues 
to vigorously pursue revenue sources to augment its 
congressional funding. Evidence of this can be found in the 
college's operating budget. As of the most recent Fiscal Year, 
almost 30 percent of the budget came from non-appropriation 
sources. The students, faculty, and staff of IAIA are deeply 
appreciative of this subcommittee's strong record of support. 
It is clear that the unique mission of the college is 
understood and valued by the members of this body.
    The college's 2021 budget request includes a modest 
increase of $252,000 over the amount enacted in Fiscal Year 
2020. The Fiscal Year 2021 budget funding request will assist 
IAIA in addressing several key priorities. Like many 
institutions around the country, the college is placing a 
renewed focus on student safety. The college's community is 
diverse and dedicated to providing an environment for learning, 
living, and working, that is free from discrimination, 
harassment, misconduct, and retaliation. To ensure continuous 
improvement in this area, the college has established the 
position of coordinator of Title IX Equity and Inclusion, and 
will soon make a permanent hire to fill this role.
    IAIA will soon embark on the creation of a native arts 
research center on the college's campus. This project will be 
partially funded by the college's partnership with the Mellon 
Foundation, with the college eventually absorbing ongoing 
operational costs. The research center will coordinate 
resources at the college and scholarly fellowships to support 
research about contemporary Native American and Alaskan Native 
arts. It is anticipated that the research center will serve as 
a world-class destination for scholars throughout the country.
    Offering a competitive benefits package is essential for 
recruiting and retaining the most talented employees. The 
college continues to absorb cost increases associated with 
health insurance, maintaining an equitable faculty rank and 
step schedule, and providing staff with competitive wages. 
However, rising costs in these areas continue to be a reality 
that the college must deal with.
    In summary, AIAI's top priority is ensuring the success of 
our students, affording them the opportunity to achieve 
greatness and give back to their communities. This is how 
generational change is made, and IAIA is very honored to be a 
key part of that process. To continue this important work, we 
respectfully request that the subcommittee act again in fiscal 
year 2021 as you did in fiscal year 2020 by supporting the 
Administration's request of $10.71 million in the independent 
agencies title of your bill. The students, faculty, and staff 
of IAIA greatly appreciate your support. Thank you.
    [The statement of Mr. Mirabal follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you.
    Mr. Wilson. [Speaking native language.] Madam Chair and 
Ranking Member Joyce, I got to meet you yesterday, and I am 
really happy you went to NCAI. And, you know, we worked with 
you, Madam Chair, for many years. I am Brian Wilson, the 
president of the National Alliance to Save Native Languages. I 
am also the co-chair of the National Congress of American 
Indians Native Language Task Force, and former president of 
National Indian Education Association and 20 years on their 
board. So we have kind of been doing this a while.
    I also want to acknowledge one of our founding board 
members of the National Alliance and my also co-chair of NCAI 
Task Force, my brother Joe Garcia, former president of NCAI. He 
came to support us, and later on in my 5 minutes, perhaps, 
Madam Chair, with your permission, you know, he can introduce 
himself as well. I will talk fast. Brevity is not our strength, 
but we are going to show some today [Speaking native language.]
    Ms. McCollum. We save the best for last, and that includes 
Mr. Garcia. So go ahead.
    Mr. Wilson. Good. Good. You know, and I want to thank your 
staff. Janet Erickson has been working on this language issue 
for 20-some years up here. The prodigious record of Darren 
Benjamin belongs in the Pantheon on this issue as well, and I 
appreciate his presence here. He's got a lot of patience as 
well.
    We have got a very simple ask. You have got a program that 
people are talking about throughout Indian Country. It has 
created a wonderful buzz. And if you think of our languages as 
kind of like a sleeping giant, you know, they are getting up on 
one knee now and really trying to rise and be a part of what 
culturally-based education should be. And what we are asking 
you is to once again in this appropriations budget codify this 
immersion program in it.
    And I asked for $4 million in the testimony. I just want to 
get in step with NIEA because I just read their testimony which 
was $5 million. I know if we start saying $1 million here and 
there, pretty soon we are talking about real money. But we have 
a chance here to do something really dynamic, and this started 
5 years ago. You guys offered support of report language that 
encouraged the Bureau to look into this. Eventually that turned 
into, you know, some initial funding for the projects. We have 
had 30 schools receive this money over the last 2 Fiscal Years. 
And the main primary point I want to make is the Bureau is 
funding these schools on 1-year grants, and that doesn't really 
make sense to me. What I would like to see is that you go ahead 
and authorize them on at least a 5-year cycle on this, and the 
reason for this is simple. You would never say to a BIE school 
we are only going to fund your math department 1 year. How 
would you get good personnel? How would you get traction? How 
would you have a stable leadership, you know, within that 
department?
    What we are really looking at is for these schools to 
create and engender in their culture or their site-based 
management these language efforts that are going to be 
impactful, dynamic, and solvent, and lasting. And that can't 
happen by just one grant this year, next year you are out of 
the loop, someone else is going to get it. And it is really 
disrespectful to the last remaining language speakers that we 
have because they are making commitments to go to these schools 
and teach and be there without even knowing if they are going 
to be hired, you know, the next year and so forth. So I wanted 
to bring that forward to your attention.
    And I want also say because Nagani is here, and you are 
from where you are, Madam Chair. They precipitated this effort 
when the Bug O Nay Ge Shig School hosted Nagani, they wouldn't 
count them towards their ISEP student count, the immersion 
students there. And so they were having a school within a 
school, but without getting any benefit of those students on 
the student count numbers. And when we talked to the Bureau 
about it, they were like, well, that is just how it is. There 
is no statutory authority or whatever. We go, yeah, there is. 
And these BIE schools have had the authority for many years to 
teach languages, but the budget constraints and really the 
profound sense of urgency to fund their primary core academic 
areas superseded that.
    So what we wanted was a complete separate set aside that 
wouldn't be commingled with ISEP dollars or with their 
operating budgets for immersion so that those schools would 
have a chance to have traction, to have solvency, and to be 
able to exist in our kind of ever-changing world. And I want to 
impress that point. There is a difference between teaching 
Indian for a classroom, an hour-long class, and then another 
group of 30 students comes in and all that versus using the 
using the language as the medium of instruction, and having an 
immersion program in your school. And this is what we are 
asking you to really clarify in your report language. And also 
that we authorize them for multiyear grants.
    Now I am going to just tell you a quick story, and if it is 
okay with you, I just wanted my brother to be able to introduce 
himself because he is older than me, and I respect him a lot. 
Madam Chair, when we started this effort, you know, this was 
almost 20 years ago now, there was $1.4 million in another 
department called administration for Native Americans, the 
Native American Language Act. Five hundred and sixty-three 
tribes, plus native Hawaii, plus all of our U.S. territories 
and micro Asia were sharing in competitive grants to get that 
money.
    Where we are at today is phenomenal, and I want to just 
take time out and thank all of you for us getting there, you 
know, together because we have got a lot of good money in ANA 
now. We have money in the Department of Education for this, and 
then what you guys are doing, it is awesome. So, you know, I 
wanted to put a context there, but with the Bureau's schools, 
this is kind of my last example. My dad went to St. Stephen's 
Indian School on the Wind River Indian Reservation, and he was 
one of the many thousands of Indian kids that were spanked for 
talking Indian in school, and on the playground, and in their 
dorms. He was so excited. He died 4 four weeks ago. He was so 
excited that his alumni school is receiving one of these 
grants, yeah. And that is a real story. There are thousands 
others like it, but that was a real personal one with me.
    [The statement of Mr. Wilson follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wilson. And just real quick, I know I got 10 seconds, 
brother, if you want to stand up and introduce yourself.
    Ms. McCollum. Mr. Garcia, see if you can get close enough 
to a microphone so we can hear you, and we are honored to have 
you with. Please.
    Mr. Garcia. You want to look into my eyes, huh? [Laughter.]
    [Speaking native language.] With all due respect, thank you 
the time, and thank you, brother, for allowing me a little bit 
of time. We do co-chair the Native Language Task Force at NCAI, 
but it was an initiative that was started after we have talked 
about languages every year, every year, every year, but we 
never had any action on and how we are going to move this this 
effort forward. And we saw that we are working with in a 
bureaucratic system, being the United States government, and 
how grants, and how funding, and all of that is put into place.
    And so we cannot piecemeal this, and that is sort of what 
we are talking about, what Ryan is talking, that we are 
piecemealing everything that want to do. And so you cannot 
sustain a function or an operation or a program if you don't 
have funding for multiyear because you cannot build the 
resources that you need to sustain that. And just like the 
example he gave, you don't build a store like that. You don't 
build a research facility like that.
    And I like data and stuff. I am electrical engineer by 
profession, but I am also fluent in my language, and we support 
Esther Martinez bill. She was part of our community, and 
unfortunately, we lost her after she received the National 
Endowment here in Washington, D.C. And she was going home, and 
she had an accident, and she was gone. But consequently, the 
bill was named after her.
    But the efforts that we talked about is not just New 
Mexico, not just the Pueblos, but it is all across the Indian 
Nation. All of the Indian nations are impacted by this, whether 
they are in a public school or a BIE-controlled school or a 
tribal-controlled school. So education is education, and I 
think we all got to be on the same boat, the same platform, got 
to be fair for all of our children because that is how our 
future is going to be. We depend on our children and the 
knowledge that we set forth for them, and including our 
culture, our language, and the dominant society's language and 
approach as well. So thank you for the few moments. Thank you.
    Ms. McCollum. Thank you. Always good to hear from you, Mr. 
Garcia. I passed a note to Janet, and Mr. Joyce and I, we will 
work with Darren, too. We are going to see if we really need 
any authorization to go from 1 to 5 years, but then we have to 
look at the impact for how OMB scores things because then we 
are scoring for multiple years, and if that would mean that 
they want us to fund the 5 years up front. Anyways, we will be 
in touch, and thank you for bringing that up.
    We heard from the secondary schools about the cost of 
insurance. Is that something that you would agree that for 
tribal schools to be on? I have to get a copy of the bill 
language in front of me that I just referenced earlier to see 
if it is, you know, K through 12 or if it includes Head Start, 
or what all it includes. Is insurance something that that you 
are paying extra for that if you were in the Federal plan, you 
would have more money? You mentioned in your testimony you 
would have more money to put back into student services?
    Mr. Mirabal. Madam Chair, members of the subcommittee, it 
is definitely something we would be open to exploring. Right 
now we are insured privately like any college with a carrier or 
broker, and we actually self-insure. We moved to a self-insured 
health insurance model, but it is still a challenge with about 
110 employees. That puts us right in the sweet spot for being 
too small to be what they call credible, but still large enough 
to be expensive.
    Ms. McCollum. Okay.
    Mr. Mirabal. So we would love to explore that option.
    Ms. McCollum. So we will look into it.
    Ms. Billy. Can I answer for the tribal colleges, just all 
the trial colleges? Tribal colleges are eligible under the law, 
the new law, to participate as long as their tribe has a 638 
contract.
    Ms. McCollum. Oh.
    Ms. Billy. So if their tribe has a 638 contract, they can 
participate. Any within the tribe can. So some of our tribal 
colleges have switched over and had tremendous savings. But for 
the colleges, and I imagine IAIA does not have a 638 contract, 
so they are not eligible to participate in the Federal 
employees program now. And they would see cost savings. One 
college, I think their costs went down 30 percent, so it makes 
a huge difference.
    Ms. McCollum. Anything that we can put back into student 
services----
    Ms. Billy. Right.
    Ms. McCollum [continuing]. Well worth it. Ms. Harper, it 
was so great being out there at Bug O Nay Ge Shig School, and 
seeing everything, dual language immersion. So it was friendly 
for me to find the cafeteria and the ladies room, but the 
children also in that school knew that their language was 
important----
    Ms. Harper. Right.
    Ms. McCollum [continuing]. By looking at it, and that is so 
impactful, so the work that you do in languages is very 
important. And give a plug, I hear from my son who is a 
linguist all the time just how important they are, but one fact 
that hasn't been brought up that I want to put on the record is 
children who learn two languages excel in math. They excel in 
creativity, and they go off and on to learn other languages 
because they crack the code of what it means to communicate. So 
thank you all for your work and what you do.
    And with that, we are going to adjourn until 1:00. Thank 
you so much.
    Voices. Thank you.
                                      Wednesday, February 12, 2020.

         AMERICAN INDIAN AND ALASKA NATIVE PUBLIC WITNESS DAY 2


                           AFTERNOON SESSION

                              ----------                              


                               WITNESSES

DARRELL G. SEKI, SR., TRIBAL CHAIRMAN, RED LAKE NATION
TEHASSI TASI HILL, CHAIRMAN, ONEIDA NATION
CHERYL ANDREWS-MALTAIS, CHAIRWOMAN, WAMPANOAG TRIBE OF GAY HEAD 
    (AQUINNAH)
FLOYD AZURE, TRIBAL CHAIRMAN, ASSINIBOINE AND SIOUX TRIBES OF THE FORT 
    PECK RESERVATION
W. RON ALLEN, TRIBAL CHAIRMAN AND CEO, JAMESTOWN SKALLAM TRIBE
    Ms. McCollum. Good afternoon, and welcome back to our last 
public witness hearing covering tribal programs under the 
jurisdiction of the Interior, Environment Appropriations 
Subcommittee. Once again, we have organized these witnesses 
according to testimony topic. This morning we heard about the 
failure of trust and treaty obligations as it relates to public 
safety and justice needs, and challenges facing schools, K-12, 
and we have heard from the tribal colleges as well. We begin 
this afternoon's hearing with the last panel related to 
education before moving to our last topics, tribal government 
and human services.
    Before we begin, I would like to briefly touch on the 
hearing logistics. We will call each panel of witnesses to the 
table, and I thank the first panel for coming up, and each 
witness will have 5 minutes to present their testimony. Janet 
will be operating the timer here. When the timer goes to 
yellow, that means you have 1 minute left of your 5. When it 
goes to red, I usually kind of give you an extra minute, but 
then I am going to lightly tap the gavel. So that is what it 
sounds like because yesterday no one knew what it sounded like 
because I didn't do it ahead of time. So that is what it sounds 
like, so you would be over then.
    We have all of your testimony, and it has all been entered 
into the committee record here, and so don't feel rushed. Don't 
feel, you know, like it won't get in unless you say it. I don't 
anticipate any votes, so we are going to keep this going. So 
yesterday we had a 45-minute break, and so there were people 
who stayed an extra 45 minutes, and we appreciated the tribal 
leaders' patience on that. So I think we are going to be okay 
without any votes. If there are votes, I will ask people to 
stay close to the witness room.
    And I would like to remind members here the committee rules 
prohibit the use of cameras and audio equipment during the 
hearing by individuals without House-issued press credentials. 
And Mr. Joyce would like us to start. He will be here shortly. 
He wants to be respectful of everybody's time, and I appreciate 
that, and we work together as a team, so we will get going. In 
order to save time, rather than do double introductions, I am 
going to have you introduce yourself. We won't count that 
against your time. Once you start your testimony, then Janet 
will start the 5 minutes, but we found that that went a little 
smoother and kept things moving a little moving a little more 
orderly. So if you would, please start, sir.
    Mr. Seki. [Speaking native language.] My name is Darrell G. 
Seki, Senior, chairman of the Red Lake Band of Chippewa 
Indians. Good afternoon, Chair McCollum, and Ranking Member 
Joyce, and other friends on this committee. Miigwetch for this 
opportunity to testify today on appropriation needs of the Red 
Lake band of Chippewa Indians.
    The Red Lake Band's 840,000-acre reservation is home to 
more than 13,700-plus tribal members. While we are rich in 
culture and language, we face difficulties in meeting the needs 
of our members with regard to healthcare, public safety, and 
road maintenance as a direct result of the government's failure 
to uphold its trust responsibility and respect our treaties. As 
you consider Fiscal Year 2021 appropriations, we ask you to 
remember the important role you have to play in changing this 
course.
    Today, we have five appropriations requests along with 
others that can be found in my written testimony. First, Red 
Lake requests that you continue to protect funding for Indian 
Country from drastic and dangerous proposed cuts by this 
Administration as you have done for the past several years. 
Second, we request that you provide advanced funding for BIA 
and IHS programs to help us avoid painful disruption to our 
administration of vital services caused by the uncertainty of 
continuing resolutions and government agency shutdowns. Third, 
we request that you make permanent and expand BIA's Tiwahe 
recidivism reduction initiative.
    Chair McCollum, you are well aware about the important work 
that these programs are doing in Minnesota. We have not had a 
youth suicide in over 2 years. We are training our tribal 
members to get good-paying jobs. We are providing our youth 
with mental health and substance abuse services that are 
culturally appropriate and effective. We are providing our 
members with services that they desperately need. Failure to 
continue increased access to these important programs would not 
only be a disserve to Red Lake, but to all of Indian Country.
    Fourth, as we work to make our reservation safer and free 
of dangerous drugs that have taken too many of our members 
lives, we request an additional $20 million in Fiscal Year 2021 
for tribal law enforcement operations, an additional $3 million 
specifically to combat our opiate crisis. In 2017, Red Lake 
declared a public health emergency because of the sharp 
increase in opiate overdoses. Since then, our law enforcement 
has been successful in confiscating heroin, fentanyl, and other 
drugs. We also have stepped up training for our members to save 
lives. In the past 3 years, we have had 214 drug overdoses. We 
are fortunate to have saved the lives of 104 members by using 
Narcan. At Red Lake, we have actually saved more lives with our 
Narcan program than all of BIA law enforcement nationwide.
    Ms. McCollum. Wow.
    Mr. Seki. Despite this progress, every year we have to 
transfer money from other critical unfunded budgets to maintain 
the level of public safety that our members need. We need you 
to stand with us in this war on drugs. Our community deserves 
to be healthy and safe.
    Fifth, we ask you to add the indefinite appropriations 
authorization language regarding the financing of 105(l) lease 
costs that are included in my written testimony. This language 
is modeled after what has been requested by the Administration, 
adopted by Congress in prior years for contract support costs. 
At Red Lake, we were pleased to recently finalize Section 105 
leases for our criminal justice complex and two new fire halls 
after our good and productive negotiations with the Department 
of Interior.
    We are confident this language would facilitate the funding 
of lease payments without impacting other tribal programs and 
would help avoid the time-consuming, costly reprogramming 
process that frustrates both Federal and tribal administrators. 
And I want to say Chi Miigwetch for allowing me to request your 
support for some of our most immediate needs at Red Lake as you 
enact Fiscal Year 2021 appropriations that directly impact my 
constituents. We are counting on you. Chi Miigwetch.
    [The statement of Mr. Seki follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. No pressure. No pressure from one of my 
tribal leaders back home. Please, sir.
    Mr. Hill. [Speaking native language.] Hello, everyone. My 
name is Tehassi Hill, chairman for Oneida Nation. Chairwoman 
McCollum, Ranking Members Joyce, and the committee, thank you 
for inviting tribal leaders to testify before you today. It is 
an honor to be here on behalf of more than 17,000 members of 
the Oneida Nation. I am here today to advocate for a number of 
critical programs and policies that directly impact the Oneida 
Nation and Indian Country as a whole.
    As you know, tribes and tribal organizations face many 
challenges as identified in the ``Broken Promises'' report. In 
addition, both the Indian Health Service and the Bureau of 
Indian Affairs are on the Government Accountability Office's 
High Risk List. Indian Country has been underfunded and 
underserved for too long. Below are just some recommendations 
the Oneida Nation has to improve the health, safety, and 
welfare of our community.
    One of the fundamental trust responsibilities of the 
Federal Government is healthcare, and the committee has our 
thanks for the substantial funding increase it provided in the 
Indian Health Service in the appropriations measure enacted in 
December. I would like to highlight the growing use of Section 
105(l) leases through which IHS enters into a lease for 
facilities owned and/or leased by tribal or tribal 
organizations, and used to deliver the healthcare services 
under the Indian Self-Determination and Education Assistance 
Act. Section 105(l) leases have been a great success for 
reimbursing tribes for the cost of providing healthcare 
facilities that IHS would otherwise have to provide. They 
provide much-needed funds to help with maintenance and 
improvement of facilities we are providing to carry out our 
Title V compacts with IHS.
    Unfortunately, IHS has failed to adequately plan for the 
widespread adoption of Section 105(l) leases, and while this 
committee has increased funding for the program, IHS budget 
requests have not kept pace with demand. Of the $125 million 
the committee appropriated in Section 105 leases in December, 
we understand that at least 95 percent is needed to support 
existing leases. In order to address this deficiency, I request 
the committee take two actions. First, the committee should 
consider creating a separate funding line for Section 105(l) 
leases to ensure the use of the program is fully recognized. 
Second, the committee should classify Section 105(l) lease 
appropriations as separate and indefinite in the manner it did 
with contract support costs.
    Next, I would like to reiterate Oneida's strong support for 
tribal self-governance. This is tribal control of the 
distribution and administration of Federal funding. At Oneida, 
we have assumed responsibilities for our healthcare, education, 
and most BIA programs, and the results have been undeniably 
positive. Environmental, health, and education indicators have 
gone up while administrative costs have gone down. Just as 
important, our tribal government capacity has also improved. 
Our staff now have the knowledge, skills, and experience to 
take on new and more complex governance operations, and they do 
so on a regular basis.
    Every culture has a story of how the world was created. 
Oneida Nation's creation story teaches us that everything is 
connected. There must be balance for the environment to thrive. 
It is philosophy that has let us become long-term partners with 
the EPA on the Great Lakes Restoration Initiative. Launched in 
2010, the initiative protects and restores the largest system 
of fresh surface water in the world, the Great Lakes, which 
happens to be in our backyard. Since then, Oneida Nation has 
been awarded nearly $4.5 million for watershed improvement 
projects, which not just benefit our community, but the greater 
region. Oneida Nation strongly urges the committee to fully 
fund the Great Lakes Restoration Initiative.
    Lastly, I ask Congress to fully fund the Native American 
Languages Program. For more than 80 years, we have worked hard 
to preserve and revitalize the Oneida language. In the 1930s, 
the Oneida Nation began documenting our language and how it has 
evolved. In the 1970s, we partnered with a linguist from the 
University of Wisconsin, Green Bay, to develop a dictionary 
that is still in use today. Unfortunately, our people have not 
spoken Oneida as a first language for more than a century. To 
combat this, we launched a 10-year language immersion plan in 
1996 that created the Oneida language curriculum available to 
hundreds of students.
    In 2010, thanks to a Native American language preservation 
and maintenance grant, we developed and implemented an 18-unit 
course curriculum coupled with an online learning program that 
has provided Oneida language learning access to thousands of 
students and Oneida citizens. Oneida language is a key 
component of our cultural identity. Language [Speaking native 
language]. When we use [Speaking native language], the good 
medicine of our language, we begin to heal our students and 
community. For these reasons, we respectfully request you fully 
fund the Native American Languages Program at the $13 million 
level as just been recently reauthorized with the passage of 
the Esther Martinez Language Revitalization Act.
    [Speaking native language.] Thank you again for this 
opportunity.
    [The statement of Mr. Hill follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Andrews-Maltais. Good afternoon, Chairwoman McCollum.
    Ms. McCollum. Is the red light on? And would you like some 
more water than that? We can pour you a glass now.
    Ms. Andrews-Maltais. Sure. That would be great.
    Ms. McCollum. I can hear it in your voice.
    Ms. Andrews-Maltais. But good afternoon, Chairwoman 
McCollum----
    Ms. McCollum. Good afternoon.
    Ms. Andrews-Maltais [continuing]. Ranking Member Joyce if 
he was here, and members of the committee. And thank you for 
your commitment to Indian Country and your continued effort to 
help fulfill the United States trust and treaty obligations. 
And thank you for inviting me to testify here today.
    My name is Cheryl Andrews-Maltais, and I am the chairwoman 
of the Wampanoag Tribe of Gay Head Aquinnah in Massachusetts on 
the island of Martha's Vineyard, and I am currently serving in 
my fourth term. I also serve on the board of directors of the 
United South and Eastern Tribes, USET, and the BIA/NIH's Self-
Governance Advisory Committees, the Tribal Interior Budget 
Council, and the HHS Secretary's Tribal Advisory Committee. And 
I also previously served as a senior adviser to the assistant 
secretary on Indian affairs in the Obama Administration.
    My tribe, the Aquinnah Wampanoag, is part of the great 
Wampanoag Nation known as the people of the first light. We 
have occupied our homeland since time immemorial. Our ancestors 
were the people who met and helped the pilgrims survive in 
these lands, and we were signatories to the original Treaty of 
Peace between our nation and King James of England. As one of 
the first Indian nations to encounter European explorers and 
settlers, we have endured centuries of warfare and disease, 
legal prohibitions against our culture and language, loss of 
our aboriginal homelands, discrimination, and forced 
assimilation. Indian people have suffered incalculable losses 
and we have paid dearly with our lands, our resources, and the 
lives of our ancestors.
    So in an effort to end the centuries of slaughter, tribal 
nations agreed to settle these bloody conflicts with treaties 
and negotiated settlements with disproportionate concessions 
from us. Indian Country has paid it forward, and I will repeat 
that: Indian Country has paid it forward. We trusted the United 
States when they promised that in exchange for our lands and 
our vast natural resources that they would, in turn, provide 
for the health, education, and well-being of our people. And 
today, the trust obligation that resulted from those agreements 
has not been honored. We have honored our end of the bargain. 
However, the United States has not honored theirs.
    As this committee understands and tries to address, the 
United States owes us a financial debt, an obligation to fund 
the tribal governments to ensure our continued health, 
education, and well-being. The U.S. Commission on Civil Rights 
report, ``Broken Promises,'' describes how grossly inadequate 
the Federal funding is, and it exposes the utter failure of the 
United States to live up to its trust and treaty obligations, 
resulting in devastating impacts across Indian Country that 
this committee is all too familiar with.
    Federal Indian funding should not be discretionary or 
subject to political discourse of Congress. This solemn 
obligation is not discretionary, and Congress' failure to fund 
the rest of the Federal Government should not diminish its 
obligations and fiduciary responsibility to tribes. We 
appreciate your efforts and your attempts to appropriate 
critical funding necessary to help meet the United States' 
obligations. However, tribal governments need full funding and 
in parity with other Federal programs.
    We fully support H.R. 1128, the advanced appropriations 
bill, and thank you for putting that forward. We also thank the 
subcommittee for rejecting the Administration's proposed cuts 
to the Fiscal Year 2020 appropriations and for the increases 
you have proposed as outlined in more detail in my written 
testimony.
    What I would like to articulate are some of the more 
specific asks. I ask that the committee when developing 
appropriations language truly consider the United States' 
unique relationships with tribes, and how tribes are capable of 
governance. Tribal sovereignty should not be subjugated to 
States by having to receive our Federal funding through grants 
or set asides administered by States because many tribes never 
receive those funds. Funding should be disbursed to us through 
our compacting and contracting agreements, not through States 
or competitive grants, pitting tribes against each other for 
those desperately-needed resources. Funding needs to be 
consistent and sustained. Our governments cannot create or run 
programs or services on small grants or inconsistent funding. 
Tribes, especially small tribes like mine, who have no economic 
development and rely completely on our Federal funding. And 
last year's shutdown was devastating to us.
    Unlike States and municipalities, tribes do not have a tax 
base to supplement the cost of running our government's 
essential programs and service. If special language or 
authority is needed, then I ask that the committee consider 
including such language that allows the exercise of 
discretionary authority to fully fund us and includes as much 
flexibility as possible so we can develop our programs and 
services in a manner that best meets our unique and individual 
tribal nations' needs.
    Funding also needs to be timely. As a self-governance tribe 
for almost 2 decades, my tribe has not received our lump sum 
full annual payment required by law since 2001 or 2002. 
Finally, I ask that the committee include language in its 
appropriations accompanying report that directs the BIA and the 
IHS to explain the reasons that prevent their offices from 
complying with the statutory mandate which requires the 
Secretaries to award funds to tribes not later than 10 days 
after the apportionment of such funds by the Office of 
Management and Budget; and that the departments identify 
remedies to overcome these challenges, including any required 
funding to implement such changes.
    Thank you again for the opportunity to be here today, and I 
am happy to answer any of the questions you may have.
    [The statement of Ms. Andrews-Maltais follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you. Please, sir.
    Mr. Azure. Thank you, Chairwoman----
    Ms. McCollum. You might want to pull that a little closer.
    Mr. Azure. Okay.
    Ms. McCollum. Thank you.
    Mr. Azure [continuing]. And your committee for allowing me 
to speak here for the Fort Peck Tribes. I am Floyd Azure. I am 
the chairman of the Assiniboine and Sioux Tribes of the Fort 
Peck Reservation. We appreciate the subcommittee's continued 
commitment to addressing the substance abuse and consequential 
challenges that arise from this plague. When someone is 
suffering from addiction, it is not just the person who is 
impacted. It is the entire family, and, for tribal communities, 
it is the entire tribe. The addictions our people are facing 
today, and, in particular, meth and heroin, are so much more 
destructive than alcohol. I am not sure we can survive another 
generation with our people locked in the grasp of the addiction 
of these drugs. Thus, I would like to take my time today to 
talk about the importance of supporting the Indian Health 
Service and the need to support the Indian Health Service's 
capacity to collect from third-party payers, like Medicaid, 
Medicare, and private insurance.
    At the Fort Peck Service Unit, the increase in third-party 
collections from expanded Medicaid in Montana has allowed the 
Indian Health Service to actually provide healthcare rather 
than band-aids, which all too often were prescription 
painkillers. It is an old story across Indian Country that the 
biggest drug dealer on the reservation is IHS clinic. This is 
because the IHS historically did not have the resources to 
treat serious conditions like torn ACLs, rotator cuff injuries, 
or even gallbladder disease. Because these conditions are not 
life or limb conditions and would not qualify for PRC contract 
care, consequently the private providers, who were led to 
believe that painkillers would be a safe alternative to real 
care, prescribed painkillers. Thus, for a generation we had to 
deal with people who were given pills and became addicts----
    Ms. McCollum. That is right.
    Mr. Azure [continuing]. Which led to the destruction of 
lives, families, and, in the end, compromised the very 
foundation of our community and our future. However, since 
Medicaid expansion, the numbers tell us that the people are 
getting real healthcare, and their quality of life is 
improving, which means the quality of life for our children is 
improving. No longer are people being told that they are not 
sick enough to get quality healthcare and given a bottle of 
pills for pain.
    Specifically, we have had scores of hip and knee 
replacements and other orthopedic surgeries, and other 
preventive and screening healthcare includes substance abuse 
treatment. While there is no magic solution to combatting the 
many issues that are caused by drug and alcohol addiction, I am 
certain that ensuring people have access to quality healthcare 
is a big part of the solution. As our people here, we must work 
to heal our families, and that is why I am here again asking 
for additional funding for our tribal social services program. 
Over 36 percent of children in the foster care system in 
Montana are Indian children. Indian people represent only 10 
percent of the State population. More than 100 Fort Peck 
children are in the foster care system today.
    Montana is one of the six States in the country to have 
instituted an ICWA court. The court handles State ICWA cases in 
Yellowstone County from Fort Peck, Northern Cheyenne, and Crow 
Tribes. The team approach of the ICWA court in Montana fosters 
collaboration between the State and tribal stakeholders, 
promotes meaningful State compliance with the Child Indian 
Welfare Act, and improves outcomes of Indian children and their 
families involved in the foster care system. This kind of 
support and dedicated staff can only continue with that 
additional funding for the BIA tribal social services and the 
ICWA programs.
    Relatedly, while we appreciate increased funding for tribal 
courts that Congress has provided, it has not been enough. 
Tribal courts are the backbone of tribal sovereignty. Without 
sound tribal courts, we would not be a community where people 
feel safe, where businesses want to open, and our children, who 
are the most vulnerable, receive protection. Currently, the 
Bureau of Indian Affairs only provides a fraction of the 
funding to operate our tribal court. Our court is one of the 
few tribal courts in the country exercising an expanded VAWA 
jurisdiction. This work is important to making our reservation 
a safe place for women and children. However, it takes 
additional resources to retain legal-trained defense counsel, 
prosecutors, and judges.
    Finally, my tribes and others are resisting the 
construction of the Keystone pipeline that will cross the 
Missouri River, just one-quarter mile from the western boundary 
of the Fort Peck Reservation. This project presents a grave 
threat to the land the water resources of the Fort Peck Tribes. 
Thus, while we remain hopeful that the legal process will stop 
this pipeline from becoming a reality, we fear we will lose, 
and my community will be left to do deal with the consequences 
of this pipeline. We are worried about the man camps that will 
be built and the increased burden on our law enforcement and 
social services programs as a result.
    We know too well about the impact that the Bakken boom had 
on our community with increased drugs and violence and the 
introduction of modern human trafficking. We believe most of 
the increased activity will be from the company's man camps. We 
ask Congress to provide us with additional resources to be able 
to address these impacts if Keystone is built. Thank you.
    [The statement of Mr. Azure follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Allen. Well, good afternoon, Madam Chair and committee 
members. I am Ron Allen, chair and CEO for the Jamestown 
Skallam Tribe located in western Washington State. It is always 
an honor to come here and advocate not just for my tribe, but 
for many issues that I am very familiar with with Indian 
Country. I have many hats. I participate on behalf of Indian 
Country, and one of the co-chair of the TIBC, and I think the 
TIBC for the BIA is going to be testifying. If not, I am going 
to highlight some points.
    It is often tempting to look down at my colleagues and say 
``ditto,'' and I am sure you hear that regularly through the 2 
days of hearing of testimony from the tribes. We want to thank 
you, Congressman Kilmer, with regard to updating the civil 
rights crisis, ``Broken Promises.'' Without a doubt, it should 
be a roadmap for the committee and for Congress with regard to 
the needs of Indian Country. I have been involved for many 
years advocating for budgets across the board--IHS, BIA, HUD, 
and transportation, and on down the line--and we are well aware 
that as a result of the original crisis report, and we forced 
OMB to give us an update on what are the numbers available for 
Indian Country.
    So we know that there are probably $20, $21 billion 
available for Indian Country across all Indian programs. That 
is not enough. So we can tell you just by some analysis that we 
have done on some of the programs, the need of Indian Country 
is probably north of $200 billion. That is a big gap.
    So how do we do that? How do we fill that gap, and the gap 
really is about how you can help us empower tribes to become 
more self-reliant the way we were historically, but being self-
reliant here in the 21st century. So that is a huge issue for 
us in terms of how we are going to move that agenda forward and 
how we are going to try to advance any country's agenda.
    So I am advocating also for the 105 budget. We know that in 
2020, that there is a good number in there for the 105 leases, 
and I just want to underscore the point that we can't wait for 
the Federal Government to deal with schools, and incarceration 
facilities, and clinics, and the other kinds of facilities we 
need or upgrading of any of those facilities that carry out 
Federal functions. So we have to go out and build themselves, 
borrow money to make it happen. So that program is a way to 
help us get to effective programs and effective facilities to 
carry out these Federal functions. So that is a huge deal.
    We want to underscore to you and your committee the need 
for your support for the advanced funding. These CRs are a 
pain, and they really are a pain and shutdown for Indian 
Country. So in the same way that you recognize the importance 
of veterans, we want you to recognize the unique important 
relationship with Indian Country. The number is not that big 
when you are thinking about the one-plus trillion-dollar budget 
that the Federal Government deals with in order to get those 
resources out to the tribes. And many of our sister tribes just 
don't have the resources to lean on to carry out their Federal 
functions. So that is a huge issue that we want to advocate.
    The base funding for the BIA is going to be a big issue for 
us, and so we are continuing to advocate. We continue to 
encourage you to make sure that you don't let them zero out HIP 
programs, general assistance type programs, things that they 
just constantly put on chopping blocks that actually serve our 
people in the economically disadvantaged. So that is a huge 
issue for us.
    Infrastructure is a huge issue, and with the BIA program, 
primarily you are dealing with road maintenance. Road 
maintenance, you know, it is well over $300 million queue list 
that is sitting out there. And those Indian roads out there 
need help, and we know you have been bumping it up, but we are 
still losing ground. I just want you to know we're losing 
ground if we show you the inventory updated, it will show you 
what is going on here. It is just basically those road and 
infrastructure is essential whether it is healthcare, getting 
the kids to school and so that they have safe programs.
    I want to emphasize my point about the bridging of the gap 
of the $20 billion to $200-plus billion is economic 
development. So we enhance an economic infrastructure, but also 
loan guaranty programs, surety guaranty programs. That is how 
you can help tribes, you know, get businesses off the ground, 
generate unrestricted revenues for tribes to become more 
successful themselves, develop their own unrestricted revenues 
in order to fill that gap of the need of our communities. Last 
but not least, I just want to underscore I am from the 
northwest where natural resources are a big issue for us. I 
serve on the U.S./Canada Pacific Salmon Treaty. We have 
resources that we need in order to deal with that. You bumped 
it up this year. We appreciate that, but it is a very 
complicated process between us, Alaska, and Canada to get our 
salmon back to a healthy state.
    So I will close with the urging of the recognition that you 
did help some programs in Alaska with regard to that matter, 
but we also need help with the tribes and our programs, our 
rivers, our stocks, that are very important to us in Washington 
State and Oregon. So with that, I thank you and look forward to 
answering any questions you may have.
    [The statement of Mr. Allen follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you. Mr. Stewart, do you have a 
question at this time?
    Mr. Stewart. No. I am sorry I missed it, and just would 
thank the chairwoman and members for being here.
    Voice. We can repeat it for you. [Laughter.]
    Ms. McCollum. I am sure Mr. Amodei will fill him in on the 
floor. So, Chairman Seki, I have got a question for you. I 
think I know the answer. You spoke of opioids and other things, 
but we heard it in testimony today. I have heard it from other 
tribal members that meth is making a comeback. And with that, 
on top of the opioid epidemic, and congratulations for saving 
as many lives as you have. Meth also brings other problems with 
pollution, sometimes losing a house and other things like that. 
Are you seeing that as well?
    Mr. Seki. Yeah, you are correct on that statement regarding 
the drugs because we got one of the largest lakes in Lake 
Superior is Red Lake, and, yes, because we have fishermen all 
in our lake, and, you know, it does pollute our lake somewhat. 
But we deal with it because of our law enforcement, and all the 
different programs we have, just like this Tiwahe program for 
our youth. We have this children's healing center to advocate 
for our kids to be reunited with their families. And as you are 
aware, we do a lot, but we question it expanded. This program 
expanded to other tribes and pilot tribes be kept where they 
are at in the funds because these help families to understand 
the teachings that they are being given by this healing center, 
you know, what the effects are on the drugs that are being out 
there on our reservations, and not just Red Lake. It is 
throughout Indian Country, even our surrounding communities are 
like that. They have the same problems.
    Ms. McCollum. That is true.
    Mr. Seki. We ask that you get the Appropriations Committee 
to assessment on this endeavor to try and keep our families 
healthy because are almost complete building on our treatment 
center, because that is what you need to do is to heal our 
people, to understand, to train them, to treat them so they can 
have healthy lives and get their families together and have 
appropriate jobs and all that, because, you know, like you say, 
sure, even if it is the water, the drugs. Sure that trickles 
down to the water, and rivers, and the rec center.
    Ms. McCollum. So you mentioned fire stations and firehouse. 
And we were talking about climate change, and we heard from 
some of the tribes that were dependent upon timber harvests for 
economic development about, you know, what's happening with 
climate change and the threat of fire, and probably because of 
invasive species, and drought and that. So how close is your 
fire station if you don't have good fire halls?
    So this is the first time I think that I can remember in 
testimony anybody talking about it. You think about how 
isolated tribal areas are, and some of the situations you are 
in, especially in the northwest, in the Midwest. So you have 
two fire stations for the whole reservation?
    Mr. Seki. Yes, we have four districts. We have Pima, Rugby, 
Red Lake. We are a large-based tribe. We have members that live 
off our reservation, so we have a fire hall at Pima. And we had 
a whole fire hall that was under the Bureau of Indian Affairs, 
and we had to borrow money to fill our new fire halls. Right 
there, it is the trust responsibility of the Federal 
Government. We did ask, but there were no funds available, so 
we didn't do Red Lake because the other one was contaminated 
because it was falling apart. The rest of them were falling 
apart, so we had to borrow money from the USDA to build these 
fire halls, plus fire trucks.
    Ms. McCollum. So that funding comes from USDA.
    Mr. Seki. Yeah, we got a loan.
    Ms. McCollum. That is a loan, okay.
    Mr. Seki. That is a loan.
    Ms. McCollum. Okay. You have given more food for thought, 
talking about firehouse when we talk about public safety.
    Mr. Seki. So that is why we went through that lease 
agreement so we could pay for the land.
    Mr. Allen [continuing]. Line item in the budget.
    Ms. McCollum. Yeah, you know, you see things sometimes in 
the budget, and until somebody says something, then all of a 
sudden a light goes off. And it is like, okay, another of our 
underfunded promises.
    Mr. Seki. Yeah. We already get $47,000 a year for----
    Ms. McCollum. Okay. You mentioned about, you know, you were 
supposed to get the tribal awarded grants in a timely fashion, 
and you are not getting them. About how long does it take it 
before you are seeing the----
    Ms. Andrews-Maltais. It really just depends on where the 
continuing resolutions are. But according to our Self-
Governance Compact, we are supposed to get it October 1st, you 
know, so that we have our full amount pending in advance so 
that we are able to really continue our programs and services. 
It has been years since we have gotten a lump sum, and it comes 
in incremental installments during the course of the year. And 
we continuously ask the Bureau of Indian Affairs, the Office of 
Self-Governance, why they have it going from Treasury to Bureau 
to the region to Self-Governance to the region, and then back 
to us. It does this crisscrossing. We have discussed how some 
[Audio malfunction in the hearing room], and it delays us.
    So for a group that is supposed to show status and we see 
there are no monies right up front, we wind up getting our 
monies no later than some of the contract times do because of 
the redundancy and how they allocate it. And we are also 
concerned with all the increases appropriated through this 
committee, even with the Tiwahe increase in 2016. A majority of 
these self-governance tribes weren't even going to be receiving 
that money until the Asia office actually stepped in and 
required the Office of Self-Governance to work for the tribes, 
and then to find what those funds were when they actually had a 
line item 15, 20 years ago.
    So they are working on obsolete and incorrect information, 
and if you look at the funding on a lot of the self-governance 
tribes, there hasn't been increases because as Congress is 
appropriating it, if it is not specifically said, oftentimes it 
is self-governance tribes get left out of the loop, so we don't 
receive those increases as we are supposed to. And it has been 
very difficult trying to unpack all of that. We have been able 
to just kind of accumulate with confusion. And a failure for 
transparency is why we are asking for a report from BIA and IHS 
to show or demonstrate to you how come they are not able to 
fulfill their obligation as mandated by the statute?
    Ms. McCollum. Well, I hope the report shows how they can do 
it quicker. In just the few minutes remaining, Medicaid 
expansion came up, and that is in the Affordable Care Act, 
along with permanent reauthorization for Indian healthcare and 
health services, so I know that we are all waiting to see what 
happens with that. I am just kind of doing the States in my 
mind. I know we did the expansion in Minnesota. You don't have 
it.
    Mr. Hill. Not in Wisconsin.
    Ms. McCollum. Oh, that is right. I remember your former 
governor. That is right, yeah. You have it in Massachusetts, 
Montana.
    Voice. Washington.
    Ms. McCollum. Washington. It makes a huge difference, so it 
makes a huge difference. And I will just mention it, I am going 
to figure out more about if there is anything that could 
happen. You are the second person to bring up man camps with 
Keystone pipeline. Having spent a lot of time in western North 
Dakota, eastern Montana, I know what happens with the oil bust 
booms and what happened with the man camps there. And for the 
tribes all of a sudden to be picking up an extra cost when 
Keystone is being put in because of all the jobs it was going 
to bring, and all the money that was going to happen with the 
oil moving forward. And then you have a pipeline running 
through your property, and then you are paying, you know, well, 
you are paying public safety dollars to keep the tribe safe. So 
thank you for bringing that up. I am going to look into that a 
little more.
    Thank you all for your testimony. I appreciate it.
    Voices. Thank you.
    Ms. McCollum. Miigwetch.
                              ----------                              

                                      Wednesday, February 12, 2020.

    AMERICAN INDIAN AND ALASKA NATIVE PUBLIC WITNESS DAY 2--PANEL 2


                               WITNESSES

JULIAN BEAR RUNNER, PRESIDENT, OGLALA SIOUX TRIBE
JONATHAN M. NEZ, PRESIDENT--NAVAJO NATION, NAVAJO NATION
MARTIN HARVIER, PRESIDENT, SALT RIVER PIMA-MARICOPA
DAVID HILL, PRINCIPAL CHIEF, MUSCOGEE (CREEK NATION)
    Ms. McCollum. So, gentlemen, we have a timer. It is set for 
5 minutes. I am going to ask you to introduce yourself, but 
your introduction will not count against your testimony. And 
when the light is yellow, that means you are at 4 minutes, and 
when it turns red you are at 5. And so if we could start with 
you, sir. Introduce yourself, and then when you start your 
testimony, we will start recording. And the red button needs to 
be on in order for you to be recorded. Thank you.
    Mr. Bear Runner. Thank you, Chairwoman McCollum. My name is 
Julian Bear Runner. I am currently serving as the 43rd 
president for the Oglala Sioux Tribe on the Pine Ridge Indian 
Reservation in South Dakota. Thank you, again, Madam Chair and 
members of the subcommittee for the opportunity to testify on 
Fiscal Year 2021 funding recommendations for the tribal 
government and human services programs.
    In 1868, the United States agreed to the terms of the Fort 
Laramie Treaty, cementing this country's obligation to the 
Oglala Sioux Tribe. While this should guarantee our well-being, 
the chronic underfunding of Indian Country programs has taken a 
detrimental toll on our tribe and our members. Throughout the 
Federal budget process, we can improve the safety of our 
communities, strengthen families, and promote tribal health 
with this goal. I offer the following recommendations. Public 
school safety communities are safe when the roads are well 
maintained, law enforcement is supported, and detention and 
substance abuse treatment facilities are well resourced. Yet 
public safety programs in Indian Country are constantly and 
consistently underfunded. And the Oglala, we bear this burden. 
Tribal members must confront dangerous road conditions on a 
daily basis. Law enforcement is grossly understaffed. Detention 
facilities are deteriorating. Meanwhile, methamphetamine 
ravages our communities, and these issues undermined our safety 
and our self-sufficiency. I did declare us in a state of 
emergency due to the meth epidemic, and, you know, I fell on 
the BIA and relied on them for additional law enforcement 
support.
    With the subcommittee's support, our roads can become safe 
passages to work and school, our law enforcement officers can 
respond quickly to public safety threats, and we can treat more 
people for drug addiction, and safely detain those who break 
our laws. Accordingly, we urge Congress to increase funding for 
the BIA road maintenance and ensure funding for our tribal 
roads. We currently don't receive any funding for our tribal 
roads, only for the BIA roads, as well as for the tribal law 
enforcement and detention services, and to maintain funding for 
the tribal opioid response grants while expanding these grants 
to include other drugs other than just the opiates, like 
methamphetamine. We also need to increase the funding for our 
tribal court systems. Our Supreme Court is woefully 
underfunded.
    Families and children thrive when given the access to 
robust social services and adequate housing. While many 
Americans access these resources, my tribe must contend with 
high rates of infant mortality limited to the non-existent 
economic development and extreme housing shortages. Yet these 
challenges are not insurmountable. When we promote the personal 
development of tribal citizens and provide safe and stable 
living environments, Indian children and families and 
communities can flourish.
    You know, a lot of our communities, and I want to thank you 
for coming out to our reservation, Madam Chair. And, you know, 
some of these roads are almost, you know, non-existent. And, 
you know, for the Oglala Sioux Tribe, I mean, I mean, we are, I 
think, severely, severely underfunded when it comes to roads, 
and that is why I chose to come here today and ask, you know, 
and share, you know, some of our information with our roads, 
because some of these communities are, I mean, was once paved 
and now it is just like craters hit the road, you know. And we 
have school buses or ambulances are on these roads, and you 
know, we are still waiting on FEMA funding from our emergency 
from the last year. And, you know, for us to have so many miles 
of road, I believe, 516 miles of BIA road, and approximately 
1,900 miles of tribal roads. And like I said, we don't get no 
funding for the tribal roads. It falls on the tribe itself to 
maintenance.
    And, you know, it is really detrimental, you know, to the 
people, I mean, and then it creates such an obstacle for our 
law enforcement and our ambulances, you know. Our ambulances 
are already being, you know, mileaged out so quickly because of 
the, you know, the distance between the hospital and wherever, 
you know, they receive their medical calls at, you know. But, 
you know, these are just some of the things, you know, that we 
face every day in Indian Country, you know, and especially for, 
you know, not only the Oglala Sioux Tribe, but the Great 
Plains, you know. It seems like nobody knows that we exist. 
Yes, ma'am. I appreciate that.
    But, you know, anything that you all can do to help, you 
know. It is just these roads have been like this since I was a 
child, you know, and still, you know, they just continue and 
continue to deteriorate. And a lot of them are gravel road, you 
know. And our dialysis patients live on these roads. Our elders 
live on these roads. And especially during a storm, you know, 
it is very hard and it is very critical for them to receive the 
care and report to dialysis, you know. It is just tremendous, 
and it just continues to pile up and create more and more 
problems.
    [The statement of Mr. Bear Runner follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms.McCollum. Thank you. Thank you, and you have very 
comprehensive testimony. It has been entered into the record. 
Thank you. Sir.
    Mr. Nez. Good afternoon, Madam Chair McCollum, Rep. 
Stewart, Representative Stewart, tribal leaders. My name is 
Jonathan Nez. I am the president of the great Navajo Nation, 
and I am also joined today by my wife, the first lady of the 
Navajo Nation, Phefelia Nez. Also members of our lawmaking 
body, delegate and chairman Oto So, Raymond Smith, and Pernell 
Halona. In addition, we have cabinet members of our 
administration and our staff here today. We appreciate this 
opportunity to testify on the Navajo Nation's funding 
priorities and needs in Fiscal Year 2021, and it can take more 
than 5 minutes to let you know our priorities, but we 
appreciate the opportunity to be before the committee.
    Funding allocations to programs must consider the 
commitments the United States government made when they entered 
into treaties with Indian nation. And as you know, Madam Chair, 
to this day, tribal nations have honored and respected this 
sacred agreement. American Indians serve in the U.S. in greater 
numbers than any other ethnic group. And we need remind the 
U.S. government of that. A lot of our warriors are the biggest 
percentage to volunteer among American Indians today.
    In the interest of time, I would like to focus my testimony 
on the importance of transportation and infrastructure and the 
related nodes of the Navajo Nation, and there are a lot of 
commonalities with other tribes that have testified before you. 
I won't highlight other Navajo Nation appropriation priorities, 
all of which can be found in more detail in my written 
testimony.
    In regards to transportation and infrastructure, the Navajo 
Nation has the largest land base, Native American tribe, in the 
country, 27,000 square miles. It has more than 11,200 miles of 
roads with over 9,500 remaining unpaved. Additionally, there 
are 179 bridges on the Navajo Nation. Thirty-eight are eligible 
for rehabilitation, and 28 are eligible for replacement. The 
Navajo Nation transportation officials estimate that it would 
take 116 years and $7.9 billion to meet current transportation 
infrastructure needs. It costs the Navajo Nation nearly $3 
million--$3 million--to pave 1 mile of new road, and a lot of 
the material has to be brought in off our nation.
    Funds appropriated each year only allows the Navajo Nation 
to build 12.2 miles of new roads annually. The Navajo Nation's 
roads lifelines and provide critical thoroughfare for school 
buses, public safety services, emergency responders, as well as 
access to governmental and public services, shopping, and 
utilities. It is imperative that the Navajo Nation is 
appropriated funding for investment in maintenance and 
infrastructure of on-reservation highways, roads, and bridges. 
And I think my brothers and sisters throughout the country, 
tribal nations, are looking forward to the infrastructure bill.
    Education and scholarship. The Navajo Nation commends this 
subcommittee and Congress on authorizing an independent budget 
for the BIE. Many BIE schools are in severe need of upgrades 
and replacements, so we hope to see an increase in the line 
item. We also request $51.5 million for the academic year in 
order to provide scholarships to our nearly 16,000 scholarship 
applications. And you know that was taken out of the budget as 
well, the President's budget.
    Healthcare. The IHS has a Federal trust responsibility to 
provide access to healthcare and health services for American 
Indian and Alaska Native patients, which also includes funding. 
The Navajo Nation has declared war on diabetes. The Special 
Diabetes Program for Indians is a beacon of hope in a Federal 
tribal healthcare system that struggles in the shadow of 
Federal funding shortfalls. The Navajo Nation respectfully 
requests SDPI receive a permanent reauthorization in the amount 
of $200 million per year.
    In terms of the [Audio malfunction in hearing room] mine 
cleanup, according to the U.S. EPA, there are approximately 524 
burial sites on the Navajo Nation, but only 219 of those sites 
have available funds for cleanup and remediation efforts. That 
leaves 305 sites unaddressed. The Navajo Nation estimates it 
will cost $4 to $5 billion to address the remaining 305 sites, 
which doesn't include the cost monitoring and maintenance of 
areas where hazardous waste maybe containing disposal soil. The 
Federal Government is responsible for funding the cleanup of 
the remaining sites. Therefore, we urge Congress to appropriate 
funds to develop a comprehensive cleanup plan and funding 
package to remediate the remaining sites.
    Navajo Indian irrigation project. The Navajo Nation 
established NAPI to operate the Navajo Indian irrigation 
project to manage the nation's industrial agribusiness to build 
a profitable commercial enterprise, provide jobs and training 
for Navajo people, and to expand markets for NAPI's products. 
The Navajo Nation respectfully requests that the subcommittee 
consider full funding of NIIPs operation and maintenance 
expenses in Fiscal Year 2021 and beyond. Increase the funding 
for irrigation projects in the Water Infrastructure Improvement 
for the Nation Act from $10 million annually to $35 million, 
and increase the funding level for resources management 
construction fund. We request that NIIP, as we call it, 
receives $4 million from this fund in Fiscal Year 2021.
    In conclusion, the priorities outlined by the nation seek 
to strengthen the sacred trust relationship and assistant the 
Navajo Nation's furtherance of self-determination and tribal 
sovereignty. These programs provide critical services to the 
Navajo Nation neighbors and to our communities in the Indian 
Country.
    Thank you for the opportunity to testify before you today, 
and, again, we invite you out to the Navajo Nation once again. 
I know a few years ago, committee members joined us on the 
Navajo Nation, and we welcome you to see what has been done, 
and little has been done since your last visit. Thank you.
    [The statement of Mr. Nez follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. So many reservations, and so little time. Mr. 
President.
    Mr. Harvier. Thank you. Good afternoon, Chairwoman 
McCollum, members of the committee. Thank you for this 
opportunity to testify on the Fiscal Year 2021 Interior 
Appropriations. My name is Martin Harvier. I am the president 
of the Salt River Pima-Maricopa Indian Community, located in 
the metropolitan Phoenix area in Arizona.
    From healthcare, transportation, to law enforcement, annual 
funding provided to our community is vital to the day-to-day 
operations of many programs. Although I will focus on just a 
few items for this testimony, it is fair to say the Federal 
Government must increase funding for nearly every Indian 
program to fulfill its trust responsibility. First, as a matter 
of policy and practice, our community believes in self-
governance. We fully endorse the philosophy of removing Federal 
bureaucracy from tribal programs to allow tribes to directly 
use Federal funding in the most efficient manner to meet the 
tribal needs. Congress must ensure that IHS implements self-
government agreements in a way that is consistent with Federal 
law.
    Second, Federal tribal transportation programs are woefully 
underfunded. For example, an annual basis, our community 
receives $92,000 from the BIA for road maintenance. This 
represents 6.5 percent of total need. As a result, we must 
supplement Federal funding with nearly $1.4 million each year. 
Put another way, we receive only $1,300 per mile per year to 
maintain BIE roads. Even according to the BIA, they estimate an 
annual cost of $10,000 per mile per year. However, according to 
our own staff, the true cost succeeds $11,000 per year per 
mile.
    In total, according to the BIA's own estimate, our annual 
road maintenance need for our community is $720,000, separate 
from regular maintenance costs. If we look at the community's 
5-year new construction plan, BIA funding will provide only 3 
percent, or $7 million, of the overall budget. In short, we 
believe an increase in funds for tribal transportation programs 
will help tribes establish, maintain, and sustain these vital 
activities. We are hopeful the committee and the Congress will 
increase the level of funding to these programs.
    Madam Chair, I also want to make you aware of an issue we 
are having with the U.S. Forest Service. This issue will impact 
cultural resources on Forest Service lands that border our 
community. While many stakeholders work to solve an issue 
related to the management of wild horses, the Forest Service 
just informed us they are going to build a large fencing 
project. We believe this project will impact the cultural 
resources in the area, and we have formally requested the 
Forest Service to complete a full environmental review so that 
all impacts are studied, and provide reasonable options. We 
would ask the committee to support our efforts to protect 
cultural resources.
    In closing, Madam Chair, the community is excited to have 
recently broken ground on a large Phoenix Indian Medical Center 
Northeast Ambulatory Care Center. Working in partnership with 
the Indian Health Services, it is expected the construction of 
the facility will be completed by December 2021. First, I want 
to thank the Congress for funding this important project 
because it will better serve the needs of our community and the 
tribal population throughout the Phoenix area.
    We will be working with IHS in the coming year to include 
the NEACC staffing package in Fiscal Year 2022 budget. We look 
forward to working with this committee to ensure the staffing 
package is executed in a timely manner. I want to thank the 
committee for working with Indian Country to fund critical BIA 
and IHS programs. Thank you for the time.
    [The statement of Mr. Harvier follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms.McCollum. Thank you. Mr. Hill.
    Mr. Hill. Good afternoon, Chairman McCollum and 
subcommittee members. It is my pleasure during my first trip to 
Washington, D.C. as principal chief to testify on behalf of the 
Muscogee Creek Nation. This committee and its members play a 
crucial role in upholding the United States trust 
responsibility and holding executive agencies accountable in 
the government-to-government relationship.
    The Muscogee Creek Nation and United States Congress have a 
relationship more than 200 years old, resulting from an 
exchange of millions of acres and removal from our southeastern 
homelands. Today, the Muscogee Nation is the fourth largest 
federally-recognized tribe with nearly 90,000 tribal citizens 
across the nation, building on Muscogee cultural and 
traditional lifeways.
    A modern government assumes responsibility to provide 
decisional services, such as health, public safety, social 
services, and natural resource management. Collectively, these 
efforts support and protect our citizens, bolster our historic 
institutions, and protect Muskogee traditions.
    First, I want to thank the hard work and leadership of this 
committee to honor our historical relationship with the United 
States through continued support for advanced appropriation. 
Without your commitment to these initiatives, tribal government 
will continue to face a difficult decision between filing 
short-terms lapse in government funding and long-term 
investments for ongoing, critically-needed services across our 
communities. I hope that both chambers can come to agreement 
and pass advanced appropriations soon to prevent future 
instability in Federal funding owed to tribal nations.
    The nation takes seriously our responsibility to provide 
stability within reservations for all our citizens. That is why 
Muscogee Creek Nation invests more than $5 million annually to 
support policing and patrol activities and fund investigative 
and special operation divisions. The Muscogee Creek Nation 
light horse department offers resources and technical capacity 
that are leveraged by local, county, and State, and Federal law 
enforcement agencies to support regional drug enforcement, 
anti-trafficking patrolling, and interagency investigations 
alike. Our investment is 7 times the funding available on a 
recurring basis from BIA, and our police officers work 
tirelessly to maximize the little funding we do receive.
    I hope this committee will consider additional reoccurring 
investment in tribal policing and investigation funding. 
Interagency cooperation will remain critically important as we 
work under our leadership to encourage the Senate to pass the 
Violence against Women reauthorization Act that had bipartisan 
support in this chamber. This legislation's ongoing efforts to 
support missing and murdered indigenous women initiatives are 
crucial to protecting our most important resources, our 
citizens. The nation makes every effort to support and assist 
citizens during their most difficult times. Muscogee Creek 
Nation provides tribal funding to citizens who experience 
natural disaster, high energy costs, and loss of employment. We 
also leverage funds from the BIA welfare assistance program to 
support citizens and their family during the loss of loved 
ones.
    However, funding available for burial systems remains 
wholly inadequate. The BIA funds do not cover a third of the 
amount needed for proper burial, and to make matters worse, BIA 
funds do not last the entire Fiscal Year. This leaves a nation 
with no choice but to further subsidize Federal funding. I ask 
that the committee fully fund the welfare assistance program 
and encourage agencies to update to 1990 regulation to reflect 
tribal operations in the 21st century.
    Muscogee Creek Nation provides resources for citizens at 
all points in their lives, including those families who are not 
well positioned to appropriately support children. In Fiscal 
Year 2020, Muscogee Creek Nation invested more than $2 million 
to provide ICWA services to Muscogee Creek Nation families and 
State and county governments. In Fiscal Year 2019, our ICWA 
program provided service to more than 500 families and nearly 
2,000 Indian children. The work these social services do on a 
day-to-day basis is critical to ensuring the safety and well-
being of Muscogee Creek Nation youth and families. Additional 
resources are critically needed to increase the number of 
Indian foster families and homes, and to focus on risk 
prevention earlier in the case process.
    Though citizens' needs our top priority for me, I am 
equally committed to protecting our natural resources, existing 
lands, and sacred sites. Muscogee Creek Nation leveraged 
funding provided through National Park Service to protect 
sacred sites across the nation. We appreciate the increase that 
this committee supported in Fiscal Year 2020 and hope future 
investments are possible to continue the important work. 
Further, I hope this committee will consider the critical role 
tribal historic preservation offices play, and encourage 
agencies to suspend or conclude funding to those offices that 
fail to adequately protect sacred tribal sites. In its history, 
this committee has consistently supported tribal sovereignty 
and respected the unique government-to-government relationship 
tribes have with Congress.
    Thank you for the opportunity to provide Muscogee Creek 
Nation's funding priorities for Fiscal Year 2021. I look 
forward to working with this committee and the appropriation 
process as it moving forward. And I also want to acknowledge 
the other tribal members: Second Chief Beaver, Speaker Hicks, 
and Second Speaker Proctor, as well as our ambassador, Jonodev, 
and our family members as well. Thank you, and it is an honor 
to be here.
    [The statement of Mr. Hill follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you. Something that has happened in 
passage since we have been doing public witnesses talking about 
roads, and obviously the backlog has gotten worse and worse, 
and everybody has described it. Roads, from what I am hearing, 
are really a public safety issue at this point. You mentioned, 
you know, someone who is injured in an ambulance, kids going to 
and from school so the school bus is safe, and then the wear 
and tear on the equipment, people going to dialysis back and 
forth and that.
    I think everybody has made the case on it, so I am not 
going to use one of my questions for that. But I think we need 
to have a conversation with the Transportation Committee and 
the authorizers about what we are going to do about America's 
roads, right, and make sure it is always including tribal roads 
as well. The other thing we heard, too, along with the roads 
comes the equipment, and the equipment aren't considered life, 
health, and safety.
    So we know snowplows, and graders, and all those other 
kinds of things, and, you know, I am going to use the term 
``our neck of the woods,'' but the Plains, too, where there 
aren't as many woods, can really be life or death. And that is 
even true in other parts of the country with climate change. 
Now you have these snowfalls that just come out of nowhere, and 
it can take you 2 or 3 days to dig out of it those of you who 
are not from that area.
    What I would like to ask, though, is the Forest Service 
fencing wild horses. Mr. Stewart, who left, we have been 
working on wild horses trying to humanely control. Our goal is 
to humanely control the populations that doesn't destroy the 
environment and horses don't starve. So I am going to look into 
this because the solution was not dilution to start moving them 
around to other places and having something. So I want you to 
know you got my attention with the wild horses.
    A couple of things have come up with drinking water, and I 
just want to put on your radar screen, it is not going to be 
Mr. Joyce's and my intention. But President cut the drinking 
water funds in his budget as well as sewer and that. So that is 
something that this committee now has to come up with, you 
know. We want to be taking more and more steps forward and not 
just standing still, but President's budget wasn't helpful in 
that regard with, you know, no light at the end of the tunnel, 
that we were getting the signal that more investments were to 
be made in Indian Country, especially for things that you folks 
have identified.
    So you have given me, as I said to the other group, a lot 
of homework, so I want to thank you for your testimony. And 
everything is in the book, and it was a lot more than what you 
had the 5 minutes to do, and I want to acknowledge that. Thank 
you so much.
    Voices. Thank you.
                              ----------                              

                                      Wednesday, February 12, 2020.

    AMERICAN INDIAN AND ALASKA NATIVE PUBLIC WITNESS DAY 2--PANEL 3


                               WITNESSES

GERALD GRAY, CHAIRMAN, LITTLE SHELL TRIBE OF CHIPPEWA INDIANS
BRANDON MAUAI, COUNCILMAN, STANDING ROCK SIOUX TRIBE
TILFORD DENVER, VICE CHAIRMAN, BISHOP PAIUTE TRIBE
    Ms. McCollum. We are minus one person on this panel, and 
that is Chairman Kat Brigham with the Confederated Tribes, I 
want to say it right, Umatilla Indian Reservation. The 
chairwoman is not here today because of the devastating 
flooding going on in Oregon, and I want to acknowledge that 
because people have been displaced, livelihoods have been lost. 
It is a very serious issue, and climate change is having a real 
impact on households and, as I said, being evacuated. And even 
more seriously, we have learned of the death of a tribal 
member. So we understand her absence. Our thoughts and prayers 
and my prayers are with her and the tribe and all the people in 
that part of Oregon and Washington State that are just kind of 
dealing with with climate change in a very devastating way. And 
her testimony will be entered into the record, but I just 
wanted to acknowledge that.
    Ms. McCollum. So I am going to just kind of go through the 
timer really quick. It is 5 minutes. When the light goes 
yellow, there is 1 minute remaining. When it goes red, all 5 
are gone. We would like you to please introduce yourself, but 
we will not count your introduction against your testimony. All 
your testimony will be entered into the record, so don't feel 
rushed if you don't get to everything because there is so much 
to cover. So if we could start with you, please, sir. The red 
button has to be on in order for it to be on. Thank you, Mr. 
Grey.
    Mr. Gray. So I am Gerald Gray. I am chairman of the Little 
Shell Tribe. We are the newly-574th recognized tribe, and I 
want to thank all of you for your votes that helped pass us our 
legislation through Congress.
    Ms. McCollum. Historic. First time testifying.
    Mr. Gray. Yeah, here, definitely. Introduce?
    Ms. McCollum. Go ahead.
    Mr. Gray. Okay. So good afternoon, Chairwoman McCollum, 
Ranking Member Joyce, and honorable members of the 
subcommittee. Thank you for the opportunity to testify about 
the tribe's funding. With the enactment of our legislation, the 
Little Shell Tribe is now taking the first few steps of a new 
journey to fully restore our relationship with the Federal 
Government, rebuild our tribal government, create a tribal 
economy, provide services to our tribal citizens, and establish 
a land base. As we undertake this challenge, we keep in mind 
those who have passed on waiting for this day as well as our 
future generations.
    As a newly restored tribe, we have numerous funding 
priorities. First, new tribes funding at the Bureau of Indian 
Affairs. The BIA's new tribes funding is intended to assist 
newly-recognized tribes carry out the day-to-day 
responsibilities of establishing and operating tribal 
government. Once recognized, the tribe remains in the new 
tribes category for 3 Fiscal Years. This funding is critical 
for newly-recognized tribes because it provides seed money to 
hire staff, purchase equipment, and begin developing procedures 
and law.
    The Fiscal Year 2020 budget contains $1.28 million for new 
tribes under the BIA's operation of Indian programs. This 
funding was to continue Federal support for the six Virginia 
tribes recognized in January 2018. The Little Shell Tribe 
requests that the subcommittee provide an increase in funding 
for new tribes in order to assist the tribe in operating our 
government. Knowing well the struggle that the Virginia tribes 
endured, we would like to ensure their funding levels are not 
decreased as a result of our recognition.
    Second, the new tribes funding at the Indian Health 
Service. IHS new tribes funding assists the agency in carrying 
out its mission to provide direct healthcare services to 
citizens of newly-recognized tribes. The fiscal year 2020 deal 
contained $11.4 million for new tribes under IHS hospitals and 
health clinics category. That funding was to provide direct 
healthcare services to the six Virginia tribes. The Little 
Shell Tribe requests that the subcommittee provide additional 
funding in order for the Indian Health Service to be able to 
provide services to Little Shell tribal population for 
approximately 5,400 citizens. Once again, the tribe would like 
to ensure that the funding levels for Virginia tribes are not 
decreased as a result of our recognition.
    Next, funding for Indian Health Services care facilities 
construction. With a long-term goal of establishing a tribal 
health clinic, the tribe would like to see an increase in 
funding for healthcare facilities construction. I recently met 
with IHS in Billings, Montana to discuss healthcare options for 
my people. The IHS staff were very helpful in discussing the 
tribe's status as a direct service tribe and outlining options 
that the tribe could pursue when providing healthcare to our 
people. However, when I asked IHS if the IHS could construct 
the clinic for the tribe and Great Falls, Montana to serve our 
people, their answer was no. IHS informed me that there is a 
list for replacement facilities that it must follow when 
constructing new facilities.
    Unfortunately, from what I understand, it could be 
generations before the Little Shell Tribe would be eligible 
under the list for funding because the list is so long and the 
funding is so limited with the IHS. IHS said I would need to 
take my plea to Congress, so here I am. I am hopeful that 
something can be done to provide my tribe with funds to 
construct a clinic.
    Finally, funding for BIA and BIE construction. I have had a 
lot of meetings over the past month since my tribe's 
recognition was restored, and I appreciate our Federal 
partners' proactive outreach and offers to assist us. One of 
the things that I learned through these meetings is that 
facility construction funding for schools, government 
facilities, public safety complexes, and similar buildings is 
very sparse. Most of the facility construction dollars are tied 
to a priority list, none of which the Little Shell appears on. 
The tribe does not want to take funding away from other tribes 
or to jump over those that have waited on the priority list, 
but there should be some sort of funding directed for newly-
recognized tribes so that they can construct the essential 
government building that they need to support services.
    I appreciate the opportunity to testify, and I am happy to 
answer any questions.
    [The statement of Mr. Gray follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms.McCollum. Thank you. Sir, please go ahead.
    Mr.Mauai. Thank you. First of all, my name is Brandon 
Mauai, councilman from the Standing Rock Sioux Tribe, and with 
me I have to my right Councilwoman Avis Little Eagle, and right 
directly behind me, Councilwoman Nola Taken Alive. Madam 
Chairperson McCollum, Ranking Member Joyce, thank you for this 
opportunity, an honor to present this testimony here concerning 
the President's 2021 budget. I would like to express our 
appreciation for the strong support of Indian tribes of this 
community this committee.
    The Administration's proposed budget for Fiscal Year 2021 
came out on Monday. It would do great harm to the Standing Rock 
Sioux Tribe by cutting Federal social service and other core 
programs that we contract from the BIA. And I am here today to 
ask you to increase those funds. Our reservation encompasses 
2.3 million acres in North and South Dakota. The reservation's 
population of some 8,500 tribal members and 2,000 non-members 
reside in eight districts and in smaller communities. Our main 
industries are cattle ranching and farming. The tribe struggles 
to provide core services to our members, and we work hard to 
provide jobs and to improve the standard of living on the 
reservation, but we need a strong Federal presence. The 
appropriations by this subcommittee spell the difference 
between the success or failure of our tribal programs.
    Today my focus is on the tribe's children, our most 
precious resource. And in North Dakota, Indian children make up 
about 40 percent of the children in foster care. In South 
Dakota, Indian children make up about 50 percent of the 
children in foster care. And according to the Department of 
Justice, Indians have the highest rate of victimization in the 
country. The statistics tell us a powerful story. Our families 
are in crisis, and if our families are in crisis, our children 
are in crisis, and this means we are not breaking the cycle of 
trauma and abuse, but we are perpetuating it. And because of 
the continuing addiction to drugs, like meth and heroin, 
violence and crime in our community is escalating.
    We are raising a generation of children at risk. And 
without increasing Federal support to provide more social 
workers, case workers, law enforcement officers, and teachers, 
and provide them with community stability, their futures will 
be far worse than mine. I appreciate and encourage Congress' 
support for Tiwahe initiative. According to the recent OIG 
report, the program is designed to support child welfare and 
family stability, and to promote an integrated approach to 
addressing the interrelated problems of poverty, violence, and 
substance abuse in tribal communities. Tiwahe is intended to 
expand social services and similar programs to address children 
and family welfare, job training, and incarceration issues.
    And this is the kind of initiative that tribes have been 
demanding for decades. But unfortunately, according to the OIG, 
the BIA has failed to properly distribute the funding for the 
lifesaving initiative. The tribe should have long ago received 
$54,000 in additional social service funding for 2019, and an 
additional $23,000 for ICWA funding for this initiative. We 
learned only Monday that the funds are available for us to draw 
down, and we are now five months into Fiscal Year 2020, and we 
have not received any of the 2020 funds for these two critical 
programs.
    As a result of long delays in funding, our tribal social 
service programs are in crisis. The tribe has done what it can 
do to sustain child social services, but with a nearly $1 
million dollar, shortfall the tribe must consider returning or 
retro-ceding this program to the BIA. This would be a step 
backwards in self-determination, and we need additional funds 
to take care of the most vulnerable in society, our children.
    Our tribe learned the hard way that sexual abuse, and 
alcohol, and substance abuse are leading predicates to youth 
suicide. We learned this only after a cluster of seven suicides 
occurred among our children 1 decade ago. We learned that they 
did not feel loved, respected, or safe, and when they do not 
feel loved or safe, they self-medicated, and, tragically, in 
some cases, they hurt themselves and took their own lives. I 
don't want to bury any more children, but we want to celebrate 
them.
    Our ICWA office, which handles foster care placements off 
the reservation, is staffed by one person. She has 92 open 
cases in 18 different states, totaling 172 Standing Rock 
children in foster care across the nation. Our 92 cases 
represent less than 10 percent of the cases that we are 
notified about. This means the tribe has to decline to 
intervene in 90 percent of the cases where our children are 
being placed into foster care systems. ICWA lacks sufficient 
funding, and I ask Congress to provide additional support to 
tribes so that we can uphold our obligation to our children.
    With that, I thank you for your time.
    [The statement of Mr. Mauai follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Denver. Chairwoman McCollum and members of the 
committee, good afternoon, and thank you for the opportunity to 
testify before the committee today. [Speaking native language.] 
I am Vice chairman of the Bishop Paiute Tribe. I also like to 
recognize my councilman, Brian Pancho, who is with me today. We 
are located on the foot of the Eastern Sierra Nevada Mountains 
and California's Hunt Valley.
    The Bishop Paiute tribe's faces a unique set of challenges. 
With more than 2,100 tribal members, the Bishop Paiute Tribe is 
the fifth largest tribe in the State of California. Our 
reservation encompasses less than 1 mile of land. The majority 
of the tribe already developed with housing and government 
footprint on it. The tribe has historically used and is 
currently seeking out a number of Federal grants and loan 
guarantees to provide services to our people.
    ICDBG funding. We are particularly proud of our 
comprehensive elders program that supports elders living on the 
Bishop Paiute Reservation. Our tribal elders program offers 
nutrition support, a caregiver support program, and countless 
other supportive services for our tribal elders. I am honored 
to say that the current population of 396 elders is the largest 
elder population the tribe has ever had. Unfortunately, our 
existing elder facility is struggling to accommodate the 
growing population. To address this, the Bishop Paiute Tribe 
has cemented an ICDBG grant to upgrade the current elders 
building. If funded, this grant will allow us to make dozens of 
improvements to the facility and further support our elders. I 
respectfully request the Congress provide robust funding for 
this program so that meritorious notorious applications like 
ours all across Indian Country can be fully funded.
    I would also like to talk about the criminal justice 
funding. The Bishop Paiute Tribe also requests the committee 
direct the Bureau of Indian Affairs to provide equitable law 
enforcement and tribal court funding to tribal governments and 
to Public Law 280 States. As you know, Public Law 280 takes 
primary criminal jurisdiction away from the Federal Government 
and gives it to the State law enforcement agencies in 
California, Minnesota, Nebraska, Oregon, Wisconsin and Alaska. 
Notwithstanding the limited Federal jurisdiction, our people 
still are entitled to a functional law enforcement and judicial 
system. Insufficient funding and support has led to a 
significant miscarriage of justice for our tribal members and 
tribal Police Officers. To address this, the Bureau must 
allocate more robust funding under the operation of Indian 
programs, public safety and justice account to strengthen these 
services to PL 280 States.
    And my final issue is fair market rent for tribal TANF 
facilities. Lastly I would like to once again draw the 
committee and Congress' attention to an injustice our tribes 
continued to struggle with, the inability for tribes to recoup 
fair market rent for TANF facilities on reservation lands. As I 
mentioned, our tribe's land base is woefully inadequate to 
support our tribal membership. Many tribal members who want to 
live on the reservation are unable to do so. Still, the tribe 
chose to provide facilities and land in the center of a 
reservation for tribal TANF services and headquarters because 
we wanted to make it easy as possible for our tribal members to 
access these critical services.
    Unfortunately, in a contradiction of how every other 
program operates under Indian self-determination and Education 
Assistance Act, HHS has interpreted tribal TANF statute to 
prevent us from recouping fair market rent for the facilities 
and lands used by the program.
    We knew we do not believe that Congress intended for this. 
In fact, the underlying statute specifically provides that HHS 
to regulate rent like other self-determination programs, such 
as IHS. Instead HHS follow the interpretation for tribes with 
limited land bases and economic opportunity to locate TANF 
facilities off reservation and far removed from target 
populations.
    Several years ago, Congress included report language 
directing HHS to work with tribes to resolve this issue. 
Despite this, HHS has demonstrated a continued unwillingness to 
consider a more sensible interpretation of statute. The Bishop 
Paiute Tribe will continue working with the authorization 
committee, the Administration, and the committee to address 
this issue.
    In conclusion, I would like to thank you for listening to 
my testimony and for the committee to support tribal programs, 
and the opportunity for us to testify here today. We look 
forward to working together to address these critical issues 
across the Indian Country.
    [The statement of Mr. Denver follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Mr. Joyce.
    Mr. Joyce. I would like to thank you all for being here 
today. Your testimony before this committee helps us make 
educated decisions on how to ship receipts. So thank you.
    Ms. McCollum. Well, Chairman Gray, congratulations on being 
recognized. But now you are recognizing a whole lot of 
challenges in getting some of the programs that you want up and 
funding. It has been a while since we have had one of our 
tribal nations come forward and talk about the challenges that 
you are facing, that you are presenting, so that gives Mr. 
Joyce a lot to think about along with me about how we try to 
fully embrace your sovereignty, recognize it, including the 
benefits that you are entitled to under treaty obligations. So 
thank you for sharing that, and we are going to see what we can 
do.
    You talked about line items in that. I appreciate you 
saying that you don't want to take away anything from any of 
the other tribes, so we have to figure out a way to try to make 
everybody a little more whole. So thank you for that, and talk 
to the Senate about that, too. I hope you are having 
conversations with our Senate colleagues.
    Mr. Gray. Oh, of course. Yep.
    Ms. McCollum. Sometimes we have great ideas, and we go to 
conference committee and the Senate hasn't thought of them, so 
thank you for that. We have had a couple of panels talk about 
children and ending the cycle of violence, and if kids don't 
feel loved and supported, they don't do well in school, and it 
can create a downward spiral. So you spoke very eloquently 
about that. I am not asking you to pick one thing, but what 
might be the two or three things that you think this committee 
should be focused on?
    And I heard fully what you said about Tiwahe. I am a big 
fan of it, and I helped to work to get it started. Would it be 
that, or----
    Mr. Gray. Yes, and right now, you know, Child Protection 
Services, ICWA is not sufficiently funded right now. And you 
have heard panels before is that the root of a lot of these 
problems are the drug problems in the communities. You know, 
the drug problems throughout the system are affecting 
especially our children. And one way that we can continue to 
battle that back on Standing Rock is we don't have to utilize 
as much resources in the CPS area. We are already, you know, 
understaffed, severely understaffed. And by sufficiently 
funding that, it is something that we can hopefully take other 
resources and focus on what is the root of the problem. How can 
we funnel these other resources to that, such as drug problems 
or what have you.
    And so that is something that, you know, in the testimony 
we wanted to be sure to emphasize is that Child Protection 
Services, social workers, case managers, all of these areas is 
something that we need to focus on because it ultimately 
affects the children on all reservations.
    Ms. McCollum. Well, thank you for bringing that up. I mean, 
Tiwahe looks at a whole of community, whole of family approach 
because it is inner generational trauma, right? But was the 
number again, 92 cases the social worker had?
    Mr. Gray. Yes, it was 92 open cases. The ICWA office had 
open cases. The Chairman Perez, those numbers are a lot higher 
per case manager. I know one case manager was working on 170, 
around there, cases that they were constantly trying to push 
through. And keep in mind, we are both in North and South 
Dakota, so.
    Ms. McCollum. Right, so you have to deal with both 
jurisdictions.
    Mr. Gray. Yeah, two caseworkers maybe on one side, and two 
cases to caseworkers on the other side, and to try to get 
through that many cases is nearly impossible. We are allowing 
our children to fall through the cracks, and that is something 
that we can't continue to do.
    Ms. McCollum. I mean, the caseworkers have too much----
    Mr. Gray. Correct.
    Ms. McCollum [continuing]. On their plate. So, first, I 
want to recognize that before I say the following. Do North and 
South Dakota, because you are dealing with State laws, and if 
you are dealing with out-of-reservation placement in that, are 
they allowed to work together? Because your reservation is a 
reservation. You are one whole nation that straddles two State 
jurisdictions.
    Mr. Gray. Right.
    Ms. McCollum. Do you feel that that adds to the problem, or 
have the states and the Federal Government worked through that, 
that is not part of the problem?
    Mr. Gray. Now we are moving forward and working closer with 
the State. I know North Dakota through Title IV-4E is something 
that we are trying to, you know, move forward to make sure that 
all the children are taken care of. South Dakota, same thing. 
It is a work in progress. We are trying to work through that. 
It is just that the bureaucratic stuff, it gets to be 
frustrating. And I know both council people here with me today 
have backgrounds that worked with children, and can also attest 
about frustrating that is to try to get to a point where we can 
work together as one unit, I guess, in a partnership with both 
Federal and State. And it is just something that it is 
constantly roadblock after roadblock.
    Ms. McCollum. So you have an appropriations problem.
    Mr. Gray. Right.
    Ms. McCollum. But you also have a bureaucratic problem, 
too----
    Mr. Gray. Yes.
    Ms. McCollum [continuing]. That might be better addressed 
by our colleagues in the authorizing committee. So we will 
follow through with them with the testimony and make sure that 
they have your contact information. Sometimes you just need to 
have to get everybody at the table and say who is going to take 
lead. Sometimes no one is willing to do that. Sometimes 
somebody stands up and says they are willing to do that, so 
thank you.
    Mr. Gray. Thank you.
    Ms. McCollum. So both Janet and I wrote down the HHS issue 
that you brought up because that is not our jurisdiction, but 
we will be looking into it. And then so you mentioned senior 
housing, because some States, some tribal nations, some 
countries, their populations are shifting where it is more 
elder and not a lot of youth. Do you have the situation of both 
youth and elder, or you facing more of an elder population 
explosion?
    Mr. Denver. It is an elder population explosion. And, 
again, our current facility that the elders we serve all our 
meals out of, actually it used to be a youth treatment center. 
But because we were unable to acquire funds to continue 
operation of that, we moved our elders into that facility. So 
we are serving over 300 meals out of there, but the kitchen is 
so small. So we did put the grant in for expansion. We 
currently serve about 150 meals a day to shut-ins, and that way 
we get their nutrition out to them. Otherwise, you know, we are 
in such a rural area, there is nothing there for them.
    Ms. McCollum. Well, and that is really important if 
somebody is recovering from surgery and they have to have a 
nutritious meal, and the diabetes issue and everything on 
reservations. Well, thank you gentlemen. Thank you very much.
    Voices. Thank you.
    Ms. McCollum. And our last panel, if they would please come 
up to the table.
                              ----------                              

                                      Wednesday, February 12, 2020.

    AMERICAN INDIAN AND ALASKA NATIVE PUBLIC WITNESS DAY 2--PANEL 4


                               WITNESSES

AURENE MARTIN, BOARD MEMBERS, NATIONAL INDIAN CHILD WELFARE ASSOCIATION
MELANIE FOURKILLER, SENIOR POLICY ANALYST, OFFICE OF SELF-GOVERNANCE-
    CHOCTAW NATION OF OKLAHOMA
OTTO TSO, CHAIRMAN, NAVAJO HOPI LAND COMMISSION
LLOYD B. MILLER, NATIONAL TRIBAL CONTRACT SUPPORT COSTS COALITION
    Ms. McCollum. So would you like me to go over how the 
timing works, or were you in the room before? I am happy to do 
it. Everybody is okay? Everybody is good? Well, welcome, and, 
Ms. Martin, how timely to have you kind of close up what we 
have heard about the children in Indian Country, the children 
of the United States country, too. So, Ms. Martin, if you would 
please lead off.
    Ms. Martin. All right. So good afternoon, Chairwoman 
McCollum, Ranking Member, staff. My name is Aurene Martin. I am 
a member of the Bad River Band of Lake Superior Chippewa in 
Wisconsin, and I am a member of the National Indian Child 
Welfare Association board of directors. NICWA is a national 
American Indian and Alaska Native organization with over 25 
years' experience in policy development focused native children 
and families. Our mission is twofold. First, we address issues 
of child abuse and neglect through policy research, community 
and policy development, and we support compliance with Indian 
Child Welfare Act.
    Before I start going into my comments, I would like to 
thank you for your bipartisan support of native children's 
issues. Because of that, we have seen a lot of gains over the 
last year, in particular, on our issues. Two of those 
developments over the last year I just wanted to mention 
quickly before going to my requests. First, I think after 
discussion with staff, it was clear that the Indian Child 
Protection and Family Violence Prevention Act, which we are 
huge believers in, needed to be reauthorized. And H.R. 4957, 
the Native American Child Protection Act was introduced, and it 
was referred to House Resources and passed out of committee, so 
that reauthorized all those programs. And then more 
importantly, thanks to you, the ICWA Off-Reservation Program 
was funded for the first time since 1996 with a $1 million 
allocation. So thank you for that.
    The Standing Rock testimony was very moving to me, and I am 
kind of throwing away the rest of my comments because I would 
like to talk a little bit about that. One thing I have 
testified about a few times is the Indian Child Protection and 
Family Violence Prevention Act, and that act, it is very 
important because it created two things. One, it created 
mandatory reporting and background check requirements for 
people who deal with native children at the Federal level, but 
the other thing that it did was it provided for two programs, 
funding that doesn't appear anywhere else in the Federal 
scheme, which is, one, it provided for prevention activities to 
help prevent Indian family violence. And the other thing it 
provided for was direct funding to tribes to treat victims of 
family violence, children. And those programs have never been 
funded. And after discussions with your staff last year, it was 
clear that we needed to reauthorize that act, and so it is our 
priority to get that working in tandem with you, to get it 
reauthorized and get those programs funded.
    But I can't see how much time I have left, so I am trying 
not to overstep. But the reason I wanted to concentrate on that 
today is that after hearing the testimony of the Standing Rock 
witness--sorry, I don't recall his name--those programs dealing 
with the mental health issues of children who have been taken 
into custody, who are part of the system, that is so vitally 
important because if you don't take care of them, and they 
don't get to heal, then they become part of the system later 
on, and it perpetuates the cycle. So just providing for them to 
be in foster care isn't enough. You have to provide for their 
well-being and their ability to heal. And we think that the 
programs under the Indian Child Protection and Family Violence 
Prevention Act, they meld with what you have for the Tiwahe 
initiative, what you have for the Indian Child Welfare Program. 
They all create a system that supports children. So we are 
continuing to advocate for those programs to be funded, and 
fully funding those programs on an annual basis would be $43 
million. And I am happy to continue to talk with you and your 
staff about how that might work.
    The other programs that we are supporting are the ICWA 
funding for both on-reservation activities and the off-
reservation activities. And as I said, we are hugely 
appreciative of the $1 million that you have appropriated. It 
is still to be seen how those funds might be disbursed or 
allocated. BIA is still working on that, but just having them 
out there for the first time in so many years is tremendously 
helpful. So we are asking for, and I think, you know, the prior 
witness made a much better case than I could about why they are 
necessary and why increased funding is necessary for those 
programs.
    So I think the last point I would like to make is that 
statistics tell us that prevention, early intervention, and 
treatment of childhood trauma saves not only lives but dollars 
because children who experience violence are more likely to 
have problems and move into the system if these issues are 
unaddressed. So it is imperative that both tribes and off-
reservation Indian child welfare programs receive funding to 
provide these services for children who are in need.
    So thank you for the opportunity to testify. I appreciate 
it, and I am happy to answer questions.
    [The statement of Ms. Martin follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you. Ms. Fourkiller.
    Ms. Fourkiller. Thank you, Madam Chair McCollum and Ranking 
Member Joyce. My name is Melanie Fourkiller. I am with the 
Choctaw Nation in Oklahoma, which is the third largest tribe in 
the Nation, and we are located in the southeast 13 counties of 
Oklahoma. I bring greetings from Chief Gary Batton and 
Assistant Chief Jack Austin, Jr., and we really appreciate the 
opportunity to be able to share budget priorities for 2021.
    First of all, I wanted to say and share our appreciation 
for your support of advanced appropriations for both Indian 
Health Service and the Bureau of Indian Affairs. It is very 
important that we be able to continue to operate uninterrupted, 
especially when we have such life and limb services often that 
get interrupted when appropriations don't come through.
    The second item I wanted to mention is to talk about the 
special diabetes program for Indians. Unfortunately, we saw in 
the President's request that it seems that he's trying to phase 
that out over a 10-year period, and it just seems extraordinary 
to us given the health outcomes that are proven with this 
program, even in HHS' own report that 54 percent of end-stage 
renal disease has been reduced as a result of this program 
since 1996. It is just astounding to us that you would want to 
disrupt that kind of accomplishment, but rather we had like to 
see it permanently obviously authorized.
    And I want to take a moment to talk a little bit about 
workforce development as it goes to our Indian health programs. 
We have a hospital that is located in a very small community. 
It is 1,100 folks in southeast Oklahoma, and from there, we 
have got eight outlying clinics across 13 counties. It is 
really difficult for us to attract and retain health 
professionals in such a small community because there just 
aren't amenities for docs and their families. The schools 
aren't large. There is not a lot to do out there. So it is 
really a challenge for us to be able to keep staff, and we use 
a number of tools to try to do that.
    We maintain low vacancy rates as compared to other Indian 
health facilities, and it takes a lot of work. A couple of the 
tools we use are graduate medical education programs, residency 
programs, as well as loan repayment programs, and other types 
of things to be able to attract and retain those folks for at 
least a period of time. And we typically, because we are a good 
employer, we can keep them longer than that. But graduate 
medical education we started in 2010 through a grant from HRSA. 
It is competitive grant. We have got to compete with the world, 
hospitals across the nation. And as far as I know, we are the 
only tribal location that has been successful in getting one. 
But that program has been the single most valuable tool to is.
    Most of those residents stay in rural Oklahoma, and of 
those, most of those stay within our health system. So it has 
been very incredibly valuable for us to grow and keep those 
health professionals in our system. So the problem there is 
that it is the funding is intermittent. It is competitive. It 
is not recurring so to be able to build and sustain a program 
is really difficult, and we think this is a program that could 
be replicated in Indian Country and provide that kind of 
support in rural areas, remote areas oftentimes to get those 
health professionals there. So if we could talk about some kind 
of steady recurring funding in that area, that would be very 
helpful.
    We have a number of other priorities as well, but I just 
wanted to mention a couple of other things. One is the 105(l) 
lease situation. We did appreciate the President requesting an 
indefinite appropriation for that. We have been supportive of 
that, so we are hopeful that there will be support as that 
moves forward. Unfortunately, it has been affecting services, 
even though those inflationary increases didn't get distributed 
at all, so it was funding we never saw. Certainly those 
inflationary increases were intended to go to health services, 
so we are hopeful that that will move forward.
    There are also a number of Bureau of Indian Affairs 
programs that are either eliminated or reduced in the 
President's request. A couple of them like the Indian Loan 
Guarantee Program, the Welfare Assistance Program, are being 
described as being duplicative, which is interesting because in 
the instance of welfare assistance, you have to exhaust every 
other resource before you are even eligible for welfare 
assistance, so how can it be duplicative? So many of these are 
unique and safety net programs that you know, we certainly want 
to see restored as considerations on the budget move forward.
    So, I know we have a number of other priorities that is in 
our written testimony, so with that I appreciate again 
opportunity to speak with you today, and I would be happy to 
answer questions. Thanks.
    [The statement of Ms. Fourkiller follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you.
    Mr. Tso. Thank you very much. Chairwoman McCollum, Ranking 
Member Joyce, and members of the subcommittee, thank you for 
this opportunity to testify on behalf of the Navajo Nation 
Council. I serve as the chairman of the Navajo Hopi Land 
Commission, and we are deeply, deeply appreciative of this 
subcommittee's commitment in addressing the hardship inflicting 
of the Navajo people during the relocation law, and the 40-
year-old long construction freeze. Please know that more than 
anyone, the Navajo Nation at the end, we ONHIR to close. We 
want the funding to continue to move forth and Congress to 
continue to move those fundings to fund that program so that 
the Navajo Hopi Land Office of Navajo Hopi Indian Relocation 
Program can continue to complete their mission and their job, 
which is impose on the Navajo-Hopi Land Settlement Act.
    So we want to make sure that Congress and then the United 
States fulfill their obligation to make sure that the people as 
they are relocated off the lands that was given to another 
tribe, and moved into such communities of Flagstaff or 
Newlands, or to a city within the Navajo Nation. And there was 
a commitment that was made to the Navajo people there, and the 
commitment is that we will relocate you, and you will have 
jobs. You will have health benefits. You will have all these 
amenities because relocated you. And out of this decision, 
right now, the health aspect has really impacted the Navajo 
people there. And I really, really, really hope that, you know, 
for the committee to strongly urge and help and support the 
need for that office to continue to stay open.
    The other is that, you know, the promise. You need to 
fulfill the promise. And with that, you know, the Navajo Nation 
has initiated a plan called the Navajo Nation, or the Navajo 
Thought Plan with that. The Navajo Thought Plan is addressing 
another aspect of land that had been put into dispute for more 
than 46 years. People living in that area that was impacted 
lived on 1.6 million acres of land that halted construction, 
economical opportunities for these families, and to this day, 
since the freeze has been lifted, that freeze has no dollars 
tied for the rehabilitation.
    Countries oppress people. In this case, the Navajo people 
had been oppressed, and people had to move to a certain 
community in order to have water, in order to have electricity, 
in order to have the basic necessities of life, or try to make 
that American Dream. But yet the land was frozen for 46 years 
economically. Where in the United States has that happened, and 
that happened on the Navajo Nation. To this day right now, the 
rehabilitation of the former Bennett Freeze is something that 
Congress needs to look at. And we need help in social, 
economical, and even the health aspect, you know, cancer 
treatments, and so forth, uranium issues, and we need help in 
those areas that will benefit the Navajo people.
    And we really hope that as Federal appropriators you do 
address those concerns. We are American citizens also, and we 
appreciate your help and trying to help the Navajo Nation. And 
under the Navajo-Hopi Indian Relocation, as it is reauthorized. 
We want to make sure that this office is able to fulfill its 
duties so that, you know, we can make sure that the need and 
the mission is completed. And with the closure issue, we want 
tribal consultation. To this day right now the Federal 
Government has not reached out to the Navajo Nation and said, 
hey, we are going to close right now, we need to talk.
    But right now, the Navajo Nation's position is that we are 
not supporting the closure due the issue of the tribal 
consultation. Their job is not done, and we appreciate your 
help in that area to help us complete the mission. With that 
funding moves forth, we want you to help the Navajo Nation and 
try to help Navajo people that have been affected by the land 
settlement case. And just hoping that they can make the 
American Dream. That is all we want. Thank you.
    [The statement of Mr. Tso follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms.McCollum. Thank you. Mr. Miller.
    Mr. Miller. Mr. Chairman, Ranking Member Joyce, good 
afternoon. Can you hear me now, as they say. I have two copies 
of an outline of remarks. I thought I would share that with 
Chairwoman McCollum and Ranking Member Joyce.
    I am here representing the National Tribal Contract Support 
Cost Coalition. The Coalition represents about 260 tribes, 
including all of the tribes in Alaska through the Alaska Native 
Tribal Health Consortium, down to the Choctaw Nation, and the 
other great nations in Oklahoma, Chickasaw, and Cherokee, as 
well as tribes in the Pacific Northwest and California. The 
Coalition has been centrally involved in litigation involving 
contract support costs. I was privileged to be able to work on 
the Cherokee case at a time when Melanie Fourkiller was there 
and a vital person in the success of that case before the 
Supreme Court. In the wake of that litigation, this committee 
did the single greatest thing you could have done to provide 
stability and predictability for contracting and compacting, 
and that was to establish an indefinite appropriation for 
contract support.
    Today in theory--I will talk about the practice in a 
moment--in theory, tribes know how much they are going to be 
getting from year to the next, and they get it. Contract 
support, cost appropriations. They know that they don't have to 
but out of the programs in order to take care of their 
overhead, in order to pay for worker's compensation, in order 
to do procurements, in order to pay for their audits and their 
accounting services. They know that that money is going to be 
coming from the government thanks to the indefinite 
appropriation that you established in 2016. So thank you very 
much for the work that you did at that time. I cannot thank you 
enough for that improvement. And as I will talk later, it is 
exactly why the same improvement is needed for the 105(l) 
leases, but we will get to that in a moment.
    Necessarily, if somebody like I sitting here talking about 
the agencies, I am going to sound critical, and I will sound a 
critical tone. But before I do that, I want to pay tribute to 
the Indian Health Service and the Bureau of Indian Affairs. 
They are trying, and they have improved. They have each 
developed important new policies on contract support costs. 
Those policies are permanent in their manuals. If they are 
falling short, it is not for want of trying, and I do salute 
their efforts in this area. Certainly the world is much 
improved today in 2020 than it was years ago, the years that 
brought along all of that litigation, and caused so much pain 
for this committee along the way.
    The first thing I want to mention is the payment delays. 
The payment delays of the Bureau of Indian Affairs, and the 
Office of Self-Governance, in particular, are daunting. I was 
talking over the last couple of weeks, my colleagues and I, to 
one of the tribes, the Chugach Regional Resource Commission. 
They had to get a loan, and they paid interest until the 
funding was just worked out a couple of days ago, and they are 
going to be able to retire the loan without a penalty because 
they were not getting their contract payments, including any 
contract support payments in 2020, and they still don't have 
all of their 2019 payments. There is an institutional problem 
in the Office of Self-Governance and in the BIA in getting 
those contract support cost payments out.
    They will tell you that there are 18 or 20 steps, that 
money and approvals have to move through in order for the money 
to actually get out the door. Reform is needed in this area, 
and with the committee's gentle nudging, perhaps a committee 
could be put together, a work group committee could be put 
together to try to get to the bottom of those impediments and 
eliminate them, certainly not by legislation, we would hope.
    The second thing I wanted to talk about, and there were 
four items on contract support costs, is reporting. Reporting 
has been a problem. It has been a perennial problem. Last year, 
the Indian Health Service caught up on their reports for 2018, 
2017, and 2016. So they were behind, but they caught up. The 
BIA, so far as we know, hasn't made a report since Fiscal Year 
2014, 6 years behind. They were supposed to make a report by 
May 15 every year. That is in Section 106(c) of the Indian 
Self-Determination Act. They don't do it. I think there is 
nothing more one could do than have a law that commands that it 
be done by a date certain, but perhaps this committee can urge 
the agency to honor the obligations that it has under the law.
    The third issue also a recurring issue. There was a lot of 
interaction with tribes up until those manuals were adopted. 
Tribal consultation is important, and it is effective. The 
manuals that IHS and BIA adopted reflect a lot of tribal input. 
It was wonderful. It was hard, but it was wonderful. Since 
then, we don't have annual meetings anymore unless there is an 
emergency, an urgent matter. There has been one face-to-face 
meeting with the Indian Health Service since their manual was 
adopted, and none since the BIA. So a gentle nudging of greater 
tribal consultation with the Tribal Federal Contract Support 
Cost Work Group would be much appreciated.
    The fourth issue is much more consequential, and it is 
financial, and so I do want to bring this to the committee's 
attention again. We have talked about this annually. It is 
probably the 5th year, maybe the 6th year that we are raising 
this. The seventh proviso in your bill address substance abuse 
funding, domestic violence protection funding, suicide 
prevention funding. This is funding is laid out in a separate 
proviso so that IHS director can figure out how best to 
allocate it, and that is good. No complaints about that. You 
want the money to get where it is going to do the most good.
    But the IHS director in 2012 decided to stop paying that 
money. Once she decides how, or he decides how, to allocate it, 
to stop paying it through compacts and contracts. And in that 
one gesture, that denied tribes the right to contract support 
costs.
    That one gesture required tribes to take money out of those 
funds to pay their overhead, which is fixed, which is set by 
the National Business Center. It cannot be changed. So we have 
asked repeatedly. The Indian Health Service has responded to 
you by studying the matter, getting tribal input. It turns out 
the consultation has led to no change whatsoever, despite the 
uniform view of
the tribes that those funds should go through contracts and 
compacts. If the seventh proviso could be amended, we would be 
most appreciative.
    [The statement of Mr. Miller follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The last thing I didn't address, may I, Madam Chair?
    Ms. McCollum. We just had----
    Mr. Miller. Oh, you have to go to a vote?
    Ms. McCollum. We just had votes started.
    Mr. Miller. Okay.
    Ms. McCollum. And we have got----
    Mr. Miller. Okay.
    Ms. McCollum. We know how to get a hold of you.
    Mr. Miller. Yes.
    Ms. McCollum. And we know you talk to staff all the time.
    Mr. Miller. Yes.
    Ms. McCollum. And you give us a lot of food for thought, so 
thank you for that. Mr. Joyce, I mean, we have time for a quick 
question or two.
    Mr. Joyce. I don't want to hold everybody up.
    Ms. McCollum. Okay. So the good news is we got this panel 
in before votes started, which did not happen yesterday. 
[Laughter.].
    And people waited 45 minutes for us, and I just looked, and 
we have 10 votes, so you would have been here until dinner, so 
that is the good news. Ms. Martin, we look forward to talking 
to you more as we develop the bill. Ms. Fourkiller, I think 
what you were saying about HHS is something that we need to 
look into some of the tax provisions that you had have come up 
on some other things. So we will be formulating some letters 
and some ideas to share, David and I--excuse me--Mr. Joyce and 
I with our colleagues on the Ways and Means Committee.
    And were you present when we brought Congress----
    Mr. Tso. Yes.
    Ms. McCollum. Yeah, so Congress has worked hard to consult 
with Navajo and Hopi on the closure, and we do need to bring 
the program to an end, but we do need to follow the law when we 
do that. So thank you for, you know, kind of highlighting how 
you are feeling about the communication with the act as they 
are moving to close it down. So we ask them for reports every 
so often. I think they are due to come in and give us a report 
shortly. So we will be sharing your concerns that there needs 
to be better consultation.
    And then we will follow up with you what we hear from them, 
both you and the Hopi. And then if you still have questions, we 
want you to pick up the phone, send an email. If you like snail 
mail, you can use that, too. Let us know how you think it is 
going and contact our offices. We take the fact that this needs 
to come to closure seriously, but it needs to follow the law. 
It needs to be done with consultation. And they are right 
there. They are not in Washington, D.C. They are right there 
close to you, so there is no excuse for you not to feel like 
you are being consulted.
    And I hear what you were saying about the Bennett Freeze, 
which is different, but sidebar to what happened with the 
freeze on that. So thank you very much.
    So I want to thank you for being here, and with that, the 
public witness that we have for the past 2 days with tribal 
leaders and leaders in the tribal allied community comes to a 
close. Thank you.
    [The following statement was submitted for the record:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    

                                           Tuesday, March 10, 2020.

                              MEMBERS' DAY

    Ms. McCollum [presiding]. So good morning. The members' 
witness hearing will come to order, and we are very pleased to 
have as our first person up one of our newest members to 
Congress, Ms. Slotkin. So you have 5 minutes, and we look 
forward to hearing what you have to share with us. Thank you.
                              ----------                              

                                           Tuesday, March 10, 2020.

                                WITNESS

HON. ELISSA SLOTKIN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MICHIGAN
    Ms. Slotkin. Great. Thank you, Subcommittee Chairwoman 
McCollum, and thanking the ranking member in absentia. So I am 
a former CIA officer and Pentagon official, and so I look 
through the world through a lens of security. And that is why 
it is really very clear to me that we need to start thinking of 
environmental security the way we think of homeland security 
because it is about the safety of our kids and the preservation 
of our way of life.
    Nowhere is that more clear than on the issue of PFAS 
contamination, which is a chemical that has been identified in 
more places in Michigan than in any other State in the country. 
We are looking for it harder than most people, so we are 
finding it ahead of the rest of the country. And I have four 
PFAS sites in my district, and if you have to worry that giving 
your child a glass of water is going to give them early 
childhood cancer, that is a threat to your family's safety. And 
if you can't fish the rivers that your dad and your grandpa 
took you fishing in, that is a threat to your way of life.
    So I was very proud that my first six provisions that I 
have had turned into law as a member of Congress are on all 
PFAS, and they were all done through the NDAA, through the 
Pentagon's budget. I am a pragmatist, so in a perfect world, it 
wouldn't have to be done that way, but for the first time we 
are doing more than just studying PFAS, which is extremely 
important to me and to the people of Michigan.
    We passed provisions that forbids the military from using 
PFAS-laden firefighting foam after 2024. They cannot use it in 
exercises in non-crisis situations. Our National Guard bases 
now have access to pots of money that only active duty had 
access to for environmental cleanup, which was at the request 
of one of our base commanders. But the most important one that 
I am the most proud of is the PFAS Monitoring Act, which I 
actually introduced back in May and got incorporated into the 
bill that the President signed off on in December, the 
Pentagon's bill.
    So under this law, large cities will be required to monitor 
almost 30 types of PFAS. Smaller communities, so communities 
under 10,000 people, like where I live in Holly, Michigan, will 
get help paying for that monitoring. Small communities can't 
afford to be adding additional things without some help. Six 
PFAS substances were included in EPA's testing requirements 
back in 2013 to 2015, but then they dropped those requirements 
for 2018 and 2020. No idea why. This bill ensures that the next 
round of testing will cover all 29 PFAS chemicals that EPA 
knows how to test for in drinking water.
    In Michigan, we are already diligently testing for PFAS. We 
have decided to test for it ahead of any national requirement 
thanks to our governor's leadership, but I want to make sure 
that it is a requirement at the Federal level because Michigan 
is just the tip of the iceberg on PFAS, particularly for States 
with a manufacturing past. So this will not only help our 
ongoing PFAS monitoring efforts, but it will help provide data 
to the EPA and other State legislators to inform them on their 
decisions about PFAS.
    Now that it has been signed into law, I want to advocate 
today that we have funds to implement it. In particular, I want 
to ensure that the EPA has sufficient funding to support those 
smaller communities like my hometown for PFAS testing. Thank 
you for providing $43 million in new PFAS-related funding for 
the EPA in the 2020 Fiscal Year, including funding to support 
EPA's testing of drinking water that will now cover PFAS under 
my bill. Today I ask the committee to increase funding for 2021 
Fiscal Year for the EPA.
    As the committee considers the Fiscal Year 2021 budget, I 
would ask you to keep in mind the concerns of families in my 
district, across Michigan, and across the Nation. This is a 
widespread concern, and these chemicals are forever chemicals. 
They are not going away. We must work to protect Americans 
against this threat, just as we protect them from threats to 
our physical security. Thank you for your leadership on PFAS-
related issues in 2020, and I ask you to increase funding in 
2021. Thanks very much.
    Ms. McCollum. Thank you. So you don't support the President 
where he has eliminated doing some of the work that needs to be 
done with PFAS in some of this budget.
    Ms. Slotkin. No, I mean, I think we have an existential 
debate with the White House on the importance of PFAS. He 
tweeted about it last July. We were shocked that it was such an 
important issue to him, but the truth is it is extremely 
bipartisan. I just held a big water-related event on private 
well owners, like myself. Twenty-five percent of Michiganders 
are on private wells, so we test, and we are responsible for 
our own testing. And people across the board, people wearing, 
you know, their Make America Great hats were deeply concerned 
about PFAS and asking me how come we don't have a national 
standard. How come we don't have money for our communities to 
test this?
    We are on the leading edge in Michigan of something that is 
going to be a household name in the next few years. And I can't 
agree to something that is, you know, for us, our water in 
Michigan as the Great Lakes State, it is existential. We are 
the stewards of the Great Lakes and of the groundwater that 
comes with it, so people across the spectrum feel very 
passionately about it.
    Ms. McCollum. I couldn't agree with you more. We have been 
filtering water for PFAS since 2006 in my congressional 
district in Oakdale, Minnesota. Mr. Joyce.
    Mr. Joyce. Thank you, and I apologize for being late.
    Ms. Slotkin. No problem.
    Mr. Joyce. But I want to thank you for being here and 
discussing programs that are important in this budget, not only 
for your district, but for our country.
    Ms. Slotkin. Yeah, thanks. Okay. Thanks for having me.
    Ms. McCollum. Thank you very much. You have left a copy of 
your written testimony with the committee.
    Ms. Slotkin. Yes.
    Ms. McCollum. Mr. Davis is going to be submitting. That is 
our understanding now? He is going to try to be here. Mr. Posey 
is going to be submitting his for the record.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                                           Tuesday, March 10, 2020.

                                WITNESS

HON. BILL POSEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF FLORIDA
    [The statement of Mr. Posey follows:]
    [GRAPHIC] [TIFF OMITTED] T3677B.208
    
    [GRAPHIC] [TIFF OMITTED] T3677B.209
    
    Ms.McCollum. Is there another member out there? Yeah. We 
are going to recess until the next member shows for testimony.
    [Recess.]
    Ms. McCollum. The Committee on Interior will come back from 
its recess to hear some member testimony from Mr. Griffith. 
Sir, you have 5 minutes.
                              ----------                              

                                           Tuesday, March 10, 2020.

                                WITNESS

HON. MORGAN GRIFFITH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    VIRGINIA
    Mr. Griffith. Thank you very much, Madam Chair, and I 
appreciate you all holding this hearing today. One of the top 
priorities that I have is the adequate need for funding of coal 
communities in Virginia and throughout Appalachia. We need to 
reclaim the abandoned mine lands in a way that both supports 
economic development and helps us transition from an economy 
that was build on coal. I have counties that just have 
mountains and trees. That is what they have.
    In fact, in Dickinson County, looking for flatland to 
redevelop our economy is very difficult. About, oh, close to a 
decade ago now, they started looking for a site for a new 
school. All their former high schools were in a flood zone. 
There were only two pieces of property in the county that were 
flat enough to build a high school on, so they had a fight as 
to which one they had to pick.
    The Abandoned Mine Land Pilot Project, which has been 
funded by this committee for some time, for a few years, it 
allows the top three States with the most unmet needs--
Kentucky, West Virginia, and Pennsylvania--to have spending. 
And then subsequent to that taking off, I went and I got the 
committee to agree and the floor ultimately to agree that the 
next three States--Virginia, Alabama, and Ohio--also with a 
legacy of coal mining, that include sites that need 
restoration.
    Over the past few years with the help of members on this 
committee and my friend from Ohio, Mr. Johnson, we have worked 
to expand this program to those next three Appalachian States 
with the greatest needs. I have worked with this committee to 
ensure additional support for one Appalachian community does 
not come at the expense of another. So in total we have been 
successful in securing $40 million, $10 million per year over 
the last 4 years, in reclamation funding for Virginia. The top 
three States get $30 million a year. We get $10 million a year.
    That seems to be working out very well, and I could go 
through all the projects. We have done everything from, you 
know, closing off portals for new trails for horses, for 
hiking, for other things, but also we are taking down a high 
wall in the City of Norton. It is a little city of about 5,000. 
And it is still in progress, but we are going to create a 200-
acre industrial park in an area that desperately needs 
inventory because you don't have flatland ready to go.
    In Russell County, we have another 200-acre project. Some 
entrepreneurs came in, and they realized that with a little bit 
of this money, they could clean up a coal fine pond, and let me 
explain what that is. It was a coal processing plant for 
decades and decades and decades, and whenever the coal pieces 
were too small, they dumped them into this pond. And so you 
have this huge area, but what they figured out is that with a 
new fuel source plant not too far away that is a hybrid, they 
can burn all kinds of different things. They could sell the 
coal fines to that plant. They are cleaning it up. They are 
taking out all the old coal fines. They are putting in rock to 
replace that. They are going to put soil on top of it, and we 
are going to end up with another 200-acre industrial park.
    And while both of them have great advantages, this one, 
just to give you some idea, it has rail because it used to be a 
coal processing plant, so they had to get the coal out of 
there. It has a road to get the coal in, by truck generally. It 
has electricity coming in from two sides. It has water, and it 
already has natural gas. And what these folks are going to do 
is they are turning this entire site over to the county when 
they finish. I would have to go back and look at the exact 
numbers, but we gave them a couple of million dollars to clean 
this up a little bit, over $2 million.
    I was told by the folks who generally do this, the OSM, and 
in Virginia it is the Virginia Mines, DMME, they told us that 
our $2 million would have taken normal AML funding, about $7 
million, to have done the same thing, and it probably wouldn't 
have been on the top of the list. Therefore, they were 
expecting they wouldn't get this project done for another 20 
years with the money that they had in the AML funds. So with 
this AML pilot project, we are taking care of problems, we are 
getting outside money to come in and help, and we are creating 
economic development in an area that people always tell us up 
here, you know, we want you reinvent your economy. Okay, but we 
need a little help, and this is one of the ways that we are 
trying to do that is to create sites where businesses can come 
in.
    And I think it has been a real success thus far, both 
environmentally and economically, and I would hope that you 
would continue to fund us. We are not asking for anymore. Just 
keep us at that $10 million level in the second tier of the AML 
Pilot Project, and we will be thrilled. If you want more 
information, I think my printed notes have lots of different 
things in them, but that really is something that I have seen 
that is actually working. And, you know, when will it bear 
fruit in a big way? We are already seeing small signs on the 
tourism and environmental side that it is working. Will we get 
a new plant in? Well, as you all know, with economic 
development, first you have to have the inventory, and we are 
about a year away from having that inventory ready, maybe two 
in some cases, and then you have to go out and find a facility.
    So we are very hopeful. We think this is, though, a key 
component to our part of Central Appalachia reinventing its 
economy.
    Ms. McCollum. Thank you. Thank you for your testimony, and 
I saw that you are looking at even putting a solar project 
where----
    Mr. Griffith. Yeah, that is real exciting.
    Ms. McCollum [continuing]. Where coal pollution is now.
    Mr. Griffith. So if you have a minute, let me tell you 
about that. That is real exciting.
    Ms. McCollum. Well.
    Mr. Griffith. You don't have a minute. Okay.
    Ms. McCollum. I don't have, but what I am concerned about 
with the President, you know, we increased a lot of funding to 
support projects like yours in the bill, Mr. Joyce and I did, 
and the President's budget came in with a cut compared to what 
we had worked on bipartisanly with the Senate to do projects 
like you are talking about. So we will have to see what our 
allocation looks like. But I think we are going to do what we 
can, and we would appreciate your help, too, as we move forward 
not to support the bottom line of the President's budget and 
the Department of Interior because I am sure you have a lot of 
rural water projects you want to see worked on, too.
    Mr. Griffith. Rural water projects. ARC is very important 
to my district as well. And, you know, as we used to say in the 
State legislature, the governor, in this case, the President, 
proposes, and the House, you know, ends up making the decision, 
disposes in many cases.
    Ms. McCollum. We are going to need your support on the 
floor. Mr. Joyce.
    Mr. Joyce. Thank you for being here, Congressman Griffith, 
and I appreciate where you are coming from. My dear friend, 
Bill Johnson, has talked about the same type of plight in his 
community, and thank you for coming before the committee today 
and providing some unique examples on how this can be of 
benefit to those areas that have, for lack of a better term, 
been left behind. Thank you, sir.
    Mr. Griffith. Thank you.
    Ms. McCollum. Thank you.
    Mr. Griffith. You all have a good day.
    Ms. McCollum. Have a good rest of your day. We are going to 
go into recess again until the next member comes. Thank you.
    [Recess.]
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms.McCollum. The Interior Committee members' hearing day 
will continue, and we have before us the gentleman from 
Massachusetts, Mr. McGovern.
                              ----------                              

                                           Tuesday, March 10, 2020.

                                WITNESS

HON. JAMES P. McGOVERN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
    Mr. McGovern. Thank you very much, Madam Chair McCollum, 
Ranking Member Joyce, and members of the committee. Thanks for 
the opportunity to testify. As you begin to draft this year's 
appropriations bill, I encourage you to provide critical 
funding for important conservation programs that preserve this 
country's rich history and natural beauty.
    This Congress has made significant progress in protecting 
our public lands and spaces, in large part thanks to the 
leadership of this committee. And I would like to share some of 
the examples of the important stewardship work being done in my 
district and highlight the ways in which the committee can----
     [Audio malfunction in hearing room.]
    The John H. Chafee Blackstone River Valley National 
Heritage Corridor, which spans more than 2 dozen towns from my 
hometown in Worcester, Massachusetts to Providence, Rhode 
Island, tells the remarkable story of the birth of the 
Industrial Revolution in America and the transformations that 
followed. Vital to the success of the corridor and the unit of 
the National Park Service within it is strong funding for the 
Park Service, and a commitment to cooperative agreement that 
NPS has undertaken with the local coordinating entity. I ask 
that the committee fully fund the National Park Service and 
encourage NPS to enter into a cooperative agreement for the 
coming fiscal year. I have included draft language at the end 
of my testimony for your consideration.
    Next I want to highlight the importance of our National 
Wildlife Refuge System. Specifically, I would like to draw your 
attention to the Silvio O. Conte National Wildlife Refuge, 
which spans the entirety of the Connecticut River watershed, 
and comprises fully one-sixth of the entire area of New 
England. Those who care for the refuge do extraordinary work 
thanks to support from the Land and Water Conservation Fund, 
which, in Conte's case, is administered by the U.S. Fish and 
Wildlife Service. Yet despite a growing backlog of projects 
across the refuge, Conte receives zero dollars in LWCF funding 
for the current fiscal year, and Fish and Wildlife has not been 
forthcoming in explaining the rationale behind this lack of 
allocation.
    I appreciate the committee's previous efforts to highlight 
the uniqueness of Conte, and I am grateful for any further 
efforts that might better prioritize or direct funds to the 
refuge. I also ask the committee to fully fund the LCWF so that 
Conte can receive the priority funding that it needs and 
deserves.
    I would also like to say a few rods about the newest of the 
country's 11 national scenic trails. That is the New England 
National Scenic Trail. Nearly 2 million people live within 10 
miles of the trail, which spans 220 miles through Massachusetts 
and Connecticut, and it has grown significantly in popularity 
in the first decade. Federal funds must keep up with increased 
demand for the recreational and educational opportunities that 
the trail provides. I ask the committee to provide full funding 
for the National Park Service so that the New England Scenic 
Trail can be funded at $500,000 in the coming year.
    Lastly, I would like to briefly mention something outside 
of conservation that has been a priority of mine for a long 
time. Clean, safe water is a right for every person in this 
country, and I am asking this committee to continue to support 
the highest possible funding for both the Clean Water and 
Drinking Water State Revolving Funds. These programs help 
communities across the country maintain safe and effective 
water infrastructure, and they afford States the flexibility to 
fund their highest-priority projects.
    Once again, I want to thank you for the opportunity to 
share stories of what our foundational conservation programs 
make possible. I am grateful for the committee's longstanding 
support for protecting our public spaces and shared heritage, 
and I look forward to seeing what you produce for the coming 
fiscal year. And, again, you know, as someone on the Rules 
Committee, we meet an awful lot and under very intense 
circumstances. I particularly appreciate the work of all the 
appropriators, especially now, and the staff for what you are 
about to go through. So thank you very much. I yield back.
    Ms. McCollum. Thank you, Mr. McGovern. Mr. McGovern, you 
have on the last page of your testimony a language request for 
the committee.
    Mr. McGovern. I do.
    Ms. McCollum. And so that is duly noted. Thank you for 
submitting that. There is nothing any of us, I think, 
throughout Congress, huge bipartisan support to support LWCF, 
fully funded. Unfortunately, the President's budget makes that 
impossible with the almost $2 billion cut to the bipartisan 
work that Mr. Joyce and I did with our counterparts in the 
Senate and we passed on the floor. And so we have the largest 
increase to LWCF in literally decades. We are going to work 
real hard to protect that and add to it if we can. But as you 
pointed out, there is a need for clean drinking water and clean 
water funding as well. So if you can do anything in Rules 
Committee to give Mr. Joyce and I a larger allocation, we would 
take your considerations very----
    Mr. McGovern. Done. You won. Done. [Laughter.]
    Ms. McCollum. We are counting on you. But sincerely, thank 
you for the work that you do in the Rules Committee helping us 
get our bills to the floor so we can move them forward, get 
them to conference, and then bring them back.
    Mr. McGovern. Thank you.
    Ms. McCollum. Thank you for your work. Mr. Joyce.
    Mr. Joyce. And I was just kidding about the tea, Mr. 
McGovern, but it is always a lovely----
    Mr. McGovern. No, and I----
    Mr. Joyce [continuing]. For all of us.
    Mr. McGovern. I will make sure you get some.
    Mr. Joyce. And thank you for being here to discuss the 
conservation programs and the importance of these programs and 
the impact that they have in your district.
    Mr. McGovern. Thank you.
    Ms. McCollum. Thank you. We have your information. Go have 
a wonderful day.
    Mr. McGovern. You, too.
    Ms. McCollum. I know you are really busy getting rules 
ready and everything so that we can deal with the coronavirus, 
and thank you.
    Mr. McGovern. I appreciate it, but thank you again for all 
the work you guys do.
    Ms. McCollum. Thank you. The committee stands in recess 
until the next witness.
    [Recess.]
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms.McCollum. So the Committee on Interior will come back 
into our order for our members' priority day hearing, and we 
are going to hear from Representative Casten. Welcome.
                              ----------                              

                                           Tuesday, March 10, 2020.

                                WITNESS

HON. SEAN CASTEN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Casten. Thank you. Chairwoman McCollum, Ranking Member 
Joyce, and members of the subcommittee, thank you for inviting 
me to testify today. I have come to urge you to support robust 
funding of the Urban and Community Forest Program at the U.S. 
Forest Service in the coming fiscal year. I want to applaud all 
your hard work in ensuring a funding increase of $2.5 million, 
for a total of $22.5 million last fiscal year. The program 
provides critical assistance to public/private partnerships 
that address regional climate change challenges by promoting 
healthy and diverse forests.
    The scientific consensus could not be clearer. Climate 
change is an imminent threat to our health, our economy, and 
our national security, as well as the health of our forests. 
The ``Fourth National Climate Assessment,'' released by the 
White House in November 2018, spells it out clearly: ``As 
growing season temperatures rise, reduced tree growth or 
widespread mortality is expected.'' A loss of vegetation could 
exacerbate the effects of climate change that we are already 
seeing, but it also means that better managing our forests can 
be a part of the solution to the climate crisis.
    The Chicago Regional Trees Initiative, or CRTI, is a great 
example of the solution. CRTI is a collaboration of more than 
284 Chicago-area partners working to build healthier and more 
diverse urban forests. Their work involves the Morton 
Arboretum, U.S. Forest Service, and several other Federal 
agencies, seven Chicagoland counties and municipal governments, 
as well as business and community partners. CRTI has shown 
great success leveraging the power of a public/private 
partnership to strengthen and diversify our local urban 
forests. We want to build on the success we have seen in 
Chicago. Replicating the program elsewhere and solidifying CRTI 
itself will greatly benefit urban forests across the country.
    In addition, there is a critical need to restore and 
improve the urban forests in Region 9 due to the catastrophic 
losses from the emerald ash borer and build resiliency to 
changing growing conditions by planting a diversity of trees 
and protecting the existing trees. Eighty-one percent of 
Americans live in urban areas where trees are critical to human 
health and to address the environmental impact of climate 
change. I urge the committee to prioritize the Forest Service's 
regional multiorganizational collaborations in urban 
communities most severely impacted by invasive species, like 
the emerald ash borer. These urban forest conservation 
partnerships provide models of best practices for effective 
Landscape Scale and Community and Urban Forestry grants. Thank 
you for your consideration of my request, and I hope you will 
join me in harnessing the power of our urban canopy to help 
solve the climate crisis.
    Ms. McCollum. Well, thank you very much. The urban forestry 
is near and dear to both Mr. Joyce and I, and we have been 
working very hard to put dollars into it. As you know, the 
President zeroed that out in his budget proposal, so we will be 
not following the President's recommendation, putting funding 
into it. But being able to do more is going to be dependent 
upon what our topline number is. The President cut the Interior 
appropriations portion in his budget by almost $2 billion, a 
very substantial $1.9 billion cut.
    I had some testimony when the Forest Service was in front 
of us from one of my municipalities of how much money that they 
are spending just on municipal trees and the disposal of it. 
This is going to be a huge economic cost, and I think we all 
need to reach out to our cities and start accumulating what 
this cost is going to be so that we can make the case even 
stronger that we need more funds in our overall allocation 
especially to address this. Do you have any information from 
any of your cities? And this is just public land that we have 
counts on. We don't have on the private. What are you hearing 
from your constituents?
    Mr. Casten. So the Morton Arboretum is in my district, and 
I have not reviewed their books to talk about the precise 
numbers other than just to state the obvious. That $22-and-a-
half million is a trivial number here relative to the benefit 
that we get from it. What is difficult is this is a long-term 
project, right? You know, I tease the folks at the arboretum 
periodically that, you know, I go with Sierra Club to clean 
non-native species, and then they spend a ton of their effort 
trying to figure out what species of trees around the world are 
actually well adapted to the changing climates in the Chicago 
area to urban areas where there is pollution and runoff from 
trees. And I joke with them that if the Sierra Club ever comes, 
they are going to have do a brush cleaning on their premises.
    But the amount of effort that they have to put in is, and, 
again, I don't want to speak to the financial, but it is a 
long-term issue because they are sitting there with multiple 
trees that are growing, looking at them over time, trying to 
figure out how this evolved, trying to figure out which ones 
are more sensitive to heat stresses. I don't mean to duck your 
question.
    Ms. McCollum. No, you are----
    Mr. Casten. But I think making sure that they have the 
resources to continue to do that research, and, frankly, expand 
it, is going to be critical.
    Ms. McCollum. Well, and the arboretums are places our 
municipalities and homeowners go to for support with the master 
gardener programs that that they offer. Mr. Joyce.
    Mr. Joyce. Thank you, Mr. Casten, for being here today to 
provide some background on this issue that is important to you 
as well as myself. In northeastern Ohio, we have the problem 
with the emerald ash borer as well and its economic impact as 
well as the damage to the forests of northern Ohio. It is 
something that needs to be addressed, and I hope we can 
continue to work together to protect against these invasive 
species and protect our nature's forests. Thank you.
    Mr. Casten. Thank you.
    Ms. McCollum. So as you can tell, it is a program the 
ranking member and I are very passionate about. Thank you so 
much for coming today and sharing your story.
    Mr. Casten. Thank you. Thank you.
    [The information follows:]

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    
    Ms.McCollum. Thank you, Sean. Good morning.
    Mrs. Trahan. Good morning.
    Ms. McCollum. Representative Trahan, please share with us 
your thoughts and suggestions for the Interior Committee in 
this Members' Day meeting.
                              ----------                              

                                           Tuesday, March 10, 2020.

                                WITNESS

HON. LORI TRAHAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
    Mrs. Trahan. Thank you. Thank you, Chairwoman McCollum, 
Ranking Member Joyce.
    Ms. McCollum. Is it a green light in front of you?
    Mrs. Trahan. There we go.
    Ms. McCollum. There you go. Thank you.
    Mrs. Trahan. Thank you for allowing me to testify today. 
Many of the communities in your districts are in part defined 
by their proximity to a body of water, whether it is the 
Mississippi River, Lake Erie, the Snake River, or Puget Sound. 
These are great waterways, and they contribute to our 
communities' identity and provide a source of civic pride and 
unity.
    My district is no different. We are proud of the Merrimack 
River's beauty and rich history. Fed by Lake Winnipesaukee in 
the White Mountains of New Hampshire, the mighty Merrimack 
River flows down through Concord, Manchester, and Nashua, then 
it crosses into the Commonwealth and bends east near Lowell, 
Massachusetts, before flowing through Lawrence and Haverhill, 
and out to the Atlantic Ocean. Altogether, it runs over 100 
river miles.
    I was raised in Lowell, the birthplace of America's 
Industrial Revolution, and there is no natural feature more 
tied to the city's history than the Merrimack. The city's mill 
buildings, including the one where my immigrant grandmother was 
a mill girl and my congressional district office is located 
today, once were powered by the Merrimack. Former Congressman 
and Senator Paul Tsongas, alongside Senator Kennedy, gifted the 
city a historical national park, which was founded to preserve 
the industrial history, which the river produced.
    Just as you and your constituents love their rivers and 
lakes, we love the Merrimack. It is a place of commerce, 
recreation, and quiet reflection, and it provides the drinking 
water to more than half a million people. However, the river 
and its watershed communities have suffered immensely over many 
years from repeated releases of raw sewage. These communities 
are among 900 nationwide that have outdated sewer 
infrastructure known as combined sewer systems. Combined sewer 
systems are named such because they collect waste from homes 
and businesses as well as stormwater.
    Equally important, they are designed to channel effluent, 
called CSOs, into nearby bodies of water. This happens whenever 
precipitation volume exceeds sewer system capacity. 
Unfortunately, volume exceeds capacity all too often, and the 
cost to fix these systems is enormous. Moreover, these 
challenges can be exacerbated by the growing effects of a 
warming climate. As it stands, according to the EPA's Clean 
Watersheds Need Survey, the price tag to fix CSOs nationwide is 
$50 billion. In Massachusetts alone, the price tag may be $1 
billion or more.
    For many years, the Federal Government, through the so-
called Construction Grants Program, supported communities' 
wastewater infrastructure needs. However, in the 1980s, these 
grants were largely converted into loans. To be clear, programs 
like the Clean Water State Revolving Fund, or Clean Water SRF, 
have been invaluable for meeting CWA requirements. 
Nevertheless, I am seated here today because for many 
communities, even long-term, low-interest loans are simply 
beyond their means. Grant funding is absolutely vital when the 
scale of wastewater infrastructure projects is so large, in the 
tens or hundreds of millions of dollars.
    Last year, thanks to the leadership of this committee, the 
EPA's combined Sewer Overflow Control Grants Program received 
funding for the first time in history. Your investment was an 
excellent beginning, and I commend you for taking that step. 
However, in light of the scale of the challenge before us, I 
respectfully request that the committee commit to an ever-
greater appropriation for the CSO Grant Program in Fiscal Year 
2021. In 2018, Congress enacted America's Water Infrastructure 
Act, which authorized $225 million for the CSO Grant Program. 
While each dollar counts, the scale of the challenge before us 
suggests to me that an appropriation even twice the authorized 
level is warranted.
    I recognize that this subcommittee has a virtual Sophie's 
choice when it comes to funding the important priorities that 
protect the air we breathe, the water we drink, and the land 
that we hike, hunt, and farm. An increase in funding of the 
scale I recommend might impinge on other priorities. However, I 
hope that you will weigh the fact that the CSO problem is one 
that has been many decades in the making, it harms communities 
least able to afford the necessary improvements, and we can 
solve it provided sufficient resources are available.
    Thank you again for allowing me to testify. I would invite 
you to the Merrimack Valley to see the river for yourself, and 
I yield back.
    Ms. McCollum. Well, thank you, and you were very passionate 
on this program last year, and sought me out on the floor, and 
talked to many other committee members about it. So thank you 
for your passion. And I think I might have shared with you at 
the time, I grew up in South St. Paul on the Mississippi River, 
and we went through two stockyards that used to just put their 
effluent, back in the early days, back in the Mississippi 
River. The same issue with the combined sewer water treatment 
that you spoke to. We spent a lot of money cleaning it up, and 
there are some communities that we have to come up with 
different solutions if we are ever going to clean up our 
waterways.
    But as you pointed to, it is a Sophie's choice, and the 
President did not help us out with coming in with a very low 
number, almost $2 billion lower, for the Interior bill. So Mr. 
Joyce and I will, you know, do what we can, but part of it is 
going to depend upon the topline number that we get from the 
full committee as to whether or not we will be able to do any 
increases. But with due notice, I am going to give you credit 
and attribution. I love the water we drink, the land we hike, 
hunt, and farm. So just to let you know, I am going to give you 
attribution for that line, as I say, you know, several times, 
then eventually attribution might disappear.
    Mrs. Trahan. That is fine. Please take it away.
    Ms. McCollum. Thank you. Thank you so much for your 
testimony. Mr. Joyce.
    Mr. Joyce. Thank you, Madam Chair, and thank you, Mrs. 
Trahan, for being here today and joining us this morning in 
discussing your interest in our Nation's water infrastructure. 
I was pleased that we were able to provide $28 million for the 
Combined Sewer Overflow Control in 2020. But you are right, we 
still have a lot of work to do, and I just want to thank you 
for being here. We in northeastern Ohio and the Great Lakes, we 
have seen this all too often, and it is a problem that needs to 
be addressed, but funding is always critical to get these 
things done. Thank you.
    Mrs. Trahan. Thank you.
    Ms. McCollum. Thank you so much.
    Mrs. Trahan. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. And the next member we are going to hear from 
is Representative Cunningham. And, Mr. Cunningham, the green 
button should be on. Make sure it is on because we want to get 
everything recorded that you would like to share with us.
                              ----------                              

                                           Tuesday, March 10, 2020.

                                WITNESS

HON. JOE CUNNINGHAM, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    SOUTH CAROLINA
    Mr. Cunningham. Thank you. Good morning. Good morning, 
Chair McCollum, Ranking Member Joyce, staff. I appreciate the 
opportunity to be in front of you here today.
    As you all know, I represent South Carolina's 1st 
Congressional District, a district blessed with an incredible 
coastline, good fishing, and clean waterways. And I am here to 
relay my district's concerns about the Administration's 
proposals to bring both offshore drilling and harmful seismic 
airgun blasting to Atlantic waters, including those off my 
district, as well as those off the Pacific and the Eastern Gulf 
of Mexico, which together support over 2.6 million American 
jobs and roughly $180 billion in GDP through tourism, fishing, 
and recreation.
    Beginning in 1982 and for nearly 3 decades, members of 
Congress listened to the concerns of the people they served and 
restricted funding for Federal offshore oil and gas leasing and 
drilling activities via the appropriations process. Thank you 
for working with me and our colleagues to reestablish similar 
provisions through amendments to the Fiscal Year 2020 Interior, 
Environment appropriations bills to limit spending on offshore 
oil and gas leasing, along with the aforementioned coast, and I 
would urge you to include offshore drilling and exploration 
moratoria again as you craft the Fiscal Year 2021 base bill. It 
is vital that we engage the Senate to ensure these provisions 
are included in the final package. Without these moratoria 
provisions, we relinquish our role in influencing the future 
offshore drilling to the executive branch.
    Across the board, the expansion of offshore drilling is a 
threat to hardworking Americans, coastal economies, and marine 
life. When oil companies drill, they spill. Oil spills have 
lasting consequences, as well we know from the 2010 Deepwater 
Horizon tragedy, which claimed the lives of 11 rig workers and 
spewed more than 200 million gallons of oil into the Gulf of 
Mexico, as engineers tried and failed to cap the blowout.
    Oil exposure destroyed fragile marine ecosystems. Tourism 
dropped throughout the region alongside beach closures and 
fishing restrictions, and real estate value declined in several 
Gulf Coast communities. Next month marks the 10th-year 
anniversary of this terrible accident, yet the dangerous and 
dirty culture of offshore drilling remains largely unchanged. 
In fact, last year, the Trump Administration took a step 
backward by weakening one of the few rules that had been 
implemented to prevent another Deepwater Horizon-like disaster. 
Through the appropriations process, we have the power to block 
funding for risky offshore development and prevent another 
large-scale spill before it happens.
    Despite the Administration's stated abandonment of its 5-
year OCS plan, harmful oil exploration is imminent in the 
Atlantic Ocean if the Bureau of Ocean Energy Management issues 
final permits to seismic companies. Seismic airgun blasting in 
search for oil goes directly against the interests and wishes 
of my constituents. Creating one of the loudest manmade sounds 
in the ocean, noise from seismic airguns can disturb, injure, 
and even kill animals across the entire marine ecosystem. This 
unnecessary harm to the environment stands to threaten Atlantic 
Marine resources that support over 1.5 million jobs and 
generate nearly $108 billion in GDP each year, mainly through 
tourism, fishing, and recreation. Any potential benefits of oil 
exploration are far outweighed by the stable recurring revenue 
and jobs that our communities receive from healthy oceans.
    Exposing our vibrant ocean resources to incredibly loud 
seismic airgun blasting and dangerous offshore drilling is 
simply not worth the risk. We are depending on your support 
again this year as you write and negotiate the Fiscal Year 2021 
Interior, Environment appropriations bill. I would ask that you 
make it a priority to restrict funding for any new offshore oil 
leasing or related activities, including seismic airgun 
blasting, in the Atlantic Ocean, in the Pacific Ocean, and 
eastern Gulf of Mexico.
    Please back our coastal communities which have voiced 
consistent opposition to dangerous oil and gas activities, and 
I appreciate the opportunity to testify here today.
    Ms. McCollum. Thank you. Thank you, Mr. Cunningham, and as 
you pointed out, it did become part of our base bill, the 
support of the entire body of members when that amendment was 
rock solid, so, you know, bipartisan in that. And, Mr. Joyce, 
we need to thank Mr. Cunningham for not bringing his airhorn 
with him. He did when he was in Natural Resources and sounded 
the alarm with it. So thank you for being here and sounding the 
alarm on what could happen to our coastal communities. You did 
an excellent job. Mr. Joyce.
    Mr. Joyce. Thank you, Mr. Cunningham, for being here and 
discussing those issues that are important to your district, 
and certainly urge you, and we will try to help where we can.
    Mr. Cunningham. Thank you, Mr. Joyce.
    Ms. McCollum. Thank you.
    Mr. Cunningham. Thank you, Madam Chair.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. The gentleman from New York? Welcome, Mr. 
Suozzi.
    Mr. Suozzi. Suozzi.
    Ms. McCollum. Suozzi. I am sorry.
                              ----------                              

                                           Tuesday, March 10, 2020.

                                WITNESS

HON. TOM SUOZZI, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Suozzi. Good morning, Madam Chairwoman and Ranking 
Member Joyce, staff members. Thanks so much for the opportunity 
to speak to you today about the Long Island Sound and about the 
Land and Water Conservation Fund. These are very big issues in 
my district. I represent the 3rd Congressional District of New 
York, which encompasses the North Shore of Queens, Nassau, and 
Suffolk Counties on Long Island.
    I am the co-chair of the bipartisan Long Island Sound 
Caucus, and we are requesting an increase in funding for the 
Long Island Sound from $21 million in Fiscal Year 2020 to $30.4 
million in Fiscal Year 2021 to help safeguard and continue 
restoring water quality and the diverse habitat of the Long 
Island Sound. For us, the Long Island is really our national 
park. More than 25 million people from Long Island, New York, 
and Connecticut live within an hour's drive of the Sound, and 
over the past 30 years, because of your good work in 
partnership with the Federal, State, and local agencies, as 
well as citizen stakeholders, like Save the Sound, Coalition of 
Safe Cohasset Harbor, the Citizens Campaign for the 
Environment, the Friends of the Bay, and so many others, we 
have helped make significant improvements, environmental 
improvements.
    We have made significant strides in reducing nitrogen 
loading, habitat restoration, public involvement in education, 
and water quality monitoring. And I am sure that both of you 
are aware what the problem with nitrogen loading is. Nitrogen 
is what makes things grow. Nitrogen is what is in fertilizer. 
It is what makes your grass green. It is when you put horse 
manure on your tomato plants and it makes them grow because the 
nitrogen makes things grow. And the nitrogen from our sewage 
treatment plants and the nitrogen from the runoff from 
stormwater goes into places like the Long Island Sound and 
other water bodies, and it makes the microscopic organisms 
grow, and it makes things, you know, full of life, but that is 
what makes the water brown. And when those microscopic 
organisms die, they sink to the bottom, and they eat up the 
oxygen as they decompose. And that causes hypoxia, and hypoxia 
is what kills all the wildlife, the fish life especially.
    So these efforts that you have done, along with the 
critical Federal funding that you have provided, have helped 
turn the Sound around. I grew up swimming and fishing in the 
Long Island Sound. My children do today. I have devoted a 
significant part of my 25-year career in public service to 
cleaning up pollution, dramatically reducing nitrogen, 
modernizing sewage treatment plants, and restoring shellfish 
habitat. As a matter of fact, one year, the New York League of 
Conservation Voters named me the environmentalist of the year 
for all of New York State. There is so much more that we can 
accomplish with your help.
    Another critical issue for my constituents and throughout 
the country is support for the funding for the Land and Water 
Conservation Fund. Along with over 150 bipartisan colleagues, 
we are requesting support for robust funding in Fiscal Year 
2021. The Land and Water Conservation Fund supports public land 
conservation and ensures access to the outdoors for all 
Americans. It has helped fund access to outdoor recreation 
opportunities in every State and in 98 percent of the counties 
across America. Funding has helped in key areas for fishing and 
recreational access as well as supporting working forests and 
ranches, and acquiring and protecting critical lands in 
national parks, national wildlife refuges, our national 
forests, civil war battlefields, and other Federal areas. I am 
proud to work with local organizations, like Lisa Ott, who 
fight every day to protect these beautiful places.
    Thank you for your time and consideration of these two 
critical issues. My colleagues and I look forward to working 
with you to support the Long Island Sound and the Land and 
Water Conservation Fund to help conserve the natural beauty of 
our great country and expand access to more people to 
experience and learn about our Nation's history. Thank you so 
much for your time.
    Ms. McCollum. Thank you for sharing the passion about Long 
Island Sound. It is truly beautiful. I have had only one 
opportunity to be there. I would love to visit again.
    Mr. Suozzi. Come visit. I will take you on a tour of 
Theodore Roosevelt's home. Sagamore Hill is in my district.
    Ms. McCollum. And that is in your full testimony, too. You 
didn't get to it.
    Mr. Suozzi. Yeah.
    Ms. McCollum. So we are hoping to not have to implement any 
of the proposals that President Trump had in the Interior bill, 
which was to cut it by $1.9 billion. And thank you for pointing 
out the importance of LWCF. We gave it its most robust increase 
in decades. We are looking to protect that and add to it if we 
possibly can. And you also made a $10 million ask. We have to 
see what our allocation looks like, but you have given us great 
food for thought, so thank you very much.
    Mr. Suozzi. Thank you.
    Mr. Joyce. Thank you, Mr. Chair, and thank you, Mr. Suozzi, 
for taking time out of your busy day to come here and discuss 
with us the Long Island Sound and Land and Water Conservation 
Fund. As Chairwoman McCollum and I both understand very 
clearly, those runoffs can create and wreak havoc, as they have 
throughout the Great Lakes, on the Sound as well. So we 
certainly appreciate your being part of the solution.
    Mr. Suozzi. Thank you, again, to the committee, not only 
for your time, but the great work that you have done supporting 
these environmental efforts for so many years. We are very 
grateful.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you. Representative--I should say Dr.--
Schrier, welcome, and please start with your testimony. Green 
light on? You are good to go.
                                           Tuesday, March 10, 2020.

                                WITNESS

HON. KIMBERLY SCHRIER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    WASHINGTON
    Ms. Schrier. Green light is on. Thank you, Chairwoman 
McCollum and Ranking Member Joyce. I am here today to discuss a 
few issues of great importance to me, specifically funding for 
Puget Sound recovery efforts, the U.S. Forest Service's Legacy 
Roads and Trails Program, and increasing recycling and reducing 
the use of single-use plastics. All that being said, I may not 
have time to touch on all of these, and I will submit comments 
at the end.
    I, along with my colleagues, will soon be submitting a 
formal appropriations request for $38 million in funding for 
EPA's Puget Sound Geographic Program. Every EPA dollar spent on 
Puget Sound recovery efforts has leveraged more than $24 in 
matching funds from other Federal agencies and local partners, 
an enormous return on investment.
    The Puget Sound region is home to 19 federally-recognized 
tribes, which include 17 with tribal treaty rights, and the 
Federal Government is obligated to ensure these tribes' treaty-
reserved rights are protected. Several species of Pacific 
salmon and steelhead in Puget Sound are listed as threatened 
under the Endangered Species Act. The iconic Southern Resident 
Killer Whale is on the brink of extinction with a population at 
a 30-year low of 73 Southern Residents. Consistent dedicated 
funding to the Sound would greatly benefit the region and 
future generations to come.
    Also I am planning to introduce legislation which will 
codify the U.S. Forest Service's Legacy Roads and Trails 
Program. This program leverages public and private funding to 
address water quality and access for threatened and endangered 
species, like the Chinook salmon, bull trout, and steelhead. It 
was created in 2008 because the general Forest Service road 
maintenance budget was unable to address the sheer volume of 
blocked culverts, landslides, and washouts that were impacting 
water quality and access for threatened and endangered species.
    In 2018, the Supreme Court ruled that Washington State had 
an obligation to restore habitat to meet its promises to the 
tribes. Washington State will have to replace each fish-
blocking culvert with a larger design. It is estimated this 
will cost $4 billion to the State, and we have until 2030 to 
meet that requirement. Narrowing a stream to a culvert forces a 
waterway that could be 12 feet or more feet wide into a far 
smaller pipe that might increase water pressure throughout the 
culvert, often to the point that fish can't swim upstream. Some 
culverts are also elevated too high for returning fish to jump. 
That means that for a lot of them, the end of the journey may 
be at that culvert, and for them, that will be the end of their 
journey. Even if there are miles of pristine habitat beyond, 
they won't be able to get there.
    So while our State addresses culverts and downstream 
barriers, there are thousands of upstream barriers on U.S. 
Forest Service lands which desperately require similar fixes. 
Now is the time to invest in upstream habitat so that when we 
open those culverts, the salmon have a place to go. Funding has 
been zeroed out since the program was moved under the capital 
improvement and maintenance line item in the budget. The last 
pot of funds provided for this was in 2018. I respectfully 
request that the committee fund the program again at the 2018 
level of $41 million under the capital improvement and 
maintenance line item, and request the U.S. Forest Service 
continue tracking and reporting of these projects.
    Lastly, an issue that is of great importance to me and 
others in this room is the overwhelming plastic waste stream 
that is polluting our land and water. We need to reduce the use 
of single-use plastics and increase recycling rates throughout 
the country. I am leading a letter with Congresswoman Haley 
Stevens of Michigan, which is currently circulating, which is 
calling for increased funding for RCRA and further data 
collection regarding the needs assessment of the U.S. recycling 
industry. Strong data is the foundation of good policy. For too 
long, the recycling program in the United States has been 
characterized by its lack of reliable, comprehensive data. 
Municipalities and stakeholders from across the spectrum 
require strong data to make targeted and informed decisions.
    By conducting a nationwide census on the types and 
capacities of recycling programs in existence, we can better 
determine our needs and investments. Having the authority of 
the EPA behind this request is crucial. Private industry is 
unable to comprehensively collect the information on a 
nationwide scale. Better data will lead to better investments, 
and we can help ensure materials can be recycled. Manufacturers 
can use this to identify consistent sources, and they can look 
for opportunities for the use of those materials.
    In summary, I thank the committee for the opportunity to 
testify on these issues of incredible importance. Thank you.
    Ms. McCollum. Well, thank you. Mr. Joyce and I both had the 
opportunity to be out in the Puget Sound area and saw all the 
great work, and the leverage, and the difference that it is 
making, and we have many regional programs. Mr. Joyce and I 
come from the Great Lakes, but we feel that they are all 
equally important. We might have a favorite, but we don't pick 
a favorite when it comes to supporting your request and others 
throughout the bill.
    And I thank you for your comments on recycling. We held a 
hearing on plastic recycling, and we have been trying to work 
with the EPA about we need a national standard so it makes 
sense to people about what is going on. In my opinion, it is 
just too confusing. People want to recycle, and they think they 
are recycling, but they are not because the packaging is so 
varied and so confusing for folks. So thank you for bringing 
that to our attention as well. But with that, Mr. Joyce and I 
are going to need some deeper pockets with a little more money 
in them to work on some of these great things that have come 
forward. We thank you for that. Mr. Joyce.
    Mr. Joyce. Thank you, Dr. Schrier, for coming here today, 
and I would be remiss if I didn't say to our colleague here on 
this committee, Derek Kilmer, has done a wonderful job 
advocating as well as you on your behalf. Thank you for being 
here.
    Ms. Schrier. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Good morning. It is wonderful to have you 
here. We are so very interested to hear your testimony. Please 
begin.
                              ----------                              

                                           Tuesday, March 10, 2020.

                                WITNESS

HON. AMATA RADEWAGEN, A REPRESENTATIVE IN CONGRESS FROM AMERICAN SAMOA
    Mrs. Radewagen. Good morning. Thank you, Chair McCollum and 
Ranking Member Joyce for----
    Ms. McCollum. Is your microphone on? Is it green? We want 
to make sure we can hear your testimony, Representative.
    Mrs. Radewagen. Thank you, Chairwoman McCollum and Ranking 
Member Joyce, for the opportunity to testify today. The Army 
Corps evaluated the state of health infrastructure in American 
Samoa's only hospital, the almost 60-year-old LBJ Tropical 
Medical Center for DOI, as directed by this committee last 
year. With the committee's permission, I would like to submit a 
copy of the report into the record along with my written 
testimony.
    Ms. McCollum. Without any objections. Mr. Joyce.
    Mr. Joyce. No.
    Ms. McCollum. So ordered.
    Mrs. Radewagen. The report's findings are grim for 
America's most remote community of 60,000 Americans living 
nearly 7,000 miles away. Any cuts to this account would be 
catastrophic to the Islands of American Samoa. American Samoa 
maintains one of the highest Army enlistment rates in the 
country and was first in recruitment twice in the past 5 years 
on a per capita basis, and has one of the highest veterans 
populations in the country. The VA spends $5 million per year 
on flights and hotels to treat these vets in Hawaii, often for 
care that could be done locally, but which is not available to 
them or their families.
    The Army Corps report states bleakly as follows: ``The 
current infrastructure of the LBJ Territorial Medical Center 
Hospital is in a state of failure due to age and environmental 
exposure. Extensive repair and/or replacement of the facility 
is required to ensure compliance with hospital accreditation 
standards, and to ensure the life, health, and safety of staff, 
patients, and visitors.''
    While the facility's structure has held up relatively well, 
it is not in compliance with current seismic and wind 
requirements, and retrofits would be expensive and disruptive. 
The electrical and mechanical systems are in poor condition and 
in need of immediate repair. Architectural deficiencies have 
led to mold and mildew growth in critical areas, exposing staff 
and patients to significant health risks. Plumbing, water 
treatment, and medical gas systems are all in failed or failing 
condition. The facility is partly dependent upon funding from 
CMS, and further degradation of the infrastructure will result 
in noncompliance with standards, and will result in denial of 
accreditation. LBJ is the only full-service healthcare facility 
in the territory, and further degradation of the plant 
infrastructure will hamper the delivery of care to American 
Samoa's population.
    Notwithstanding these poor conditions, our local government 
officials and hospital staff were able to successfully avert a 
major outbreak of measles that caused nearly 100 deaths in 
children in independent Samoa just 100 miles away last year, 
but no deaths occurred in American Samoa. The Army Corps 
reports modernization costs will range from over $100 million 
for minimum compliance improvements to over $500 million in 
total hospital replacement costs. We seek any increase the 
committee deems reasonable based on the Army Corps findings to 
this committee.
    With over 300 inches of rain and two tropical storms in the 
past year, it is a challenging environment for our hospital 
infrastructure. Modernizing the LBJ Hospital with the basic 
emergency upgrades needed, as set forth in the Army Corps 
report, are essential. This increase will help provide the 
basic humanitarian health services which HHS/CMS compliance 
requires. Considering the recent events with coronavirus and my 
home district's proximity to Asia, this is even more important 
now.
    I want to thank the committee members again for allowing me 
to testify, and I look forward to continuing working with you 
on this most important issue to the American Samoan people. 
Thank you.
    Ms. McCollum. Well, thank you. So part of our charge is 
funding Insular Affairs, and so we will look at the report, and 
also look to see where there might be other funding revenues 
that could be helpful on this. So thank you for bringing the 
information, and that is so sad that so many children lost 
their lives to measles. So having good public health 
infrastructure that people can rely on is very important. To 
have that happen so close to your population must have really 
been disturbing because you have had some good public health, 
and we want to keep it that way with having a good hospital. So 
thank you so much for sharing.
    Could I ask, do you have any reports or concerns you could 
share with the committee about resiliency and climate change? 
We are also working on that in here in the future. That would 
be very helpful for me. As we move forward, we need to make 
sure that, you know, all of our territories, all of our 
brothers' and sisters' voices are heard at the table when we 
work on these issues. So I thank you so much for coming 
forward. It was a pleasure having you here. I look forward to 
working with you and getting to know you better on these 
issues.
    Mrs. Radewagen. Thank you, Madam Chairwoman. We will be 
sure to get that information to you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you. Mr. Joyce.
    Mr. Joyce. Thank you, Madam Chair. We appreciate you being 
here and for your discussion about these important programs.
    Mrs. Radewagen. Thank you. I yield back.
    Ms. McCollum. Thank you so much. Mr. Davis, you have had a 
busy morning. We are so glad you were able to make it over 
here, and when you are ready, we will let you get started. And 
I think the green light should be on for you.
    Mr. Davis. It is.
                              ----------                              

                                           Tuesday, March 10, 2020.

                                WITNESS

HON. RODNEY DAVIS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Davis. Thank you, Chair McCollum and Ranking Member 
Joyce, for allowing me the opportunity to testify before both 
of you today. I am here to speak in support of moving my bill, 
H.R. 139, the Springfield Race Riot National Historic Monument 
Act, which would designate the site of the 1908 Springfield 
race riots as a national historic monument to preserve and 
recognize it as an important part of our Nation's history.
    The site and artifacts were unearthed during construction 
of the Carpenter Street segment of the Springfield Rail 
Improvements Project in my district, and consists of the 
remains of five homes that were burned during the 1908 
Springfield race riot, one of the three worst race riots in our 
Nation's history. At the time, the event demonstrated that 
racial injustice was not an isolated issue only in the South, 
but one that needed to be addressed across this country, even 
in the hometown of Abe Lincoln. Ultimately, the riots that 
occurred at the site in Springfield played an integral role in 
the formation of the NAACP.
    Designating this site would commemorate an important piece 
of history as a public reminder of how far we have come and how 
far we have yet to go. Last year, the Department of Interior 
released their reconnaissance survey which found that the site 
is likely suitable for designation as a national historic 
monument. The bill has also received a hearing in the House 
Natural Resources Subcommittee on National Parks, Forests, and 
Public Lands. Further, our national parks are a wise investment 
with a return on investment of nearly $10 for every $1 
invested. These investments support over 300,000 jobs and 
contribute $36 billion in economic activity to our country 
every year.
    National monuments, like the Springfield race riot site, 
would provide not only a tourism and an economic benefit, but a 
critically-important historical and educational benefit that 
can be combined with the current historical and educational 
benefits currently being operated by the National Park Service 
at the Lincoln Home Historic Site. And I will remind the 
committee this race riot site is mere blocks away from the 
already-existing National Park Service Lincoln Home Historic 
Site.
    I respectfully request that the committee appropriate 
robust funding for our National Park Service and work to move 
my bill through the House in order to give this site the 
recognition that it deserves. Thank you, and I yield back.
    Ms. McCollum. Are you currently in front of the Natural 
Resources authorization committee with this?
    Mr. Davis. We have had a hearing on this bill through the 
subcommittee of jurisdiction, the Subcommittee on National 
Parks, Forests, and Public Lands.
    Ms. McCollum. And one of the committee members who is on 
the authorizing committee is, like, shaking her head in very 
strong support. Yeah, she will be testifying later, 
Representative Haaland. So I look forward to being able to 
support that bill on the floor. The Historic Preservation 
Office, which is the group of technicians and archaeologists 
and the rest that find these artifacts and work along with 
especially Department of Transportation and other major 
construction projects, is something that this committee has 
worked very hard to keep the funding up on, even though the 
President, I am not sure if he is at 80 percent cut or zeroed 
it out totally. I don't have the numbers right in front of me.
    But these historic preservation offices are very, very 
important in our States and in our tribal nations. So you just 
reemphasized that for us as well in this committee.
    Mr. Davis. I agree with you, Madam Chair.
    Ms. McCollum. So and you are right. I am from Minnesota, 
and we have our own story to tell, whether it is with our 
Native American brothers and sisters, or with other immigrant 
populations, or with African Americans who were brought over 
here through no choice of their own through slavery. We have 
our own stories we have to share, our own stories we have to 
teach our children. We are part of the story of the good, the 
bad, and sometimes the very bad. So thank you. As a history 
teacher, we teach the whole history. Mr. Joyce.
    Mr. Joyce. Thank you, Madam Chair. Thank you, Mr. Davis, 
for coming here before our committee this morning to discuss 
your important bill, H.R. 139, the Springfield Race Riot 
National Historic Monument Act. Given the importance of this 
event in our Nation's history, I want to be supportive of your 
efforts and give this site the recognition that it deserves and 
continue to provide robust funding for our Nation's parks. 
Thank you.
    Mr. Davis. Thank you, Ranking Member.
    Ms. McCollum. Anything else you want to add?
    Mr. Davis. Thanks for your consideration. We really 
appreciate the opportunity to come before you today.
    [The information follows:]

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    
    Ms. McCollum. We look forward to your bill being on the 
floor, sir. Good morning, Mr. Schneider.
    Mr. Schneider. Good morning.
    Ms. McCollum. Representative Schneider, I think the green 
light button should be on for you.
    Mr. Schneider. It is.
    Ms. McCollum. And we are ready to hear your testimony.
                              ----------                              

                                           Tuesday, March 10, 2020.

                                WITNESS

HON. BRAD SCHNEIDER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Schneider. Well, thank you. Thank you for having me 
today. Madam Chair, I appreciate the opportunity to testify 
before this committee.
    What I want to talk about is something called ethylene 
oxide, or EtO. EtO is an industrial chemical used to sterilize 
medical devices. It is also used as an intermediary chemical in 
the manufacture of industrial products, for example, 
antifreeze. A few years ago, EtO was reclassified as a known 
carcinogen by the United States Environmental Protection 
Agency, which was in December 2016. Consequently, EPA included 
EtO in its Regular National Air Toxic Assessment, which helped 
identify communities that faced high exposure to the chemical.
    Two of these communities happen to be in my district, 
Gurnee and Waukegan, Illinois. There are dozens of communities 
like this around the country that face high EtO emissions from 
suburbs in Atlanta, Georgia, Allentown, Pennsylvania, and even 
the bayous of Louisiana. These at-risk communities need and 
deserve ambient air testing. I have been pushing the EPA to 
conduct ambient air monitoring in my district similar to what 
the Agency did in 2018 in Willowbrook, Illinois. Only through 
ambient air monitoring can my constituents be confident that 
the air they breathe is indeed safe. Unfortunately, the EPA has 
consistently refused.
    I am deeply thankful that this subcommittee stepped up last 
year in the absence of EPA leadership and increased funding for 
EPA's Compliance Account, making particular note of communities 
facing high EtO levels and the importance of ambient air 
monitoring. While this funding did not make it into the final 
omnibus, I am deeply thankful for the committee's leadership on 
EtO. Thankfully, at home, my local community public health 
department, in coordination with our State Illinois EPA, 
stepped up and has been conducting ambient air testing in our 
area, ambient air testing that the EPA should have been doing. 
However, not all local governments around the country have the 
resources to conduct similar air testing, underscoring how 
important it is that this funding remains for dozens of 
communities around the country.
    Now the EPA is promulgating two rules on EtO. This further 
highlights why funding is so important because of EPA's 
approach to its rulemaking. EPA has insisted that computer 
modeling is sufficient and does not intend to conduct any 
ambient air monitoring as part of its rulemaking. However, the 
experience we saw at Sterigenics facility in Willowbrook proves 
the shortsightedness of this approach. It was not until after 
the EPA conducted air monitoring in Willowbrook that we 
discovered how significant a contributor to ambient presence of 
ethylene oxide is, what are called fugitive emissions. These 
would not have been included in the model and were significant 
contributors to the community's exposure.
    When conducting its computer modeling for EtO, EPA must 
include variables for its estimate of fugitive emissions. As we 
saw in Willowbrook, estimates are not a full picture of 
fugitive emissions, and EPA cannot take into account fugitive 
emissions without the necessary ambient air testing. All the 
more reason why funding for ambient air monitoring is so 
essential to inform any sensible regulation of EtO.
    This subcommittee has been immensely helpful on this 
important issue for my constituents, but we still need your 
support. Ambient air monitoring is the only way to assure our 
communities, known to be facing high EtO emissions, that the 
air they breathe is safe, and it must play an integral role in 
the EPA's rulemaking, especially given the shortcomings that we 
have seen in computer modeling. Again, I want to thank you for 
the opportunity to testify today, and I yield back the balance 
of my time.
    Ms. McCollum. Thank you so much. There is a recent GAO 
report that I read on the airplane. I am going to read it 
without being on the airplane again so that I can take more of 
it in on enforcement and compliance. We need to do a much, much 
better job. I think you have given a real good example of what 
the expectation our citizens, the people that we represent have 
of the EPA monitoring and doing air quality work. And you have 
taught me a lot about this over the past year and a half, and I 
am looking forward to doing more on this issue.
    Mr. Schneider. Thank you.
    Ms. McCollum. We had a different chemical release in my 
district, and we need to be present when those things are 
happening and monitoring public health. So thank you for 
bringing this to our attention, and also for you realizing the 
hard slog it is sometimes for us to not only get the funding, 
but then to get the person hours to do the compliance, to do 
the enforcement, as well as just the basic monitoring that 
needs to be done. So thank you so much.
    Mr. Schneider. Thank you.
    Ms. McCollum. Mr. Joyce.
    Mr. Joyce. Thank you for your time here today, Mr. 
Schneider.
    Mr. Schneider. Thanks.
    Ms. McCollum. I look forward to working with you.
    Mr. Schneider. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Representative Haaland, it is so wonderful to 
see you this morning. Thank you, and when you are ready, please 
begin.
                              ----------                              

                                           Tuesday, March 10, 2020.

                                WITNESS

HON. DEBRA HAALAND, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    MEXICO
    Ms.Haaland. Thank you. Chairwoman McCollum, Ranking Member 
Joyce, members of the subcommittee, thank you for this 
opportunity to speak about some key issues in the Interior 
appropriations bill.
    I want to start by thanking you for your great work on the 
Fiscal Year 2020 bill. Last year, I asked for your help with 
the Payment in Lieu of Taxes and Secure Rural Schools Programs, 
and you delivered, including a 2-year reauthorization for SRS. 
I appreciate your continued support for SRS and PILT, and I 
will continue to work to get a permanent SRS solution through 
my National Parks, Forests, and Public Lands Subcommittee.
    I am also grateful to you for including a year-long 
moratorium on new oil and gas leasing within 10 miles of the 
Chaco Culture National Historic Park in Fiscal Year 2020, which 
is my ancestral homeland, and for funding a cultural resources 
investigation. Just last week, BLM released a resource 
management plan amendment for the area that ignores the 
recommendations of experts and would allow drilling much closer 
than 10 miles. So I ask you to again include language that will 
protect my ancestral homeland.
    Thank you for reversing the President's proposed cut to the 
Land and Water Conservation Fund in Fiscal Year 2020. He 
proposed to cut it again by 97 percent in Fiscal Year 2021, and 
I urge you to fully fund the LCWF at the authorized $900 
million level, although last week the President did tweet his 
support for making LWCF full funding mandatory, so perhaps it 
won't be necessary, but we will see.
    Last year, I asked for your assistance with funding for 
public safety programs and healthcare for Native Americans, and 
again you delivered. I appreciate the increase for Indian 
Health Service and the language you included requesting a plan 
from IHS on how it will fully fund and implement the Indian 
Health Care Improvement Act. I am also grateful for your 
efforts to increase funding for law enforcement and tribal 
courts and to support programs to address recidivism in Indian 
Country by providing mental health and substance abuse services 
when needed by juvenile and adult detainees and prisoners. I 
urge you to continue that good work in Fiscal Year 2021.
    I am especially grateful that you worked to significantly 
increase funding for implementation of the Violence Against 
Women's Act in Indian Country because more than 4 in 5 American 
Indian and Alaska native women have experienced violence within 
their lives, and 56 percent have experienced sexual violence. 
Your continued support in these areas will help change the 
lives of Native American women and girls.
    The government shutdown in early 2020 showed us how tribal 
communities can be vulnerable during a lapse in appropriations, 
which puts Native American lives in danger. I support your 
efforts in the Fiscal Year 2020 bill to investigate the changes 
needed to develop and manage an advanced appropriation for IHS, 
and I welcome the opportunity to continue working with you on 
this through the authorization and appropriations process.
    Finally, there is a briefing tomorrow about water access in 
this country. It will highlight a study released last year that 
reported that Native American households are 19 times less 
likely than white households to have indoor plumbing. Fifty-
eight out of 1,000 Native American households lack complete 
plumbing, and an estimate 30 percent or more of people on the 
Navajo Nation lack access to running water. I appreciate your 
support for the Clean Water and Drinking Water State Revolving 
Funds to help build and repair water infrastructure nationwide 
and across Indian Country, and I urge you to do what you can to 
increase that funding level and set aside a greater portion for 
tribes.
    Thank you again for your great work, and I really 
appreciate the opportunity to testify.
    Ms.McCollum. Well, thank you. Thank you for your comment on 
this committee's support for funding payment in lieu of taxes, 
but it really belongs back in Ways and Means, and not in the 
Interior budget. So we are going to work really hard to remove 
it out of this committee and back into where it had been 
before, in the mandatory funding. I thank you for your kind 
words on the increases we were able to do in Indian Country, 
and you are so spot on about access to clean drinking water, 
especially in tribal communities. And now more than ever, as 
clean drinking water and just clean potable water for washing 
hands and that, especially, you know, all the talk about if you 
want to be safe now, wash your hands. We have to have access to 
water in order to be able to do that and keep you and your 
family safe.
    LWCF is a beloved program, and I want to thank you as an 
authorizer for the authorization work that you did on it. Thank 
you for the lofty goal that you are trying to hold us to on 
$900 million. We gave it a robust increase. Mr. Joyce and I 
hope we can show it some love again, but without a bigger 
topline number, well, you know what would happen to clean 
drinking water, EPA enforcement, and everything else. But it is 
something that is near and dear to our hearts. We appreciate 
all the work that you did in the authorization on that because 
that gives us a wonderful opportunity to talk about how I need 
a bigger topline number to work on all these programs and meet 
the needs of people, not in Indian Country, but throughout the 
United States. Mr. Joyce.
    Mr. Joyce. Thank you, Madam Chair, and thank you, Ms. 
Haaland, for being here today to discuss the importance of 
funding for Indian affairs, for the Indian Health Service, and 
the EPA's Clean Water and Drinking Service Revolving Funds. I 
think it is fair to say that Indian Country programs manage to 
be a non-partisan issue on this committee, and I am sure that 
what Chair McCollum and I will continue to work for is making 
sure that we fund them as best we can. Thank you, Madam Chair.
    Ms. Haaland. Thank you.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms.McCollum. Miigwech. Welcome, Representative Graves. If 
the green light is on, when you are ready, we are ready.
                              ----------                              

                                           Tuesday, March 10, 2020.

                                WITNESS

HON. GARRET GRAVES, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    LOUISIANA
    Mr. Graves. Fantastic. Well, thank you. I am Garret Graves. 
I represent south Louisiana. I want to thank you for the 
opportunity to come testify before the committee. I appreciate 
you all opening the doors to allow us to come discuss 
priorities.
    Perhaps, Madam Chair, I will start with the Land and Water 
Conservation Fund. I heard the previous speaker and your 
dialogue, and certainly the Land and Water Conservation Fund is 
an important part of the investment to preserve and protect 
some of these important resource areas across the United 
States. And like you, I also have seen recent action between 
the Senate and the White House in regard to allowing some full 
funding for the program.
    I do want to make note, though, that every penny of that 
program, the funds are derived from off the coast of the State 
that I represent, and to be fair, there are five or six States 
that produce offshore energy. Alaska does a little bit. 
California does a little bit, but the majority of it is Texas, 
Louisiana, Mississippi, and Alabama. And, as a matter of fact, 
if you take the offshore production off the coast of our State 
and you compare it to the other five States, we produce, well, 
probably about 4 times as much as the other five States 
combined. So the majority of this money by far is derived from 
off the coast of Louisiana.
    At the same time, we have lost about 2,800 square miles of 
coast due to coastal erosion. That is equivalent to the State 
of Rhode Island. And to see folks out there announcing 
permanent funding and full funding for the Land and Water 
Conservation Fund without investing in the conservation of the 
very area where those funds are derived is unbelievable. It 
really is. It is not sustainable. The funding stream is not 
sustainable. You can't have land loss anywhere from, I think, 
on the low end over the last 80 years, 8 square miles in a 
year, to the high end, 200 square miles in a year, and expect 
that we are going to be able to sustain the production that we 
have today, which means the revenues that we have today. In 
recent years, I think $5, maybe $6 billion, I believe, in most 
recent years in terms of production of revenues from the outer 
continental shelf.
    So I strongly urge you take a look at the Mineral Leasing 
Act that shares 50 percent of the revenues with States, and I 
think we should have some sort of parity for the States that 
host the offshore production because this is an important part 
of our energy security. And although it may seem 
counterintuitive, that natural gas that we are producing off 
the coast has actually been the major reason why we have had a 
reduction in emissions in the United States in terms of 
greenhouse gases. And it is going to allow us to continue to 
reduce emissions both domestically and globally as we export 
natural gas to 35 countries around the world, our cleaner 
natural gas. In fact, Russian gas is about 41 to 47 percent 
greater or dirtier emissions than in the United States.
    So number one, I support Land and Water Conservation Fund, 
but I do not support it unless it is paired with coastal impact 
assistance or revenue sharing for other States. I can speak on 
behalf of the State of Louisiana and say we would dedicate 
every penny of that revenue to the sustainability of our coast. 
No other programs. Every penny would go to the sustainability 
of our coast. As a matter of fact, there is a constitutional 
amendment that would lock it in for that purpose. That is my 
first request.
    I also want to make note that as we move forward on this 
legislation, folks are talking about full funding of the Land 
and Water Conservation Fund, $900 million. Under current law, 
12-and-a-half percent of new energy revenues post December of 
2006 already goes to the Land and Water Conservation Fund. So 
if we lock in $900 million, it is going to end up being over $1 
billion in annual revenues just because of this other portion, 
so we need to be thoughtful about that. We would gladly take 
that other portion that currently is locked in, and you could 
give it to us for impact assistance, and I think that would be 
a great fix.
    Number two, studies permitting last year. We had asked for 
you all to include to for studies permitting, in particular 
Louisiana. We have an abundance of alligators. They are 
sustainably managed, in many cases on elevator farms, in other 
cases in the wild, but we have a very robust management program 
that ensures the sustainability. A domestic permitting system 
would be very helpful. You included language in the 
appropriations bill last year that allows any unobligated funds 
to be used for this purpose, but we would appreciate direct 
funding for a domestic studies program to where we can ensure 
the proper utilization of that resource that we have.
    Lastly, I just want to make note again, there is all this 
emotional discussion on climate change and energy sources, and 
certainly we have an obligation to ensure sustainable future 
for our Nation and our planet. The United States has reduced 
emissions more than the next 12 countries combined over the 
last 15 years. We have exceeded the objectives of the Obama 
Administration regarding the Clean Power Plan. He had intended 
to reduce emissions by 32 percent by 2030. We have reduced them 
from power sources by 34 percent last year, so we are already 
exceeding it with our domestic energy resources. And I urge as 
we move forward, that this subcommittee ensure that we have a 
thoughtful, balanced approach to how we address our sustainable 
energy future.
    With that, I yield back, and happy to take any questions.
    Ms. McCollum. Well, just thank you very much for your 
testimony. This committee is trying to make sure that we do 
things based on science.
    Mr. Graves. Absolutely.
    Ms. McCollum. I don't do things based on emotion, but I do 
base things on science. But this Administration has not been 
very forthcoming with making sure that we have the right 
scientists at the table. Climate change is real. It is 
something that we have to deal with.
    Mr. Graves. Absolutely.
    Ms. McCollum. You are in the eye of the hurricane literally 
with it, and I want to do everything I can to build in coastal 
resilience to make sure that your community and your 
constituents continue to thrive as well as some of the climate 
changes that we are seeing happening. I am from Minnesota. I am 
right up the river from you, right?
    Mr. Graves. That is right.
    Ms. McCollum. And our river hasn't gone down, and I am 
concerned about flooding in my district. But when I think about 
flooding in my district, believe it or not, at night I think 
about flooding in your district because I have been down there. 
I was just recently down there in Louisiana. Very concerned 
about it, so I am looking forward to making sure that we use 
the best science available for coastal resiliency for how we 
address climate change and some of the other things moving 
forward. So I really thank you for your testimony and for you 
being here today, and I learned a little something about 
alligators along the way, too. Mr. Joyce.
    Mr. Joyce. Thank you, Madam Chair, and thank you, Mr. 
Graves, for being here and for your advocacy on these issues. I 
can tell you that adding in on the north coast of America, I 
like to tell people on Lake Erie, we are suffering from the 
same problems with coastal erosion at a much more rapid pace 
than we ever felt before. So it is something we do need to 
address on a nationwide basis. Thank you for being here.
    Mr. Graves. Thank you. Madam Chair, just I want to thank 
you for recognizing the impact to Louisiana. The Mississippi 
drains, like, two-thirds of the United States, and most folks 
don't think about it. We don't put water into the Mississippi 
River for the most part. We don't. We are draining the Nation's 
water, and it is flooding our communities and impacting our 
fisheries.
    Ms. McCollum. And I am trying to send you clean water. 
Clean water.
    Mr. Graves. Feel free to keep more of it if you like. Thank 
you.
    Ms. McCollum. Thank you.
    Voice. Without Asian carp.
    Ms. McCollum. Without Asian carp. Well, we won't get to 
where they started from, so. Good morning Representative 
Jackson Lee.
    Ms. Jackson Lee. Good morning.
    Ms. McCollum. So wonderful to see you, and when you are 
ready, please start your testimony.
                              ----------                              

                                           Tuesday, March 10, 2020.

                                WITNESS

HON. SHEILA JACKSON LEE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
    Ms.Jackson Lee. Thank you. Good morning, Madam Chair. Good 
morning to the ranking member. Thank you for your courtesies in 
allowing me to be here.
    Let me, first of all, start with something that I am 
normally excited about, and, therefore, I am coming to the 
committee of importance, and that is the Emancipation Historic 
Trail Act, 434, that was, I think, passed because of the 
generosity and graciousness of my colleagues in meteoric time. 
It was passed out of the House and Senate and signed by the 
President of the United States. It is now law. It is only the 
second commemoration of history of African Americans in terms 
of a trail, and it is a trail commemorating the historic 
announcement by Captain Granger west of the Mississippi of all 
of those States that the slaves were free. It was 2 years later 
in 1863. And it is the only trail in the State of Texas that is 
solely contained in the State of Texas.
    I am respectfully asking this committee, as you did for the 
Sesquicentennial and as you did for 400 years of recognizing 
slavery, but in any event, that this particular trail be 
funded. Again, it is now law. I am not asking you to fund 
anything that has not been placed into law. And, as you have 
indicated to us, we needed to do everything that we had to do. 
Well, we did everything we had to do, which is to include the 
idea of the authorization and the passage by the House and 
Senate, and the signature of the President United States. So, 
Madam Chair, and to the ranking member, I would appreciate that 
being a top priority in terms of the funding from those 
particular accounts. And that is, again, H.R. 434, the 
Emancipation Historic Trail Act.
    I am in great support, and I will briefly just acknowledge 
the National Endowment for the Arts. We were in Alabama with 
the recognition of Bloody Sunday, and the representative or the 
head of the National Endowment of the Humanities was there, and 
it evidenced how important that work is in capturing the 
history of the United States. I support the HBCU Historic 
Preservation Program, would like to see if there would be, if I 
am looking at the number correctly, may be additional dollars 
to be placed in that. As you travel around, historic HBCUs, 
they are mostly 1800 colleges, meaning built in that time or 
before in the 1800s, and they are truly historic entities and 
need our help.
    I support the historic preservation funds of $95 million, 
the National Heritage Partnership as well, and I have others. 
And may I ask unanimous consent that the entirety of my 
statement be put in the record?
    Ms. McCollum. Without any objection.
    Ms. McCollum. Mr. Joyce.
    Mr. Joyce. None.
    Ms. McCollum. We will do that.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Jackson Lee. I support the $2 billion--thank you, Madam 
Chair--$2 billion for EPA Drinking Water State Revolving Fund. 
I am just coming out of Michigan. Flint, Michigan is not in my 
district obviously, but still in great need. I am in great 
support of the amounts for the EPA brownfield assessment, and 
if I have the number correct, I may want an increase in that 
funding.
    But I want to emphasize that in the last year, I discovered 
a cancer cluster in my congressional district. A thousand 
people were at a town hall meeting that I had. Three-quarters 
of them stood up and said they had a history of cancer, family 
members who died, and we are trying to make that particular 
area an EPA cleanup priority. And I would specifically like to 
make that request. It is called 5th Ward, Texas, around Liberty 
Road, and we will be seeking one of these cleanup grants, and 
would really appreciate recognizing that we are finding, you 
know, existing brownfields contaminated by creosote by Union 
Pacific Railroad over a 50-year period. I guess that is a 
little bit too long, but over a period of time that the family 
members are still alive who will get up and tell you mom died, 
aunt died, son died, have cervical cancer. It was absolutely 
overwhelming, and we are still trying to work with those 
individuals, and certainly we are not getting much help from 
those who it is attributed to.
    And I support the $82.5 million for the Office of Law 
Enforcement of Fish and Wildlife. I also support any funding 
dealing with preservation of endangered or threatened animal 
and plant species. I think we are at a loss when we don't 
recognize the importance of preservation of those elements, and 
as well for the Multinational Species Controversial 
Conservation Fund.
    So I thank you. I am particularly here with hands folded on 
the Emancipation Trail and particularly on the EPA brownfields. 
It is directly impacting both my community and my city. And I 
thank you all for allowing me this time.
    Ms. McCollum. Well, thank you. Thank you for your support 
of so many programs that this committee works very hard to 
fund. And, as you know, the President, when it comes to the 
arts and humanities, zeroed out. Your point to the HBCUs is 
well taken and has been something that was historically 
underfunded, as well as many other priorities that you have 
listed in this bill. So thank you, including you have even the 
preservation for the Japanese-American confinement sites. So 
thank you so much for your thoughtful notes on this. I think 
you agree with me, I need a bigger allocation.
    Ms. Jackson Lee. Yes, I will agree with you.
    Ms. McCollum. And I think Mr. Joyce would agree that we 
need a bigger allocation to do a lot of our good work. But 
thank you so much for your support in the work that we do, and 
we look forward to working with you in the weeks to come as we 
bring the bill to the floor. Mr. Joyce.
    Mr. Joyce. Thank you, Madam Chair, and thank you, Ms. 
Jackson Lee, for your time and testimony here this morning.
    Ms. Jackson Lee. Thank you. If I may be allowed a yield 
moment, Madam Chair, is there anything further that I need to 
do in my very conspicuous and open interest in H.R. 434, now a 
law that indicates the next steps for that to go forward, which 
is, you know, it is a study, yes.
    Ms. McCollum. Well, as you know, we are not allowed to do--

    Ms. Jackson Lee. Yes, very much so. Yes.
    Ms. McCollum [continuing]. Designated community interest 
programming funding, or, as people shorthand it up here, 
earmarks, which is just advocating for something in your 
district that is part of the law. I am not allowed to really do 
that either, so we will work on increasing trail funding, and 
then I am sure your constituents and others from the CBC, as 
well as your allies, like myself, will be making sure that the 
people in charge of that funding know we want to see that trail 
up and running and moving forward. So to the best of our 
ability, stay tuned, we are working on it.
    Ms. Jackson Lee. That is a superbly magnanimous response of 
which I am most grateful for. Thank you so very much.
    Ms. McCollum. Thank you. It is good to see you again.
    Miss Gonzalez-Colon. Thank you.
    Ms. McCollum. It was wonderful when you took us around in 
Puerto Rico and looked at the resilience of the Puerto Rican 
people in the face of two hurricanes, and our condolences. I 
had an opportunity, you have been so busy working, to reach out 
to you about the earthquakes and that. And so we want to hear 
how we can be more helpful to our fellow citizens in Puerto 
Rico.
    Miss Gonzalez-Colon. Thank you.
                              ----------                              

                                           Tuesday, March 10, 2020.

                                WITNESS

HON. JENNIFFER GONZALEZ COLON, A REPRESENTATIVE IN CONGRESS FROM THE 
    COMMONWEALTH OF PUERTO RICO
    Miss Gonzalez-Colon. Thank you. Thank you, Madam Chair, for 
your kind words and for visiting the island, and helping us as 
well as Mr. Joyce, helping us during the whole process, not 
just now, but during the last years. And thank you for 
providing me an opportunity to testify on some of Puerto Rico's 
priorities for Fiscal Year 2021 in terms of the Interior, and 
Environment, and Related Agencies.
    First of all, I would like to begin to respectfully request 
that the subcommittee provide robust funding for the U.S. 
Forest Service and Rangeland Research Account, also known as 
R&D. Among the research facilities funded under R&D is the 
International Institute of Tropical Forestry, which is 
headquartered in Rio Piedras, Puerto Rico, and has been in 
continuous operation since 1939. Despite being the Forest 
Service's smallest research unit, the International Institute 
of Tropical Forestry has been crucial in advancing our 
knowledge of tropical forests, wildlife, and watersheds at the 
local, national, and international levels.
    In the aftermath of Hurricane Maria, for instance, 
scientists from the institute assessed damage at El Yunque 
National Forest, which is the only tropical forest within the 
National Forest System, to learn how tropical ecosystems 
respond and recover from extreme weather events. The institute 
similarly helped conduct research on the sustainability of 
tropical forests on U.S. islands in the Pacific and the 
Caribbean, further contributing to our understanding of forest 
conditions across the Nation.
    The International Institute of Tropical Forestry has also 
been vital in supporting environmental conservation projects in 
Puerto Rico. Through its State and Private Forestry Unit, it 
has helped communities on the Island acquire community forests, 
and has provided technical assistance to farmers and landowners 
to improve the sustainability of their farms. Unfortunately, 
despite the importance of this work, the Forest Service's 
Fiscal Year 2021 budget request is proposing to close the 
International Institute of Tropical Forestry in Puerto Rico, 
along with the Pacific Southwest Research Station, whose area 
of responsibility includes California, Hawaii, and the U.S. 
Pacific Territories. While I recognize the need for budgetary 
savings, I strongly believe that closing these facilities would 
seriously hinder scientific production in these jurisdictions 
and will deprive the Forest Service of crucial research 
capabilities.
    I, therefore, respectfully request that the subcommittee 
reject the proposed closure of these facilities, especially the 
International Institute of Tropical Forestry in Puerto Rico, 
and instead provide no less than the Fiscal Year 2020 enacted 
level. I also ask that, as you craft the next Fiscal Year 2021, 
you provide robust funding for the operations and management of 
the National Park System, which includes the San Juan National 
Historic Site in Puerto Rico, and the National Forest System, 
which includes El Yunque National Forest, also on the Island.
    Additionally, I request strong support for the National 
Wildlife Refuge System. We have five national wildlife refuges 
on the Island: Cabo Rojo, Culebra, Desecheo, Laguna Cartagena, 
and Vieques National Wildlife Refuges. San Juan National 
Historic Site, El Yunque National Forest, and the five national 
wildlife refuges not only help preserve our historical and 
natural treasures, but they are also critical for Puerto Rico's 
economy, tourism, and outdoor recreation.
    Lastly, I respectfully request the highest possible level 
of funding for the U.S. Geological Survey for Earthquake 
Hazards Program, including the Advanced National Seismic System 
Regional Network Support. The Earthquake Hazards Program 
provides scientific information, situational awareness, and 
knowledge necessary to reduce deaths, injuries, and economic 
losses from earthquakes and earthquake-induced tsunamis, 
landslides, and soil liquefaction.
    In Puerto Rico, as one of the Nation's most seismically-
active jurisdictions, we know firsthand the importance of this 
program. Following the devastating earthquakes that impacted 
the southwestern region of the Island earlier this year, the 
U.S. Geological Survey, in conjunction with the Puerto Rico 
Seismic Network, one of the 11 regional networks within the 
Advanced National Seismic System, delivered rapid earthquake 
impact and situational awareness products to support emergency 
response efforts. I, therefore, request your support for these 
vital programs in the next fiscal year.
    With that, I yield back.
    Ms. McCollum. Thank you. Thank you very much for your 
testimony, and I know we still have a long ways to go with 
living up to the commitment to our fellow citizens in Puerto 
Rico, even from the devastating hurricane recovery from years 
ago. Your points about El Yunque and the international program 
for our tropical forestry, you know, it international in 
nature, but, as you pointed out, it is California, it is 
Hawaii, it is Puerto Rico, it is the Virgin Islands, it is U.S. 
territories. It is us, the U.S. government. So thank you so 
much for your support in enlightening us on that. I don't agree 
with the President's budget with zeroing out these programs, 
and we are going to work very hard to make sure that we sustain 
at the baseline level.
    And the work that is happening at El Yunque, you weren't 
able to join us for the entire trip, but when we went up and 
visited with the people, the parrots. And both the U.S. 
Forestry staff, Fish and Wildlife, and everybody who comes 
together to work on that and to watch the two wild parrots that 
had been released come back to where the parrot program was 
where they were breeding in captivity was heartbreaking. And so 
a lot of work had been done. We lost a lot of--I am using the 
word ``real'' because I became attached to the birds, too--lost 
a lot of birds. But birds are the bellwether as to what is 
happening with our climate, and we have to pay attention. We 
have to pay attention to what they are telling us.
    So thank you so much for your testimony. And, you know, I 
did not know how prone Puerto Rico was to earthquakes until I 
woke up and found out what had happened there, and I think that 
that just goes to show a lot of our Federal infrastructure 
needs not only to be hurricane resilient, but it needs to be 
earthquake resilient as well, too. So thank you for getting our 
attention that we need to make sure that the U.S. Geological 
Survey----
    Miss Gonzalez-Colon. Can I add something to that?
    Ms. McCollum. Please do.
    Miss Gonzalez-Colon. We were not aware of the seismic 
activity on the Island. Actually, we knew that in the north 
area, there is one of the faults, but it was not active since 
1918, so it was more than 100 years. So this take us for 
surprise on December 28th, last year, and the continued tremors 
and the small earthquakes are still happening. So the 
southwestern part of the Island, now, it was initially six 
towns that were included in the National Declaration of 
Disaster, and then it was expanded to 21 towns. And you can see 
the whole infrastructure has been damaged, the pipelines under 
the roads as well.
    So this is an ongoing situation. Most of the schools in 
those towns are completely destroyed, so there are no classes 
as we speak in many of those towns, and we are still dealing 
with moving people from those areas with vouchers with Section 
8 from Housing in the north part of the Island.
    So it was the Seismic Network in the U.S. Geological Survey 
that actually with boots on the ground is installing new 
equipment, making more surveys in conjunction with the 
University of Puerto Rico Mayaguez Campus, and they brought new 
alarms and systems where they never were before. So that is the 
importance of having the U.S. Geological Survey helping us out, 
identifying those areas in the south part of the Island that 
never were studied before.
    Ms. McCollum. Well, that is a lot of work that needs to be 
done. We continue to, to the best of our committee's ability, 
monitor to the Administration getting out some of the 
earthquake relief funds and trying to hold individuals 
accountable. It has been ongoing, and it is too slow, and then 
to have the earthquake on top of it. So please, on behalf of 
me, let my fellow citizens of Puerto Rico know that many of us 
are not just cheering for them, we are working for them right 
alongside of you.
    Miss Gonzalez-Colon. Thank you.
    Ms. McCollum. Mr. Joyce.
    Mr. Joyce. Thank you, Madam Chair, and thank you, Miss 
Gonzalez-Colon, for sharing your thoughts on several programs 
that are important to your constituents in Puerto Rico, 
including the Earthquake Hazards Program and the International 
Institute of Tropical Forestry. We certainly appreciate your 
being here and testifying as to the importance of those 
matters.
    Miss Gonzalez-Colon. Thank you. Thank you, sir. And thank 
you again, both of you and the committee, for the hard work 
during the last years. Now the FEMA Administration has been 
handling a lot of the issues in a good way in terms of the 
earthquake recovery. But, again, this is an ongoing situation, 
so we just need the tremors to stop, and that is something 
nobody can handle at this time. Thank you, and I yield back.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms.McCollum. So thank you very much. This concludes the 
hearing, and we stand adjourned until our next hearing on the 
Department of Interior budget request tomorrow, March 11th, 
2020. Thank you.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
